                        SIGTARP: Quarterly Report to Congress | July 21, 2010
                                                                                                           CT
                                                                                                      INSPE OR GE
                                                                                               AL                        N
                                                                                             CI




                                                                                                                         ER
                                                                                        E
                                                                                       SP




                                                                                                                            A L
                                                                                      TRO




                                                                                                                              M
                                                                                                                              RA
                                                                                       UB
                                                                                            LE




                                                                                                                         OG
                                                                                                 D
                                                                                                     ASS                 PR
                                                                                                           E T R ELIEF




SIGTARP
SIG-QR-10-03
                         Q3
                        2010
                                                                                SIGTARP                                            Office of the Special Inspector General
                                                                                                                                   for the Troubled Asset Relief Program
                                                                                Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                               Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                July 21, 2010
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                      3
	 Program Updates and Financial Overview	                                8
	 Tarp In Context: Financial Institution Support and Policies
  Outside of Tarp – 2010 Update	                                          9
	 Oversight Activities of SIGTARP	                                        9
	 SIGTARP Recommendations on the Operation of TARP	                      13
	 Report Organization	                                                   14

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                         15
	 Sigtarp Creation and Statutory Authority	                             17
	 SIGTARP Oversight Activities Since the April 2010 Quarterly Report	   17
	 The SIGTARP Organization	                                             31
	
Section 2 	
TARP overview	                                                           33
	 Homeowners Support Program 	                                           54
	 Financial Institution Support Programs	                                69
	 Asset Support Programs	                                                91
	 Automotive Industry Support Programs	                                 107
	 Executive Compensation	                                               111
	
Section 3 	
TARP IN CONTEXT: FINANCIAL INSTITUTION SUPPORT
  AND POLICIES OUTSIDE OF TARP — 2010 UPDATE	                           113
	 Summary of Financial Assistance Programs	                             115
	 Specific Interventions/Programs	                                      119
	 TARP Tutorial: How Banks Profit from Low Interest Rates	              150
	
Section 4     	
tarp operations and administration	                                                       159
	 TARP Administrative and Program Expenditures	                                           161
	 Current Contractors and Financial Agents	                                               162	

Section 5 	
SIGTARP Recommendations	                                                                  167
Recommendations Relating to Treasury’s Process for Selling
  Warrants Received from TARP Recipients 	                                                169
	 Recommendations Regarding the Home Affordable
  	 Modification Program (“HAMP”)	                                                        171
	 Recommendations Concerning Treasury’s Monitoring of
  	 Compliance with TARP Requirements by Companies
  	 Receiving Exceptional Assistance	                                                     180
	 Tracking the Implementation of Recommendations in
  	 Previous Reports	                                                                     182

	 Endnotes	                                                                               191

appendices
A. 	 Glossary*	                                                                           203
B. 	 Acronyms and Abbreviations*	                                                         205
C. 	 Reporting Requirements	                                                              208
D.	  Transaction Detail	                                                                  212
E. 	 Public Announcements of Audits*	                                                     260
F. 	 Key Oversight Reports and Testimonies*	                                              261
G. 	 Correspondence	                                                                      267
H. 	 Organizational Chart	                                                                284
	

* 	Visit www.sigtarp.gov to view Appendix A: Glossary, Appendix B: Acronyms and Abbreviations,
   Appendix E: Public Announcements of Audits, Appendix F: Key Oversight Reports and
   Testimonies, and for further reference material.
 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                                                      quarterly report to congress I july 21, 2010   5




EXECUTIVE SUMMARY
 It has been a remarkable quarter for the Troubled Asset Relief Program (“TARP”).
An investigation conducted by the Office of the Special Inspector General for the
Troubled Asset Relief Program (“SIGTARP”) resulted in criminal charges — in
one of the most significant criminal cases to arise from the financial crisis thus
far — against the former chairman of one of the largest mortgage lenders in the
country for his alleged involvement in a multi-billion dollar fraud that included an
attempt to steal more than $550 million of TARP funds, a scheme that was stopped
by SIGTARP with no loss to TARP. And the signs of the gradual winding down of
TARP are unmistakable: seven of the 13 TARP programs are effectively closed or
are closing; this quarter marked an important milestone, with more TARP money
having been repaid than is currently outstanding; and pending legislation would
both reduce the upper limit of TARP and prevent any new spending except on
programs already initiated prior to June 25, 2010.
     Notwithstanding this scaling back of TARP, an examination of the broader con-
text demonstrates that the overall Governmental efforts to stabilize the economy
have not diminished. Indeed, the current outstanding balance of overall Federal
support for the nation’s financial system, in actual expenditures and guarantees, in-
cluding ongoing initiatives run by the Federal Reserve System (“Federal Reserve”),
the Federal Deposit Insurance Corporation (“FDIC”), the Department of Treasury
(“Treasury”), the U.S. Department of Housing and Urban Development (“HUD”),
and other Federal agencies, has actually increased more than 23% over the past
year, from approximately $3.0 trillion to $3.7 trillion — the equivalent of a fully
deployed TARP program, largely without additional Congressional action — even
as the banking crisis has, by most measures, abated from its most acute phases.i
This increase has focused primarily on additional Government support of the
still-distressed housing market and the financial institutions whose fate has been
so closely tied to it throughout this crisis, with additional support of asset prices
and low interest rates (predominantly via the Government’s expanded role in the
mortgage market through increases in HUD programs and support of Federal
National Mortgage Association (“Fannie Mae”) and Federal Home Loan Mortgage
Corporation (“Freddie Mac”) ) more than offsetting the decline in amounts out-
standing under TARP and in the winding down of several Federal Reserve liquidity
programs. Updating work from SIGTARP’s July 2009 Quarterly Report, and at the
request of Senator Max Baucus, Section 3 of this report provides this broader per-
spective and analyzes how the Government’s overall financial support efforts have
changed over the past year.
i
    	As explained in further detail in Section 3 of this Report, this number is not intended to indicate the
     total amount of risk of loss to the Government because, among other things, many of the outstanding
     expenditures and guarantees are collateralized and there are areas of overlap among the various federal
     programs described. Please see Section 3, “TARP in Context: Financial Institutions Support and
     Policies Outside of TARP — 2010 Update” for a complete description of the methodology for calculat-
     ing this figure.
6   special inspector general I troubled asset relief program




                                            INCREMENTAL FINANCIAL SYSTEM SUPPORT,
                                            BY FEDERAL AGENCY SINCE 2007 ($ TRillions)
                                                                                                                                                                 Current
                                                                                                                                Balance as of
                                                                                                                                                            Balance as of
                                                                                                                                 6/30/2009
                                                                                                                                                             6/30/2010
                                           Federal Reserve                                                                                  $1.5a                         $1.7
                                           FDIC                                                                                                0.3                         0.3
                                           Treasury — TARP (including Federal Reserve, FDIC
                                                                                                                                               0.6                         0.3
                                           components)
                                           Treasury — Non-TARP                                                                                 0.3                         0.5
                                           Other: FHFA, NCUA, GNMA, FHA, VA                                                                    0.3                         0.8
                                           Total                                                                                             $3.0                       $ 3.7
                                           Notes: Numbers affected by rounding. Amounts may include overlapping agency liabilities, and does not account for collateral pledged.
                                           See the “Methodology for Estimating Government Financial Commitments” discussion in Section 3: “TARP in Context: Financial Institu-
                                           tions Support and Public Policies Outside of TARP — 2010 Update” of this report for details on the methodology of this chart. Other
                                           agencies include: FHFA, National Credit Union Administration (“NCUA”), Government National Mortgage Association (“GNMA”), Federal
                                           Housing Administration (“FHA”), and U.S. Department of Veterans Affairs (“VA”).
                                           a
                                             This amount has changed from last year’s report due to a change in methodology in accounting for the Federal Reserve’s Maiden Lane
                                             facilities. See notes to Table 3.2 in this report for further explanation.




                                               Over time, the shift in emphasis away from bank liquidity and toward hous-
                                           ing support has been reflected in TARP as well, with the bank–related programs
                                           winding down and TARP funds being repaid. Many of Treasury’s recent efforts have
                                           focused on the Home Affordable Modification Program (“HAMP”) and related
                                           foreclosure prevention initiatives. Unfortunately, HAMP continues to struggle to
                                           achieve its original stated objective, to help millions of homeowners avoid foreclo-
                                           sure “by reducing monthly payments to sustainable levels.” Despite a seemingly
                                           ever increasing array of HAMP-related initiatives designed to encourage participa-
                                           tion in the program, the number of homeowners being helped through permanent
                                           modifications remains anemic, with fewer than 400,000 ongoing permanent
                                           modifications (only approximately 165,000 of which are in connection with the
                                           TARP-funded portion of HAMP), and HAMP has not put an appreciable dent in
                                           foreclosure filings. Indeed, the number of trial and permanent modifications that
                                           have been cancelled substantially exceeds the number of homeowners helped
                                           through permanent modifications. One continuing source of frustration is that
                                           Treasury has rejected calls to announce publicly any goals or performance bench-
                                           marks for HAMP or its related initiatives concerning how many homeowners it
                                           actually expects to help stay in their homes, despite repeated recommendations that
                                           it do so from SIGTARP, the Congressional Oversight Panel and the Government
                                           Accountability Office (“GAO”). Instead, Treasury clings to its prior statements that
                                           it plans to offer trial modifications to three to four million homeowners, a measure
                                           that SIGTARP has previously shown to be essentially meaningless. Treasury’s refus-
                                           al to provide meaningful goals for this important program is a fundamental failure
                                           of transparency and accountability that makes it far more difficult for the American
                                           people and their representatives in Congress to assess whether the program’s
                                                                                quarterly report to congress I july 21, 2010   7




benefits are worth its very substantial cost. The American people are essentially
being asked to shoulder an additional $50 billion of national debt without being
told, more than 16 months after the program’s announcement, how many people
Treasury hopes to actually help stay in their homes as a result of these expendi-
tures, how many people are intended to be helped through other subprograms, and
how the program is performing against those expectations and goals. Without such
clearly defined standards, positive comments regarding the progress or success of
HAMP are simply not credible, and the growing public suspicion that the program
is an outright failure will continue to spread. Among other things, Section 2 of this
report details HAMP and its related programs, and Section 5 describes the status
of the numerous SIGTARP recommendations concerning HAMP that remain
outstanding. Section 5 also discusses the recommendations made in two SIGTARP
audits released this quarter, discussed further below, that also raised important
transparency and accountability issues.
    As noted above, this quarter has also definitively demonstrated that proactive
law enforcement efforts can play a vital role in protecting taxpayer’s interests. On
June 15, 2010, SIGTARP agents, along with law enforcement partners from several
other Federal agencies, executed an arrest warrant for Lee Bentley Farkas, the
chairman of Taylor, Bean & Whitaker, formerly one of the largest private mortgage
lending companies in the United States, in connection with a scheme involving
Colonial Bancgroup (“Colonial”), a large regional bank that was, until its demise
in the fall of 2009, TBW’s largest lender. Through an application submitted in
the fall of 2008 to TARP’s Capital Purchase Program (“CPP”), Colonial had been
conditionally approved for $553 million in TARP assistance, contingent upon,
among other things, raising $300 million in private capital. In April 2009, Colonial
announced that it had met this final condition based on Farkas’ representation
that he led an investment group that had raised the necessary capital. Within days
of this public announcement, SIGTARP issued subpoenas to both Colonial and
TBW concerning the capital raise, and, over the course of the next several months,
SIGTARP and its partners uncovered massive alleged frauds at both Colonial and
TBW, notwithstanding apparent attempts by members of the conspiracy to destroy
documents called for by SIGTARP’s subpoena. SIGTARP alerted Treasury of its
investigation, and Colonial did not receive TARP funds.
    Farkas was charged in the Eastern District of Virginia in a 16-count indictment,
including charges related to his attempt to steal $553 million from TARP through
Colonial’s fraudulent CPP application. Farkas allegedly participated, with co-con-
spirators at Colonial and TBW, in a massive accounting fraud that resulted in an
undisclosed hole in Colonial’s books and records and then later caused a false filing
by Colonial with the Securities and Exchange Commission (“SEC”) that falsely rep-
resented that Farkas had raised the $300 million in private financing for Colonial
8   special inspector general I troubled asset relief program




                                           required for Colonial’s TARP funding. He was also charged in an alleged fraud
                                           scheme involving more than $1.9 billion that contributed to the failures of Colonial
                                           Bank and TBW in 2009 and that victimized numerous other public and private
                                           institutions. Farkas was also charged by the SEC in a civil complaint with violations
                                           of the antifraud, reporting, internal controls, and books and records provisions of
                                           the Federal securities laws in connection with, among other things, the false claims
                                           intended to cause Treasury to disburse $553 million in TARP funds to Colonial.
                                           The Office of the Inspector General for the Department of Housing and Urban
                                           Development (“HUD OIG”) estimated that HUD losses from the scheme (includ-
                                           ing payments that had to be made based on Federal Housing Agency guarantees)
                                           may be in excess of $3 billion; the FDIC estimated that depositor insurance fund
                                           losses from Colonial’s failure, to which the scheme contributed, will be approxi-
                                           mately $2.84 billion. Because SIGTARP ensured that Treasury disbursed no TARP
                                           funds to Colonial, however, TARP suffered no loss.


                                           PROGRAM UPDATES AND FINANCIAL OVERVIEW
                                           TARP consists of 13 implemented programs, seven of which are already closed or
                                           are winding down. As of June 30, 2010, Treasury had expended or committed to
                                           expend approximately $498.3 billion through the 13 implemented programs to pro-
                                           vide support for U.S. financial institutions, the automobile industry, the markets in
                                           certain types of ABS, and homeowners. Of this amount, $386.2 has actually been
                                           expended. As of June 30, 2010, 87 TARP recipients had paid back all or a portion
                                           of their principal or repurchased shares for an aggregate total of $201.5 billion of
                                           repayments and a $5.0 billion reduction in exposure to possible further liabilities,
                                           leaving $407 billion, or 58.3%, of TARP’s current total (subject to the pending
                                           legislation) of $698.8 billion available for allocation.
                                               In addition to the principal repayments, Treasury has received interest and
                                           dividend payments on its investments, as well as revenue from the sale of its war-
                                           rants. As of June 30, 2010, the Government had received $15.7 billion in interest,
                                           dividends, and other income, and $7.0 billion in sales proceeds had been received
                                           from the sale of warrants and preferred stock received as a result of exercised war-
                                           rants. At the same time, some TARP participants have missed dividend payments:
                                           among CPP participants, 105 have missed dividend payments to the Government,
                                           although some of them made the payments on a later date. As of June 30, 2010,
                                           there was $157.7 million in outstanding unpaid CPP dividends.
                                                                                  quarterly report to congress I july 21, 2010   9




TARP IN CONTEXT: FINANCIAL INSTITUTION
SUPPORT AND POLICIES OUTSIDE OF TARP –
2010 UPDATE
As noted above, Section 3 of this report updates a summary of the financial institu-
tions assistance programs created or expanded because of the financial crisis was
initially presented in SIGTARP’s Quarterly Report to Congress dated July 21,
2009 (the “July 2009 Quarterly Report”). TARP was but one component of the
Government’s broad response to the financial crisis, and, in many instances, TARP
worked in concert with other Federal initiatives — either as a direct partner or as
another option for the banking sector. Section 3 attempts to place TARP in the
broader context of the Government’s overall response to the financial crisis. As in
the July 2009 Quarterly Report, SIGTARP includes three estimates for each sepa-
rate Federal Government program that was either initiated or expanded in response
to the financial crisis:  the program’s maximum potential commitment since the
onset of the crisis, its high-water mark (the maximum amount expended or guaran-
teed under the program at any one time), and the current outstanding balance of
actual expenditure or guarantees.


OVERSIGHT ACTIVITIES OF SIGTARP
Since the April 2010 Quarterly Report, SIGTARP has actively sought to fulfill its
audit and investigative functions. Over the past quarter, SIGTARP released two au-
dit reports plus an audit letter to Treasury, and another audit report will be released
almost concurrently with this Quarterly Report. A new audit project has been an-
nounced during the past quarter, and eight other previously announced audits are
in process and will be released in the coming months.

•	 Assessing Treasury’s Process to Sell Warrants Received from TARP
   Recipients: This audit report, developed in coordination with a parallel effort by
   the Congressional Oversight Panel, sought to determine, first, the processes and
   procedures Treasury has established to ensure that the Government receives fair
   market value for the warrants; and second, the extent to which Treasury follows
   a consistent and well-documented process in reaching its decision to sell war-
   rants back to TARP recipients. Released on May 11, 2010, the audit found that
   Treasury generally succeeded in negotiating prices for the warrants at or above
   its estimated value but identified two broad areas in which Treasury’s process for
   selling warrants directly to financial institutions is lacking in ways that impair
   transparency and have led to inconsistencies in the process. First, Treasury does
   not sufficiently document important parts of the negotiation process. Second,
   Treasury does not have established guidelines or internal controls over how the
10   special inspector general I troubled asset relief program




                                               negotiations proceed, and in particular how much information is shared with
                                               recipient institutions about price. Without taking steps to address these issues,
                                               Treasury may open itself to criticism that, through TARP, it favors some institu-
                                               tions over others – picking winners and losers – irrespective of whether it had
                                               legitimate reasons to take the positions it did.
                                            •	 Treasury’s Monitoring of Compliance with TARP Requirements by
                                               Companies Receiving Exceptional Assistance: Released on June 29, 2010,
                                               this audit examined the extent to which Treasury follows a clear, consistent
                                               and effective process to ensure that companies receiving exceptional TARP
                                               assistance adhere to the compliance requirements of their TARP agreements.
                                               It complemented other reports previously released as part of an ongoing joint
                                               effort between SIGTARP and GAO that touches on various aspects of the
                                               Government’s involvement in companies receiving exceptional assistance.
                                               SIGTARP reviewed Treasury’s efforts to ensure that recipients of exceptional
                                               TARP assistance comply with the conditions for receiving such assistance and
                                               Treasury’s progress toward developing and implementing a compliance strategy.
                                               SIGTARP found that, although there was some progress, Treasury’s implemen-
                                               tation of its compliance strategy has been slow and incomplete. As the taxpayer’s
                                               primary representative with respect to TARP, Treasury bears the responsibility
                                               of ensuring that each participant adheres faithfully to its obligations. To date,
                                               Treasury has not adequately carried out its responsibility in a number of key re-
                                               spects. First, Treasury’s compliance implementation has been too slow. Second,
                                               Treasury’s compliance procedures rely too heavily on the recipients themselves
                                               to abide by their various requirements in a diligent and well-judged manner.
                                               Third, Treasury’s compliance staffing levels continue to be inadequate. In sum,
                                               the audit found that Treasury has not adopted the rigorous approach or devel-
                                               oped the professional team necessary to ensure that companies receiving excep-
                                               tional TARP assistance adhere to the special restrictions that were imposed to
                                               protect taxpayer interests.
                                            •	 Treasury’s Compliance and Internal Controls Program for PPIP: On July 8,
                                               2010, SIGTARP delivered a letter to Treasury on the topic of compliance and
                                               internal controls for the Public-Private Investment Program (“PPIP”). Despite
                                               Treasury’s assurance that it would adopt SIGTARP’s previous compliance
                                               recommendation that it define appropriate metrics and implement an evalua-
                                               tion system to monitor PPIP managers’ effectiveness. And that it was developing
                                               such metrics and internal controls, essentially nothing was issued in the nearly
                                               one year since. Although Treasury informed SIGTARP in February 2010 that
                                               PPIP compliance policies and procedures would be developed within six weeks,
                                               in June it indicated that it will not complete these procedures until August.
                                               Consequently, SIGTARP has not seen the guidelines. However, SIGTARP made
                                               a series of suggestions for Treasury to adopt as it designs its compliance policies
                                               and procedures, as specified in the discussion in Section 1 of this report.
                                                                                quarterly report to congress I july 21, 2010   11




    Section 1 describes each of these audits in further detail, and Section 5 pro-
vides updates on the recommendations made in the audits. Section 1 also discusses
continuing and recently announced SIGTARP audits.
    SIGTARP’s Investigations Division has developed into a sophisticated white-
collar investigative agency. Through June 30, 2010, SIGTARP had 104 ongoing
criminal and civil investigations. Although much of SIGTARP’s investigative activity
remains confidential, over the past quarter, in addition to the Colonial/TBW indict-
ment discussed above, there have been significant public developments in several
of SIGTARP’s other investigations:

•	 American Home Recovery
   As part of the Department of Justice’s nationwide “Operation Stolen Dreams”
   mortgage fraud sweep, on June 17, 2010, the U.S. Attorney for the Southern
   District of New York charged Jaime Cassuto, David Cassuto, and Isaak Khafizov,
   principals of American Home Recovery (“AHR”), a mortgage modification
   company located in New York City, in a complaint with one count of conspiracy
   to commit mail and wire fraud related to a mortgage modification scam. They
   were arrested by Special Agents from SIGTARP and the Federal Bureau of
   Investigation. According to the complaint, salespeople employed by AHR sent
   unsolicited letters and e-mails offering assistance in securing loan modifications
   to homeowners who were having difficulty making their mortgage payments. For
   a fee, AHR offered to renegotiate the terms of the homeowners’ mortgages and
   obtain more favorable interest rates. AHR boasted a 98% success rate in loan
   modifications and promised homeowners their money back if it was unable to
   renegotiate their mortgages successfully. The complaint further alleges that, af-
   ter collecting hundreds of thousands of dollars in fees, AHR in fact did virtually
   nothing for homeowners and refused to refund the fees, as promised. In June
   2009, AHR transferred its hundreds of unfulfilled mortgage modification orders
   to another individual, indicating that he could attempt to collect additional fees
   from the homeowners. The complaint concludes that, in this manner, the defen-
   dants and AHR defrauded at least 240 victims. The case is pending.
•	 Nations Housing Modification Center
   On June 1, 2010, Glenn Steven Rosofsky pled guilty to a superseding infor-
   mation charging him with one count of conspiracy to commit wire fraud and
   money laundering, one count of money laundering, and one count of filing
   a false tax return. As reported in SIGTARP’s April 2010 Quarterly Report to
   Congress, on March 19, 2010, Rosofsky was arrested by special agents from
   SIGTARP and the Internal Revenue Service, Criminal Investigations Division
   and charged by the U.S. Attorney’s Office for the Southern District of California
   with one count of conspiracy to commit wire fraud and money laundering
   and one count of money laundering. According to the indictment, Rosofsky
12   special inspector general I troubled asset relief program




                                               and others operated a telemarketing firm ostensibly to assist delinquent hom-
                                               eowners with loan modification services. Operating under the names “Nations
                                               Housing Modification Center” and “Federal Housing Modification Department”
                                               they took criminal advantage of the publicity surrounding the Administration’s
                                               mortgage modification efforts under the TARP-related Making Home Affordable
                                               program using fraudulent statements to induce customers to pay $2,500-3,000
                                               each to purchase loan modification services. For example, the indictment alleges
                                               that they mailed solicitation letters in envelopes that deceptively bore a Capitol
                                               Hill return address (in fact merely a post office box) and that were designed to
                                               mimic official Federal correspondence. It is alleged in court documents that
                                               the fraud grossed more than $1 million. Rosofsky’s sentencing is scheduled for
                                               September 20, 2010.
                                            •	 Omni National Bank
                                               Omni National Bank (“Omni”) was a national bank headquartered in Atlanta. It
                                               failed and was taken over by the FDIC on March 27, 2009. Prior to its failure,
                                               Omni applied for, but did not receive, TARP funding. As part of a mortgage
                                               fraud task force involving several Federal agencies, SIGTARP participated in
                                               several investigations concerning Omni that led to criminal charges. SIGTARP’s
                                               involvement, including an examination into whether the various frauds had
                                               an impact on Omni’s CPP application, is ongoing. As a result of the Omni
                                               investigation, Mark Anthony McBride pled guilty to mortgage fraud on April
                                               4, 2010, and was sentenced to 16 years in Federal prison. On June 24, 2010,
                                               Christopher Loving pled guilty to making false statements to SIGTARP Special
                                               Agents about his knowledge of kickbacks to bank officials. This marks the first
                                               time that a defendant has been charged and convicted of making false state-
                                               ments to SIGTARP. These results follow up on three previous convictions
                                               related to Omni National Bank.

                                               Section 1: “The Office of the Special Inspector General for the Troubled Asset
                                            Relief Program” of this report describes each of these investigations in further
                                            detail.
                                                                               quarterly report to congress I july 21, 2010   13




SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effec-
tive oversight and transparency and to prevent fraud, waste, and abuse. Section 5
provides updates on existing recommendations and summarizes implementation
measures for previous recommendations.
    This quarter, Section 5 features discussion about Treasury’s transparency
measures and process controls as they relate to two matters: the Government’s
repurchases of warrants it received from TARP recipients and its responsibility to
monitor compliance with TARP requirements by companies receiving exceptional
assistance under TARP. On the topic of warrants sales, SIGTARP reviews both its
original recommendations and Treasury’s subsequent response. Although Treasury
has indicated that it will adopt SIGTARP’s recommendation that its Warrants
Committee meeting minutes capture more detail, it has not committed to detailed
documentation of the substance of all communications with recipients concern-
ing warrant repurchases, or to developing and following guidelines and internal
controls concerning how negotiations will be pursued. SIGTARP’s recommenda-
tions on Treasury’s monitoring of exceptional assistance recipients’ compliance with
TARP requirements also highlight the importance of internal controls. Although
Treasury has not responded in full, it has indicated that it will reject SIGTARP’s
recommendations that it swiftly take steps to verify independently these companies’
compliance with the conditions contained in their agreements with Treasury and
that it at least establish firm guidelines so that the companies do not have such
broad discretion in deciding whether to report a violation or not.
    Additionally, Section 5 examines key points of Treasury’s response to
SIGTARP’s recommendations regarding HAMP. SIGTARP reiterates the need for
meaningful benchmarks to judge HAMP’s effectiveness, particularly in light of the
major public expenditure it represents. SIGTARP also examines Treasury’s unsat-
isfactory arguments for its current policy of leaving the availability to borrowers
of the recently announced Principal Reduction Alternative (“PRA”) to servicers’
discretion and its equally unconvincing explanation regarding its policies regarding
the length of the minimum term for HAMP’s unemployment forbearance program.
Finally, SIGTARP reemphasizes the need for a rigorous appraisal process in HAMP,
particularly for those aspects of the program most vulnerable to valuation fraud.
14   special inspector general I troubled asset relief program




                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds thus far and contains an
                                               explanation or update of each program, both implemented and announced.
                                            •	 Section 3 provides an update of July 2009’s overview of financial institution sup-
                                               port and policies outside of TARP.
                                            •	 Section 4 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 5 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through June 30, 2010.
                                                The goal is to make this report a ready reference on what TARP is and how it
                                            has been used to date. In the interest of making this report as understandable as
                                            possible, and thereby furthering general transparency of the program itself, certain
                                            technical terms are highlighted in the text and defined in the adjacent margin. In
                                            addition, a portion of Section 3 is devoted to a tutorial explaining the effect of low
                                            interest rates on bank profitability.
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
16   special inspector general I troubled asset relief program
                                                                                  quarterly report to congress I july 21, 2010   17




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.


SIGTARP OVERSIGHT ACTIVITIES SINCE THE APRIL
2010 QUARTERLY REPORT
SIGTARP has continued to fulfill its oversight role on multiple parallel tracks: inves-
tigating allegations of fraud, waste, and abuse in TARP programs; auditing various
aspects of TARP and TARP-related programs and activities; coordinating closely with
other oversight bodies; and striving to promote transparency in TARP programs.

SIGTARP’s Investigations Activity
SIGTARP’s Investigations Division has developed into a sophisticated white-collar
investigative agency. Through June 30, 2010, SIGTARP had 104 ongoing crimi-
nal and civil investigations. These investigations concern suspected TARP fraud,
accounting fraud, securities fraud, insider trading, bank fraud, mortgage fraud,
mortgage-servicer misconduct, fraudulent advance-fee schemes, public corruption,
false statements, obstruction of justice, trade secrets theft, money laundering, and
tax-related investigations. Although the majority of SIGTARP’s investigative activity
remains confidential, over the past quarter there have been significant public devel-
opments in several of SIGTARP’s investigations.

Colonial Bancgroup/Taylor, Bean & Whitaker
On June 15, 2010, SIGTARP agents, along with their law enforcement partners
from the Federal Bureau of Investigation (“FBI”), the Office of the Inspector
General of the Federal Deposit Insurance Corporation (“FDIC OIG”), the Office
of the Inspector General of the Department of Housing and Urban Development
18   special inspector general I troubled asset relief program




                                            (“HUD OIG”), and the Internal Revenue Service Criminal Investigations Division
                                            (“IRS-CI”), executed an arrest warrant for Lee Bentley Farkas, the chairman of
                                            Taylor, Bean & Whitaker (“TBW”), formerly one of the largest private mortgage
                                            lending companies in the United States, in connection with a scheme involving
                                            Colonial Bancgroup (“Colonial”), a large regional bank that was, until its demise in
                                            the fall of 2009, TBW’s largest lender.
                                                In the fall of 2008, Colonial applied for $570 million in taxpayer funding
                                            through TARP’s Capital Purchase Program (“CPP”). As with all CPP applications,
                                            Colonial submitted financial data and filings to Federal bank regulators. Based on
                                            these representations, the Treasury Department (“Treasury”) conditionally approved
                                            Colonial for $553 million in TARP funds, contingent upon, among other things,
                                            Colonial raising $300 million in private capital. A review of the circumstances of
                                            Colonial’s application and its announcement that it had received TARP approval
                                            led SIGTARP to open an investigation in concert with the Securities and Exchange
                                            Commission (“SEC”). In April 2009, in a filing with the SEC, Colonial announced
                                            that it had met its final condition to receive TARP funding based on Farkas’ repre-
                                            sentation that he led an investment group that had raised $300 million to invest in
                                            Colonial.
                                                Within days of this public announcement, SIGTARP issued subpoenas to both
                                            Colonial and TBW, and, over the course of the next several months, SIGTARP and
                                            its partners uncovered massive alleged frauds at both Colonial and TBW, despite
                                            apparent attempts by members of the conspiracy to destroy documents called for
                                            by SIGTARP’s subpoena. SIGTARP alerted Treasury of its investigation to ensure
                                            that no TARP funds would be disbursed to Colonial and referred the case to the
                                            Department of Justice (“DOJ”) for prosecution. In August 2009, DOJ secured a
                                            search warrant for the offices of TBW and Colonial in Florida that was executed by
                                            SIGTARP, FBI, FDIC OIG, and HUD OIG, and supported by the Financial Crimes
                                            Enforcement Network. Ultimately, Colonial did not receive any TARP funds.
                                                Farkas was charged in the Eastern District of Virginia in a 16-count indictment
                                            that included charges of conspiracy to commit bank, wire, and securities fraud;
                                            and substantive bank fraud, wire fraud, and securities fraud. Among other things,
                                            Farkas was charged for his role in attempting to steal $553 million from TARP
                                            through Colonial’s fraudulent CPP application, as part of his alleged participation
                                            in a massive accounting fraud that resulted in an undisclosed hole in Colonial’s
                                            books and records, and for later causing a false filing by Colonial with the SEC
                                            that falsely represented that Farkas had raised $300 million in private financing for
                                            Colonial, a requirement for Colonial to obtain TARP funding. He was also charged
                                            in an alleged fraud scheme involving more than $1.9 billion that contributed to the
                                            failures of Colonial Bank and TBW in 2009 and that victimized numerous other
                                            public and private institutions. On the same day, Farkas was charged by the SEC
                                            in a civil complaint with violations of the antifraud, reporting, internal controls,
                                                                                  quarterly report to congress I july 21, 2010   19




and books and records provisions of the Federal securities laws in connection with,
among other things, the allegedly false claims that nearly led Treasury to disburse
$553 million in TARP funds to Colonial.
    Specifically, as alleged in the indictment, Farkas and his co-conspirators (includ-
ing Colonial executives) caused Colonial to purchase from TBW more than $400
million in what amounted to fake mortgage loan assets, including loans that TBW
had already sold to other investors, and fake interests in pools of loans. Farkas
and his co-conspirators allegedly caused Colonial Bank to hold these purported
assets on its books at face value when in fact the mortgage loan assets were often
worthless. According to court documents, Farkas and his co-conspirators at TBW
also misappropriated hundreds of millions of dollars from Ocala Funding, LLC
(“Ocala Funding”), a TBW-related entity controlled by Farkas. Ocala Funding sold
asset-backed commercial paper to financial institution investors and was required
to maintain collateral in the form of cash and/or mortgage loans that were at least
equal to the value of the outstanding commercial paper. Farkas and his co-conspir-
ators allegedly diverted cash from Ocala Funding to TBW to cover TBW’s operat-
ing losses, and, as a result, created significant deficits in the amount of collateral
Ocala Funding possessed to back the outstanding commercial paper. To cover up
the diversions, the conspirators allegedly sent false information to Ocala Funding’s
investors, misleading them into believing that they had sufficient collateral back-
ing their commercial paper. According to court documents, by in or about August
2009, when TBW failed, two of these investors held approximately $1.68 billion in
Ocala Funding commercial paper that, in reality, was only collateralized by approxi-
mately $150 million in cash and mortgage loans. These investor banks were unable
to redeem their commercial paper for full value.
    HUD IG estimated that HUD losses from the scheme — from payments that
had to be made based on FHA guarantees — may be in excess of $3 billion; the
FDIC estimated that depositor insurance fund losses from Colonial’s failure, to
which the scheme contributed, will be approximately $2.8 billion. Fortunately,
because SIGTARP ensured that Treasury disbursed no TARP funds to Colonial,
TARP suffered no loss.
    Farkas’s trial is scheduled to commence on November 1, 2010. The investiga-
tion is ongoing.

Nations Housing Modification Center
On June 1, 2010, Glenn Steven Rosofsky pled guilty to a superseding information
charging him with one count of conspiracy to commit wire fraud and money laun-
dering, one count of money laundering, and one count of filing a false tax return.
As reported in SIGTARP’s Quarterly Report to Congress, dated April 10, 2010 (the
“April 2010 Quarterly Report”), on March 19, 2010, Rosofsky was arrested by spe-
cial agents from SIGTARP and IRS-CI and charged by the U.S. Attorney’s Office
20   special inspector general I troubled asset relief program




                                            for the Southern District of California with one count of conspiracy to commit
                                            wire fraud and money laundering, and one count of money laundering. According
                                            to the indictment against him, Rosofsky and others operated a telemarketing
                                            firm, ostensibly to assist delinquent homeowners with loan modification services.
                                            Operating under the names “Nations Housing Modification Center” and “Federal
                                            Housing Modification Department,” they took criminal advantage of the publicity
                                            surrounding the Administration’s mortgage modification efforts under the TARP-
                                            related Making Home Affordable program, using fraudulent statements to induce
                                            customers to pay $2,500­­­–$3,000 each to purchase loan modification services that
                                            were never delivered. For example, the indictment alleges that they mailed solicita-
                                            tion letters in envelopes that deceptively bore a Capitol Hill return address (in fact
                                            merely a post office box) and that were designed to mimic official Federal corre-
                                            spondence. It is alleged in court documents that the fraud grossed more than
                                            $1 million.
                                                Rosofsky’s sentencing is scheduled for September 20, 2010.	

                                            American Home Recovery
                                            As part of DOJ’s nationwide “Operation Stolen Dreams” mortgage fraud sweep, on
                                            June 17, 2010, the U.S. Attorney for the Southern District of New York charged
                                            three people — Jaime Cassuto, David Cassuto, and Isaak Khafizov, principals of
                                            American Home Recovery (“AHR”), a mortgage modification company located in
                                            New York City — in a complaint with one count of conspiracy to commit mail and
                                            wire fraud related to a mortgage modification scam. They were arrested by Special
                                            Agents from SIGTARP and the FBI.
                                                According to the complaint, salespeople employed by AHR sent unsolicited
                                            letters and emails offering assistance in securing loan modifications to homeowners
                                            who were having difficulty making their mortgage payments. For a fee, AHR offered
                                            to renegotiate the terms of the homeowners’ mortgages and obtain more favorable
                                            interest rates. AHR boasted a 98% success rate in loan modifications and promised
                                            homeowners their money back if it was unable to renegotiate their mortgages suc-
                                            cessfully. The complaint further alleges that, after collecting hundreds of thousands
                                            of dollars in fees, AHR in fact did virtually nothing for homeowners and refused to
                                            refund the fees, as promised. In June 2009, AHR allegedly transferred its hundreds
                                            of unfulfilled mortgage modification orders to another individual, indicating that
                                            he could attempt to collect additional fees from the homeowners. The complaint
                                            charges that, in this manner, the defendants and AHR defrauded at least 240 vic-
                                            tims. The case is pending.

                                            Omni National Bank
                                            Omni National Bank (“Omni”) was a national bank headquartered in Atlanta
                                            with branch offices in Birmingham, Alabama; Tampa, Florida; Fayetteville,
                                                                                 quarterly report to congress I july 21, 2010   21




North Carolina; Houston and Dallas, Texas; Chicago, Illinois; and Philadelphia,
Pennsylvania. Omni failed and was taken over by the FDIC on March 27, 2009.
Prior to its failure, Omni applied for, but did not receive, TARP funding under
CPP. SIGTARP participated in several investigations concerning Omni that led to
criminal charges as part of a mortgage fraud task force that includes SIGTARP, the
U.S. Attorney’s Office for the Northern District of Georgia, FDIC OIG, HUD OIG,
the U.S. Postal Inspection Service (“USPIS”), and the FBI. SIGTARP’s involve-
ment, including an examination into whether the various frauds had an impact on
Omni’s CPP application, is ongoing.
     As a result of the Omni investigation, Mark Anthony McBride pled guilty to
mortgage fraud on April 4, 2010, and was sentenced to 16 years in Federal prison.
On June 24, 2010, Christopher Loving pled guilty to making false statements to
SIGTARP Special Agents about his knowledge of kickbacks to bank officials. This
marks the first time that a defendant has been charged with making false statements
to SIGTARP. These results follow up on three previous convictions related to Omni
National Bank. In March, Brent Merriell pled guilty in Federal District Court to
charges of making false statements to the FDIC and six counts of aggravated iden-
tity theft in connection with a scheme to prompt Omni to forgive $2.2 million in
loans. In January, Jeffrey Levine, Omni’s former executive vice president, pled guilty
to charges of causing material overvaluations of bank assets in the books, reports,
and statements that were later presented as part of Omni’s TARP application. In
December 2009, Delroy Davy pled guilty to bank fraud and conspiracy charges.
Sentencing for Merriell, Davy, and Levine is scheduled for August 2010.

Rescue Fraud Working Group of the President’s Financial Fraud
Enforcement Task Force
As previously reported, President Obama established the Financial Fraud
Enforcement Task Force (“FFETF”), which is designed “to investigate and pros-
ecute significant financial crimes and other violations relating to the current finan-
cial crisis and economic recovery efforts, recover the proceeds of such crimes and
violations, and ensure just and effective punishment of those who perpetrate finan-
cial crimes and violations.” A component of FFETF is the Rescue Fraud Working
Group, which SIGTARP co-chairs with Treasury and DOJ’s Criminal Division.
On June 24, 2010, Special Inspector General Barofsky briefed the FFETF on the
Rescue Fraud Working Group’s activities.

SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and thus provide a simple, accessible way for the American public to report
concerns, allegations, information, and evidence of violations of criminal and
civil laws in connection with TARP. From its inception in February 2009 through
22   special inspector general I troubled asset relief program




                                            June 30, 2010, the SIGTARP Hotline received and analyzed more than 14,000
                                            contacts. These contacts run the gamut from expressions of concern over the
                                            economy to serious allegations of fraud involving TARP, and a substantial number
                                            of SIGTARP’s investigations were generated in connection with Hotline tips. The
                                            SIGTARP Hotline can receive information anonymously. SIGTARP honors all
                                            applicable whistleblower protections and will provide confidentiality to the fullest
                                            extent possible. SIGTARP urges anyone aware of waste, fraud or abuse involving
                                            TARP programs or funds, whether it involves the Federal Government, state and
                                            local entities, private firms or individuals, to contact its representatives at 877-SIG-
                                            2009 or www.sigtarp.gov.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated a total of 22 audits since its inception. Over the past quar-
                                            ter, SIGTARP released two audit reports, issued one audit letter to Treasury con-
                                            taining suggestions about designing a compliance protocol for the Public-Private
                                            Investment Program (“PPIP”), and announced a new audit project. Eight other
                                            previously announced audits are in process, and SIGTARP anticipates releasing
                                            reports on those audits in the coming months.

                                            Assessing Treasury’s Process to Sell Warrants Received from TARP
                                            Recipients
                                            On May 11, 2010, SIGTARP released its audit report, “Assessing Treasury’s
                                            Process to Sell Warrants Received from TARP Recipients.” Most banks participat-
                                            ing in TARP issued warrants providing Treasury, for publicly traded banks, the right
                                            to purchase the banks’ common stock at a predetermined price. These warrants
                                            have an economic value and may be sold before expiration to add to the return
                                            Treasury realizes on its TARP investments.
                                                 Once a publicly traded bank pays back its TARP investment, Treasury un-
                                            dertakes a process for the sale of the bank’s warrants, either directly back to the
                                            bank through negotiation or to third parties through an auction. If a bank decides
                                            to repurchase its warrants, Treasury assesses the bank’s bid for the warrants to
                                            determine whether it reflects fair market value. Treasury conducts this assessment
                                            by arriving at an internal estimated value for the warrants that references market
                                            quotes, financial modeling valuations, and third-party estimates. Treasury’s Warrant
                                            Committee recommends whether to accept the offer, and the Assistant Secretary
                                            for Financial Stability makes the final decision. If a price cannot be negotiated, or
                                            if the bank elects to forgo the process of buying the warrants directly, the warrants
                                            are auctioned publicly.
                                                 Conducted in response to requests from Senator Jack Reed and Representative
                                            Maurice Hinchey, this audit, which was done in coordination with a parallel effort
                                            by the Congressional Oversight Panel, sought to determine, first, the processes and
                                                                                 quarterly report to congress I july 21, 2010   23




procedures Treasury has established to ensure that the Government receives fair
market value for the warrants; and second, the extent to which Treasury follows a
consistent and well-documented process in reaching its decision to sell warrants
back to TARP recipients. The audit found that Treasury generally succeeded in
negotiating prices for the warrants at or above its estimated value: of the 33 public
company warrant repurchases analyzed, 20 of the final negotiated prices were at or
above Treasury’s estimated value, and nine of the final negotiated prices were just
below the estimated value.
    The audit, however, identified two broad areas in which Treasury’s process
for selling warrants directly to financial institutions is lacking in ways that im-
pair transparency and have led to inconsistencies in the process. The first is that
Treasury does not sufficiently document important parts of the negotiation process:
the substantive reasons for Warrant Committee decisions are not reflected in its
meeting minutes, and negotiations between Treasury and recipient institutions are
not documented. This lack of documentation makes it impossible to test whether
Treasury is fairly and consistently making decisions that could mean a difference of
tens of millions of dollars for taxpayers.
    Second, Treasury does not have established guidelines or internal controls over
how the negotiations proceed and, in particular, as to how much information is
shared with recipient institutions about the price Treasury will likely accept for the
warrants. Descriptions provided to SIGTARP by several of the banks that engaged
in negotiations with Treasury confirmed that Treasury was willing to provide de-
tailed information about its estimates to certain banks but was unwilling to share
similar details with others. Moreover, although Treasury indicated that it generally
would not provide an indication of its valuation until the institution’s bid was close
and the Assistant Secretary stated that Treasury generally engaged in a strategy
not to provide specific valuation numbers because it would give away key negotiat-
ing leverage, the cases examined in detail in the audit simply do not bear this out.
Indeed, the amount of information provided, the circumstances of when informa-
tion would be provided, and the results of the negotiation varied widely.
    Without taking steps to address these issues, Treasury may open itself to criti-
cism that, through TARP, it favors some institutions over others — picking winners
and losers — irrespective of whether it had legitimate reasons to take the negotiat-
ing positions that it did. SIGTARP acknowledges that every case is different and
that Treasury needs to have some flexibility to address each particular situation.
However, without some objective guidelines and internal controls to ensure those
guidelines are followed, Treasury may find it difficult to defend itself convinc-
ingly against charges of arbitrariness or favoritism. In light of these conclusions,
SIGTARP made the following recommendations, which are discussed in more
detail in Section 5: “SIGTARP Recommendations” in this report:
24   special inspector general I troubled asset relief program




                                            •	 Treasury should ensure that more detail is captured by the Warrant Committee
                                               meeting minutes. At a minimum, the minutes should include the members’
                                               qualitative considerations regarding the reasons bids were accepted or rejected
                                               within fair market value ranges.
                                            •	 Treasury should document, in detail, the substance of all communications with
                                               recipients concerning warrant repurchases.
                                            •	 Treasury should develop and follow guidelines and internal controls concerning
                                               how negotiations will be pursued, including the degree and nature of informa-
                                               tion to be shared with repurchasing institutions concerning Treasury’s valuation
                                               of the warrants.

                                                Treasury’s response to these recommendations, dated June 11, 2010,
                                            is discussed in detail in Section 5 and is reproduced in full in Appendix G:
                                            “Correspondence.”

                                            Treasury’s Monitoring of Compliance with TARP Requirements by
                                            Companies Receiving Exceptional Assistance
                                            Conducted as part of a broader audit project examining corporate governance
                                            issues, as requested by Senate Finance Committee Chairman Max Baucus, this
                                            audit, released on June 29, 2010, examined the extent to which Treasury follows a
                                            clear, consistent, and effective process to ensure that companies receiving excep-
                                            tional TARP assistance adhere to the requirements of their TARP agreements,
                                            including those regarding internal controls and compliance reporting, executive
                                            compensation, expense policies, and lobbying. The audit complemented other
                                            reports previously released as part of an ongoing joint effort by SIGTARP and the
                                            Government Accountability Office (“GAO”) that touches on various aspects of the
                                            Government’s involvement in companies receiving exceptional assistance.
                                                 Pursuant to prior SIGTARP recommendations, Treasury required each com-
                                            pany receiving exceptional TARP assistance (including American International
                                            Group, Inc. (“AIG”); Citigroup Inc.; Bank of America Corp.; General Motors Co.
                                            (“GM”); GMAC Inc.; and Chrysler Holding LLC (“Chrysler”) to establish inter-
                                            nal controls to ensure compliance with key TARP requirements and to provide
                                            Treasury with certifications verifying compliance on a quarterly basis. In this audit,
                                            SIGTARP reviewed Treasury’s efforts to ensure that these companies comply with
                                            the conditions for receiving such assistance and Treasury’s progress toward develop-
                                            ing and implementing a compliance strategy. SIGTARP found that, although there
                                            was some progress, Treasury’s implementation of its compliance strategy has been
                                            slow and incomplete. As the taxpayer’s primary representative with respect to TARP,
                                            Treasury bears the responsibility of ensuring that each participant adheres faithfully
                                            to its obligations. To date, Treasury has not adequately carried out this responsibil-
                                            ity in a number of key respects.
                                                                                    quarterly report to congress I july 21, 2010   25




    First, Treasury’s compliance implementation has been too slow, requiring from
6 to 14 months after the companies’ obligations commenced to even request the
companies’ compliance frameworks, and 7 to 15 months to meet initially with the
companies’ compliance officials. Treasury has only begun its review of three of the
six companies’ audit documentation and does not expect to complete this final step
for the remaining three firms until well over a year after their entry into TARP. In
the context of companies that might not have survived absent TARP’s infusion of
tens of billions of taxpayer dollars, the risks (both financial and to the credibility of
the Government’s stabilization efforts) posed by such companies’ non-compliance
with these important conditions are too great to countenance such delays.
    Second, Treasury’s compliance procedures rely too heavily on the recipients
themselves. To date, decisions on whether a violation is serious enough to report
have effectively been left to the companies, and thus Treasury has relied upon
TARP participants (and sometimes upon the same managers who presided over a
company as it reached the brink of failure) to abide by their various requirements
in a diligent and well-judged manner. Treasury has not provided basic guidance
on materiality standards for compliance breaches, for example, and has no plans
to conduct its own audits or otherwise test these companies’ compliance indepen-
dently. Under these circumstances, only one extraordinary assistance recipient
(AIG) has reported violations to Treasury, and, even then, AIG’s reporting was made
months after the events in question and included an unconvincing explanation
of one of the violations (regarding the chief executive officer’s personal use of the
corporate jet) in its report.
    Third, Treasury’s compliance staffing levels continue to be inadequate. Although
the compliance unit of Treasury’s Office of Financial Stability (“OFS”) has added
staff over time, a shortage of qualified compliance personnel persists. Indeed,
Treasury officials stated they would like to add 15 compliance staff members
but have been unable to do so. Twenty months into its administration of TARP,
Treasury simply has no legitimate excuses as to why it has failed to accomplish the
critically important task of assembling a robust compliance staff.
    In sum, Treasury has not adopted the rigorous approach or developed the
professional team necessary to ensure that companies receiving exceptional
TARP assistance adhere to the special restrictions that were imposed to protect
taxpayer interests. In light of these conclusions, SIGTARP made the following
recommendations, which are discussed in more detail in Section 5: “SIGTARP
Recommendations” in this report:

•	 First, Treasury should promptly take steps to verify TARP participants’ confor-
   mance to their obligations, not only by ensuring that they have adequate compli-
   ance procedures but also by independently testing participants’ compliance.
•	 Second, Treasury should develop guidelines that apply consistently across
26   special inspector general I troubled asset relief program




                                               TARP participants for when a violation is sufficiently material to merit report-
                                               ing, or, in the alternative, require that all violations be reported.
                                            •	 Third, SIGTARP reiterates its previous recommendation concerning the need to
                                               add enough infrastructure and staff at OFS-Compliance to ensure TARP recipi-
                                               ents’ adherence to their compliance obligations.

                                                While Treasury deferred responding in detail to the recommendations for 30
                                            days, it informed SIGTARP that it strongly disagreed with the first 2 recommenda-
                                            tions and only partially agreed with the third.
                                                Both SIGTARP and GAO have ongoing work that will provide additional in-
                                            sights into the role the Government has played in these companies, and SIGTARP
                                            anticipates announcing additional audit work in the coming months building on
                                            the joint GAO/SIGTARP effort represented by these reports.

                                            Treasury’s Compliance and Internal Controls Program for PPIP
                                            On July 8, 2010, SIGTARP delivered a letter to Treasury on the topic of compli-
                                            ance and internal controls for PPIP. In it, SIGTARP reviewed its previous PPIP
                                            compliance recommendation from its Quarterly Report to Congress dated July 21,
                                            2009 (the “July 2009 Quarterly Report”), that Treasury define appropriate metrics
                                            and implement an evaluation system to monitor PPIP managers’ effectiveness, both
                                            to ensure that they are fulfilling the terms of their agreements and to measure their
                                            performance. The July 2009 Quarterly Report further noted that, without stan-
                                            dardized policies and procedures, including written guidance as to how Treasury
                                            would evaluate and test the compliance with program rules of each Public-Private
                                            Investment Fund (“PPIF”) manager, it is unclear how Treasury can consistently
                                            and properly identify and act on any potential risk to the program. The report went
                                            on to caution that expecting PPIF managers to design adequate policies without
                                            detailed guidance would not be appropriate in light of the risk of conflicts of inter-
                                            est inherent in PPIP’s design.
                                                Despite Treasury’s assurance that it would adopt this recommendation and
                                            was developing such metrics and internal controls, essentially nothing was issued
                                            in the nearly one year since. Although Treasury informed SIGTARP in February
                                            2010 that PPIP compliance policies and procedures would be developed within six
                                            weeks, in June it indicated that it will not complete these procedures until August.
                                            Consequently, SIGTARP has not seen the guidelines. However, SIGTARP sug-
                                            gested that, as Treasury designs its compliance policies and procedures, Treasury
                                            should take the following steps:

                                            •	 promulgate guidelines to evaluate and test for conflicts of interest among PPIF
                                               managers
                                                                                  quarterly report to congress I july 21, 2010   27




•	 develop plans to review PPIF managers’ conformance to other key provisions of the
   governing documentation, such as the recordkeeping and trade and fee restrictions
•	 develop a framework addressing how Treasury will detect and report potential
   fraud or other possible securities law violations, including clear guidance on
   how to test for them, how to address any that are found, and who is responsible
   for supervision of this process

    In addition, SIGTARP suggested that Treasury follow up on its evaluation of
each PPIF manager’s internal controls during the initial selection process with an
operational review, perhaps assisted by The Bank of New York Mellon as the PPIFs’
third-party administrator, custodian, and valuation agent, in order to analyze and
determine each PPIF manager’s adherence to its own internal control require-
ments and those of the governing documentation. These reviews would supplement
PPIF managers’ self-certification, which SIGTARP considers an important but not
sufficient part of a robust compliance framework. Treasury should focus on the
following areas:

•	 Compliance Program: reviewing the PPIF managers’ policies and procedures for
   effectiveness
•	 Portfolio Management: evaluating how the PPIF managers select securities and
   conduct their risk management
•	 Valuation: assessing the reasonableness and accuracy of the valuation process
•	 Reporting: evaluating whether monthly reporting is accurate and meets
   requirements
•	 Conflicts: assessing potential misappropriation of Government funds, insider
   trading, and other conflicts of interest
•	 Asset Verification: verifying the existence of securities by reviewing settlement of
   trades and how the PPIF managers account for errors
•	 Monitoring: implementing systems for real-time trade monitoring, or, at the
   least, a review of each weekly trade data report submitted to Treasury by PPIF
   managers

   A copy of SIGTARP’s letter to Treasury is included in Appendix G:
“Correspondence.”

Audits Underway
SIGTARP has ongoing audits on eight previously announced topics and expects to
issue those audit reports in the coming months.
28   special inspector general I troubled asset relief program




                                            Automobile Dealership Closures
                                            This audit, undertaken at the request of Senate Commerce Committee Chairman
                                            Jay Rockefeller and House Appropriations Committee Chairman David Obey,
                                            examines the process used by GM and Chrysler to identify the more than 2,000
                                            automobile dealerships that were slated for termination in connection with the au-
                                            tomakers’ bankruptcies. Its objectives are to determine whether GM and Chrysler
                                            developed and followed a fair, consistent, and reasonable documented approach; to
                                            understand the role of the Federal Government in these decisions; and to review to
                                            what extent the terminations will lead to cost savings or other benefits to GM and
                                            Chrysler. SIGTARP expects to publish the audit at approximately the same time as
                                            this Quarterly Report.

                                            Status of the Federal Government’s Asset Guarantee Program with
                                            Citigroup
                                            This review, requested by Representative Alan Grayson, addresses a series of ques-
                                            tions about the Government’s guarantee of certain Citigroup assets through the
                                            Asset Guarantee Program such as: (i) the basis on which the decision was made to
                                            provide asset guarantees to Citigroup and the process for selecting the loans and
                                            securities to be guaranteed; (ii) the characteristics of the assets deemed acceptable
                                            for inclusion in the program and how those assets differed from other Citigroup as-
                                            sets; (iii) whether adequate risk management controls were in place to mitigate the
                                            risks to the taxpayer; and (iv) what safeguards existed to protect taxpayer interests
                                            and what the losses were on the portfolio.

                                            CPP Applications Receiving Conditional Approval
                                            This audit examines those CPP applications that received preliminary approval
                                            from Treasury’s Investment Committee conditioned upon the institutions meet-
                                            ing certain requirements before funds were disbursed. One example, as discussed
                                            earlier, was Colonial, which received CPP approval conditioned on Colonial raising
                                            $300 million in private capital. The audit assesses the basis for the decision to
                                            grant such conditional approvals and the bank regulators’ role in such decisions;
                                            whether and how timeframes were established for meeting such conditions; and
                                            whether internal controls were in place to ensure that the conditions were met
                                            before funds were disbursed.

                                            Selection of Asset Managers for the Legacy Securities Program
                                            This audit examines the process Treasury followed to select fund managers to
                                            raise private capital for joint investment programs with Treasury through PPIP.
                                            It examines the criteria used by Treasury to select PPIF managers and minority
                                            partners, and the extent to which Treasury consistently applied established criteria
                                            when selecting fund managers and small, veteran- , minority- , and women-owned
                                            businesses.
                                                                                  quarterly report to congress I july 21, 2010   29




Term Asset-Backed Securities Loan Facility (“TALF”) Collateral
Monitors’ Valuation
This audit examines the Federal Reserve’s valuation determinations used to issue
loans under TALF. It assesses how the Federal Reserve made valuation determina-
tions, including the role of the collateral monitors, when making decisions regard-
ing the eligibility of the collateral and the appropriateness of the requested loan
amounts.

Office of the Special Master Decisions on Executive Compensation
This audit examines the Office of the Special Master for TARP Executive
Compensation’s (“Special Master”) decisions on executive compensation at firms
receiving exceptional TARP assistance. This audit assesses the criteria used by the
Special Master to evaluate executive compensation and whether the criteria were
applied consistently.

CPP Exit Strategy
This audit examines the process that Treasury and the Federal banking regulators
established for banks to repay Treasury and exit CPP.

Application of the HAMP Net Present Value (“NPV”) Test
This audit, conducted in response to a request from Senator Jeff Merkley and eight
other Senators, assesses the following issues:

•	 whether participating loan servicers are correctly applying the NPV test under
   the program
•	 the extent to which Treasury ensures that servicers are appropriately applying
   the NPV test per Home Affordabe Modification Program guidelines when as-
   sessing borrowers for program eligibility
•	 the procedures servicers follow to communicate to borrowers the reasons for
   NPV test failure, as well as to identify the full range of loss mitigation options
   available to such borrowers

New Audit Underway
Over the past quarter, SIGTARP announced one new audit on which work has begun:

OFS Contracting for Professional Services
Undertaken at the request of Senator Tom Coburn, this audit will examine the pro-
cesses Treasury uses to procure professional services in support of its management
of TARP, specifically those to ensure that contract prices are fair and reasonable
and that vendors’ invoices accurately reflect the work performed.
30   special inspector general I troubled asset relief program




                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            are kept adequately and promptly informed of developments in TARP initiatives
                                            and of SIGTARP’s oversight activities. To fulfill that role, Special Inspector General
                                            Barofsky and his staff regularly meet with and brief members of Congress and their
                                            staff. The following meetings took place in the second quarter of 2010:

                                            •	 On April 16 and 19, 2010, SIGTARP Chief of Staff Christy Romero pre-
                                               sented open briefings for Senate and House staff, respectively. The focus was
                                               SIGTARP’s April 2010 Quarterly Report.
                                            •	 On April 20, 2010, Special Inspector General Barofsky testified at a hearing
                                               before the Senate Finance Committee. The title of the hearing was
                                               “The President’s Proposed Fee on Financial Institutions Regarding TARP:
                                               Part 1.” Special Inspector General Barofsky’s testimony included an overview
                                               of SIGTARP’s April 2010 Quarterly Report, which was released at the hearing,
                                               as well as a discussion of a potential fee that may be imposed on certain TARP
                                               recipients.
                                            •	 On April 22, 2010, Special Inspector General Barofsky testified before the
                                               House Appropriations Committee during a hearing entitled “Financial Crisis
                                               and TARP.” Special Inspector General Barofsky’s testimony included a discus-
                                               sion of SIGTARP’s fiscal year 2011 budget request, which is discussed more
                                               fully later in this section.
                                            •	 On April 29, 2010, Deputy Special Inspector General Kevin Puvalowski testified
                                               at a hearing before the Senate Financial Services and General Government
                                               Subcommittee. The hearing title was “Holding Banks Accountable: Are Treasury
                                               and Banks Doing Enough to Help Families Save Their Homes?” Deputy Special
                                               Inspector General Puvalowski’s testimony covered recent developments in the
                                               Making Home Affordable program and SIGTARP’s fiscal year 2011 budget
                                               request.
                                            •	 On May 11, 2010, Deputy Special Inspector General Puvalowski testified
                                               before the Oversight and Investigations Subcommittee of the House Financial
                                               Services Committee, during a hearing entitled “TARP Oversight: An Update
                                               on Warrant Repurchases and Benefits to Taxpayers.” Deputy Special Inspector
                                               General Puvalowski’s testimony covered the findings and recommendations in
                                               SIGTARP’s audit concerning Treasury’s process to sell warrants it received from
                                               TARP recipients, which was discussed more fully above in this section.

                                                On or about May 7, 2010, Treasury submitted to Congress a legislative proposal
                                            to create a Small Business Loan Fund (“SBLF”). Under its proposal, Treasury
                                            would attempt to stimulate lending to small businesses by providing up to $30
                                                                                  quarterly report to congress I july 21, 2010   31




billion of preferred share investments in banks with total assets of $10 billion
or less. On May 17, 2010, SIGTARP wrote to its Congressional oversight com-
mittees to express concerns regarding SBLF oversight and stress the importance
that SIGTARP maintain oversight of the SBLF program. Among other things,
SIGTARP’s letter points out that, although SBLF is designed to be a separate
program from TARP, its basic framework is very similar to CPP, as both involve
Treasury making capital investments in the form of preferred shares; the maximum
investment under SBLF would be, like CPP, a percentage of a bank’s risk-weighted
assets; and the initial dividend rate is or would be the same under each program.
Furthermore, the SBLF application and approval process would be similar to CPP’s
and involve the same primary regulators, and it is anticipated that the overwhelm-
ing majority of CPP recipients will convert their CPP preferred shares to SBLF
preferred shares. Because SIGTARP has developed considerable experience and
expertise in its oversight of CPP, particularly in reporting, monitoring, deter-
ring, and investigating fraud, SIGTARP urged Congress to assign SBLF oversight
responsibilities to SIGTARP. As detailed above, SIGTARP’s expertise in policing
the similarly constructed CPP was instrumental in saving the taxpayers more than
$550 million in the Colonial/TBW investigation. A copy of one of the identical let-
ters SIGTARP sent to Congress is found in Appendix G: “Correspondence.”
     Copies of the written testimony, hearing transcripts, and a variety of other mate-
rials associated with Congressional hearings since SIGTARP’s inception are posted
at www.sigtarp.gov/reports.



THE SIGTARP ORGANIZATION
From the day that Special Inspector General Barofsky was confirmed by the Senate,
SIGTARP has worked to build its organization through various complementary
strategies, including hiring experienced senior executives who can play multiple
roles during the early stages of the organization, leveraging the resources of other
agencies, and, where appropriate and cost-effective, obtaining services through
SIGTARP’s authority to contract. Since the January 2010 Quarterly Report,
SIGTARP has continued to make substantial progress in building its operation.

Hiring
Each of SIGTARP’s divisions continues the process of filling out its ranks. As of
June 30, 2010, SIGTARP had 128 full-time personnel, including one detailee from
the FBI and one from the SEC.
   SIGTARP’s employees hail from many Federal agencies, including DOJ,
FBI, IRS-CI, Air Force Office of Special Investigations, GAO, Department of
Transportation, Department of Energy, the SEC, U.S. Secret Service, U.S. Postal
32   special inspector general I troubled asset relief program




                                            Service, U.S. Army Criminal Investigation Command, Naval Criminal Investigative
                                            Service, Treasury-Office of the Inspector General, Department of Energy-Office
                                            of the Inspector General, Department of Transportation-Office of the Inspector
                                            General, Department of Homeland Security-Office of the Inspector General, FDIC
                                            OIG, Office of the Special Inspector General for Iraq Reconstruction, and HUD OIG.
                                                SIGTARP employees also hail from various private-sector businesses and law
                                            firms. Hiring is ongoing, building to SIGTARP’s goal of approximately 160 full-time
                                            employees. The SIGTARP organizational chart, as of June 30, 2010, is included in
                                            Appendix H: “Organizational Chart.”

                                            Budget
                                            SIGTARP was established pursuant to Section 121 of EESA. SIGTARP com-
                                            menced operations on December 15, 2008, with the swearing in of the Special
                                            Inspector General. Section 121(j) of EESA provided SIGTARP with $50 million
                                            in initial operating funds. In the late spring of 2009, SIGTARP determined that
                                            its initial operating funds would be expended during the second quarter of fiscal
                                            year 2010 and that additional resources would be needed to fully fund opera-
                                            tions. Accordingly, on June 3, 2009, SIGTARP submitted to Treasury — which
                                            forwarded to the Office of Management and Budget (“OMB”) — a request for an
                                            amendment of Treasury’s 2010 budget request in the amount of $23.3 million.
                                            The Consolidated Appropriations Act for 2010, Public Law 111-117, at Division C,
                                            Title 1, provided SIGTARP with the requested $23.3 million.
                                                 On February 1, 2010, the Administration submitted to Congress Treasury’s
                                            fiscal year 2011 budget request, which includes SIGTARP’s full request for
                                            $49.6 million.

                                            Physical and Technical SIGTARP Infrastructure
                                            SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the
                                            same office building in which most Treasury officials managing TARP are located.
                                            SIGTARP has begun to occupy a portion of its permanent quarters in that building
                                            while the renovation process is completed in the remainder. Primarily to facilitate
                                            investigative activities in those cities, SIGTARP has also opened branch offices
                                            specializing in investigations in New York City, Los Angeles, and San Francisco and
                                            is in the process of opening another satellite office in Atlanta.
                                                SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
                                            testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has
                                            had more than 47 million web “hits,” and there have been more than 2.7 million
                                            downloads of SIGTARP’s quarterly reports, which are available on the site.1
                                                The website prominently features SIGTARP’s Hotline, which can also be ac-
                                            cessed by phone at 877-SIG-2009 (877-744-2009).
section 2   tarp overview
34   special inspector general I troubled asset relief program
                                                                                                                            quarterly report to congress I july 21, 2010   35




This section summarizes the activities of the U.S. Department of the Treasury
(“Treasury”) in its management of the Troubled Asset Relief Program (“TARP”).
This section also reviews TARP’s overall finances, provides updates on established
TARP component programs, and gives the status of TARP executive compensation
restrictions.



TARP Funds Update
The Emergency Economic Stabilization Act of 2008 (“EESA”), was signed into law
on October 3, 2008, and appropriated $700 billion to “restore liquidity and stability
to the financial system of the United States.” On December 9, 2008, the Treasury
Secretary exercised the powers granted to him under Section 120(b) of EESA
and extended TARP through October 3, 2010. In the certification, the Treasury
Secretary asserted that the extension would, “among other things, enable [Treasury]
to continue to implement programs that address housing markets and the needs of
small businesses, and to maintain the capacity to respond to unforeseen threats,”
thereby assisting American families and stabilizing financial markets.2
    In August 2009, as part of the mid-session review of the Federal budget, the
Office of Management and Budget (“OMB”) estimated that TARP would ultimately
cost the American taxpayer $341 billion.3 During the past 11 months, the estimated
ultimate cost of TARP has been adjusted downward several times. As of
February 1, 2010, OMB estimated that TARP would cost $116.8 billion. Most
recently, in a May 2010 report to Congress, Treasury revised its estimated cost of
TARP to $105.4 billion.4 The losses are expected to be concentrated in the pro-
grams intended to assist American International Group, Inc. (“AIG”), the automo-
tive industry, and struggling homeowners.5 These figures are listed in Table 2.1.

Table 2.1

 Cost/Gain of TARP Programs ($ Billions)
                                                                            CBO                   OMB                  Treasury
Program Name                                                            Estimate             Estimatea                 Estimate
Systemically Significant Failing Institutions                               $36                      $50                      $45
Automotive Industry Financing Program                                        34                        31                      25
Home Affordable Modification Program                                         22                        49                      49
Remaining TARP Funds                                                         23                          3                      —
Cumulative Other                                                             (6)                       (6)                    (14)
Total                                                                      $109                    $127                    $105

Notes: Numbers affected by rounding.
a
  Includes administrative costs and interest effects of $9.9 billion.
Sources: CBO Estimate and OMB Estimate: Congressional Budget Office, “Report on the Troubled Asset Relief Program—March 2010,”
March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 6/24/2010. Treasury Estimate: Treasury, “Summary
Tables of Troubled Asset Relief Program (TARP) Investments as of March 31, 2010,” no date, www.financialstability.gov/docs/TARP%20
Cost%20Estimates%20-%20March%2031%202010.pdf, accessed 6/24/2010; Office of Management and Budget, “Budget of the U.S.
Government – Fiscal Year 2011,” 2/1/2010, www.whitehouse.gov/omb/budget/fy2011/assets/budget.pdf, accessed 7/10/2010.
36                special inspector general I troubled asset relief program




                                                                          At the time of the drafting of this report, the Dodd-Frank Wall Street Reform
                                                                      and Consumer Protection Act (the “Bill”) is pending. One part of the Bill, with the
                                                                      stated purpose of paying costs associated with the implementation of this legisla-
                                                                      tion, proposes to amend the timing and amount of the Secretary’s authority to
                                                                      purchase and guarantee assets under TARP.
                                                                          Section 1302 of the “Pay it Back Act,” which is included as part of the Bill,
                                                                      would amend Section 115(a)(3) of EESA to reduce to $475 billion the upper limit
                                                                      of the Secretary’s authority to purchase and guarantee assets under TARP. The sec-
                                                                      tion further provides that Treasury may not reinvest TARP funds that are paid back
                                                                      and that “[n]o authority under [EESA] may be used to incur any obligation for a
                                                                      program or initiative that was not initiated prior to June 25, 2010.”
                                                                          Although Section 1302 would reduce the upper limit of the day-to-day value of
                                                                      the Secretary’s actions under TARP and preclude him from obligating new funds
      Figure 2.1
                                                                      for programs and initiatives that were not initiated by June 25, existing invest-
                                                                      ments and commitments made under TARP’s existing programs may continue, as
     CUMULATIVE PLANNED TARP                                          long as the overall cost does not exceed $475 billion. According to Treasury, under
     EXPENDITURES, REPAYMENTS,
     AND REDUCTIONS IN EXPOSURE                                       this formulation, TARP funds that have already been committed but not expended
     AS OF 6/30/2010                                                  for a TARP program (such as the unspent amounts outstanding in the Home
     $ BILLIONS                                                       Affordable Modification Program) may be expended into the future as before and
                                                                      new commitments on any initiated programs (such as the announced Community
                                                                      Development Capital Initiative) can be made, up to the new overall $475 billion
                                                       $407.0
                                                                      limit, until the expiration of Treasury’s ability to expend TARP funds on October 3,
                                                                      2010.
      $698.8                           $206.5


                      $498.3
                                                                      Financial Overview of TARP
                                                                      As of June 30, 2010, Treasury planned to allocate $536.6 billion of its currently
     Total TARP      Planned TARP TARP          TARP
                                                                      applicable $698.8 billion TARP maximum to buy troubled assets as authorized by
     Available       Expendituresa Repayments Balance                 Congress under EESA.6 Of this amount, Treasury has announced planned TARP
                                   and          Remaining
                                   Reductions                         expenditures of approximately $498.3 billion (of which $386.2 billion was dis-
                                   in Exposureb                       bursed) through 13 implemented programs to support U.S. financial institutions,
     Notes: Numbers affected by rounding. The “planned                companies, and individual mortgage borrowers.7
     expenditures” referenced throughout this report represent the
     funds Treasury currently plans to expend for each program            As of June 30, 2010, 87 TARP recipients had repaid all or a portion of their
     and a majority of those are committed funds (e.g., signed
     agreements with TARP fund recipients).
                                                                      principal or repurchased shares, for a total of $201.5 billion returned to Treasury
     a Treasury experienced a $2.3 billion loss on some
                                                                      and a $5 billion reduction in Government exposure, leaving $407 billion, or 58.3%,
       investments under the Capital Purchase Program (“CPP”).
       The PPIP capital raising period is closed with $22.1 billion   available for distribution, subject to the pending legislation.8 Figure 2.1 provides a
       of TARP funds committed and will likely not increase above
       this level, yet Treasury’s official budget still notes         snapshot of the cumulative expenditures, repayments, and exposure reductions as
       $30.0 billion in TARP funds allocated to the program.
     b Repayments include $146.9 billion for CPP, $40.0 billion       of June 30, 2010.
       for the Targeted Investment Program, $14.3 billion for
       auto programs, and a $5.0 billion reduction in exposure
       under the Asset Guarantee Program.

     Sources: Treasury, Transactions Report, 6/30/2010;
     Treasury, response to SIGTARP data call, 7/7/2010.
                                                                                  quarterly report to congress I july 21, 2010             37




      Treasury has also collected interest and dividends on its investments, as well
                                                                                               Warrant: Right, but not an obligation, to
as revenue from the sale of its warrants, all of which goes toward deficit reduction
                                                                                               purchase a certain number of shares
and cannot be re-issued by Treasury.9 As of June 30, 2010, the Government had                  of common stock at a fixed price.
received $15.7 billion in interest, dividends, and other income and $7.0 billion               Because warrants rise in value as the
in proceeds from the sale of warrants and stock received as a result of exercised              company’s share price rises, Treasury
warrants.10                                                                                    (and the taxpayer) can benefit from a
     As of June 30, 2010, $179.7 billion of the $386.2 billion actually disbursed and          firm’s potential recovery.
$291.7 billion of the $498.3 billion planned TARP expenditures were outstanding
(i.e., had not been repaid or repurchased).11                                                  Common Stock: Equity ownership enti-
     Most outstanding TARP funds are in the form of equity ownership in troubled,              tling an individual to share in corporate
or previously troubled, companies. Treasury (and therefore the taxpayer) remains               earnings and voting rights.
a shareholder in companies that have not paid back the Government. Treasury’s
                                                                                               Preferred Stock: Equity ownership that
equity ownership is largely in two forms — common and preferred stock; it also has
                                                                                               usually pays a fixed dividend prior to
received debt in the form of senior subordinated debentures.
                                                                                               distributions for common stock owners
     TARP consists of 13 implemented programs, 7 of which are already closed or
                                                                                               but only after payments due to holders
winding down:                                                                                  of debt and depositors. It typically
                                                                                               confers no voting rights. Preferred
•	   the Capital Purchase Program (“CPP”)                                                      stock also has priority over common
•	   the Capital Assistance Program (“CAP”)                                                    stock in the distribution of assets when
•	   the Targeted Investment Program (“TIP”)                                                   a bankrupt company is liquidated.
•	   the Asset Guarantee Program (“AGP”)
•	   the Term Asset-Backed Securities Loan Facility (“TALF”)                                   Senior Subordinated Debenture: Debt
•	   the Auto Supplier Support Program (“ASSP”)                                                instrument ranking below senior debt
•	   the Auto Warranty Commitment Program (“AWCP”)                                             but above equity with regard to inves-
                                                                                               tors’ claims on company assets or
                                                                                               earnings. Senior debt holders are paid
    The programs fall into four categories, depending on the type of assistance
                                                                                               in full before subordinated debt hold-
offered:
                                                                                               ers are paid. There may be additional
                                                                                               distinctions of priority among subordi-
•	 Homeowner Support Programs — These programs are intended to help                            nated debt holders.
   homeowners having trouble paying their mortgages by subsidizing loan modi-
   fications, loan servicer costs, and potential equity declines, and providing for
   incentives for foreclosure alternatives.
•	 Financial Institution Support Programs — These programs share a common,
   stated goal of stabilizing financial markets and improving the economy.
•	 Asset Support Programs — These programs attempt to support asset values
   and liquidity in the market by providing funding to certain holders or purchasers
   of assets.
•	 Automotive Industry Support Programs — These programs were intended to
   stabilize the American automotive industry and promote market stability.
38                 special inspector general I troubled asset relief program




     Figure 2.2

     PLANNED TARP EXPENDITURES                                                  Figure 2.2 provides a breakdown showing how TARP funding is distributed
     OUTSTANDING, REPAYMENTS, AND                                             among the four program categories.
     REDUCTIONS IN EXPOSURE BY
     SUPPORT CATEGORY,                                                        Homeowner Support Programs
     AS OF 6/30/2010                                                          TARP’s homeowner support programs strive to help homeowners and financial
     $ BILLIONS
                                                                              institutions holding troubled housing-related assets.
 $300                        $191.9
     250                                                                      	Making Home Affordable (“MHA”) Program — According to Treasury, this
     200
                                                                                foreclosure mitigation effort should “help bring relief to responsible homeown-
                                                                                ers struggling to make their mortgage payments while preventing neighborhoods
     150
                                                                                and communities from suffering the negative spillover effects of foreclosure,
     100                     $128.9
                                                             $14.3              such as lower housing prices, increased crime, and higher taxes.”12 MHA
       50                                     $0.4
                                                             $70.6              has many components, including several funded through TARP: the Home
                                             $51.0
              $41.3
        0                                                                       Affordable Modification Program (“HAMP”), Home Affordable Foreclosure
             Homeowner Financial   Asset                    Automotive
             Support   Institution Support                  Industry            Alternatives (“HAFA”) program, and the Second Lien Modification Program
             Programa  Support     Programsc                Support
                       Programsb                            Programsd
                                                                                (“2MP”). HAMP in turn encompasses various initiatives in addition to the
                                                                                modification of first-lien mortgages, including: Home Price Decline Protection
                 Planned Expenditures Outstanding                               (“HPDP”), Treasury Federal Housing Administration (“FHA”) HAMP, the
                 Repayments and Reductions in Exposure
                                                                                Home Affordable Unemployment Program (“UP”), and the Principal Reduction
     Notes: Numbers affected by rounding. The “planned                          Alternative (“PRA”). HAMP helps homeowners with mortgage modifications
     expenditures” referenced throughout this report represent the
     funds Treasury currently plans to expend for each program, and a           and foreclosure-prevention efforts. Treasury has allocated up to $50 billion of
     majority of those are committed funds (e.g., signed agreements
     with TARP fund recipients).                                                TARP money for this $75 billion program.13 As of June 30, 2010, HAMP had
     a
       Includes MHA.
     b
       Includes CPP, CDCI, SSFI, TIP, and AGP. Repayments include               committed $39.8 billion in TARP money and disbursed $247.5 million in incen-
       $146.9 billion for CPP, $40 billion for TIP, and a $5 billion
       reduction in exposure under AGP.                                         tives for HAFA and payments related to permanent modifications offered by
     c
       Includes TALF, PPIP, and UCSB. The PPIP capital raising period
       is closed with $22.1 billion of TARP funds committed and will            servicers (164,628 of which remain active).14 In addition, 224,570 modifications
       likely not increase above this level, yet Treasury’s official budget
       still notes $30 billion in TARP funds allocated to the program.          have been provided by the Government-sponsored enterprises (“GSEs”) using
     d
       Includes AIFP, ASSP, and AWCP. Repayments include
       $10.1 billion for AIFP, $642 million for AWCP, and all loans under       non-TARP funds. See the “Making Home Affordable” discussion in this section
       ASSP.
                                                                                for more detailed information.
     Sources: Treasury, Transactions Report, 6/30/2010; Treasury,
     response to SIGTARP data call, 7/7/2010.                                 	Housing Finance Agency (“HFA”) Innovation Fund for the Hardest-Hit
                                                                                Housing Markets (“Hardest Hit Program”) — This program will utilize
                                                                                $2.1 billion of TARP funds to create innovative measures to help families in
                                                                                the states identified by Treasury as being hit the hardest by the aftermath of
                                                                                the housing crisis.15 As of June 30, 2010, Treasury had allocated $1.5 billion
                                                                                in TARP funds for approved programs submitted by the HFAs from California,
                                                                                Arizona, Nevada, Michigan, and Florida. Treasury announced it will allocate
                                                                                an additional $600 million of TARP funds for programs designed by the HFAs
                                                                                of North Carolina, Ohio, Oregon, Rhode Island, and South Carolina. See
                                                                                the “Making Home Affordable” discussion in this section for more detailed
                                                                                information.
                                                                              	Treasury FHA Refinance — This program will utilize up to $14 billion of
                                                                                TARP funds to provide incentives for FHA refinancing of existing underwater
                                                                                 quarterly report to congress I july 21, 2010             39




   first-lien mortgage loans as well as incentives to extinguish second lien loans
   and a portion of loss coverage on the newly originated FHA first lien loan. See
   the “Making Home Affordable” discussion in this section for more detailed
   information.

Financial Institution Support Programs
Treasury primarily invests capital directly into the financial institutions it aids.
Financial institutions, for TARP purposes, include banks, bank holding compa-                 Systemically Significant: Term refer-
nies, and, if deemed critical to the financial system, some systemically significant          ring to any financial institution whose
institutions.                                                                                 failure would impose significant losses
                                                                                              on creditors and counterparties, call
	Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                             into question the financial strength of
  purchased preferred stock or subordinated debentures directly in qualifying                 similar institutions, disrupt financial
                                                                                              markets, raise borrowing costs for
  financial institutions (“QFIs”). CPP was intended to provide funds to “stabilize
                                                                                              households and businesses, and re-
  and strengthen the U.S. financial system by increasing the capital base of an
                                                                                              duce household wealth (also commonly
  array of healthy, viable institutions, enabling them [to] lend to consumers and
                                                                                              used to describe institutions “too big
  business[es].”16 Treasury invested $204.9 billion in 707 institutions through
                                                                                              to fail”).
  CPP; $146.9 billion had been repaid as of June 30, 2010.17 CPP closed
  December 29, 2009, and Treasury will make no further disbursements under
  the program. Treasury continues to manage its portfolio of CPP investments,
  including, for certain struggling institutions, converting its preferred equity
  ownership into common stock, often at a discount to par value (which may re-
  sult in a loss) in an attempt to preserve some value that might otherwise be lost
  if these institutions were to fail. See the “Capital Purchase Program” discus-
  sion in this section for more detailed information.
	Community Development Capital Initiative (“CDCI”) — Under CDCI,
  Treasury will use TARP money to buy preferred stock or subordinated debt in                 Community Development Financial Insti-
  Community Development Financial Institutions (“CDFIs”). Treasury created                    tutions (“CDFIs”): Financial institutions
  CDCI to “improve access to credit for small businesses.”18 Treasury received 93             eligible for Treasury funding to serve a
  applications for the program, but as of June 30, 2010, no CDCI investments                  targeted demographic under the CDFI
  have been made.19                                                                           Fund. CDFIs were created in 1994 by
                                                                                              the Riegle Community Development
	Small Business Lending Fund (“SBLF”) — On June 17, 2010, the House of
                                                                                              and Regulatory Improvement Act.
  Representatives passed the Small Business Lending Fund Act which, if enacted
  into law, would create a new program outside of TARP to stimulate small-
  business lending.20 Under SBLF, Treasury would invest capital in eligible insti-
  tutions in return for preferred shares or debt in a manner similar to CPP and
  CDCI. Under the legislation, the Secretary of the Treasury would be required
  to issue regulations and other guidance “to permit eligible institutions to refi-
  nance securities issued to Treasury under the CDCI and the CPP for securities
  to be issued under the Program.”21 See the “Small Business Lending Fund”
  discussion in this section for more detailed information.
40            special inspector general I troubled asset relief program




                                                     	Systemically Significant Failing Institutions (“SSFI”) Program/AIG
                                                       Investment Program — The SSFI program allowed Treasury to invest in sys-
                                                       temically significant institutions to prevent them from failing.22 Through
                                                       June 30, 2010, only one firm had received SSFI assistance: AIG. There were
                                                       two TARP-AIG transactions: on November 25, 2008, Treasury bought $40 billion
                                                       of AIG’s preferred stock, the proceeds of which were used to repay a portion of
                                                       AIG’s debt to the Federal Reserve; and, on April 17, 2009, Treasury commit-
                                                       ted approximately $29.8 billion to an equity capital facility on which AIG can
                                                       draw, as needed.23 As of June 30, 2010, AIG had drawn down $7.5 billion of the
                                                       facility and had not repaid any TARP funds, leading to total outstanding TARP
                                                       assistance of $47.5 billion.24 In addition, to date, AIG has elected not to pay
                                                       $5.5 billion in scheduled dividends. See the “Systemically Significant Failing
                                                       Institutions” portion of this section for a detailed discussion of the AIG transactions.
                                                     	Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                       financial institutions it deemed critical to the financial system.25 There were two
                                                       expenditures under this program, totaling $40 billion — the purchase of
     Senior Preferred Stock: Shares that
                                                       $20 billion each of senior preferred stock in Citigroup, Inc. (“Citigroup”) and
     give the stockholder priority dividend
     and liquidation claims over junior pre-           Bank of America Corporation (“Bank of America”).26 Treasury also accepted
     ferred and common stockholders.                   common stock warrants from each, as required by EESA. Because both banks
                                                       fully repaid Treasury for their respective TIP investments, TIP is effectively
     Illiquid Assets: Assets that cannot be            closed. Treasury auctioned its Bank of America warrants on March 3, 2010, but
     quickly converted to cash.                        still holds its Citigroup warrants. See the “Targeted Investment Program and
                                                       Asset Guarantee Program” portion of this section for more information on these
     Trust Preferred Securities: Securities            two transactions.
     that have both equity and debt charac-          	Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-
     teristics, created by establishing a trust        ance-like protection on a select pool of mortgage-related or similar assets held
     and issuing debt to it.
                                                       by participants whose portfolios of distressed or illiquid assets threatened mar-
                                                       ket confidence.27 Treasury, the Federal Deposit Insurance Corporation (“FDIC”),
                                                       and the Federal Reserve offered certain loss protections with respect to $301
                                                       billion in troubled Citigroup assets.28 Treasury received $4 billion and the FDIC
                                                       $3 billion of preferred stock that was converted to trust preferred securities on a
                                                       dollar-for-dollar basis.29 On December 23, 2009, in connection with Citigroup’s
                                                       TIP repayment, the bank and the Government terminated the AGP agreement.
                                                       According to Treasury, under the agreement, “Treasury’s guarantee commitment
                                                       was terminated. Furthermore, Treasury agreed to cancel $1.8 billion of the trust
                                                       preferred securities issued by Citigroup reducing the premium from $4.0 billion
                                                       to $2.2 billion in exchange for early termination of the guarantee. Additionally,
                                                       the FDIC and Treasury agreed that the FDIC may transfer $800 million of
                                                       trust preferred securities to Treasury at the close of Citigroup’s participation
                                                       in the FDIC’s Temporary Liquidity Guarantee Program.”30 See the “Targeted
                                                       Investment Program and Asset Guarantee Program” discussion in this section
                                                       for more information on this program.
                                                                                 quarterly report to congress I july 21, 2010             41




Asset Support Programs
The stated purpose of these programs is to support the liquidity and market value
of assets owned by financial institutions. These assets may include various classes
of asset-backed securities (“ABS”) and several types of loans. Treasury’s asset sup-          Asset Backed Securities (“ABS”): Bonds
port programs seek to bolster the balance sheets of financial firms and help free             backed by a portfolio of non-mortgage
capital so that these firms can extend more credit to support the economy.                    consumer or corporate loans, e.g.,
                                                                                              credit card, auto, or small-business
	Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-                       loans. Financial companies typically
                                                                                              issue ABS backed by existing loans
  nally designed to increase credit availability for consumers and small busi-
                                                                                              in order to fund new loans for their
  nesses through a TARP-backed Federal Reserve loan program. TALF provided
                                                                                              customers.
  investors non-recourse loans secured by certain types of ABS, including credit
  card receivables, auto loans, equipment loans, student loans, floor plan loans,             Commercial Mortgage-Backed Securi-
  insurance-premium finance loans, loans guaranteed by the Small Business                     ties (“CMBS”): Bond backed by one or
  Administration (“SBA”), residential mortgage servicing advances, and commer-                more mortgages on commercial real
  cial mortgage-backed securities (“CMBS”). Treasury committed $20 billion of                 estate (e.g., office buildings, rental
  TARP funds to support this program by providing loss protection to the loans                apartments, hotels) rather than by
  extended by the Federal Reserve Bank of New York (“FRBNY”).31 TALF is now                   residential real estate loans.
  closed for new loans and held its final subscription on June 18, 2010. FRBNY
  facilitated 13 TALF subscriptions of non-mortgage-related ABS over the life                 Legacy Assets: Commonly called
  of the program totaling approximately $59 billion, with $33 billion of TALF                 troubled or toxic assets, these are
  borrowings outstanding.32 FRBNY had also conducted 13 CMBS subscriptions                    real estate-related loans and securities
                                                                                              issued before the financial crisis that
  totaling $12.1 billion, with $9.5 billion in loans outstanding.33 An overview of
                                                                                              remain on financial institutions’ balance
  TALF, later in this section, provides more information on these activities.
                                                                                              sheets. Legacy assets lost significant
	Public-Private Investment Program (“PPIP”) — PPIP’s goal was to thaw                        value at the onset of the crisis and
  frozen credit markets by purchasing legacy assets, e.g., CMBS and residential               were difficult to price because of mar-
  mortgage-backed securities (“RMBS”).34 Under the program, Public-Private                    ket disruption.
  Investment Funds (“PPIFs”) buy real estate-related legacy assets. The PPIFs
  were operated by nine fund managers, eight of which remain, which have closed               Residential Mortgage-Backed Securi-
  on a total of $22.1 billion in debt and equity financing from TARP.35 See the               ties (“RMBS”): Bonds backed by a pool
  “Public-Private Investment Program” discussion later in this section for details            of mortgages for residential real estate
  about the program structure and fund-manager terms.                                         (e.g., home mortgages for residences
	Unlocking Credit for Small Businesses (“UCSB”)/Small Business                               occupied by up to four families) rather
  Administration Loan Support Initiative — In March 2009, Treasury officials                  than by commercial real estate loans.
  said they would buy up to $15 billion in securities backed by SBA loans under
                                                                                              SBA Pool Certificate: Ownership inter-
  UCSB.36 On March 2, 2010, Treasury entered into an agreement with Coastal
                                                                                              est in a bond backed by SBA-guaran-
  Securities Inc. (“Coastal”) which is, to date, the sole pool assembler in the
                                                                                              teed loans.
  UCSB program. Under the agreement, Earnest Partners, on behalf of Treasury,
  can anonymously purchase SBA pool certificates from Coastal.37 Treasury
  reduced its commitment under this program to $1 billion in TARP funding,
42   special inspector general I troubled asset relief program




                                               and made purchases of $179.1 million in securities through June 30, 2010,
                                               including $157.7 million in the most recent quarter. See the discussion of
                                               “Unlocking Credit for Small Businesses/Small Business Administration Loan
                                               Support” in this section for more information on the program.

                                            Automotive Industry Financing Program (“AIFP”)
                                            TARP’s automotive industry support aims to “prevent a significant disruption of
                                            the American automotive industry, which would pose a systemic risk to financial
                                            market stability and have a negative effect on the economy of the United States.”38
                                                Treasury made emergency loans to Chrysler Holding LLC (“Chrysler”),
                                            Chrysler Financial Services Americas LLC (“Chrysler Financial”), and General
                                            Motors Corporation (“GM”). Additionally, Treasury bought senior preferred stock
                                            from GMAC Inc. (“GMAC”) and assisted Chrysler and GM during their bank-
                                            ruptcy restructurings. As of June 30, 2010, $84.8 billion in AIFP investments
                                            were committed, $10.1 billion of which was repaid, and an additional $2.3 billion
                                            in dividends or interest were received on these investments.38 With respect to
                                            GM, in return for a total of $49.5 billion in loans, Treasury received $6.7 billion
                                            in debt in New GM (which was subsequently repaid) in addition to $2.1 billion in
                                            preferred stock and a 61% common equity stake (an amount that could be diluted
                                            should GM’s bondholders or the Voluntary Employee Beneficiary Association
                                            exercise warrants they received).39 With respect to Chrysler, in return for a total of
                                            $12.5 billion in loans, Treasury received $7.1 billion in debt in New Chrysler and
                                            a 9.9% equity stake (an amount that could be diluted should certain performance
                                            metrics be reached).39 With respect to GMAC, in return for a total of $17.2 bil-
                                            lion in loans, Treasury received a 56.3% common equity stake, $2.5 billion in
                                            trust-preferred securities and $11.4 billion in mandatorily convertible preferred
                                            shares.40 Treasury provided a $1.5 billion loan to Chrysler Financial, which was
                                            repaid in full with interest.41 See “Automotive Industry Financing Program” later
                                            in this section for a detailed discussion of these companies. AIFP also included
                                            two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — This program was intended to
                                               provide “[auto] suppliers with the confidence they need to continue shipping
                                               their parts and the support they need to help access loans to pay their employ-
                                               ees and continue their operations.”42 The original allocation of $5.0 billion was
                                               reduced to $3.5 billion — $1.0 billion for Chrysler and $2.5 billion for GM.43
                                               After emerging from bankruptcy, the automakers assumed the debts associated
                                               with ASSP.44 By June 30, 2010, ASSP recipients had repaid all funds disbursed
                                                                                 quarterly report to congress I july 21, 2010        43




   under the program along with $116 million in interest and fees. ASSP termi-              For more information on AWCP, see
   nated on April 5, 2010, for GM and April 7, 2010, for Chrysler.45 See “Auto              SIGTARP’s Quarterly Report to Congress
   Supplier Support Program” in this section for more information.                          dated October 21, 2009, page 91.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan with interest and
   GM repaid just the principal.46

    The following figures and tables provide a status summary on TARP and TARP-
related initiatives:

•	 total potential funds subject to SIGTARP oversight as of June 30, 2010
   (Table 2.2)
•	 planned programmatic expenditures as of June 30, 2010 (Table 2.3)
•	 planned programmatic cumulative expenditures (Figure 2.3)
•	 planned expenditures outstanding, repayments, and reductions in exposure, by
   program, as of June 30, 2010 (Figure 2.4)
•	 summary of TARP terms and agreements (Table 2.4 and Table 2.5)
•	 summary of largest warrant positions held by Treasury, by program, as of June
   30, 2010 (Table 2.6)
•	 summary of dividends, interest payments, and fees received, by program, as of
   June 30, 2010 (Table 2.7)

  For a reporting of all purchases, obligations, expenditures, and revenues of
TARP, see Appendix C: “Reporting Requirements.”
44                special inspector general I troubled asset relief program




     Table 2.2

      TOTAL POTENTIAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 6/30/2010                                                                          ($ BILLIONS)

                                                                                                                                                                                                              Potential
                                                                                                                                                                             Total Potential                      TARP
     Program                                                         Brief Description or Participant                                                                           Funding ($)                 Funding ($)
     Capital Purchase Program (“CPP”) CLOSED                         Investments in 707 banks to date; received $146.9 billion in capital                                              $204.9                    $204.9
                                                                     repayments                                                                                                       ($146.9)                  ($146.9)
     Automotive Industry Financing Program                           GM, Chrysler, GMAC, Chrysler Financial; received $10.1 billion in loan                                                80.7                      80.7
     (“AIFP”)                                                        repayments                                                                                                           (10.1)                    (10.1)
     Auto Suppliers Support Program (“ASSP”)                         Government-backed protection for auto parts suppliers; received full                                                    3.5a                      3.5a
     CLOSED                                                          repayment of all loans                                                                                                 (3.5)                     (3.5)
     Auto Warranty Commitment Program                                Government-backed protection for warranties of cars sold during the                                                     0.6                       0.6
     (“AWCP”) CLOSED                                                 GM and Chrysler bankruptcy restructuring periods                                                                       (0.6)                     (0.6)
     Unlocking Credit for Small Businesses                           Purchase of securities backed by SBA loans                                                                              1.0                       1.0
     (“UCSB”)
     Systemically Significant Failing Institutions                   AIG Investment                                                                                                        69.8b                     69.8b
     (“SSFI”)/ AIG Investment Program
     Targeted Investment Program (“TIP”)                             Citigroup, Bank of America Investments                                                                                40.0                      40.0
     CLOSED                                                                                                                                                                               (40.0)                    (40.0)
     Asset Guarantee Program (“AGP”) CLOSED                          Citigroup, ring-fence asset guarantee                                                                               301.0                         5.0
                                                                                                                                                                                        (301.0)                       (5.0)
     Term Asset-Backed Securities Loan Facility                      FRBNY non-recourse loans for purchase of asset-backed securities                                                      71.1                      20.0
     (“TALF”) CLOSED                                                                                                                                                                      (28.6)
     Making Home Affordable (“MHA”) Program                          Modification of mortgage loans                                                                                        75.0c                     50.0
     Community Development Capital Initiative                        Investments in Community Development Financial Institutions (“CDFI”)                                                    1.0                       1.0
     (“CDCI”)
     Public-Private Investment Program (“PPIP”)                      Disposition of legacy assets; Legacy Securities Program                                                               40.0d                     30.4d
                                                                                                                                                                                            (0.4)                     (0.4)
     Small Business Lending Fund                                     Investments in small community banks – potentially TARP funding                                                       30.0e                     30.0e
     New Programs, or Funds Remaining for                            Capacity to respond if financial conditions worsen and threaten                                                     368.4                     368.4
     Existing Programs                                               economy.
     Totalf                                                                                                                                                                           $755.9                    $698.8
     Notes: Numbers affected by rounding.
     a
       Treasury’s original commitment under this program was $5.0 billion, which was subsequently reduced to $3.5 billion effective 7/1/2009.
     b
       Actual TARP expenditures as of 6/30/2010.
     c
       $25 billion is to be paid for by the GSEs.
     d
       The PPIP capital raising period is closed with $22.1 billion of TARP funds committed and will likely not increase above this level, yet Treasury’s official budget still notes $30 billion in TARP funds allocated to
     the program.
     e
       Small Business Lending Fund legislation is pending. As of 6/30/2010, Treasury is still carrying this amount as part of its TARP budget.
     f
       According to Treasury, TARP expenditures are not expected to exceed $537.1 billion.

     Sources: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-
     reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf; Treasury, response to SIGTARP data call, 7/7/10; Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time
     of Crisis,” 3/19/2009, http://www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Treasury, Federal Reserve, and FDIC Provide Assistance to Bank
     of America,” 1/16/2009, http://www.treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,”
     1/16/2009, http://www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, http://www.financialstability.gov/docs/fact-sheet.pdf,
     accessed 6/8/2009; Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009;
     Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.
                                                                                                  quarterly report to congress I july 21, 2010                 45




Table 2.3
 Expenditure Levels by Program, as of 6/30/2010                        ($ Billions)
                                                                  Amount            Percent (%)
Authorized Under EESA                                             $700.0
  Released Immediately                                                 $250.0            35.8%
  Released Under Presidential Certificate of Need                          100.0         14.3
  Released Under Presidential Certificate of Need & Resolution             350.0         50.1
  to Disapprove Failed
Helping Families Save Their Homes Act of 2009                               (1.2)         -0.2%
Total Released                                                        $698.8           100.0%

                                                                                        Planned
                                                                                    Expenditure         Repaid/
                                                                     Planned         as Percent        Reduced      Outstanding
Less: Expenditures by Treasury under TARPa                        Expenditure       of Released        Exposure    Commitments      Section Reference
Capital Purchase Program (“CPP”):
                                                                                                                                    “Financial Institution
 Investments                                                           $204.9            29.3%
                                                                                                                                    Support Programs”
  Repayments
CPP Total Gross                                                       $204.9             29.3%          ($146.9)           $58.0
                                                                                                                                    “Financial Institution
Community Development Capital Initiative (“CDCI”):                          $1.0
                                                                                                                                    Support Programs”
CDCI Total                                                                 $1.0           0.1%                —             $1.0

Systemically Significant Failing Institutions (“SSFI”) Program:                                                                     “Financial Institution
 American International Group, Inc. (“AIG”)                                $69.8         10.0%                                      Support Programs”

SSFI Total                                                             $69.8             10.0%                —            $69.8
Targeted Investment Program (“TIP”):
 Bank of America Corporation                                               $20.0          2.9%                                      “Financial Institution
  Citigroup, Inc.                                                           20.0          2.9                                       Support Programs”

  Repayments
TIP Total                                                              $40.0              5.7%           ($40.0)               —
Asset Guarantee Program (“AGP”):
                                                                                                                                    “Financial Institution
  Citigroup, Inc.b                                                          $5.0          0.7%
                                                                                                                                    Support Programs”
  Repayments
AGP Total                                                                  $5.0           0.7%            ($5.0)               —
Term Asset-Backed Securities Loan Facility (“TALF”):                                                                                “Asset Support
 TALF LLC                                                                  $20.0          2.9%                                      Programs”

TALF Total                                                             $20.0              2.9%                —            $20.0
                                                                                                                                    “Asset Support
Unlocking Credit for Small Businesses (“UCSB”):                             $1.0          0.1%
                                                                                                                                    Programs”
UCSB Total                                                                 $1.0           0.1%                ­—            $1.0
                                                                                                                                     Continued on next page.
46             special inspector general I troubled asset relief program




      Expenditure Levels by Program, as of 6/30/2010                       ($ Billions) (Continued)

                                                                                         Planned
                                                                                     Expenditure       Repaid/
                                                                       Planned        as Percent      Reduced     Outstanding
     Less: Expenditures by Treasury under TARPa                     Expenditure      of Released      Exposure   Commitments    Section Reference
     Automotive Industry Financing Program (“AIFP”):
      General Motors Corporation (“GM”)                                    $49.5             7.1%
      General Motors Acceptance Co. LLC (“GMAC”)                             17.2            2.5                                “Automotive
                                                                                                                                Industry Support
       Chrysler Holding LLC                                                  12.5            1.8                                Programs”
       Chrysler Financial Services Americas LLCc                              1.5            0.2
       Repayments
     AIFP Total                                                            $80.7           11.6%       ($10.1)         $70.6
     Automotive Supplier Support Program (“ASSP”):
      GM Suppliers Receivables LLCd                                          $2.5            0.4%                               “Automotive
                                                                                                                                Industry Support
       Chrysler Holding LLC   d
                                                                              1.0            0.1                                Programs”
       Repayments
     ASSP Total                                                             $3.5            0.5%        ($3.5)          $0.0
     Automotive Warranty Commitment Program (“AWCP”):
      General Motors Co. (“GM”)                                              $0.4            0.1%                               “Automotive
                                                                                                                                Industry Support
       Chrysler Holding LLC                                                   0.3            0.0                                Programs”
       Repayments
     AWCP Total                                                             $0.6            0.1%        ($0.6)             ­—
     Legacy Securities Public-Private Investment Program (“PPIP”)
      Invesco Legacy Securities Master Fund, L.P.                            $3.7            0.5%
       Wellington Management Legacy Securities PPIF
                                                                              3.8            0.5
       Master Fund, LP
      AllianceBernstein Legacy Securities Master Fund, L.P.                   3.7            0.5
      Blackrock PPIF, L.P.                                                    3.7            0.5                                “Asset Support
      AG GECC PPIF Master Fund, L.P.                                          3.8            0.5                                Programs”

       RLJ Western Asset Public/Private Master Fund, L.P.                     3.7            0.5
       Marathon Legacy Securities Public-Private
                                                                              3.7            0.5
      Investment Partnership, L.P.
      Oaktree PPIP Fund, L.P.                                                 3.7            0.5
       Repayments
     PPIP Totale                                                           $30.4            4.3%        ($0.4)         $30.0
                                                                                                                                Continued on next page.
                                                                                                                                       quarterly report to congress I july 21, 2010                                       47




 Expenditure Levels by Program, as of 6/30/2010                                                      ($ Billions) (Continued)

                                                                                                                       Planned
                                                                                                                   Expenditure                  Repaid/
                                                                                               Planned              as Percent                 Reduced            Outstanding
Less: Expenditures by Treasury under TARPa                                                  Expenditure            of Released                 Exposure          Commitments                Section Reference
Making Home Affordable (“MHA”):
  Home Affordable Modification Program (“HAMP”)
  Countrywide Home Loans Servicing LP                                                                   $8.4                  1.2%
  Wells Fargo Bank, NA                                                                                    7.1                 1.0
 JP Morgan Chase Bank, NA                                                                                 4.9                 0.7
 OneWest Bank                                                                                             2.3                 0.3
                                                                                                                                                                                            “Homeowner
 GMAC Mortgage, Inc.                                                                                      2.1                 0.3
                                                                                                                                                                                            Support Programs”
  CitiMortgage, Inc.                                                                                      1.8                 0.3
 Litton Loan Servicing LP                                                                                 1.6                 0.2
 Bank of America, N.A.                                                                                    1.6                 0.2
 American Home Mortgage Servicing, Inc                                                                    1.6                 0.2
 Other Financial Institutions                                                                             8.4                 1.2
Housing Finance Agency: Hardest Hit Funds Program (“HFA”)                                                 1.5                 0.2
MHA and Related Programs Total                                                                       $41.3                   5.9%                         ­—                 $41.3
TARP Expenditures Subtotal                                                                         $498.3                  71.3%
TARP Repayments/Reductions in Exposure Subtotal                                                                                                 ($206.5)
TARP Outstanding Commitment Subtotal                                                                                                                                       $291.8
Balance Remaining of Total Funds Made                                                                                                                                      $407.0
Available as of 6/30/2010

Notes: Numbers affected by rounding.
a
  From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
b
  Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
  an actual outlay of cash.
c
  Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
d
  Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maxiumum loan amount, which will be funded incrementally. Treasury’s original commitment under this
  program was $5 billion, which was subsequently reduced to $3.5 billion effective 7/1/2009. All loans made under the program were repaid in full.
e
  The PPIP capital raising period is closed with $22.1 billion of TARP funds committed and will likely not increase above this level, yet Treasury’s official budget still notes $30 billion in TARP funds allocated to
  the program.

Sources: EESA, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act of 2008,” 1/15/2009, www.
thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call,
7/7/2010.
48                special inspector general I troubled asset relief program




     Figure 2.3

     PLANNED EXPENDITURES OUTSTANDING, BY PROGRAM, CUMULATIVE
     $ BILLIONS

 $400

                                                                                                                                                                                                  $1.0       CDCI
                                                                                                                                                                                                  $1.0       UCSB
                                                                                                                                                                                                       a
     300                                                                                                                                                                                         $30.0       PPIP
                                                                                                                                                                                                      b
                                                                                                                                                                                                  $0.0       AGP
                                                                                                                                                                                                 $41.3       MHA
                                                                                                                                                                                                 $20.0 TALF               CDCI
     200                                                                                                                                                                                              c
                                                                                                                                                                                                  $0.0 TIP
                                                                                                                                                                                                      d
                                                                                                                                                                                                                          UCSB
                                                                                                                                                                                                 $70.6 Auto               PPIP
                                                                                                                                                                                                        Programs          AGP
                                                                                                                                                                                                                          MHA
     100                                                                                                                                                                                                                  TALF
                                                                                                                                                                                                 $69.8 SSFI
                                                                                                                                                                                                                          TIP
                                                                                                                                                                                                                          Auto
                                                                                                                                                                                                         e
                                                                                                                                                                                                                          Programs
                           0                                                                                                                                                                     $58.0 CPP                SSFI
       0                                                                                                                                                                                                                  CPP
           10/31 11/30 12/31 1/31 2/28 3/31 4/30 5/31 6/30 7/31 8/31 9/30 10/31 11/30 12/31 1/31 2/28 3/31                                                       4/30     5/31     6/30

                   2008                                                            2009                                                                        2010

           Notes: Numbers affected by rounding. The “planned expenditures” referenced throughout this report represent the funds Treasury currently plans to expend for each program and a majority of
           those are committed funds (e.g., signed agreements with TARP fund recipients).
           a
             The PPIP capital raising period is closed with $22.1 billion of TARP funds committed and will likely not increase above this level, yet Treasury's official budget still notes $30 billion in TARP
             funds allocated to the program.
           b
             Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This
             amount was not an actual outlay of cash. It was never disbursed and the agreement was terminated.
           c
             TIP funding of $40 billion had been repaid.
           d
             Auto programs include AIFP, ASSP, and AWCP. The following auto-related funding had been repaid: $10.1 billion for AIFP, $0.6 billion for AWCP, and all loans made under ASSP.
           e
             CPP funding of $146.9 billion had been repaid.

           Sources: Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call, 7/7/2010.



                                                                               Figure 2.4

                                                                                PLANNED EXPENDITURES OUTSTANDING, REPAYMENTS,
                                                                                AND REDUCTIONS IN EXPOSURE BY PROGRAM
                                                                                ($ BILLIONS, % of $498.3 BILLION)

                                                                                           AIFPb $84.8
                                                                                                             $14.3
                                                                                                                        SSFI $69.8
                                                                                               $70.6

                                                                                                                            TIP $40.0

                                                                                                                             AGP $5.0
                                                                                      $146.9
                                                                                                                            TALF $20.0
                                                                                                                          MHA $39.8                          Notes: Numbers affected by rounding. As of June 30, 2010, TIP
                                                                                                                                                             and AGP are excluded.
                                                                                                 $58.0                                                       a
                                                                                                                                                               As of 6/30/2010, $146.9 billion of CPP funding had been
                                                                                                                                                               repaid.
                                                                                                                                                             b
                                                                                CPPa $204.9                                                                    As of 6/30/2010, $14.3 billion related to AIFP loans had been
                                                                                                                PPIPc $30.0
                                                                                                                                               $30.4           repaid (including $641 million for AWCP and all loans under
                                                                                                                         PPIP $0.4                             ASSP).
                                                                                                             CDCI $1.0                                       c
                                                                                                                                                               The PPIP capital raising period is closed with $22.1 billion of
                                                                                               HFA $1.5
                                                                                                                                                               TARP funds committed and will likely not increase above this
                                                                                             UCSB $1.0                                                         level, yet Treasury’s official budget still notes $30 billion in
                                                                                                                                                               TARP funds allocated to the program.

                                                                                    Planned Expenditures Outstanding                                         Sources: Treasury, Transactions Report, 6/30/2010; Treasury,
                                                                                    Repayments and Reductions in Exposure                                    response to SIGTARP data call, 7/7/2010.
                                                                                                   quarterly report to congress I july 21, 2010                      49




Table 2.4

Debt Agreements
TARP            “Date of   Cost                     Description of                                                  Interest/                   Term of
Program Company Agreement” Assigned                 Investment           Investment Information                     Dividends                   Agreement
                                                                         Each QFI may issue senior securities with
                                                    Senior
                                                                         an aggregate principal amount of 1% –      3.1% for first 8 years;
                                                    Subordinated                                                                                30 years
                                                                         3% of its risk-weighted assets, but not to 13.8% thereafter
                                                    Securities
                                                                         exceed $25 billion.
CPP —
            52 QFIs     1/14/2009a $0.5 billion     Senior
S-Corps                                                                  Treasury will receive warrants to
                                                    Subordinated
                                                                         purchase an amount equal to 5% of the
                                                    Security Warrants                                               13.8%                       30 years
                                                                         senior securities purchased on the date
                                                    that are exercised
                                                                         of investment.
                                                    immediately
                                                                    This loan was funded incrementally;             For General
                                                                    $4 billion funded on 12/31/2008,                Advances — (i) the
                                                                    $5.4 billion funded on 1/21/2009,               greater of (a) 3-Month
                                                                    $4 billion funded on 2/17/2009.                 LIBOR or (b) 2% plus
                                                  Debt Obligation
            General                                                 Subsequently, this loan was then                (ii) 3%; For Warrant
AIFP                    12/31/2008 $19.8 billionb with Warrants and                                                                          12/29/2011
            Motors                                                  amended; $2 billion on 4/22/2009                Advances (i) the greater
                                                  Additional Note
                                                                    and $4 billion on 5/20/2009 (General            of (a) 3-Month LIBOR
                                                                    Advances). In addition, on 5/27/2009,           for the related Interest
                                                                    $361 million was set aside in an SPV for        Period or (b) 2% plus
                                                                    the AWCP (Warranty Advances).                   (ii) 3.5%
                                                                         This loan was exchanged for a portion
            General                                                      of GM’s common equity interest in
AIFP                    1/16/2009 $0.9 billion      Debt Obligation                                                 3-Month LIBOR + 3%          1/16/2012
            Motors                                                       GMAC LLC on 5/29/2009. See “Equity
                                                                         Agreement” table for more information.
                                                                         Loan of $4 billion; Additional note of     For General
                                                                         $267 million (6.67% of the maximum         Advances — (i) the
                                                                         loan amount). Subsequently, this loan      greater of (a) 3-Month
                                                                         was then amended; $500 million on          LIBOR or (b) 2% plus
                                                    Debt Obligation
                                                                         4/29/2009, this amount was never           (ii) 3%; For Warrant
AIFP        Chrysler    1/2/2009c   $4.8 billionb   with Additional                                                                          1/2/2012
                                                                         drawn and subsequentlly de-obligated       Advances (i) the greater
                                                    Note
                                                                         (General Advances). In addition, on        of (a) 3-Month LIBOR
                                                                         4/29/2009, $280 million was set aside      for the related Interest
                                                                         in an SPV for the AWCP, this advance       Period or (b) 2% plus
                                                                         was repaid (Warrant Advances).             (ii) 3.5%
                                                                         Loan was funded incrementally at
                                                                         $100 million per week until it reached
                                                    Debt Obligation      the maximum amount of $1.5 billion on “LIBOR + 1% for first
            Chrysler
AIFP                    1/16/2009 $1.5 billion      with Additional      4/9/2009. Additional note is $75 million year LIBOR + 1.5%             1/16/2014
            Financial
                                                    Note                 (5% of total loan size), which vests 20% for remaining years”
                                                                         on closing and 20% on each anniversary
                                                                         of closing.
                                                                         Loan of $3.0 billion committed to
                                                                         Chrysler for its bankruptcy period.
                                                    Debt Obligation      Subsequently, this loan was amended;    (i) the greater of (a)         9/30/2009,
AIFP        Chrysler    5/1/2009    $3.8 billion    with Additional      $757 million was added on 5/20/2009. 3-Month Eurodollar                subject to certain
                                                    Note                 Treasury funded $1.9 billion during     or (b) 2% plus (ii) 3.0%       conditions
                                                                         bankruptcy period. The remaining amount
                                                                         will be de-obligated.
                                                                                                                                              Continued on next page.
50               special inspector general I troubled asset relief program




      Debt Agreements (Continued)
     TARP            “Date of   Cost                                 Description of                                                                 Interest/                       Term of
     Program Company Agreement” Assigned                             Investment               Investment Information                                Dividends                       Agreement
                                                                                                                                                    For $2 billion: (i) The 3
                                                                                              Commitment to New CarCo Acquisition
                                                                                                                                                    Month Eurodollar Rate,
                                                                                              LLC (renamed Chrysler Group LLC on or
                                                                                                                                                    plus (ii) (a) 5% or, on
                                                                                              about 6/10/2009) of up to                                                             For $2 billion note:
                                                                                                                                                    loans extended past
                                                                                              $6.642 billion. The total loan amount                                                 12/10/2011;
                                                                                                                                                    the original maturity
                                                                                              is up to $7.142 billion including                                                     provided that
                                                                                                                                                    date, (b) 6.5%. For
                                                                     Debt Obligation          $500 million of debt assumed from                                                     issuer may extend
                                                                                                                                                    $5.142 billion note: (i)
                                                                     with Additional          Treasury’s 1/2/2009 credit agreement                                                  maturity for up
     AIFP         Chrysler        5/27/2009 $6.6 billion                                                                                            The 3-Month Eurodollar
                                                                     Note, Equity             with Chrysler Holding LLC. The debt                                                   to $400 million
                                                                                                                                                    Rate plus 7.91% and (ii)
                                                                     Interest                 obligations are secured by a first                                                    of principal to
                                                                                                                                                    an additional $17 million
                                                                                              priority lien on the assets of New CarCo                                              6/10/2017.  For
                                                                                                                                                    in PIK interest
                                                                                              Acquisition LLC (the company that                                                     other notes:
                                                                                                                                                    per quarter. For
                                                                                              purchased Chrysler LLC’s assets in a                                                  6/10/2017.
                                                                                                                                                    other notes: 3-Month
                                                                                              sale pursuant to Section 363 of the
                                                                                                                                                    Eurodollar Rate plus
                                                                                              Bankruptcy Code).
                                                                                                                                                    7.91%.
                                                                                                                                                    Orignally, (i) the greater
                                                                                              Original $30.1 billion funded. Amended                of (a) 3-Month Eurodollar
                                                                                                                                                                                    Originally
                                                                                              loan documents provided that                          or (b) 2% plus (ii) 3.0%.
                                                                                                                                                                                    10/31/2009, for
                                  6/3/2009,               Debt Obligation                     $986 million of the original DIP loan was             For amounts assumed
                  General                                                                                                                                                           amounts assumed
     AIFP                         amended   $30.1 billion with Additional                     left for the old GM. In addition $7.1 billion         by New GM, the interest
                  Motors                                                                                                                                                            by NewGM, June
                                  7/10/2009               Note                                was assumed by NewGM of which $0.4                    rates became (i) the
                                                                                                                                                                                    10, 2015, subject
                                                                                              billion was repaid resulting in $6.7 billion          greater of (a) 3-Month
                                                                                                                                                                                    to acceleration
                                                                                              remaining outstanding                                 Eurodollar or (b) 2% plus
                                                                                                                                                    (ii) 5%
                                                                                                                                                                                    The debt
                                                                                                                                                                                    obligation for
                                                                     Debt obligation
                                                                                              Each of the loans will be funded                                                      each fund matures
                                  “9/30/2009                         with contingent
     PPIP         ALL                        $20 billion                                      incrementally, upon demand by the fund                LIBOR + 1%                      at the earlier of
                                  and later”                         interest
                                                                                              manager.                                                                              the dissolution
                                                                     promissory note
                                                                                                                                                                                    of the fund or 10
                                                                                                                                                                                    years.
     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
     c
       Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.

     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
     12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and
     Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler, Indicative
     Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS,
     response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call, 7/7/2010.
                                                                                                    quarterly report to congress I july 21, 2010                      51




Table 2.5

Equity Agreements
TARP            “Date of                 Cost             Description of                                                                     Term of
Program Company Agreement”               Assigned         Investment                Investment Information                 Dividends         Agreement
                                                                                                                           “5% for first
                                                                                    1-3% of risk-weighted assets, not to
                                                          Senior Preferred Equity                                          5 years, 9%       Perpetual
CPP –                   “10/14/2008  a                                              exceed $25 billion for each QFI
            286 QFIs                     $200.1 billion                                                                    thereafter”
Public                  and later”
                                                          Common Stock
                                                                                    15% of senior preferred amount         —                 Up to 10 years
                                                          Purchase Warrants
                                                                                                                           “5% for first
                                                                                    1-3% of risk-weighted assets, not to
                                                          Preferred Equity                                                 5 years, 9%       Perpetual
                                                                                    exceed $25 billion for each QFI
                                                                                                                           thereafter”
CPP –                   “11/17/2008b
            369 QFIs                       $4.0 billion “Preferred Stock
Private                 and later”
                                                        Purchase Warrants
                                                                                    5% of preferred amount                 9%                Perpetual
                                                        that are exercised
                                                        immediately”
                                                          Non-Cumulative            $41.6 billion aggregate liquidation
                                                                                                                           10%               Perpetual
                                                          Preferred Equity          preference
                                                                                    2% of issued and outstanding
                                                                                    common stock on investment date
SSFI         AIG        4/17/2009        $41.6 billionc                             of 11/25/2008; the warrant was
                                                          Common Stock              originally for 53,798,766 shares
                                                                                                                           —                 Up to 10 years
                                                          Purchase Warrants         and had a $2.50 exercise price, but
                                                                                    after the 6/30/2009 split, it is for
                                                                                    2,689,938.30 shares and has an
                                                                                    exercise price of $50.
                                                                                    Up to $29.8 billion aggregate
                                                          Non-Cumulative            liquidation preference. As of                            Perpetual (life of the
                                                                                                                         10%
                                                          Preferred Equity          9/30/2009, the aggregate liquidation                     facility is 5 years)
SSFI         AIG        4/17/2009        $29.8 billiond
                                                                                    preference was $3.2 billion.
                                                          Common Stock              150 common stock warrants
                                                                                                                         —                   Up to 10 years
                                                          Purchase Warrants         outstanding; $0.00002 exercise price
                                                          Trust Preferred
                                                                                    $20 billion                            8%                Perpetual
                                                          Securities
TIP         Citigroup   12/31/2008       $20.0 billione
                                                                                    10% of total preferred stock issued;
                                                          Warrants                                                         —                 Up to 10 years
                                                                                    $10.61 exercise price
                                                                                                                                             Converts to common
                                                          Mandatorily Convertible
                                                                                  $5 billion                               9%                equity interest after
                                                          Preferred Stockg
                                                                                                                                             7 years
AIFP        GMAC Inc. 12/29/2008           $5.0 billion Preferred Stock
                                                                                                                                             Converts to common
                                                        Purchase Warrants
                                                                                    5% of original preferred amount        9%                equity interest after
                                                        that are exercised
                                                                                                                                             7 years
                                                        immediately
                                                                                                                                             Converts to common
                                                          Mandatorily Convertible
                                                                                  $4.5 billion                             9%                equity interest after
                                                          Preferred Stockh
                                                                                                                                             7 years
                                                        Preferred Stock
                                                                                                                                             Converts to common
AIFP        GMAC Inc. 5/21/2009            $7.5 billion Purchase Warrants
                                                                                    5% of original preferred amount        9%                equity interest after
                                                        that are exercised
                                                                                                                                             7 years
                                                        immediately
                                                          Common Equity
                                                                                    $3.0 billion                           —                 Perpetual
                                                          Interesth
                                                                                                                                           Continued on next page.
52                special inspector general I troubled asset relief program




      Equity Agreements                    (Continued)

     TARP            “Date of                            Cost                Description of                                                                                        Term of
     Program Company Agreement”                          Assigned            Investment                      Investment Information                             Dividends          Agreement
                                                                                                             This equity interest was obtained by
                                                                                                             exchanging a prior debt obligation
                                                                         Common Equity
     AIFP          GMAC Inc. 5/29/2009                      $0.9 billion                                     with General Motors. See “Debt                     —                  Perpetual
                                                                         Interest
                                                                                                             Agreements” table for more
                                                                                                             information.
                                                                             Trust Preferred
                                                                                                             $2.5 billion
                                                                             Securities
                                                                                                                                                                                   Redeemable upon
     AIFP          GMAC Inc. 12/30/2009                     $2.5 billion Trust Preferred                                                                        8%                 the repayment of the
                                                                         purchase warrants                                                                                         debenture
                                                                                                             5% of trust preferred amount
                                                                         that are exercised
                                                                         immediately
                                                                             Mandatorily Convertible
                                                                                                     $1.3 billion
                                                                             Preferred Stock
                                                                                                                                                                                   Converts to common
     AIFP          GMAC Inc. 12/30/2009                     $1.3 billion Preferred Stock                                                                        9%                 equity interest after
                                                                         Purchase Warrants                                                                                         7 years
                                                                                                             5% of preferred amount
                                                                         that are exercised
                                                                         immediately
                                                                             Trust Preferred
     AGP           Citigroup       12/23/2009               $2.2 billion
                                                                             Securities with warrants
                                                                                                                                                                                   8 years with the
                                                                                                             Each of the membership interest will
                                   “9/30/2009             $10.0 billion Membership interest                                                                                        possibility of
     PPIP          ALL                                                                                       be funded upon demand from the fund —
                                   and later”                           in a partnership                                                                                           extension for 2
                                                                                                             manager.
                                                                                                                                                                                   additional years.
                                                                        "Preferred Equity or
                                                                                                             5% of risk-weighted assets for banks "2% for first
                                                                        Subordinated Debt for
     CDCI          ALL                                   $780.2 million                                      and bank holding companies. 3.5% of eights years,
                                                                        banks, Subordinated
                                                                                                             total assets for Credit Unions       9% thereafter"
                                                                        Debt for credit unions"
     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CPP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
       Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
     f 
       Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 1/15/2009.
     g
       On December 30, 2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred shares (“MCP”).
     h
       On December 30, 2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 35% to 56% due to
       this conversion.

     Sources: “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program Agreement, (Non-
     Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of November 25, 2008 between
     American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Preferred Terms,”
     11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of
     Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009;
     Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred
     Terms,” 12/29/2008; Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call, 7/7/2010.
                                                                                                                                    quarterly report to congress I july 21, 2010      53




Table 2.6

 LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 6/30/2010
                                                                                                                                                                        Amount
                                                                                                                                                        “In” or “In the Money”
                                                                                Current Number                             Stock Price                   “Out” or “Out of the
                                                          Transaction               of Warrants                     Strike       as of                  of “the   Money” as of
Participant                                               Date                      Outstanding                      Price 6/30/2010                  Money?”a      6/30/2010
Capital Purchase Program (“CPP”):
Citigroup Inc.                                            10/28/2008                  210,084,034                  $17.85                 $3.76           OUT            ($14.09)
Hartford Financial Services Group, Inc.                   6/26/2009                    52,093,973                    $9.79              $22.13              IN             $12.34
Regions Financial Corporation                             11/14/2008                   48,253,677                  $10.88                 $6.58           OUT              ($4.30)
Fifth Third Bancorp                                       12/31/2008                   43,617,747                  $11.72               $12.29              IN                 $.57
Systemically Significant Failing
Institutions (“SSFI”) Program:
  AIGb                                                    11/25/2008                     2,689,938                 $50.00               $34.44            OUT            ($15.56)
  AIGb                                                    4/17/2009                                150               $0.00              $34.44              IN             $34.44
Targeted Investment Program (“TIP”):
  Citigroup Inc.                                          12/31/2008                  188,501,414                  $10.61                 $3.76           OUT              ($6.85)
Asset Guarantee Program (“AGP”):
  Citigroup Inc.                                          1/16/2009                    66,531,728                  $10.61                 $3.76           OUT              ($6.85)
Notes: Numbers affected by rounding.
a
  When a stock’s current price rises above the warrant’s strike price, it is considered “in the money.” Otherwise, it is considered “out of the money.”
b
  All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.

Sources: Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call, 7/7/2010; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.




Table 2.7

 Dividend and Interest Payments, by Program                                                 ($ MILLIONS)

                                  Dividends                        Interest              Distributions                                    Total
 AGP                        $366,046,667                                   —                             —                  $366,046,667
 AIFPa                     1,496,517,562                 $802,025,914                                    —                 2,298,543,476
 ASSP                                        —               14,874,984                                  —                      14,874,984
 CPP   b
                           9,427,600,009                     38,495,133                                  —                 9,466,095,142
 PPIP                                        —               28,606,605                  $61,126,630                            89,733,235
 TIP                       3,004,444,444                                   —                             —                 3,004,444,444
 Total               $14,294,608,682                    $884,002,636                    $61,126,630                   $15,239,737,948
 Notes: Numbers affected by rounding. Data as of 6/30/2010. This information does not reconcile to the “TARP Budget” provided by Trea-
 sury on 7/7/2010. Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not
 later than 30 days after the end of each quarter.
 a
   Includes AWCP.
 b
   Includes $13 million fee received as part of the Popular exchange.

 Source: Treasury, response to SIGTARP data call, 7/7/2010.
54   special inspector general I troubled asset relief program




                                            Homeowners Support Program
                                            The Administration created the Making Home Affordable (“MHA”) program on
                                            February 18, 2009, to help struggling homeowners reduce their monthly mortgage
                                            payments, thereby preventing avoidable foreclosures. MHA includes three major
                                            initiatives: a loan modification program (which itself includes several distinct sub-
                                            programs), a loan refinancing program, and support for the Government-sponsored
                                            enterprises (“GSEs”) — the Federal National Mortgage Association (“Fannie Mae”)
                                            and the Federal Home Loan Mortgage Corporation (“Freddie Mac”).47 These
                                            programs, along with the parallel programs at GSEs, make up what has been an-
                                            nounced as a $75 billion initiative.
                                                Of the anticipated $75 billion cost for MHA, $50 billion will be funded
                                            through TARP. TARP funds support the Home Affordable Modification Program
                                            (“HAMP”), the Home Affordable Foreclosure Alternatives (“HAFA”) program, the
                                            Second-Lien Modification Program (“2MP”), and the Hardest Hit Fund (“HHF”),
                                            along with the related Federal Housing Administration (“FHA”) HAMP and
                                            Refinance programs.48 TARP money is not used to make incentive payments for
                                            modifications related to loans owned or guaranteed by Fannie Mae and Freddie
                                            Mac. Instead, Fannie Mae and Freddie Mac pay incentives from their operating
                                            funds. When HAMP was announced, the Administration estimated that GSEs
                                            would contribute up to $25 billion to modify mortgages owned or guaranteed by a
                                            GSE.49
                                                MHA and related programs include the following initiatives:

                                            •	   Home Affordable Modification Program (“HAMP”) – HAMP is intended
                                                 to encourage loan servicers, through incentive payments, to modify eligible
                                                 first-lien mortgages so that the monthly payments of homeowners who are
                                                 currently in default or at imminent risk of default will be reduced to affordable
                                                 levels.
                                            •	   Home Price Decline Protection (“HPDP”) – HPDP is intended to encour-
                                                 age additional investor participation and HAMP modifications in areas with
                                                 recent price declines by helping to offset any incremental loss in value on
                                                 homes involving modifications that do not succeed.
                                            •	   Second Lien Modification (“2MP”) – 2MP is intended to modify second-
                                                 lien mortgages when a corresponding first lien is modified under HAMP.
                                                 Servicer participation in 2MP is not mandatory, and seven servicers participat-
                                                 ing in HAMP’s first-lien modification program have agreed to modify second
                                                 liens under 2MP.
                                            •	   Home Affordable Foreclosure Alternatives (“HAFAs”) – HAFA is intended
                                                 to enable servicers and borrowers to pursue short sales and deeds in lieu of
                                                 foreclosure for HAMP-eligible borrowers in cases in which the borrower is un-
                                                 able or unwilling to enter into a modification.
                                                                                quarterly report to congress I july 21, 2010           55




•	   Treasury FHA HAMP – Like its TARP counterpart, this initiative reduces
     participating borrowers’ monthly mortgage payments to 31% of their gross
     monthly income and requires them to complete a three-month trial payment
     plan.
•	   Treasury FHA Refinance – This initiative, a joint Treasury-Department of                Underwater Mortgage: When a home-
     Housing and Urban Development (“HUD”) effort, is intended to encourage                  owner owes more on the mortgage
     FHA refinancing of existing underwater mortgage loans not currently insured             than the home is worth. When a home’s
     by FHA. The incentives provided for extinguishment of second liens and addi-            value drops and/or when mortgage
     tional coverage of a share of potential losses on these loans, expected to reach        debt increases significantly, the home-
     up to $14 billion, will be part of MHA and paid for by TARP.                            owner has “negative equity” in that
•	   Home Affordable Unemployment Program (“UP”) – UP is intended to offer                   home.
     assistance to unemployed homeowners through temporary forbearance of a
     portion of their payments.
•	   Principal Reduction Alternative (“PRA”) – PRA is intended to offer mort-
     gage relief to eligible homeowners whose homes are worth significantly less
     than the remaining amounts outstanding under their first-lien mortgage loans.
•	   Housing Finance Agency (“HFA ”) Hardest-Hit Fund (“HHF”) – A TARP-
     funded program, HHF is intended to fund state-run foreclosure prevention
     programs in states hit hardest by the decrease in home prices and in states
     with high unemployment rates.

   Treasury expects to use the full $50 billion allocation in TARP funding for
MHA and related programs across several initiatives. It has announced specific al-
locations for some, but not all, of the TARP-related MHA and related programs:50

•	 Treasury has signed agreements worth up to $39.8 billion in HAMP-related
   incentives across the following programs:
   •	 Treasury has allocated up to $10 billion to pay mortgage investors through
      HPDP.
   •	 Treasury allocated $5.7 billion to 2MP. To date, seven servicers have executed
      2MP agreements.
   •	 Treasury further allocated $4.6 billion for foreclosure alternatives under
      HAFA, previously referred to as short-sales/deeds-in-lieu of foreclosure (“SS/
      DIL”).51
   •	 To date, Treasury has paid borrowers, servicers, and investors $247.5 million
      for first-lien modification and HAFA incentives. However, Treasury has not
      specified the estimated total costs for HAMP first-lien modifications, includ-
      ing those under PRA. PRA incentives will be paid based on details discussed
      later in this section.
•	 Treasury and HUD have also announced that TARP will fund up to $14 billion
   for the Treasury FHA Refinance Program.
•	 Treasury has allocated a total of $2.1 billion for the HFA HHF program.
56   special inspector general I troubled asset relief program




                                               The total of these anticipated costs, $55.9 billion, exceeds the $50 billion al-
                                            located by Treasury for MHA. As the programs in development are finalized, it is
                                            expected that Treasury will adjust these numbers to stay within its allocation.
                                               HAMP and three other TARP-funded initiatives have updates for this quarter.
                                            Accordingly, this section focuses on the status of TARP funds for HAMP, pro-
                                            gram performance, and progress made in implementing UP, PRA, and the HHF
                                            program.

                                            Status of TARP Funds Allocated to MHA and Related Programs
                                            Of the $50 billion allocated to MHA initiatives from TARP funds, Treasury reports
                                            that it has committed $41.3 billion. As of June 30, 2010, Treasury had signed
                                            agreements worth up to $39.8 billion with 119 loan servicers.52 Of that amount,
                                            a combined $247.5 million was spent on participant incentives; $247.4 million
                                            for permanent modifications (164,628 of which remain active), and $149,285 on
                                            incentives for HAFA.53 Of the combined amount for participant incentives, approxi-
                                            mately $162.3 million was used for incentive payments to servicers, $74.5 million
                                            went to investor incentive payments, and $10.7 million went to borrower incentive
                                            payments.54
                                                The amounts allocated for servicer incentives are not immediately paid. Rather,
                                            each allocation is the maximum amount, or cap, Treasury approved for each
                                            servicer based on the servicer’s eligible loan portfolio. The average allocation was
                                            $334.5 million.55 To date, the largest allocation was $8.4 billion in TARP funds to
                                            Countrywide Home Loans Servicing LP, owned by Bank of America.56

                                            HAMP
                                            According to Treasury, HAMP is designed “to help as many as three to four mil-
                                            lion financially struggling homeowners avoid foreclosure by modifying loans to a
                                            level that is affordable for borrowers now and sustainable over the long term.” The
                                            Administration envisions a “shared partnership” between the Government and
                                            investors to bring borrowers’ first-lien monthly payments down to an “affordable”
                                            level — defined as a 31% of the borrower’s monthly gross income.
                                                Under the existing program, the private-sector investor is responsible for all
                                            payment reductions necessary to bring a borrower’s monthly payment down to
                                            38% of the borrower’s monthly gross income. The additional reductions needed to
                                            bring the monthly payment down to a 31% ratio will be shared equally between the
                                            investor and the Government.57 Under the anticipated changes to the program, in
                                            addition to compensating investors for the reduction of payments from a 38% to a
                                            31% monthly mortgage payment ratio, Treasury will also compensate investors for
                                            reducing principal on certain underwater mortgages.58
                                                For trial modifications with an effective date of June 1, 2010, or later, borrowers
                                            request participation in HAMP by sending their servicers the following documents,
                                            referred to as the “initial package:”59
                                                                                quarterly report to congress I july 21, 2010           57




•	 financial information from borrower and co-borrower including the source of
   the hardship
•	 signed and completed requests for tax return transcripts (or the most recent
   Federal income tax return, including all schedules and forms)
•	 income verification documentation (employment income, rental income, etc.)

Trial Plan Evaluation
Upon receipt of the initial package, the servicer must verify the accuracy of
the borrower’s income and other eligibility criteria before offering the borrower
                                                                                             Trial Modification: Under the design of
a trial modification plan. After verifying eligibility and income, the servicer              HAMP, a trial modification is generally
follows the modification steps, as prescribed by HAMP program guidelines,                    intended to last three months.
to reduce the borrower’s monthly mortgage payment to 31% of gross monthly
income.60
    Under the program guidelines, the servicer would first capitalize interest and
fees (i.e., add them to the outstanding principal balance), then reduce the inter-
est rate to as low as 2%. If that is not sufficient to lower the monthly mortgage
payment to 31% of gross monthly income, it would then extend the term up to
a maximum of 40 years. If both measures still prove insufficient, it may finally
forbear principal, to bring the monthly mortgage payment to 31% of the borrower’s
income. Servicers are allowed, but not required, to forgive principal to achieve the
debt-to-income ratio goal of 31% on a stand-alone basis or before any of the other
HAMP modification waterfall steps.61 Finally, the servicer completes a net present
value (“NPV”) evaluation to ensure that the modification is in the best interest of
the investor. The NPV test compares expected cash flows from a modified loan to
the same loan with no modifications, based on certain assumptions. A positive NPV
result indicates that a modified loan is more valuable to the investor, and, in that
case, the servicer must offer a mortgage modification to the borrower. If the test
generates a negative result, modification is optional.62
    Under the parallel GSE program, servicers are required to offer a trial modifica-
tion if the NPV test generates a negative result of up to $5,000. In other words, in
the GSE program, even if the NPV test indicates that a modified mortgage would
be worth $5,000 less to an investor, it still must offer the modification.

How Trial Modifications Work
As originally intended, the trial period plan would last 90 days; however, according
to Treasury, for June 2010, there were 364,077 active trials of which approximately
166,000, or 45.6%, were more than six months in length.63
    The trial period includes three modified payments, and, if the borrower is
current at the end of the trial period and the servicer has verified the borrower’s
income based on the borrower’s submitted paperwork, the borrower will be offered
a permanent modification with the new lower mortgage payments fixed for five
58   special inspector general I troubled asset relief program




                                            years.64 After five years, the interest rate can increase if the modified interest rate
                                            was reduced below the current 30-year conforming fixed interest rate at the date of
                                            the initial modification, in which case it can incrementally rise by up to 1% per year
                                            until it reaches that rate. Otherwise, the modified interest rate remains permanent.
                                            If the borrower fails to make payments during the trial period and therefore fails to
                                            gain a permanent modification, the difference between the original mortgage pay-
                                            ment and the reduced trial payment is still owed.

                                            Modification Incentives
                                            Servicers receive a one-time payment of $1,000 for each completed modification
                                            under HAMP. Servicers receive an additional $500 if the loan was current but at
                                            imminent risk of default prior to the trial period plan. Servicers also receive annual
                                            “pay for success” fees of up to $1,000 for a period of three years if the borrower
                                            remains in good standing (less than 90 days delinquent) on the modified loan.”65
                                                Borrowers receive “pay for performance” incentive payments of up to $1,000
                                            per year for five years (applied annually as a reduction in principal balance) as long
                                            as they are current on their monthly payments.66
                                                An investor is entitled to compensation, for up to five years, equaling one-half of
                                            the dollar difference between the borrower’s monthly portion of principal and inter-
                                            est when the payment is based on 31% of gross monthly income and the lesser of
                                            (1) what the borrower’s monthly principal and interest would be at 38% or (2) the
                                            borrower’s pre-modification monthly principal and interest payment. This compen-
                                            sation is known as the monthly reduction cost-share payment. If applicable, inves-
                                            tors also earn an extra one-time up-front payment of $1,500 for modifying a loan
                                            that was current prior to the trial period (imminent default).67 Additionally, during
                                            the first two years, investors might receive compensation through HPDP. HPDP
                                            compensation is based on a home value index designed to partially offset investor
                                            losses due to modifying loans in markets that have experienced, or are expected to
                                            continue to experience, a sharp decline in home values.
                                                All incentives are paid only after a loan has been permanently modified.

                                            Servicer Performance
                                            The Administration releases a monthly servicer performance report intended to
                                            “document the number of struggling homeowners already helped under the [MHA]
                                            program, provide information on servicer performance and expand transparency
                                            around the initiative.”68 New information on aged trial modifications, compliance
                                            review results, and canceled trial modifications was included starting with the
                                            May 2010 Servicer Performance Report.69 In addition, Treasury and HUD intro-
                                            duced, on June 21, 2010, a monthly scorecard on the nation’s housing market that
                                            incorporates the monthly Making Home Affordable Program Servicer Performance
                                            Report. According to these agencies, each month the scorecard will incorporate
                                                                                                                     quarterly report to congress I july 21, 2010                               59




housing market indicators and highlight the impact of the Administration’s housing                                            Table 2.8
recovery efforts, including assistance to homeowners through the Federal Housing
                                                                                                                               Breakdown of incentive
Administration (“FHA”) and HAMP.70
                                                                                                                               payments, As of 6/30/2010
                                                                                                                               ($ Thousands)

Modification Statistics                                                                                                       First-Lien Modification Incentives
As of June 30, 2010, a total of 753,275 mortgages are currently being modified,                                               Servicer Incentive Payment
                                                                                                                              ($1,000)                                      $145,444.0
either permanently or on a trial basis under HAMP. Of those, 389,198 were active
                                                                                                                              Servicer Current Borrower
permanent modifications and 364,077 were active trial modifications. The break-                                               Incentive Payment ($500)                           5,592.0
down of incentive payments is shown in Table 2.8. A snapshot of HAMP modifi-                                                  Annual Servicer Pay for Success                  11,259.2
cations is shown in Table 2.9. HAMP modification activity by GSE/non-GSE is                                                   Investor Current Borrower
shown in Table 2.10.                                                                                                          Incentive Payment ($1,500)                       16,029.0
                                                                                                                              Investor Monthly Reduction Cost
                                                                                                                              Sharea                                           57,743.6
                                                                                                                              HPDP                                                  679.8
Table 2.9                                                                                                                     Annual Borrower Pay for
 HAmp snapshot, as of 6/30/2010                                                                                               Success                                          10,619.1
Number of HAMP Trials Started Since Program Inception                                  1,282,912                              Total                                      $ 247,366.7
Number of Trial Modifications Cancelled                                                   520,814                             HAFA Incentives
Number of Permanent Modifications Cancelled                                                  8,823                            Servicer Incentive Payment                            $43.5
Notes: Survey data provided by servicers. Trial and permanent modifications as reported by the HAMP                           Investor Reimbursement                                     18.8
system of record.
                                                                                                                              Borrower Relocation                                        87.0
Source: Treasury, response to SIGTARP data call, 7/14/2010.
                                                                                                                              Total                                              $149.3
                                                                                                                              Notes: Numbers affected by rounding
                                                                                                                              a
                                                                                                                                Investor Monthly Reduction Cost Share is considered an
                                                                                                                                incentive payment

                                                                                                                              Source: Treasury, response to SIGTARP data call, 6/7/2010.



Table 2.10

 HAMP modification activity by gse/non-gse, as of 6/30/2010                                                   ($ Billion)
                                                                                Trials                                           Permanents
                       Trials            Trials                Trials    Converted to           Permanents     Permanents          Active and
                     Started         Cancelled                Active      Permanent               Cancelled        Active        Trials Active
GSE                 714,652             282,765           202,408               229,479               4,909         224,570            426,978
Non-GSE             568,260             238,049           161,669               168,542               3,914         164,628            326,297
Total           1,282,912              520,814           364,077               398,021                8,823        389,198            753,275
Source: Treasury, response to SIGTARP data call, 7/13/2010.
60   special inspector general I troubled asset relief program




                                            Table 2.11

                                             top five hamp servicers by number of permanent modifications
                                                                                                                                                Permanent
                                                                                      Estimated                                        Modifications as a
                                                                                         Eligible           Active Trial  Permanent Share of Estimated
                                            Servicer                                 Mortgagesa           Modificationsb Modifications Eligible Mortgages

                                            Bank of America, NAc                       1,040,470                   121,369                72,232                              7%

                                            JPMorgan Chase Bank, NAd                     404,084                    63,259                54,722                            14%
                                            Wells Fargo Bank, NA       e
                                                                                         363,559                    30,949                44,628                            12%
                                            CitiMortgage, Inc.                           217,189                    27,965                40,813                            19%
                                            GMAC Mortgage, Inc.                            49,452                     6,083               27,505                            56%
                                            Notes:
                                            a
                                              Estimated eligible mortgages with 60+ day delinquencies are as of 5/31/2010.
                                            b
                                              Active trial and permanent modifications as reported into the HAMP system of record by servicers are as of 6/30/2010.
                                            c
                                              Bank of America, NA includes Bank of America, NA, BAC Home Loans Servicing LP, Home Loan Servicers, and Wilshire Credit Corporation.
                                            d
                                              JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
                                            e
                                              Wells Fargo Bank, NA includes a portion of the loans previously included in Wachovia Mortgage, FSB.

                                            Source: Treasury, response to SIGTARP data call, 7/14/2010.




                                                Activity by the five servicers initiating the most permanent HAMP modifications
                                            is shown in Table 2.11.
                                                The number of cancellations of mortgage modifications has increased as deci-
                                            sions on aged trials are being reached. According to HUD and Treasury, HAMP
                                            cancellations increased “because many borrowers who received temporary modifi-
                                            cations were not able to meet eligibility requirements such as verifying their income
                                            and successfully making trial payments.”71 Other common causes of cancellations
                                            include borrowers who had mortgage payments already less than 31% of their
                                            income or who did not occupy the property as their primary residence.72

                                            Unemployment Program (“UP”)
                                            The Home Affordable Unemployment Program (“UP”) was announced on March
                                            26, 2010, to provide temporary assistance to unemployed borrowers while they
                                            search for new employment.73
                                                On May 11, 2010, Treasury released Supplemental Directive 10-04, which
                                            provides detailed guidelines for servicers to follow when offering UP to borrowers.74
                                            Under the program, borrowers who meet certain qualifications can receive unem-
                                            ployment forbearance for a portion of their mortgage payments for at least three
                                            months, unless they regain employment. According to the supplemental directive,
                                            “[s]ervicers may extend the minimum forbearance period in increments at the ser-
                                            vicer’s discretion, in accordance with investor and regulatory guidelines.”75
                                                Before Supplemental Directive 10-04 was issued, servicers were required to
                                            consider unemployment insurance benefits as income when assessing a borrower
                                            for HAMP eligibility if the borrower could document that the income would
                                                                                quarterly report to congress I july 21, 2010   61




continue for at least nine months.76 UP changes this practice for trial period plans
effective on or after August 1, 2010, at which time servicers will no longer be per-
mitted to consider unemployment insurance benefits as a source of income when
evaluating a borrower for HAMP.77

Who Is Eligible
For borrowers who meet UP eligibility criteria, all HAMP participating servicers are
required to offer a UP forbearance plan of at least three months’ duration. In order
to be eligible for UP, a borrower must meet the following criteria:78

•	 The borrower is otherwise HAMP eligible.
•	 The mortgage loan is secured by a one- to four-unit property, one unit of
   which is the borrower’s principal residence. The property cannot be vacant or
   condemned.
•	 The mortgage loan is a first-lien mortgage originated on or before January 1,
   2009.
•	 The mortgage’s unpaid principal balance is equal to or less than $729,750.
•	 The mortgage has not been modified under HAMP previously, nor has the bor-
   rower received UP forbearance previously.
•	 The UP request must be made before the first-lien mortgage loan is seriously
   delinquent, i.e., three months or more overdue.
•	 The servicer may, pursuant to investor or regulator guidelines, require a bor-
   rower to have received unemployment benefits for up to three months before
   the forbearance period will begin.
•	 The borrower is unemployed when making the UP request and can document
   receipt of unemployment benefits.

    Borrowers enrolled in the HAMP trial period plan who lose their jobs may seek
UP consideration as long as they were not seriously delinquent (more than 90 days)
as of the date they were first considered for HAMP. If the borrower becomes eligi-
ble for the unemployment forbearance plan and accepts the plan offer, the servicer
must cancel the HAMP trial period plan. Eligible borrowers may request a new
trial period plan after the forbearance plan is completed. In addition, those borrow-
ers who were enrolled in HAMP trial period plans using unemployment benefits
as income (e.g., they were already unemployed upon receipt of their HAMP trial
period plan) may request to drop their HAMP trial period plan in order to enroll for
an UP forbearance plan. A borrower who was previously determined ineligible for
HAMP may request assessment for an UP forbearance plan if he or she meets all
eligibility criteria.
62   special inspector general I troubled asset relief program




                                            How UP Works
                                            For qualifying homeowners, the mortgage payments during the forbearance period
                                            will be lowered to no more than a maximum of 31% of gross monthly income,
                                            including unemployment benefits.79 According to the supplemental directive, “at
                                            the discretion of the servicer, the borrower’s monthly mortgage payments may be
                                            suspended in full.”80 The duration of the UP forbearance plan is required to be a
                                            minimum of three months, unless the borrower becomes employed within that
                                            time.
                                                If the borrower regains employment but because of reduced income still has a
                                            hardship, the borrower must be considered for HAMP and, if eligible, the amount
                                            of the arrearage or forbearance will be added to the principal balance to be modi-
                                            fied. Conversely, if the borrower regains employment and is no longer in need of
                                            or eligible for a HAMP modification, the amount of arrearage or forbearance will
                                            become due. If the UP forbearance period expires before the borrower gets a job,
                                            the borrower might be eligible for HAMP foreclosure alternatives, such as HAFA.81

                                            Applying UP to Borrowers
                                            As with other HAMP-related initiatives, the supplemental directive governing
                                            UP allows for use of discretion across servicers in several areas. For example, as
                                            previously noted, beyond the required minimum three-month period, the servicer
                                            has discretion as to how long a borrower’s forbearance plan will remain in effect.
                                            Additionally, in accordance with investor and regulator guidelines and applicable
                                            laws and regulations, the servicer may reduce the borrower’s monthly payment be-
                                            low 31% of gross monthly income or suspend it altogether during the forbearance
                                            period. Servicers must have written, consistently applied procedures to determine
                                            UP forbearance payments.
                                                Treasury is allowing servicers to rely on verbal financial information provided
                                            by the borrower to determine homeowner eligibility for UP. Servicers may use a
                                            borrower’s stated income when calculating the borrower’s monthly payment, which
                                            must be reduced to an amount that is no more than 31% of the borrower’s gross
                                            monthly income.82

                                            PRA	
                                            On June 3, 2010, Treasury released Supplemental Directive 10-05, which provides
                                            guidance to servicers concerning offering mortgage relief to eligible homeowners
                                            whose homes are worth significantly less than the remaining amounts outstand-
                                            ing under their first-lien mortgage loans. The Principal Reduction Alternative
                                            (“PRA”) program guidance is only applicable to non-GSE loans and does not cover
                                            loans owned, guaranteed, or insured by FHA, Veterans Affairs, Freddie Mac, or
                                            Fannie Mae.39 According to the guidance, PRA officially takes effect on the later
                                                                                  quarterly report to congress I july 21, 2010   63




of October 1, 2010, or the implementation date of version 4 of the NPV test.
Servicers were permitted, however, to begin offering PRA assistance immediately
following the release of Supplemental Directive 10-05.
    Prior to PRA, servicers were allowed to forgive principal to achieve the debt-to-
income ratio goal of 31% on a stand-alone basis or before any of the other HAMP
modification waterfall steps but would not receive additional incentive payments
for doing so.83 PRA does not require servicers to forgive principal, even when doing
so is deemed to offer greater financial benefit to the investor, in contrast with other
aspects of HAMP.

Who Is Eligible
PRA is intended to offer relief to underwater borrowers, in other words, those who
owe significantly more on their first-lien mortgage loans than their homes are cur-
rently worth (also referred to as negative equity). Under PRA, servicers are required
to evaluate the benefit of a principal write-down for all borrowers who owe more
than 115% of their home’s value.84
    According to Treasury, borrowers already in HAMP trial period plans or HAMP
permanent modifications may eventually be evaluated for PRA assistance.85
However, Treasury has not yet issued an anticipated supplemental directive provid-
ing additional guidance on these evaluations, nor has it provided specifics regarding
the anticipated release date for such guidance.

How PRA Works
Principal forbearance divides a mortgage loan into two segments, one interest-
bearing and the other not. The borrower continues to make regular principal and
interest payments on the interest-bearing segment. In a modification, no monthly
payments are due with respect to the non-interest-bearing segment. Rather, that
segment, representing the principal forbearance amount, is due as an additional
lump-sum or “balloon” payment at the earlier of the sale of the property or the
eventual maturity of the mortgage. Under PRA, if the borrower is in good standing
on the first, second, and third anniversaries of the modification, the servicer must
reduce the principal balance in the separate forbearance account on each anniver-
sary date in installments equal to one-third of the initial PRA forbearance amount.
    As previously stated, servicers are required to evaluate for PRA assistance every
HAMP-eligible loan with a loan-to-value ratio greater than 115%. The servicer
will do so by running two different NPV tests, using methodologies prescribed by
Treasury, reserving the option to modify the borrower’s loan either with or without
principal forgiveness.86 As described by Treasury, the servicer’s decision between
the two NPV tests — one with and one without principal forgiveness — is expected
64   special inspector general I troubled asset relief program




                                            to be based upon the outcome that offers the greater expected financial benefit to
                                            the investor holding the loan. However, servicers are not required to offer principal
                                            reduction regardless of the two NPV results; they are simply required to consider
                                            PRA-eligible borrowers for such assistance.
                                                The two versions of the NPV test differ in the following manner: the original
                                            NPV test calculates investor return if the mortgage is modified per standard HAMP
                                            procedure, described above. The servicer runs a second NPV test in two steps: first
                                            they reduce principal down to 115% of loan to value at the beginning of the pro-
                                            cedure and then follow the standard HAMP procedure with the reduced principal
                                            to calculate the return to investors if the mortgage is modified through principal
                                            reductions, including payments from Treasury.87

                                            Who Gets Paid
                                            According to Treasury’s Supplemental Directive 10-05, in addition to the other
                                            incentives that are paid for first-lien modifications, investors will be compensated
                                            for a percentage of the dollar value of the principal forgiven in the same three an-
                                            niversary years of the modification referred to above. Incentives range from 6 to 21
                                            cents on the dollar, depending on the extent of the delinquency or the loan-to-value
                                            ratio.88 Table 2.12 shows the schedule under which investors will be compensated
                                            for forgiving principal. This schedule, however, is only applicable to those loans
                                            equal to or less than six months delinquent within the previous year. For loans
                                            more than six months delinquent within the previous year, investors will be paid
                                            $0.06 per dollar of principal reduction, regardless of the loan-to-value ratio range.89
                                                The supplemental directive states that, although servicers may reduce the mort-
                                            gage principal below the floor of 105% loan-to-value ratio, no PRA incentives will
                                            be paid for that portion of the principal reduction amount.




                                            Table 2.12
                                             Incentives to Investors Per Dollar of Loan Principal Reduced
                                            Mark-to-Market Loan-to-Value
                                                                                       105 < 115                            115 to 140               > 140
                                            Ratio Range
                                            Incentive Amount                           $0.21                                $0.15                    $0.10
                                            Source: Treasury, “Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/hamp_
                                            servicer/sd1005.pdf, accessed on 7/2/2010.
                                                                                quarterly report to congress I july 21, 2010                          65




                                                                                          Figure 2.5

HFA Hardest-Hit Fund                                                                      AMOUNT ALLOCATED TO EACH STATE
                                                                                          ($ MILLIONS)
On February 19, 2010, the Obama Administration announced a new housing
support program, the HFA Hardest-Hit Fund. The first round of the HHF was                 South Carolina $138.0                 Arizona $125.1
allocated $1.5 billion out of the $50 billion designated for MHA initiatives and is
                                                                                          Rhode Island $43.0
intended to promote innovative measures to help families in the states that have
                                                                                          Oregon $88.0
been hit the hardest by the aftermath of the housing crisis.90 According to Treasury,
funds were designated for five states (Arizona, California, Florida, Michigan, and        Ohio $172.0

Nevada) where the average home price, determined using the Federal Housing                North Carolina                                     California
Finance Agency’s (“FHFA”) Purchase Only Seasonally Adjusted Index, had de-                $159.0                                             $699.6

creased more than 20% from its peak. On June 23, 2010, Treasury announced that            Nevada $102.8

it had approved the use of $1.5 billion of HHF for the programs submitted by the
first round of states.91
                                                                                          Michigan $154.5                  Florida $418.0
    On March 29, 2010, the program expanded to five more states, and its
potential funding increased by $600 million, bringing the total funding for HHF to        Note: Numbers affected by rounding.

$2.1 billion. The additional $600 million is designated for North Carolina, Ohio,         Sources: Treasury, “HFA Hardest-Hit Fund FAQS,” 3/5/2010,
                                                                                          www.makinghomeaffordable.gov/docs/HFA%20FAQ%20%20030
Oregon, Rhode Island, and South Carolina, which Treasury indicated were selected          510%0FINAL%20(CLEAN).Pdf, accessed 6/25/2010; Treasury,
                                                                                          “Update to HFA Hardest-Hit Fund FAQS,” 3/29/2010,
because of high concentrations of people living in economically distressed areas,         http://financialstability.gov/docs/Hardest%20Hit%20public%20Q
                                                                                          A%200%2029%2010.pdf, accessed 6/25/2010.
defined as counties in which the unemployment rate exceeded 12%, on average, in
2009.92 As of June 23, 2010, Treasury was reviewing proposals submitted for the
second round of funding under the HHF program. Figure 2.5 shows the allocation
of funds for all participating states to date.
    The Housing Finance Agencies (“HFAs”) of the 10 participating states each
submitted proposals to Treasury to address their states’ unique challenges. Program
proposals for the first five states were submitted to Treasury on April 16, 2010, and
were approved on June 23, 2010. Proposals for the second five states were submit-
ted on June 1, 2010, and Treasury is expected to approve them by early August
2010. According to Treasury, each state’s HFA will report program performance
on a quarterly basis and post the reports on their websites. Some states will initi-
ate a pilot program to assess program performance before full implementation.
Individual state laws, staffing levels of the HFAs, and the relative complexity of
each state’s program are some of the reasons that explain the variance in the avail-
ability of programs.93
66                 special inspector general I troubled asset relief program




     The Hardest Hit Fund – State-by-State Description



      Arizona
                                                                                                                                                             Estimated
                                                                                                                                                             Number of
                                                                                                                                                             Borrowers
     Description                                                                                                                              Allocation        Helped
     Permanent modification component is designed to help homeowners avoid foreclosure by permanently modifying
     a borrower’s primary mortgage to achieve a monthly payment that does not exceed 31% of the borrower’s
     monthly income. Loan modifications may include principal reduction (the amount of any principal reduction
                                                                                                                                           $92,400,000     1,848–3,080
     provided by HHF program funds must be matched by a borrower’s lender/servicer), interest rate reduction, and/
     or term extension. The Permanent Modification Component aspires to achieve a 90% success rate in modifying
     loans with the borrowers’ lenders/servicers.
     Second-mortgage assistance component is designed to help homeowners avoid foreclosure by eliminating
     a second mortgage if necessary to modify the terms of the primary loan, and to reduce the likelihood that a
                                                                                                                                             7,500,000     1,500–1,875
     borrower will re-default under the primary loan as a result of the burden of a second mortgage. The amount of any
     principal reduction must be matched by a borrower’s lender/servicer.
     Temporary modification component is designed to help homeowners remain in their homes and prevent avoidable
     foreclosures despite loss of income due to unemployment or underemployment. The funds will reduce past-due
     payments, and provide borrowers additional time to find alternate employment and replace income needed
     to make mortgage payments. The Temporary Modification Component is designed to complement other                                        12,000,000     1,000–1,428
     components of the HHF program. Funds available under the Temporary Modification Component may also be
     applied to remove second mortgages as necessary to modify the terms of the primary loan. The amount of any
     principal reduction must be matched by a borrower’s lender/servicer.
     Administrative Costs                                                                                                                   13,200,000            N/A
     Total                                                                                                                                $125,000,000     4,348–6,383
     Source: Treasury, “Arizona’s proposal,” 06/10/2010, http://www.financialstability.gov/roadtostability/AZ.pdf, accessed 06/26/2010.




      california
                                                                                                                                                             Estimated
                                                                                                                                                             Number of
                                                                                                                                                             Borrowers
     Description                                                                                                                              Allocation        Helped
     The Unemployment Mortgage Assistance Program subsidizes mortgage payments for up to six months, paying
     half of the monthly payment up to $1,500. The borrower will be required to contribute no more than 31% of gross
                                                                                                                                            $64,700,000          8,953
     monthly household income toward the monthly mortgage payment. The goal of the program is for the applicable
     servicer/lender to match the funds.
     The Mortgage Reinstatement Assistance Program pays half of past-due first mortgage amounts up to $15,000.
                                                                                                                                            129,400,000         17,293
     The goal of the program is for the applicable servicer/lender to match the funds.
     The Principal Reduction Program pays up to $50,000 over three years to reduce principal owed on qualifying
                                                                                                                                            420,729,999         13,375
     properties with negative equity. The goal of the program is for the applicable servicer/lender to match the funds.
     Transition Assistance Program funds would be available on a one-time-only basis up to $5,000 per household and
     could be used or layered with other CalHFA MAC HHF programs. All funds will be sent to the servicer, subject to
     servicer/investor approval of short sale or deed-in-lieu of foreclosure. Funds are intended to help the borrower                        32,300,000          6,471
     pay the costs of securing new housing (e.g., rent, moving expenses, and security deposits) and will be available
     for transition assistance counseling services.
     Administrative Costs                                                                                                                   52,470,001            N/A
     Total                                                                                                                                $699,600,000          46,092
     Source: Treasury, “California’s proposal,” no date, http://www.financialstability.gov/roadtostability/CA.pdf, accessed 06/26/2010.
                                                                                                                                  quarterly report to congress I july 21, 2010           67




 florida
                                                                                                                                                                             Estimated
                                                                                                                                                                             Number of
                                                                                                                                                                             Borrowers
Description                                                                                                                                                Allocation           Helped
The mortgage intervention strategy focuses on the creation of a sustainable solution to keep unemployed or
underemployed Florida homeowners in their current homes by helping those who are struggling to make their cur-
rent mortgage payments because of hardships sustained since purchasing their homes. Florida Housing will use
HHF Program funds to pay up to nine months of mortgage payments on behalf of a qualified homeowner. It is an-
                                                                                                                                                       $379,586,200       7,500–12,500
ticipated that in return for these funds, the bank, credit union, or mortgage investor will forgive up to nine months
of payments. This partnership will potentially extend the time period for homeowners to become re-employed, to
up to 18 months, at a salary that is sufficient to allow them either to resume making full mortgage payments or to
qualify for a mortgage modification that will lower the payments and terms of the mortgage to an affordable level.
Administrative Costs                                                                                                                                    38,413,800                N/A
Total                                                                                                                                               $ 418,000,000        7,500–12,500
Source: Treasury, “Florida’s proposal,” no date, http://www.financialstability.gov/roadtostability/FL.pdf, accessed 06/26/2010.




 michigan
                                                                                                                                                                            Estimated
                                                                                                                                                                            Number of
                                                                                                                                                                            Borrowers
Description                                                                                                                                                Allocation          Helped
The Principal Curtailment Program will provide a one-time matching fund of up to $10,000 to homeowners seek-
ing to modify their loans. The Lender/Servicer must agree to provide matching forgiveness of principal overhang                                         $30,400,000              3,044
and to modify the reduced loan balance.
Loan rescue will provide up to $5,000 in assistance to households who can now sustain homeownership, catch
                                                                                                                                                          15,500,000             3,090
up on delinquent payments, and avoid foreclosure.
Unemployment Mortgage Subsidy Program is a one-time fund that will assist the borrower in retaining homeown-
ership by subsidizing 50% or $750 (whichever is less) of their mortgage payments during their time of unemploy-
                                                                                                                                                          99,791,861     11,090-16,500
ment. The assistance will not exceed a total of 12 consecutive months or $9,000. Homeowners will continue to
be responsible for the remaining 50% of their monthly payment.
Administrative Costs                                                                                                                                      8,808,139               N/A
Total                                                                                                                                                 $154,500,000 17,224–22,634
Source: Treasury, “Michigan’s proposal,” 04/14/2010, http://www.financialstability.gov/roadtostability/MI.pdf, accessed 06/26/2010.
68                special inspector general I troubled asset relief program




      nevada
                                                                                                                                                        Estimated
                                                                                                                                                        Number of
                                                                                                                                                        Borrowers
     Description                                                                                                                         Allocation        Helped
     The goal of the Principal Reduction Program is to reduce first-mortgage principal balances throughout the state
     of Nevada such that the loan-to-value ratios are reduced to 115% or less and, correspondingly, the principal,                     $59,743,055    2,468–5,000
     interest, taxes, and insurance (“PITI”) payment is reduced to 31% or less of the homeowner’s gross income.
     The goal of the Second-Mortgage Reduction Program is to assist families remove the impediment of a second
     lien on their property such that either a refinancing or first-mortgage modification can be carried out, thus                      20,100,000          1,246
     preventing foreclosure.
     The Short-Sale Acceleration Program is designed so that at a $8,025 level of average funding per family facing
     imminent foreclosure threat due to unemployment, it will eliminate the burden of their home mortgage and                            6,300,000          1,713
     remove threats of a default judgment.
     Administrative Costs                                                                                                               16,656,945           N/A
     Total                                                                                                                            $102,800,000    5,427–7,959
     Source: Treasury, “Nevada’s proposal,” no date, http://www.financialstability.gov/roadtostability/NV.pdf, accessed 06/26/2010.
                                                                                 quarterly report to congress I july 21, 2010                             69




Financial Institution Support Programs
Treasury created five TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Two, the Capital Purchase Program (“CPP”) and the Capital Assistance Program
(“CAP”), were open to all qualifying financial institutions (“QFIs”). The other three,
the Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
available on a case-by-case basis to institutions needing assistance beyond that
available through CPP. Treasury has agreed, for some institutions, to modify the
investment by converting the preferred stock shares it originally received into other
forms of equity, such as common stock or mandatorily convertible preferred stock,
to help improve the capital structure of struggling TARP recipients.94 Treasury does
not expect to make new investments through any of these programs.
    As of June 30, 2010, CPP, CAP, TIP, and AGP were effectively closed to new
investment. For further information on the closing of these programs, see previous
SIGTARP Quarterly Reports.

Capital Purchase Program
Treasury’s stated goal for CPP was to invest in healthy, viable banks as a way to
promote financial stability, maintain confidence in the financial system, and permit
lenders to meet the nation’s credit needs.95 CPP was a voluntary program open to
all QFIs through an application process. QFIs included U.S.-controlled banks, sav-
                                                                                              Figure 2.6
ings associations, and certain bank and savings and loan holding companies.96
    Under CPP, Treasury used TARP funds to purchase preferred equity interests in            SNAPSHOT OF CPP FUNDS
QFIs. The QFIs issued Treasury senior preferred shares that pay Treasury a 5% divi-          OUTSTANDING AND REPAID,
                                                                                             BY QUARTER
dend for the first five years following Treasury’s investment and a rate of 9% per year      ($ BILLIONS)
thereafter. In addition to the senior preferred shares, public QFIs issued Treasury
                                                                                                                   198.8
                                                                                                                         203.2 204.6 204.9 204.9 204.9
common stock warrants equal to approximately 15% of the preferred stock invest-              $200                    0.4
                                                                                                                   198.4 70.1 70.7 121.9 135.8 146.9
ment. Private QFIs issued Treasury warrants to purchase additional senior preferred           150
stock worth 5% of Treasury’s initial preferred stock investment.97 In total, Treasury               115.0 177.5            133.1 133.9
                                                                                              100   115.0 177.5
invested $204.9 billion of TARP money in 707 QFIs through CPP.98
                                                                                                                                          83.0
    The Treasury Secretary announced on December 9, 2009, that TARP will wind                  50                                                69.1
                                                                                                                                                        58.0

down, saying that CPP, “through which the majority of TARP investments in banks                 0
have been made, is effectively closed.”99 Through June 30, 2010, CPP recipients
                                                                                                     Q308

                                                                                                            Q408

                                                                                                                    Q109

                                                                                                                           Q209

                                                                                                                                   Q309

                                                                                                                                          Q409

                                                                                                                                                 Q110

                                                                                                                                                        Q210




had repaid $146.9 billion, leaving $58.0 billion outstanding. In addition, Treasury
has received from CPP recipients approximately $9.4 billion in interest and divi-                      CPP Funds Outstanding at Quarter’s End
                                                                                                       CPP Funds Repaid at Quarter’s End
dends. Treasury also received $5.9 billion through the sale of warrants that were
obtained from TARP recipients.100 For a summary of CPP funds outstanding and                 Note: Numbers affected by rounding.
associated repayments, see Figure 2.6.                                                       Sources: Treasury, Transactions Report, 6/30/2010; Treasury,
                                                                                             response to SIGTARP vetting draft, 7/9/2010.
70                special inspector general I troubled asset relief program




                                                                           Status of Funds
                                                                           As of June 30, 2010, Treasury had purchased $204.9 billion in preferred stock and
                                                                           subordinated debentures from 707 QFIs in 48 states, the District of Columbia,
                                                                           and Puerto Rico. Figure 2.7 shows the geographical distribution of funded QFIs.
                                                                           Although the 10 largest investments accounted for $142.6 billion of the program,
                                                                           CPP made many smaller investments: 331 of 707 recipients received $10.0 million
                                                                           or less. Table 2.13 and Table 2.14 show investment distribution by amount.


     Table 2.13                                                                                                Table 2.14

      CPP investment summary BY TRANSACTION                                                                     CPP investment size by institution
                                                          Originala                        Currentb                                                               Originala              Outstandingb
     Total Investment                                     $204.9 Billion                   $58 Billion         $10 Billion or More                                           6                               1
     Largest Capital Investment                           $25 Billion                      $16.5 Billion       $1 Billion to $10 Billion                                   19                                7
     Smallest Capital Investment                          $301,000                         $301,000            $100 Million to $1 Billion                                  57                           38
     Average Capital Investment                           $277.6 Million                   $98.7 Million       Less than $100 Million                                    625                          580
     Median Capital Investment                            $10.3 Million                    $9.53 Million       Total                                                     707                          626
     Notes: Numbers affected by rounding. Data as of 6/30/2010.                                                Notes: Numbers affected by rounding. Data as of 6/30/2010. Data is based on the
     a
       These numbers are based on total Treasury CPP investment since 10/28/2008.                              institutions’ total CPP investments. There are more than 30 institutions that have received
     b
       Amount does not include those investments that have already been repaid and is based on total invest-   multiple transactions through CPP.
     ments outstanding.                                                                                        a
                                                                                                                 These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                                                                               b
                                                                                                                 Current amount does not include those investments that have already been repaid or in
     Source: Treasury, Transactions Report, 6/30/2010.                                                           bankruptcy proceedings and is based on total investments outstanding.

                                                                                                               Source: Treasury, Transactions Report, 6/30/2010.




     Figure 2.7

     TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                                                           $10 Billion or More
                                                                                                                           $1 Billion to $10 Billion
                                                                                                                           $100 Million to $1 Billion
                                                                                                                           $10 Million to $100 Million
                                                                                                                           Less than $10 Million
                                                                                                                           $0



                                                                                                                       Note: Banks in Montana and Vermont did not receive CPP
                                                                                                                       funds.

                                                                                                                       Source: Treasury, “Local Impact of the Capital Purchase
                                                                                                                       Program,” 6/3/2010, www.financialstability.gov,
                                                                                                                       accessed 7/7/2010.
                                                                                                                                quarterly report to congress I july 21, 2010          71




Table 2.15

cpp sHARE REPURCHASES Greater than $1 billion, AS OF 6/30/2010
Repurchase Date                       Institution                                                 Amount of Repurchase
6/17/2009                             JPMorgan Chase & Co.                                                   $25.0
12/23/2009                            Wells Fargo and Company                                                  25.0
12/9/2009                             Bank of America Corp.                                                    25.0
4/26/2010 – 6/30/2010                 Citigroup, Inc.a                                                         10.5
6/17/2009                             Morgan Stanley                                                           10.0
6/17/2009                             The Goldman Sachs Group, Inc.                                            10.0
2/10/2010                             The PNC Financial Services Group, Inc.                                     7.6
6/17/2009                             U.S. Bancorp                                                               6.6
6/17/2009                             Capital One Financial Corporation                                          3.6
6/17/2009                             American Express Company                                                   3.4
3/31/2010                             Hartford Financial Services Group, Inc.                                    3.4
6/17/2009                             BB&T Corp.                                                                 3.1
6/17/2009                             BNYM                                                                       3.0
3/17/2010                             Comerica Inc.                                                              2.3
6/17/2009                             State Street Corporation                                                   2.0
6/17/2009                             Northern Trust Corporation                                                 1.6
4/21/2010                             Discover Financial Services                                                1.2
Total                                                                                                      $143.3
Notes: Numbers affected by rounding. Data as of 6/30/2010.
a
  Treasury sold 2,608,971,857 shares of Citigroup common stock it held as a result of its investment in Citigroup under CPP during two
  separate sales. For more on these sales, see the “Citigroup Common Stock Sale” discussion in this section.

Source: Treasury, Transactions Report, 6/30/2010.

                                                                                                                                          For more information on CPP repayment,
Repayment of Funds
                                                                                                                                          see SIGTARP’s July 2009 Quarterly Report,
Through June 30, 2010, 82 banks — including 8 of the 10 banks with the largest
                                                                                                                                          page 48.
CPP investments — had repaid CPP by repurchasing from Treasury some or all
of the banks’ preferred shares.101 Treasury received approximately $146.9 billion
in principal repayments, leaving approximately $58.0 billion outstanding.102 Table
2.15 shows CPP share repurchases greater than $1 billion as of June 30, 2010. For
a full listing of CPP share repurchases, see Appendix D: “Transaction Detail.”

Program Administration
As previously discussed, Treasury does not plan to make new CPP investments.
However, Treasury still has significant responsibilities to manage the program. The
following are some of those responsibilities:

•	   managing asset portfolios
•	   collecting dividends and interest payments on outstanding investments
•	   disposing of warrants as investments are repaid
•	   overseeing CPP’s wind-down
•	   restructuring the investment in some troubled financial institutions
•	   potentially selecting directors for TARP recipients that missed six quarterly
     dividend payments
72             special inspector general I troubled asset relief program




                                                       Dividends and Interest
                                                       As of June 30, 2010, Treasury had earned $9.4 billion in dividends and interest on
                                                       its CPP investments.103 However, 105 QFIs had missed scheduled dividend pay-
                                                       ments to Treasury totaling approximately $159.8 million. Although some have paid
                                                       the dividend since June 30, $157.7 million has not been paid.104 Approximately
                                                       $6.3 million of the $157.7 million in outstanding payments are non-cumulative,
                                                       meaning that the institution has no legal obligation to pay Treasury unless the insti-
                                                       tution declares a dividend.105
                                                           Under the terms of the preferred shares held by Treasury as a result of its CPP
                                                       investments, in certain circumstances, such as when a QFI misses six quarterly
                                                       payments or makes changes to its charter or bylaws, Treasury has the right to ap-
                                                       point two additional members to the institution’s board of directors.106 According to
                                                       Treasury, as of June 30, 2010, one QFI, Saigon National Bank, had missed six con-
                                                       secutive dividend payments, and eight banks had missed five consecutive dividend
                                                       payments totaling $25 million.
                                                           As of June 30, 2010, Treasury had informed SIGTARP that it was actively work-
                                                       ing to develop a plan to exercise Treasury’s right to appoint new directors. Table
                                                       2.16 lists CPP participants missing one or more dividend payments as of June 30,
                                                       2010. For a complete list of CPP recipients and institutions making dividend or
                                                       interest payments, see Appendix D: “Transaction Detail.”

     Table 2.16

     CPP-RELATED MISSED DIVIDEND PAYMENTS, AS OF 6/30/2010                          (Continued)

                                                                                                  Number of                                  Value of
                                                                                                     Missed    Value of Missed             Dividends
                                                                                                    Dividend         Dividends           Outstanding
     Institution                                                   Dividend Type                   Payments     ($ Thousands)          ($ Thousands)
     Saigon National Bank                                          Non-Cumulative                         6           $ 117.7                  $117.7
     Anchor BanCorp Wisconsin, Inc.                                Cumulative                             5           7,104.2                  7,104.2
     Blue Valley Ban Corp.                                         Cumulative                             5           1,359.4                  1,359.4
     Commonwealth Business Bank                                    Non-Cumulative                         5             524.6                    524.6
     Lone Star Bank                                                Non-Cumulative                         5             213.5                    213.5
     OneUnited Bank                                                Non-Cumulative                         5             753.9                    753.9
     Pacific Capital Bancorp                                       Cumulative                             5          11,289.6                11,289.6
     Seacoast Banking Corporation of Florida/Seacoast National Bank Cumulative                            5           3,125.0                  3,125.0
     United American Bank                                          Non-Cumulative                         5             586.1                    586.1
     Central Pacific Financial Corp.                               Cumulative                             4           6,750.0                  6,750.0
     Centrue Financial Corporation                                 Cumulative                             4           1,633.4                  1,633.4
     Citizens Bancorp                                              Cumulative                             4             566.8                    566.8
     Citizens Bank & Trust Company                                 Non-Cumulative                         4             130.8                    130.8
                                                                                                                                 Continued on next page.
                                                                                        quarterly report to congress I july 21, 2010               73




CPP-RELATED MISSED DIVIDEND PAYMENTS, AS OF 6/30/2010                   (Continued)

                                                                                      Number of                                      Value of
                                                                                         Missed      Value of Missed               Dividends
                                                                                        Dividend           Dividends             Outstanding
Institution                                            Dividend Type                   Payments       ($ Thousands)            ($ Thousands)
Community Bank of the Bay                              Non-Cumulative                          4                $72.5                    $72.5
Dickinson Financial Corporation II                     Cumulative                              4              7,959.9                   7,959.9
First BanCorp                                          Cumulative                              4            20,000.0                   20,000.0
First Banks, Inc.                                      Cumulative                              4            16,099.3                   16,099.3
Georgia Primary Bank                                   Non-Cumulative                          4                254.8                    254.8
Grand Mountain Bancshares, Inc.                        Cumulative                              4                161.1                    161.1
Idaho Bancorp                                          Cumulative                              4                376.1                    376.1
One Georgia Bank                                       Non-Cumulative                          4                305.6                    305.6
Pacific City Financial Corporation/Pacific City Bank   Cumulative                              4                882.9                    882.9
Pacific International Bancorp Inc.                     Cumulative                              4                325.0                    325.0
Patterson Bancshares, Inc.                             Cumulative                              4                201.2                    201.2
Peninsula Bank Holding Co.                             Cumulative                              4                312.5                    312.5
Premier Service Bank                                   Non-Cumulative                          4                 15.0                    215.0
Royal Bancshares of Pennsylvania, Inc.                 Cumulative                              4              1,520.4                   1,520.4
Sterling Financial Corporation/Sterling Savings Bank   Cumulative                              4            15,150.0                   15,150.0
Cascade Financial Corporation                          Cumulative                              3              1,461.4                   1,461.4
Citizens Commerce Bancshares, Inc.                     Cumulative                              3                257.5                    257.5
Community First, Inc.                                  Non-Cumulative                          3                 80.7                      80.7
FC Holdings, Inc.                                      Cumulative                              3                860.1                    860.1
Hampton Roads Bankshares, Inc.                         Cumulative                              3              3,013.0                   3,013.0
Heritage Commerce Corp                                 Cumulative                              3              1,500.0                   1,500.0
Integra Bank Corporation                               Cumulative                              3              3,134.5                   3,134.5
Maryland Financial Bank                                Non-Cumulative                          3                 69.5                      69.5
Northern States Financial Corporation                  Cumulative                              3                645.4                    645.4
Omega Capital Corp.                                    Cumulative                              3                115.1                    115.1
OSB Financial Services, Inc.                           Cumulative                              3                383.8                    383.8
Pathway Bancorp                                        Cumulative                              3                152.3                    152.3
Pierce County Bancorp                                  Cumulative                              3                278.0                    278.0
Premierwest Bancorp                                    Cumulative                              3              1,552.5                   1,552.5
Ridgestone Financial Services, Inc.                    Cumulative                              3                445.5                    445.5
Rising Sun Bancorp                                     Cumulative                              3                244.5                    244.5
Rogers Bancshares, Inc.                                Cumulative                              3              1,021.9                   1,021.9
Syringa Bancorp                                        Cumulative                              3                327.0                    327.0
The Connecticut Bank and Trust Company                 Non-Cumulative                          3                178.6                    178.6
The Freeport State Bank                                Non-Cumulative                          3                 12.3                      12.3
TIB Financial Corp                                     Cumulative                              3              1,387.5                   1,387.5
First Federal Bancshares of Arkansas, Inc.             Cumulative                              2                412.5                    412.5
                                                                                                                         Continued on next page.
74             special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND PAYMENTS, AS OF 6/30/2010                              (Continued)

                                                                                                      Number of                                  Value of
                                                                                                         Missed    Value of Missed             Dividends
                                                                                                        Dividend         Dividends           Outstanding
     Institution                                                       Dividend Type                   Payments     ($ Thousands)          ($ Thousands)
     Alliance Financial Corporation                                    Cumulative                             2            $503.4                  $503.4
     BNCCORP, Inc.                                                     Cumulative                             2             547.6                    547.6
     Cecil Bancorp, Inc.                                               Cumulative                             2             289.0                    289.0
     Central Virginia Bankshares, Inc.                                 Cumulative                             2             284.6                    284.6
     Citizens Bancshares Inc.                                          Cumulative                             2             681.0                    681.0
     Citizens Republic Bancorp, Inc.                                   Cumulative                             2           7,500.0                  7,500.0
     City National Bancshares Corporation                              Cumulative                             2             236.0                    236.0
     Congaree Bancshares, Inc.                                         Cumulative                             2             134.3                     89.5
     Duke Financial Group, Inc. (Peoples Bank of Commerce)             Cumulative                             2             503.4                    503.4
     Fidelity Federal Bancorp                                          Cumulative                             2             177.4                    177.4
     First Security Group, Inc.                                        Cumulative                             2             825.0                    825.0
     First Sound Bank                                                  Non-Cumulative                         2             185.0                    185.0
     First Southwest Bancorporation, Inc.                              Cumulative                             2             149.9                    149.9
     FPB Bancorp, Inc.                                                 Cumulative                             2             145.0                    145.0
     Fresno First Bank                                                 Non-Cumulative                         2              33.4                     33.4
     Heartland Bancshares, Inc.                                        Cumulative                             2             186.2                    186.2
     Intermountain Community Bancorp/Panhandle State Bank              Cumulative                             2             675.0                    675.0
     Intervest Bancshares Corporation                                  Cumulative                             2             625.0                    625.0
     Investors Financial Corporation of Pettis County, Inc. (Excel Bank) Cumulative                           2             167.8                    167.8
     Monarch Community Bancorp, Inc.                                   Cumulative                             2             169.6                    169.6
     Presidio Bank                                                     Non-Cumulative                         2             276.7                    276.7
     Security State Bank Holding Company (Bank Forward)                Cumulative                             2             451.0                    451.0
     Sonoma Valley Bancorp                                             Cumulative                             2             235.8                    235.8
     South Financial Group, Inc./Carolina First Bank                   Cumulative                             2           8,675.0                  8,675.0
     Tennessee Valley Financial Holdings, Inc.                         Cumulative                             2              81.8                     81.8
     The Bank of Currituck                                             Non-Cumulative                         2             109.6                    109.6
     U.S. Century Bank                                                 Non-Cumulative                         2           1,368.9                  1,368.9
     Bankers’ Bank of the West Bancorp, Inc.                           Cumulative                             1             172.2                    172.2
     Bridgeview Bancorp, Inc.                                          Cumulative                             1             517.8                     17.8
     Exchange Bank                                                     Non-Cumulative                         1             585.9                    585.9
     First Community Bancshares, Inc.                                  Cumulative                             1             201.7                    201.7
     First Trust Corporation                                           Cumulative                             1             376.9                     76.9
     FNB United Corp.                                                  Cumulative                             1             643.8                    643.8
     Gold Canyon Bank                                                  Non-Cumulative                         1              21.2                     21.2
     Goldwater Bank, N.A.                                              Non-Cumulative                         1             104.9                     35.0
     Gregg Bancshares, Inc.                                            Cumulative                             1              11.2                     11.2
     Heritage Oaks Bancorp                                             Cumulative                             1             262.5                    262.5
                                                                                                                                     Continued on next page.
                                                                                                                               quarterly report to congress I july 21, 2010                                  75




CPP-RELATED MISSED DIVIDEND PAYMENTS, AS OF 6/30/2010                                                      (Continued)

                                                                                                                           Number of                                                         Value of
                                                                                                                              Missed               Value of Missed                         Dividends
                                                                                                                             Dividend                    Dividends                       Outstanding
Institution                                                                           Dividend Type                         Payments                ($ Thousands)                      ($ Thousands)
Independent Bank Corporation                                                          Cumulative                                         1                   $2,099.8                             $299.8
Madison Financial Corporation                                                         Cumulative                                         1                         45.9                               45.9
MetroCorp Bancshares, Inc.                                                            Cumulative                                         1                        562.5                             562.5
Midtown Bank & Trust Company                                                          Non-Cumulative                                     1                        142.3                               71.1
Millennium Bancorp, Inc.                                                              Cumulative                                         1                        197.8                               98.9
Northwest Bancorporation, Inc.                                                        Cumulative                                         1                        143.1                             143.1
Pacific Commerce Bank                                                                 Non-Cumulative                                     1                         87.3                               32.0
Patapsco Bancorp, Inc.                                                                Cumulative                                         1                         81.8                               81.8
Plumas Bancorp                                                                        Cumulative                                         1                        149.4                             149.4
Popular, Inc.                                                                         Cumulative                                         1                   11,687.5                          11,687.5
Prairie Star Bancshares, Inc.                                                         Cumulative                                         1                         38.2                               38.2
Premier Bank Holding Company                                                          Cumulative                                         1                        129.4                             129.4
Santa Clara Valley Bank, N.A.                                                         Non-Cumulative                                     1                         39.5                               39.5
Stonebridge Financial Corp.                                                           Cumulative                                         1                        149.5                             149.5
TCB Holding Company                                                                   Cumulative                                         1                        159.8                             159.8
Timberland Bancorp, Inc.                                                              Cumulative                                         1                        208.0                             208.0
Treaty Oak Bancorp, Inc.                                                              Cumulative                                         1                         44.5                               44.5
Valley Financial Corporation                                                          Cumulative                                         1                        200.2                             200.2
Total                                                                                                                                                   $159,806.9                        $157,666.8
Notes: Numbers affected by rounding. Approximately $6.3 million of the $157.7 million in outstanding CPP dividend payments is non-cumulative and Treasury has no legal right to missed dividends that are
non-cumulative.

Source: Treasury, response to SIGTARP data call, 6/30/2010.
76        special inspector general I troubled asset relief program




                                                 Warrant Disposition
     For more information on CPP warrant
     disposition, see SIGTARP’s January          As required by EESA, Treasury receives warrants when it invests in troubled assets,
     2010 Quarterly Report, page 58.             with an exception for certain small institutions. Warrants give Treasury the right,
                                                 but not the obligation, to purchase a certain number of shares of common stock in
                                                 a company at a predetermined price. Because warrants rise in value as the com-
                                                 pany’s share price rises, they permit Treasury (and the taxpayer) to benefit from a
                                                 firm’s potential recovery.107 For publicly traded institutions, the warrants received by
                                                 Treasury under CPP allowed Treasury to purchase shares of common stock, in an
                                                 amount equal to 15% of the value of the investment, at a fair market value deter-
                                                 mined by market price, financial models, and third-party valuations. CPP warrants
                                                 in public institutions expire 10 years from the date of the CPP investment. For
                                                 private institutions, the warrants gave Treasury additional preferred stock or debt in
                                                 an amount equal to 5% of the TARP investment, effectively giving Treasury more
                                                 preferred shares or debt securities than it purchased.108 Warrants in private compa-
                                                 nies were exercised immediately.109 As of June 30, 2010, Treasury had not exercised
                                                 warrants for any publicly traded institution’s stock.110

                                                 Repurchase of Warrants by Financial Institutions
                                                 Upon repaying its CPP investment, a CPP recipient may buy back its warrants.
                                                 As of June 30, 2010, 37 publicly traded institutions had bought back $2.9 billion
                                                 worth of warrants. By that same date, 11 private institutions whose warrants had
                                                 been immediately exercised, resulting in additional preferred shares, had bought
                                                 back those shares for a total of $3.8 million.111 Table 2.17 lists publicly traded
                                                 institutions that have paid back TARP and repurchased warrants. Table 2.18 lists
                                                 private institutions that had done so as of June 30, 2010.112
                                                                                                                                     quarterly report to congress I july 21, 2010   77



Table 2.17

CPP WARRANT REPURCHASES (PUBLIC), AS OF 6/30/2010
                                                                                           Number of                       Amount of
Repurchase
                         Institution                                                        Warrants                     Repurchase
Date
                                                                                         Repurchased                   ($ Thousands)
7/22/2009                The Goldman Sachs Group, Inc.                                      12,205,045                   $1,100,000.0
8/12/2009                Morgan Stanley                                                     65,245,759                        950,000.0
7/29/2009                American Express Company                                           24,264,129                        340,000.0
7/15/2009                U.S. Bancorp                                                       32,679,102                        139,000.0
8/5/2009                 BNYM                                                               14,516,129                        136,000.0
8/26/2009                Northern Trust Corporation                                           3,824,624                         87,000.0
7/22/2009                BB&T Corp.                                                         13,902,573                          67,010.4
7/8/2009                 State Street Corporationa                                            2,788,104                         60,000.0
4/7/2010                 City National Corporation                                            1,128,668                         18,500.0
12/30/2009               Trustmark Corporation                                                1,647,931                         10,000.0
6/16/2010                SVB Financial Group                                                     354,058                          6,820.0
5/27/2009                FirstMerit Corporation                                                  952,260                          5,025.0
3/31/2010                Umpqua Holdings Corp.                                                1,110,898                           4,500.0
6/24/2009                First Niagara Financial Group                                           953,096                          2,700.0
11/24/2009               Bank of the Ozarks, Inc.                                                379,811                          2,650.0
5/27/2009                Independent Bank Corp.                                                  481,664                          2,200.0
5/27/2009                Sun Bancorp, Inc.                                                    1,620,545                           2,100.0
4/7/2010                 First Litchfield Financial Corporation                                  199,203                          1,488.0
9/30/2009                Bancorp Rhode Island, Inc.                                              303,083                          1,400.0
6/24/2009                SCBT Financial Corporation                                              192,967                          1,400.0
10/28/2009               CVB Financial Corp.                                                     834,761                          1,307.0
5/20/2009                Iberiabank Corporation                                                  813,008                          1,200.0
5/8/2009                 Old National Bancorp                                                    138,490                          1,200.0
6/24/2009                Berkshire Hills Bancorp, Inc.                                           226,330                          1,040.0
12/23/2009               WesBanco, Inc.                                                          439,282                            950.0
6/17/2009                Alliance Financial Corporation                                          173,069                            900.0
12/30/2009               Flushing Financial Corporation                                          375,806                            900.0
6/30/2009                HF Financial Corp., Sioux Falls                                         302,419                            650.0
12/16/2009               Wainwright Bank & Trust Company                                         390,071                            568.7
12/16/2009               LSB Corporation                                                         209,497                            560.0
                         Union First Market Bankshares Corpora-
12/23/2009                                                                                       211,318                            450.0
                         tion (Union Bankshares Corporation)
2/3/2010                 OceanFirst Financial Corp.                                              190,427                            430.8
6/24/2009                Somerset Hills Bancorp                                                  163,065                            275.0
2/10/2010                Monarch Financial Holdings, Inc.                                        132,353                            260.0
9/2/2009                 Old Line Bancshares, Inc.                                               141,892                            225.0
10/28/2009               Centerstate Banks of Florida Inc.                                       125,413                            212.0
10/14/2009               Manhattan Bancorp                                                         29,480                             63.4
Total                                                                                    183,646,330                   $2,948,985.3
Notes: Numbers affected by rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP
recipients. Treasury may hold one warrant for millions of underlying shares, rather than millions of warrants of an individual financial
institution.
a
  State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.

Source: Treasury, Transactions Report, 6/30/2010; Treasury, response to SIGTARP data call, 7/10/2010.
78            special inspector general I troubled asset relief program




                                                     Table 2.18

                                                      CPP REPURCHASES of preferred shares resulting from immediate
                                                      exercise of warrants (private), AS OF 6/30/2010
                                                                                                                                                Number of                     Amount of
                                                     Repurchase                                                                                  Warrants                   Repurchase
                                                     Date                      Institution                                                    Repurchased                 ($ Thousands)
                                                     4/15/2009                 Centra Financial Holdings, Inc.                                        750,000                        $750.0
                                                     5/27/2009                 First Manitowoc Bancorp, Inc.                                          600,000                          600.0
                                                     6/16/2010                 First Southern Bancorp, Inc.                                           545,000                          545.0
                                                     12/23/2009                Midland States Bancorp, Inc.                                           509,000                          509.0
                                                     11/18/2009                1st United Bancorp, Inc.                                               500,000                          500.0
                                                     4/22/2009                 First ULB Corp.                                                        245,000                          245.0
                                                     4/21/2010                 Hilltop Community Bancorp, Inc.                                        200,000                          200.0
     Dutch Auction: For a Treasury warrant           5/19/2010                 Texas National Bancorporation                                          199,000                          199.0
     auction (which has multiple bidders             6/16/2010                 FPB Financial Corp.                                                    162,000                          162.0
     bidding for different quantities of the         4/14/2010                 First State Bank of Mobeetie                                             37,000                           37.0
     asset), the accepted price is set at the        11/10/2009                Midwest Regional Bancorp, Inc.                                           35,000                           35.0
     lowest bid of the group of high bidders,        Total                                                                                        3,782,000                       $3,782.0
     whose collective bids fulfill the amount        Notes: Numbers affected by rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants
                                                     issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold
     offered by Treasury. As an example, 3           one warrant for millions of underlying shares, rather than millions of warrants of an individual financial institution.
     investors place bids to own a portion           Source: Treasury, Transactions Report, 6/30/2010.
     of 100 shares offered by the issuer:

     Bidder A wants 50 shares at $4/share
     Bidder B wants 50 shares at $3/share
     Bidder C wants 50 shares at $2/share
                                                     Treasury Warrant Auctions
     The seller selects Bidders A and B as           When a CPP recipient declines to repurchase its warrants directly from Treasury
     the 2 highest bidders, and their col-           or cannot reach agreement on their price, Treasury holds a modified Dutch auction
     lective bids consume the 100 shares             to sell the warrants publicly. On the announced auction date potential investors
     offered. The winning price is $3, which         (which may include the CPP recipient) submit bids to the auction agent (Deutsche
     is what both bidders pay per share.             Bank) at specified increments above a minimum price set by Treasury.113 Once
     Bidder C’s bid is not filled.                   Deutsche Bank receives all bids, it determines the final price and distributes the
                                                     warrants to the winning bidders.
     Auction Agent: Firms (such as an
     investment banks) that buys a series
     of securities from one institution for
     resale — also called an “underwriters.”
                                                                                                                      quarterly report to congress I july 21, 2010       79




                                                                                                                                For more information on Treasury
    Since April 1, 2010, Treasury has held warrant auctions for First Financial
                                                                                                                                warrant auctions, see SIGTARP’s
Bancorp, Wells Fargo and Company, Comerica Inc., Valley National Bancorp,                                                       audit “Treasury’s Process to Value and
Sterling Bancshares Inc., and The PNC Financial Services Group, Inc. (Each                                                      Repurchase Warrants Issued Under the
institution had opted not to buy back its warrants directly after repaying TARP.) As                                            Capital Purchase Program” at
of June 30, 2010, Treasury had held 14 public auctions, raising approximately                                                   www.SIGTARP.gov.
$1.4 billion. Final closing information for all auctions is shown in Table 2.19.
                                                                                                                                For more information on CPP warrant
                                                                                                                                auctions, see SIGTARP’s January 2010
                                                                                                                                Quarterly Report, page 60.

Table 2.19

 Treasury Auctions, As of 6/30/2010
                                                                     # of                                   Proceeds to
                                        Date of                 Warrants        Minimum          Selling       Treasury
                                        Auction                  Offered        Bid Price         Price      ($ Millions)
Sterling Bancshares Inc.                6/9/2010               2,615,557             $0.85         $1.15                 $3
First Financial Bancorp                 6/2/2010                 465,117               4.00          6.70               3.1
Wells Fargo and Company                 5/20/2010          110,261,688                 6.50          7.70               849
Valley National Bancorp                 5/18/2010              2,532,542               1.70          2.20               5.6
Comerica Inc.                           5/6/2010             11,479,592              15.00         16.00             183.7
The PNC Financial Services
                                        4/29/2010            16,885,192              15.00         19.20             324.2
Group, Inc.
Texas Capital Bancshares, Inc.          3/11/2010                758,086             $ 6.50        $6.50                6.7
Signature Bank                          3/10/2010                595,829             16.00         19.00               11.3
Washington Federal, Inc.                3/9/2010               1,707,456               5.00          5.00              15.6
Bank of America A Auction (TIP) 3/3/2010                   150,375,940                 7.00          8.35          1,255.6
Bank of America B Auction (CPP) 3/3/2010                   121,792,790                 1.50          2.55            310.6
TCF Financial                           12/15/2009             3,199,988               1.50          3.00               9.6
JPMorgan Chase                          12/10/2009           88,401,697                8.00        10.75             950.3
Capital One                             12/3/2009            12,657,960                7.50        11.75             148.7
Note: Numbers affected by rounding.

Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, http://www.sec.gov/Archives/edgar/
data/713676/000119312510101032/d424b5.htm, accessed 6/30/2010; Valley National Bancorp, “Final Prospectus Supplement,”
5/18/2010, http://www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 6/30/2010; Comeri-
ca Incorporated, “Final Prospectus Supplement,” 5/6/2010, http://www.sec.gov/Archives/edgar/data/28412/000119312510112107/
d424b5.htm, accessed 6/30/2010; Wells Fargo and Company, “Definitive Prospectus Supplement,” 5/20/2010, http://www.sec.
gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 6/30/2010; First Financial Bancorp, “Pro-
spectus Supplement,” 6/2/2010, http://www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.
htm, accessed 6/30/2010; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010, http://www.sec.gov/Archives/edgar/
data/891098/000119312510137258/d424b5.htm, accessed 6/30/2010 Signature Bank, “Prospectus Supplement,” 3/10/2010,
http://files.shareholder.com/downloads/SBNY/865263367x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Of-
fering_Circular.pdf, accessed 3/11/2010; Texas Capital Bancshares, Inc., “Prospectus Supplement,” 3/11/2010, www.sec.gov/
Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 3/12/2010; Bank of America, “Form 8-K,”
3/3/2010, www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 3/4/2010; Bank of America,
“Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044940/d424b7.htm, accessed
3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044945/
d424b7.htm, accessed 3/4/2010; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/
data/936528/000119312510052062/d424b5.htm, accessed 3/10/2010; TCF Financial, “Prospectus Supplement,” 12/16/2009,
www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 12/29/2009; JPMorgan
Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.
htm, accessed 12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/
data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009; Treasury, Transactions Report, 6/30/2010, http://financial-
stability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed 6/30/2010.
80            special inspector general I troubled asset relief program




                                                     CPP Restructurings and Recapitalizations
     Undercapitalized: Condition in which a          If a CPP bank is undercapitalized and in danger of becoming insolvent, it may pro-
     financial institution does not meet its         pose to Treasury a restructuring (or recapitalization) plan to avoid failure (or to at-
     regulator’s requirements for sufficient         tract private capital) and to “attempt to preserve value” for Treasury’s investment.114
     capital to operate under a defined level        To preserve value, Treasury may make concessions such as downgrading creditor
     of adverse conditions.                          standing, either forgiving or capitalizing unpaid dividends, reducing interest rates,
                                                     or accepting less than face value for its securities. Although Treasury often com-
                                                     pletes these transactions at discount to par value, which may result in a loss, it has
     For more information on CPP recipient
                                                     explained to SIGTARP that it is seeking to avoid a total loss, which would occur if
     restructurings approved by Treasury, see
     SIGTARP’s October 2009 Quarterly                the bank fails.115 Under this process, the bank asks Treasury for a formal review of
     Report regarding Banco Popular, page            its proposal. The proposal will discuss the bank’s recapitalization plan at length and
     61, and SIGTARP’s July 2009 Quarterly           may estimate how much capital the bank plans to raise from private investors. The
     Report regarding Citigroup, page 66.            proposal may also involve the proposed discount on Treasury’s shares.116 According
                                                     to Treasury, when it receives such a request from a TARP recipient, it asks one of
                                                     its external asset managers to analyze the proposal and perform due diligence on
                                                     the bank.117 The external asset manager interviews bank managers, gathers non-
                                                     public information, and conducts loan-loss estimates and capital structure analysis.
                                                     The manager submits its evaluation to Treasury, which in turn decides whether to
                                                     restructure its CPP investment.118
                                                         Table 2.20 shows all CPP restructurings and recapitalizations that had taken
                                                     place as of June 30, 2010.
                                                                                                                                 quarterly report to congress I july 21, 2010           81




Table 2.20

Treasury Restructurings, As of 6/30/2010 ($ MILLIONS)
                                            Pre-Exchange Investment                                                                            Exchange
                                                                                                                        Amount                                                (Loss)/
                                                                                                                      Received Security                                      Gain on
Institution                    Date                    Amount Security Type                      Date               by Treasury Type                             Haircut   Exchangea
Citigroup Inc.                 10/28/2008           $25,000.0 Preferred Stock                    2/27/2009            $25,000.0 Common Stock                         0%           $0
                                                                                                                                   Trust Preferred
First Merchants                6/30/2010                  $46.4 Preferred Stock                  3/23/2010                   $46.4                                   0%           $0
                                                                                                                                   Securities
                                                                                                                                   Mandatorily Convertible
                                                                                                                                   Preferred Stock ($2.4
                               12/12/2008                 $72.0 Preferred Stock                  4/16/2010                   $74.4                                   0%           $0
                                                                                                                                   million in accrued and
Independent Bank                                                                                                                   unpaid dividends)
Corporationb
                                                                Mandatorily
                               4/16/2010                  $74.4 Convertible                      Pendingb                    $54.0 Common Stock                     27%       ($20.4)
                                                                Preferred Stock
                                                                                                                                   Mandatorily Convertible
                                                                                                                                   Preferred Stock ($4.6
                               12/5/2008                  $84.8 Preferred Stock                  3/8/2010                    $89.4                                   0%           $0
                                                                                                                                   million for accrued and
Midwest Banc                                                                                                                       unpaid dividends)
Holdings, Inc.c
                                                                Mandatorily
                               3/8/2010                   $89.4 Convertible                      5/14/2010                        — N/A                           100%        ($89.4)
                                                                Preferred Stock
                                                                                                                                  Trust Preferred
Popular, Inc.                  12/5/2008                $935.0 Preferred Stock                   8/24/2009                 $948.0 Securities                         0%         $13.0
                                                                                                                                  ($13.0 Exchange Fee)
South Financial Group,                                               Preferred Stock &
                       12/5/2008                        $347.0                                   Pendingb                  $130.6 Cash                              62%      ($216.4)
Inc./Toronto Dominionb                                               Warrants
                                                                                                                                       Mandatorily Convertible
                               12/5/2008                $303.0 Preferred Stock                   4/29/2010                 $303.0                                    0%           $0
                                                                                                                                       Preferred Stock
Sterling Financial
Corporationb                                                   Mandatorily
                               4/29/2010                $303.0 Convertible                       Pendingb                    $75.8 Common Stock                     75%      ($227.3)
                                                               Preferred Stock
                                                                     Series A Preferred                                                Trust Preferred
Superior Bancorp, Inc. 12/5/2008                          $69.0                                  12/11/2009                  $69.0                                   0%           $0
                                                                     Stock                                                             Securities
Notes: Numbers affected by rounding.
a
  Treasury completes these transactions at discount to par value. Any loss or gain would typically not be realized until the sale of the securities.
b
  Loss will be realized when transaction closes.
c
  The FDIC ordered the closure of Midwest’s wholly owned subsidiary on 5/14/2010. As a result, all of Treasury’s investment was lost in the transaction.

Source: Treasury, Transactions Report, 6/30/2010.
82        special inspector general I troubled asset relief program




                                                 Recent Exchanges
                                                 Toronto-Dominion Bank Merger with South Financial Group
                                                 On December 5, 2008, Treasury invested $347 million in South Financial Group
                                                 Inc. (“South Financial”) through CPP. On May 17, 2010, Toronto-Dominion Bank
                                                 (“TD”) entered into a definitive agreement with South Financial under which TD
                                                 would acquire all of South Financial’s business and obligations. The agreement was
                                                 unanimously approved by both companies’ boards. Under the agreement, South
                                                 Financial shareholders were given the choice of accepting, per share, either $0.28
                                                 or 0.004% of a TD common share — valuing South Financial at approximately
                                                 $61 million.119 At the time of the merger, South Financial was under a consent
                                                 order from the South Carolina State Board of Financial Institutions and the FDIC
     For more information on Citigroup’s         that required South Financial improve its capital position by early September
     December 22, 2009, equity offering,
                                                 2010.120
     see SIGTARP’s January 2010 Quarterly
                                                     In addition, TD agreed to pay Treasury approximately $130.6 million as consid-
     Report, page 73.
                                                 eration for the $347.0 million of South Financial preferred stock and warrants that
                                                 Treasury held as a result of its CPP investment in South Financial and the unpaid
                                                 dividends associated with Treasury’s investment. Upon closing, this exchange likely
                                                 will result in a loss to taxpayers of approximately $216.4 million.121

                                                 Updates on Previously Announced Exchanges
                                                 Citigroup Common Stock Sale
                                                 On October 28, 2008, Treasury received $25 billion in Citigroup Inc. (“Citigroup”)
                                                 preferred shares in return for investing in Citigroup under CPP.122 On February 27,
                                                 2009, Treasury agreed, at the request of Citigroup, to an exchange with Citigroup
                                                 in which Treasury converted the $25.0 billion in preferred stock shares it had
                                                 received under CPP for 7.7 billion shares of Citigroup common stock, which were
                                                 exchanged for the equivalent of $3.25 per share.123 On March 29, 2010, Treasury
                                                 announced that it would sell the Citigroup common stock it held as a result of its
                                                 CPP investment.124
                                                     The March 29, 2010, Treasury announcement followed the March 16, 2010,
                                                 end of the 90-day lockout period to which Treasury had agreed in order to facili-
                                                 tate Citigroup’s December 22, 2009, equity offering. In exchange for the 90-day
                                                 “lockup period” Citigroup had agreed to pay all costs associated with the sale of any
                                                 securities issued to Treasury by Citigroup or any of its subsidiaries in connection
                                                 with TARP. Treasury hired Morgan Stanley as its capital markets advisor in con-
                                                 nection with its disposition of its Citigroup common stock. On March 29, 2010,
                                                 Treasury stated that, under a prearranged written trading plan, it would sell its
                                                 Citigroup common shares in an “orderly and measured” fashion over the course of
                                                 2010, subject to market conditions.125
                                                     In accordance with that plan, on May 26, 2010, Treasury completed its month-
                                                 long sale of 1.5 billion shares of Citigroup common stock.126 As a result, Treasury
                                                                                   quarterly report to congress I july 21, 2010           83




received approximately $6.2 billion in proceeds (at an average price of $4.12 per
share) and reduced its percentage ownership of Citigroup common stock from ap-
proximately 27% to 21%. Additionally, Treasury entered into a second prearranged
trading plan with Morgan Stanley to sell up to 1.5 billion of Treasury’s remaining
6.2 billion shares of Citigroup common stock.127
    On July 1, 2010, Treasury announced that, over the preceding month, it had
sold another approximately 1.1 billion shares, at an average price of approximately
$3.90 per share, resulting in $4.3 billion in proceeds. To date Treasury has sold a
total of 2.6 billion shares for a total of approximately $10.5 billion, leaving it with
approximately 5.1 billion shares.128 As of June 30, 2010, Treasury owned approxi-
mately 18% of Citigroup’s outstanding common shares.129

Midwest Banc Holdings Exchange
On December 5, 2008, Treasury invested $84.8 million in Midwest Banc Holdings
under CPP in return for preferred shares and warrants.130 On October 15, 2009,
Midwest Banc Holdings, Inc. (“Midwest”) sent a letter requesting that Treasury
convert its $84.8 million in preferred shares to 29.0 million shares of common
stock as part of a capital plan approved by Midwest’s primary regulator, the Federal
Reserve Board.131 On March 8, 2010, Treasury exchanged its $84.8 million of
Midwest preferred stock for $89.5 million of Midwest mandatorily convertible                    Mandatorily Convertible Preferred
preferred shares (“MCP”), which was equal to Treasury’s $84.8 million of Midwest                Shares (“MCP”): Preferred share that
preferred stock, plus $4.6 million of capitalized accrued and unpaid dividends.132              can be converted to common stock
    Because of the poor condition of Midwest’s subsidiary bank, the Federal                     at the issuer’s discretion if specific
Reserve issued a prompt corrective action order against the bank.133 Midwest was                criteria are met by a certain date.
unable to recapitalize its subsidiary bank in accordance with the order’s terms, and
                                                                                                Prompt Corrective Action Order:
the bank was officially closed on May 14, 2010. To protect depositors, the FDIC
                                                                                                Federal law requires that Federal bank
entered into a purchase agreement with Firstmerit Bank under which Firstmerit
                                                                                                regulators take necessary actions to
Bank assumed all of Midwest’s deposits.134 All of Treasury’s $84.8 million invest-
                                                                                                resolve the problems of insured deposi-
ment was lost in the transaction.135                                                            tory institutions at the least possible
                                                                                                long-term loss to the Deposit Insurance
Sterling Financial Corporation                                                                  Fund.
On December 5, 2008, Treasury invested $303 million in Sterling Financial
Corporation under CPP in return for preferred stock and warrants.136 On
March 16, 2010, Treasury tentatively agreed to exchange its entire CPP investment
in Sterling Financial Corporation (“Sterling”) for MCP. The MCP will have a 5%
annual dividend rate from the issue date until December 5, 2013, after which the
rate becomes 9%. Sterling will be able to convert the MCP to common stock at
any time.137	
    On April 29, 2010, Sterling announced it had reached a definitive exchange
agreement with Treasury. Under the agreement’s terms, once Sterling raises
$720 million in private capital, it will be able to convert the $303 million MCP to
84   special inspector general I troubled asset relief program




                                            common stock at any time for a discounted purchase price of approximately
                                            $75.8 million.138
                                                On May 25, 2010, Sterling announced it had reached definitive investment
                                            agreements with Thomas H. Lee Partners L.P. (“THL”) and Warbug Pincus
                                            Investments (“Warbug Pincus”). Under the agreements, THL and Warbug Pincus
                                            will each invest $139 million in Sterling in return for Sterling common stock,
                                            Series B convertible participating voting preferred stock, and warrants for a com-
                                            bined total investment of approximately $278 million. Both investments are contin-
                                            gent on Sterling’s ability to raise enough additional funds to meet the $720 million
                                            regulatory capital requirement and convert Treasury’s preferred stock to MCP.139

                                            Use of Funds
                                            In December 2009, Treasury finally adopted SIGTARP’s longstanding recommen-
                                            dation that it collect and report data concerning TARP recipients’ use of TARP
                                            funds. Specifically, Treasury agreed to obtain and report publicly qualitative data
                                            from each TARP recipient on its use of TARP funds, backed by data from the in-
                                            stitutions’ regulators and Treasury’s own analysis. In March 2010, Treasury sent its
                                            use of funds survey to TARP recipients with responses due before April 19, 2010.
                                            As of June 30, 2010, Treasury had not yet released the findings of the surveys.
                                                                                    quarterly report to congress I july 21, 2010              85




Small-Business Lending Initiatives
Treasury has taken steps to initiate two new programs that it describes as small-
business lending initiatives. Both are similar to TARP’s CPP in that they involve
Treasury purchases of preferred shares or subordinated debt in certain QFIs. The
first, the Community Development Capital Initiative (“CDCI”), will use TARP
money. Under legislation currently pending in the U.S. Congress, the other
initiative, the Small Business Lending Fund (“SBLF”), would operate outside of
TARP.140 Although it was initially announced that funding for SBLF would be
provided through the rescission of $30 billion from TARP, pending legislation has
no such requirement. The SBLF program, however, would likely involve a large
number of existing TARP recipients.141

Community Development Capital Initiative (“CDCI”)
The Obama Administration announced a program on October 21, 2009, that it
described as a way to help small businesses obtain credit at better interest rates.142
Under the program, later named CDCI, TARP will make capital investments in
the preferred stock or subordinated debt of eligible banks, bank holding compa-
                                                                                                 Community Development Financial
nies, thrifts, and credit unions certified as Community Development Financial
                                                                                                 Institutions (“CDFIs”): Financial institu-
Institutions (“CDFIs”). In general, these organizations provide financial services to
                                                                                                 tions eligible for Treasury funding to
under-served communities.143 The “CDFI” designation is a certification granted by
                                                                                                 serve the CDCI’s targeted demographic
Treasury’s CDFI Fund.144
                                                                                                 under the CDFI Fund. CDFIs were cre-
    CDCI is open to certified, qualifying CDFIs or financial institutions that ap-               ated in 1994 by the Riegle Community
plied for CDFI status by April 30, 2010. The original CDCI deadline was extended                 Development and Regulatory Improve-
from April 2 to April 30.145 CDFIs participating in CPP and in good standing may                 ment Act.
exchange CPP investments for CDCI investments.146 Each institution’s Federal
regulator must review and approve its application.147                                            Under-Served Communities: Either
                                                                                                 geographic areas or demographic
Terms for Senior Securities and Dividends                                                        groups that Treasury’s CDFI Fund divi-
An eligible bank, bank holding company, or thrift may apply to receive capital up to             sion determines lack adequate access
5% of its risk-weighted assets. Credit unions are member-owned, non-profit entities              to financial services.
that have a different capital structure than banks, which are shareholder-owned,
                                                                                                 Total Risk-Weighted Assets: Financial
for-profit entities.148 A credit union may apply for Government funding totaling up
                                                                                                 institution’s total assets after making
to 3.5% of its total assets—roughly equivalent to the 5% of risk-weighted assets ap-
                                                                                                 adjustments based on each individual
plicable to banks. Participating credit unions issue to Treasury subordinated debt in
                                                                                                 asset’s risk factor.
lieu of the preferred stock that would be issued by banks, bank holding companies,
thrifts, and savings and loan holding companies.149 For all CDFIs, the investments
will have an initial dividend rate of 2%, which will increase to 9% after eight years.150
    A CDFI currently participating in CPP can request to convert those shares into
CDCI shares, thereby reducing the dividend percentage it pays the Government
from 5% to 2%.151 By the application deadline, Treasury received applications for
CDFI investments from 37 banks and thrifts and 56 credit unions; 36 of 37 bank
86   special inspector general I troubled asset relief program




                                            applications came from CPP recipients seeking to convert those investments into
                                            CDCI.152
                                                Treasury will invest up to $780.2 million in CDCI.153 No institutions had been
                                            funded under the program as of June 30, 2010.154
                                                According to Treasury, CDFIs are not required to issue warrants because of the
                                            de minimis exception in EESA granting Treasury the authority to waive the warrant
                                            requirement for qualifying institutions in which Treasury invested $100 million or
                                            less.155
                                                If, during the application process, a CDFI’s primary regulator deems it under-
                                            capitalized, Treasury may match private investments on a dollar-for-dollar basis, up
                                            to 5% of the financial institution’s risk-weighted assets, but only if the combined
                                            investment is enough for regulators to deem the institution healthy and viable.156
                                            In such case the private capital must bear any losses before Treasury’s investment
                                            does.157

                                            Small Business Lending Fund (“SBLF”)
                                            SBLF as proposed is intended to allow Treasury “to make capital investments in
                                            eligible institutions in order to increase the availability of credit for small busi-
                                            nesses.”158 The proposal passed the House of Representatives on June 17, 2010, as
                                            the Small Business Lending Fund Act of 2010.159 In the Senate, the bill was renamed
                                            the Small Business Jobs and Credit Act of 2010, in which SBLF is now one of several
                                            provisions.160 As of the drafting of this report, the bill was still pending in Congress.161
                                                 SBLF includes an incentive for participating institutions, all of which must have
                                            $10 billion or less in total assets, to boost small-business lending.162 An eligible
                                            financial institution could receive a capital investment totaling up to 3% or 5% of
                                            its risk-weighted assets, depending on its size.163 The dividend or interest rate on
                                            the investment would initially be 5% per annum but would be reduced by 1% for
                                            every 2.5% increase in small business lending (compared to the lender’s previous
                                            levels) during the next two years, subject to a minimum rate of 1%.164 If the interest
                                            rate declined under this incentive during the two-year adjustment period, the final
                                            interest rate would hold until the end of the four-and-one-half year period that
                                            would begin on the date of Treasury’s investment.165 If at the end of the two-year
                                            adjustment period, however, an institution’s small-business lending is the same or
                                            less relative to its previous levels, the dividend or interest rate would rise to 7%.166
                                            Four-and-one-half years after Treasury’s investment, the rate for all participants
                                            would rise to 9%.167
                                                 Although the program would operate outside of TARP, certain TARP recipients
                                            likely could convert their investments into the program, thus benefiting from a low-
                                            er interest rate.168 The legislation provides that the Treasury secretary shall “issue
                                            regulations and other guidance to permit eligible institutions to refinance securities
                                            issued to Treasury under the CDCI and the CPP for securities to be issued under
                                            the Program.”169 Additionally, they would no longer have to comply with EESA’s
                                            restrictions, such as those on executive compensation and dividends.170
                                                                                   quarterly report to congress I july 21, 2010            87




Systemically Significant Failing Institutions Program/AIG
Investment Program
According to the Treasury Department (“Treasury”), the Systemically Significant
Failing Institutions (“SSFI”) program was established to “provide stability and pre-
vent disruptions to financial markets from the failure of institutions that are critical
                                                                                                Cumulative Preferred Stock: Type of
to the functioning of the nation’s financial system.”171 Through SSFI, Treasury al-
                                                                                                stock that requires a defined dividend
located $69.8 billion to American International Group, Inc. (“AIG”), the program’s
                                                                                                payment. If the company does not pay
sole participant.172
                                                                                                the dividend on schedule, it still owes
                                                                                                the missed dividend to the preferred
Status of SSFI Funds                                                                            stock’s owner.
On November 25, 2008, Treasury made an initial $40 billion investment in AIG. In
return, Treasury received AIG Series D cumulative preferred stock and warrants to               Non-Cumulative Preferred Stock: Type
purchase AIG common stock. On April 17, 2009, AIG and Treasury signed a secu-                   of preferred stock that also features a
rities exchange agreement under which Treasury exchanged the Series D cumula-                   defined dividend but the company has
tive preferred stock for Series E non-cumulative preferred stock. Additionally, on              no obligation to pay any dividends it
April 17, 2009, Treasury committed to fund an equity capital facility under which               misses.
AIG may draw down up to $29.8 billion in exchange for additional preferred stock
shares. Through June 30, 2010, AIG had drawn down $7.5 billion from the equity                  Equity Capital Facility: Commitment
                                                                                                to invest equity capital in a firm under
capital facility.173
                                                                                                certain future conditions.

Dividend Payments
As of June 30, 2010, AIG had not paid or had failed to declare dividends for six
consecutive quarters, for a total of $5.5 billion in missed dividend payments.174
Under the documents governing Treasury’s preferred shares in AIG, the dividend
payments that AIG skipped do not have to be paid to Treasury. Instead, once AIG
failed to pay dividends for four consecutive quarters, Treasury had the right to elect
to AIG’s board either two directors or a number (rounded upward) equal to 20%
of all AIG directors, whichever is greater. On April 1, 2010, Treasury appointed
Donald H. Layton and Ronald A. Rittenmeyer directors.175 AIG has 13 board mem-
bers; therefore, Treasury has the right to elect 1 more director. Treasury is in the
process of identifying potential candidates.176

Use of Funds Report
AIG is required by its equity capital facility agreement with Treasury to submit
a use of funds report describing how it plans to use the facility’s proceeds.177 As
of June 30, 2010, AIG has used the facility’s proceeds to: meet capital solvency
requirements resulting from declines in the value of AIG’s investments; purchase
shares of United Guaranty Corporation (“UGC”), an AIG subsidiary; provide capi-
tal support to UGC; settle payments for UGC; redeem all of its preferred shares
held by National Union Fire Insurance Company of Pittsburgh; purchase its shares
from American International Assurance Co., Ltd. (“AIA”) subsidiaries AIA(B) and
88            special inspector general I troubled asset relief program




                                                     Philam Life AIG; and purchase its shares held by the American Life Insurance
                                                     Company (“ALICO”) unit (Japan).178
                                                        There have been no additional drawdowns since March 16, 2010.179

     For more on AIG’s Federal Reserve               Federal Reserve Credit Facility Reduction
     credit facility reduction transaction, see      In September 2008, the Federal Reserve Bank of New York (“FRBNY”) extended
     SIGTARP’s January 2010 Quarterly                an $85 billion revolving credit facility to AIG in an effort to stabilize the com-
     Report, page 71.                                pany. In return, AIG committed 79.9% of its equity to a trust for the sole benefit
                                                     of Treasury.180 Subsequent transactions were eventually necessary to modify the
                                                     revolving credit facility to give AIG more time to repay the Government and greater
                                                     flexibility in the sale of its assets. The following actions were taken to stabilize AIG’s
                                                     operations:181
     Revolving Credit Facility: Line of credit
     for which the borrower pays a commit-
                                                     •	 Treasury purchased $40 billion in AIG preferred shares under TARP, the pro-
     ment fee and is then allowed to use up
                                                        ceeds of which went directly to FRBNY. After that payment, the total amount
     to a guaranteed maximum amount of
                                                        available to AIG under FRBNY’s revolving credit facility was reduced from
     funds as needed.
                                                        $85 billion to $60 billion.
     Special Purpose Vehicle (“SPV”): Off-           •	 FRBNY created Maiden Lane II, a special purpose vehicle (“SPV”), to which
     balance-sheet legal entity that holds              FRBNY was authorized to lend up to $22.5 billion to fund the purchase of
     transferred assets presumptively be-               residential mortgage-backed securities from the securities-lending portfolios
     yond the reach of the entities providing           of several of its U.S.-regulated insurance subsidiaries in order to help address
     the assets, and that is legally isolated.          liquidity pressures stemming from its security lending programs.
                                                     •	 FRBNY created Maiden Lane III, an SPV, to which FRBNY was authorized to
                                                        lend up to $30 billion to buy collateralized debt obligations underlying credit
                                                        default swaps from AIG’s counterparties, in return for which the counterparties
                                                        agreed to terminate the associated swaps with AIG.

                                                         On March 2, 2009, Treasury and the Federal Reserve announced a restructur-
                                                     ing of Government assistance to AIG that was designed to strengthen the com-
                                                     pany’s capital position. The measures included an authorization from the Federal
                                                     Reserve for FRBNY to acquire up to $26 billion of preferred equity interests in two
                                                     SPVs formed to hold two of AIG’s largest foreign life insurance subsidiaries — AIA
                                                     and ALICO — which would reduce the outstanding amount available under the
                                                     revolving credit facility by an equivalent amount. The SPVs’ creation also facilitated
                                                     the independence of these two subsidiaries in anticipation of a sale or initial public
                                                     offering (“IPO”).182
                                                         On December 1, 2009, FRBNY received $16 billion in preferred equity inter-
                                                     ests in the AIA SPV and $9 billion in preferred equity interests in the ALICO SPV.
                                                     This decreased AIG’s outstanding credit facility principal balance by $25 billion
                                                     and reduced its total facility borrowing capacity from $60 billion to $35 billion.183
                                                     Under the transaction’s terms, with limited exceptions, all proceeds from the
                                                                                 quarterly report to congress I july 21, 2010   89




voluntary sale, public offering, or other liquidation of the assets or businesses held
by the SPVs (that is, AIA or ALICO) must first be used to redeem FRBNY’s pre-
ferred equity interests in the SPVs, until those interests have been fully redeemed,
and then to reduce the outstanding credit facility.184 As of June 30, 2010, AIG’s to-
tal outstanding principal balance under the credit facility was $20.48 billion.185 AIG
is not permitted to repay its TARP investment until all of its obligations to FRBNY
are fully repaid.

Sale of Business and Assets
On March 1, 2010, AIG announced the signing of an agreement to sell AIA to
Prudential plc, Inc. (“Prudential”) for approximately $35.5 billion. However,
Prudential shareholders indicated that the deal would not be approved unless a
lower price could be negotiated. On June 2, 2010, the original AIG-Prudential
agreement ended when price renegotiations between the companies failed. AIG still
plans to sell AIA, most likely through an IPO.186 Any cash proceeds from the sale of
AIA will be used first to redeem FRBNY’s preferred equity interests in the AIA SPV
and then to repay the outstanding debt under the credit facility.187
    On March 8, 2010, AIG announced the signing of an agreement to sell ALICO
to MetLife, Inc. (“MetLife”) for approximately $15.5 billion, including $6.8 billion
in cash and the remainder in MetLife equity securities, subject to closing adjust-
ments. AIG will use the cash portion of the proceeds to redeem approximately
$6.8 billion of the preferred interests held by FRBNY in the ALICO SPV. AIG
will sell the remaining MetLife securities over time, subject to minimum holding
periods and market conditions. The net cash proceeds from this sale will be used
first to redeem the remainder of the preferred shares in the ALICO SPV held by
FRBNY and then to repay outstanding debt under the credit facility.188
    On April 13, 2010, AIG and International Lease Finance Corporation (“ILFC”),
AIG’s aircraft leasing division, announced the signing of an agreement to sell a
portfolio of 53 airplanes to Macquarie Aerospace Ltd. for approximately $2 billion.
The sale was undertaken to increase liquidity and reduce the debt on ILFC’s bal-
ance sheet.189
    AIG announced on June 11, 2010, that it would amend the terms of its
October 12, 2009, agreement to sell its 98% share of Nan Shan Insurance Ltd.
(“Nan Shan”) to a consortium of investors. Under the original agreement, AIG was
to receive $2.15 billion upon completion of the sale.190 However, in an effort to
help support Nan Shan’s capital position and speed up the Taiwanese regulatory
agency’s approval of the sale, AIG agreed to hold $325.0 million of the original
$2.15 billion price in escrow for four years.191
90            special inspector general I troubled asset relief program




                                                     Targeted Investment Program and Asset Guarantee Program
                                                     Treasury invested a total of $40 billion in Citigroup Inc. (“Citigroup”) and Bank
                                                     of America Corp. (“Bank of America”) through the Targeted Investment Program
                                                     (“TIP”). Treasury invested $20 billion in Citigroup on December 31, 2008, and
                                                     $20 billion in Bank of America on January 16, 2009, in return for preferred shares
                                                     paying quarterly dividends at an annual rate of 8% and warrants from each in-
                                                     stitution.192 The stated goal of TIP was to “strengthen the economy and protect
                                                     American jobs, savings, and retirement security,” where “the loss of confidence in
                                                     a financial institution could result in significant market disruptions that threaten
                                                     the financial strength of similarly situated financial institutions.”193 By December
                                                     2009, both banks had repaid the TIP investments.194 On March 3, 2010, Treasury
                                                     successfully auctioned its Bank of America warrants received under TIP for
                                                     $1.25 billion.195 Although Treasury still holds warrants in Citigroup, TIP is effec-
                                                     tively closed.196
                                                         Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
                                                     Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                     share losses on a pool of Citigroup assets valued at approximately $301 billion. In
     Trust Preferred Securities: Securities          return, the Government received $7 billion in Citigroup preferred stock, which
     with both equity and debt characteris-          was subsequently exchanged for trust preferred securities, and warrants to pur-
     tics that are created by establishing a         chase Citigroup common stock. Treasury received $4 billion of the trust preferred
     trust and issuing debt to it.                   securities as a result of the Government guarantees, while the FDIC received the
                                                     remaining $3 billion.197 Although Treasury’s asset guarantee was not a direct cash
                                                     investment, it exposed taxpayers to a potential TARP loss of $5 billion.
                                                         On December 23, 2009, in connection with Citigroup’s TIP repayment, the
                                                     bank and Treasury terminated the AGP agreement. Treasury agreed to cancel
                                                     $1.8 billion of the trust preferred securities issued by Citigroup, reducing the
                                                     premium from $4.0 billion to $2.2 billion, in exchange for the guarantee’s early
                                                     termination. The FDIC retained all of the $3 billion in trust preferred securities it
                                                     received for its original guarantees.198 However, subject to the conditions set out
                                                     in the AGP termination agreement, the FDIC may transfer $800 million of those
                                                     securities to Treasury when Citigroup’s participation in the FDIC’s Temporary
                                                     Liquidity Guarantee Program closes.199
                                                                                quarterly report to congress I july 21, 2010             91




Asset Support Programs
There are three TARP programs that focus on supporting markets for specific
asset classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the
Public-Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    As initially announced, TALF was designed to support asset-backed securities
(“ABS”) transactions by providing up to $200 billion in Federal Reserve financing
to investors in ABS and commercial mortgage-backed securities (“CMBS”) through
the Federal Reserve Bank of New York (“FRBNY”), backed by up to $20 billion in
TARP loss protection. TALF ultimately provided $71.1 billion in Federal Reserve
financing.
    PPIP uses equity and debt financing provided by Treasury through TARP to
facilitate purchases of legacy mortgage-backed securities (“MBS”) held by various
financial institutions. As announced, Treasury’s PPIP commitment was up to
$30 billion, depending upon how much private capital the PPIP managers raised.
The capital raising period has ended. As of June 30, 2010, Treasury’s commitment
to PPIP totaled $22.1 billion.
    Finally, through the UCSB/Small Business Administration (“SBA”) loan support
initiatives, Treasury launched a program to purchase SBA 7(a) securities, which
are securitized small business loans. As of June 30, 2010, Treasury’s investment in
UCSB totaled $179.1 million.

TALF
Announced in November 2008, TALF issued loans collateralized by eligible ABS
with the ultimate goal of making credit available to consumers and small business-
es.200 The program was extended to eligible newly issued CMBS in June 2009 and
legacy CMBS in July 2009.201
    TALF is divided into two parts:

•	 a lending program, which originated loans to eligible borrowers against eligible
   collateral
•	 an asset disposition facility, TALF LLC, which purchases the collateral from
   FRBNY if borrowers choose to walk away from their loans or if the collateral is           Collateral: Asset pledged by a bor-
   seized in an event of default                                                             rower to a lender until a loan is repaid.


    TALF, which was funded and managed by FRBNY, closed its lending program
for non-mortgage-backed ABS and legacy CMBS on March 31, 2010, with the last
non-mortgage-backed ABS and legacy CMBS subscription closing on March 11
and March 29, respectively.202 The last subscription for newly issued CMBS was
June 18, 2010, marking the program’s closure to new loans.203 As of June 30, 2010,
$42.5 billion in TALF loans was outstanding.204
92            special inspector general I troubled asset relief program




                                                         The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                     in operation.205 The funding for TALF LLC comes first from interest earned by
                                                     FRBNY on its TALF loans to borrowers from the lending program and interest
                                                     earned on TALF LLC’s investments. In the event that such funding proves insuffi-
                                                     cient, funding would then come from TARP, which is committed to purchase up to
                                                     $20 billion in subordinated debt from TALF LLC.206 The TARP money is available
                                                     for TALF LLC to purchase surrendered assets from FRBNY and may offset losses
                                                     associated with disposing of the surrendered assets.

                                                     Lending Program
                                                     TALF’s lending program made secured loans to eligible borrowers.207 The loans
                                                     were issued with terms of three or five years and were available for ABS, newly is-
                                                     sued CMBS, and legacy CMBS.208
                                                        ABS had to meet a variety of eligibility criteria including the following:209

                                                     •	 possess collateral in the form of U.S. dollar-denominated cash (not synthetic)
     Synthetic ABS: Security deriving its               ABS
     value and cash flow from sources other          •	 bear short-term and long-term credit ratings of the highest investment-grade
     than a physical set of reference assets.           (e.g., AAA) from two or more major, nationally recognized statistical rating
                                                        organizations (“NRSROs”)
     Nationally Recognized Statistical Rating        •	 not bear a long-term credit rating less than the highest rating by a major
     Organization (“NRSRO”): Credit rating              NRSRO
     agency registered with the SEC. Credit          •	 have substantially all of the underlying loans originate in the U.S.
     rating agencies provide their opinion on
                                                     •	 had one of the following types of underlying loans: auto, student, credit card,
     the creditworthiness of companies and
                                                        equipment, floor plan, insurance premium finance, small-business fully guar-
     the financial obligations issued by com-
                                                        anteed by the Small Business Administration as to principal and interest,
     panies. The ratings distinguish between
     investment grade and non-investment
                                                        receivables related to residential mortgage servicing advances (servicing advance
     grade equity and debt obligations.                 receivables)
                                                     •	 not have collateral backed by loans originated or securitized by the TALF
                                                        borrower or one of its affiliates — the TALF borrower could have no affiliation
                                                        with institutions that sold or originated the ABS
     For an analysis of the impact of NRSROs on
     TARP and the overall financial market, see
     SIGTARP’s October 2009 Quarterly Report,
                                                        In order to qualify as TALF collateral, newly issued CMBS and legacy CMBS
     pages 113–148.                                  had to meet numerous requirements, some of which were the same for both
                                                     CMBS types:210

                                                     •	 evidenced an interest in a trust fund consisting of fully funded mortgage loans
                                                        and not other CMBS, other securities, interest rate swap or cap instruments, or
                                                        other hedging instruments
                                                     •	 possessed a credit rating in the highest long-term investment grade from at least
                                                        two TALF CMBS-eligible rating agencies; and not possess a credit rating below
                                                                                quarterly report to congress I july 21, 2010          93




   the highest investment-grade rating category from any TALF CMBS-eligible
   rating agency
•	 offered principal and interest payments
•	 issued by any institution other than a GSE or an agency or instrumentality of
   the U.S. Government
•	 included a mortgage or similar instrument on a fee or leasehold interest in one
   or more income-generating commercial properties

  Some minor, but important, differences existed between eligible newly issued
CMBS and eligible legacy CMBS. Newly issued CMBS had to:211

•	 evidence first-priority mortgage loans that were current in payment at the time
   of securitization
•	 not be junior to other securities with claims on the same pool of loans
•	 have 95% or more of the dollar amount of the underlying credit exposures origi-
   nated by a U.S.-organized entity or U.S. branch or agency of a foreign bank

                                                                                             Non-Recourse Loan: Secured loan
   Legacy CMBS had to:212
                                                                                             whereby the borrower is relieved of
                                                                                             the obligation to repay the loan upon
•	 not be junior to other securities with claims on the same pool of loans upon              surrender of the collateral.
   issuance
•	 have at least 95% of the underlying properties, by related loan principal balance,        TALF Agent: Financial institution that
   located in the U.S. or one of its territories                                             is party to the TALF Master Loan
                                                                                             and Security Agreement and which
    The final maturity date in the TALF loan portfolio is March 30, 2015.213 TALF            occasionally acts as an agent to the
loans are non-recourse (unless the borrower breaches any of its representations,             borrower. TALF Agents include primary
warranties, or covenants), meaning FRBNY cannot hold the borrower liable for any             and nonprimary broker-dealers.
losses beyond the surrender of any assets pledged as collateral.
                                                                                             Haircut: Difference between the value
                                                                                             of the collateral and the value of the
Loan Terms
                                                                                             loan (the loan value is less than the
TALF participants were required to use a TALF agent to apply for a TALF loan.214
                                                                                             collateral value).
Once the collateral (the particular asset-backed security financed by the TALF
loan) was deemed eligible by FRBNY, the collateral was assigned a haircut.                   Skin in the Game: Equity stake in an
Haircuts represent the amount of money put up by the borrower — the borrower’s               investment; down payment; the amount
“skin in the game”— and were required for all TALF loans. FRBNY lent each bor-               an investor can lose.
rower the amount of the market price of the pledged collateral minus the haircut,
subject to certain limitations. The borrower delivered the collateral to the                 Custodian Bank: Bank (for TALF the
custodian bank, which collects payments generated by the collateral and distributes          custodian is BNY Mellon) holding the
it to FRBNY (representing its payment for interest on the TALF loan). Any excess             collateral and managing accounts for
payments from the collateral go to the TALF borrower.215 The risk for any borrower           FRBNY.
is limited to the haircut and any additional principal paid down on the TALF loan.
94            special inspector general I troubled asset relief program




                                                     If the securities pledged as collateral are worth less than the loan amount when the
                                                     loan is due, the borrower would likely surrender the collateral rather than pay the
                                                     loan balance.216 The Government would then be at risk for potential losses equal to
                                                     the difference between the loan amount and the value of the collateral.
                                                          Haircuts for ABS varied based on the riskiness and maturity of the collateral
                                                     and ranged between 5% and 16% for ABS with average lives of five years or fewer.217
                                                     For ABS benefiting from a Government guarantee with average lives of five or more
                                                     years, haircuts increased by one percentage point for every two years (or portion
                                                     thereof) of average life at or past five. For all other ABS with average lives of five or
                                                     more years, haircuts increased by one percentage point per year (or portion thereof)
                                                     of average life at or beyond five.218
                                                          The haircut for legacy and newly issued CMBS with average lives of five or
                                                     fewer years was 15% of par. For CMBS with average lives beyond five years, hair-
                                                     cuts increased one percentage point of par per year (or portion thereof) of average
                                                     life beyond five years. No newly issued CMBS could have an average life beyond
                                                     ten years.219

                                                     Interest Rates
     Spread: Difference between two inter-           Interest rates were based on the loan asset class, with most quoted at a spread
     est rates, or the excess of the return          over the London Interbank Offered Rate (“LIBOR”), a generally accepted short-
     on a particular security or instrument          term interest rate standard. Interest payments on TALF loans are payable monthly.
     relative to a benchmark. For example,           Interest rates are fixed or floating, i.e., reset periodically according to changes in
     if the market return for a five-year            market prices, and were generally below market rate when the loan was made. If
     corporate bond is 5% while the return           the cash flow supporting the collateral has a fixed interest rate, then the TALF loan
     for a five-year U.S. Treasury bond              has a fixed interest rate, and if the cash flow supporting the collateral has a floating
     (used as the benchmark) is 3%, the              interest rate, then the TALF loan interest rate will also float.
     spread is 2%. If the market return for
     the corporate bond decreases to 4%
                                                     TALF Subscription Activity
     and the Treasury return remains the
                                                     The final TALF ABS loans were settled March 4–11, 2010.220 Of all settled TALF
     same, the spread will “narrow” to 1%.
                                                     ABS loans, $33 billion was outstanding as of June 30, 2010.221 Table 2.21 includes
     When a market for a particular security
                                                     all settled ABS TALF loans.
     becomes frozen, spreads will generally
     increase, or “widen,” significantly.                 FRBNY facilitated 13 TALF CMBS subscriptions as of June 30, 2010, total-
                                                     ing approximately $12.1 billion in TALF loans settled. Of the CMBS loans settled,
     London Interbank Offered Rate (“LI-             $9.5 billion was outstanding as of June 30, 2010.222 Table 2.22 includes all CMBS
     BOR”): Interest rate that large banks in        TALF loans settled.
     London charge each other for dollar-
     denominated funds.                              Asset Disposition Facility
                                                     FRBNY created TALF LLC to “purchase and manage any [surrendered] assets
                                                     received by the New York Fed in connection with any TALF loans.”223 TALF LLC
                                                     will purchase these assets from FRBNY at a “price equal to the outstanding TALF
                                                                                                                              quarterly report to congress I july 21, 2010                  95




Table 2.21

TALF LOANS SETTLED by ABS Sector (non-mortgage-backed COLLATERAL)                                                                      ($ BILLIONS)

                                  1st Quarter                 2nd Quarter                3rd Quarter                4th Quarter                 1st Quarter
ABS Sector                              2009                        2009                       2009                       2009                        2010                       Totals
Auto Loans                                 $ 1.9                         $ 6.1                     $ 4.5                      $ 0.2                       $0.1                   $ 12.8
Credit Card Receivables                       2.8                        12.4                        8.4                         1.8                        0.9                    26.3
Equipment Loans                                —                           1.0                       0.1                         0.3                        0.2                      1.6
Floor Plan Loans                               —                             —                       1.0                         1.5                        1.4                      3.9
Premium Finance                                —                           0.5                       0.5                          —                         1.0                      2.0
Servicing Advance                              —                           0.4                       0.1                         0.6                        0.1                      1.3
Receivables
Small-Business Loans                           —                           0.1                       0.4                         0.9                        0.7                      2.2
Student Loans                                  —                           2.5                       3.6                         1.0                        1.8                      8.9
Total                                      $ 4.7                       $23.0                     $18.7                        $6.4                        $6.1                   $59.0
Notes: Numbers affected by rounding. Data as of 6/30/2010.The first subscription in the program was in March 2009; therefore, the first quarter of 2009 represents one subscription while
the remaining quarters represent three subscriptions.

Source: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/12/2010; FRBNY, “Term Asset-Backed
Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 7/12/2010.




Table 2.22

TALF LOANS SETTLED (CMBS COLLATERAL)                                     ($ BILLIONS)

Type of           2nd Quarter                           3rd Quarter                4th Quarter                1st Quarter                2nd Quarter
Collateral Assets       2009                                  2009                       2009                       2010                       2010                          Total
Newly Issued CMBS                      $—                           $—                       $ 0.1                       $—                          $—                      $ 0.1
Legacy CMBS                              —                           4.1                       4.5                         3.3                         —                     12.0
Total                                 $—                           $4.1                      $4.6                       $3.3                        $—                     $12.1
Notes: Numbers affected by rounding. Data as of 6/30/2010. The second quarter of 2009 was only for legacy CMBS while the second quarter of 2010 was only for newly issued
CMBS.

Source: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, http://www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 6/22/2010.




loan amount plus accrued but unpaid interest.”224 If TALF LLC is required to
purchase assets from FRBNY, such purchases will be funded first from interest on
TALF loans plus any interest earned on TALF LLC’s cash and short-term invest-
ments. In the event that such funding proves insufficient for the asset purchases
by TALF LLC, Treasury, through TARP, has committed to lend up to $20 billion to
the LLC.225
   When FRBNY created TALF LLC, TARP loaned TALF LLC $100 million to
provide initial funding, of which $15.8 million was allocated to cover administrative
costs.226 TARP will continue to fund TALF LLC, as needed, until the full
$20 billion TARP commitment has been funded or the loan commitment term
expires. Any additional funds, if needed, would be provided by a loan from FRBNY
96   special inspector general I troubled asset relief program




                                            that would be collateralized by the assets of TALF LLC and senior to the TARP
                                            loan.227 Payments by TALF LLC from the proceeds of its holdings will be made in
                                            the following order:228

                                            1.	    operating expenses of TALF LLC
                                            2.	    principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                            3.	    principal due to Treasury
                                            4.	    interest due to FRBNY
                                            5.	    interest due to Treasury

                                               Any remaining money will be shared by FRBNY and Treasury according to a
                                            10%­-90% split, respectively.229

                                            Current Status
                                            As of June 30, 2010, no collateral had been surrendered or purchased by TALF
                                            LLC.230 As of June 30, 2010, TALF LLC had assets of $506.4 million, including
                                            approximately $100 million in initial TARP funding.231 The remainder consists of
                                            interest payments and interest income earned from permitted investments. From
                                            its February 4, 2009, formation through June 30, 2010, TALF LLC spent approxi-
                                            mately $1 million on administration.232
                                                Because TALF closed for new loans on June 30, 2010, FRBNY’s responsibilities
                                            under the program shifted primarily to portfolio management, which includes the
                                            following duties:233

                                            •	    maintaining documentation
                                            •	    overseeing custodians responsible for holding ABS collateral
                                            •	    calculating and collecting principal and interest on TALF loans
                                            •	    collecting interest on TALF loans
                                            •	    disbursing excess spread to TALF borrowers per the governing documents
                                            •	    monitoring the TALF portfolio
                                            •	    collecting and managing collateral assets if a borrower defaults or surrenders the
                                                  collateral without recourse in lieu of repayment
                                                                                      quarterly report to congress I july 21, 2010           97




State of the Securitization Market
ABS
As shown in Figure 2.8, consumer ABS issuance declined substantially beginning                  For more information on the securitization
in the summer of 2008 and has generally rebounded after TALF was launched.                      process and the typical lending process
                                                                                                prior to the market breakdown, see “TARP
Much of the ABS market in 2009 met FRBNY’s criteria for TALF eligibility, even
                                                                                                Tutorial: Securitization” in SIGTARP’s
if TALF loans were not actually made against all of those securities. The volume of             April 2009 Quarterly Report, pages 92-94.
ABS issued has increased substantially since TALF began issuing loans against ABS
collateral in March 2009, although not to pre-financial crisis levels.234


Figure 2.8
U.S. CONSUMER ABS ISSUANCE
($ BILLIONS)


$18

                                                             TALF Announced
 15


 12


  9


  6

                                                                                                  Credit Card TALF Eligible
                                                                                                  Credit Card
  3                                                                                               Auto TALF Eligible
                                                                                                  Auto
                                                                                                  Student Loan
                                                                                                  Student Loan TALF Eligible
  0
                2006                         2007              2008           2009   2010

  Source: FRBNY, response to SIGTARP data call, 7/13/2010.
98   special inspector general I troubled asset relief program




                                                 TALF’s ultimate stated goal was to meet the credit needs of households and
                                              small businesses.235 As the ABS market issuance increased, total consumer loans
                                              decreased over the same time period as shown in Figure 2.9.

                                              Newly Issued CMBS
                                              Although the ABS market contracted significantly at the start of the financial crisis,
                                              the market for new CMBS issuance ceased entirely from the third quarter of 2008
                                              until November 2009, when $323 million was issued, $72.2 million of which was
                                              TALF-financed.236 There have been few CMBS issuances since then, as shown
                                              in Figure 2.10, and none were TALF-eligible.237 Furthermore, as shown in Figure
                                              2.11, the volume of commercial mortgage loan originations remains well below
                                              pre-crisis levels.

                                              Legacy CMBS
                                              Legacy CMBS were the final class of securities eligible for TALF loans, with the
                                              first loan issued in July 2009.238 When the expansion to legacy CMBS was an-
                                              nounced in May 2009, spreads on CMBS had already begun to narrow from their
                                              peak, but were still substantially larger than historic levels.239 The spreads contin-
                                              ued to narrow when the first TALF legacy CMBS loan was issued in July 2009 as
                                              shown in Figure 2.12.

                                      Figure 2.9

                                      CONSUMER LOANS OUTSTANDING
                                      ($ BILLIONS)
                                                                                                                                                                                First TALF ABS Loan Issued
                                     $3,000

                                                                                                                                                                                                                                Final TALF ABS Loan Issued
                                                                                                                                                                         TALF Announced




                                      2,500




                                      2,000
                                              JAN06
                                                      MAR06
                                                              MAY06
                                                                      JUL06
                                                                              SEP06
                                                                                      NOV06
                                                                                              JAN 07
                                                                                                       MAR07
                                                                                                               MAY07
                                                                                                                       JUL07
                                                                                                                               SEP07
                                                                                                                                       NOV07
                                                                                                                                               JAN 08
                                                                                                                                                        MAR08
                                                                                                                                                                MAY08
                                                                                                                                                                        JUL08
                                                                                                                                                                                SEP08
                                                                                                                                                                                        NOV08
                                                                                                                                                                                                JAN09
                                                                                                                                                                                                        MAR09
                                                                                                                                                                                                                MAY09
                                                                                                                                                                                                                        JUL09
                                                                                                                                                                                                                                SEP09
                                                                                                                                                                                                                                        NOV09
                                                                                                                                                                                                                                                JAN10
                                                                                                                                                                                                                                                        MAR10
                                                                                                                                                                                                                                                                MAY10




                                      Note: Includes revolving and non-revolving credit from major holders including commercial banks, finance companies, credit unions,
                                      Federal Government, savings institutions, non-financial businesses, and pools of securitized assets.

                                      Source: Federal Reserve, “G.19 Consumer Credit,” no date, www.federalreserve.gov/datadownload, accessed 7/9/2010.
                                                                                                                                                                           quarterly report to congress I july 21, 2010                                      99




Figure 2.10                                                                                                              Figure 2.11

U.S. CMBS ISSUANCE                                                                                                        COMMERCIAL/MULTIFAMILY MORTGAGE BANKERS
($ BILLIONS)
                                                                           TALF                                           ORIGINATIONS INDEX
                                                                           Extended
                                          $230.8
$200                                                                       to CMBS
                                                                                                                          400
                          $202.7                                                                                                                                                                            First TALF CMBS Loan Issuance

 150 $168.8                                                                                                               300


 100                                                                                                                      200


                                                                                                                          100
   50

                                                          $12.1                                                              0
                                                                            $3.0
                                                                                                                                  Q106
                                                                                                                                         Q206
                                                                                                                                                 Q306
                                                                                                                                                         Q406
                                                                                                                                                                Q107
                                                                                                                                                                       Q207
                                                                                                                                                                                Q307
                                                                                                                                                                                       Q407
                                                                                                                                                                                              Q108
                                                                                                                                                                                                     Q208
                                                                                                                                                                                                            Q308
                                                                                                                                                                                                                   Q408
                                                                                                                                                                                                                          Q109
                                                                                                                                                                                                                                 Q209
                                                                                                                                                                                                                                        Q309
                                                                                                                                                                                                                                               Q409
                                                                                                                                                                                                                                                      Q110
      0
              2005            2006            2007              2008        2009


Note: Numbers affected by rounding.                                                                                       Note: 2001 Quarterly Average = 100

Source: Commercial Mortgage Alert, “Summary of CMBS                                                                       Source: Mortgage Bankers Association, “Quarterly Survey of Commercial / Multifamily Mortgage
Issuance,” no date, www.cmalert.com/ ranking.php?rid=226,                                                                 Bankers Originations, Q1/2010,” 4/2010, www.mortgagebankers.org/files/Research/
accessed 6/1/2010.                                                                                                        CommercialOriginations/ 1Q10CMFOriginationsSurvey.pdf, accessed 6/9/2010.




Figure 2.12

CMBS SPREADS OVER TREASURY BONDS
20%
                                                                                            TALF Announces                         First TALF CMBS
                                                                                          Extension to CMBS                        Loan Issued
 15



 10



  5



  0
      JAN07

              MAR07

                      MAY07

                              JUL07

                                      SEP07

                                               NOV07

                                                       JAN 08

                                                                 MAR08

                                                                         JUL08

                                                                                 MAY08

                                                                                         SEP08

                                                                                                 NOV08

                                                                                                         JAN09

                                                                                                                 MAR09

                                                                                                                         MAY09

                                                                                                                                 JUL09

                                                                                                                                         SEP09

                                                                                                                                                 NOV09

                                                                                                                                                           JAN10

                                                                                                                                                                   MAR10

                                                                                                                                                                              MAY10




Note: Numbers affected by rounding.

Source: Bloomberg, accessed 6/9/2010.
100            special inspector general I troubled asset relief program




                                                      Public-Private Investment Program
                                                      The stated purpose of the Public-Private Investment Program (“PPIP”) is to
                                                      purchase legacy securities from financial institutions through Public-Private
      Legacy Securities: Real estate-related
                                                      Investment Funds (“PPIFs”), which are partnerships that combine capital from
      securities lingering on the balance             private-sector investors with public equity investments and non-recourse debt from
      sheets of financial institutions because        TARP funds. A private-sector fund management firm oversees each PPIF on behalf
      of pricing difficulties resulting from          of these investors. According to Treasury, PPIP’s aim is to “restart the market for
      market disruption.                              legacy securities, allowing banks and other financial institutions to free up capital
                                                      and stimulate the extension of new credit.”240
                                                          Treasury selected nine fund management firms to establish PPIFs. One PPIF
      For more information on the withdrawal          manager subsequently withdrew. Private investors and Treasury co-invest in the
      of the PPIF, see SIGTARP’s January 2010         eight remaining PPIFs to purchase legacy securities from financial institutions. The
      Quarterly Report, page 88.                      fund managers raise private-sector capital, and Treasury matches the private equity
                                                      dollar-for-dollar, up to set limits, and provides debt financing up to the total amount
                                                      of the equity. The PPIF manager is also required to invest at least $20 million of its
      Pro Rata: Refers to dividing something          own money in the PPIF.241 Each existing PPIF is approximately 75% TARP funded.
      among a group according to the pro-             PPIP is designed as an eight-year program with the possibility of up to two years of
      portionate share that each participant          extensions.242
      holds as a part of the whole.                       The securities are purchased, through an intermediary dealer, from banks,
                                                      insurance companies, mutual funds, pension funds, and other eligible sellers, as
      Limited Partnership: Partnership in
                                                      defined in EESA.243 Treasury, the PPIF manager, and the private investors share in
      which there is at least one partner
                                                      PPIF profits on a pro rata basis based on their limited partnership interests. PPIF
      whose liability is limited to the amount
                                                      losses are shared on a pro rata basis up to each participant’s limited partnership
      invested (limited partner), and at least
      one partner whose liability extends             equity investment amount.244 In addition to its pro rata share, Treasury received
      beyond monetary investment (general             warrants as mandated by EESA.245
      partner).                                           The securities eligible for purchase by PPIFs, “eligible assets,” are supported by
                                                      real estate-related loans, including non-agency residential mortgage-backed securi-
      Non-Agency Residential Mortgage-                ties (“non-agency RMBS”) and CMBS, meeting the following criteria:246
      Backed Securities (“Non-Agency
      RMBS”): Financial instrument backed             •	 issued before January 1, 2009 (legacy)
      by a group of residential real estate           •	 bearing an original AAA rating, or equivalent, from two or more credit rating
      mortgages not guaranteed by a                      agencies designated as NRSROs
      Government-sponsored enterprise
                                                      •	 secured directly by actual mortgages, leases, or other assets, and not other secu-
      (“GSE”), such as the Federal National
                                                         rities (other than certain swap positions, as determined by Treasury)
      Mortgage Association (“Fannie Mae”)
                                                      •	 located primarily in the United States (the loans and other assets securing the
      or the Federal Home Loan Mortgage
                                                         non-agency RMBS and CMBS)
      Corporation (“Freddie Mac”).
                                                      •	 purchased from financial institutions eligible for TARP participation

      For an analysis of the impact of NRSROs         Legacy Securities Program Process
      on TARP and the overall financial market,       The following steps detail the process for participation in the Legacy Securities
      see SIGTARP’s October 2009 Quarterly            Program:
      Report, pages 113–148.
                                                      1.	 Fund managers applied to Treasury to participate in the program.
                                                                                                                        quarterly report to congress I july 21, 2010           101




2.	   Approved fund managers raised necessary private capital for the PPIF.
3.	   Treasury matched the capital raised, dollar-for-dollar, up to a predetermined 	
	     maximum amount. Treasury also received warrants so it can participate further 	
	     if profits are earned by the PPIF.
4.	   Fund managers can borrow additional money from Treasury, 50%–100% of the 	
	     total equity investment (including the amount invested by Treasury).
5.	   Each fund manager purchases and manages the legacy securities and provides 	
	     monthly reports to its investors, including Treasury.

PPIF Purchasing Power
Through June 30, 2010, eight fund managers raised $7.4 billion of private-sector
equity capital, which Treasury matched for a total equity capital of $14.7 billion.
Treasury also provided $14.7 billion of debt capital, resulting in $29.4 billion of
PPIF purchasing power. Of that $29.4 billion, PPIFs purchased approximately
$16.0 billion of PPIP-eligible assets, through June 30, 2010.247
    The fund-raising stage for PPIFs is now complete. PPIF managers had six
months from the closing date of their first private-sector fund raising to raise ad-
ditional private-sector equity. As of June 30, 2010, although Treasury had commit-
ted up to $30 billion for PPIP, the fund managers were not able to raise enough
capital to subscribe fully to Treasury’s commitment. As a result, because the time
to raise private capital has expired, it is not anticipated that PPIP will exceed the
$22.1 billion that has been committed to the individual PPIFs in equity and debt
financing.248 Table 2.23 shows all equity and debt invested under the program. No
additional funds will be committed to the PPIFs.

Table 2.23

 PUBLIC-PRIVATE INVESTMENT PROGRAM
                                                                                   Private-Sector Equity                          Treasury       Treasury     Total Purchasing
                                                                                                 Capital                            Equity            Debt              Power
                                                                                             ($ Billions)                       ($ Billions)   ($ Billions)         ($ Billions)
AG GECC PPIF Master Fund, L.P.                                                                            $1.2                         $1.2           $2.5                 $5.0
AllianceBernstein Legacy Securities Master Fund, L.P.                                                       1.2                         1.2            2.3                  4.6
BlackRock PPIF, L.P.                                                                                        0.7                         0.7            1.4                  2.8
Invesco Legacy Securities Master Fund, L.P.                                                                 0.9                         0.9            1.7                  3.4
Marathon Legacy Securities Public-Private Investment
Partnership, L.P.                                                                                           0.5                         0.5            0.9                  1.9
Oaktree PPIP Fund, Inc.                                                                                     1.2                         1.2            2.3                  4.6
RLJ Western Asset Public/Private Master Fund, L.P.                                                          0.6                         0.6            1.2                  2.5
Wellington Management Legacy Securities PPIF Master Fund, LP                                                1.1                         1.1            2.3                  4.6
Current Totals as of 6/30/2010                                                                            $7.4                         $7.4         $14.7                $29.4
Note: Numbers affected by rounding.

Source: Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended 6/30/2010,” received 7/15/2010.
102               special inspector general I troubled asset relief program




                                                         Disclosure of PPIF Transactions and Holdings
                                                         Since PPIFs commenced trading in October 2009, SIGTARP has been in discus-
                                                         sions with Treasury and PPIF managers concerning the appropriate disclosure of
                                                         information about PPIF activity. As previously stated, SIGTARP believes that trans-
                                                         parency in PPIP is vital to the program’s overall success and credibility. However,
                                                         as urged by Treasury and PPIF managers, SIGTARP acknowledges that publishing
                                                         security-by-security information poses a risk during the ramp-up period while PPIF
                                                         managers are still building their portfolios, and that publication may not be in the
                                                         best interest of taxpayers or other PPIF investors. Specifically, disclosure could re-
                                                         veal PPIF managers’ investment strategies, putting them at a disadvantage relative to
                                                         private investors who could anticipate a PPIF manager’s target, purchase the securi-
                                                         ties, and then sell those securities back to the PPIF at a higher price.
                                                             Accordingly, and consistent with SIGTARP’s previous recommendation that
                                                         contemplated a temporary redaction of information that could harm taxpayer inter-
                                                         est, SIGTARP will not disclose security-by-security information for active PPIFs
                                                         here. However, after discussions with PPIF managers, SIGTARP anticipates that it
                                                         will disclose such data in its next quarterly report, to be issued in October 2010.

                                                         Fund Performance
                                                         Each PPIF’s performance — its gross and net returns since inception — is listed
                                                         in Table 2.24, as reported by PPIF managers. The returns are calculated based
                                                         on a methodology requested by Treasury. Each PPIF has three years to buy legacy
                                                         securities in the market on behalf of its private and Government investors.249 The
                                                         program strives for “predominantly a long-term buy and hold strategy.”250
                                                             The data in Table 2.24 constitutes a snapshot of the funds’ performance during
                                                         the quarter ended June 30, 2010, and may not predict the funds’ performance over
 Figure 2.13                                             the long term. According to some PPIF managers, it would be premature to draw
                                                         any long-term conclusions because, among other reasons, some managers have not
 AGGREGATE COMPOSITION OF PPIF
 PURCHASES, AS OF 6/30/2010                              fully executed their investment strategies, and have not yet fully tapped Treasury’s
 percent of $16.0 Billion                                capital or debt commitments.
            CMBS
                                                             According to their agreements with Treasury, PPIF managers may trade in both
                   15%
                                                         RMBS and CMBS except for Oaktree, which may purchase only CMBS.251
                                                         Figure 2.13 shows the collective value of securities purchased by all PPIFs as of
                                                         June 30, 2010, broken down by RMBS and CMBS.
                                   85%         RMBS
                                                             PPIF investments can be classified by underlying asset type. For non-agency
                                                         RMBS, the underlying assets are mortgages for homes occupied by up to four
                                                         families; all non-agency RMBS investments are considered residential. For CMBS,
                                                         the assets are commercial real estate mortgages: office, retail, multi-family, hotel,
 Note: Numbers affected by rounding.                     industrial (such as warehouses), mobile home parks, mixed-use (combination of
 Source: PPIF Monthly Performance Reports, July 2010.
                                                                                                                            quarterly report to congress I july 21, 2010                           103




Table 2.24

    PPIF INVESTMENT STATUS, AS OF 6/30/2010
                                                                  1-Month              3-Month                Cumulative
                                                                   Return               Return            Since Inception
Manager                                                         (percent)a           (percent)a                (percent)a

AG GECC PPIF Master Fund,                   Gross                    1.06%                4.29%                       27.10%
L.P.                                        Net                         1.04                 4.16                       25.57

AllianceBernstein Legacy                    Gross                       3.72                 6.59                       13.37
Securities Master Fund, L.P.                Net                         3.61                 6.24                       11.64
                                            Gross                       3.25                 8.50                       22.23
BlackRock PPIF, L.P.
                                            Net                         3.15                 8.16                       20.89

Invesco Legacy Securities                   Gross                       2.72                 3.94                       15.94
Master Fund, L.P.                           Net                         2.60                 3.55                       14.04
Marathon Legacy Securities                  Gross                       2.72                 7.39                       14.94
Public-Private Investment
                                            Net                         2.59                 7.01                       12.51
Partnership, L.P.
                                            Gross                       0.99                 2.02                         8.40
Oaktree PPIP Fund, Inc.
                                            Net                         0.81                 1.11                         4.28

RLJ Western Asset Public/                   Gross                       2.09                 6.43                       14.21
Private Master Fund, L.P.                   Net                         2.07                 6.42                       13.65

Wellington Management Legacy                Gross                       1.25                 2.75                       10.22
Securities PPIF Master Fund, LP             Net                      1.12%                2.43%                         8.98%
Notes: The performance indicators are listed as reported by PPIF managers without further analysis by SIGTARP. The net returns
include the deduction of certain management fees and expenses. Further, several of the fund managers have told SIGTARP that they
are capitalizing start-up expenses in the first few quarters, which accounts for some of these expenses.
a
 Time-weighted, geometrically linked returns. The net returns include the deduction of management fees and partnership expenses
attributable to Treasury.

Source: PPIF Monthly Performance Reports submitted by each PPIF manager, June 2010, received 7/15/2010.




                                                                                                                                         Figure 2.14

commercial and residential), and self-storage. Figure 2.14 breaks down CMBS                                                             AGGREGATE CMBS PURCHASES BY
investment distribution by sector. The aggregate CMBS portfolio had large concen-                                                       SECTOR, AS OF 6/30/2010
trations in office (30%) and retail (25%) loans.                                                                                                               Other

    Non-agency RMBS and CMBS can be classified by the degree of estimated                                                                                        9%
                                                                                                                                             Lodging
default risk (sometimes referred to as “quality”). Investors are most concerned with                                                                     15%
                                                                                                                                        1%                                     30%       Office
whether the borrower(s) will default and the underlying collateral will be sold at a                                                    Hotel
loss. Therefore estimated risk, or quality, attempts to measure the likelihood of that                                                   Industrial 5%
outcome. There are no universal standards for ranking mortgage quality and the
                                                                                                                                          Multi-family    15%
designations vary depending on context. In general, the highest quality rankings                                                                                        25%
are granted to mortgages with the strictest requirements regarding borrower credit,                                                                                         Retail
completeness of documentation, and underwriting standards. Treasury character-                                                          Notes: Numbers affected by rounding. Calculated based on
izes these investment-quality levels of risk for the types of mortgage loans support-                                                   monthly data supplied by PPIF managers.

ing non-agency RMBS:252                                                                                                                 Source: PPIF Monthly Performance Reports, July 2010.
104               special inspector general I troubled asset relief program




                                                                     •	 Prime — mortgage loan made to a borrower with good credit that generally
                                                                        meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-
                                                                        ally exceed the dollar amount eligible for purchase by Government-sponsored
      Figure 2.15                                                       enterprises (jumbo loans), but may include lower balance loans as well.
      AGGREGATE RMBS PURCHASES BY                                    •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
      QUALITY, AS OF 6/30/2010                                          documentation or other characteristics that do not meet the standards for prime
      percent of $13.5 Billion
                                                                        loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
                   7%                                                   loan-to-value ratio, or limited or no documentation, compared to a prime loan.
                   Option ARM                                        •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
         10%
                                                                     •	 Option Adjustable Rate Mortgage (“ARM”) — mortgage loan that gives the
         Subprime                                                       borrower a set of choices about how much interest and principal to pay each
                                                                        month. This may result in negative amortization (an increasing loan principal
                                               38% Prime                balance over time).

              Alt-A
                        45%                                             Treasury characterizes CMBS according to the levels of credit enhancement
                                                                     supporting the securitization:253

      Note: Numbers affected by rounding.
                                                                     •	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
      Sources: PPIF Monthly Performance Reports, July 2010.
                                                                        tion with the highest level of credit enhancement. Credit enhancement refers to
                                                                        the percentage of the underlying mortgage pool by balance that must be written
      Figure 2.16                                                       down before the bond suffers any losses. Super senior bonds often compose
      AGGREGATE CMBS PURCHASES BY                                       approximately 70% of a securitization and, therefore, have approximately 30%
      QUALITY, AS OF 6/30/2010                                          credit enhancement at issuance.
      percent of $2.4 Billion
                                                                     •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                                        receive interest and principal payments after super senior creditors but before
            Super Senior
                                                    AM (Mezzanine)
                                                                        junior creditors. AM bonds often compose approximately 10% of a CMBS
                           18%
                                              38%                       securitization.
                                                                     •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained an
         Other
         (CMBS) 18%                                                     AAA rating at issuance.
                                                                     •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                  26%                                   AM, or AJ but meet the definition of “eligible assets” as described above.
                                AJ (Junior)
      Note: Numbers affected by rounding.                                Figure 2.15 and Figure 2.16 show the distribution of PPIP-held non-agency
      Source: PPIF Monthly Performance Reports, July 2010.           RMBS and CMBS investments by respective risk levels, as reported by PPIF
                                                                     managers.
                                                                         Non-agency RMBS and CMBS can be classified geographically according to
                                                                     the states represented by the underlying mortgages. Figure 2.17 and Figure 2.18
                                                                     show the states with the greatest representation in the underlying non-agency
                                                                     RMBS and CMBS investments in PPIFs, as reported by PPIF managers.
                                                                         Non-agency RMBS and CMBS can also be classified by delinquency of the
                                                                     underlying mortgages. Figure 2.19 and Figure 2.20 show the distribution of PPIP-
                                                                     held non-agency RMBS and CMBS investments by respective delinquency levels,
                                                                     as reported by PPIF managers.
                                                                                                                          quarterly report to congress I july 21, 2010   105




Figure 2.17                                                   Figure 2.18

AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
DISTRIBUTION — PERCENT OF TOTAL                               DISTRIBUTION — PERCENT OF TOTAL
RMBS, AS OF 6/30/2010                                         CMBS, AS OF 6/30/2010


     50%                                                            25%


              45%                                                   20
     40
                                                                            20.4%

     30                                                             15

                                                                                        13.5%
     20                                                             10

                                                                                                     9.2%        9.8%
     10                                                               5

                           8%
                                       5%                             0
       0                                           3%
              CA           FL           NY          VA                        CA          NY           FL            TX


Notes: Only states with the largest representation shown.      Notes: Only states with the largest representation shown.
Calculated based on monthly data supplied by PPIF managers.    Calculated based on monthly data supplied by PPIF managers.

Source: PPIF Monthly Performance Reports, July 2010.           Source: PPIF Monthly Performance Reports, July 2010.




 Figure 2.19                                                  Figure 2.20

 AGGREGATE AVERAGE RMBS                                       AGGREGATE AVERAGE CMBS
 DELINQUENCIES BY MARKET VALUE,                               DELINQUENCIES BY MARKET VALUE,
 AS OF 6/30/2010                                              AS OF 6/30/2010
 60+ Days                                                           2% 30 Days         60+ Days
 (FCL/REO included)
                                                                                       6%

                    26%


 30+ Days      3%
                                     71%          Current
                                                                                             92%            Current




 Notes: Numbers affected by rounding. Calculated based on     Notes: Numbers affected by rounding. Calculated based on
 monthly data supplied by the PPIF managers.                  monthly data supplied by PPIF managers.

 Source: PPIF Monthly Performance Reports, July 2010.         Source: PPIF Monthly Performance Reports, July 2010.
106            special inspector general I troubled asset relief program




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
                                                      Business Administration (“SBA”) Loan Support Initiative
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
                                                      Businesses (“UCSB”) program, which is designed to encourage banks to extend
                                                      more credit to small businesses. Treasury stated that, through the UCSB program,
                                                      it would purchase up to $15 billion in securities backed by pools of loans from two
      7(a) Loan Program: SBA loan program             Small Business Administration (“SBA”) programs: the 7(a) Loan Program and the
      guaranteeing a percentage of loans for          504 Community Development Loan Program.254 Treasury now expects to buy no
      small businesses that cannot otherwise          more than $1 billion in securities via UCSB.
      obtain conventional loans at reasonable             On March 2, 2010, Treasury initiated the 7(a) portion of the program. Under
      terms.                                          the governing agreement, Earnest Partners, on behalf of Treasury, may anony-
                                                      mously purchase SBA pool certificates from participating pool assemblers.255 As of
      504 Community Development Loan
                                                      June 30, 2010, Coastal Securities was the only pool assembler participating in the
      Program: SBA program combining
                                                      program.256 On March 19, 2009, Treasury made its first UCSB purchases of 7(a)
      Government-guaranteed loans with
                                                      securities, totaling $21.4 million.257 Through June 30, 2010, Treasury acquired
      private-sector mortgage loans to
                                                      $179 million in 12 floating-rate 7(a) securities. Table 2.25 shows the CUSIPs and
      provide loans of up to $10 million for
      community development.                          investment amounts for the securities Treasury purchased.258 “Settled” transac-
                                                      tions have been fully concluded. The terms of “not settled” transactions have been
      SBA Pool Certificate: Ownership                 agreed upon but the actual transfer of securities for cash has not yet taken place
      interest in a bond backed by                    and is possibly subject to change.
      SBA-guaranteed loans.
                                                      Table 2.25

                                                       Floating-RATE SBA 7(a) securities ($ Millions)
      For more information on SBA 7(a) Loan
      Program mechanics and TARP support                                                                                                                              Investment
                                                      Date                                                                CUSIP                                       Amounta
      for 7(a), see SIGTARP’s April 2010
                                                      Settled Transactions:
      Quarterly Report, pages 105–106.
                                                      3/19/2010                                                           83165ADE1                                       $4.4
                                                      3/19/2010                                                           83165ADC5                                         8.3
                                                      3/19/2010                                                           83164KYN7                                         8.7
                                                      4/8/2010                                                            83164KGH9                                       26.0
                                                      4/8/2010                                                            83165AD84                                         9.6
                                                      5/11/2010                                                           83165AEE0                                       11.5
                                                      5/11/2010                                                           83165AED2                                       14.2
                                                      5/11/2010                                                           83164K2Q5                                         9.7
                                                      Settled Transactions Subtotal                                                                                     $92.4
                                                      Not Settled Transactions:
                                                      5/25/2010                                                           TBA                                             $8.8
                                                      5/25/2010                                                           TBA                                             16.4
                                                      6/17/2010                                                           TBA                                             33.3
                                                      6/17/2010                                                           TBA                                             28.0
                                                      Not Settled Transactions Subtotalb                                                                                $86.7
                                                      Total Investment Amountc                                                                                        $179.0
                                                      Notes: Numbers affected by rounding.
                                                      a
                                                        Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
                                                      b
                                                        The transactions listed as to be announced (“TBA”) are not settled as of 6/30/2010, therefore, the CUSIPs for these are not available.
                                                      c
                                                        Amount subject to adjustment.

                                                      Source: Treasury, Transactions Report, 6/30/2010, www.treas.gov, accessed 7/1/2010.
                                                                              quarterly report to congress I july 21, 2010   107




Automotive industry support programs
During the financial crisis, Treasury, through TARP, launched the Automotive
Industry Financing Program (“AIFP”). In addition to direct financial assistance,
AIFP also included two subprograms: the Auto Supplier Support Program (“ASSP”)
and the Auto Warranty Commitment Program (“AWCP”). According to Treasury,
it established the programs “to prevent a significant disruption of the American
automotive industry that poses systemic risk to financial market stability and will
have a negative effect on the real economy of the United States.”259 The program
included assistance to General Motors Co. (“GM”); the Chrysler entities (includ-
ing CGI Holding LLC (“CGI Holding”), formerly known as Chrysler Holding LLC,
and the parent company of Chrysler LLC (“Old Chrysler”), and Chrysler Group
LLC (“New Chrysler”)); GMAC Inc. (“GMAC”); and Chrysler Financial Services
Americas LLC (“Chrysler Financial”).
    On December 29, 2008, Treasury signed an agreement to provide assistance
to GMAC, followed by a December 31, 2008, agreement with GM. The agree-
ments providing aid to Chrysler and Chrysler Financial were signed on January 2
and January 16, 2009, respectively.260 The automobile industry has not received
Government assistance since December 30, 2009, when GMAC, now Ally
Financial Inc. (“Ally Financial”), received a $3.8 billion capital infusion through
AIFP.
    ASSP, designed to allay fears that auto companies would not be able to pay auto
parts suppliers, was terminated in April 2010, after all loans through the program
were repaid in full.261 AWCP, designed to provide assurance to vehicle buyers that
the warranties on any vehicles purchased during the bankruptcies of GM and
Chrysler would be guaranteed by the Government, was terminated in July 2009,
after all loans under the program had been repaid in full.262
    As of June 30, 2010, Treasury had provided $84.8 billion through these pro-
grams to GM, Ally Financial, the Chrysler entities, and Chrysler Financial. The
companies have paid back approximately $14.3 billion in principal and $816.9
million in interest.

Automotive Industry Financing Program (“AIFP”)
As of June 30, 2010, Treasury had invested $80.7 billion through AIFP to support
automakers and their financing arms in order to “avoid a disorderly bankruptcy of
one or more automotive companies.”263 As of that same date, Treasury had received
approximately $2.3 billion in dividends and interest payments from participating
companies.264 AIFP-related principal repayments included approximately
$6.7 billion from GM, $1.9 billion from CGI Holding, and $1.5 billion from
Chrysler Financial.265
108   special inspector general I troubled asset relief program




                                             GM
                                             As of June 30, 2010, Treasury committed approximately $49.5 billion to GM.
                                             Of the $49.5 billion committed directly to GM through AIFP, $19.4 billion was
                                             granted pre-bankruptcy and $30.1 billion during bankruptcy. During bankruptcy
                                             proceedings, most of Treasury’s original GM investment was converted into com-
                                             mon or preferred stock in New GM (the company that emerged from bankruptcy)
                                             or debt assumed by New GM. As a result, Treasury’s $49.5 billion GM invest-
                                             ment was converted to a 60.8% common equity stake in New GM, $2.1 billion
                                             in preferred stock, and a $7.1 billion loan ($6.7 billion through AIFP and $360.6
                                             million from AWCP). Of the funds originally provided to GM, at the time of GM’s
                                             emergence from bankruptcy, $16.4 billion was put into an escrow account that GM
                                             could only access with Treasury’s permission.
                                                 Under the terms of the sale of certain assets from Old GM to New GM under
                                             Section 363 of the Bankruptcy Code, the United Auto Workers (“UAW”), bond-
                                             holders from Old GM, Treasury, and the governments of Canada and Ontario are
                                             the owners of New GM.266
                                                 An October 15, 2009, stockholders agreement between GM, the Government,
                                             and other shareholders states that the “Government Holders shall use their rea-
                                             sonable best efforts to exercise their demand registration rights under the Equity
                                             Registration Rights Agreement and cause an IPO to occur no later than July 10,
                                             2010, unless the Corporation is already taking steps and proceeding with reason-
                                             able diligence to effect an IPO.”267 On May 17, 2010, Treasury hired Lazard Freres
                                             & Co. as its advisor in connection with the exploration of a possible New GM IPO.
                                             The term of the contract is for 18 months but it could be extended.268 Treasury
                                             is paying the company $500,000 per month for a year and $250,000 per month
                                             thereafter. A Treasury press release issued on June 10, 2010, stated: “[The] exact
                                             timing of the offering will be determined by [New] GM in light of market condi-
                                             tions and other factors, but will not occur before the fourth quarter of this year.”269

                                             Debt Repayments
                                             Through AIFP, $49.5 billion was committed to GM. Of that amount, approximately
                                             $41.4 billion was exchanged for preferred and common stock in New GM, while
                                             $7.1 billion in debt was transferred to New GM. Old GM retains the remaining
                                             $986 million of Treasury’s initial investment. Of Treasury’s $7.1 billion debt in New
                                             GM, $6.7 billion was provided under AIFP and the remaining $360 million was
                                             provided under AWCP.270
                                                 Following repayment of the debt related to AWCP on July 10, 2009, GM owed
                                             the Government $6.7 billion. GM repaid $1.0 billion on December 18, 2009,
                                             $35.0 million on January 21, 2010, $1.0 billion on March 31, and the remain-
                                             ing $4.7 billion on April 20.271 All of these payments were made, with Treasury’s
                                             permission, using funds from the escrow account that held TARP funds provided to
                                             GM.
                                                                                 quarterly report to congress I july 21, 2010             109




Chrysler
Through AIFP, $12.5 billion was committed directly to Chrysler in three stages:
$4 billion before bankruptcy to Chrysler Holding LLC (now CGI Holding),
$1.9 billion in debtor-in-possession (“DIP”) financing during bankruptcy to Old               Debtor-in-Possession (“DIP”): Company
Chrysler, and $6.6 billion through a working capital facility after bankruptcy to             operating under Chapter 11 bank-
New Chrysler.272 Of the approximately $12.5 billion committed directly to all                 ruptcy protection that technically still
Chrysler entities through AIFP, Treasury holds a $7.1 billion loan (including                 owns its assets but is operating them
undrawn commitments and $500 million from Chrysler Holding, LLC (now CGI                      to maximize the benefit to its creditors.

Holding)), and a 9.9% equity ownership stake in New Chrysler.273
    Pursuant to Chrysler’s Chapter 11 bankruptcy filing on April 30, 2009, almost
all of its assets were sold to a newly formed entity, New Chrysler, on June 10, 2009.
Of the $4 billion funded before bankruptcy, $500 million was transferred to New
Chrysler and the remaining $3.5 billion was retained by CGI Holding.274 On
May 14, 2010, CGI Holding repaid the Government $1.9 billion to satisfy its
$3.5 billion Government obligation. Treasury expects no further payment from CGI
Holding.275
    On April 30, 2010, following the bankruptcy court’s approval of a Plan of
Liquidation, the DIP loan was extinguished and the assets remaining with Old
Chrysler, including collateral attached to the loan, were transferred to a liquidation
trust. Treasury retained the right to recover the proceeds from the liquidation of the
specified collateral, but does not expect a significant recovery from the liquidation
proceeds.276

Automotive Financing Companies
Ally Financial/GMAC
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants. On the same day, Treasury also committed to lend $1 billion to GM in
order to increase GM’s ownership interest in GMAC, of which GM drew down
$884 million for this purpose.277 In May 2009, Treasury exchanged the
$884 million note it received from GM for 35.4% common equity ownership in
GMAC, thereby giving Treasury the right to appoint two directors to GMAC’s board.
    On May 21, 2009, Treasury made an additional investment in GMAC when
it purchased $7.9 billion of convertible preferred shares, including $375 million
received from the exercise of warrants. In December 2009, Treasury invested
another $3.8 billion in common shares of GMAC, which increased its equity
ownership from 35.4% to 56.3%. This gave Treasury the right to appoint two ad-               For a summary of Treasury’s investments
ditional directors to GMAC’s board. On May 10, 2010, GMAC changed its name                   in Ally Financial (formerly GMAC), see
to Ally Financial Inc.278 On May 26, 2010, Treasury appointed Marjorie Magner, a             SIGTARP’s January 2010 Quarterly
                                                                                             Report, page 94.
former Citigroup executive, to the board, making her the first Treasury-appointed
director.279
110   special inspector general I troubled asset relief program




                                                As of June 30, 2010, Treasury had invested a total of $17.2 billion in GMAC —
                                             56.3% of Ally Financial’s common stock, $2.5 billion of trust-preferred securities,
                                             and $11.4 billion in mandatorily convertible preferred (“MCP”) shares.280

                                             Chrysler Financial
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. In July 2009, Chrysler Financial repaid
                                             the loan, with interest.281

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced the $5 billion ASSP to “help stabilize the
                                             automotive supply base and restore credit flows in a critical sector of the American
                                             economy.”282 Because of worries about the auto manufacturers’ ability to pay their
                                             invoices, suppliers had not been able to borrow from banks using their receivables
                                             as collateral. ASSP allowed automotive parts suppliers to access Government-
                                             backed protection for money owed to them for the products they shipped to
                                             manufacturers.
                                                 The total commitment of $5.0 billion was reduced to $3.5 billion on July 8,
                                             2009 — $2.5 billion for GM and $1.0 billion for Chrysler.283 Of the $3.5 billion
                                             committed to GM and Chrysler, only $413 million was actually disbursed. Treasury
                                             received a total of $413 million in ASSP loan repayments — $290 million from
                                             the GM special purpose vehicle (“SPV”) and $123 million from the Chrysler SPV.
                                             Additionally, Treasury received $116.4 million in fees and interest payments —
                                             $65.6 million from GM and $50.7 million from Chrysler.284 ASSP terminated on
                                             April 5, 2010, for GM and April 7, 2010, for Chrysler.285 All loans made under this
                                             program have been repaid with interest.

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.
                                             Treasury funded $640.7 million toward this program — $360.6 million to GM
                                             and $280.1 million to Chrysler.286 On July 10, 2009, the companies fully repaid
                                             Treasury.
                                                                                   quarterly report to congress I july 21, 2010             111




Executive Compensation
As discussed in SIGTARP’s previous quarterly reports, TARP recipients are subject           For more information on the Rule and
to executive compensation restrictions. The rules set forth in Section 111 of the           a summary of the timeline on TARP
Emergency Economic Stabilization Act of 2008 (“EESA”) have been changed by                  executive compensation restrictions, see
                                                                                            SIGTARP’s July 2009 Quarterly Report,
Congress and interpreted and implemented by successive Treasury regulations and
                                                                                            page 118.
notices.287 On June 10, 2009, Treasury released its Interim Final Rule on TARP
Standards for Compensation and Corporate Governance (the “Rule”),288 which                  For more information on executive
“implement[s] the ARRA provisions, consolidates all of the executive-compensa-              compensation issues and findings, refer to
tion-related provisions that are specifically directed at TARP recipients into a single     SIGTARP audits: “Despite Evolving Rules
rule (superseding all prior rules and guidance), and utilizes the discretion granted        on Executive Compensation, SIGTARP
                                                                                            Survey Provides Insights on Compliance,”
to the [Treasury] Secretary under the ARRA to adopt additional standards, some of
                                                                                            issued on August 19, 2009, and “Extent
which are adapted from principles set forth” in guidance provided by Treasury in            of Federal Agencies’ Oversight of AIG
February 2009.289                                                                           Compensation Varied, and Important
    The Rule applies to institutions meeting its TARP recipient definition. As long as a    Challenges Remain,” issued on
TARP recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this        October 14, 2009.
does not include warrants to purchase common stock), it must abide by the Rule.290
    Some program participants are exempt from the Rule:291

•	 TALF recipients, because they do not directly receive TARP assistance (instead,
   TARP funds purchase collateral surrendered to TALF)
•	 PPIP participants, because no party owns more than 50% of any PPIF, which
   is the actual TARP recipient (PPIP legal agreements cap ownership interests of
   investors other than Treasury in any PPIF at 9.9%, and any modifications would
   be subject to Treasury’s written consent)
•	 Making Home Affordable (“MHA”) program participants, because they are
   statutorily exempt                                                                           Senior Executive Officer (“SEO”):
                                                                                                “Named executive officer” of a TARP
Special Master                                                                                  recipient as defined under Federal
Treasury created the Office of the Special Master for TARP Executive                            securities law, which generally includes
Compensation (the “Special Master”) on June 15, 2009, and appointed Kenneth                     the principal executive officer, the
R. Feinberg to the position. Special Master Feinberg’s responsibilities include the             principal financial officer, and the next
following:292                                                                                   three most highly compensated execu-
                                                                                                tive officers.
•	 Top 25 Payment Reviews — review and approve compensation structures and
   payments for the 5 most senior executive officers (“SEOs”) and the next 20 most
   highly paid employees at institutions receiving exceptional financial assistance
   under TARP
•	 Top 26 through 100 Payment Reviews — review and approve compensation
   structures for the next 75 highest-paid employees at institutions receiving
   exceptional financial assistance under TARP (employees who are not in the top
   25 but are executive officers or among the top 100 most highly compensated
   employees fall into this category)
112            special inspector general I troubled asset relief program




                                                      •	 Prior Payment Reviews — review bonuses, retention awards, and other com-
      For the specific principles used in                pensation paid to SEOs and the 20 next most highly compensated employees of
      reviewing compensation plans, see                  each entity that received TARP assistance before February 17, 2009, and, when
      SIGTARP’s July 2009 Quarterly Report,              appropriate, negotiate reimbursements
      pages 122–123.                                  •	 Interpretation — provide advisory opinions with respect to the Rule’s applica-
                                                         tion and whether compensation payments and plans are consistent with EESA,
                                                         TARP, and the public interest

                                                          On June 16, 2010, Special Master Feinberg was named to oversee the $20 bil-
                                                      lion fund that BP p.l.c. established to provide compensation for damages caused by
                                                      its oil spill in the Gulf of Mexico.293 As a result, Special Master Feinberg is expected
                                                      to leave his TARP position by the end of the summer.

                                                      Exceptional Assistance Recipients
                                                      As of June 30, 2010, only AIG, Chrysler, GM, and Ally Financial (formerly GMAC)
      Exceptional Assistance Recipients:              were still considered exceptional assistance recipients. Citigroup and Bank of
      Companies receiving assistance under
                                                      America no longer fall under this designation because of repayments each made in
      SSFI, TIP, AIFP, and any future Treasury
                                                      December 2009.294 (Although Citigroup no longer falls into this category, it still has
      program designated by the Treasury
                                                      outstanding TARP obligations. As long as the Government holds Citigroup common
      Secretary as providing exceptional
      assistance. Current recipients are
                                                      stock or trust preferred securities, Citigroup is subject to TARP executive compensa-
      AIG, Chrysler, GM, and Ally Financial           tion restrictions.) Chrysler Financial had been considered an exceptional assistance
      (formerly GMAC).100                             recipient even though it repaid its TARP loan because it was a subsidiary of Chrysler
                                                      Holding, now CGI Holding, which had an outstanding obligation to Treasury. On
      Public Interest Standard: Regulatory            May 14, 2010, CGI Holding repaid $1.9 billion to Treasury in satisfaction of the
      standard that the Special Master is             amount it owed and, therefore, Chrysler Financial is no longer deemed an excep-
      required to apply in making determina-          tional assistance recipient.
      tions. It refers to the determination of            As a result of these repayments, Citigroup, Chrysler Financial, and Bank of
      whether TARP-recipient compensation             America are no longer under the Special Master’s jurisdiction.295
      plans are aligned with the best inter-
      ests of the U.S. taxpayer, based on
                                                      Special Master “Look Back” Letter Findings
      a balancing of specific principles set
                                                      On March 23, 2010, the Special Master issued a letter to each of the 419 banks
      forth in the Rule.
                                                      that had received TARP money before February 17, 2009, requesting information
                                                      on the compensation paid prior to that date to their 25 most highly paid execu-
                                                      tives.296 In an effort to ease the administrative burden on small banks, the Special
                                                      Master limited the scope of his request, requiring the banks to provide detailed
                                                      compensation data only for those executives earning more than $500,000 a year.297
                                                      The banks’ responses were due within 30 days. The Special Master is examining
                                                      the payments and will decide whether any were not in the public interest.298 If the
                                                      Special Master concludes that any payment was contrary to the Public Interest
                                                      Standard, he is required to seek to negotiate with the TARP recipient and the em-
                                                      ployee for appropriate reimbursements to the Government.299
                         quarterly report to congress I july 21, 2010   113




             TARP in Context: Financial
Se ction 3
             Institution Support and
             Policies Outside of TARP—
             2010 Update
114   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I july 21, 2010   115




Summary of Financial Assistance Programs
In response to a request from Senator Max Baucus, Chairman of the Senate
Finance Committee, this section updates a summary of the financial institution
assistance programs created or expanded because of the financial crisis, as initially
presented in SIGTARP’s Quarterly Report to Congress dated July 21, 2009 (the
“July 2009 Quarterly Report”).
    The Troubled Asset Relief Program’s (“TARP”) goal of stabilizing financial insti-
tutions was but one component of the Government’s broad response to the crisis. In
many instances, TARP worked in concert with other Federal initiatives — either as
a direct partner or as another option for the banking sector. This section attempts
to place TARP in the broader context of the Government’s overall response to the
financial crisis.
    As in the July 2009 Quarterly Report, in this section SIGTARP includes three
estimates for each separate Federal Government program that was either initiated or
expanded in response to the financial crisis: the program’s maximum potential com-
mitment since the onset of the crisis, its high-water mark (the maximum amount
actually expended or guaranteed under the program at any one time), and the cur-
rent outstanding balance of actual expenditures or guarantees. See Table 3.1 for a
summary of these amounts.
    With respect to current outstanding balances, the total amount related to TARP
and TARP-related programs has decreased significantly in the past year, and many
of the other programs described in the July 2009 Quarterly Report, particularly the
extraordinary liquidity programs initiated by the Federal Reserve System (“Federal
Reserve”) through the Federal Reserve Bank of New York (“FRBNY”), have closed,
with their outstanding balances either extinguished or significantly reduced. These
reductions, however, have been more than offset in the past 12 months by signifi-
cant increases in expenditures and guarantees in other programs, with the total
current outstanding balance increasing 23%, from approximately $3.0 trillion
to $3.7 trillion. This increase can largely be attributed to greater support for the
Government-sponsored enterprises (“GSEs”), the housing market, and the financial
institutions that participate in it. As discussed in greater detail below, the num-
bers set forth in this section are not a calculation of the risk of loss to the Federal
Government (many of the transactions are collateralized, many of the programs were
not fully implemented, and there are areas of significant overlap among several of
the programs), but reflect the total amounts the various agencies have pledged or
committed in response to the financial crisis.
116   special inspector general I troubled asset relief program




                                             Methodology for Estimating Government Financial
                                             Commitments
                                             No official financial statements have been prepared for the combined Government
                                             response to the financial crisis, and this section is not intended to substitute for
                                             one. Instead it sets forth the scale and scope of those efforts. The numbers have
                                             been taken almost entirely from public sources — the agencies themselves —
                                             and the agencies were provided with an advance copy of this section for vetting.
                                             SIGTARP incorporated their comments, as appropriate. The program listings in
                                             this section are not intended to be comprehensive but instead strive to cover those
                                             programs that benefited or supported financial institutions. The data is broken
                                             down into the following categories:

                                             •	 Current balance ($3.7 trillion) — the actual amount expended or guaranteed
                                                by the programs outstanding as of June 30, 2010. This figure includes only
                                                explicit guarantees of specific assets or actual expenditures, as the agencies
                                                themselves account for them. For example, the corporate debt guaranteed by
                                                the Federal Deposit Insurance Corporation’s (“FDIC”) Debt Guarantee Program
                                                is included in this amount because the FDIC is explicitly standing behind those
                                                assets, while the Federal Housing Finance Agency (“FHFA”) and Treasury
                                                Department’s implicit backing of the potential liabilities of the GSEs is not.
                                             •	 Balance as of last year’s report ($3 trillion) — the actual amount expended or
                                                guaranteed by the programs outstanding as of last year’s report.
                                             •	 High-water mark to date ($6.3 trillion) — the highest balance of actual amounts
                                                expended or guaranteed by each program to date. Many programs peaked in
                                                December 2008, and have since closed. The sum for each Federal agency re-
                                                flects the sum of the individual high-water marks for each separate program un-
                                                der its supervision. This does not, of course, mean that at any single time there
                                                was an outstanding balance for the agency of this amount. Instead, this reflects
                                                the sum of the high-water marks for each program, typically at varying times.
                                             •	 Maximum potential commitment related to crisis ($23.9 trillion) — each
                                                program’s gross, not net, pledged commitment if all eligible applicants had
                                                requested the maximum assistance for each program at the same time. Implicit
                                                guarantees are included in these figures. When a program has no limit, such as
                                                Treasury’s commitment to backstop losses for the GSEs, the high-water mark is
                                                used for this figure as well. To reemphasize, for the reasons detailed below, this
                                                number should not be considered as an estimate of total potential losses, but
                                                rather as the sum of all of the maximum pledged explicit and implicit commit-
                                                ments to support financial institutions and the broader financial markets since
                                                the inception of the crisis.
                                                                                  quarterly report to congress I july 21, 2010         117




   Several additional caveats should be applied to this methodology:

•	 In many cases, the totals reflect the gross maximum commitment each agency
   would have regardless of any offsetting assets or collateral. For almost all of
   the programs, there is collateral backing the financial commitments, such as
   securities or real estate. Accordingly, if a borrower or beneficiary of a particular
   program defaulted, the applicable agency would typically have recourse to assets
   that could mitigate or prevent losses.
•	 As noted above, several programs may involve significant overlap, resulting in
   the same guarantee or loan being double-counted in the totals. For example,
   when the Federal Reserve purchases mortgage-backed securities (“MBS”)
   guaranteed by the GSEs, those purchases may be counted toward the current
   outstanding balance, high-water mark, and maximum potential commitment for
   the Federal Reserve, while the guarantee of those MBS also appears as part of
   the maximum potential commitment for FHFA’s implicit backing of GSE liabili-
   ties. Similarly, a financial institution may be insured against loss on a mortgage
   by the Federal Housing Administration (“FHA”), and appear in the accounting
   for that program, while that same mortgage may be packaged into a security
   that is then guaranteed by the Government National Mortgage Association
   (“GNMA”) (and also included in the totals). Further, several programs may have
   been implemented to replace other programs, such as with respect to sup-
   port provided to American International Group, Inc. (“AIG”) and Bear Stearns
   Companies Inc. (“Bear Stearns”).
•	 Several program estimates are based on contingent rather than direct commit-
   ments and implied asset guarantees (such as the Government’s backstop of the
   guarantees issued by the GSEs) rather than an explicit guarantee on an agency’s
   balance sheet.
•	 Several of the programs were never implemented or were never fully drawn
   down, and many of the programs have since been closed.

    Despite these caveats, this section tracks the historical commitment of the
Federal Government to the financial system and the array of programs it deemed
necessary to address the financial crisis, including in those areas where multiple
agencies felt compelled to pledge overlapping support for the same asset or institu-
tion, albeit in different contexts.
                                                                                           For a summary of the originally projected
                                                                                           funding commitments under TARP, see
TARP Programs in Context and Current Status                                                SIGTARP’s April 2009 Quarterly Report,
By itself, TARP remains a significant program, but the amount of funds outstand-           page 38.
ing in TARP and TARP-related programs has fallen significantly.300 As of June 30,
2010, the amount of total potential funds related to these programs is $755.9
billion, down from an original estimate of $3 trillion, and this figure is expected
118   special inspector general I troubled asset relief program




                                             to decrease further over time. This decrease is due primarily to sharp reductions
                                             in the projected size and scope of the Term Asset-Backed Securities Loan Facility
                                             (“TALF”) and the Public-Private Investment Program (“PPIP”). (See Section 2:
                                             “TARP Overview” of this report for an update on these programs.) TARP, however,
                                             is only a part of the combined efforts of the Federal Government to address the
                                             financial crisis. Approximately 50 initiatives or programs have been created by vari-
                                             ous Federal agencies since 2007.
                                                 The Federal Reserve assembled the largest support package of initiatives in
                                             response to the financial crisis. Its balance sheet has grown from $900 billion in
                                             2007, prior to the financial crisis, to a peak of nearly $2.4 trillion in May 2010.
                                             It did so to provide liquidity to financial markets, stabilize prices of various asset
                                             classes, and intervene in specific situations.301 This increase in its balance sheet
                                             does not represent the maximum potential commitment of the Federal Reserve,
                                             which is estimated to be approximately $6.7 trillion, because many of its efforts
                                             have involved guarantees not included on its balance sheet. The current balance for
                                             Federal Reserve programs has increased from $1.5 trillion to $1.7 trillion since last
                                             year, driven primarily by its increase in purchases of agency MBS (see Table 3.2).
                                                 The FDIC is another key player. Its maximum potential commitment increased
                                             from $2.3 trillion to $2.5 trillion in the past year as it has focused on providing a

                                             Table 3.1
                                             INCREMENTAL FINANCIAL SYSTEM SUPPORT,
                                             BY FEDERAL AGENCY SINCE 2007 ($ TRillions)
                                                                                                                                                                 Maximum
                                                                                                                                                                  Potential
                                                                          Balance                                High-Water               High-Water           Commitment
                                                                             as of           Current             Mark as of               Mark as of             Related to
                                                                       6/30/2009             Balance           6/30/2009*               6/30/2010*                   Crisis
                                             Federal Reserve                     $1.5a             $1.7                     $3.1                  $4.0                     $6.7
                                             FDIC                                   0.3             0.3                       0.3                   0.4                      2.5
                                             Treasury —
                                             TARP (includ-
                                             ing Federal                            0.6             0.3                       0.6                   0.6                      3.0
                                             Reserve, FDIC
                                             components)
                                             Treasury —
                                                                                    0.3             0.5                       0.3                   0.6                      4.1
                                             Non-TARP
                                             Other: FHFA,
                                             NCUA, GNMA,                            0.3             0.8                       0.3                   0.8                      7.7
                                             FHA, VA
                                             Total                               $3.0            $ 3.7                      $4.7                  $6.3                   $23.9

                                             Notes: Numbers affected by rounding. Amounts may include overlapping agency liabilities, “implied” guarantees, and unfunded initia-
                                             tives. Maximum Potential Commitment does not account for collateral pledged. See the “Methodology for Estimating Government
                                             Financial Commitments” discussion in this section for details on the methodology of this chart. Other agencies include: FHFA, National
                                             Credit Union Administration (“NCUA”), Government National Mortgage Association (“GNMA”), Federal Housing Administration (“FHA”), and
                                             U.S. Department of Veterans Affairs (“VA”).
                                             * High-water mark means the highest outstanding balance during the entire history of the program as of the respective dates.
                                             a
                                               This amount has changed from last year’s report due to a change in methodology in accounting for the Federal Reserve’s Maiden Lane
                                             facilities. See notes to Table 3.2 for further explanation.

                                             Source: See respective source notes in the agency-specific tables later in this section.
                                                                                  quarterly report to congress I july 21, 2010             119




higher deposit insurance ceiling, guaranteeing the debt of its member institutions,
and stemming losses in the regional and community banking sectors. However, the
FDIC’s total outstanding balance has remained largely static, falling slightly from
$339.4 billion to $309.6 billion since last year’s report (see Table 3.4).
    The increased importance of the FHFA — under whose auspices fall the GSEs
such as the Federal National Mortgage Association (“Fannie Mae”), the Federal                   For more information on Federal sup-
Home Loan Mortgage Corporation (“Freddie Mac”), and Federal Home Loan                           port of the residential mortgage market,
Banks (“FHLBs”) — underscores the Government’s efforts to backstop GSE                          see SIGTARP’s January 2010 Quarterly
liabilities and provide a floor under the housing market. The implied commitment                Report, pages 109–126.
to backstop the GSEs’ debt obligations and MBS guarantees reached nearly
$6.9 trillion last year but had declined to approximately $6 trillion by the end of
2009 as the GSEs reduced the overall size of their portfolios.
    The current balance for the Department of Housing and Urban Development
(“HUD”) has increased markedly since last year, with approximately $500 billion
in additional guarantees from FHA and GNMA over its pre-crisis commitments.
These guarantees directly assist financial institutions, insuring them against the risk
of loss and allowing them to sell loans that they originate. Collectively, mortgage
loan and MBS guarantee commitments increased from $283.7 billion last year
to $764.2 billion above pre-crisis levels as the domestic mortgage market became
increasingly dependent upon Government assistance (see Table 3.5).
    Meanwhile, Treasury’s outstanding balance for non-TARP programs increased
from $257.1 billion to $533.5 billion over the past year. The increases have largely
been driven by Treasury’s continued purchasing of GSE-related assets, expan-
sion of student loan purchasing programs, and commitment to supporting the
International Monetary Fund’s efforts to respond to the euro-zone debt crisis (see
Table 3.3). An updated overview of the Government’s current program commit-
ments and continuing maximum potential commitments related to the financial                     For more information on the Federal
crisis by Federal agency is provided in Table 3.1.                                              Reserve System, see “TARP Tutorial:
                                                                                                The Federal Reserve System” in
                                                                                                SIGTARP’s July 2009 Quarterly
Specific interventions/programs                                                                 Report, pages 130–136.


Non-TARP Financial Assistance Programs
The Government has undertaken dozens of initiatives in response to the financial
crisis since the summer of 2007, some with specific spending limits and others
without any specific, quantifiable measurement appearing in the books of the
responsible agency. Examples of the latter include:

•	 the FDIC’s expansion of deposit insurance limits
•	 Treasury’s agreement to backstop losses without limit for both Fannie Mae and
   Freddie Mac302
120   special inspector general I troubled asset relief program




                                                 To the extent possible, SIGTARP has quantified the total support provided by
                                             these programs using publicly available information from the agencies responsible
                                             for the program or initiatives. Following each table are brief descriptions of key
                                             programs implemented by the agencies. The descriptions largely reflect the agen-
                                             cies’ own program descriptions. Note that TARP-related programs, such as TALF
                                             and the Asset Guarantee Program, are not included here but addressed elsewhere
                                             in this report.

                                             Summary and Update of Federal Reserve Assistance Programs
                                             As the central bank of the United States, the Federal Reserve has exceptional
                                             responsibilities and powers to address systemic financial crises. As the financial
                                             crisis emerged, the Federal Reserve used its broad powers to implement a number
                                             of programs aimed at supporting the liquidity of financial institutions and foster
                                             improved conditions in financial markets, and promote a resumption of economic
                                             growth. Since 2007, the Federal Reserve has created 18 financial support programs
                                             outside of TARP.
                                                 These programs and tools can be divided into four groups. The first set of tools,
                                             which are closely related to the Federal Reserve’s traditional role as lender of last
                                             resort, focused on the provision of short-term liquidity on a secured basis to banks
                                             and other depository institutions as well as the primary dealers. The traditional
                                             discount window, Term Auction Facility (“TAF”), Primary Dealer Credit Facility
                                             (“PDCF”), and Term Securities Lending Facility (“TSLF”) programs fell into this
                                             category. Because bank funding markets are global in nature, the Federal Reserve
                                             also approved bilateral currency swap agreements with foreign counterparts. In
                                             response to continued improvement in financial market conditions, these programs
                                             — with the exception of the traditional discount window — were wound down
                                             or were allowed to expire. However, the Federal Reserve reestablished bilateral
                                             currency swaps arrangements with five foreign central banks in light of the recent
                                             euro-zone debt crisis.303
                                                 A second set of facilities was created to provide liquidity directly to borrowers
                                             and investors in key credit markets. These programs allowed the Federal Reserve
                                             to assure liquidity for institutions in the money market, commercial paper, and
                                                                                quarterly report to congress I july 21, 2010   121




asset-backed securities (ABS) markets. The Commercial Paper Funding Facility
(“CPFF”), Money Market Investor Funding Facility (“MMIFF”), Asset-Backed
Commercial Paper Money Market Mutual Fund Liquidity Facility (“AMLF”), and
TALF fell into this category. These programs are closed, although TALF still has
loans outstanding.
    The third set of measures expanded the traditional role of the Federal Reserve
in open market operations (“OMOs”) to support the functioning of credit markets
and to provide economic stimulus through the purchase of longer-term securities
for the Federal Reserve’s portfolio. The purchase of GSE debt and MBS as well as
the purchase of longer-term Treasury securities (the Treasuries Purchase Program,
or “TPP”) are primary examples. These securities are currently the largest remain-
ing items resulting from the financial crisis response programs on the Federal
Reserve’s balance sheet. The increase in assistance to the financial system through
these holdings, from a total of $733.7 billion to $1.6 trillion, during the past year
more than outweighed the reduction in guarantee amounts outstanding under the
various liquidity programs described above.304
    Finally, the Federal Reserve provided a financial backstop through various credit
facilities to avoid the disorderly failure of two individual companies, AIG and Bear
Stearns. These facilities have shrunk but continue to have balances outstanding.305
    In aggregate, the Federal Reserve’s crisis response programs authorized since
2007 represent a maximum potential commitment of approximately $6.7 trillion.
The currently outstanding $1.7 trillion amount reflects a net increase of approxi-
mately $262 billion since the July 2009 Quarterly Report (see Table 3.2).
    For a complete listing of financial crisis-related Federal Reserve programs and
their status, see Table 3.2.
122            special inspector general I troubled asset relief program




      Table 3.2

      non-tarp government support of the financial sector Federal reserve system                       ($ Billions)

                                                                                                                         Maximum
                                                                                                                          Potential
                                                                              Balance                   High-Water     Commitment
                                                                                 as of     Current      Mark as of       Related to
      Program                                            Coverage          6/30/2009       Balance    6/30/2010*          Crisis**
      Term Auction Facility (“TAF”) – CLOSED             Banks               $282.8          $—           $493.1a         $900.0b
      Primary Credit Program of the Discount Window      Banks                 39.1           0.2           111.9c         111.9
      Repurchase Agreements                              Banks                   0.0          0.0           124.6d         124.6
      Commercial Paper Funding Facility (“CPFF”) –       Commercial
                                                                              128.1           0.0e          349.9f        1,800.0g
      CLOSED                                             Paper Markets
      Money Market Investor Funding Facility (“MMIFF”)   Money Market
                                                                                 0.0            —               0.0        600.0h
      – CLOSED                                           Mutual Funds
      Asset-Backed Commercial Paper Money Market         Money Market
                                                                               16.7             —           145.9i         145.9
      Mutual Fund Liquidity Facility (“AMLF”) – CLOSED   Mutual Funds
      Term Securities Lending Facility (“TSLF”), TSLF
                                                         Primary Dealers         8.0            —           233.6j         250.0k
      Options Program (“TOP”) – CLOSED
      Expansion of System Open Market Account
                                                         Primary Dealers       14.3m         13.9n            30.8o          36.0p
      (“SOMA”) Securities Lendingl
      Primary Dealer Credit Facility (“PDCF”) – CLOSED Primary Dealers           0.0            —           147.7q         147.7
                                                         GSEs, Housing
      Purchases of Direct Obligations of GSEs                                  92.1         165.2           169.0r         200.0s
                                                         Markets
      Purchases of GSE-Guaranteed Mortgage-Backed        GSEs, Housing
                                                                              467.1       1,119.3        1,128.4t         1,250u
      Securities                                         Markets
      Foreign Central Bank Currency Liquidity Swaps      U.S. Markets         114.6v          1.2w          586.1x         586.1
                                                         Private Credit
      Treasuries Purchase Program                                             174.5y        300.0           300.0z         300.0aa
                                                         Markets
                                                         Specific
      Credit to AIG***                                                         43.5          50.4bb           90.3cc       122.8dd
                                                         Institution
                                                         Specific
      Maiden Lane LLC (Bear Stearns)****                                       29.2ee        29.3ff           29.3gg         30.0hh
                                                         Institution
                                                         Specific
      Maiden Lane II LLC (AIG)****                                             17.7ii        15.3jj           19.5kk         22.5ll
                                                         Institution
                                                         Specific
      Maiden Lane III LLC (AIG)****                                            22.6mm        17.3nn           24.4oo         30.0pp
                                                         Institution
      Other Credit Extensions (JPMorgan, Bear Stearns Specific
                                                                                  —             —             12.9qq         12.9
      bridge loan) – CLOSED                           Institution
      Total                                                                $1,450.3      $1,712.1      $3,997.4         $6,670.4
                                                                                                                                 quarterly report to congress I july 21, 2010                                      123




Notes: Numbers affected by rounding. If only one source is given for a program, it is the same source for all column headers. If only one source is given for “Balance as of 6/30/2009” and “High-Water Mark,”
it is the same source.
* High-water mark means the highest outstanding balance during the entire history of the program as of the respective date.
** Maximum Potential Commitment does not account for any collateral pledged; the high-water mark is used as the maximum potential support for programs that did not specify an upper limit.
*** Current credit to AIG balance includes the value of AIA and ALICO SPV preferred shares currently held by the Federal Reserve. This amount was not included in SIGTARP’s July 2009 Quarterly Report.
**** All Maiden Lane LLC amounts represent the current outstanding principal balance (including accrued and capitalized interest) of funds borrowed from the Federal Reserve. Last year’s report measured
the value of the respective Maiden Lane asset portfolios.

Sources:
a
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WTERAUC.txt, accessed 7/6/2010.
b
   Federal Reserve Press Release, 10/6/2008, www.federalreserve.gov/newsevents/press/monetary/20081006a.htm, accessed 6/8/2010.
c
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WPC.txt, accessed 7/6/2010.
d
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WREPO.txt, accessed 7/6/2010.
e
   CPFF SPV is closed, but current balance of remaining assets includes about $1 million in other investments as of 6/30/2010.
f
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WCPFF.txt, accessed 7/6/2010.
g
   FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
h
   FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
i
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WABCMMF.txt, accessed 7/6/2010; FDIC Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examina-
    tions/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
j
   Week ending 6/30/2010: St. Louis Fed, http://research.stlouisfed.org/fred2/data/WTERMFAC.txt, accessed 7/6/2010.
k
    Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, p. 39, accessed 6/23/2010; FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/exami-
    nations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/23/2010.
l
   Maximum $5 billion per primary dealer; Fed’s primary dealer list shows 18 dealers (www.newyorkfed.org/markets/pridealers_current.html). Limit was increased from $3 billion to $5 billion per dealer in
    2008 and has remained at that level. Effective July 9, 2009, the SOMA expanded to include direct obligations of housing-related GSEs Fannie Mae, Freddie Mac, and the Federal Home Loan Banks held in
    the SOMA portfolio and offered them for loan in the daily SOMA securities lending auctions.
m
   This is an update to SIGTARP’s July 2009 Quarterly Report: Federal Reserve Bank of New York, Securities Lending Activity, 6/30/2009, www.newyorkfed.org/markets/seclend/historical/results.cfm,
    accessed 7/9/2010.
n
    Federal Reserve Bank of New York, response to SIGTARP data call, 7/9/2010.
o
    This is an update to SIGTARP’s July 2009 Quarterly Report: Federal Reserve Bank of New York, Securities Lending Activity, 10/23/2008, www.newyorkfed.org/markets/seclend/historical/results.cfm,
    accessed 7/9/2010.
p
    SOMA figures for “total support” are net of pre-existing lending limits. To estimate a total support amount of $36 billion, the increased facility of $2 billion per primary dealer was multiplied by the 18
    primary dealers in the industry; historical data, www.federalreserve.gov/releases/h41/hist/h41hist1.pdf, accessed 6/11/2009.
q
    Technically unlimited potential, though usage peaked on 10/1/2008 at $147.7 billion. Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WPDF.txt, accessed 7/6/2010.
r
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WFEDSEC.txt, accessed 7/6/2010.
s
    Maximum Potential Commitment extended to the program at any point was $200 billion; see Federal Reserve Board Press Release, 3/18/2009, http://federalreserve.gov/newsevents/press/
    monetary/20090318a.htm, accessed 6/30/2010.
t
   Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WMBSEC.txt, accessed 7/6/2010.
u
    FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
v
    This is an update to last year’s report; Federal Reserve Bank of New York, response to SIGTARP data call, 7/10/2010.
w
    Week ending 6/30/2010: St. Louis Fed, http://research.stlouisfed.org/fred2/data/WLIQSWP.txt, accessed 7/6/2010.
x
    Last year’s chart reflected an upper limit of $755 billion. The Federal Reserve Bank of New York now clarifies that current swap lines are unlimited. High-water mark and unlimited maximum potential com-
    mitment amount provided by Federal Reserve Bank of New York, response to SIGTARP data call, 7/10/2010.
y
    Data derived from taking the increase of U.S. Treasury securities held from 3/18/2009 (date of program announcement) to 6/3/2009 to data source: Federal Reserve, www.research.stlouisfed.org/fred2/
    categories/32215/downloaddata, accessed 6/11/2009.
z
    Purchase amount found by taking the difference of the current $777 billion of U.S. Treasury securities held and the amount held prior to the program’s initiation in March 2009; Federal Reserve, March
    2010,“Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201002.pdf, accessed
    6/30/2010.
aa
    Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monettarypolicy/files/month-
    lyclbsreport201006.pdf, accessed 6/23/2010.
bb
    Current Balance and Balance as of 6/30/2009 provided by Federal Bank of New York, response to SIGTARP draft, 7/10/2010.
cc
    Sum of AIG’s Credit Facility and Securities Lending Facility. Federal Reserve Board, Statistical Release H.4.1, “Recent balance sheet trends,” 7/13/2010, www.federalreserve.gov/monetarypolicy/bst_re-
    centtrends_accessible.htm, accessed 7/13/2010.
dd
    Prior to restructuring of assistance, the Federal Reserve’s maximum potential commitment to AIG peaked at $122.8 billion between two programs — an $85 billion credit facility and a $37.8 billion
    securities lending facility. Federal Reserve Board, Monetary Policy Report to the Congress, Appendix A, 2/24/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
    6/23/2010.
ee
    Federal Reserve Board of Governors, February 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/
    monthlyclbsreport201002.pdf, accessed 6/24/2010.
ff
    Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/month-
    lyclbsreport201006.pdf, accessed 6/23/2010.
gg
    Federal Reserve Bank of New York, “Maiden Lane Transactions,” 3/31/2010, www.newyorkfed.org/markets/maidenlane_100331.html#begin, accessed 7/10/2010.
hh
    Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 6/9/2010.
ii
    Federal Reserve Board of Governors, February 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/
    monthlyclbsreport201002.pdf, accessed 6/24/2010.
jj
    Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
    clbsreport201006.pdf, accessed 6/23/2010.
kk
    Federal Reserve Bank of New York, “Maiden Lane Transactions,” 12/31/2008, www.newyorkfed.org/markets/maidenlane2_081231.html#begin, accessed 7/10/2010.
ll
    Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 6/9/2010.
mm
    Federal Reserve Board of Governors, February 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/
    monthlyclbsreport201002.pdf, accessed 6/24/2010.
nn
    Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
    clbsreport201006.pdf, accessed 6/23/2010.
oo
    Federal Reserve Bank of New York, “Maiden Lane Transactions,” 12/31/2008, www.newyorkfed.org/markets/maidenlane3_081231.html#begin, accessed 7/10/2010.
pp
    Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 6/9/2010.
qq
    Initial outlay of March 14-16, 2008; repaid on March 17, 2009; Federal Reserve, Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns
    Companies Inc. through JPMorgan Chase Bank N.A., www.federalreserve.gov/monetarypolicy/files/129bearstearnsbridgeloan.pdf, accessed 5/14/2010.
124   special inspector general I troubled asset relief program




                                                Although the Federal Reserve’s remaining maximum potential commitments
                                             have fallen as many of its liquidity facilities have closed, the current balance of its
                                             securities held outright continues to rise. The majority of this increase is associ-
                                             ated with the settlement of MBS purchases executed prior to the completion of
                                             the MBS purchase program on March 31, 2010, and the completion of TPP in
                                             October 2009. Figure 3.1 below shows the direction in which the Federal Reserve’s
                                             commitments and liabilities have shifted during the financial crisis.




                                            Figure 3.1

                                            FEDERAL RESERVE BALANCE SHEET ASSETS (12/26/2007 − 6/30/2010)
                                            $ Trillions


                                                  $2.5




                                                    2.0




                                                    1.5




                                                    1.0




                                                      .5




                                                      0
                                                           12/26/2007            6/26/2008            12/26/2008              6/26/2009            12/26/2009               6/30/2010


                                                              GSE Mortgage-Backed Securities (MBS)
                                                              GSE Mortgage-Related Debt
                                                              U.S. Treasury Securities
                                                              All Liquidity Facilities*

                                                           Note: The “All Liquidity Facilities” category includes various Federal Reserve programs such as the Term Auction Facility, the
                                                           Commercial Paper Funding Facility, and the Money Market Investor Funding Facility.

                                                           Sources: Securities Holdings: Federal Reserve Board, Statistical Release H.4.1, “Factors Affecting Reserve Balances,”
                                                           7/8/2010, www.federalreserve.gov/releases/h41/hist/h41hist11.txt, accessed 7/10/2010; All Liquidity Facilities: Federal
                                                           Reserve Board, Recent Balance Sheet Trends, 7/10/2010, www.federalreserve.gov/monetary policy/bst_recenttrends.htm,
                                                           accessed 7/10/2010.
                                                                                quarterly report to congress I july 21, 2010   125




Term-Auction Facility (“TAF”) — Closed on March 8, 2010 — Maximum Potential
Commitment: $900 Billion, Amount Outstanding: $0
The Term Auction Facility (“TAF”) allowed depository institutions in generally
sound condition to borrow funds by bidding at competitive auctions and putting
up collateral. It was a new means of providing funds through the Federal Reserve’s
discount window. Although most instances of borrowing from the discount win-
dow are routine and short-term in nature, banks have also sometimes relied on the
discount window as a source of funds for longer periods in an emergency. Because
of its association with emergencies, borrowing at the discount window has carried
a certain stigma. Because TAF funds were obtained through regular auctions, bor-
rowing under TAF, by contrast, was perceived less as a sign of weakness.
    TAF was created in December 2007 by the Federal Reserve Board of Governors
to meet the short-term liquidity needs of banks. According to the Federal Reserve,
“by increasing the access of depository institutions to funding, the TAF support[ed]
the ability of such institutions to meet the credit needs of their customers.”306
    The funds were borrowed by banks in an auction that set the interest rate. The
bank had to be in “generally sound financial condition” and post collateral — such
as high-quality securities — that were subject to certain haircuts. Thus, a bank
could borrow, for example, $0.92 after posting $1.00 worth of securities. The
minimum interest rate a bank could bid was the interest rate paid by the Federal
Reserve on excess reserve balances. Typically, the Federal Reserve conducted regu-
lar auctions of 28- and 84-day funds for $150 billion at a time.307 The sum of all
TAF credit authorized within these auctions reached a maximum potential commit-
ment peak of $900 billion.308 The outstanding balance of funds under TAF reached
its $493 billion peak as capital markets bottomed out in March 2009.309
    As financial market conditions improved in the second half of 2009, the Federal
Reserve said it would scale back the amount of funds offered at TAF auctions and
shorten the maturity of future auction terms. TAF’s 84-day auctions were aligned
with maturity dates of 28-day auctions; the auction amount for other 28-day auc-
tions was gradually decreased, and the last auction was held March 8, 2010.310
These final funds matured in early April 2010 and the TAF program’s outstanding
balance was zero as of June 30, 2010.311

Primary Credit Program of the Discount Window — Maximum Potential
Commitment: $111.9 Billion, Amount Outstanding: $0.2 Billion
Primary credit loans are taken by banks at the Federal Reserve’s discount window
when they require short-term funds to meet the needs of their customers and
creditors. Prior to the crisis, the Federal Reserve ordinarily lent on a very short-
term basis, typically overnight, at 1.0% above the Federal Open Market Committee
(“FOMC”) target federal funds rate. The borrowing bank must provide suitable
collateral, subject to a haircut. In August 2007, the Federal Reserve reduced the
126   special inspector general I troubled asset relief program




                                             primary credit (discount) rate to 0.5% above the federal funds rate and extended
                                             the primary credit term to 30 days. Accessibility was broadened in March 2008,
                                             as the Federal Reserve further reduced the rate to 0.25% above the FOMC target
                                             federal funds range and lengthened the term to 90 days.
                                                 In response to improvement in financial markets in late 2009 and early 2010,
                                             the Federal Reserve twice reduced the maximum term of primary credit loans, first
                                             to 28 days, and then back to overnight, effective March 18, 2010. In addition, the
                                             Federal Reserve raised the rate to 0.5% above the target federal funds range, effec-
                                             tive February 19, 2010.312 The reduction of the lengthier term to overnight has es-
                                             sentially eliminated the modifications for emergency liquidity through this program.
                                             As of June 30, 2010, borrowing through the discount window had decreased from a
                                             crisis high point of $111.9 billion in October 2008 to approximately $200 million.

                                             Repurchase Agreements (“Repos”) — Maximum Potential Commitment:
                                             $124.6 Billion, Amount Outstanding: $0
                                             According to the Federal Reserve, “repurchase agreements reflect some of the
                                             Federal Reserve’s temporary [open market operations]. Repurchase agreements
                                             are transactions in which securities are purchased from a primary dealer under an
                                             agreement to sell them back to the dealer on a specified date in the future. The
                                             difference between the purchase price and the repurchase price reflects an inter-
                                             est payment. The Federal Reserve may enter into repurchase agreements for up
                                             to 65 business days, but the typical maturity is between one and 14 days. Federal
                                             Reserve repurchase agreements supply reserve balances to the banking system for
                                             the length of the agreement. The Federal Reserve employs a naming convention
                                             for these transactions based on the perspective of the primary dealers: the dealers
                                             receive cash while the Federal Reserve receives the collateral.”313
                                                 During the years leading up to the financial crisis, non-banking institutions
                                             such as money market mutual funds, securities lenders, institutional investors, and
                                             businesses increasingly needed a means of safely depositing funds while earning in-
                                             terest but retaining easy access to their funds. Repurchase agreements developed to
                                             serve this need. However, the onset of the financial crisis and near failure of large
                                             financial institutions heightened counterparty risk as the value of collateral, such as
                                             AAA-rated subprime securities, used in repurchase agreements came increasingly
                                             into question. As a result, private lenders raised the haircuts required for the repo
                                             loans or refused to roll over the repo loans collateralized by subprime mortgage
                                             assets.314
                                                 As liquidity in the repo market subsequently dried up, the Federal Reserve
                                             became the preferred counterparty of primary dealers in the repo market. In an
                                             effort to supply reserve balances and additional liquidity to the banking system, the
                                             Federal Reserve increased the level of its repurchase agreements substantially be-
                                             yond pre-crisis levels. The value of reserve bank credit provided through repurchase
                                                                               quarterly report to congress I july 21, 2010   127




agreements reached its high-water mark of $124.6 billion in June 2008. The
normalization of liquidity in the banking system reduced the need to further inject
reserves and repurchase agreement balances have remained at zero since February
2009.315

Commercial Paper Funding Facility (“CPFF”) — Closed on February 1, 2010 —
Maximum Potential Commitment: $1.8 Trillion, Amount Outstanding: $0
The Commercial Paper Funding Facility (“CPFF”) was created in October 2008
to provide an emergency source of funds to U.S. corporations that borrow short-
term funds by issuing commercial paper (“CP”). CP is a short-term debt security
commonly used by corporations to raise funds in what has historically been a
liquid market. The market for these securities froze in the fall of 2008 follow-
ing the failure of Lehman Brothers. CPFF was created to reassure investors and
corporate issuers that the Federal Reserve was willing to act as a “buyer of last
resort,” maintaining the liquidity and functioning of this market. CPFF, accord-
ing to the Federal Reserve Board’s February 2009 Monetary Policy Report to the
Congress, was “intended to improve liquidity in short-term funding markets and
thereby increase the availability of credit for businesses and households.”316 Under
the terms and conditions of CPFF, the Federal Reserve committed to lending funds
to a special purpose vehicle (“SPV”) that bought eligible CP from eligible issuers.
Eligible CP was U.S.-dollar-denominated CP or asset-backed CP rated at least
A-1/P-1/F1 (these are the top ratings of the different ratings agencies). Eligible
issuers were U.S. corporations, including those with a foreign parent company. For
any given issuer, the SPV’s purchases were limited to the maximum amount of CP
that issuer had outstanding between January 1 and August 31, 2008. Issuers paid
a fee to FRBNY of 0.1% of the maximum of its CP the SPV could own. Under the
program’s guidelines, the amount of qualifying CP holdings the CPFF SPV was
potentially authorized to purchase was approximately $1.8 trillion.317 The SPV’s
holdings reached a peak of approximately $350 billion in January 2009 and steadily
declined until its closure on February 1, 2010.318

Money Market Investor Funding Facility (“MMIFF”) — Closed on October 30,
2009 — Maximum Potential Commitment: $600 Billion, Amount Outstanding: $0
Money market funds are investment funds that buy high-quality, short-term debt
instruments such as Treasury securities and high-quality bank and corporate notes.
Investments in money market funds are generally intended to provide a high degree
of safety and relatively quick access to funds. In turn, banks and other financial
intermediaries depend on the money market as a source of funds for their business
and household customers. In 2008, this market also experienced the same liquidity
problems as other markets — that is, money market investors could not find buyers
for securities they were seeking to sell when needed.
    To help meet this liquidity need, the Federal Reserve created the Money Market
128   special inspector general I troubled asset relief program




                                             Investor Funding Facility (“MMIFF”) on October 21, 2008. According to the
                                             Federal Reserve Board’s February 2009 Monetary Policy Report to the Congress,
                                             “the Federal Reserve Bank of New York [would] provide senior secured funding to a
                                             series of SPVs to facilitate an industry-supported private-sector initiative to finance
                                             the purchase of eligible assets from eligible investors. Eligible assets include[d]
                                             U.S. dollar-denominated certificates of deposit, bank notes, and commercial paper
                                             issued by highly rated financial institutions and having remaining maturities of 90
                                             days or less.”319 The SPVs for MMIFF were similar to the SPV for CPFF in that
                                             they would purchase eligible money market paper using funds from MMIFF and
                                             through the issuance of asset-backed CP. FRBNY committed to lending the SPVs
                                             90% of the purchase price of eligible assets; sellers of assets to the SPV would
                                             receive that much in cash and the remaining 10% in ABS from the SPV.320 Under
                                             the program’s guidelines, the amount of qualifying money market fund holdings
                                             the MMIFF SPV was potentially authorized to purchase was approximately $600
                                             billion.321 MMIFF was never used to fund any purchases of money market instru-
                                             ments, but it may have succeeded in providing confidence to this market through
                                             its existence alone. MMIFF expired on October 30, 2009.322

                                             Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility
                                             (“AMLF”) — Closed on February 1, 2010 — Maximum Potential Commitment:
                                             $145.9 Billion, Amount Outstanding: $0
                                             The Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity
                                             Facility (“AMLF”) was designed to assist money market funds holding asset-backed
                                             commercial paper (“ABCP”) in meeting the liquidity demands of their investors.
                                             Through the facility, the Federal Reserve provided non-recourse loans at the primary
                                             credit rate to U.S. depository institutions and bank holding companies to finance
                                             their purchases of high-quality ABCP from money market mutual funds. The facility
                                             was intended “to assist money funds that hold such paper in meeting demands for
                                             redemptions by investors and to foster liquidity in the ABCP markets and broader
                                             money markets.”323 AMLF was initially authorized on September 19, 2008, and al-
                                             though originally scheduled to terminate in January 2009, was extended to February
                                             1, 2010.324 The program’s high-water mark of $145.9 billion was reached almost
                                             immediately upon its authorization, but its size gradually declined and remained
                                             relatively unused from August 2009 until its closure on February 1, 2010.325

                                             Term Securities Lending Facility (“TSLF”), and Term Securities Lending Facility
                                             Options Program (“TOP”) — Closed on February 1, 2010 — Maximum Potential
                                             Commitment: $250 Billion, Amount Outstanding: $0
                                             In the securities markets, primary dealers are a group of securities broker-dealers
                                             that have the right to trade directly with the Federal Reserve System in connec-
                                             tion with Federal Reserve OMO. They also participate directly in U.S. Treasury
                                                                                 quarterly report to congress I july 21, 2010   129




auctions, and are an important conduit for financial interactions between the
Federal Government and the private capital markets. In early 2008, many primary
dealers came under increasing liquidity pressure, which the Federal Reserve ad-
dressed through the creation of the Term Securities Lending Facility (“TSLF”)
on March 11, 2008. According to the Federal Reserve Board’s February 2009
Monetary Policy Report to the Congress, “Under the TSLF, the Federal Reserve
lends up to $200 billion of Treasury securities to primary dealers for a term of
28 days (rather than overnight, as in the regular securities lending program); the
lending is secured by a pledge of other securities.”326 The facility allowed for the
expansion of eligible collateral from Treasury and Federal agency securities and
AAA-rated RMBS to include all investment-grade debt securities. The securities
were then made available in weekly competitive auctions.327 The program reached
its high-water mark of $233.6 billion in October 2008 and steadily declined until
reaching zero in August 2009. The program closed on February 1, 2010.328
     An extension of the TSLF was TSLF Options Program (“TOP”), described by
FRBNY as intended to “enhance the effectiveness of the TSLF by offering added
liquidity over periods of heightened collateral market pressures, such as quarter-
end dates.”329 The program “offer[ed] options on a short-term fixed rate of [TSLF]
bond-for-bond loan of general Treasury collateral against a pledge of eligible col-
lateral.”330 The Federal Reserve’s Open Market Trading Desk offered a total of $50
billion in options for each targeted period in addition to the $200 billion authorized
under TSLF.331 TOP was suspended effective July 1, 2009, and did not resume
before TSLF closed.332

Expansion of System Open Market Account (“SOMA”) Securities Lending —
Maximum Potential Commitment: $36.0 Billion Increase in Funding, Amount
Outstanding: $13.9 Billion
The System Open Market Account (“SOMA”) pre-dated the crisis and is managed
by FRBNY. The account contains dollar-denominated assets purchased in OMO
in the course of the Federal Reserve’s implementation of U.S. monetary policy.
Borrowing of securities in the SOMA is permitted “for the purpose of covering an
expected fail to receive on the part of a dealer. In order to prevent lending activ-
ity from affecting reserves, Treasury securities, rather than cash, are posted with
the Federal Reserve as collateral.”333 Under SOMA’s Securities Lending Program,
the Federal Reserve lends Treasury securities and agency direct obligations held
in the System account on an overnight basis for a fee.  Such loans are secured by
Treasury securities pledged by the borrower.334 In response to market pressures,
the program was expanded on September 23, 2008, to raise the current dealer ag-
gregate limit from $3 billion to $4 billion335 and raised again on October 8, 2008,
to $5 billion per dealer.336 This $2 billion increase per dealer has resulted in an
130   special inspector general I troubled asset relief program




                                             expansion of $36 billion spread across the 18 designated primary dealers.
                                                 On July 9, 2009, the Federal Reserve modified the SOMA securities lending
                                             program by offering direct GSE obligations in the program’s daily lending auc-
                                             tions.337 On June 30, 2010, securities loans outstanding to primary dealers through
                                             the securities lending program totaled approximately $13.9 billion.338

                                             Primary Dealer Credit Facility (“PDCF”) — Closed on February 1, 2010 —
                                             Maximum Potential Commitment: $147.7 Billion, Amount Outstanding: $0
                                             The Federal Reserve Board’s February 2009 Monetary Policy Report to the
                                             Congress states that “to bolster market liquidity and promote orderly market
                                             functioning, on March 16, 2008, the Federal Reserve Board voted unanimously
                                             to authorize the Federal Reserve Bank of New York to create a lending facility —
                                             the Primary Dealer Credit Facility (“PDCF”) — to improve the ability of primary
                                             dealers to provide financing to participants in securitization markets.”339 Under the
                                             facility, loans were made to primary dealers, against which they had to post eligible
                                             collateral. Initially, eligible collateral was limited to investment-grade securities,
                                             but this was expanded in September 2008 to include “all collateral eligible for
                                             pledge in tri-party funding arrangements through the major clearing banks. The
                                             interest rate charged on such credit [was] the same as the primary credit rate at
                                             the Federal Reserve Bank of New York.”340 The first participants eligible to pledge
                                             this wider range of collateral were Merrill Lynch & Co., Inc. (“Merrill Lynch”),
                                             The Goldman Sachs Group, Inc. (“Goldman Sachs”), and Morgan Stanley; these
                                             collateral arrangements were later expanded to include other primary dealers.
                                             The program reached its high-water mark of $147.7 billion in October 2008 and
                                             steadily declined until reaching zero in May 2009. The program closed on February
                                             1, 2010.341

                                             Purchases of Direct Obligations of GSEs — Maximum Potential Commitment:
                                             $200.0 Billion, Amount Outstanding: $165.2 Billion
                                             GSEs are private corporations created by Congress to fulfill certain social and fi-
                                             nancial policy goals, primarily in the housing finance markets. The most prominent
                                             are Fannie Mae, Freddie Mac, and the FHLBs. As Fannie Mae and Freddie Mac
                                             in particular encountered difficulty raising funds in 2008, their problems began af-
                                             fecting the cost and availability of credit within the housing markets, where the two
                                             agencies alone accounted for more than half of all domestic mortgage financing.
                                                 To help reduce the cost and increase the availability of credit in support of the
                                             housing and mortgage markets, the Federal Reserve announced on September 19,
                                             2008, that it would commence purchasing debt and other instruments of the GSEs
                                             through its Open Market Trading Desk; these purchases are made in competitive
                                             auctions through primary dealers.
                                                                                quarterly report to congress I july 21, 2010   131




    On November 25, 2008, the Federal Reserve announced a program to buy up
to $100 billion in the GSEs’ direct obligations. On March 18, 2009, the Federal
Reserve’s FOMC increased the size of this program to a total of $200 billion for
direct obligations.342 Prior to August 31, 2009, the purchase program had been fo-
cused on less liquid fixed-rate, non-callable, senior GSE securities. This policy was
amended to include widely traded benchmark GSE securities in an effort to “miti-
gate market dislocations and promote overall market functioning.”343 Subsequently,
on September 23, 2009, the FOMC announced its intention to gradually slow
the pace of these purchases and to execute them by the end of the first quarter of
2010. On November 4, 2009, the Committee announced its intention for pur-
chases to total about $175 billion.344 As of June 30, 2010, the Federal Reserve held
approximately $165.2 billion in GSE direct obligations on its balance sheet.345

Purchases of GSE-Guaranteed MBS — Maximum Potential Commitment:
$1.25 Trillion, Amount Outstanding: $1.1 Trillion
In addition to purchasing the direct obligations of GSEs, the Federal Reserve
provided further support to the mortgage markets by committing to purchase
up to $1.25 trillion of MBS that have been guaranteed by GSEs. This purchase
program was originally announced on November 25, 2008, with a maximum pur-
chase limit of $500 billion, but was raised to $1.25 trillion on March 18, 2009.346
Subsequently, on September 23, 2009, FOMC announced its intention to gradu-
ally slow the pace of its purchases of agency-guaranteed MBS by scaling back
average weekly purchase amounts.347 As anticipated by FOMC, these purchases
were completed by March 31, 2010. As of June 30, 2010, the Federal Reserve held
approximately $1.1 trillion in GSE-guaranteed MBS on its balance sheet.348

Foreign Central Bank Currency Liquidity Swaps — Maximum Potential
Commitment: $586.1 Billion, Amount Outstanding: $1.2 Billion
On December 12, 2007, FOMC announced it had authorized dollar liquidity swap
lines with the European Central Bank and the Swiss National Bank in order to
“provide liquidity in U.S. dollars to overseas markets.”349 Subsequently, the program
expanded to include additional central banks.
    The Federal Reserve describes the transactions as follows: “These swaps involve
two transactions. When a foreign central bank draws on its swap line with the
Federal Reserve, the foreign central bank sells a specified amount of its currency to
the Federal Reserve in exchange for dollars at the prevailing market exchange rate.
The Federal Reserve holds the foreign currency in an account at the foreign central
bank. The dollars that the Federal Reserve provides are deposited in an account
that the foreign central bank maintains at the Federal Reserve Bank of New York.
At the same time, the Federal Reserve and the foreign central bank enter into a
binding agreement for a second transaction that obligates the foreign central bank
132   special inspector general I troubled asset relief program




                                             to buy back its currency on a specified future date at the same exchange rate. The
                                             second transaction unwinds the first. At the conclusion of the second transac-
                                             tion, the foreign central bank pays interest, at a market-based rate, to the Federal
                                             Reserve.
                                                  “When the foreign central bank lends the dollars it obtained by drawing on
                                             its swap line to institutions in its jurisdiction, the dollars are transferred from the
                                             foreign central bank’s account at the Federal Reserve to the account of the bank
                                             that the borrowing institution uses to clear its dollar transactions. The foreign cen-
                                             tral bank remains obligated to return the dollars to the Federal Reserve under the
                                             terms of the agreement, and the Federal Reserve is not a counter party to the loan
                                             extended by the foreign central bank. The foreign central bank bears the credit risk
                                             associated with the loans it makes to institutions in its jurisdiction.”350
                                                  These temporary dollar liquidity swap arrangements reached a maximum
                                             amount of $586.1 billion in December 2008 and then gradually declined to zero
                                             until the arrangements first expired on February 1, 2010.351 However, in response
                                             to the re-emergence of strains in offshore short-term U.S. dollar funding markets
                                             stemming from the euro-zone sovereign debt crisis, in May 2010, the Federal
                                             Reserve re-established temporary dollar liquidity swap lines with the Bank of
                                             Canada, the Bank of England, the European Central Bank, the Bank of Japan, and
                                             the Swiss National Bank through January 2011.352 These facilities are designed to
                                             help improve liquidity conditions in U.S. dollar funding markets and to prevent
                                             the spread of strains to other markets and financial centers.353 The amount of
                                             credit being extended through this new round of liquidity swap agreements has
                                             been small so far and looks to remain relatively minor compared to the liquidity
                                             swap program arranged during the peak of the financial crisis. The pricing on the
                                             reopened swap lines is consistent with pricing under the previous swap lines, but
                                             is now above current market pricing and is largely pre-emptive in nature, looking
                                             to provide a backstop for dollar funding markets and bolster market confidence.354
                                             The first drawing on the new swap lines settled on May 12, 2010, and the aggre-
                                             gate outstanding swap balances stood at approximately $1.2 billion as of June 30,
                                             2010.355

                                             Treasury Purchase Program (“TPP”) — Maximum Potential Commitment:
                                             $300.0 Billion, Amount Outstanding: $300.0 Billion
                                             On March 18, 2009, FOMC announced that “to help improve conditions in
                                             private credit markets, the [FOMC] Committee decided to purchase up to $300
                                             billion of longer-term Treasury Securities over the next six months.”356 The Federal
                                             Reserve stated that the goal of TPP was “to provide support to mortgage and hous-
                                             ing markets and to foster improved conditions in financial markets more generally”
                                             by improving the functioning of the MBS market and so reducing the yields on
                                             the longer-term Government securities used as the benchmarks against which the
                                                                                  quarterly report to congress I july 21, 2010   133




rates of long-term loans, such as mortgages, are set. In August 2009, the FOMC
announced it would gradually slow the pace of Treasury purchases in order to “pro-
mote a smooth transition in markets as purchases were completed.” As anticipated,
the purchases were completed by the end of October 2009 and currently stand at
$300 billion.357

Non-TARP Credit to American International Group, Inc. — Maximum Potential
Commitment: $122.8 Billion, Amount Outstanding: $50.4 Billion
The Federal Reserve Board’s Monetary Policy Report to the Congress in February
2009 states that “In early September, the condition of American International
Group, Inc. (‘AIG’), a large, complex financial institution, deteriorated rapidly. In
view of the likely systemic implications and the potential for significant adverse
effects on the economy of a disorderly failure of AIG, on September 16, the Federal
Reserve Board, with the support of Treasury, authorized the Federal Reserve Bank
of New York to lend up to $85 billion to the firm to assist it in meeting its obliga-
tions and to facilitate the orderly sale of some of its businesses. This facility had
a 24-month term, with interest accruing on the outstanding balance at a rate of
3-month LIBOR plus 850 basis points, and was collateralized by all of the assets of
AIG and its primary non-regulated subsidiaries. On October 8, the Federal Reserve
announced an additional program under which it would lend up to $37.8 billion to
finance investment-grade, fixed-income securities held by AIG, for a total poten-
tial commitment amount of $122.8 billion. These securities had previously been
lent by AIG’s insurance company subsidiaries to third parties.”358 Federal Reserve
support for AIG through these two credit facilities reached a combined high-water
mark of approximately $90.3 billion on October 22, 2008.359 The securities lending
facility was repaid in full and terminated on December 12, 2008.360 Subsequently,
in November 2008, “Treasury, through TARP, purchased $40 billion of newly is-
sued AIG preferred shares under the Systemically Significant Failing Institutions
(‘SSFI’) program. The $40 billion allowed the Federal Reserve to reduce from
$85 billion to $60 billion the total amount available under the credit facility.”361 In
addition to reducing the line of credit, the Federal Reserve reduced the interest rate
on the facility and extended the term of the facility from two years to five years.362
     On December 1, 2009, the Federal Reserve completed two transactions previ-
ously announced as part of the restructuring of the U.S. Government’s assistance
to AIG. Under these agreements, the Federal Reserve received $25 billion in pre-
ferred interests in two SPVs formed to hold the outstanding stock of AIG’s largest
foreign insurance subsidiaries, American International Assurance Co., Ltd. (“AIA”)
and American Life Insurance Company (“ALICO”). In exchange, the credit facility
available to AIG was reduced by $25 billion to a maximum of $35 billion.
     As of June 30, 2010, the maximum amount available under the AIG credit facil-
ity was approximately $33.7 billion, with an outstanding balance of $24.7 billion.363
134   special inspector general I troubled asset relief program




                                             As of June 30, 2010, the outstanding balance on the AIA and ALICO SPVs was
                                             $25.7 billion.364 The combined amount of remaining Federal Reserve support to
                                             AIG through these facilities totaled $50.4 billion.

                                             Maiden Lane LLC (Bear Stearns) — Maximum Potential Commitment:
                                             $30.0 Billion, Amount Outstanding: $29.3 Billion
                                             In mid-March 2008, Bear Stearns, a major investment bank and primary dealer,
                                             was in imminent danger of failure. According to the Federal Reserve Board’s
                                             February 2009 Monetary Policy Report to the Congress, “A bankruptcy filing would
                                             have forced the secured creditors and counterparties of Bear Stearns to liquidate
                                             underlying collateral, and given the illiquidity of markets, those creditors and coun-
                                             terparties might well have sustained substantial losses. If they had responded to
                                             losses or the unexpected illiquidity of their holdings by pulling back from providing
                                             secured financing to other firms and by dumping large volumes of illiquid assets
                                             on the market, a much broader financial crisis likely would have ensued. Thus,
                                             the Federal Reserve judged that a disorderly failure of Bear Stearns would have
                                             threatened overall financial stability and would most likely have had significant
                                             adverse implications for the U.S. economy.”365 To prevent a complete collapse of
                                             Bear Stearns, therefore, the Federal Reserve invoked its emergency powers under
                                             Section 13(3) of the Federal Reserve Act to authorize a loan of up to $30 billion
                                             to facilitate JPMorgan Chase & Co.’s (“JPMorgan”) purchase of Bear Stearns and
                                             its assumption of the company’s financial obligations. A limited liability company,
                                             Maiden Lane LLC was created to facilitate these arrangements, particularly to hold
                                             and manage certain assets.366 On June 26, 2008, Maiden Lane LLC purchased
                                             approximately $30 billion in Bear Stearns assets with approximately $29 billion of
                                             funding from the Federal Reserve to Maiden Lane LLC and a subordinated loan
                                             of approximately $1 billion from JPMorgan.367 As of June 30, 2010, the outstand-
                                             ing principal balance (including accrued and capitalized interest) on the Federal
                                             Reserve’s loan stood at $29.3 billion while the current fair market value of Maiden
                                             Lane LLC’s assets stood at $28.4 billion.368

                                             Maiden Lane II LLC and Maiden Lane III LLC (American International Group, Inc.)
                                             — Maximum Potential Commitment: $22.5 Billion and $30 Billion, Respectively,
                                             Amount Outstanding: $15.3 Billion and $17.3 Billion, Respectively
                                             The Federal Reserve Board’s April 2009 Monetary Policy Report to the Congress
                                             states that “In November 2008, the Federal Reserve also announced plans to
                                             restructure its lending related to AIG by extending credit to two newly formed
                                             limited liability companies. The first, Maiden Lane II LLC, received a $19.5 billion
                                             loan (the commitment was $22.5 billion) on December 12, 2008 from the Federal
                                                                                    quarterly report to congress I july 21, 2010   135




Reserve and a $1 billion subordinated loan from AIG and purchased residential
mortgage-backed securities from AIG. As a result of these actions, the securities
lending facility established on October 8, 2008, was subsequently repaid and ter-
minated. The second new company, Maiden Lane III LLC, received a $24.3 billion
loan (the commitment was $30 billion) on November 25, 2008, from the Federal
Reserve and a $5 billion equity funding from AIG and purchased multi-sector
collateralized debt obligations on which AIG ha[d] written credit default swap
contracts.”369 As of June 30, 2010, the outstanding principal balances (including
accrued and capitalized interest) on the Federal Reserve’s loans to Maiden Lane II
LLC and Maiden Lane III LLC stood at $15.3 billion and $17.3 billion, respective-
ly, while the current fair market value of Maiden Lane II LLC and Maiden Lane III
LLC’s assets stood at $15.7 billion and $23.2 billion, respectively.370

Bridge Loan to JPMorgan & Bear Stearns — Maximum Potential Commitment:
$12.9 Billion, Amount Outstanding: $0
According to the Federal Reserve, on March 14, 2008, FRBNY made an over-
night discount window loan of $12.9 billion to JPMorgan to facilitate its purchase
of Bear Stearns; this was done simultaneously, in a back-to-back transaction, to
provide secured financing to Bear Stearns. The loan was repaid in full the follow-
ing Monday, March 17, 2008, “with interest of nearly $4 million.”371 The Federal
Reserve Board describes this decision to extend credit as “designed to provide
funding necessary for Bear Stearns to meet its obligations for that day and to give
the company and policymakers additional time to develop a more permanent solu-
tion to the company’s severe liquidity problems that threatened to cause its sudden
default and bankruptcy.”372

Non-TARP U.S. Department of the Treasury Programs
Outside of TARP, Treasury is using its non-EESA resources and authorities to
support a number of other programs for the benefit of the financial industry. The
Emergency Economic Stabilization Act of 2008 (“EESA”), the legislation that
created TARP, was not the first financial rescue act of Congress in 2008. Prior
to EESA, Congress passed the Housing and Economic Recovery Act of 2008
(“HERA”) in July 2008. As such, many of Treasury’s earlier efforts at restoring
stability to the financial sector arose out of provisions in this law. Table 3.3 provides
a summary of the key Treasury initiatives related to the financial crisis. In the year
since the July 2009 Quarterly Report, Treasury’s outstanding balance for non-TARP
programs increased by $276 billion, to $533.5 billion. The increases derive from
Treasury’s open-ended support of the GSEs, support of the student loan industry,
and support for the International Monetary Fund.
136                special inspector general I troubled asset relief program




       Table 3.3
       NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR — U.S. TREASURY ($ BILLIONS)
                                                                                                                                                                  High-Water           Maximum Potential
                                                                                                              Balance as of                   Current             Mark as of                 Commitment
       Program                                                    Coverage                                     6/30/2009                      Balance           6/30/2010*             Related to Crisis**
       Money Market Mutual Fund (“MMMF”)                          Money Market Mutual Funds                                $0.0                    $0.0                      $0.0                     $3,355.3a
       Program — CLOSED
       GSE Preferred Stock Purchase                               Fannie/Freddie; Housing                                 59.8b                  144.9                    144.9c                          144.9d
       Agreements (“PSPA”)                                        Markets
       GSE MBS Purchase Program                                   Fannie/Freddie; Housing                                145.7e                  180.7f                   198.0g                           225.5h
                                                                  Markets
       GSE Credit Facility Program — CLOSED                       Fannie/Freddie; Housing                                    0.0                     0.0                       0.0                           25.0i
                                                                  Markets
       New Issue Bond Program (“NIBP”)                            Fannie/Freddie; Housing                                      —                   15.3                      15.3                            15.3j
                                                                  Markets
       Temporary Credit and Liquidity Program                     Fannie/Freddie; Housing                                      —                     8.2                       8.2                            8.2k
       (“TCLP”)                                                   Markets
       Other HERA/Treasury (Tax Benefits and                      Housing Markets                                          19.0l                   30.8                      30.8                           30.8m
       CDBG)
       Student Loan Purchases, and Asset-                         Higher Education, Lending                                32.6n                   99.6                     99.6o                         112.0p
       Backed Commercial Paper Conduits                           Institutions
       Potential International Monetary Fund                      International Agencies                                       —                   54.0                      54.0                         154.0q
       Liabilities
       Total                                                                                                           $257.1                  $533.5                   $550.8                        $4,071.0
      Notes: Numbers affected by rounding.
      * High-water mark means the highest outstanding balance during the entire history of the program as of the respective date.
      ** Maximum Potential Commitment does not account for collateral pledged.
      a
        Per Treasury, the MMMF provided coverage to all participating money market mutual funds as of 9/19/2008. Treasury Press Release, “Treasury Announces Extension of Temporary Guarantee Program for
        Money Market Funds,” 3/31/2009, www.ustreas.gov/press/releases/tg76.htm, accessed 6/23/2010. The amount, $3.355 trillion, represents the total money market mutual funds outstanding at the end
        of Q3, 2008. Federal Reserve Board Statistical Release Z.1, “Flow of Funds Accounts of the United States,” 6/11/2009, Table L.206, www.federalreserve.gov/releases/z1/20090611/z1.pdf, accessed
        6/23/2010.
      b
        Data as of 4/16/2009. White House, FY 2010 Budget, www.whitehouse.gov/omb/budget/fy2010/assets/gov.pdf, accessed 6/15/2010.
      c
        Data as of 3/31/2010. Federal Housing Finance Agency, “Capital Disclosures under Conservatorship (as of Q1 2010),” April 2010, www.fhfa.gov/webfiles/15747/1Q10CapitalDisclosure52010.pdf, ac-
        cessed 6/30/2010.
      d
        This amount is technically unlimited through December 31, 2012. Data as of 3/31/2010. Federal Housing Finance Agency, “Capital Disclosures under Conservatorship (as of Q1 2010),” April 2010, www.
        fhfa.gov/webfiles/15747/1Q10CapitalDisclosure52010.pdf, accessed 6/30/2010.
      e
        Data as of 5/31/2009. Treasury, Monthly Treasury Statement, May 2009, www.fms.treas.gov/mts/mts0509.pdf, accessed 6/15/2010.
      f
        Treasury, Monthly Treasury Statement, June 2010, www.fms.treas.gov/mts/mts0610.pdf, accessed 7/14/2010.
      g
        Treasury, Monthly Treasury Statement, January 2010, www.fms.treas.gov/mts/mts0110.pdf, accessed 6/16/2010.
      h
        This represents a decline from SIGTARP’s July 2009 Quarterly Report due to lower Treasury budget estimates for purchases going forward. Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/
        management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed 6/25/2009; Treasury, “Budget in Brief FY 2011,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2011/FY%20
        2011%20BIB%20(2).pdf, accessed 6/8/2010; represents the sum of Treasury’s actual FY 2008, actual FY 2009, and estimates for FY 2010 and FY 2011.
      i
        House Committee on Financial Services Press Release, “Today: House to Consider H.R. 3221,” 7/23/2008, www.house.gov/apps/list/press/financialsvcs_dem/press072308.shtml, accessed 6/15/2010.
      j
        Treasury, Press Release, “Administration Completes Implementation of Initiative to Support State and Local Housing Finance Agencies,” 1/13/2010, www.financialstability.gov/latest/tg_01132010.html,
        accessed 6/1/2010.
      k
        Treasury Press Release, “Administration Completes Implementation of Initiative to Support State and Local Housing Finance Agencies,” 1/13/2010, www.financialstability.gov/latest/tg_01132010.html,
        accessed 6/1/2010.
      l
        House Committee on Financial Services Press Release, “Today: House to Consider H.R. 3221,” 7/23/2008, www.house.gov/apps/list/press/financialsvcs_dem/press072308.shtml, accessed 6/8/2010.
      m
         Total adds this year’s estimates to last year’s $19.0 billion estimate. For Homebuyer’s Tax Credit Extension estimate, see U.S. Congress, Joint Committee on Taxation, “Estimated Revenue Effects of Certain
        Revenue Provisions Contained in the Worker, Homeownership, and Business Assistance Act of 2009, 11/3/2009, accessed 7/8/2010; for CDBG funds extension estimate, see Department of Housing and
        Urban Development, no date, “American Recovery and Reinvestment Act of 2009- Program-Level Plan Community Development Block Grants (CDBG) Entitlement Grants,” http://portal.hud.gov/portal/page/
        portal/RECOVERY/PLANS/Community%20Development%20Block%20Grant%20(CDBG)%20Entitlement%20Grants.pdf, accessed 6/16/2010.
      n
        As of May 31, 2009. Treasury, Monthly Treasury Statement, May 2009, www.fms.treas.gov/mts/mts0509.pdf, accessed 7/5/2010.
      o
        Department of Education, response to SIGTARP data call, 7/5/2010.
      p
        This updates last year’s estimate for maximum potential commitments. For estimate of total purchases, see Congressional Budget Office, March 2010, “Costs and Policy Options for Federal Student Loan
        Programs,” www.cbo.gov/ftpdocs/110xx/doc11043/03-25-StudentLoans.pdf, accessed 5/28/2010.
      q
        CNBC, “US Exposure to EU Bailout is Big, but Risk is Limited,” 5/11/2010, www.cnbc.com/id/37084075/US_Exposure_to_EU_Bailout_Is_Big_But_Risk_Is_Limited, accessed 6/1/2010.
                                                                                  quarterly report to congress I july 21, 2010   137




Money Market Mutual Fund Program (“MMMF”) — Closed on September 18,
2009 — Maximum Potential Commitment: $3.4 Trillion, Amount Outstanding: $0
Treasury initiated the temporary Money Market Mutual Fund (“MMMF”) guaran-
tee program on September 29, 2008. The stated intent was to address temporary
dislocations in credit markets by guaranteeing “the share price of any publicly
offered eligible money market mutual fund — both retail and institutional — that
applies for and pays a fee to participate in the program.” According to Treasury, the
program provided “coverage to shareholders for amounts that they held in partici-
pating money market funds as of the close of business on September 19, 2008. The
guarantee will be triggered if a participating fund’s net asset value [per share] falls
below $0.995, commonly referred to as breaking the buck.”373 Originally designed
to last for three months, the program was extended twice to September 18, 2009.
Funding for the program was drawn not from TARP funds, but from the Exchange
Stabilization Fund, which was established by the Gold Reserve Act of 1934.374 The
Exchange Stabilization Fund has assets of approximately $50 billion, and the maxi-
mum potential commitment provided to the MMMF program was approximately
$3.4 trillion — the total amount of money market mutual funds outstanding as of
the third quarter of 2008, when the program was created, and which were eligible
for coverage.375 Treasury announced the expiration of the program on September
18, 2009, without any losses and $1.2 billion earned in fund participation fees.376

GSE Preferred Stock Purchase Agreements (“PSPA”) — Maximum Potential
Commitment: $144.9 Billion, Amount Outstanding: $144.9 Billion
HERA provided temporary authority for Treasury to purchase obligations of the
housing GSEs. In September 2008, FHFA, established under HERA to oversee the
housing GSEs, put Fannie Mae and Freddie Mac under Federal conservatorship.
Treasury entered into a Preferred Stock Purchase Agreement (“PSPA”) with both
Fannie Mae and Freddie Mac to make investments up to $100 billion each in their
senior preferred stock as required to maintain positive equity.377 On May 6, 2009,
Treasury increased the funding commitments for the PSPAs to $200 billion for
each of the entities. On December 24, 2009, Treasury announced that the fund-
ing commitments for both would be modified to allow for additional funding in the
event that cumulative losses at Fannie Mae or Freddie Mac exceed $200 billion
each before December 31, 2012, without limit. As of June 30, 2010, Fannie Mae
and Freddie Mac had received $83.6 billion and $61.3 billion, respectively, under
the PSPAs.378

GSE MBS Purchase Program — Maximum Potential Commitment:
$225.5 Billion, Amount Outstanding: $180.7 Billion
HERA also gave Treasury the authority to purchase GSE MBS in the open market,
and Treasury announced the program on September 7, 2008.379 According to the
138   special inspector general I troubled asset relief program




                                             Treasury’s FY 2011 budget, “The purpose of the program was to promote liquid-
                                             ity in the mortgage market and, thereby, affordable homeownership by stabilizing
                                             the interest rate spreads between mortgage rates and Treasury issuances.”380 The
                                             purchase of the securities would broaden access to mortgage funding for current
                                             and prospective homeowners as well as promote market stability.381 According to
                                             Treasury’s FY 2010 and 2011 budgets, the amount of actual expenditures and
                                             future allocations to GSE MBS purchases had been estimated at approximately
                                             $225.5 billion over the life of the program.382 As of June 30, 2010, the Treasury
                                             held $180.7 billion in GSE MBS, down from a high-water mark of approximately
                                             $198 billion at the end of December 2009.383 Treasury’s authority to continue pur-
                                             chasing GSE MBS expired on December 31, 2009, and Treasury did not request
                                             additional funds for the program in FY 2011.384

                                             GSE Credit Facility Program — Closed on December 31, 2009 — Maximum
                                             Potential Commitment: $25 Billion, Amount Outstanding: $0
                                             The third Treasury program conducted under HERA relating to the GSEs was a
                                             program designed to “ensure credit availability to the housing GSEs by providing
                                             secured funding on an as-needed basis.”385 All of the GSEs would be able to borrow
                                             under the program if needed until December 31, 2009. The Congressional Budget
                                             Office (“CBO”) estimated that, if used, the federal budgetary cost of this facility
                                             would be $25 billion over the fiscal years 2009-2010.386 No loans were made under
                                             this program between its authorization on July 30, 2008, and its expiration on
                                             December 31, 2009.387

                                             New Issuance Bond Program (“NIBP”) — Maximum Potential Commitment:
                                             $15.3 Billion, Amount Outstanding: $15.3 Billion
                                             In December 2009, Treasury initiated two new programs providing temporary
                                             financing for state and local Housing Financing Agencies (“HFAs”) to issue hous-
                                             ing bonds. Under the New Issuance Bond Program (“NIBP”), Treasury purchased
                                             securities of Fannie Mae and Freddie Mac backed by new HFA housing bonds,
                                             intended to support up to several hundred thousand new affordable mortgages and
                                             tens of thousands of new affordable rental housing units. HFAs will pay GSEs and
                                             Treasury an amount intended to cover both the cost of financing the newly issued
                                             bonds as well as a fee designed to cover risk posed by the HFA.388 More than 90
                                             state and local HFAs representing 49 states participated in the NIBP for an aggre-
                                             gate total new issuance of $15.3 billion before the expiration of Treasury’s authori-
                                             zation to make these purchases expired on December 31, 2009.389
                                                                                quarterly report to congress I july 21, 2010   139




Temporary Credit and Liquidity Program (“TCLP”) — Maximum Potential
Commitment: $8.2 Billion, Amount Outstanding: $8.2 Billion
The Temporary Credit and Liquidity Program (“TCLP”) was created alongside the
NIBP in December 2009. The program provides HFAs with credit and liquidity fa-
cilities supporting up to $8.2 billion in existing HFA bonds. The TCLP is intended
to reduce the costs of maintaining existing financing for HFAs, which will have
to pay GSEs and Treasury a fee designed to cover risk posed by the program. This
fee will rise over time to encourage HFAs to transition from the TCLP to private
market financing alternatives as quickly as possible. All purchase commitments of
related GSE securities were completed before the expiration of Treasury’s authori-
zation to make these purchases expired on December 31, 2009.390

Other HERA 2008 and ARRA 2009 Programs — Maximum Potential
Commitment: $30.8 Billion, Amount Outstanding: $30.8 Billion
HERA focused on the early centers of the financial crisis — the home mortgage
markets and the housing-related GSEs. Beyond the GSE programs, the other
components pertaining to Treasury include measures to support home prices
in general, which in turn support financial institutions holding mortgages and
mortgage-backed securities, as well as to support families and communities harmed
by the crisis. Specifically, the act introduced $15 billion in homebuyer tax credits,
extension of the property tax deduction to non-itemizing filers, and $4 billion in
emergency assistance for neighborhood real estate market stabilization.
    The American Recovery and Reinvestment Act of 2009 (“ARRA”) expanded on
some of the HERA 2008’s programs. An additional $990 million in funding was
allocated through the Community Development Block Grant (“CDBG”) to assist
with neighborhood real estate market stabilization.391 The First-Time Homebuyer’s
Tax Credit was also extended to April 30, 2010. CBO estimated the cost of extend-
ing and modifying the homebuyer’s tax credit would add approximately
$10.8 billion to the credits extended under HERA over the fiscal years 2010-
2019.392 In sum, the total estimated maximum potential commitment for these
programs under both HERA and ARRA was approximately $30.8 billion as of
June 30, 2010.

Joint Treasury/Department of Education Student Loan Programs — Maximum
Potential Commitment: $112.0 Billion, Amount Outstanding: $99.6 Billion
Treasury and the Department of Education have jointly announced four programs
to support the student loan markets, which have been affected by the credit crisis.
The authority for these new programs is addressed in the Ensuring Continued
Access to Student Loans Act of 2008 (“ECASLA”). The first of these programs is
the Participation Program, under which the Government will buy participations
in pools of student loans. The second is the Purchase Program, through which
140   special inspector general I troubled asset relief program




                                             the Government will purchase individual loans from lenders so that the lender’s
                                             balance sheets can be freed up to make new student loans. The third is the Short
                                             Term Purchase Program (“STPP”), which provided additional liquidity to lend-
                                             ers participating in the Purchase Program. The fourth new program is the Asset-
                                             Backed Conduit Program under which the Government will issue forward commit-
                                             ments to purchase Federal Family Education Loan (“FFEL”) program loans from
                                             qualified ABS issuers.393
                                                 Due to concerns about the availability of private capital for student loans,
                                             Congress extended ECASLA to cover loans made for the 2009-2010 academic
                                             year. The Department of Education reported that it purchased roughly $50 billion
                                             in FFEL program loans through the end of fiscal year 2009. It estimated that it
                                             will buy another $62 billion in loans under the extended authority ending on July
                                             1, 2010, for total purchases of about $112 billion.394 As of June 30, 2010, the
                                             Department of Education had purchased $99.6 billion in loans under the original
                                             programs and their extensions for loans covering the 2009-2010 academic year.395
                                                 On March 21, 2010, Congress passed the Health Care and Education
                                             Affordability Reconciliation Act of 2010 that eliminated the FFEL program on July
                                             1, 2010.396

                                             Commitments to International Fund — Maximum Potential Commitment:
                                             Approximately $154 Billion, Amount Outstanding: $54.0 Billion
                                             On April 2, 2009, the International Monetary Fund (“IMF”) New Arrangements to
                                             Borrow (“NAB”) increased by up to $500 billion, of which the United States com-
                                             mitted up to $100 billion. According to Treasury, “expanding the NAB will ensure
                                             the IMF has adequate resources to play its central role in resolving and preventing
                                             the spread of international economic and financial crises. Large and urgent financ-
                                             ing needs projected for emerging markets and developing countries cannot be met
                                             from pre-crisis IMF lending resources.”397
                                                 The key elements of an expanded and more flexible NAB were agreed upon by
                                             the current 26 NAB participants and representatives of 13 potential new partici-
                                             pants in November 2009.398 However, NAB participants must consent to proposed
                                             amendments and increases in credit arrangements. For many of the current and
                                             potential participants, this will require legislative approval measures before NAB
                                             can formally be expanded. As of June 30, 2010, the process of reaching consents
                                             from all participants was still ongoing.399
                                                 Furthermore, the IMF and European Central Bank’s debt support agreement
                                             for Greece includes a 250 billion euro loan from IMF. Though this amount is
                                             only a rough approximation, depending on a variety of circumstances, the various
                                             formulas and quota systems used by IMF to fund such loans would make Treasury
                                             responsible for at least $54 billion of the cost of funding the loan.400 The expansion
                                             of the NAB and the estimated cost of the U.S. Government’s contribution to IMF’s
                                             support package for Greece represent $154 billion in potential commitments as of
                                             June 30, 2010.
                                                                                                                              quarterly report to congress I july 21, 2010                                    141




Summary and Update of Federal Deposit Insurance
Corporation (FDIC) Programs
The FDIC supports banks by insuring depositors against loss. Once depositors
need not worry about the financial health of any particular bank, the entire banking
system can avoid the destabilizing and dangerous potential for “runs on the bank”
or other precipitous withdrawals of funds. Historically a standby guarantor of de-
posits, the current banking crisis has drawn the FDIC away from this core mandate
and into the business of direct guarantees of debt instruments, investment funds,
and asset values. Table 3.4 provides a summary of the key FDIC initiatives related
to the financial crisis. Overall, the current outstanding balance of the FDIC’s

Table 3.4

 non-tarp government support of the financial sector —
 Federal deposit insurance corporation ($ Billions)

                                                                                               Balance                                 High-Water Mark                      Maximum Potential
                                                                                                  as of             Current                       as of                    Commitment Related
 Program                                                    Coverage                        6/30/2009               Balance                 6/30/2010                               to Crisis*
 Enhanced Deposit Insurance (to $250K/
                                                            Depositors                                 $—                $—                              $—                                    $700.0b
 account)a
                                                            Participating insured
 Temporary Liquidity Guarantee Program –
                                                            depository institutions                 339.0c            305.4d                          345.8e                                     940.0f
 Debt Guarantees (“TLGP – DGP”)
                                                            (“IDIs”)**

 Temporary Liquidity Guarantee Program –
 Transaction Account Guarantee Program                      Depositors***                               0.4                0.4                            0.4g                                  835.1h
 (“TLGP – TAG”)


                                                            Purchasers of assets
                                                            of failed insured
 FDIC Loss Share/Receivership Program                                                                     —                3.8                             3.8                                     34.7i
                                                            depository institutions
                                                            (“IDIs”)


 Total                                                                                            $339.4             $309.6                          $350.0                                 $2,509.8
Note: Numbers affected by rounding.
* Total potential support does not account for collateral pledged.
** Also includes eligible bank and savings and loan holding companies, certain affiliates of IDIs.
*** Limited to noninterest-bearing accounts held at participating IDIs.
a
  	As of 3/31/2010, the Deposit Insurance Fund (“DIF”) remained solvent and the FDIC had yet to draw on any of the additional borrowing authority granted by Congress. FDIC, FDIC Quarterly Profile, Fourth
   Quarter 2009, www.fdic.gov/bank/analytical/quarterly/2010_vol4_1/FDIC_Quarterly_Vol4No1_Full.pdf, accessed 6/16/2010.
b
  	Estimate as of 12/31/2008. Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019,” 1/2009, www.cbo.gov/ftpdocs/99xx/doc9958/01-08-Outlook_Testimony.pdf,
   accessed 6/16/2010.
c
  	This amount updates SIGTARP’s July 2009 Quarterly Report with the latest available data as of 6/30/2009. Federal Deposit Insurance Corporation, Monthly Reports on Debt Issuance Under the Temporary
   Liquidity Guarantee Program, 6/30/2009, www.fdic.gov/regulations/resources/tlgp/total_issuance6-09.html, accessed 6/16/2010.
d
  	Federal Deposit Insurance Corporation, Monthly Reports on Debt Issuance Under the Temporary Liquidity Guarantee Program, 5/31/2010, www.fdic.gov/regulations/resources/tlgp/reports.html, accessed
   7/7/2010.
e
  	Federal Deposit Insurance Corporation, Monthly Reports on Debt Issuance Under the Temporary Liquidity Guarantee Program, 5/31/2009, www.fdic.gov/regulations/resources/tlgp/total_issuance5-09.html,
   accessed 6/16/2010.
f
  FDIC, Chief Financial Officer’s Report to the Board, Q4 2008, www.fdic.gov/about/strategic/corporate/cfo_report_4qtr_08/sum_trends_results.html, accessed 6/16/2010.
g
  	As of 3/31/2009, during 2008 the FDIC paid out $70 million in guaranteed claims of depositors. FDIC, Chief Financial Officer’s Report to the Board, Q4 2008, www.fdic.gov/about/strategic/corporate/
   cfo_report_4qtr_08/sum_trends_results.html, accessed 6/30/2009; during Q1 2009, the FDIC paid out $323 million. FDIC, Chief Financial Officer’s Report to the Board, Q1 2009, www.fdic.gov/about/
   strategic/corporate/cfo_report_1stqtr_09/corp_fund_fin_statement.html, accessed 6/30/2009. No payments have been made since Q1 2009.
h
  	This amount represents the highest reported guaranteed deposit amount under the program since SIGTARP’s July 2009 Quarterly Report. Data as of 3/31/2010, FDIC, “Quarterly Banking Profile: 1st Quarter
   2010,” http://www2.fdic.gov/qbp/2010mar/qbp.pdf, accessed 7/7/2010.
i
  FDIC, response to SIGTARP data call, 7/1/2010.
142   special inspector general I troubled asset relief program




                                             guarantees decreased in the past year from $339.4 billion to $309.6 billion. As with
                                             the Federal Reserve, any of the FDIC’s TARP-related programs, such as its involve-
                                             ment in the Asset Guarantee Program, are omitted from this discussion because
                                             they are already mentioned in Section 2: “TARP Overview” of this report.

                                             Enhanced Deposit Insurance — Maximum Potential Commitment: $700.0 Billion,
                                             Amount Outstanding: $0
                                             Since the 1980s, the FDIC has insured deposits up to a maximum of $100,000 per
                                             depositor. In October 2008, EESA gave the FDIC statutory authority to increase
                                             its coverage to $250,000 for individual accounts.401 On May 20, 2009, the tem-
                                             porary increase to $250,000 per depositor was extended through December 31,
                                             2013. At the time of this increase, CBO estimated this would cover approximately
                                             $700 billion in additional deposits.402 The standard insurance amount will return
                                             to $100,000 per depositor for all account categories on January 1, 2014, except
                                             Individual Retirement Accounts (“IRAs”) and other certain retirement accounts,
                                             which will remain at $250,000 per depositor.403 The increase in deposit insurance
                                             would become permanent retroactive to January 1, 2008, if the provision in the
                                             conference report of the Dodd-Frank Wall Street Reform and Consumer Protection
                                             Act becomes law.404
                                                  The CBO, in its “Budget and Economic Outlook: Fiscal Years 2009 to 2019,”
                                             estimated that the temporary increase in the limit of deposit insurance from
                                             $100,000 to $250,000 will “increase the amount of insured deposits by about $700
                                             billion, or 15 percent.”405 Claims on deposit insurance, including any losses stem-
                                             ming from the failure of insured depository institutions, are paid by the Deposit
                                             Insurance Fund (“DIF”), which is financed by fees levied on insured depository
                                             institutions. Estimated losses to DIF are expected to reach roughly $100 billion
                                             from 2009 through 2013, with $35.6 billion in estimated losses resulting from
                                             140 insured depository institution failures in 2009.406 The FDIC expects failures
                                             of insured depository institutions to reach their peak this year and has set aside
                                             approximately $41 billion to cover contingent future losses.407 Losses have hit the
                                             insurance fund hard since the financial crisis began in 2007. The fund fell into
                                             negative territory in late 2009, prompting the FDIC to use extraordinary measures
                                             in an effort to restore the ratio of reserves to covered deposits above 1.15% — the
                                             minimum required by law.408 On November 17, 2009, the FDIC required all mem-
                                             ber institutions to prepay their assessments through 2012 by the end of the year.409
                                             This $45 billion cash injection sufficiently restored DIF’s liquidity levels to allow it
                                             to fund resolution activity.410

                                             Temporary Liquidity Guarantee Program (Debt Guarantee Program) — Maximum
                                             Potential Commitment: $940 Billion, Amount Outstanding: $305.4 Billion
                                             The Temporary Liquidity Guarantee Program (“TLGP”) was established in October
                                             2008 to address “disruptions in the credit market, particularly the interbank
                                                                                quarterly report to congress I july 21, 2010   143




lending market, which reduced banks’ liquidity and impaired their ability to lend.
The goal of the TLGP is to decrease the cost of bank funding so that bank lending
to consumers and businesses will normalize.”411 The program “does not rely on the
taxpayer or the deposit insurance fund to achieve its goals”412 and fees raised from
participating entities are expected to cover any losses associated with the program’s
guarantees.413
    The TLGP had two components, the Debt Guarantee Program (“DGP”) dis-
cussed in this paragraph and the Transaction Account Guarantee (“TAG”) program
described in the following paragraph. DGP provided an FDIC guarantee of newly
issued senior unsecured debt of participating insured depository institutions and
other eligible entities. The goal of DGP was to “create significant investor demand,
and dramatically reduce funding costs for eligible banks and bank holding compa-
nies.”414 All FDIC-insured institutions were automatically included in the program
initially, but given the option not to participate. Participating institutions were
allowed to issue debt under DGP until October 31, 2009, with the debt being guar-
anteed until “the earliest of the opt-out date, the maturity of the debt, the manda-
tory conversion date for mandatory convertible debt, or December 31, 2012.”415 On
December 31, 2008, the FDIC estimated that if all eligible entities had issued debt
up to the program’s allowable limit, the maximum potential commitment would
have been $940 billion.416 The amount of debt outstanding issued under TLGP-
DGP remained at approximately $305 billion as of May 31, 2010, but has gradually
declined since peaking at $345.8 billion in May 2009.417

Temporary Liquidity Guarantee Program (Transaction Account Guarantee
Program) — Maximum Potential Commitment: $835.1 Billion, Amount
Outstanding: $0.4 Billion
On October 14, 2008, the FDIC announced the temporary Transaction Account
Guarantee (“TAG”) program, which is the second component of TLGP. It provides
depositors with “unlimited coverage for non-interest-bearing transaction accounts
if their bank is a participant in FDIC’s TLGP. Non-interest-bearing checking ac-
counts include Demand Deposit Accounts (“DDAs”) and any transaction account
that has unlimited withdrawals and that cannot earn interest. Also included are
low-interest Negotiable Order of Withdrawal (“NOW”) accounts that initially
could earn no more than 0.5% interest and Interest on Lawyer Trust Accounts
(“IOLTAs”).”418 The program was scheduled to end on December 31, 2009, but has
been extended a second time to December 31, 2010, with the possibility of extend-
ing the program up to an additional 12 months to a date no later than December
31, 2011. As with the debt guarantee component, FDIC-insured institutions were
given the option not to participate in the TAG program. Effective July 1, 2010,
the maximum interest rate limit for NOW accounts guaranteed under the TAG
program is currently 0.25%.419 As of June 30, 2010, the amount of TAG guaranteed
funds with participating FDIC-insured institutions had fallen to approximately
144   special inspector general I troubled asset relief program




                                             $279 billion after reaching a peak of approximately $835.1 billion at the end of
                                             2009.420 As of June 30, 2010, the FDIC had paid out approximately $393 million in
                                             guaranteed claims of depositors.421

                                             Receivership Management Program — Maximum Potential Commitment:
                                             $34.7 Billion, Amount Outstanding: $3.8 Billion
                                             Many FDIC-insured institutions continued to suffer from the lingering effects of the
                                             financial crisis. Insured depository institutions that were heavily involved in sub-
                                             prime mortgage lending and the financing of residential construction projects have
                                             continued to suffer significant loan losses in recent quarters, causing some to fail.
                                             Institutions that have significant concentrations of certain other loan products, such
                                             as credit card loans or commercial real estate loans, also could find themselves more
                                             vulnerable to losses in the event of a more serious economic downturn.422
                                                 The FDIC’s Receivership Management Program focuses on attracting healthy
                                             institutions to assume deposits and purchase assets of failed banks and savings
                                             associations at the time of failure in order to minimize the disruption to customers
                                             and return some assets to the private sector immediately. Of the 249 banks that
                                             have failed since 2007, the FDIC has resolved 160 institutions using a Whole Bank
                                             Purchase and Assumption resolution transaction with an accompanying Loss Share
                                             Agreement on the assets purchased by the acquirer through June 30, 2010.423
                                             Typically, acquiring institutions have purchased the entirety of the failed banks’
                                             deposits in return for the FDIC agreeing to backstop 80% of losses on residential
                                             and commercial loan portfolios up to an agreed threshold amount, past which the
                                             FDIC would guarantee 95% of any additional losses.424 The FDIC eliminated the
                                             95% loss guarantee provision on loss share agreements signed after March 26,
                                             2010.425 As of June 30, 2010, DIF receiverships are estimated to pay approximately
                                             $34.7 billion over the term of these loss-share agreements (typically 5 to 10 years)
                                             on approximately $175.2 billion in total covered assets.426 As of June 30, 2010, DIF
                                             receiverships made loss-share payments totaling $3.8 billion.427

                                             Summary and Update of Other Federal Agency Programs
                                             In addition to the Federal Reserve, Treasury, and the FDIC, the Federal
                                             Government operates a number of financial agencies, many of which have loan or
                                             deposit guarantee programs that have experienced large increases in guarantees
                                             during the course and aftermath of the financial crisis. These programs are out-
                                             lined in Table 3.5.

                                             Federal Housing Finance Agency (“FHFA”) — Fannie Mae and Freddie Mac —
                                             Maximum Potential Commitment: $5.5 Trillion
                                             FHFA was created on July 30, 2008, as part of HERA. The agency is an indepen-
                                             dent regulator of the housing-related GSEs: Fannie Mae, Freddie Mac, and the
                                                                                                                                    quarterly report to congress I july 21, 2010                                      145




 Table 3.5
 NON-TARP GOVERNMENT SUPPORT OF THE FINANCIAL SECTOR — OTHER FEDERAL HOUSING AND FINANCIAL SYSTEM
 SUPPORT ($ BILLIONS)
                                                                                                                                                                                  Maximum Potential
                                                                                     Balance as of                                           High-Water Mark                 Commitment Related to
 Agency/Program                                  Coverage                             6/30/2009                 Current Balance              as of 6/30/2010                Crisis as of 6/30/2010*
 FHFA —Fannie Mae /                              Fannie Mae and Freddie                             $—                            $—                             $—                                   $5,500b
 Conservatorshipa                                Mac
 FHFA — Implied Guarantee of                     Federal Home Loan                                    —                              —                              —                                   1,300b
 FHLB liabilitiesa                               Banks
 National Credit Union                           Credit Unions                                    15.2c                           17.1                          17.4d                                      22.4
 Administration (“NCUA”)
 Temporary Corporate Credit
 Union Liquidity Guarantee
 Program (“TCCULGP”)
 NCUA Homeowners Affordability                   Credit Unions                                      8.4e                            0.1                           8.4f                                    43.8g
 Relief Program (“HARP”) and
 Credit Union System Investment
 Program (“CUSIP”)
 Dept. of Housing and Urban                      Federal Mortgage                                149.2i                         398.4                          398.4                                     398.4j
 Development (“HUD”) Increase                    Guarantors
 in Guarantees by Government
 National Mortgage Assoc.
 (“GNMA”)h
 HUD Increase in Guarantees                      Federal Mortgage                               134.5k                          365.9                          365.9                                     365.9l
 by Federal Housing Authority                    Guarantors
 (“FHA”)h
 Increase in Guarantees by Dept.                 Federal Mortgage                                  11.8                           43.6                           43.6                                    43.6m
 of Veterans Affairs (“VA”)h                     Guarantors
 Total                                                                                         $319.1                        $825.1                         $833.1                                 $7,674.1
Note: Numbers affected by rounding.
*Total potential support does not account for any collateral pledged.
a
  These obligations have been viewed as enjoying an “implied” guarantee because of historical U.S. Government involvement and support. In 2001, CBO stated: “CBO attributes the greater liquidity of GSE
  securities over those of other financial firms to the implicit guarantee, much as the Government guarantee of Treasury securities is often cited as the reason for their liquidity.” Congressional Budget Office,
  “Federal Subsidies and the Housing GSEs, Appendix A: Responses to Analyses of the Congressional Budget Office’s 1996 Subsidy Estimates,” 5/2001, www.cbo.gov/doc.cfm?index=2841&type=0&sequen
  ce=7, accessed 6/16/2010.
b
  FHFA, “The Housing GSE’s,” Presentation by James Lockhart, Executive Director, 12/10/2008, www.fhfa.gov/webfi les/216/WHF121008webversion.pdf, accessed 6/16/2010.
c
  NCUA, “Preliminary NCUA Financial Highlights,” 3/31/2009, www.ncua.gov/Resources/Reports/ncusif/2009/Mar09PRELIMNETREPORT.pdf, accessed 6/2/2010.
d
  For loss provisions and current borrowing from the Stabilization Fund, see NCUA, Office of Public & Congressional Affairs, “Board Action Bulletin: NCUA Board Meeting Results for May 20, 2010,”
  5/20/2010, www.ncua.gov/GenInfo/BoardandAction/reports/2010/BAB10-0520.pdf, accessed 6/2/2010; for outstanding $10 billion loan, see NCUA, “Preliminary NCUA Financial Highlights,” 5/31/2010,
  www.ncua.gov/Resources/Reports/ncusif/2010/10MayNetReport.pdf, accessed 6/24/2010.
e
  NCUA, “Monthly CLF Reports,” 6/30/2009, www.ncua.gov/Resources/CLF/Files/CLF9-06.pdf, accessed 6/16/2010; see also NCUA, “Statement of Michael E. Fryzel, Chairman, National Credit Union
  Administration, on HR 2351, The Credit Union Share Insurance Stabilization Act,” 5/20/2009, www.house.gov/apps/list/hearing/financialsvcs_dem/fryzel_testimony.pdf, accessed 7/14/2009.
f
  NCUA, “Monthly CLF Reports,” 5/31/2010, www.ncua.gov/Resources/CLF/Files/CLF10-05.pdf, accessed 7/7/2010.
g
  Credit Union National Association, Inc., “CUNA Issue Summary: Credit Liquidity Facility,” 2/19/2010, www.cuna.org/gov_affairs/legislative/issues/download/clf.pdf, accessed 7/14/2010.
h
  Balance as of 6/30/2009 represents increase in FY 2008 from FY 2007. Current Balance amount represents aggregate increase between FY 2009 and FY 2007.
i
  GNMA, Report to Congress, Fiscal Year 2008, 11/7/2008, www.ginniemae.gov/reporttocongress/,www.ginniemae.gov/about/ann_rep/ReportToCongress08.pdf, accessed 6/3/2010.
j
  Current, High-Water Mark, and Maximum Potential Commitment amounts represent cumulative FY 2008 and FY 2009 guarantees above FY 2007 level. Maximum Potential Commitment will change with every
  annual increase. For FY 2009 guarantees, see GNMA, Report to Congress, Fiscal Year 2009, 12/6/2009, www.ginniemae.gov/reporttocongress, accessed 6/3/2010.
k
  FHA, “Message from the Chief Financial Officer,” 11/17/2008, p. 323, www.hud.gov/offices/cfo/reports/section3.pdf, accessed 6/4/2010.
l
  Current, High-Water Mark, and Maximum Potential Commitment amounts represent cumulative FY 2008 and FY 2009 guarantees above FY 2007 level. Maximum Potential Commitment will change with every
  annual increase. For FY 2009 guarantees, see Office of Housing and Urban Development, Fiscal Year 2009 Report, 11/16/2009, p. 250, www.hud.gov/offices/cfo/reports/hudfy2009par.pdf, accessed
  6/4/2010.
m
  All amounts provided by Department of Veterans Affairs, response to SIGTARP data call, 7/10/2010.
146   special inspector general I troubled asset relief program




                                             FHLBs.428 The financial markets have historically viewed the GSEs as quasi-gov-
                                             ernmental, and awarded them high ratings and low borrowing costs in the anticipa-
                                             tion that the U.S. Government would bail them out if they were ever in trouble.
                                                 In August and September of 2008, Fannie Mae and Freddie Mac lost market
                                             confidence as their losses grew and their financial situations became uncertain, and
                                             both had difficulty raising funds. Instead of shutting down the companies, FHFA
                                             brought them into Federal conservatorship and worked with Treasury and the
                                             Federal Reserve to institute the various purchase and credit programs mentioned
                                             above. By providing support to Fannie Mae and Freddie Mac, the Government
                                             reinforced the market’s assumptions that the obligations of the GSEs are its own
                                             implied liabilities.429 The total outstanding debt obligations and MBS guarantees of
                                             those two firms alone have shrunk from last year’s estimate of $5.5 trillion to ap-
                                             proximately $5.0 trillion as of June 30, 2010.430

                                             FHFA — Federal Home Loan Banks (“FHLBs”) — Maximum Potential
                                             Commitment: $1.3 Trillion
                                             The Federal Home Loan Banks (“FHLBs”) are a system of 12 regional banks from
                                             which local lending institutions borrow funds to finance housing and other lending.
                                             The FHLBs are organized as member-owned cooperatives, focused on providing
                                             low-cost funding for their members.
                                                 It is true that FHFA, and by extension Treasury, do not have full legal liability
                                             for all of Fannie Mae’s and Freddie Mac’s losses, but it has created a very strong
                                             implied guarantee by taking responsibility for the entities and increasing their
                                             participation in the financial markets, instead of closing them. By providing support
                                             to Fannie Mae and Freddie Mac, the Government created an assumption in the
                                             market that it would do the same for the FHLBs.
                                                 As of March 31, 2010, the FHLBs had successfully reduced their total li-
                                             abilities to approximately $923 billion, a decrease of nearly $380 billion from
                                             SIGTARP’s July 2009 Quarterly Report estimate of $1.3 trillion.431 This reduction
                                             can be attributed to an increase in deposits at member banks and a decrease in
                                             mortgage originations, coupled with the support of Federal liquidity programs and
                                             changing market conditions.432

                                             NCUA — Temporary Corporate Credit Union Liquidity Guarantee Program
                                             (“TCCULGP”) and Temporary Corporate Credit Union Share Guarantee Program
                                             (“TCCUSGP”) — Maximum Potential Commitment: $22.4 Billion, Amount
                                             Outstanding: $17.1 Billion
                                             The National Credit Union Administration (“NCUA”) essentially acts as the FDIC
                                             of the nation’s credit unions. The independent agency charters and supervises cred-
                                             it unions, as well as insures their depositors (technically, “shareholders”) against
                                             loss through the National Credit Union Share Insurance Fund (“NCUSIF”).433 As
                                                                               quarterly report to congress I july 21, 2010   147




of April 30, 2010, NCUA insured approximately $726.9 billion of deposits.434
    NCUA has initiated several programs to address financial system difficulties,
in addition to its normal deposit insurance programs. The first is the Temporary
Corporate Credit Union Liquidity Guarantee Program (“TCCULGP”), under
which NCUA insures the senior unsecured debt of member institutions experienc-
ing temporary liquidity difficulties.435 On May 21, 2009, TCCULGP was extended
to June 30, 2010, for new issuances, with the debt being guaranteed until June 30,
2017. Further, the guaranteed debt limit was revised to “the greater of: 1) 100% of
maximum unsecured debt obligations outstanding from September 30, 2007, to
September 30, 2008, limited to no more than $10 billion, 2) amount approved by
the Office of Corporate Credit Unions not to exceed the greater of $100 million or
5% of liabilities and shares.”436
    TCCULGP was modified and extended in June 2009. Corporate credit unions
are now able to issue new TCCULGP-guaranteed debt through September
30, 2011. However, new issuances after June 30, 2010, must mature prior to
September 30, 2012, to receive the TCCULGP guarantee. The June 30, 2017, ma-
turity end date guarantee requirement has been eliminated. This change will allow
corporate credit unions continued access to more liquidity sources going forward.437
    The Temporary Corporate Credit Union Share Guarantee Program
(“TCCUSGP”) was established by NCUA on January 28, 2009, as a comple-
mentary program to TCCULGP. The program originally included a temporary
guarantee of all shares at all corporate credit unions through December 31, 2010.
The NCUSIF guarantee applied to all share amounts above $250,000 while the
NCUSIF insurance coverage applied to all amounts below $250,000 with the
combined effect that the entire share account would be treated by NCUSIF as if it
had been insured. On April 21, 2009, the program was extended to September 30,
2011, with the option for quarterly extensions of the expiration date and a maxi-
mum maturity of two years for any share subject to the program.438 The program
has been extended each quarter, most recently on June 2, 2010, so that the current
expiration date is September 30, 2012. The new extension will fully cover existing
deposits as well as new investments with maturities less than two years in partici-
pating corporate credit unions made before September 30, 2010.439
    The Temporary Corporate Credit Union Stabilization Fund (“TCCUSF”) was
established on May 20, 2009, to absorb losses related to corporate credit union
investments under both TCCULGP and TCCUSGP. Treasury will provide this
fund with a lending limit of $6 billion to be repaid over seven years, giving NCUA
time to assess credit unions for corporate losses over a longer time frame instead
of all at once. As of June 30, 2010, NCUSIF had not paid back a $10 billion loan
from NCUA to provide liquidity to two problem credit unions.440 Furthermore, the
148   special inspector general I troubled asset relief program




                                             TCCUSF’s reserve for corporate credit union losses stood at $6.4 billion. The fund
                                             also had not paid back $690 million borrowed from the Treasury’s $6 billion credit
                                             line as June 30, 2010.441 In aggregate, NCUA’s outstanding loans and loss provi-
                                             sions equaled $17.1 billion and maximum potential commitments totaled
                                             $22.4 billion as of June 30, 2010.

                                             NCUA Homeowners Affordability Relief Program (“HARP”) and Credit Union
                                             System Investment Program (“CUSIP”) — Maximum Commitment: $43.8 Billion,
                                             Amount Outstanding: $95.7 Million
                                             The other major financial rescue programs initiated by NCUA were the
                                             Homeowners Affordability Relief Program (“HARP”) and the Credit Union System
                                             Investment Program (“CUSIP”). These programs intend to help members avoid de-
                                             linquency and default (HARP) and increase the liquidity in the credit union system
                                             (CUSIP). The NCUA’s Credit Liquidity Facility (“CLF”), which was established in
                                             1978 to provide emergency back-up liquidity to credit unions, receives an annual
                                             appropriation from Congress. In response to rising concerns about the liquidity
                                             needs of member credit unions, Congress raised the borrowing authority for the
                                             CLF from $1.5 billion to its full statutory authority of $41 billion in March 2009.
                                             This was raised again to $43.8 billion on December 16, 2009 as part of the House
                                             Omnibus Appropriations bill.442 The amount of loans outstanding under these pro-
                                             grams stood at $95.7 million as of June 30, 2010.443

                                             HUD Increase in Guarantees by Government National Mortgage Association
                                             (“GNMA”) — Maximum Potential Commitment: $398.4 Billion, Amount
                                             Outstanding: $398.4 Billion
                                             GNMA guarantees investors the timely payment of principal and interest on MBS
                                             backed by federally insured or guaranteed loans, thus helping to provide liquidity to
                                             the housing markets, ensure the institutions that purchase these securities receive
                                             timely payments and suffer no losses, and enable the institutions that originate
                                             the loans to sell them quickly. The largest housing agency that supplies mortgages
                                             to GNMA-backed MBS is FHA. Other Federal mortgage programs participat-
                                             ing in GNMA’s programs include those of the Department of Veterans Affairs.444
                                             The guarantees are thus redundant, in the sense that another Federal program is
                                             already insuring much of the principal amount, but the ultimate potential losses
                                             to the Federal Government depend on the particulars of the individual losses.
                                             Outstanding single-family guarantees in September 2009 were $784.2 billion, and
                                                                                quarterly report to congress I july 21, 2010   149




outstanding multi-family guarantees were $41.8 billion. Collectively, those amounts
were up $249.2 billion in 2009 and $149.2 billion in 2008, for a total increase in
guarantees since 2007 of $398.4 billion, an approximate increase of 93.2%.148 As
described in SIGTARP’s January 2009 Quarterly Report, following the onset of
the financial crisis, the Government support and guarantee programs stepped in
as private players fled the industry with the Government essentially becoming the
mortgage market.

HUD Increase in Guarantees by Federal Housing Administration (“FHA”) —
Maximum Potential Commitment: $365.9 Billion, Amount Outstanding:
$365.9 Billion
FHA provides home mortgage insurance to lenders; if the borrower should fail
to make payments and goes into foreclosure, FHA will insure the lender against
most of its losses. FHA is the oldest of the Federal housing agencies. In 2009, it
had outstanding liabilities of more than $807.7 billion in single-family and multi-
family mortgage programs, an increase of $231.3 billion from the previous year and
$365.9 billion from the end of 2007, an approximate increase of 83%.445

Increase in Guarantees by Department of Veterans Affairs (“VA”) Home Loan
Guarantee Program — Maximum Potential Commitment: $43.6 Billion, Amount
Outstanding: $43.6 Billion
The Department of Veterans Affairs (“VA”) has run a long-standing home loan
guarantee program similar to FHA’s, but limited to eligible service members and
veterans of the U.S. military and eligible surviving spouses. The purpose of the VA’s
loan guarantee program is to encourage lenders to make loans to eligible borrow-
ers by protecting the lenders/loan holders against loss, up to the amount of the
guarantee, in the event of foreclosure.446 Additionally, the VA provides lenders with
100% financing (no down payment is required) providing certain criteria are met.447
The reduction in the availability of private-sector home mortgage loans has made
the VA’s loan guarantee program increasingly attractive to a number of eligible VA
members since the financial crisis began in late 2007. As a result, the amount of
annual guaranteed home loan disbursements made to the VA increased from ap-
proximately $24.2 billion in FY 2007 to $36.0 billion in FY 2008 to $67.8 billion in
FY 2009, an increase of $43.6 billion.448 As of June 30, 2010, the amount of new
guaranteed home loan disbursements in FY 2010 had reached $46.1 billion, nearly
matching the previous year’s estimate for all of FY 2010.449
150   special inspector general I troubled asset relief program




                                              TARP Tutorial: how banks profit from
                                              low interest rates



                                             Introduction
                                             As discussed earlier in this section, in response to the financial crisis, the Government
                                             implemented a number of programs intended to increase short-term liquidity within
                                             financial markets and return credit markets to normal functioning. Below are some of the
                                             programs, listed by administrator:
                                                 Federal Reserve:
                                                 •	 Term Auction Facility
                                                 •	 Term Securities Lending Facility
                                                 •	 Commercial Paper Funding Facility  
                                                 •	 Money Market Investor Funding Facility
                                                 •	 Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility  


                                                 Treasury:
                                                 •	 Money Market Mutual Fund  
                                                 •	 GSE Preferred Stock Purchase Agreements


                                                 FDIC:
                                                 •	 Temporary Liquidity Guarantee – (“TLGP-DGP”) Debt Guarantees
                                                 •	 Temporary Liquidity Guarantee – Transaction Account Guarantee


                                                 Many of these programs, along with others discussed in this section, have increased
                                             money flow within the financial system, which has contributed to lower interest rates. This
                                             tutorial explores how low interest rates have contributed to an increase in bank profits.
                                                 Firms in the financial services industry, particularly the institutions that were among the
                                             largest TARP recipients, have posted improved profits in recent quarters despite linger-
                                             ing signs of economic weakness.450 Revenues derived from trading in securities such
                                                                                          quarterly report to congress I july 21, 2010            151




                                                                                                       Federal Funds Rate (“FFR”): Rate
as bonds helped offset ongoing weakness in consumer loans, such as mortgages and                       charged by a depository institution on
credit cards. Reflecting the strength of trading results, four major banks (Bank of America            an overnight loan of federal funds to
Corp., Citigroup Inc., The Goldman Sachs Group, Inc., and JPMorgan Chase & Co.) made                   another depository institution; the rate
                                                                                                       may vary from day to day and from
money in their trading operations during each business day of the first calendar quarter in
                                                                                                       bank to bank.
2010.451
                                                                                                       Federal Funds: Funds deposited by
What Is Driving These Profits?                                                                         commercial banks at the Federal
One factor behind these profits is access to cheap money. Short-term interest rates                    Reserve banks, thereby enabling banks
remain at record lows. The federal funds rate (“FFR”) is the interest rate that commercial             temporarily falling short of reserve re-
                                                                                                       quirements to borrow funds from banks
banks and other depository institutions charge each other to borrow money on a short-
                                                                                                       with excess reserves.
term basis. The amounts borrowed, known as federal funds, are held at the Federal
Reserve on behalf of its member banks.452                                                              Reserve Requirements: Amount of
   The FFR is controlled by the Federal Reserve, which sets a “federal funds target rate”              money a depository institution must
                                                                                                       keep in reserve against specified de-
that it maintains through open market operations (“OMOs”), i.e., the purchase and sale of
                                                                                                       posit liabilities. The reserves must be in
securities in the open market, and by paying interest on reserves.453 Through OMOs, the                the form of vault cash or deposits held
Federal Reserve buys securities in order to inject cash into the financial system and sells            at the Federal Reserve banks.
securities to remove cash from the system.454
                                                                                                       Open Market Operations (“OMOs”):
   The FFR is a key indicator of the Federal Reserve’s monetary policy and serves as a
                                                                                                       OMOs involve the purchase and sale of
benchmark that generally influences short-term interest rates. According to the Federal                securities in the open market by a cen-
Reserve, “changes in the federal funds rate trigger a chain of events that affect other                tral bank. These transactions are a key
short-term interest rates, foreign exchange rates, long-term interest rates, the amount of             tool used by the Federal Reserve to ad-
money and credit, and, ultimately, a range of economic variables, including employment,                just the supply of reserve balances so
                                                                                                       as to keep the effective federal funds
output, and prices of goods and services.”455 Lowering the FFR normally encourages busi-
                                                                                                       rate near the targeted rate. OMOs are
nesses and households to take out loans and spend more liberally.                                      conducted by the trading desk at the
   The Federal Reserve usually determines the target FFR at its regular monetary policy                Federal Reserve Bank of New York.
meetings. Between late 2007 and the end of 2008, the Federal Reserve steadily lowered
                                                                                                       Monetary Policy: Measures undertaken
                                                                                                       by a central bank, such as the Federal
                                                                                                       Reserve, to influence the availability
                                                                                                       and cost of money and credit to help
                                                                                                       promote national economic goals.
152         special inspector general I troubled asset relief program




                                                its target FFR in 0.25–0.75% increments from 5.25% to a record-low range between 0.0%
Quantitative Easing: Monetary policy            and 0.25%, where it remains.456 The Federal Reserve acted to lower short-term interest
used occasionally in which the Govern-          rates to stimulate economic activity and, therefore, increase employment.
ment increases the money supply by                  In addition to these actions, the Federal Reserve has undertaken quantitative
buying Government or other securi-
                                                easing measures to promote the flow of money and credit through the economy, primar-
ties from the market. Quantitative
easing aims to increase the money               ily through large-scale asset purchases. For example, in November 2008, the Federal
supply by flooding financial institutions       Reserve announced plans to purchase up to $100 billion in Government-sponsored
with reserves in an effort to promote           enterprise (“GSE”) debt and up to $500 billion in mortgage-backed securities.457 Then, in
lending and liquidity. Such actions are
                                                March 2009, the Federal Reserve said it would purchase up to $300 billion of longer-term
conducted through OMOs.
                                                Treasury securities and increase its total purchases of GSE debt and mortgage-backed
Federal Funds Transactions: Short-term          securities to up to $200 billion and $1.25 trillion, respectively.458 Such actions change the
transactions in immediately available           quantity of reserves in the banking system — as more cash is injected into the financial
funds — made between depository
                                                markets, banks ultimately keep more excess reserves at the Federal Reserve. Banks,
institutions and certain other institu-
                                                seeking to maximize profits, then lend the excess funds to one another on a short-term
tions that maintain accounts with the
Federal Reserve — that involve lending          basis.459 Such transactions are called federal funds transactions. The banks borrowing
balances at the Federal Reserve; such           funds from other banks then use the money to finance projects, make investments, and
transactions are usually not collateral-        meet reserve requirements.460
ized.
                                                    According to the Federal Reserve Bank of New York (“FRBNY”), actions by the Federal
Required Reserves: Balances held                Reserve that change the quantity of reserves in the banking system also tend to change
within the Federal Reserve System to            interest rates by encouraging funds to trade at a particular level.461 OMOs change the sup-
satisfy reserve requirements.                   ply of reserve balances in the system and, by affecting the supply of balances, the Federal
                                                Reserve creates upward or downward pressure on the FFR.462 Historically, reserves held at
Excess Reserves: Balances held within
the Federal Reserve System in excess            the Federal Reserve did not earn any interest.463 As a result, banks had an incentive to lend
of the required reserve and any other           excess reserves or use the money to buy other short-term assets.464 An increase in such
contractually required balances.                activities will cause a decrease in short-term market interest rates.465
                                                    As a response to the current crisis, Congress granted the Federal Reserve the author-
                                                ity to pay interest on reserves beginning in October 2008. The Federal Reserve utilized
                                                that authority to begin paying interest on required reserves and excess reserves for the
                                                first time in its history.466 According to the Federal Reserve, this action was taken to “give
                                                the Federal Reserve greater scope to use its lending programs to address conditions in
                                                                                                                    quarterly report to congress I july 21, 2010   153




credit markets while also maintaining the federal funds rate close to its target.”467 When
a bank earns interest on the excess funds held in reserve, however, it has no incentive to
lend these funds at rates lower than the rate being paid by the Federal Reserve, and thus
banks maintain higher levels of reserves. The Federal Reserve paid interest on excess re-
serves to steer the market interest rate toward its target level, stating that “paying interest
on excess balances would help to establish a lower bound on the FFR.”468
      Figure 3.2 illustrates the FFR from June 1990 through June 2010. According to avail-
able Federal Reserve statistics dating back to 1954, as of June 30, 2010, the FFR stood
at 0.09%, just off early January 2010’s 0.05% record for the lowest federal funds rate in
the past 56 years.469 The Federal Reserve has signaled its intention to keep the FFR at a
low level for “an extended period,” pointing to continuing challenges to economic growth
and subdued inflation.470 On June 23, 2010, the Federal Reserve announced that its target
range for the FFR will remain between 0.0% and 0.25%.471



figure 3.2
FEDERAL FUNDS EFFECTIVE RATE, 6/1990 − 6/2010

 10%



  8



  6



  4



  2



  0
        JUNE                        JUNE                        JUNE                         JUNE                           JUNE
        1990                        1995                        2000                         2005                           2010

Sources: Federal Reserve Statistical Release, H.15 Selected Interest Rates, www.federalreserve.gov/releases/h15/data.htm,
accessed 5/29/2010; Federal Reserve Statistical Release, H.15 Selected Interest Rates, Federal Funds Rate, www.federal
reserve.gov/releases/h15/data/Daily/H15_FF_O.txt, accessed 6/10/2010; Board of Governors of the Federal Reserve System,
Data Download Program, 7/8/2010, www.federalreserve.gov/datadownload/Download.aspx?rel=H15&series =3c9ca1f47ce74d
0ff1d0c81bb011a891&filetype=spreadsheetml&label=include&layout=seriescolumn&from=06/01/1990&to=06/30/2010,
accessed 7/8/2010.
154   special inspector general I troubled asset relief program




                                              In addition to maintaining the target FFR, the Government’s response to the financial
                                          crisis, as detailed in this section, included many different programs designed to lower the
                                          cost of borrowing and promote lending within financial markets, such as providing below-
                                          market bank capital through CPP; the FDIC’s guarantee of bank debt (thus enabling finan-
                                          cial institutions to borrow funds more cheaply though TLGP-DGP); the downward pressure
                                          on interest rates through the Federal Reserve’s purchase of GSEs and GSE-guaranteed
                                          mortgage-backed securities; and the Federal Reserve’s purchase of longer-term Treasury
                                          securities. This is just a sampling; for more information on these programs as well as on
                                          additional programs implemented to lower the cost of bank capital and the cost of bor-
                                          rowing for businesses and households, see “Specific Interventions/Programs” earlier in
                                          this section. Note that TARP-related programs, such as CPP, are addressed in Section 2:
                                          “TARP Overview” of this report.


                                          How Do Banks Profit from Low Short-Term Funding Costs?
                                          The fall of banks’ short-term borrowing costs to these historic lows has offered banks an
                                          unusually broad range of profitable trading and investment opportunities. As Figure 3.3
                                          illustrates, the difference between available returns on fixed-income investments and the
                                          cost of funding (as indicated by the FFR) has remained at or near its high over the past
                                          20 years for a variety of asset classes, including corporate debt, residential mortgages,
                                          and even U.S. Treasury obligations. Moreover, in recent months, the yields (and prices,
                                          which correlate directly) of these assets have returned to relative stability after experienc-
                                          ing unusually high volatility in late 2008 and early 2009. Given the opportunity to invest in
                                          assets using cheap money at a low and stable cost in the near term, these straightforward
                                          investments can become highly profitable.
                                              In simpler terms, the Federal Reserve actions to lower the FFR enables institutions to
                                          borrow money at an extremely low rate and then lend that money, through investments
                                          in private or Government bonds, at a higher rate, ensuring a profit if interest rates stay at
                                          these current historically low levels. Of course, institutions adopting this strategy face the
                                          risk that the value of longer-term assets could decline if interest rates increase.
                                                                                                            quarterly report to congress I july 21, 2010   155




 figure 3.3
 COMPARISON OF FIXED INCOME INVESTMENT RETURNS AND COST OF
 FUNDING, 6/1990 − 6/2010

10%


   8


   6


   4


   2


   0
       JUNE                      JUNE                      JUNE                      JUNE                         JUNE
       1990                      1995                      2000                      2005                         2010

               Federal Funds Effective Rate
               Market Rate on 10-Year U.S. Treasury Bond
               Contract Rate on 3-Year Fixed-Rate Conventional Mortgage
               Yield on Seasoned Corporate BAA Bond

 Source: Board of Governors of the Federal Reserve System, Data Download Program, 7/8/2010, www.federalreserve.
 gov/datadownload/ Download.aspx?rel=H15&series=3c9ca1f47ce74d0ff1d0c81bb011a891&filetype =spreadsheetml&label=
 include&layout=seriescolumn&from=06/01/1990&to=06/30/2010, accessed 7/8/2010.




Empirical Evidence
As discussed, the banking industry has traditionally been a conduit through which the
Federal Reserve manages the availability of credit to businesses and consumers through-
out the U.S. economy. However, one characteristic of this recession is that the low
short-term market interest rates fostered by the Federal Reserve have so far not produced
plentiful lending for consumers and businesses. Although there are many theories offered
for this, one possible contributing factor is that banks have an array of profitable alterna-
tives, such as lending money to the Government through Treasury investments. These
securities provide attractive returns, given current low borrowing costs, without the default
risk associated with lending to businesses or consumers. Indeed, from January through
156   special inspector general I troubled asset relief program




                                          June of this year, bank holdings of Treasury bonds have risen 3% while banks’ commercial
                                          and industrial loan portfolios have dropped 4% and real estate loans have contracted by
                                          2%.472
                                              Additionally, banks (and bank regulators) have become stricter about maintaining capi-
                                          tal levels, resulting in less money available for lending. Moreover, in an economy still per-
                                          ceived as sluggish and uncertain, consumers and businesses have curtailed their demand
                                          for loans.473 The overall result is that lending activity remains subdued despite the Federal
                                          Reserve’s maintenance of historically low short-term interest rates. Figure 3.4 tracks the
                                          changes in commercial banks’ holdings in various assets from 2005 to 2009 — positive
                                          values represent increases in holdings and negative values represent decreases. It shows
                                          that the commercial banking industry increased its lending activity in mortgages in 2005
                                          and 2006 but then curtailed its mortgage lending starting in 2007. Banks also increased
                                          loan activities from 2006 through 2007 and then decreased such activities in 2008; by
                                          2009, banks had significantly curtailed their investment in bank loans. Also of note is the
                                          tremendous growth in the banking industry’s holdings of reserves from 2007 to 2008, re-
                                          flecting the Federal Reserve’s lending programs and asset purchases. Low market interest
                                          rates and uncertainty have supported deposits, and with loan demand weak, banks have
                                          also increased securities holdings.
                                                                                                                  quarterly report to congress I july 21, 2010   157




figure 3.4

COMMERCIAL BANKING FLOW OF FUNDS FOR SELECT
FINANCIAL ASSETS, 2005 − 2009 ($ BILLIONS)

$800

 700

 600

 500

 400

 300

 200

 100

    0

 -100

 -200

 -300

 -400

$-500
                     2005                                  2006                                  2007                   2008                       2009


    Reserves
    Treasury Securities
    Bank Loans
    Mortgages
    Consumer Credit
    Corporate and Foreign Bonds
    Agency and GSE-backed Securities
    Corporate Equities
    Security Credit
    Mutual Fund Shares
    Municipal Securities


 Note: Numbers affected by rounding.

 Source: Federal Reserve Statistical Release, Z.1 Flow of Funds Accounts of the United States, F.109 Commercial
 Banking, 6/10/2010, www.federalreserve.gov/releases/z1/current/, accessed 6/23/2010.
158   special inspector general I troubled asset relief program
Se ction 4
             TARP OPERATIONS AND
             ADMINISTRATION
160   special inspector general I troubled asset relief program
                                                                                                                                 quarterly report to congress I july 21, 2010   161




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the opera-
tional and administrative mechanisms to carry out the Troubled Asset Relief Program
(“TARP”). EESA established the Office of Financial Stability (“OFS”) within the
U.S. Department of the Treasury (“Treasury”), which is responsible for administering
TARP.474 Treasury has authority to establish program vehicles, issue regulations, di-
rectly hire or appoint employees, enter into contracts, and designate financial institu-
tions as financial agents of the Government.475 In addition to permanent and interim
staff, OFS relies on contractors and financial agents for legal services, investment
consulting, accounting, and other key services.476


TARP Administrative and Program
Expenditures
As of June 30, 2010, Treasury had spent $126.4 million administering TARP.477 Table
4.1 provides a summary of expenditures and obligations through June 30, 2010.
These costs are categorized as “personnel services” and “non-personnel services,” with
a few exceptions.
    Treasury released a summary of programmatic expenditures, including costs to
hire financial agents and legal firms. Treasury had spent an additional $352 million on
such expenses as of June 30, 2010.478
Table 4.1
 TARP Administrative expenditures and obligations
                                                                    Obligations for Period Expenditures for Period
Budget Object Class Title                                             Ending 6/30/2010         Ending 6/30/2010
Personnel Services
Personnel Compensation & Services                                                 $36,800,151                           $36,563,564
Total Personnel Services                                                         $36,800,151                          $36,563,564
Non-Personnel Services
Travel & Transportation of Persons                                                     $706,381                              $667,339
Transportation of Things                                                                   11,960                               11,960
Rents, Communications, Utilities & Misc. Charges                                         675,334                              576,832
Printing & Reproduction                                                                        395                                    395
Other Services                                                                    140,447,681                             87,849,234
Supplies & Materials                                                                     481,656                              469,377
Equipment                                                                                232,054                              222,675
Land & Structures                                                                                —                                     —
Dividends and Interest                                                                           15                                    15
Total Non-Personnel Services                                                   $142,555,476                            $89,797,827
Grand Total                                                                    $179,355,627                          $126,361,391
Notes: Numbers affected by rounding.
The costs associated with the “Other Services” category are related to agreements to provide various support, including: financial,
administrative, IT, and legal.

Source: Treasury, response to SIGTARP data call, 7/7/2010.
162           special inspector general I troubled asset relief program




                                                        Current Contractors and Financial
                                                        Agents
                                                        As of June 30, 2010, Treasury retained 54 private vendors, including 15 finan-
                                                        cial agents and 39 contractors, to help administer TARP.479 Treasury streamlined
                                                        solicitation procedures and structured several agreements and contracts pursuant
                                                        to Federal Acquisition Regulations to allow for flexibility in obtaining the required
                                                        services expeditiously. Table 4.2 includes service providers retained as of June 30,
                                                        2010.480


      Table 4.2

      OFS SERVICE CONTRACTS          (Continued)

                                                                                                   Type of                              Expended
      Date          Vendor                              Purpose                                    Transaction       Obligate Value         Value
      10/8/2008     PricewaterhouseCoopers              Internal Control Services                  Contract            $24,593,177    $18,366,795


      10/10/2008    Simpson, Thacher & Bartlett LLP     Legal services for the implementation of   Contract              1,025,000        931,090
                                                        TARP
      10/11/2008    Ennis, Knupp & Associates Inc       Investment and Advisory Services           Contract              2,715,965      2,512,742


      10/14/2008    The Bank of New York Mellon         Custodian                                  Financial Agent      21,254,387     17,603,593
                    Corporation
      10/18/2008    Ernst & Young LLP                   Accounting Services                        Contract             11,493,786      9,606,445


      10/23/2008    GSA - Turner Consulting             Archiving Services                         Other                     9,000           9,000


      10/29/2008    Hughes Hubbard & Reed LLP           Legal services for the Capital Purchase    Contract              7,109,312      2,796,644
                                                        Program
      10/29/2008    Squire, Sanders & Dempsey LLP       Legal services for the Capital Purchase    Contract              6,985,000      2,682,999
                                                        Program
      10/31/2008    Lindholm & Associates, Inc          Human resources services                   Contract                751,302        577,465


      11/7/2008     Sonnenschein Nath & Rosenthal LLP   Legal services related to auto industry    Contract              2,722,326      2,722,326
                                                        loans
      11/14/2008    Security and Exchange Comm. U.S.    Detailees and Study per ESSA               Interagency             586,859        430,000
                                                                                                   Agreement
      11/14/2008    CSC Systems and Solutions           IT Services                                Other                     8,095           8,095


      12/3/2008     Alcohol and Tobacco Tax and Trade   IAA - TBB Development, MGMT & Operation    Interagency              67,489         67,489
                    Bureau                              of SharePoint                              Agreement
      12/5/2008     Department of Housing and Urban     Detailees                                  Interagency           $142,863        $124,773
                    Development                                                                    Agreement
                                                                                                                            Continued on next page.
                                                                                              quarterly report to congress I july 21, 2010            163




OFS SERVICE CONTRACTS           (Continued)

                                                                                                  Type of                              Expended
Date         Vendor                               Purpose                                         Transaction       Obligate Value         Value
12/5/2008    Washington Post                      Vacancy Announcement                            Other                      $395             $395


12/10/2008   Sonnenschein Nath & Rosenthal LLP    Legal services for the purchase of asset-       Contract                249,999            82,884
                                                  backed securities
12/24/2008   Cushman and Wakefield of VA Inc      Painting services for TARP offices              Contract                  8,750             8,750


1/6/2009     Office of the Comptroller of the     Detailees                                       Interagency             561,568        501,118
             Currency                                                                             Agreement
1/7/2009     Colonial Parking Inc                 Lease of parking spaces                         Contract                191,650            95,494


1/27/2009    Cadwalader, Wickersham & Taft LLP    Bankruptcy legal sercices                       Contract                417,563        409,955


1/27/2009    Whitaker Brothers Bus Machines Inc   Paper Shredder                                  Contract                  3,213             3,213


2/9/2009     Pat Taylor & Associates, Inc         Temporary services for document produc-         Contract                799,960        692,108
                                                  tion, Freedom of Imformation Act (“FOIA”)
                                                  Assistance, and Program Support
2/12/2009    Locke Lord Bisell & Liddell LLP      Initiate interim legal services in support of   Contract                693,600        272,225
                                                  Treasury investments under EESA
2/18/2009    Fannie Mae                           Homeownership Preservation Program              Financial Agent     103,865,363     88,458,941


2/18/2009    Freddie Mac                          Homeownership Preservation Program              Financial Agent      96,444,455     64,348,035


2/20/2009    Simpson, Thacher & Bartlett LLP      Capital Assistance Program (II)                 Contract              2,796,180      1,363,085


2/20/2009    Venable LLP                          Capital Assistance Program (I)                  Contract              1,770,750      1,394,724


2/20/2009    Congressional Oversight Panel        Oversight                                       Interagency           4,000,000      3,394,348
                                                                                                  Agreement
2/20/2009    Office of Thrift Supervision (OTS)   Detailees                                       Interagency             226,931        189,533
                                                                                                  Agreement
2/28/2009    Pension Benefit Guaranty Corpora-    Legal services                                  Interagency           8,220,000      7,750,000
             tion                                                                                 Agreement
3/6/2009     The Boston Consulting Group          Management consulting relating to the auto Contract                   1,000,000        991,169
                                                  industry
3/16/2009    Earnest Partners                     Small Business Assistance Program               Financial Agent       4,050,000      1,560,000


3/30/2009    Cadwalader, Wickersham & Taft LLP    Auto investment legal services                  Contract             23,069,119     16,942,023


3/30/2009    Haynes and Boone, LLP                Auto investment legal services                  Contract                532,175        345,746


3/30/2009    McKee Nelson LLP                     SBA Initiate Legal Services - Contract          Contract              $149,349        $126,631
                                                  Novated to TOFS-10-D-0001 with Bingham
                                                  McCutcheon
                                                                                                                           Continued on next page.
164          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (Continued)

                                                                                                     Type of                              Expended
      Date         Vendor                              Purpose                                       Transaction       Obligate Value         Value
      3/30/2009    Sonnenschein Nath & Rosenthal LLP   Auto investment legal services                Contract             $2,159,709     $1,834,193


      3/31/2009    FI Consulting Inc                   Credit reform modeling and analysis           Contract              2,037,325      1,246,996


      4/3/2009     The Boston Consulting Group         Management consulting relating to the auto Contract                 6,142,689      3,845,462
                                                       industry
      4/3/2009     American Furniture Rentals*         Office Furniture                              Other                    35,187         25,808


      4/17/2009    Herman Miller, Inc                  Chairs                                        Contract                 53,799         53,799


      4/17/2009    Bureau of Printing and Engraving    Detailee                                      Interagency              45,822         45,822
                                                                                                     Agreement
      4/21/2009    AllianceBertstein LP                Asset Management Services                     Financial Agent      20,435,000     18,556,420


      4/21/2009    FSI Group, LLC                      Asset Management Services                     Financial Agent      11,102,500      9,075,000


      4/21/2009    Piedmont Investment Advisors, LLC   Asset Management Services                     Financial Agent       5,615,000      4,354,999


      4/30/2009    Department of State                 Detailees                                     Interagency              45,492         45,492
                                                                                                     Agreement
      5/4/2009     Federal Reserve Board               Detailees                                     Interagency              48,422         48,422
                                                                                                     Agreement
      5/11/2009    Alcohol Tobacco and Firearms        Detailee - Pavel Facilities Officer           Interagency             132,416        130,395
                                                                                                     Agreement
      5/14/2009    Department of Treasury - US Mint    Administrative Support                        Interagency                 975             325
                                                                                                     Agreement
      5/15/2009    Phacil, Inc                         FOIA Analylysts to support the Disclosure     Contract                103,427         90,304
                                                       Services, Privacy and Treasury Records
      5/26/2009    Anderson, McCoy & Orta              Legal work for work under Treasury’s          Contract              4,923,940        716,074
                                                       Public-Private Investment Fund (“PPIF”)
                                                       program
      5/26/2009    Simpson, Thacher & Bartlett LLP     Legal work for work under Treasury’s          Contract              9,781,301      3,118,729
                                                       Public-Private Investment Fund (“PPIF”)
                                                       program
      6/1/2009     Department of Justice               Detailees                                     Interagency              63,219         33,496
                                                                                                     Agreement
      6/8/2009     Financial Management Services       Development of an Information Manage-         Interagency             167,042        163,186
                                                       ment Plan to articulate strategies to be      Agreement
                                                       used by the Office of Financial Stability
                                                       (“OFS”) to manage its portfolio on informa-
                                                       tion management transformation activities
      7/1/2009     Department of the Interior          Administrative support                        Interagency              24,000         24,000
                                                                                                     Agreement
      7/15/2009    Judicial Watch                      Legal Advisory                                Other                    $1,500         $1,500


                                                                                                                              Continued on next page.
                                                                                           quarterly report to congress I july 21, 2010            165




OFS SERVICE CONTRACTS           (Continued)

                                                                                               Type of                              Expended
Date         Vendor                                Purpose                                     Transaction       Obligate Value         Value
7/17/2009    Korn/Ferry International              Executive search services for the OFS Chief Contract                $75,017        $75,017
                                                   Investment Officer Position
7/20/2009    National Aeronautics and Space        Detailees                                   Interagency             146,986        138,492
             Administration                                                                    Agreement
7/30/2009    Cadwalader, Wickersham & Taft LLP     Restructuring legal services                Contract              4,382,790      1,317,308


7/30/2009    Debevoise & Plimpton LLP              Restructuring legal services                Contract                     —                 —


7/30/2009    Fox, Hefter, Swibel, Levin & Carol,   Restructuring legal services                Contract                     —                 —
             LLP
8/18/2009    Mercer LLC                            Executive-Compensation data subscription    Contract                  3,000             3,000


9/2/2009     Knowledge Mosaic Inc.                 SEC filings subscription service            Contract                  5,000             5,000


9/10/2009    Equilar, Inc.                         Executive-Compensation data subscription    Contract                 59,990            59,990


9/11/2009    PricewaterhouseCoopers                PPIP compliance                             Contract              1,446,150        863,800


9/30/2009    NNA INC.                              Newspaper delivery                          Contract                  8,479             7,765


9/30/2009    SNL Financial LC                      SNL Unlimited, a web-based financial analyt- Contract               110,000        110,000
                                                   ics service
10/1/2009    US Government Accountability Office Oversight                                     Interagency          20,360,000     12,859,077
                                                                                               Agreement
10/25/2009   Internal Revenue Service              Detailees                                   Interagency              46,202                —
                                                                                               Agreement
12/22/2009   Hughes Hubbard & Reed LLP             Document production services and litigation Contract                658,277                —
                                                   support
12/22/2009   Avondale Investments LLC              Asset Management Services                   Financial Agent         750,000        375,000


12/22/2009   Bell Rock Capital, LLC                Asset Management Services                   Financial Agent         750,000        375,000


12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                   Financial Agent       1,250,000        625,000


12/22/2009   KBW Asset Management, Inc             Asset Management Services                   Financial Agent       3,803,333      2,818,750


12/22/2009   Lombardia Capital Partners, Inc.      Asset Management Services                   Financial Agent       1,250,000        625,000


12/22/2009   Paradigm Asset Management Co.         Asset Management Services                   Financial Agent       1,250,000        625,000
             LLC
1/15/2010    Association of Government Ac-         CEAR Program Application                    Contract                 $5,000            $5,000
             countants
                                                                                                                        Continued on next page.
166                special inspector general I troubled asset relief program




       OFS SERVICE CONTRACTS                      (Continued)

                                                                                                              Type of                              Expended
       Date                Vendor                                    Purpose                                  Transaction       Obligate Value         Value
       1/19/2010           Bingham Mccutchen LLP                     SBA Initiate Legal Services - Contract   Contract               $750,651      $130,400
                                                                     Novated to TOFS-10-D-0005 with McKee
                                                                     Nelson
       2/16/2010           The MITRE Corporation                     FNMA IR2 Assessment                      Contract                408,075       309,952


       2/16/2010           Internal Revenue Service                  Detailees                                Interagency              52,742        52,742
                                                                                                              Agreement
       3/8/2010            Qualx Corporation                         FOIA support services                    Contract                230,438        76,867


       3/26/2010           Federal Maritime Commission (FMC)         Detailees                                Interagency             104,054        78,958
                                                                                                              Agreement
       3/29/2010           Morgan Stanley & Co                       Asset Management Services                Financial Agent      23,577,000      8,969,546


       4/2/2010            Congressional Oversight Panel             Oversight                                Interagency           4,800,000      3,541,421
                                                                                                              Agreement
       4/8/2010            Squire, Sanders & Dempsey LLP             Legal Advisory                           Contract              1,229,350       276,874


       4/12/2010           Ennis, Knupp & Associates Inc             Financial Advisory                       Contract                 82,050             —


       4/22/2010           Digital Management                        Administrative support                   Contract                     —              —


       4/22/2010           MicroLink, LLC                            Administrative support                   Contract              1,306,760        30,000


       4/23/2010           RDA                                       Administrative support                   Contract                     —              —


       5/17/2010           Lazard Freres & Co. LLC                   Financial Advisory                       Financial Agent       7,500,000       716,667


       6/24/2010           Reed Elselvier INC                        Administrative support                   Contract                  8,208             —


       6/30/2010           The George Washington University          Administrative support                   Contract                  5,000             —


       Date Not            Departmental Offices                      Administrative Support                   Interagency         $42,909,699    $26,175,368
       Available                                                                                              Agreement

      Source: Treasury, response to SIGTARP data call, 7/7/2010.




                                                                   Asset Managers

                                                                   EESA requires SIGTARP to provide biographical information for each person or en-
                                                                   tity hired to manage assets acquired through TARP.481 From April 1 through June 30,
                                                                   2010, no new asset managers were hired.
S e ct ion 5   SIGtarp recommendations
168   special inspector general I troubled asset relief program
                                                                               quarterly report to congress I july 21, 2010   169




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommenda-
tions to the U.S. Department of the Treasury (“Treasury”) and other Federal
agencies managing Troubled Asset Relief Program (“TARP”) initiatives so that the
various TARP programs can be designed or modified to facilitate transparency and
effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in its quarterly reports to Congress and in several of its
audit reports. This section discusses developments with respect to SIGTARP’s pri-
or recommendations, including recommendations made over the previous quarter,
and, in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of their implementation. Appendix
G: “Correspondence” includes Treasury’s written responses to this section.


RECOMMENDATIONS RELATING TO TREASURY’S
PROCESS FOR SELLING WARRANTS RECEIVED
FROM TARP RECIPIENTS
As discussed in Section 1, “The Office of the Special Inspector General for the
Troubled Asset Relief Program,” on May 10, 2010, SIGTARP released an audit
report entitled “Assessing Treasury’s Process to Sell Warrants Received from
TARP Recipients.” The audit examined, first, the process and procedures Treasury
has established to ensure that the Government receives fair market value for
the warrants; and second, the extent to which Treasury follows a consistent and
well-documented process in reaching its decision to sell warrants back to recipi-
ent institutions. The audit concluded that Treasury has generally succeeded in
negotiating prices for warrant repurchases at or above Treasury’s own internal
estimates of their value. It also observed, however, that Treasury does not suf-
ficiently document important parts of the negotiation process and lacks sufficient
guidelines or internal controls governing how those negotiations are conducted,
especially with respect to how much information it shares with TARP recipients
repurchasing their warrants.
    The audit noted, for example, Treasury provided some TARP recipients with
information about what price would likely be acceptable to Treasury; for other
recipients, no such information was provided. Without established guidelines or
internal controls governing how those negotiations are conducted, Treasury is
vulnerable to charges of arbitrariness and favoritism.
    In light of these findings, SIGTARP made a series of recommendations to
improve transparency in the decision-making process and consistency in the
negotiations. Each recommendation, along with Treasury’s response, is discussed
in turn below:
170   special inspector general I troubled asset relief program




                                             Treasury should ensure that more detail is captured by the Warrant
                                             Committee meeting minutes. At a minimum, the minutes should include the
                                             members’ qualitative considerations regarding the reasons bids were accepted
                                             or rejected within fair market value ranges.
                                             Treasury has indicated that it will adopt this recommendation.

                                             Treasury should document in detail the substance of all communications with
                                             recipients concerning warrant repurchases.
                                             With respect to this recommendation, Treasury has indicated that “it will maintain
                                             a record of communications with each institution concerning the negotiations of
                                             warrant repurchases.” Treasury has refused to specify, however, how much detail
                                             will be included in such a record. A mere recitation of dates and participants would
                                             not remedy the material deficiency in transparency described in the report, nor
                                             would it address the inherent problem that SIGTARP faced in trying to reconstruct
                                             months-old conversations that involved tens of millions of taxpayer dollars and that
                                             involved discrepancies in the amount of information regarding Treasury’s bargain-
                                             ing position provided to different TARP recipients. In follow-up conversations,
                                             Treasury has refused to commit to SIGTARP that it will require documentation of
                                             all material aspects of these conversations, and it has stated that it is unwilling to
                                             go beyond the language quoted above. SIGTARP maintains that the failure to note
                                             the substance of such discussions is an unwarranted failure in transparency.

                                             Treasury should develop and follow guidelines and internal controls concern-
                                             ing how negotiations will be pursued, including the degree and nature of
                                             information to be shared with repurchasing institutions concerning Treasury’s
                                             valuation of the warrants.
                                             Treasury has not yet indicated its position with respect to this recommendation,
                                             instead stating that it is currently reviewing its procedures for sharing information
                                             with institutions. More than two months have elapsed since SIGTARP issued its
                                             report; Treasury should commit to adopt this recommendation fully without further
                                             delay. This recommendation resulted from the audit’s findings that Treasury was
                                             inconsistent in the quality and quantity of information that it shared with apparently
                                             similarly situated TARP recipients, with some receiving, in undocumented negotia-
                                             tions, very specific information about the price that Treasury would likely accept to
                                             repurchase the warrants, and others receiving no information at all. To avoid such
                                             inconsistent treatment, SIGTARP made the recommendation listed above to ensure
                                             that the fate of any given negotiation would not be guided by the personality or gut
                                             reaction of a Treasury official, but rather on a principled and well-considered policy.
                                             It is a matter of fundamental fairness that, in any Government program, similarly
                                             situated participants should be treated the same. The inconsistencies found in the
                                                                                   quarterly report to congress I july 21, 2010   171




audit are likely to continue absent a framework for how the negotiations should be
conducted.	
    Indeed, in its response, Treasury appears to misunderstand fundamentally
the significance of this recommendation. Treasury suggests, for example, that
the “consistency” urged by SIGTARP should not be judged by whether it treats
counterparties impartially, but instead that “[c]onsistency should be measured
by outcomes.” Treasury then cites its belief that it “has succeeded in obtaining
consistently positive results” as evidence that it has in fact acted consistently in its
negotiations. Treasury apparently offers this “ends justify the means” rationale to
avoid a uniform set of rules, asserting that the varying conditions for each negotia-
tion mandate the need to “maintain flexibility in the way it responds while maximiz-
ing overall returns for taxpayers.” There may be legitimate reasons to treat firms
differently during these negotiations, but, if so, Treasury should articulate those
reasons to its personnel through consistently applied guidelines so that the negotia-
tion process remains successful not only in terms of financial results, but also in
upholding the Government’s reputation for fair and principled administration of its
programs. Inconsistent treatment of counterparties might be acceptable for a Wall
Street hedge fund, where bottom line results are the paramount consideration, but
policymakers and negotiators working on behalf of the United States Government
simply must meet a higher standard. To protect both taxpayers (from receiving a
less advantageous deal from a particular bank) and Treasury itself (from accusa-
tions of treating one bank more favorably than another), in both fact and percep-
tion, Treasury must apply its policies in the fairest, most impartial manner possible
to all parties concerned. To accomplish this goal, SIGTARP reiterates its recom-
mendation that there must be clearly articulated negotiating parameters assuring
that Treasury officials remain consistent in the amount and type of information
they provide to similarly situated TARP recipients.
    In sum, to minimize the significant reputational risk presented by potential al-
legations that Treasury has been picking winners and losers throughout its admin-
istration of TARP, it must no longer engage in undocumented negotiations with
counterparties and must take steps to ensure that all similarly situated entities are
treated the same during these negotiations. Treasury’s response letter, dated June
11, 2010, is reproduced in full in Appendix G: “Correspondence.”


RECOMMENDATIONS REGARDING THE HOME
AFFORDABLE MODIFICATION PROGRAM (“HAMP”)
As discussed in greater detail in Section 1 of SIGTARP’s Quarterly Report to
Congress dated April 20, 2010 (the “April 2010 Quarterly Report”), on March
25, 2010, SIGTARP released an audit report entitled “Factors Affecting the
Implementation of the Home Affordable Modification Program” (the “HAMP
172            special inspector general I troubled asset relief program




                                                      Audit”). Among other things, the HAMP Audit questioned Treasury’s emphasis
                                                      on the number of offers for trial modification rather than executed permanent
      For further discussion of recommendations       modifications and observed that the number of permanent modifications had been,
      from the HAMP Audit, see SIGTARP’s              by Treasury’s own evaluation, “disappointing.” In the HAMP Audit, to improve
      April 2010 Quarterly Report, page 134.          HAMP’s administration and effectiveness, SIGTARP made the following recom-
                                                      mendations to Treasury:

                                                      •	 rectify the confusion that its own statements have caused for HAMP by promi-
                                                         nently disclosing its goals and estimates (updated over time, as necessary) of
                                                         how many homeowners the program will help through permanent modifications
                                                         and report monthly on its progress toward meeting that goal
                                                      •	 set other performance benchmarks and publicly report against them to measure
                                                         over time the implementation and success of HAMP
                                                      •	 undertake a sustained public service campaign as soon as possible, both to reach
                                                         additional borrowers who could benefit from the program and to arm the public
                                                         with complete, accurate information; this will help to avoid confusion and delay,
                                                         and prevent fraud and abuse
                                                      •	 reconsider its policy that allows servicers to substitute alternative forms of in-
                                                         come verification based on subjective determinations by the servicer
                                                      •	 re-examine HAMP’s structure to ensure that it is adequately minimizing the risk
                                                         of re-default driven by negative equity, high non-first-mortgage debt service, and
                                                         other risk factors

                                                      To address some of the vulnerabilities identified by SIGTARP in its audit report,
                                                      Treasury announced its intention to adopt several significant modifications to
                                                      HAMP, as detailed more completely in the April 2010 Quarterly Report, including
                                                      the following:

                                                      •	 requiring that servicers “consider” principal reductions at their option as part
                                                         of the loan modification process when indicated by program guidelines, with
                                                         increased incentives for successful principal reductions
                                                      •	 a new program, backed by up to $14 billion in TARP funds and managed by
                                                         both Treasury and the Federal Housing Administration (“FHA”), that will enable
                                                         severely underwater borrowers to refinance their mortgages so that the total
                                                         amount they owe on their homes will not exceed 115% of its value
                                                      •	 the Home Affordable Unemployment Program (“UP”), which offers assistance
                                                         to unemployed homeowners through temporary forbearance of a portion of their
                                                         payments
                                                      •	 increased incentives for servicers to provide permanent loan modifications in or-
                                                         der to compensate them for costs associated with the revisions to the program,
                                                         including assistance to unemployed homeowners
                                                                                 quarterly report to congress I july 21, 2010   173




•	 expansion of HAMP to include borrowers with FHA loans and borrowers in ac-
   tive bankruptcy proceedings
•	 improved requirements for borrower solicitations, stating performance time-
   frames for all parties and prohibiting new foreclosure referrals during the
   HAMP modification process
•	 additional assistance for homeowners who lose their homes through a short sale
   or deed in lieu, including increased financial assistance for moving and incen-
   tives to servicers and second-lien holders for use of foreclosure alternatives

    Although the modifications represented a significant step forward, SIGTARP
noted several issues with the modifications in its April 2010 Quarterly Report that
could impede HAMP’s effectiveness and efficiency; SIGTARP thus made a series
of additional recommendations. Each of those recommendations is set forth below,
followed by a discussion of Treasury’s responses, which were set forth in letters
dated May 20, 2010, and June 30, 2010. Treasury’s letters are reproduced in full in
Appendix G: “Correspondence.” Treasury’s responses to the prior recommendations
contained in the March 2010 HAMP audit are detailed in the table set forth at the
end of this section.

For each HAMP-related program and subprogram, Treasury should publish
the anticipated costs and expected participation in each and that, after each
program is launched, it report monthly as to the programs’ performance
against these expectations.
This recommendation echoes previous recommendations from SIGTARP, the
Government Accountability Office (“GAO”) and the Congressional Oversight Panel
that Treasury must finally adopt meaningful benchmarks and goals for HAMP,
including setting forth its expectation and goals for the most meaningful aspect of
HAMP — permanent modifications. Although in its March 22, 2010, response
to the audit Treasury stated that it “agrees that performance goals and metrics are
critical to the effective administration of any program,” in its more recent written
responses, Treasury essentially ignores this recommendation, merely noting its plans
to continue monthly updates on aspects of HAMP (including expansion on the types
of information published) without disclosing its formal projections and goals for
permanent modifications or other HAMP components. SIGTARP subsequently con-
firmed with Treasury officials that they are, in fact, rejecting these recommendations
and will not detail Treasury’s participation goals for permanent modifications or any
other HAMP-related program or subprogram. Instead, it will continue defining the
program’s success against only one benchmark — its goal of making offers to three to
four million homeowners. This “goal,” which SIGTARP has already described as es-
sentially meaningless and which Treasury itself has previously acknowledged has led
to “confusion,” simply does not provide the necessary transparency or accountability.
174   special inspector general I troubled asset relief program




                                                 First, American taxpayers and their representatives in Congress have an ab-
                                             solute right to know what the Government’s specific expectations and goals are
                                             for using the $50 billion that will be added to the national debt as a result of this
                                             program. Instead, Treasury only offers a goal — regarding offers of assistance —
                                             that is completely disconnected from the actual expenditure of taxpayer money.
                                             No HAMP funds will be spent on an “offer” but rather on what happens after it is
                                             made. The measurement of such offers is becoming even more meaningless over
                                             time as HAMP expands to provide different kinds of relief to homeowners and as
                                             the number of trial modifications canceled continues to skyrocket.
                                                 Second, the failure to provide meaningful benchmarks is contributing to the
                                             negative public perception of the program. The stated goal for offers of assis-
                                             tance has either been ignored or misunderstood, and, without a clear sense of the
                                             program’s intended direction, taxpayers and their representatives in Congress are
                                             understandably focusing on the program’s shortcomings, such as that substantially
                                             more trial modifications have failed than have successfully been made permanent,
                                             or that foreclosure filings have increased dramatically while HAMP has been in
                                             place, with permanent modifications constituting just a few drops in an ocean of
                                             foreclosure filings. Moreover, Treasury’s continued refusal to provide benchmarks
                                             for itself leaves it vulnerable to accusations that it is simply trying to avoid ac-
                                             countability. If Treasury sets no meaningful goals, it cannot be held accountable
                                             for failing to meet those goals and instead can continue claiming each incremental
                                             increase in participation a success, irrespective of the program’s cost or whether it
                                             could have been designed to help more homeowners.

                                             Treasury should re-evaluate the voluntary nature of its principal reduction
                                             program and, irrespective of whether it is discretionary or mandatory, consid-
                                             er changes to better maximize its effectiveness, ensure to the greatest extent
                                             possible the consistent treatment of similarly situated borrowers, and address
                                             potential conflict of interest issues.
                                             In response to SIGTARP’s recommendation in the HAMP Audit that Treasury
                                             needed to re-evaluate the vulnerability of HAMP to rampant re-defaults, Treasury
                                             announced that it would initiate a Principal Reduction Alternative (“PRA”) pro-
                                             gram within HAMP. However, unlike other aspects of HAMP, the decision whether
                                             to provide this benefit to struggling homeowners would be left to the servicer,
                                             irrespective of whether Treasury’s Net Present Value (“NPV”) test indicated that
                                             a principal reduction modification would be in the best financial interest of the
                                             investor who owned the mortgage. Citing concerns about the potential arbitrariness
                                             and effectiveness of a voluntary PRA program and the inherent conflict of interest
                                             for servicers who might have a financial incentive to avoid principal reductions,
                                             SIGTARP recommended that Treasury reconsider its decision to make principal
                                             reduction discretionary.
                                                                                  quarterly report to congress I july 21, 2010   175




    Treasury has declined to make principal reduction mandatory within PRA, of-
fering three separate arguments:

•	 the potential moral hazard of strategic default, i.e., that homeowners able to
   make their house payments would stop doing so in order to receive principal
   forgiveness
•	 the objections of responsible borrowers who continue to make their mortgage
   payments but believe that their tax dollars are being used to subsidize principal
   reductions even in instances where investors would not otherwise offer this
   benefit
•	 the prospect that servicers, on behalf of investors, would opt out of HAMP
   entirely due to its perceived financial impact and therefore would reduce avail-
   ability of HAMP to borrowers

    Although each of these issues is important, and, in the final analysis, it is up
to Treasury to weigh the competing interests involved, SIGTARP remains con-
cerned that Treasury may be overestimating the problems with a mandatory PRA
and discounting the problems with a voluntary one. With respect to moral hazard,
although it is certainly true that mandatory principal reduction carries moral hazard
risks, HAMP already has mitigating protections that would ameliorate the risks. It
is difficult to see how such risks would be materially different from the risks posed
by a voluntary program, or even from HAMP without principal reductions. As not-
ed in the April 2010 Quarterly Report, those mitigating factors include: Treasury’s
existing safeguards against moral hazard, such as income verification and hard-
ship affidavits, and the requirement for three years of annual payments before the
principal reduction is fully implemented. Treasury makes the conclusory assertion
that the mandatory nature of the program would “promote strategic default among
homeowners” without explaining how these current safeguards (or other potential
measures) are inadequate. This argument presumes that potential strategic default-
ers: (1) can bypass the safeguards and are willing to commit a federal crime by
knowingly executing a false hardship affidavit and/or arranging for fraudulent third-
party verification of their income; and (2) have such intimate knowledge of HAMP
that they could determine that, if they were to strategically default, they would fall
into the category of homeowners for which the two NPV tests (which are incred-
ibly complex and not publicly available) would yield the desired result (i.e., that the
PRA NPV test would both be positive and yield a greater financial benefit for the
investor than the standard NPV test).
    In light of these practical impediments, it is unclear that making PRA manda-
tory would have any more than a small, incremental impact on moral hazard. To be
clear, SIGTARP is not discounting moral hazard risks generally, but merely pointing
out, as emphasized in prior quarterly reports, that Treasury has already jumped into
176   special inspector general I troubled asset relief program




                                             the deep end of the moral hazard pool through TARP in general. Any incremental
                                             moral hazard implicated by making principal reductions for homeowners manda-
                                             tory pales in comparison to the moral hazard caused by TARP assistance to Wall
                                             Street, particularly when the difference here might be between a successful HAMP
                                             and an unsuccessful HAMP.
                                                 Treasury deems equally serious “the recognition of the very real frustration
                                             on the part of responsible homeowners who, although they are overleveraged, are
                                             continuing to make their scheduled payments but believe that taxpayers are being
                                             used to subsidize principal reduction in instances where investors would otherwise
                                             be unwilling to offer this benefit.” Although there is no doubt that HAMP, as a
                                             whole, potentially fuels such frustration, it is difficult to see how making principal
                                             reduction mandatory instead of discretionary contributes any significant amount, if
                                             at all, to such anger. For responsible borrowers who continue to meet their obliga-
                                             tions, using tax dollars to subsidize a principal reduction program (including the
                                             announced $14 billion TARP-funded FHA refinance program as well as the current
                                             version of PRA) would likely not be significantly more offensive than using tax
                                             dollars to subsidize interest rate reductions for homeowners, or to pay homeowners
                                             to leave homes on which they had already stopped making mortgage payments, or
                                             to subsidize with incentive payments the banks and other investors that made the
                                             poor investment decisions to acquire these mortgages, all of which already exists
                                             under HAMP. In the final analysis, all of the Government’s financing of HAMP
                                             could reasonably be deemed offensive to responsible homeowners who have
                                             continued to meet their obligations without Government assistance, but any small
                                             incremental additional offense involved in a mandatory PRA versus a voluntary one
                                             would not appear to be dispositive, particularly in light of the problems with the
                                             voluntary system.
                                                 Treasury’s third justification for the voluntary nature of principal reduction is
                                             that servicers may opt out of HAMP entirely if reduction is made mandatory. One,
                                             from a legal perspective, this appears to be erroneous. Under their agreements with
                                             Treasury, if servicers choose not to participate in PRA, they could do so without
                                             leaving HAMP entirely. Two, Treasury’s argument is squarely inconsistent with sev-
                                             eral other aspects of HAMP, which generally require mandatory action for partici-
                                             pating servicers. For example, the standard HAMP modification is already manda-
                                             tory if the NPV test is positive, and, indeed, Treasury has made principal reduction
                                             for second mortgages mandatory in the event that the first mortgage is so modified.
                                                 Finally, Treasury’s argument is inconsistent with its own stated reasons as to
                                             why servicers would voluntarily want to offer principal reductions (and therefore,
                                             presumably, be less inclined to opt out): (a) “where a modification with principal
                                             reduction has a higher NPV than a standard NPV modification, servicers may be
                                             required by investor guidelines or other legal obligations to perform the modifi-
                                             cation that yields the highest NPV for the investor”; (b) the program “includes
                                                                                 quarterly report to congress I july 21, 2010   177




significant financial incentives to offer principal reduction”; and (c) the “increased
transparency” of the program “should cause the industry to make better decisions
for homeowners and investors.” Indeed, the observation that many servicers might
already be legally required “to perform the modification that yields the highest NPV
for the investor” only further emphasizes the reasonableness of applying that stan-
dard to the program as a whole.
     At the same time that Treasury is overstating the problems with a mandatory
PRA program, it appears to continue to disregard the substantial problems asso-
ciated with a voluntary one. As discussed more fully in the April 2010 Quarterly
Report, a voluntary program is susceptible to inconsistent results for similarly
situated homeowners (one HAMP participant could receive principal reduction,
while the next-door neighbor in the same financial position might not), all based on
the decisions of a servicer that may be acting under a conflict of interest (because
servicers are paid based in part on principal balance). These arbitrary results and
potential abuses are a risk in a voluntary program.
     More fundamentally, making principal reductions mandatory would better ad-
dress the danger of re-defaults in HAMP, i.e., when a homeowner who has received
a HAMP modification ends up unable or unwilling to make the modified payments
and defaults again. As GAO noted in a June 2010 report, the current average loan-
to-value ratio (a key predictor of re-default) for homeowners in HAMP modifica-
tions is, incredibly, 150%, meaning that the average HAMP participant owes over
50% more than the home is worth.
     At its core, PRA represents an opportunity to address a significant danger for
HAMP — that modifications will fail and borrowers re-default because the bor-
rowers are simply too deeply underwater, thereby wasting taxpayers’ money with
little actual benefit. There is a growing consensus that re-defaults will indeed be
a problem in HAMP. For example, Fitch Ratings Ltd. estimates that, under the
program as currently constructed, 65%-75% of HAMP borrowers will re-default.
Moody’s Investors Service, Inc. projects, that without principal reduction, 50%-70%
of borrowers receiving permanent HAMP modifications will re-default, adding that
“the ultimate level of re-defaults will depend heavily on the successful implementa-
tion of principal forgiveness.” As the Federal Reserve Bank of New York noted in a
recent paper: “Clearly, a loan modification program that lowers the principal bal-
ance on a mortgage will do more to support homeownership than a program that
simply eases the terms of the loan.” Failure to make PRA mandatory may severely
undercut the ability of HAMP to meet this challenge.
     Moreover, when purely voluntary, the program is vulnerable to selective use by
servicers and investors to subsidize only those principal reductions that they would
have made even in the absence of taxpayer assistance. Many banks are already
implementing principal reduction as part of their own non-HAMP mortgage modi-
fications. As just one example, shortly before Treasury’s announcement of PRA,
178   special inspector general I troubled asset relief program




                                             Bank of America announced a program under which it would forgive principal for
                                             a select group of borrowers who had taken out certain types of mortgages from
                                             Countrywide, which Bank of America acquired. Bank of America announced that
                                             it would fund this program without Government support. Shortly after the an-
                                             nouncement of HAMP’s principal reduction program, however, Bank of America
                                             indicated that it would be shifting its existing program into HAMP so that it could
                                             benefit from taxpayer subsidies, without committing that it will offer principal
                                             reductions to all homeowners outside of this initiative who qualify for PRA and
                                             for which the NPV tests yield a more positive result. Simply put, a Government
                                             program that does no more than subsidize activity that would have occurred in its
                                             absence is not an efficient or effective use of taxpayer dollars, and the voluntary
                                             nature of the principal reduction program risks encouraging that result.

                                             Treasury should adopt a uniform appraisal process across all HAMP and
                                             HAMP-related short-sale and principal reduction programs consistent with
                                             FHA’s procedures.
                                             In the April 2010 Quarterly Report, SIGTARP warned that Treasury’s Home
                                             Affordable Foreclosure Alternative (“HAFA”) program, which provides incentives
                                             for short sales and surrenders of deeds in lieu of foreclosure, had a potentially
                                             significant fraud vulnerability arising out of its failure to require full appraisals
                                             before authorizing payments for short sales. Specifically, SIGTARP warned of the
                                             rising prevalence of short sale-related fraud and noted that other short sale-related
                                             programs, such as the Department of Housing and Urban Development’s (“HUD”)
                                             FHA program, require full appraisals. SIGTARP further warned that PRA could
                                             also be subject to valuation fraud. In its response, Treasury has indicated that it will
                                             reject this recommendation, referring in its response only to its standard mortgage
                                             modification protocols and largely ignoring the fraud concerns raised with respect
                                             to the increased vulnerability to valuation fraud raised by its short-sale and prin-
                                             cipal reduction programs. Treasury cited cost and timeliness considerations in its
                                             decision to permit the use of automated valuation models or broker price opinions
                                             for home valuations. It asserted that its guidance is consistent with that provided
                                             by the Office of the Comptroller of the Currency (“OCC”) for mortgage modifica-
                                             tions, and that FHA does not require valuations when modifying delinquent loans.
                                                 Although it is true that FHA does not require appraisals for standardized loan
                                             modifications (for which the incentive to commit valuation fraud is far less) it
                                             does require them for short sales (i.e., the subject of SIGTARP’s recommendation)
                                             which are far more vulnerable to this type of fraud. Treasury offers no explana-
                                             tion as to why taxpayers who stand behind FHA-supported short sales should be
                                             better protected from short-sale schemes than when they stand behind the TARP-
                                             supported HAFA short sales.
                                                                                 quarterly report to congress I july 21, 2010   179




    Treasury also cites investor agreements, which may not require full apprais-
als. It is not at all clear why taxpayers’ protections should be determined by the
contractual rights of those who invested in failing mortgages — SIGTARP deems
it axiomatic that all reasonable steps should be taken to safeguard taxpayers from
fraud. Whether a fraud prevention measure is cost effective is a determination
that Treasury should make, not investors. Furthermore, when the investor agree-
ments were conceived, the widespread home depreciation associated with the
financial crisis was not contemplated, let alone that as a result of that crisis there
would be a subsequent Government program that would spend billions of taxpayer
dollars to encourage widespread short sales. Nor was it contemplated that short-
sale fraud schemes, such as the “flopping” schemes described in the April 2010
Quarterly Report, would arise out of the crisis. In light of the dramatic change
in circumstances since those agreements were forged, the protections that were
deemed commercially prudent in the agreements have little bearing to what would
be prudent to protect taxpayer interests now. SIGTARP remains convinced that a
HAMP requirement for certified appraisers, at least in those portions of HAMP
most vulnerable to valuation fraud, would add useful rigor and consistency to this
process. Allowing servicers themselves the discretion to value homes in declining or
depressed markets will leave the program vulnerable to fraud and create the strange
incongruity that tax dollars will be substantially better protected in an FHA-run
short-sale program than in the Treasury-run one.

Treasury should reconsider the length of the minimum term of HAMP’s un-
employment forbearance program.
In response to this recommendation, Treasury noted that it has considered extend-
ing the UP term limits in response to the growing incidence of long-term unem-
ployment. Following SIGTARP’s recommendation, Treasury issued Supplemental
Directive 10-04, which removes the six-month cap for forbearance but retains
the original three-month minimum. Treasury stated that it would not increase the
three-month minimum, however, because “the OCC does not encourage unem-
ployment forbearance longer than three months,” and because “[i]f the forbearance
period lasts longer than six months, generally accepted accounting standards may
require a financial institution to write down the value of the loan.” Neither of these
concerns satisfactorily explains Treasury’s actions. First, what OCC “encourages”
(as opposed to what it prohibits) is obviously of little relevance, otherwise Treasury
would presumably cap its unemployment-forbearance program at three months.
Furthermore, to the extent that Treasury is concerned that it might be imposing
a requirement that one of the regulators would outright reject, it could make the
higher minimum period subject to regulatory override. Second, logically, Treasury’s
concerns about what “may” or may not happen under general accounting standards
180   special inspector general I troubled asset relief program




                                             after a six-month forbearance is simply not a relevant explanation as to why it is
                                             imposing only a three-month minimum.
                                                 In light of the continuing distress caused by record long-term unemployment
                                             (indeed, since the date of Treasury’s response, the Bureau of Labor Statistics has
                                             released June 2010 figures, seasonally adjusted, indicating that the median period
                                             of unemployment has increased to 25 weeks and that the average has increased to
                                             35 weeks) SIGTARP continues to encourage Treasury to reconsider extending its
                                             three-month minimum forbearance period.

                                             Treasury should launch a broad-based information campaign, including public
                                             service announcements in target markets that focus on warnings about poten-
                                             tial fraud, and include conspicuous fraud warnings whenever it makes broad
                                             public announcements about the program.
                                             To its credit, Treasury pointed out in its response that, along with HUD and other
                                             Federal agencies, it is participating in the “Loan Scam Alert” anti-fraud campaign
                                             being led by NeighborWorks America and the Ad Council, as well as another joint
                                             effort with the Ad Council to educate homeowners about HAMP’s availability and
                                             key provisions. Treasury indicates that, in addition to advertisements, representa-
                                             tives of the campaign attend MHA events where they work with homeowners who
                                             have been victimized by scams and seek to raise awareness about mortgage modi-
                                             fication frauds. Treasury also notes that it is running additional advertisements
                                             through the Ad Council. Treasury thus appears to be striving to implement this
                                             recommendation.


                                             RECOMMENDATIONS CONCERNING TREASURY’S
                                             MONITORING OF COMPLIANCE WITH TARP
                                             REQUIREMENTS BY COMPANIES RECEIVING
                                             EXCEPTIONAL ASSISTANCE
                                             As discussed in Section 1, “The Office of the Special Inspector General for the
                                             Troubled Asset Relief Program,” on June 29, 2010, SIGTARP released an audit
                                             report entitled “Treasury’s Monitoring of Compliance with TARP Requirements by
                                             Companies Receiving Exceptional Assistance.” The audit examined the extent to
                                             which Treasury follows a clear, consistent, and effective process to ensure that a
                                             company receiving exceptional assistance adheres to the requirements of its TARP
                                             agreement. The audit found that Treasury’s staffing and policies have not been
                                             robust enough to meet this obligation fully in a number of key respects:
                                                 First, Treasury’s compliance implementation has been too slow, requiring from
                                             6 to 14 months after the companies’ obligations commenced to even request the
                                             companies’ compliance frameworks, and 7 to 15 months to meet initially with the
                                                                                   quarterly report to congress I july 21, 2010   181




companies’ compliance officials. To date, Treasury has only begun its review of
three of the companies’ audit documentation and does not expect to complete this
final process step for the remaining three firms until well over a year after their
entry into TARP. In the context of companies that might not have survived absent
TARP’s infusion of tens of billions of taxpayer dollars, the risks posed by such com-
panies’ non-compliance with these important conditions (both financial and to the
credibility of the Government’s stabilization efforts) are too great to countenance
such delays.
    Second, Treasury’s compliance procedures rely too heavily on the companies
themselves. To date, decisions on whether a violation is serious enough to report
have effectively been left to their own judgment, so that Treasury relies upon TARP
participants (and sometimes upon the same managers who presided over the com-
panies as they reached the brink of failure) to abide by their various requirements
in a diligent and well-judged manner. Treasury has not provided basic guidance on
materiality standards for compliance breaches and has no plans to conduct its own
audits or otherwise test these companies’ compliance independently. Under these
circumstances, only one participant of extraordinary public assistance, American
International Group, Inc. (“AIG”), has reported violations to Treasury. Even then,
AIG’s reporting was made months after the events in question and included an
unconvincing explanation of one of the violations (regarding the CEO’s personal
use of a corporate jet).
    Third, Treasury’s compliance staffing levels continue to be inadequate. Although
the Office of Financial Stability-Compliance (“OFS-Compliance”) has continued to
add staff over time, its shortages of qualified compliance personnel persist. Indeed,
Treasury itself has stated that it would like to add 15 compliance staff members,
but that it has been unable to do so. Twenty months into its administration of
TARP, Treasury simply has no legitimate excuses as to why it has still failed to ac-
complish the critically important task of assembling a robust compliance staff.
    In sum, Treasury has not adopted the rigorous approach or developed the
professional team necessary for an adequate compliance system to ensure that
companies receiving exceptional assistance under TARP adhere to the special re-
strictions that were imposed to protect taxpayer interests. In light of these findings,
SIGTARP recommended that Treasury undertake the following steps to address the
issues identified:

•	 First, Treasury should promptly take steps to verify TARP participants’ confor-
   mance to their obligations, not only by ensuring that they have adequate compli-
   ance procedures but also by independently testing participants’ compliance.
•	 Second, Treasury should develop guidelines that apply consistently across TARP
   participants for when a violation is sufficiently material to merit reporting, or, in
   the alternative, require that all violations be reported.
182   special inspector general I troubled asset relief program




                                             •	 Third, SIGTARP reiterates its previous recommendation concerning the need to
                                                add enough infrastructure and staff at OFS-Compliance to ensure TARP recipi-
                                                ents’ adherence to their compliance obligations.

                                                 Treasury responded to the audit’s recommendations with a letter dated June 29,
                                             2010, a copy of which is reproduced in Appendix G: “Correspondence.” The letter
                                             noted that, “[a]lthough we agree with a portion of your third recommendation
                                             regarding increasing the Office of Financial Stability’s compliance staff, we strongly
                                             disagree with many of the statements and two of your recommendations in this
                                             report.” Treasury expects to provide a fuller response to the audit within 30 days of
                                             the letter’s date.


                                             TRACKING THE IMPLEMENTATION OF
                                             RECOMMENDATIONS IN PREVIOUS REPORTS
                                             SIGTARP has now made dozens of individual recommendations; updating compli-
                                             ance with each one in narrative form would be impractical. The following table,
                                             Table 5.1, summarizes SIGTARP’s prior recommendations, gives an indication
                                             of SIGTARP’s view of the level of implementation to date, and provides a brief
                                             explanation for that view where necessary. For more details on the recommenda-
                                             tions, see SIGTARP’s earlier quarterly reports to Congress. Treasury’s views on
                                             the level of implementation of the recommendations are set forth in Appendix G:
                                             “Correspondence.”
SIGTARP Recommendations table                    (continued)

                                                                                      Partially                        Not
          Recommendation                                              Implemented   Implemented       In Process   Implemented   TBD/NA Comments
1     *   Treasury should include language in the automobile               X
          industry transaction term sheet acknowledging SIG-
          TARP’s oversight role and expressly giving SIGTARP
          access to relevant documents and personnel.
2     *   Treasury should include language in new TARP                                    X                                             Although Treasury has made substantial efforts
          agreements to facilitate compliance and oversight.                                                                            to comply with this recommendation in many
          Specifically, SIGTARP recommends that each program                                                                            of its agreements, there have been exceptions,
          participant should (1) acknowledge explicitly the juris-                                                                      including in its agreements with servicers in
          diction and authority of SIGTARP and other oversight                                                                          MHA. Treasury has further stated that it will
          bodies, as relevant, to oversee compliance of the con-                                                                        continue to implement this recommendation with
          ditions contained in the agreement in question, (2) es-                                                                       respect to new TARP programs going forward
          tablish internal controls with respect to that condition,                                                                     as it deems “appropriate.”
          (3) report periodically to the Compliance department
          of the Office of Financial Stability (“OFS-Compliance”)
          regarding the implementation of those controls and
          its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official
          to OFS-Compliance that such report is accurate.
3     *   All existing TARP agreements, as well as those                   X
          governing new transactions, should be posted on the
          Treasury website as soon as possible.
4     *   Treasury should require all TARP recipients to report                                           X                             Treasury sent all CPP recipients a use of TARP
          on the actual use of TARP funds.                                                                                              funds survey and states that it will post the
                                                                                                                                        responses on its website in July 2010.
5     *   Treasury quickly determines its going-forward valua-             X
          tion methodology.
6     *   Treasury begins to develop an overall investment                 X
          strategy to address its portfolio of stocks and decide
          whether it intends to exercise warrants of common
          stock.
7     *   In formulating the structure of TALF, Treasury should            X                                                            The Federal Reserve has adopted mechanisms
          consider requiring, before committing TARP funds to                                                                           that address this recommendation.
          the program, that certain minimum underwriting stan-
          dards and/or other fraud prevention mechanisms be
          put in place with respect to the ABS and/or the assets
          underlying the ABS used for collateral.
8     *   Agreements with TALF participants should include                                                              X
          an acknowledgment that: (1) they are subject to the
          oversight of OFS-Compliance and SIGTARP, (2) with
          respect to any condition imposed as part of TALF,
          that the party on which the condition is imposed is
          required to establish internal controls with respect to
                                                                                                                                                                                          quarterly report to congress I july 21, 2010




          each condition, report periodically on such compli-
          ance, and provide a certification with respect to such
          compliance.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                             Continued on next page.
                                                                                                                                                                                          183
SIGTARP Recommendations table                    (continued)                                                                                                                                  184
                                                                                     Partially                         Not
          Recommendation                                             Implemented   Implemented        In Process   Implemented   TBD/NA Comments
9     *   Treasury should give careful consideration before               X                                                             This recommendation has been implemented
          agreeing to the expansion of TALF to include MBS                                                                              with respect to CMBS, and the Federal Reserve
          without a full review of risks that may be involved and                                                                       has announced that it will not be expanding TALF
          without considering certain minimum fraud protec-                                                                             to RMBS.
          tions.
10    *   Treasury should oppose any expansion of TALF to                 X                                                             This recommendation has been implemented
          legacy MBS without significant modifications to the                                                                           with respect to CMBS, and the Federal Reserve
          program to ensure a full assessment of risks associ-                                                                          has announced that it will not be expanding TALF
          ated with such an expansion.                                                                                                  to RMBS.
11        Treasury should formalize its valuation strategy and            X                                                             Treasury has committed to publish its valuation
          begin providing values of the TARP investments to the                                                                         estimates four times each year.
          public.
12    *   Treasury and the Federal Reserve should provide to                                                            X               The Federal Reserve and Treasury continue to
          SIGTARP, for public disclosure, the identity of the bor-                                                                      oppose this basic aspect of transparency in the
          rowers who surrender collateral in TALF.                                                                                      TALF program. SIGTARP intends to revisit this
                                                                                                                                        issue with the Federal Reserve once a collateral
                                                                                                                                        surrender takes place.
13    *   In TALF, Treasury should dispense with rating agency                                                                     X    The Federal Reserve has announced that RMBS
          determinations and require a security-by-security                                                                             will not be eligible for TALF loans, rendering this
                                                                                                                                                                                              special inspector general I troubled asset relief program




          screening for each legacy RMBS. Treasury should                                                                               recommendation moot.
          refuse to participate if the program is not designed
          so that RMBS, whether new or legacy, will be rejected
          as collateral if the loans backing particular RMBS do
          not meet certain baseline underwriting criteria or are
          in categories that have been proven to be riddled
          with fraud, including certain undocumented subprime
          residential mortgages.
14    *   In TALF, Treasury should require significantly higher           X                                                             This recommendation has been implemented
          haircuts for all MBS, with particularly high haircuts                                                                         with respect to CMBS, and the Federal Reserve
          for legacy RMBS, or other equally effective mitigation                                                                        has announced that it will not be expanding TALF
          efforts.                                                                                                                      to RMBS.
15    *   Treasury should require additional anti-fraud and credit        X                                                             The Federal Reserve has adopted mechanisms
          protection provisions, specific to all MBS, before                                                                            that address this recommendation with respect
          participating in an expanded TALF, including minimum                                                                          to CMBS, and has announced that it will not be
          underwriting standards and other fraud prevention                                                                             expanding TALF to RMBS.
          measures.
16    *   Treasury should design a robust compliance protocol                                                           X
          with complete access rights to all TALF transaction
          participants for itself, SIGTARP, and other relevant
          oversight bodies.
17    *   Treasury should not allow Legacy Securities PPIFs to            X
          invest in TALF unless significant mitigating measures
          are included to address these dangers.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                              Continued on next page.
SIGTARP Recommendations table                    (continued)

                                                                                      Partially                        Not
          Recommendation                                              Implemented   Implemented       In Process   Implemented   TBD/NA Comments
18    *   All TALF modeling and decisions, whether on haircuts             X
          or any other credit or fraud loss mechanisms, should
          account for potential losses to Government interests
          broadly, including TARP funds, and not just potential
          losses to the Federal Reserve.
19    *   Treasury should address the confusion and uncertainty            X
          on executive compensation by immediately issuing the
          required regulations.
20        Treasury should significantly increase the staffing                                                           X               See discussion in this section.
          levels of OFS-Compliance and ensure the timely
          development and implementation of an integrated risk
          management and compliance program.
21    *   Treasury should require CAP participants to (1) estab-                                                                   X    Treasury closed the program with no invest-
          lish an internal control to monitor their actual use of                                                                       ments having been made, rendering this recom-
          TARP funds, (2) provide periodic reporting on their ac-                                                                       mendation moot.
          tual use of TARP funds, (3) certify to OFS-Compliance,
          under the penalty of criminal sanction, that the report
          is accurate, that the same criteria of internal controls
          and regular certified reports should be applied to
          all conditions imposed on CAP participants, and (4)
          acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate,
          to oversee conditions contained in the agreement.
22    *   Treasury should impose strict conflict-of-interest rules                        X                                             Treasury has adopted some significant conflict-
          upon PPIF managers across all programs that specifi-                                                                          of-interest rules related to this recommenda-
          cally address whether and to what extent the manag-                                                                           tion, but has failed to impose other significant
          ers can (1) invest PPIF funds in legacy assets that                                                                           safeguards.
          they hold or manage on behalf of themselves or their
          clients or (2) conduct PPIF transactions with entities
          in which they have invested on behalf of themselves
          or others.
23    *   Treasury should require that all PPIF fund managers                             X                                             Treasury’s agreements with PPIF managers
          (1) have stringent investor-screening procedures, in-                                                                         include investor-screening procedures such as
          cluding comprehensive “Know Your Customer” require-                                                                           “Know Your Customer” requirements. Treasury
          ments at lease as rigorous as that of a commercial                                                                            has agreed that it will have access to any
          bank or retail brokerage operation to prevent money                                                                           information in a fund manager’s possession
          laundering and the participation of actors prone to                                                                           relating to beneficial owners. However, Treasury
          abusing the system, and (2) be required to provide                                                                            is not making an affirmative requirement that
          Treasury with the identities of all the beneficial owners                                                                     managers obtain and maintain beneficial owner
          of the private interests in the fund so that Treasury                                                                         information.
          can do appropriate diligence to ensure that investors
          in the funds are legitimate.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                             Continued on next page.
                                                                                                                                                                                           quarterly report to congress I july 21, 2010
                                                                                                                                                                                           185
SIGTARP Recommendations table                     (continued)                                                                                                                                 186
                                                                                       Partially                       Not
          Recommendation                                               Implemented   Implemented      In Process   Implemented   TBD/NA Comments
24    *   Treasury should require most-favored-nation clauses,              X
          PPIF managers to acknowledge that they owe Trea-
          sury a fiduciary duty, and that each manager adopt a
          robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit                                              X                             Treasury has decided to adopt this important
          third-party verified evidence that the applicant is resid-                                                                    SIGTARP recommendation and stated that its
          ing in the subject property before funding a mortgage                                                                         program administrator Fannie Mae is in the
          modification.                                                                                                                 process of hiring a third-party entity to perform
                                                                                                                                        a fraud-detection surveillance process to review
                                                                                                                                        loan level data to check for owner occupancy
                                                                                                                                        and identity of the borrower.
26    *   In MHA, Treasury should require a closing-like proce-                           X                                             See discussion in Section 5: “SIGTARP Recom-
          dure be conducted that would include (1) a closing                                                                            mendations” of SIGTARP’s October 2009
          warning sheet that would warn the applicant of the                                                                            Quarterly Report.
          consequences of fraud; (2) the notarized signature
          and thumbprint of each participant; (3) mandatory col-
          lection, copying, and retention of copies of identifica-
          tion documents of all participants in the transaction;
          (4) verbal and written warnings regarding hidden fees
          and payments so that applicants are made fully aware
                                                                                                                                                                                              special inspector general I troubled asset relief program




          of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer
          from collecting payments from the Government and
          not passing the full amount of the subsidies to the
          homeowners); and (6) the fact that no fee should be
          charged for the modification.
27        Additional anti-fraud protections should be adopted                                             X                             Treasury stated that its program administra-
          in MHA to verify the identity of the participants in the                                                                      tor Fannie Mae is in the process of hiring a
          transaction and to address the potential for ser-                                                                             third party entity to perform a fraud detection
          vicers to steal from individuals receiving Government                                                                         surveillance process to review loan level data to
          subsidies without applying them for the benefit of the                                                                        check for owner occupancy and identity of the
          homeowner.                                                                                                                    borrower.
28    *   In MHA, Treasury should require the servicer to com-                                                          X               Treasury has rejected SIGTARP’s recommenda-
          pare the income reported on a mortgage modification                                                                           tion and does not require income reported on
          application with the income reported on the original                                                                          the modification application to be compared to
          loan applications.                                                                                                            income reported on the original loan application.
29    *   In MHA, Treasury should require that verifiable, third-           X
          party information be obtained to confirm an applicant’s
          income before any modification payments are made.
30    *   In MHA, Treasury should defer payment of the $1,000                                                          X                Rather than deferring payment of the incentive
          incentive to the servicer until after the homeowner has                                                                       until after the homeowner has verifiably made a
          verifiably made a minimum number of payments under                                                                            minimum number of payments on its permanent
          the mortgage modification program.                                                                                            modification, Treasury will pay the incentive after
                                                                                                                                        the servicer represents that the homeowner has
                                                                                                                                        made three payments during the trial period.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                              Continued on next page.
SIGTARP Recommendations table                   (continued)

                                                                                     Partially                         Not
          Recommendation                                             Implemented   Implemented        In Process   Implemented   TBD/NA Comments
31    *   In MHA, Treasury should proactively educate hom-                X
          eowners about the nature of the program, warn them
          about modification rescue fraudsters, and publicize
          that no fee is necessary to participate in the program.
32    *   In MHA, Treasury should require its agents to keep                              X                                             While Treasury’s program administrator, Fannie
          track of the names and identifying information for                                                                            Mae, has developed a HAMP system of record
          each participant in each mortgage modification trans-                                                                         that maintains the servicers’ and investors’
          action and to maintain a database of such information.                                                                        names and participating borrowers’ personally
                                                                                                                                        identifiable information, such as names and
                                                                                                                                        addresses, the database is not constructed to
                                                                                                                                        maintain other information that may assist in
                                                                                                                                        detecting insiders who are committing large-
                                                                                                                                        scale fraud.
33    *   Treasury should require the imposition of strict infor-                                                       X               Treasury has refused to adopt this significant
          mation barriers or “walls” between the PPIF managers                                                                          anti-fraud measure designed to prevent conflicts
          making investment decisions on behalf of the PPIF and                                                                         of interest. This represents a material deficiency
          those employees of the fund management company                                                                                in the program.
          who manage non-PPIF funds.
34    *   Treasury should periodically disclose PPIF trading                                                            X               Treasury has committed to publish on a quarter-
          activity and require PPIF managers to disclose to SIG-                                                                        ly basis certain high-level information about ag-
          TARP, within seven days of the close of the quarter,                                                                          gregated purchases by the PPIFs, but not within
          all trading activity, holdings, and valuations so that                                                                        seven days of the close of the quarter. Treasury
          SIGTARP may disclose such information, subject to                                                                             has not committed to providing full transparency
          reasonable protections, in its quarterly reports.                                                                             to show where public dollars are invested by
                                                                                                                                        requiring periodic disclosure of every trade in
                                                                                                                                        the PPIFs. SIGTARP will report all transactions
                                                                                                                                        conducted in PPIP starting next quarter.
35        Treasury should define appropriate metrics and an                                               X                             See discussion in section 1 of this report.
          evaluation system should be put in place to moni-
          tor the effectiveness of the PPIF managers, both to
          ensure they are fulfilling the terms of their agreements
          and to measure performance.
36    *   The conditions that give Treasury “cause” to remove                                                          X                Treasury has refused to adopt this recommenda-
          a PPIF manager should be expanded to include a                                                                                tion relying solely on Treasury’s right to end the
          manager’s performance below a certain standard                                                                                investment period after 12 months, during which
          benchmark, or if Treasury concludes that the manager                                                                          time the PPIF manager’s performance may
          has materially violated compliance or ethical rules.                                                                          continue to fall below a standard benchmark
                                                                                                                                        potentially putting significant Government funds
                                                                                                                                        at risk.
37    *   Treasury should require PPIF managers to disclose to           X
          Treasury, as part of the Watch List process, not only
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related
                                                                                                                                                                                             quarterly report to congress I july 21, 2010




          liabilities.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                              Continued on next page.
                                                                                                                                                                                             187
SIGTARP Recommendations table                    (continued)                                                                                                                                  188
                                                                                     Partially                         Not
          Recommendation                                             Implemented   Implemented        In Process   Implemented   TBD/NA Comments
38        Treasury should require PPIF managers to obtain and                                                           X               Treasury has agreed that it can have access to
          maintain information about the beneficial ownership of                                                                        any information in a fund manager’s possession
          all of the private equity interests, and Treasury should                                                                      relating to beneficial owners. However, Treasury
          have the unilateral ability to prohibit participation of                                                                      is not making an affirmative requirement that
          private equity investors.                                                                                                     managers obtain and maintain beneficial owner
                                                                                                                                        information. Treasury will not adopt the recom-
                                                                                                                                        mendation to give itself unilateral ability to deny
                                                                                                                                        access to or remove an investor, stating that
                                                                                                                                        such a right would deter participation.
39    *   Treasury and FRBNY should (1) examine Moody’s                   X                                                             Treasury and the Federal Reserve have dis-
          assertions that some credit rating agencies are using                                                                         cussed concerns about potential overrating or
          lower standards to give a potential TALF security the                                                                         rating shopping with the rating agencies, and
          necessary AAA rating and (2) develop mechanisms                                                                               have agreed to continue to develop and enhance
          to ensure that acceptance of collateral in TALF is not                                                                        risk management tools and processes, where
          unduly influenced by the improper incentives to over-                                                                         appropriate.
          rate that exist among the credit agencies.
40    *   Treasury should more explicitly document the vote of            X
          each Investment Committee member for all decisions
          related to the investment of TARP funds.
                                                                                                                                                                                              special inspector general I troubled asset relief program




41    *   Treasury should improve existing control systems
          to document the occurrence and nature of external               X
          phone calls and in-person meetings about actual and
          potential recipients of funding under the CPP and
          other similar TARP-assistance programs to which they
          may be part of the decision making.
42    *   The Secretary of the Treasury should direct the                 X
          Special Master to work with FRBNY officials in under-
          standing AIG compensation programs and retention
          challenges before developing future compensation
          decisions that may affect both institutions’ ability to
          get repaid by AIG for Federal assistance provided.
43    *   Treasury should establish policies to guide any similar                                                                  X    Treasury stated that it does not anticipate taking
          future decisions to take a substantial ownership                                                                              a substantial percentage ownership position in
          position in financial institutions that would require an                                                                      any other financial institution pursuant to EESA.
          advance review so that Treasury can be reasonably
          aware of the obligations and challenges facing such
          institutions.
44    *   Treasury should establish policies to guide decision                            X                                             Treasury has agreed to work closely with other
          making in determining whether it is appropriate to                                                                            Federal agencies that are involved in TARP.
          defer to another agency when making TARP program-
          ming decisions where more than one Federal agency
          is involved.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                              Continued on next page.
SIGTARP Recommendations table                     (continued)

                                                                                      Partially                        Not
         Recommendation                                               Implemented   Implemented       In Process   Implemented   TBD/NA Comments
45       Treasury should rectify the confusion that its own                                                             X               See discussion in this section.
         statements have caused for HAMP by unambiguously
         and prominently disclosing its goals and estimates
         (updated over time, as necessary) of how many
         homeowners will actually be helped through perma-
         nent modifications, and report monthly on its progress
         toward meeting that goal.
46       Treasury should develop other performance metrics                                                              X               Treasury has indicated that it is developing
         and publicly report against them to measure over time                                                                          certain metrics for servicers, but not similar
         the implementation and success of HAMP.                                                                                        performance goals for itself. See discussion in
                                                                                                                                        this section for details.
47       Treasury should undertake a sustained public service                                             X                             See discussion in this section.
         campaign as soon as possible both to reach additional
         borrowers that could potentially be helped by the pro-
         gram and to arm the public with complete, accurate
         information about the program to avoid confusion and
         delay, and prevent fraud and abuse.
48       Treasury should reconsider its position that allows                                                            X
         servicers to substitute alternative forms of income
         verification based on subjective determinations by the
         servicer.
49       Treasury should re-examine HAMP’s structure to                                                                                 See discussion in this section.
         ensure that it is adequately minimizing the risk of                                              X
         re-default stemming from non-mortgage debt, second
         liens, partial interest rate resets after the five-year
         modifications end, and from many borrowers being
         underwater.
50       Treasury should institute careful screening before                                               X                             Treasury has stated that it has developed a
         putting additional capital into an institution with insuf-                                                                     screening and approval process in which it will
         ficient capital to ensure that the TARP matching funds                                                                         seek a recommendation from the appropriate
         are not flowing into an institution that is on the verge                                                                       Federal regulator in determining eligibility for
         of failure.                                                                                                                    CDCI, similar to Treasury’s screening process
                                                                                                                                        for CPP.
51       Treasury should develop a robust procedure to audit                                              X                             Treasury has stated that it will work with Federal
         and verify the bona fides of any purported capital                                                                             regulators to develop adequate controls to verify
         raise and to establish adequate controls to verify the                                                                         the source, amount and closing of all purported
         source, amount and closing of all claimed private                                                                              claimed private investments. Treasury has also
         investments.                                                                                                                   stated that it is considering options to identify
                                                                                                                                        funds and obtain a confirmation of receipt for
                                                                                                                                        the source of the capital raises. SIGTARP will
                                                                                                                                        continue to monitor to determine the effective-
                                                                                                                                        ness of any procedures that Treasury designs to
                                                                                                                                        audit and verify the bona fides of any purported
                                                                                                                                                                                             quarterly report to congress I july 21, 2010




                                                                                                                                        capital raise.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.                                                              Continued on next page.
                                                                                                                                                                                             189
SIGTARP Recommendations table               (continued)                                                                                  190
                                                                                Partially                    Not
     Recommendation                                             Implemented   Implemented   In Process   Implemented   TBD/NA Comments
52    Treasury should revise CDCI terms to clarify that              X
      Treasury inspection and copy rights continue until the
      entire CDCI investment is terminated. Additionally,
      consistent with recommendations made in connec-
      tion with other TARP programs, the terms should be
      revised to provide expressly that SIGTARP shall have
      access to the CDFI’s records equal to that of Treasury.
53    Treasury should consider more frequent surveys than                                                     X
      annually as currently contemplated. Quarterly surveys
      would more effectively emphasize the purpose of
      CDCI.
                                                                                                                                         special inspector general I troubled asset relief program
                                                                                                                quarterly report to congress I july 21, 2010                           191


1. 	    In October 2009, Treasury started to encounter challenges with its website counting system, and, as a result, it changed to a new system in January of 2010. SIGTARP has
        calculated the total number of website hits reported herein based on the number reported to SIGTARP as of September 30, 2009, plus an archived number provided by
        Treasury for the period of October–December 2009, and information generated from Treasury’s new system for the period of January–June 2010.
2. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for TARP,” 12/9/2009,
        www.financialstability.gov/latest/pr_12092009.html, accessed 6/25/2010.
3. 	    Office of Management and Budget, “Mid-Session Review, Budget of the U.S. Government – Fiscal Year 2010,” 8/25/2009, www.whitehouse.gov/omb/assets/fy2010_
        msr/10msr.pdf, accessed 6/23/2010.
4. 	    Treasury, “Troubled Assets Relief Program (TARP) Monthly 105(a) Report – May 2010,” 6/10/2010, www.financialstability.gov/docs/May%202010%20105(a)%20Report_
        final.pdf, accessed 6/14/2010; Office of Management and Budget, “Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.whitehouse.gov/omb/budget/fy2011/
        assets/budget.pdf, accessed 7/10/2010.
5. 	    Treasury, “Troubled Assets Relief Program (TARP) Monthly 105(a) Report – May 2010,” 6/10/2010, www.financialstability.gov/docs/May%202010%20105(a)%20Report_
        final.pdf, accessed 6/14/2010.
6. 	    Commitment source: Treasury, response to SIGTARP data call, 7/7/2010. The $699 billion represents the $700 billion authorized for TARP by EESA less the $1.2 billion
        reduction as a result of the Helping Families Save Their Homes Act of 2009, P.L. 111-22.
7. 	    From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients). Treasury, Transactions Report, 6/30/2010, http://
        financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, 7/12/2010; Treasury, response to SIGTARP data call,
        7/7/2010.
8. 	    As of June 30, 2010, 87 TARP recipients in various programs had repaid their TARP funds. Under the Capital Purchase Program (“CPP”), 84 TARP recipients had repaid a
        total $138.4 billion. Chrysler Financial, LLC, General Motors Co., and Chrysler had repaid their TARP funds under the Automotive Industry Financing Program (“AIFP”)
        totaling $11.2 billion. Under the Targeted Investment Program (“TIP”), Bank of America and Citigroup had repaid $40 billion. Treasury and Citigroup also terminated their
        agreement under the Asset Guarantee Program (“AGP”), reducing Treasury’s exposure by $5 billion.
9. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008; Treasury, response to SIGTARP draft report, 1/15/2010.
10. 	   Treasury, response to SIGTARP data call, 7/7/2010.
11. 	   Treasury, response to SIGTARP data call, 7/7/2010.
12. 	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.financialstability.gov/latest/tg48.html,
        accessed 7/7/2010.
13. 	   Treasury, “Making Home Affordable Updated Detailed Program Description,” 4/28/2009, www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 7/7/2010.
14. 	   Treasury, response to SIGTARP data call, 7/7/2010.
15. 	   Treasury, “Update on HFA hardest hit fund,” 3/5/2010, www.makinghomeaffordable.gov/pr3052010.htm, accessed7/12/2010; Treasury, “Housing Finance Agency Innovation
        Fund for the Hardest Hit Housing Markets,” 3/29/2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed
        7/12/2010.
16. 	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 7/7/2010.
17. 	   Treasury, response to SIGTARP data call, 7/7/2010.
18. 	   Treasury, “Community Development Capital Initiative,” 2/18/2010, http://financialstability.gov/roadtostability/comdev.html, accessed 7/7/2010.
19. 	   Treasury, response to SIGTARP data call, 7/7/2010.
20. 	   Treasury Press Release, “Statement of Secretary Geithner on House Passage of the Small Business Lending Fund Act,” 6/17/2010, www.treas.gov/press/releases/tg749.htm,
        accessed 6/23/2010.
21. 	   U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297 Small Business Lending Fund Act of 2010,” 5/13/2010, www.house.gov/apps/list/speech/financials-
        vcs_dem/hr_5297.pdf, accessed 6/2/2010.
22. 	   Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 7/7/2010.
23. 	   The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series E non-cumulative preferred without any cash outlay by Treasury.
        Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
        7/7/2010.
24. 	   Treasury, response to SIGTARP data call, 7/7/2010.
25. 	   Treasury, “Agency Financial Report, Fiscal Year 2009,” 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 7/7/2010.
26. 	   Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
        7/7/2010.
27. 	   Treasury, “Agency Financial Report, Fiscal Year 2009,” 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 7/7/2010.
28. 	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.financialstability.gov/latest/hp1358.html, accessed
        7/7/2010.
29. 	   Treasury, “Troubled Assets Relief Program: Monthly 105(a) Report – December 2009,” 1/11/2010, http://financialstability.gov/docs/105CongressionalReports/December%20
        105(a)_final_1-11-10.pdf, accessed 7/10/2010.
30. 	   Treasury, “Troubled Assets Relief Program: Monthly 105(a) Report – December 2009,” 1/11/2010, http://financialstability.gov/docs/105CongressionalReports/December%20
        105(a)_final_1-11-10.pdf, accessed 7/10/2010.
31. 	   Treasury, response to SIGTARP data call, 7/7/2010.
32. 	   FRBNY, response to SIGTARP data call, 7/7/2010.
33. 	   FRBNY, response to SIGTARP data call, 7/7/2010.
34. 	   Treasury, “Public-Private Investment Program,” 12/2/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 7/7/2010.
35. 	   Treasury, response to SIGTARP data call, 7/7/2010.
36. 	   Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed
        7/7/2010.
37. 	   Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” 3/2/2010, http://financialstability.gov/docs/
        agreements/Coastal%20Securities,%20Inc.pdf, accessed 7/7/2010.
38. 	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 7/7/2010.
39. 	   Treasury, response to SIGTARP data call, 7/7/2010; Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20
        Report%20as%20of%206-30-10.pdf, accessed 7/7/2010.
40. 	   Treasury, Transactions Report, 3/31/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed
        4/7/2010; Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, ac-
        cessed 7/7/2010.
192               special inspector general I troubled asset relief program



      41. 	   Concerning the principal, see Treasury, Transactions Report, 2/25/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20
              of%202-25-10.pdf, accessed 3/4/2010; for interest amounts, see Treasury, Dividends and Interest Reports, 2/19/2010, www.financialstability.gov/docs/dividends-interest-
              reports/January%202010_Dividends%20and%20Interest%20Report.pdf, accessed 3/4/2010.
      42. 	   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf,
              accessed 7/7/2010.
      43. 	   Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
              7/7/2010.
      44. 	   Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
              7/7/2010.
      45. 	   Treasury, response to SIGTARP draft report, 7/13/2010.
      46. 	   Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability, Domestic Policy Subcommittee of the Oversight and Government Reform
              Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 7/7/2010.
      47. 	   Treasury, “Making Home Affordable Updated Detailed Program Description,” www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 7/2/2010.
      48. 	   Treasury, response to SIGTARP draft, 7/14/2010.
      49. 	   Treasury, “FHA Program Adjustments to Support Refinancings for Underwater Homeowners,” http://makinghomeaffordable.gov/docs/FHA_Refinance_Fact_
              Sheet_032510%20FINAL2.pdf, accessed 7/12/2010; Treasury, response to SIGTARP draft report, 4/9/2009.
      50. 	   Treasury, “Testimony of Herbert M. Allison, Assistant Secretary for Financial Stability, U.S. Department of the Treasury Before the House Committee on Oversight and
              Government Reform, ‘Foreclosure Prevention: Is the Home Affordable Modification Program Preserving Homeownership?’” 3/25/2010, www.ustreas.gov/press/releases/
              tg608.htm, accessed 3/29/2010.
      51. 	   Treasury, response to SIGTARP data call, 1/12/2010.
      52. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-9-10%20Transactions%20Report%20as%20of%207-7-10.pdf, accessed
              7/9/2010.
      53. 	   Treasury, response to SIGTARP data call, 1/14/2010.
      54. 	   Treasury, response to SIGTARP data call, 1/14/2010; Treasury, response to SIGTARP draft report, 1/15/2010; Treasury, response to SIGTARP draft report, 4/8/2010.
      55. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
              7/9/2010.
      56. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
              7/9/2010.
      57. 	   Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.financialstability.gov/roadtostability/homeowner.html, accessed 3/8/2010.
      58. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/HAMP%20
              Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      59. 	   Treasury, “HAMP: Program update and resolution of active trial modifications,” 1/28/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1001.pdf, accessed 3/4/2010.
      60. 	   Treasury, “Home Affordable Modification Guidelines,” 4/6/2009, www.hmpadmin.com/portal/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      61. 	   Treasury, “Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/hamp_servicer/sd0901.pdf, accessed 7/12/2010.
      62. 	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_
              Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      63. 	   Treasury, “Servicer Performance Report Through May 2010,” 6/20/2010, www.financialstability.gov/docs/May%20MHA%20Public%20062110.pdf, accessed 7/2/2010.
      64. 	    SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_
              Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      65. 	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_
              Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      66. 	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_
              Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      67. 	   Treasury, “Making Home Affordable Program on Pace to Offer Help to Millions of Homeowners,” 8/4/2009, www.financialstability.gov/latest/tg252.html, accessed 3/8/2010.
      68. 	   Treasury, “Administration Releases April Loan Modification Report,” www.makinghomeaffordable.gov/pr_05172010.html, accessed 6/1/2010.
      69. 	   Treasury, “Obama Administration Introduces Monthly Housing Scorecard,” 6/21/2010, www.financialstability.gov/latest/pr_06212010.html, accessed 6/22/2010.
      71. 	   Treasury, “Obama Administration Introduces Monthly Housing Scorecard,” 6/21/2010, http://portal.hud.gov/portal/page/portal/HUD/documents/scorecard1.11.pdf, accessed
              7/2/2010.
      72. 	   Treasury, “Servicer Performance Report Through May 2010,” 6/20/2010, www.financialstability.gov/docs/May%20MHA%20Public%20062110.pdf, accessed 7/2/2010.
      73. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/HAMP%20
              Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      74. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      75. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      76. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      77. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      78. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1004.pdf, accessed 6/1/2010.
      79. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1004.pdf, accessed 6/1/2010.
      80. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      81. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/HAMP%20
              Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      82. 	   Treasury, “Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1004.pdf, accessed 6/1/2010.
      83. 	   Treasury, “Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      84. 	   Treasury, “Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      85. 	   Treasury, “Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      86. 	   Treasury, “Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      87. 	   Treasury, “Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      88. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/HAMP%20
              Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      89. 	   Treasury, “Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/docs/hamp_servicer/praoverviewnongse.pdf, accessed 6/3/2010.
                                                                                                              quarterly report to congress I july 21, 2010                         193


90. 	    Treasury, “Update on HFA hardest hit fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
91. 	    Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in “Hardest Hit Fund” Foreclosure-Prevention Program,” 6/23/2010, www.financialstability.
         gov/latest/pr_06232010.html, accessed 6/24/2010.
92. 	    Treasury, “Update to the HFA Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, http://financialstability.gov/docs/Hardest%20Hit%20public%20QA%200%2029%20
         10.pdf, accessed 3/29/2010.
93. 	    Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in “Hardest Hit Fund” Foreclosure-Prevention Program,” 6/23/2010, www.financialstability.
         gov/latest/pr_06232010.html, accessed 6/24/2010.
94. 	    OFS conference call, 3/19/2009.
95. 	    Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
96. 	    Treasury, “Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/capitalpurchaseprogram.html, accessed 6/25/2010.
97. 	    Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
98. 	    Treasury, response to SIGTARP data call, 6/30/2010.
99. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for TARP,” 12/9/2009,
         www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
100. 	   Treasury, response to SIGTARP data call, 6/30/2010; Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20
         Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010; Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/
         roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
101. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
         6/30/2010.
102. 	   Hilsenrath, John, Wall Street Journal, “Fed Grows More Wary On Economy,” 6/23/2010, online.wsj.com/article/SB10001424052748704629804575324962215305750.
         html, accessed 6/27/2010.
103. 	   Treasury, response to SIGTARP data call, 6/30/2010.
104. 	   Treasury, response to SIGTARP data call, 6/30/2010.
105. 	   Treasury, response to SIGTARP vetting draft, 7/9/2010.
106. 	   Treasury, Section 105(a) Report, 6/10/2010, www.financialstability.gov/docs/105CongressionalReports/May%202010%20105(a)%20Report_final.pdf, accessed 6/14/2010;
         Treasury, response to SIGTARP data call, 4/6/2010.
107. 	   Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
108. 	   Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/
         tg_06262009.html, accessed 6/26/2009.
109. 	   Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/latest/
         tg_06262009.html, accessed 3/31/2010.
110. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
         6/30/2010.
111. 	   Treasury, response to SIGTARP data call, 6/30/2010.
112. 	   Treasury, response to SIGTARP data call, 6/30/2010.
113. 	   Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.financialstability.gov/latest/pr_02182010.html,
         accessed 3/13/2010.
114. 	   OFS conference call, 3/19/2010.
115. 	   OFS conference call, 3/19/2010.
116. 	   Treasury, response to SIGTARP data call, 6/30/2010.
117. 	   OFS conference call, 3/19/2010.
118. 	   OFS conference call, 3/19/2010.
119. 	   Business Wire, “The South Financial Group Agrees to Merger with TD Bank Financial Group,” 5/17/2010, www.businesswire.com/portal/site/home/
         permalink/?ndmViewId=news_view&newsId=20100517005824&newsLang=en, accessed 6/1/2010.
120. 	   FDIC, Consent Order, www.sec.gov/Archives/edgar/data/797871/000130861710000022/consentorder.htm, accessed 7/1/2010.
121. 	   Business Wire, “The South Financial Group Agrees to Merger with TD Bank Financial Group,” 5/17/2010, www.businesswire.com/portal/site/home/
         permalink/?ndmViewId=news_view&newsId=20100517005824&newsLang=en, accessed 6/1/2010.
122. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
         6/30/2010.
123. 	   Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2010, www.ustreas.gov/press/releases/tg41.htm, accessed 6/25/2010;
         Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html, accessed 3/31/2010;
         Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,” 5/26/2010, www.financialstability.gov/latest/pr_05262010b.html, accessed
         6/1/2010.
124. 	   Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html, accessed 3/31/2010.
125. 	   Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html, accessed 3/31/2010.
126. 	   Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,” 5/26/2010, www.financialstability.gov/latest/pr_05262010b.html, accessed
         6/1/2010.
127. 	   Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,” 5/26/2010, www.financialstability.gov/latest/pr_05262010b.
         html, accessed 6/1/2010; Percentages based common stock outstanding as of April 30, 2010, Citigroup Inc., 10-Q, 5/7/2010, www.sec.gov/Archives/edgar/
         data/831001/000104746910004978/a2198476z10-q.htm, accessed 6/30/2010; Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-
         reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010.
128. 	   Treasury Press Release, “Treasury Announces the Completion of Its Current Trading Plan to Sell Citigroup Common Stock,” 7/1/2010, www.financialstability.gov/latest/
         pr_07012010.html, accessed 7/1/2010.
129. 	   Percentage based common stock outstanding as of April 30, 2010, Citigroup Inc., 10-Q, 5/7/2010, www.sec.gov/Archives/edgar/data/831001/000104746910004978/
         a2198476z10-q.htm, accessed 6/30/2010; Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1- 10%20Transactions%20
         Report%20as%20of%206-30-10.pdf, accessed 6/30/2010.
130. 	   Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1- 10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
         6/30/2010.
131. 	   OFS, Midwest Banc Exchange Briefing, 4/13/2010.
194              special inspector general I troubled asset relief program



      132. 	 Treasury, Transactions Report, 6/30/2010, http://financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
             7/7/2010.
      133. 	 OFS, Midwest Banc Exchange Briefing, 4/13/2010.
      134. 	 FDIC Press Release, “Firstmerit Bank, National Association, Akron, Ohio, Assumes All of the Deposits of Midwest Bank and Trust Company, Elmwood Park, Illinois,”
             5/14/2010, www.fdic.gov/news/news/press/2010/pr10116.html, accessed 6/2/2010.
      135. 	 FDIC Press Release, “Firstmerit Bank, National Association, Akron, Ohio, Assumes All of the Deposits of Midwest Bank and Trust Company, Elmwood Park, Illinois,”
             5/14/2010, www.fdic.gov/news/news/press/2010/pr10116.html, accessed 6/2/2010; Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-
             reports/7-1- 10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010.
      136. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
             6/30/2010.
      137. 	 Sterling Financial Corporation, “Treasury Response to Exchange Request,” 3/16/2009, www.sec.gov/Archives/edgar/data/891106/000115752310001607/a6217020ex992.
             htm, accessed 3/29/2010; Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1- 10%20Transactions%20Report%20as%20of%20
             6-30-10.pdf, accessed 6/30/2010.
      138. 	 Sterling Financial Corporation Press Release, “Sterling Financial Corporation of Spokane, Wash., Confirms Definitive Agreements with U.S. Treasury and Thomas H. Lee
             Partners, L.P.,” 4/29/2010, www.snl.com/irweblinkx/file.aspx?IID=101432&FID=9443800, accessed 6/1/2010; Sterling Financial Corporation Press Release, “Sterling
             Financial Corporation of Spokane, Wash., Updates Recapitalization Plan and Reports First-Quarter 2010 Operating Results,” 4/27/2010, http://www.snl.com/irweblinkx/file.
             aspx?IID=101432&FID, accessed 6/1/2010.
      139. 	 Sterling Financial Corporation Press Release, “Sterling Financial Corporation of Spokane, Wash., Announces Agreement with Warburg Pincus to Invest in Sterling,”
             5/24/2010, www.snl.com/irweblinkx/file.aspx?IID=101432&FID=9591184, accessed 6/1/2010.
      140. 	 Library of Congress, “Bill Summary & Status, 111th Congress (2009 - 2010), H.R. 5297, Major Congressional Actions,” no date, thomas.loc.gov/cgi-bin/bdquery/
             z?d111:HR05297:@@@R, accessed 6/23/2010; U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297, Small Business Lending Fund Act of 2010,”
             5/13/2010, www.house.gov/apps/list/speech/financialsvcs_dem/hr_5297.pdf, accessed 6/2/2010.
      141. 	 White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/president-obama-outlines-new-
             small-business-lending-fund, accessed 3/15/2010; U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297, Small Business Lending Fund Act of 2010,”
             5/13/2010, www.house.gov/apps/list/speech/financialsvcs_dem/hr_5297.pdf, accessed 6/2/2010.
      142. 	 The White House, “Remarks by the President on Small Business Initiatives, Metropolitan Archives, Landover, Maryland,” 10/21/2009, www.whitehouse.gov/the-press-office/
             remarks-president-small-business-initiatives-landover-md, accessed 6/25/2010.
      143. 	 Treasury, CDFI Fund, “About Us,” 9/11/2009, www.cdfifund.gov/who_we_are/about_us.asp, accessed 3/16/2010.
      144. 	 Treasury, “Community Development Financial Institutions Fund,” no date, www.cdfifund.gov/what_we_do/programs_id.asp?programID=9, accessed 6/15/2010.
      145. 	 Treasury, “CDCI FAQ Regarding Application Deadline,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQ%20Regarding%20Application%20Deadline.pdf, ac-
             cessed 6/25/2010.
      146. 	 Treasury, “Road to Stability: Community Development Capital Initiative,” 6/4/2010, www.financialstability.gov/roadtostability/comdev.html, accessed 6/24/2010.
      147. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      148. 	 Credit Union National Association, “What Is a Credit Union?” 2009, www.creditunion.coop/what_is_a_cu.html, accessed 3/23/2010.
      149. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
             www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-Inst.pdf, accessed 3/1/2010.
      150. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
             www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-Inst.pdf, accessed 3/1/2010.
      151. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
             www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-Inst.pdf, accessed 3/1/2010.
      152. 	 Treasury OFS, response to SIGTARP data call, 7/7/2010.
      153. 	 Treasury OFS, response to SIGTARP data call, 7/7/2010.
      154. 	 Treasury OFS, response to SIGTARP data call, 7/7/2010.
      155. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      156. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
             www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-Inst.pdf, accessed 3/1/2010.
      157. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
             www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-Inst.pdf, accessed 3/1/2010.
      158. 	 U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297, Small Business Lending Fund Act of 2010,” 5/13/2010, www.house.gov/apps/list/speech/
             financialsvcs_dem/hr_5297.pdf, accessed 6/2/2010, p. 17.
      159. 	 Library of Congress, “Bill Summary & Status, 111th Congress (2009 - 2010), H.R. 5297, Major Congressional Actions,” no date, http://thomas.loc.gov/cgi-bin/bdquery/
             z?d111:HR05297:@@@R, accessed 6/23/2010.
      160. 	 GPO, “111th Congress, 2d Session H.R. 5297,” no date, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/9/2010.
      161. 	 Library of Congress, “Bill Summary & Status, 111th Congress (2009 - 2010), H.R. 5297 Major Congressional Actions,” no date, http://thomas.loc.gov/cgi-bin/bdquery/
             D?d111:3:./temp/~bd1YQ9:@@@R|/home/LegislativeData.php?n=BSS;c=111|, accessed 7/9/2010. 	
      162. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, p. 17.
      163. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, p. 17.
      164. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, pp. 23-25.
      165. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, pp. 25-26.
      166. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, p. 26.
      167. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, p. 26.
      168. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
             7/18/2010, p. 43-44.
                                                                                                              quarterly report to congress I july 21, 2010                           195


169. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
       7/18/2010, p. 31.
170. 	 GPO, “H.R. 5297, Small Business Jobs and Credit Act of 2010,” frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297pcs.txt.pdf, accessed
       7/18/2010, p. 44.
171. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 12/7/2009.
172. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
       6/30/2010.
173. 	 Treasury, response to SIGTARP data call, 6/30/2010.
174. 	 Treasury, response to SIGTARP data call, 6/30/2010.
175. 	 Treasury, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.financialstability.gov/latest/tg_04012010.html, accessed 4/6/2010.
176. 	 Treasury, response to SIGTARP data call, 6/30/2010.
177. 	 Treasury, “Securities Purchase Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of the Treasury,”
       4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 1/13/2009.
178. 	 Treasury, response to SIGTARP data call, 1/6/2010; Treasury, response to SIGTARP data call, 4/8/2010; TARP Series F Preferred Drawdown Request #4, 2/11/2010,
       accessed 4/8/2010.
179. 	 FRBNY, response to SIGTARP vetting draft, 7/9/2010.
180. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010.
181. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010; SIGTARP, Audit Report, “Factors Affecting Payments to AIG’s Counterparties,”
       10/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/30/2010.
182. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010.
183. 	 AIG, “AIG Closes Two Transactions That Reduce Debt AIG Owes FRBNY by $25 Billion,” 12/1/2009, http://phx.corporate-ir.net/External.File?item=UGFyZW50SUQ9MjE4
       ODl8Q2hpbGRJRDOtMXxUeXBlPTM=&t=1, accessed 3/17/2010.
184. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010.
185. 	 FRBNY, response to SIGTARP data call, 6/30/2010.
186. 	 Congressional Oversight Panel, “June Report,” 6/10/2010, http://cop.senate.gov/documents/cop-061010-report.pdf, accessed 6/10/2010.
187. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201003.pdf,
       accessed 3/31/2010.
188. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201003.pdf,
       accessed 3/31/2010.
189. 	 AIG, “International Lease Finance Corporation to Sell 53 Aircraft to Macquarie Aerospace Limited,” 4/13/2010, www.aigcorporate.com/newsroom/index.html, accessed
       6/2/2010.
190. 	 AIG, “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%203Q09%20Press%20Release.pdf, accessed 12/7/2009.
191. 	 Business Insurance, “AIG amends terms of stalled Taiwan unit sale,” 6/11/2010, www.businessinsurance.com/apps/pbcs.dll/article?AID=/20100611/NEWS01/100619980,
       accessed 6/25/2010.
192. 	 Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
193. 	 Treasury, “Treasury Releases Guidelines for Targeted Investment Program,” 1/2/2009, www.treas.gov, accessed 1/9/2009.
194. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
       6/30/2010.
195. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed
       6/30/2010.
196. 	 Treasury, Section 105(a) Report, 3/10/2010, http://financialstability.gov/docs/105CongressionalReports/Monthly%20Report_February2010.pdf, accessed 3/15/2010; Treasury,
       Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010.
197. 	 Treasury, “Treasury Receives $45 Billion in Repayments from Wells Fargo and Citigroup,” 12/22/2010, http://financialstability.gov/latest/pr_12232009b.html, accessed
       6/30/2010.
198. 	 For initial loss guarantee and securities received, see Treasury, Transactions Report, 3/10/2010, http://financialstability.gov/docs/transaction-reports/3-12-10%20
       Transactions%20Report%20as%20of%203-11-10.pdf, accessed 3/15/2010; for losses covered amount, see Treasury, Section 105(a) Report, 2/3/2010, http://financialstability.
       gov/docs/105CongressionalReports/105aReport_02032009.pdf, accessed 3/16/2010.
199. 	 Treasury, “Troubled Assets Relief Program: Monthly 105(a) Report – December 2009,” 1/11/2010, http://financialstability.gov/docs/105CongressionalReports/December%20
       105(a)_final_1-11-10.pdf, accessed 7/10/2010.
200. 	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008, www.federalreserve.gov/
       newsevents/press/monetary/20081125a.htm, accessed 6/24/2010.
201. 	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under Term Asset-Backed Securities Loan Facility,” 5/1/2009, www.federalreserve.
       gov/newsevents/press/monetary/20090501a.htm, accessed 6/25/2010; Federal Reserve Press Release, “Federal Reserve announces that certain high-quality commercial
       mortgage-backed securities will become eligible collateral under TALF,” 5/19/2009, www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed 7/10/2010.
202. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/10/2010; Federal Reserve, “Term
       Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 6/15/2010.
203. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2010.
204. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
205. 	 Federal Reserve, response to SIGTARP draft report, 7/9/2010.
206. 	 FRBNY, “2009 Annual Report,” 6/2010, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 7/1/2010.
207. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
       6/30/2010.
208. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 6/10/2010.
209. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
       6/30/2010.
210. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
       6/30/2010.
211. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
       6/30/2010.
196              special inspector general I troubled asset relief program



      212. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
             6/30/2010.
      213. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
      214. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
             6/30/2010.
      215. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
             6/30/2010.
      216. 	 Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      217. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 6/10/2010;
             Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” 12/2009, www.federalreserve.gov/monetarypolicy/files/
             monthlyclbsreport200912.pdf, accessed 7/1/2010.
      218. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
             6/30/2010.
      219. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.html, accessed
             6/30/2010; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      220. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/1/2010.
      221. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
      222. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
      223. 	 FRBNY, response to SIGTARP draft report, 4/9/2009.
      224. 	 FRBNY, response to SIGTARP draft report, 4/9/2009.
      225. 	 Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      226. 	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      227. 	 Treasury, “TALF LLC Credit Agreement,” 3/3/2009.
      228. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/Current/, note 8, accessed 7/7/2010.
      229. 	 Treasury, “Security and Intercreditor Agreement Dated as of March 3, 2009 Among TALF LLC, as Borrower, FRBNY, as Senior Lender, United States Department of the
             Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral Agent,” 3/3/2009, www.financialstability.gov/docs/SPV-
             Sec-Agt.pdf, accessed 6/29/2010.
      230. 	 FRBNY, response to SIGTARP data call, 7/7/2010.
      231. 	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      232. 	 Formation Date: Federal Reserve, “TALF LLC, Financial Statements for the Period February 4, 2009 to December 31, 2009 and Independent Auditors’ Report,” 4/21/2010,
             www.federalreserve.gov/monetarypolicy/files/BSTTALFLLCfinstmt2009.pdf, accessed 6/25/2010, p. 7; Amounts: FRBNY, response to SIGTARP data call, 7/8/2010.
      233. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 3/11/2010, www.federalreserve.gov/releases/h41/Current/, accessed 3/17/2010; Treasury, response to SIGTARP
             draft, 4/8/2010.
      234. 	 Federal Reserve Joint Press Release, “Treasury and Federal Reserve Announce Launch of Term Asset-Backed Securities Loan Facility,” 3/3/2009, www.federalreserve.gov/
             newsevents/press/monetary/20090303a.htm, accessed 6/25/2010.
      235. 	 Federal Reserve Press Release, “Federal Reserve Announces the Creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008, www.federalreserve.gov/
             newsevents/press/monetary/20081125a.htm, accessed 1/13/2010.
      236. 	 Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” 12/2009, www.federalreserve.gov/monetarypolicy/
             files/monthlyclbsreport200912.pdf, accessed 1/13/2010; Reuters, “UPDATE 2-Developers Diversified deal ends CMBS drought,” 11/16/2009, www.reuters.com/article/
             idUSNN1651253720091116, accessed 12/8/2009; Federal Reserve, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_
             recent_operations.html, accessed 6/15/2010.
      237. 	 Federal Reserve, “Monetary Policy Report to the Congress,” 2/24/2010, www.federalreserve.gov/monetarypolicy/files/20100224_mprfullreport.pdf, accessed 6/1/2010, p. 14.
      238. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 6/15/2010.
      239. 	 Federal Reserve Press Release, “Federal Reserve announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under TALF,”
             5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/15/2010.
      240. 	 Treasury, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009, www.treas.gov/press/releases/tg82.htm,
             accessed 11/24/2009.
      241. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009, www.treas.gov/press/releases/
             reports/legacy_securities_faqs.pdf, accessed 6/24/2010.
      242. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(redacted).pdf, accessed
             12/14/2009.
      243. 	 Treasury, Section 105(a) Report, 5/2010, www.financialstability.gov/docs/105CongressionalReports/May%202010%20105(a)%20Report_final.pdf, accessed 6/25/2010,
             Appendix 1, p. 10; SIGTARP, response to initial draft, 6/29/2010.
      244. 	 Treasury, “Legacy Securities Public-Private Investment Program,” 6/11/2010, www.financialstability.gov/roadtostability/legacysecurities.html#genLegal, accessed 6/24/2010.
      245. 	 Treasury, response to SIGTARP draft report, 7/9/2010.
      246. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treas.gov/press/releases/reports/legacy_securities_faqs.
             pdf, accessed 3/31/2010.
      247. 	 Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended June 30, 2009,” received 7/15/2010.
      248. 	 SIGTARP, response to draft report, 7/13/2010.
      249. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(redacted).pdf, accessed
             12/14/2009.
      250. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treas.gov/press/releases/
             reports/legacy_securities_faqs.pdf, accessed 12/14/2009; Treasury, “Marathon Amended And Restated Limited Partnership Agreement,” no date, www.financialstability.gov/
             docs/Marathon%20LPA%20Executed%20Version%20(REDACTED).pdf, p. 43, accessed 3/16/2010.
      251. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      252. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2009,” 1/29/2010, www.financialstability.gov/docs/
             External%20Report%20-%2012-09%20FINAL.pdf, p. 8, accessed 3/31/2010.
      253. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2009,” 1/29/2010, www.financialstability.gov/docs/
             External%20Report%20-%2012-09%20FINAL.pdf, p. 8, accessed 3/31/2010; SIGTARP, response to initial report, 6/30/2010.
                                                                                                               quarterly report to congress I july 21, 2010                          197


254. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed
       3/17/2009; SBA, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed 6/30/2009; Treasury OFS, response to
       SIGTARP data call, 4/12/2010.
255. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” 3/2/2010, http://financialstability.gov/docs/
       agreements/Coastal%20Securities,%20Inc.pdf, accessed 6/10/2010.
256. 	 SIGTARP data call, OFS briefing, 3/2/2010; SIGTARP data call, OFS briefing, 3/2/2010; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
       Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, http://financialstability.gov/docs/agreements/Coastal%20Securities,%20Inc.pdf, accessed 3/23/2010.
257. 	 Treasury, Transactions Report, 3/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 3/31/2010.
258. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 7/1/2010.
259. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 9/2/2009.
260. 	 SIGTARP, “April 2009 Quarterly Report to Congress,” 4/21/2009, http://sigtarp.gov/reports/congress/2009/April2009_Quarterly_Report_to_Congress.pdf, accessed
       6/22/2010.
261. 	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 4/2010, 5/10/2010, www.financialstability.gov/docs/105CongressionalReports/
       April%202010%20105(a)%20report_final.pdf, accessed 6/1/2010.
262. 	 Treasury Press Release, 7/21/2009, http://treas.gov/press/releases/tg22.htm, accessed 6/26/2010.
263. 	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstability.gov/roadtostability/autoprogram.html, accessed 9/4/2009; Treasury, Transactions Report,
       7/01/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-10.pdf, accessed 7/1/2010.
264. 	 Treasury, Dividends and Interest Reports, 6/11/2010, www.financialstability.gov/docs/dividends-interest-reports/January%202010_Dividends%20and%20Interest%20Report.
       pdf, accessed 7/2/2010.
265. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/3-12-10%20Transactions%20Report%20as%20of%203-11-10.pdf, accessed
       7/1/2010.
266. 	 Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_gm-factsheet.html,
       accessed 3/17/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and 7/13/2009.
267. 	 Treasury, response to SIGTARP draft report, 7/9/2010.
268. 	 Wall Street Journal, “Lazard gets plum GM assignment,” 5/24/2010, http://online.wsj.com/article/SB10001424052748704167704575258850702820666.html, accessed
       6/25/2010.
269. 	 Treasury, “Treasury provides guidance on its role in the exploration of a possible General Motors IPO,” 6/10/2010, www.financialstability.gov/latest/pr_06102010b.html,
       accessed 6/10/2010.
270. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
       7/1/2010.
271. 	 For Total Commitments, see Congressional Budget Office, 3/17/2010, “Report on the Troubled Asset Relief Program-March 2010,” www.cbo.gov/ftpdocs/112xx/
       doc11227/03-17-TARP.pdf, accessed 3/23/2010; for Debt Repayments, see Treasury, Transactions Report, 6/30/2010, http://www.financialstability.gov/docs/transaction-re-
       ports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed 7/1/2010; Treasury, “GM pays Treasury Loan in Full,” 4/21/2010, www.financialstability.gov/
       latest/pr_04212010.html, accessed 6/1/2010.
272. 	 SIGTARP, “October 2009 Quarterly Report,” 10/21/2010, http://sigtarp.gov/reports/congress/2009/October2009_Quarterly_Report_to_Congress.pdf, accessed 6/22/2010.
273. 	 For total commitments: Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20Report%20as%20of%20
       4-7-10.pdf, accessed 7/1/2010; for debt and equity stake numbers, see Congressional Budget Office, 3/17/2010, Report on the Troubled Asset Relief Program—March 2010,
       www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/23/2010.
274. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
       7/1/2010.
275. 	 Treasury, “Chrysler Financial parent company repays $1.9 billion in settlement of original Chrysler loan,” 5/15/2010, www.financialstability.gov/latest/pr_05172010c.html,
       accessed 6/27/2010.
276. 	 Treasury, response to SIGTARP draft report, 7/9/2010; U.S. Bankruptcy Court, Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure
       Statement with Respect to the Joint Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, http://chap11.epiqsystems.com/ViewDocument.
       aspx?DocumentPk=4cb6e8a2-cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009; for DIP Loan Amount, see Treasury, Transactions Report, 6/30/2010,
       www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20Report%20as%20of%204-7-10.pdf, accessed 7/1/2010.
277. 	 Treasury, Section 105(a) Report, 5/2010, 5/10/2010, www.financialstability.gov/docs/105CongressionalReports/April%202010%20105(a)%20report_final.pdf, accessed
       6/1/2010.
278. 	 SEC, “GMAC Inc. Form 8k,” 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 6/1/2010.
279. 	 Treasury, “Treasury Names Appointee to Ally Board of Directors,” 5/26/2010, www.financialstability.gov/latest/pr_05262010.html, accessed 6/1/2010.
280. 	 Treasury, Transactions Report, 3/31/2010, http://www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed
       4/7/2010; Treasury, Transactions Report, 6/25/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf,
       accessed 6/26/2010.
281. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-10.pdf, accessed
       7/1/2010; Treasury, Dividends and Interest Reports, 6/11/2010, www.financialstability.gov/docs/dividends-interest-reports/January%202010_Dividends%20and%20Interest%20
       Report.pdf, accessed 6/26/2010.
282. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed 12/10/2009.
283. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-10.pdf, accessed
       7/1/2010.
284. 	 Treasury, Transactions Report, 6/30/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
       7/1/2010.
285. 	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, http://cop.senate.gov/documents/cop-061010-report-accounting.pdf,
       6/24/2010.
286. 	 Treasury, Transactions Report, 6/25/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.pdf, accessed
       6/26/2010.
287. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
288. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/tg165.htm,
       accessed 11/30/2009.
289. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf,
       accessed 11/30/2009.
198              special inspector general I troubled asset relief program



      290. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf,
             accessed 11/30/2009.
      291. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf,
             accessed 11/30/2009.
      292. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, www.financialstability.gov/about/spcMaster.html, accessed 11/30/2009.
      293. 	 White House, Press Briefing, 6/16/2010, www.whitehouse.gov/the-press-office/briefing-press-secretary-robert-gibbs-treasury-secretary-tim-geithner-under-secretary, accessed
             6/30/2010.
      294. 	 Treasury, response to SIGTARP, 5/14/2010.
      295. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on Review of Pre-Recovery
             Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
      296. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on Review of Pre-Recovery
             Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
      297. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on Review of Pre-Recovery
             Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
      298. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on Review of Pre-Recovery
             Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
      299. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on Review of Pre-Recovery
             Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
      300. 	 Treasury Press Release, “Treasury Announces TARP Milestone: Repayments to Taxpayers Surpass TARP Funds Outstanding,” 6/11/2010, www.financialstability.gov/latest/
             pr_06112010.html, accessed 6/21/2010.
      301. 	 See Federal Reserve Board, Statistical Release H.4.1, “Factors Affecting Reserve Balances,” 7/8/2010, www.federalreserve.gov/releases/h41/hist/h41hist11.text, accessed
             7/10/2010.
      302. 	 Data as of 12/31/2009. White House, FY 2011 Budget, www.whitehouse.gov/omb/budget/fy2011/assets/gov.pdf, accessed 6/16/2010.
      303. 	 For discussion of liquidity programs, see Federal Reserve, “Credit and Liquidity Programs and the Balance Sheet: Overview,” no date, www.federalreserve.gov/monetarypolicy/
             bst.htm, accessed 6/24/2010; for discussion of new central bank swaps, see Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on
             Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/15/2010.
      304. 	 FRNBY, Credit and Liquidity Programs and the Balance Sheet, “The Federal Reserve’s response to the crisis,” no date, www.federalreserve.gov/monetarypolicy/bst_
             crisisresponse.htm, accessed 6/16/2010.
      305. 	 Federal Reserve, “Credit and Liquidity Programs and the Balance Sheet: Support for specific institutions,” no date, www.federalreserve.gov/monetarypolicy/bst_
             supportspecific.htm, accessed 6/24/2010.
      306. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      307. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      308. 	 Federal Reserve Press Release: 10/6/2008, www.federalreserve.gov/newsevents/press/monetary/20081006a.htm, accessed 6/8/2010.
      309. 	 Week ending 6/30/2010: St. Louis Fed, http://research.stlouisfed.org/fred2/data/WTERAUC.txt, accessed 7/6/2010.
      310. 	 For program modifications, see Federal Reserve Press Release, 9/24/2009, www.federalreserve.gov/newsevents/press/monetary/20090924a.htm, accessed 6/9/2010; for final
             auction announcement, see Federal Reserve, Monetary Policy, “Term Auction Facility Schedule,” 1/28/2010, www.federalreserve.gov/monetarypolicy/tafschedule.htm,
             accessed 6/9/2010.
      311. 	 Week ending 6/30/2010: St. Louis Fed, http://research.stlouisfed.org/fred2/data/WTERAUC.txt, accessed 7/5/2010; for last auction date, see Federal Reserve, Monetary
             Policy, “Lending to depository institutions,” 2/22/2010, www.federalreserve.gov/monetarypolicy/bst_lendingdepository.htm, accessed 6/24/2010.
      312. 	 Board of Governors of the Federal Reserve System, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” 2/2010,
             www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201002.pdf, accessed 6/10/2010.
      313. 	 St. Louis Fed, 6/30/2010, www.research.stlouisfed.org/fred2/data/WREPO.txt, accessed 7/6/2010.
      314. 	 FRBNY, Speeches, 6/25/2010, “What the Fed Did and Why,” www.newyorkfed.org/newsevents/speeches/2010/tra100625.html, accessed 7/10/2010.
      315. 	 Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WREPO.txt, accessed 7/6/2010.
      316. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      317. 	 FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
      318. 	 For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WCPFF.txt, accessed 7/6/2010; for closing date, see Federal Reserve,
             Monetary Policy, “Commercial Paper Funding Facility,” 2/5/2010, www.federalreserve.gov/monetarypolicy/cpff.htm, accessed 6/9/2010.
      319. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      320. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      321. 	 FDIC, Supervisory Insights, Summer 2009, p. 4, www.fdic.gov/regulations/examinations/supervisory/insights/sisum09/si_sum09.pdf, accessed 6/30/2010.
      322. 	 For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WMMIFF.txt, accessed 7/6/2010; for closing date, see Federal Reserve,
             Monetary Policy, “Money Market Investor Funding Facility,” 2/5/2010, www.federalreserve.gov/monetarypolicy/mmiff.htm, accessed 6/9/2010.
      323. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed 6/9/2010.
      324. 	 Federal Reserve Press Release: 6/25/2009, www.federalreserve.gov/newsevents/press/monetary/20090625a.htm, accessed 6/10/2010.
      325. 	 For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WABCMMF.txt, accessed 7/6/2010; for closing date, see Federal Reserve,
             Monetary Policy, “Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility,” 2/5/2010, www.federalreserve.gov/monetarypolicy/abcpmmmf.htm,
             accessed 6/9/2010.
      326. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      327. 	 Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
             6/9/2010.
      328. 	 For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WTERMFAC.txt, accessed 7/6/2010; for closing date, see Federal Reserve,
             Monetary Policy, “Term Securities Lending Facility,” 2/5/2010, www.federalreserve.gov/monetarypolicy/tslf.htm, accessed 6/9/2010.
                                                                                                               quarterly report to congress I july 21, 2010                          199


329. 	   FRBNY, “SOMA TSLF Options Program: Frequently Asked Questions,” 2/3/2009, www.newyorkfed.or/markets/top_faq.html, accessed 6/9/2010.
330. 	   FRBNY, “SOMA TSLF Options Program: Frequently Asked Questions,” 2/3/2009, www.newyorkfed.or/markets/top_faq.html, accessed 6/9/2010.
331. 	   FRBNY, “Term Securities Lending Facility Options Program (TOP) Terms and Conditions,” 2/3/2009, www.newyorkfed.org/markets/top_terms.html, accessed 6/9/2010.
332. 	   Board of Governors of the Federal Reserve System, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” February 2010,
         www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201002.pdf, accessed 6/10/2010.
333. 	   FRBNY, “Announcement of Revisions to the SOMA Securities Lending Program,” 2/12/2009, www.newyorkfed.org/newsevents/news_archive/markets/1999/soma.html,
         accessed 6/24/2010.
334. 	   FRBNY, response to SIGTARP draft, 7/13/2010.
335. 	   FRBNY, “Changes to Dealer Limits for SOMA Securities Lending Program,” 9/23/2008, www.newyorkfed.org/markets/st092308.html, accessed 6/9/2010.
336. 	   FRBNY, “Changes to SOMA Securities Lending Program,” 10/08/2009, www.newyorkfed.org/markets/st100808.html, accessed 6/9/2010.
337. 	   FRBNY, Announcements, “Change to SOMA Securities Lending Program,” 7/6/2009, www.newyorkfed.org/markets/st070709.html, accessed 6/15/2010.
338. 	   FRBNY, response to SIGTARP data call, 7/9/2010.
339. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
340. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
341. 	   For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WPDF.txt, accessed 7/6/2010; for closing date, see FRBNY, Monetary Policy,
         “Primary Dealer Credit Facility,” 2/5/2010, www.newyorkfed.org/markets /pdcf.html, accessed 6/10/2010.
342. 	   Federal Reserve Press Release: 3/18/2009, http://federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 6/10/2010.
343. 	   FRBNY, “FAQ: Purchasing Direct Obligations of Housing-Related GSEs,” 2/23/2010, www.newyorkfed.org/markets/gses_faq.html, accessed 6/10/2010.
344. 	   FRBNY, “FAQ: Purchasing Direct Obligations of Housing-Related GSEs,” 2/23/2010, www.newyorkfed.org/markets/gses_faq.html, accessed 6/10/2010.
345. 	   Week ending 6/30/2010: St. Louis Fed, www.research.stlousfed.org/fred2/data/WFEDSEC.txt, accessed 7/6/2010.
346. 	   Federal Reserve Press Release: 3/18/2009, http://federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 6/10/2010.
347. 	   Federal Reserve Press Release: 9/23/2009, http://federalreserve.gov/newsevents/press/monetary/20090923a.htm, accessed 6/10/2010.
348. 	   For balances, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WMBSEC.txt, accessed 7/6/2010; for program closure date, see Federal
         Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/
         monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/10/2010.
349. 	   Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.
         gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/10/2010.
350. 	   Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.
         gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/15/2010.
351. 	   For weekly amounts, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WLIQSWP.txt, accessed 7/6/2010; high-water mark amount pro-
         vided by FRBNY, response to SIGTARP data call, 7/10/2010.
352. 	   Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.
         gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/15/2010.
353. 	   Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.
         gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/15/2010.
354. 	   FRBNY Press Releases, “Reflections on the TALF and the Federal Reserve’s Role as Liquidity Provider,” 6/9/2010, www.newyorkfed.org/newsevents/speeches/2010/
         sac100609.html, accessed 6/21/2010.
355. 	   FRBNY, Federal Reserve Foreign Exchange Swap Agreements, 6/9/2010, www.newyorkfed.org/markets/fxswap/, accessed 6/15/2010.
356. 	   Federal Reserve Press Release: 3/18/2009, http://federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed 6/24/2010.
357. 	   For confirmation of end of program completion, see Federal Reserve Board of Governors, May 2010, “Federal Reserve System Monthly Report on Credit and Liquidity
         Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201005.pdf, accessed 6/15/2010; for confirmation of $300 billion in
         purchases since program initiation, see Federal Reserve Board of Governors, March 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and
         the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201003.pdf, accessed 6/30/2010.
358. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
359. 	   Federal Reserve Board, Statistical Release H.4.1, “Recent balance sheet trends,” 7/13/2010, www.federalreserve.gov/monetarypolicy/bst_recenttrends_accessible.htm,
         accessed 7/13/2010.
360. 	   Federal Reserve, response to SIGTARP data call, 7/10/2009.
361. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
362. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
363. 	   FRBNY, response to SIGTARP draft, 7/10/2010.
364. 	   FRBNY, response to SIGTARP draft, 7/10/2010.
365. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
366. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
367. 	   Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/mpr_20090225_appendixa.htm, accessed
         6/9/2010.
368. 	   Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.
         gov/monetarypolicy/files/monthlyclbsreport201006.pdf, accessed 6/23/2010; for Maiden Lane LLC’s market value, see Week ending 6/30/2010: St. Louis Fed, www.research.
         stlouisfed.org/fred2/data/WMAIDEN1.txt, accessed 7/6/2010.
369. 	   For maximum loan commitment amounts, see Federal Reserve, Monetary Policy Report to the Congress, Appendix A, 2/25/2009, www.federalreserve.gov/monetarypolicy/
         mpr_20090225_appendixa.htm accessed 6/9/2010; for borrowed amounts, see Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on
         Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201006.pdf, accessed 6/30/2010.
200              special inspector general I troubled asset relief program



      370. 	 For balance of loan to Maiden Lane II LLC, see Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs
             and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport201006.pdf, accessed 6/23/2010; for current fair market value of Maiden Lane II
             LLC’s assets, see Week ending 6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WMAIDEN2.txt, accessed 7/6/2010; for balance of loan to Maiden Lane
             III LLC, see Federal Reserve Board of Governors, June 2010, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” www.
             federalreserve.gov/monetarypolicy/files/monthlyclbsreport201006.pdf, accessed 6/23/2010; for current fair market value of Maiden Lane III LLC’s assets, see Week ending
             6/30/2010: St. Louis Fed, www.research.stlouisfed.org/fred2/data/WMAIDEN3.txt, accessed 7/6/2010.
      371. 	 Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns Companies Inc. Through
             JPMorgan Chase Bank, N.A.,” no date, www.federalreserve.gov/monetarypolicy/files/129bearstearnsbridgeloan.pdf, accessed 6/17/2009.
      372. 	 Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Bridge Loan to The Bear Stearns Companies Inc. Through
             JPMorgan Chase Bank, N.A.,” no date, www.federalreserve.gov/monetarypolicy/files/129bearstearnsbridgeloan.pdf, accessed 6/17/2009.
      373. 	 Treasury Press Release, “Treasury Announces Temporary Guarantee Program for Money Market Funds,” 9/29/2008, www.treas.gov/press/releases/hp1161.htm, accessed
             7/10/2010.
      374. 	 Treasury Press Release, “Treasury Announces Guaranty Program for Money Market Funds,” 9/18/2008, www.treasury.gov/press/releases/hp1147.htm, accessed 6/1/2010.
      375. 	 Federal Reserve Board Statistical Release Z.1, Flow of Funds Accounts of the United States, 6/11/2009, Table L.206, www.federalreserve.gov/releases/z1/20090611/z1.pdf,
             accessed 6/23/2010.
      376. 	 Treasury Press Release, “Treasury Announces Expiration of Guarantee Program for Money Market Mutual Funds,” 9/18/2009, www.treas.gov/press/releases/tg293.htm,
             accessed 6/1/2010.
      377. 	 White House, FY 2011 Budget, www.whitehouse.gov/omb/budget/fy2011/assets/gov.pdf, accessed 6/16/2010.
      378. 	 Data as of 3/31/2010. Federal Housing Finance Agency, “Capital Disclosures under Conservatorship (as of Q1 2010),” April 2010, www.fhfa.gov/webfiles/15747/
             1Q10CapitalDisclosure52010.pdf, accessed 6/30/2010.
      379. 	 Treasury, “MBS Purchase Program Fact Sheet,” 9/7/2008, www.ustreas.gov/press/releases/reports/mbs_factsheet_090708hp1128.pdf, accessed 6/23/2010.
      380. 	 Treasury, “Budget in Brief FY 2011,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2011/FY%202011%20BIB%20(2).pdf, accessed 6/8/2010.
      381. 	 Treasury, “MBS Purchase Program Fact Sheet,” 9/7/2008, www.ustreas.gov/press/releases/reports/mbs_factsheet_090708hp1128.pdf, accessed 6/16/2010.
      382. 	 For FY 2008 purchases, see Treasury, “Budget in Brief FY 2010,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2010/BIB-HousingGSE.pdf, accessed
             6/25/2009; for FY 2009 purchases and FY 2010 and FY 2011 purchase estimates, see Treasury, “Budget in Brief FY 2011,” www.ustreas.gov/offices/management/budget/
             budgetinbrief/fy2011/FY%202011%20BIB%20(2).pdf, accessed 6/8/2010.
      383. 	 For current amount, see Treasury, Monthly Treasury Statement, June 2010, www.fms.treas.gov/mts/mts0610.pdf, accessed 7/14/2010; for high-water mark amount, see
             Treasury, Monthly Treasury Statement, January 2010, www.fms.treas.gov/mts/mts0110.pdfwww.fms.treas.gov/mts/mts0110.pdf, accessed 6/16/2010.
      384. 	 Treasury, “Budget in Brief FY 2011,” www.ustreas.gov/offices/management/budget/budgetinbrief/fy2011/FY%202011%20BIB%20(2).pdf, accessed 6/8/2010.
      385. 	 Treasury, Part 2: Annual Performance Report 2009, 12/30/2009, www.treas.gov/offices/management/dcfo/accountability-reports/2009-par/Part_II_Annual_Performance_
             Report.pdf, accessed 6/8/2010.
      386. 	 House Committee on Financial Services Press Release, “Today: House to Consider H.R. 3221,” 7/23/2008, www.house.gov/apps/list/press/financialsvcs_dem/press072308.
             shtml, accessed 6/15/2010.
      387. 	 Treasury, Part 2: Annual Performance Report 2009, 12/30/2009, www.treas.gov/offices/management/dcfo/accountability-reports/2009-par/Part_II_Annual_Performance_
             Report.pdf, accessed 6/8/2010.
      388. 	 Treasury, Housing Government Sponsored Enterprise Programs, Mission Statement, no date, www.treas.gov/offices/management/budget/budget-documents/cj/2011/
             Housing%20GSE%20CJ%20508.pdf, accessed 6/16/2010.
      389. 	 Treasury Press Release, “Administration Completes Implementation of Initiative to Support State and Local Housing Finance Agencies,” 1/13/2010, www.financialstability.
             gov/latest/tg_01132010.html, accessed 6/1/2010; for closing date, see Treasury, Housing Government Sponsored Enterprise Programs, Mission Statement, no date,
             www.treas.gov/offices/management/budget/budget-documents/cj/2011/Housing%20GSE%20CJ%20508.pdf, accessed 6/16/2010.
      390. 	 Treasury Press Release, “Administration Completes Implementation of Initiative to Support State and Local Housing Finance Agencies,” 1/13/2010, www.financialstability.
             gov/latest/tg_01132010.html, accessed 6/1/2010; for closing date, see Treasury, Housing Government Sponsored Enterprise Programs, Mission Statement, no date,
             www.treas.gov/offices/management/budget/budget-documents/cj/2011/Housing%20GSE%20CJ%20508.pdf, accessed 6/16/2010.
      391. 	 Department of Housing and Urban Development, no date, “American Recovery and Reinvestment Act of 2009 — Program-Level Plan Community Development Block
             Grants (CDBG) Entitlement Grants,” http://portal.hud.gov/portal/page/portal/RECOVERY/PLANS/Community%20Development%20Block%20Grant%20(CDBG)%20
             Entitlement%20Grants.pdf, accessed 6/16/2010.
      392. 	 U.S. Congress, Joint Committee on Taxation, “Estimated Revenue Effects of Certain Revenue Provisions Contained in the Worker, Homeownership, and Business Assistance
             Act of 2009, 11/3/2009, accessed 7/8/2010.
      393. 	 Federal Register, Vol. 74, No. 10, 1/15/2009, “Notices” pp. 2518–2522, www.federalstudentaid.ed.gov/ffelp/library/EA43FedReg.pdf, accessed 6/23/2010.
      394. 	 Congressional Budget Office, March 2010, “Costs and Policy Options for Federal Student Loan Programs,” www.cbo.gov/ftpdocs/110xx/doc11043/03-25-StudentLoans.pdf,
             accessed 5/28/2010.
      395. 	 Department of Education, in response to SIGTARP data call, 7/5/2010.
      396. 	 For date of legislation, see U.S. Senate Republican Policy Committee, Legislative Notice, “H.R. 4872 Health Care and Education Affordability Reconciliation Act of 2010,”
             3/22/2010, http://rpc.senate.gov/public/_files/L35HR4872HealthCareReconciliation032210cj.pdf, accessed 6/16/2010; for end date of FFEL program, see Congressional
             Budget Office, March 2010, “Costs and Policy Options for Federal Student Loan Programs,” www.cbo.gov/ftpdocs/110xx/doc11043/03-25-StudentLoans.pdf, accessed
             5/28/2010.
      397. 	 Treasury, “Fact Sheet: IMF Reforms and New Arrangements to Borrow,” 5/18/2009, www.treas.gov/press/releases/tg136.htm, accessed 6/15/2010.
      398. 	 IMF Press Release, “IMF Executive Board Approves Major Expansion of Fund’s Borrowing Arrangements to Boost Resources for Crisis Resolution,” 4/12/2010, www.imf.org/
             external/np/sec/pr/2010/pr10145.htm, accessed 6/16/2010.
      399. 	 IMF Press Release, “Consents and Adherences to the Proposed Expansion of the Fund’s New Arrangements to Borrow (NAB),” 7/1/2010, www.imf.org/external/np/fin/misc/
             nab.htm, accessed 7/7/2010.
      400. 	 CNBC, “US Exposure to EU Bailout is Big, but Risk is Limited,” 5/11/2010, www.cnbc.com/id/37084075/US_Exposure_to_EU_Bailout_Is_Big_But_Risk_Is_Limited,
             accessed 6/1/2010.
      401. 	 FDIC Press Release, “Emergency Economic Stabilization Act of 2008 Temporarily Increases Basic FDIC Insurance Coverage from $100,000 to $250,000 Per Depositor,”
             10/7/2008, www.fdic.gov/news/news/press/2008/pr08093.html, accessed 6/16/2010.
      402. 	 Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019,” 1/2009, www.cbo.gov/ftpdocs/99xx/doc9958/01-08-Outlook_Testimony.pdf,
             accessed 6/16/2010.
      403. 	 FDIC, “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured, accessed 6/16/2010.
      404. 	 House Committee on Financial Services, “Dodd-Frank Wall Street Reform and Consumer Protection Act, Conference Report to Accompany H.R. 4173,” 6/29/2010,
             http://financialservices.house.gov/Key_Issues/Financial_Regulatory_Reform/conference_report_FINAL.pdf, accessed 7/10/2010.
                                                                                                              quarterly report to congress I july 21, 2010                           201


405. 	 Congressional Budget Office, “The Budget and Economic Outlook: Fiscal Years 2009-2019, 1/2009, www.cbo.gov/ftpdocs/99xx/doc9957/01-07-Outlook.pdf, accessed
       6/30/2010.
406. 	 FDIC, Chief Financial Officer’s Report to the Board, Fourth Quarter 2009, www.fdic.gov/about/strategic/corporate/cfo_report_4thqtr_09/1209_CFO_Report.pdf, accessed
       6/16/2010.
407. 	 FDIC, Chief Financial Officer’s Report to the Board, First Quarter 2010, www.fdic.gov/about/strategic/corporate/cfo_report_1stqtr_10/0310_CFO_Report.pdf, accessed
       7/7/2010.
408. 	 FDIC, Rules and Regulations, 11/17/2009, www.fdic.gov/regulations/laws/federal/2009/09finalAD51Nov17.pdf, accessed 6/10/2010.
409. 	 FDIC, Rules and Regulations, 11/17/2009, www.fdic.gov/regulations/laws/federal/2009/09finalAD51Nov17.pdf, accessed 6/10/2010.
410. 	 FDIC, “Chief Financial Officer’s Report to the Board-Fourth Quarter 2009,” 3/3/2010, www.fdic.gov/about/strategic/corporate/cfo_report_4thqtr_09/1209_CFO_Report.pdf,
       accessed 6/1/2010.
411. 	 FDIC Press Release, “FDIC Board of Directors Approves TLGP Final Rule,” 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/16/2010.
412. 	 FDIC Press Release, “FDIC Board of Directors Approves TLGP Final Rule,” 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/16/2010.
413. 	 FDIC Press Release, “FDIC Board of Directors Approves TLGP Final Rule,” 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/16/2010.
414. 	 FDIC Press Release, “FDIC Board of Directors Approves TLGP Final Rule,” 11/28/2008, www.fdic.gov/news/news/press/2008/pr08122.html, accessed 6/16/2010.
415. 	 FDIC, “Amendment of the Temporary Liquidity Guarantee Program To Extend the Debt Guarantee Program and To Impose Surcharges on Assessments for Certain Debt
       Issued on or After April 1, 2009,” 74 Federal Register 26,521–26,525, 6/3/2009, www.fdic.gov/regulations/laws/federal/2009/09FinalAD37.pdf, accessed 6/24/2009.
416. 	 FDIC, Chief Financial Officer’s Report to the Board, Fourth Quarter 2008, www.fdic.gov/about/strategic/corporate/cfo_report_4qtr_08/sum_trends_results.html, accessed
       6/16/2010.
417. 	 For current balance, see Federal Deposit Insurance Corporation, Monthly Reports on Debt Issuance Under the Temporary Liquidity Guarantee Program, 5/31/2010,
       www.fdic.gov/regulations/resources/tlgp/reports.html, accessed 7/7/2010; for program’s high point balance, see Federal Deposit Insurance Corporation, Monthly Reports on
       Debt Issuance Under the Temporary Liquidity Guarantee Program, 5/31/2009, www.fdic.gov/regulations/resources/tlgp/total_issuance5-09.html, accessed 6/16/2010.
418. 	 FDIC, “Your Insured Deposits,” www.fdic.gov/deposit/Deposits/insured, accessed 6/16/2010.
419. 	 FDIC, Financial Institution Letters, “Transaction Account Guarantee Extension Interim Final Rule,” 4/13/2010, www.fdic.gov/news/news/financial/2010/fil10015.html,
       accessed 6/16/2010.
420. 	 Data as of 3/31/2010, FDIC, “Quarterly Banking Profile: First Quarter 2010,” http://www2.fdic.gov/qbp/2010mar/qbp.pdf accessed 7/7/2010. Table III-C, p. 20.
421. 	 For 2008 amounts, see FDIC, Chief Financial Officer’s Report to the Board, Fourth Quarter 2008, www.fdic.gov/about/strategic/corporate/cfo_report_4qtr_08/sum_trends_
       results.html, accessed 6/30/2009 for 2009 amounts, see FDIC, Chief Financial Officer’s Report to the Board, First Quarter 2009, www.fdic.gov/about/strategic/corporate/
       cfo_report_1stqtr_09/corp_fund_fin_statement.html, accessed 6/30/2009. No payments have been made since First Quarter 2009.
422. 	 FDIC, 2008-2013 Strategic Plan, “The FDIC and the Banking Industry Perspective and Outlook,” no date, www.fdic.gov/about/strategic/strategic/bankingindustry.html,
       accessed 6/16/2010.
423. 	 FDIC, response to SIGTARP data call, 7/1/2010.
424. 	 FDIC, Loss-Share Questions and Answers, no date, www.fdic.gov/bank/individual/failed/lossshare/index.html, accessed 6/16/2010.
425. 	 FDIC, Loss-Share Questions and Answers, no date, www.fdic.gov/bank/individual/failed/lossshare/index.html, accessed 6/16/2010.
426. 	 FDIC, response to SIGTARP data call, 7/1/2010.
427. 	 FDIC, response to SIGTARP data call, 7/1/2010.
428. 	 Federal Housing Finance Agency, “About FHFA,” no date, www.fhfa.gov/Default.aspx?Page=4, accessed 6/28/09.
429. 	 Congressional Budget Office, “Federal Subsidies and the Housing GSEs, Appendix A: Responses to Analyses of the Congressional Budget Office’s 1996 Subsidy Estimates,”
       5/2001, www.cbo.gov/doc.cfm?index=2841&type=0&sequence=7, accessed 6/16/2010.
430. 	 For Freddie Mac totals, see Freddie Mac, “Monthly Volume Summary,” 4/30/2010, www.freddiemac.com/investors/volsum/pdf/0410mvs.pdf, accessed 6/3/2010; for Fannie
       Mae totals, see Fannie Mae, “Monthly Volume Statements,” 4/30/2010, www.fanniemae.com/ir/pdf/monthly/2010/043010.pdf, accessed 6/3/2010.
431. 	 Federal Home Loan Banks, Financial Summary, 3/31/2010, www.fhlb-of.com/analysis/pressframedyn2.html?source=q12010cfr051410.pdf, accessed 6/3/2010; for last year’s
       estimate, see Federal Housing Finance Agency (FHFA), “The Housing GSE’s,” Presentation by James Lockhart, Executive Director, 12/10/2008, www.fhfa.gov/webfi les/216/
       WHF121008webversion.pdf, accessed 6/16/2010.
432. 	 See SIGTARP’s January 2010 Quarterly Report, p. 122.
433. 	 National Credit Union Administration, “About NCUA,” no date, www.ncua.gov, accessed 6/16/2010.
434. 	 National Credit Union Administration, response to SIGTARP data call, 7/7/2010.
435. 	 National Credit Union Administration, “TCCULFP Notice,” www.ncua.gov/news/press_releases/2008/FINAL%20TCCULGP%20Fed%20Reg%20Notice%2011-12-2008.pdf,
       accessed 6/16/2010.
436. 	 National Credit Union Administration Media Advisory, “Fryzel Announces Extension of Temporary Corporate Credit Union Liquidity Guarantee Program,” 5/21/2009,
       www.ncua.gov/news/press_releases/2009/MA09-0521b.htm, accessed 6/16/2010.
437. 	 NCUA, Office of Public & Congressional Affairs, “Board Action Bulletin: NCUA Board Meeting Results for May 20, 2010,” 5/20/2010, www.ncua.gov/GenInfo/
       BoardandAction/reports/2010/BAB10-0520.pdf, accessed 6/2/2010.
438. 	 NCUA Press Release, “Revised Fact Sheet: Temporary Corporate Credit Union Share Guarantee Program,” 6/24/2009, www.ncua.gov/Resources/CorporateStabilization/
       RevisedFactSheet-DraftJune2009forShareGuarantee.docx, accessed 6/16/2010.
439. 	 NCUA Media Release, “Temporary Corporate Credit Union Share Guarantee Program Extended,” 6/2/2010, www.ncua.gov/news/press_releases/2010/MR10-0602TCCUSh
       areGuaranteeProgramExtended.pdf, accessed 6/2/2010.
440. 	 National Credit Union Administration, “National Credit Union Share Insurance Fund Preliminary Financial Highlights,” 4/30/2010, www.ncua.gov/Resources/Reports/
       ncusif/2010/10aprNetReport.pdf, accessed 6/16/2010.
441. 	 NCUA, Office of Public & Congressional Affairs, “Board Action Bulletin: NCUA Board Meeting Results for May 20, 2010,” 5/20/2010, www.ncua.gov/GenInfo/
       BoardandAction/reports/2010/BAB10-0520.pdf, accessed 6/2/2010.
442. 	 Credit Union National Association, Inc., “CUNA Issue Summary: Credit Liquidity Facility,” 2/19/2010, www.cuna.org/gov_affairs/legislative/issues/download/clf.pdf, accessed
       7/14/2010.
443. 	 NCUA, “Monthly CLF Reports,” 4/30/2010, www.ncua.gov/Resources/CLF/Files/CLF10-04.pdf, accessed 6/2/2010.
444. 	 Government National Mortgage Association, “About GNMA,” no date, www.ginniemae.gov/about/about.asp?section=about, accessed 6/16/2010.
445. 	 Office of Housing and Urban Development, Fiscal Year 2009 Report, 11/16/2009, p. 250, www.hud.gov/offices/cfo/reports/hudfy2009par.pdf, accessed 6/4/2010; for change
       since 2007, see Federal Housing Administration, “Message from the Chief Financial Officer,” 11/17/2008, p. 323, www.hud.gov/offices/cfo/reports/section3.pdf, accessed
       6/4/2010.
446. 	 Department of Veterans Affairs, Lender’s Handbook, VA Pamphlet 26-7, Ch. 3, “The VA Loan and Guaranty,” no date, www.warms.vba.va.gov/pam26_7.html, accessed
       7/10/2010.
447. 	 Department of Veterans Affairs, Lender’s Handbook, VA Pamphlet 26-7, Ch. 3, “The VA Loan and Guaranty,” no date, www.warms.vba.va.gov/pam26_7.html, accessed
       7/10/2010.
202                special inspector general I troubled asset relief program



      448. 	   Department of Veterans Affairs, response to SIGTARP data call, 7/10/2010.
      449. 	   Department of Veterans Affairs, response to SIGTARP data call, 7/10/2010.
      450. 	   Bowley, Graham, “Wall Street ’09 Bonuses Increase 17%,” New York Times, 2/23/2010, www.nytimes.com/2010/02/24/business/24bonus.html, accessed 6/3/2010.
      451. 	   Dash, Eric, “4 Big Banks Score Perfect 61-Day Run,” New York Times, 5/11/2010, www.nytimes.com/2010/05/12/business/12bank.html, accessed 6/23/2010.
      452. 	   Board of Governors of the Federal Reserve System, Appendix, Glossary of Terms, no date, www.federalreserve.gov/pf/pdf/pf_appendixes.pdf, accessed 6/3/2010.
      453. 	   Board of Governors of the Federal Reserve System, Open market operations, 1/21/2010, www.federalreserve.gov/monetarypolicy/bst_openmarketops.htm, accessed
               6/15/2010.
      454. 	   WSJPrimerate.US, “The Federal Funds Rate, 2009,” www.wsjprimerate.us/fedfundsrate/index.html, accessed 6/15/2010.
      455. 	   Board of Governors of the Federal Reserve System, Federal Open Market Committee, “About the FOMC,” 1/21/2010, www.federalreserve.gov/monetarypolicy/fomc.htm,
               accessed 6/10/2010.
      456. 	   Board of Governors of the Federal Reserve System, Open market operations, 1/26/2010, www.federalreserve.gov/monetarypolicy/openmarket.htm#2007, accessed 6/24/2010.
      457. 	   Board of Governors of the Federal Reserve System, Credit and Liquidity Programs and the Balance Sheet, The Federal Reserve’s response to the crisis, 2/5/2010,
               www.federalreserve.gov/monetarypolicy/bst_crisisresponse.htm, accessed 5/26/2010.
      458. 	   Board of Governors of the Federal Reserve System, Credit and Liquidity Programs and the Balance Sheet, The Federal Reserve’s response to the crisis, 2/5/2010,
               www.federalreserve.gov/monetarypolicy/bst_crisisresponse.htm, accessed 5/26/2010.
      459. 	   Board of Governors of the Federal Reserve System, Appendix, Glossary of Terms, no date, www.federalreserve.gov/pf/pdf/pf_appendixes.pdf, accessed 6/3/2010;
               www.investorwords.com/1901/Federal_funds.html.
      460. 	   Federal Reserve, Appendix, Glossary of Terms, no date, www.federalreserve.gov/pf/pdf/pf_appendixes.pdf, accessed 6/3/2010.
      461. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      462. 	   FRBNY, Federal Funds, August 2007, www.newyorkfed.org/aboutthefed/fedpoint/fed15.html, accessed 6/23/2010.
      463. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      464. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      465. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      466. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      467. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010.
      468. 	   Keister, Todd and McAndrews, James, FRBNY, Current Issues in Economics and Finance, Volume 15, Number 8, “Why are Banks Holding So Many Excess Reserves?”
               12/2009, www.newyorkfed.org/research/current_issues/ci15-8.pdf, accessed 6/23/2010; Board of Governors of the Federal Reserve System Press Release, Untitled,
               10/6/2008, www.federalreserve.gov/monetarypolicy/20081006a.htm, accessed 6/23/2010.
      469. 	   Board of Governors of the Federal Reserve System, H.15 Selected Interest Rates, Federal Funds Rate, 1954-2010, Daily, www.federalreserve.gov/datadownload/Download.
               aspx?rel=H15&series=c5025f4bbbed155a6f17c587772ed69e&filetype=csv&label=include&layout=seriescolumn&from=01/01/1954&to=06/30/2010, accessed 7/8/2010.
      470. 	   Board of Governors of the Federal Reserve System Press Release, Untitled, 6/23/2010, federalreserve.gov/newsevents/press/monetary/20100623a.htm, accessed 6/23/2010.
      471. 	   Board of Governors of the Federal Reserve System Press Release, Untitled, 6/23/2010, federalreserve.gov/newsevents/press/monetary/20100623a.htm, accessed 6/23/2010.
      473. 	   Board of Governors of the Federal Reserve System, “The April 2010 Senior Loan Officer Opinion Survey on Lending Practices,” 5/3/2010, www.federalreserve.gov/
               boarddocs/snloansurvey/201005/default.htm, accessed 6/24/2010; Aversa, Jeannine, “Fed: Banks see loan demand from consumers and businesses weaken,” USA Today,
               5/3/2010, www.usatoday.com/money/industries/banking/2010-05-03-bank-loan-demand_N.htm, accessed 6/24/2010; Reuter’s, “Home loan demand drops even as rates fall,”
               6/23/2010, www.reuters.com/article/idUSTRE65M1RO20100623, accessed 6/24/2010.
      474. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      475. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      476. 	   Treasury, response to SIGTARP data call, 7/7/2010.
      477. 	   Treasury, response to SIGTARP data call, 7/7/2010.
      478. 	   Treasury, response to SIGTARP data call, 7/7/2010.
      479. 	   Treasury, response to SIGTARP data call, 7/7/2010.
      480. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      481. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.


      APPENDICES
      A.	      Glossary*	                                                                                         203
      B.	      Acronyms and Abbreviations*	                                                                       205
      C.	      Reporting Requirements	                                                                            208
      D.	      Transaction Detail	                                                                                212
      E.	      Public Announcements of Audits*	                                                                   260
      F.	      Key Oversight Reports and Testimonies*	                                                            261
      G.	      Correspondence	                                                                                    267
      H.	      Organizational Chart	                                                                              284


      * 	Visit www.sigtarp.gov to view Appendix A: Glossary, Appendix B: Acronyms and Abbreviations,
         Appendix E: Public Announcement of Audits, Appendix F: Key Oversight Reports and
         Testimonies, and for further reference material.
                                                                                                             glossary I Appendix A I JULY 21, 2010              203




glossary
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: SBA program combin-                     requirements to borrow funds from banks with excess reserves.
ing Government-guaranteed loans with private-sector mortgage loans to
provide loans of up to $10 million for community development.                   Federal Funds Rate: Rate charged by a depository institution on an
                                                                                overnight loan of federal funds to another depository institution; the rate
7(a) Program: SBA loan program guaranteeing a percentage of loans               may vary from day to day and from bank to bank.
for small businesses that cannot otherwise obtain conventional loans at
reasonable terms.                                                               Federal Funds Transactions: Short-term transactions in immediately
                                                                                available funds — made between depository institutions and certain other
Asset Backed Securities (“ABS”): Bonds backed by a portfolio of non-            institutions that maintain accounts with the Federal Reserve — that
mortgage consumer or corporate loans, e.g., credit card, auto, or small         involve lending balances at the Federal Reserve; such transactions are
business loans. Financial companies typically issue ABS backed by exist-        usually not collateralized.
ing loans in order to fund new loans for their customers.
                                                                                Haircut: Difference between the value of the collateral and the value of
Auction Agent: Firms (such as investment banks) that buy a series of            the loan (the loan value is less than the collateral value).
securities from one institution for resale — also called “underwriters.”
                                                                                Illiquid Assets: Assets that cannot be quickly converted to cash.
Collateral: Asset pledged by a borrower to a lender until a loan is repaid.
                                                                                Legacy Assets: Commonly called troubled or toxic assets, these are real
Commercial Mortgage-Backed Securities (“CMBS”): Bonds backed by                 estate-related loans and securities issued before the financial institutions’
one or more mortgages on commercial real estate (e.g., office buildings,        balance sheets. Legacy assets lost significant value at the onset of the
rental apartments, hotels) rather than by residential real estate loans.        financial crisis and were difficult to price because of market disruption.

Common Stock: Equity ownership entitling an individual to share in              Legacy Securities: Real estate-related securities lingering on the balance
corporate earnings and voting rights.                                           sheets of financial institutions because of pricing difficulties resulting
                                                                                from market disruption.
Community Development Financial Institutions (“CDFIs”): Financial
institutions eligible for Treasury funding to serve the CDCI’s targeted         Limited Partnership: Partnership in which there is at least one partner
demographic under the CDFI Fund. CDFIs were created in 1994 by the              whose liability is limited to the amount invested (limited partner), and
Riegle Community Development and Regulatory Improvement Act.                    at least one partner whose liability extends beyond monetary investment
                                                                                (general partner).
Cumulative Preferred Stock: Stock requiring a defined dividend pay-
ment. If the company does not pay the dividend on schedule, it still owes       London Interbank Offered Rate (“LIBOR”): Interest rate that large
the missed dividend to the preferred stock’s owner.                             banks in London charge each other for dollar-denominated funds.

Custodian Bank: Bank (for TALF the custodian is BNY Mellon) holding             Mandatorily Convertible Preferred Stock (“MCP”): Preferred share
the collateral and managing accounts for FRBNY.                                 that can be converted to common stock at the issuer’s discretion if spe-
                                                                                cific criteria are met by a certain date.
Debtor-in-Possession (“DIP”): Company operating under Chapter 11
bankruptcy protection that technically still owns its assets but is operat-     Monetary Policy: Measures undertaken by a central bank, such as the
ing them to maximize the benefit to its creditors.                              Federal Reserve, to influence the availability and cost of money and credit
                                                                                to help promote national economic goals.
Dutch Auction: For a Treasury warrant auction (which has multiple bid-
ders bidding for different quantities of the asset) the accepted price is set   Nationally Recognized Statistical Rating Organization (“NRSRO”):
at the lowest bid of the group of high bidders, whose collective bids fulfill   Credit rating agency registered with the SEC. Credit rating agencies pro-
the amount offered by Treasury.                                                 vide their opinion on the creditworthiness of companies and the financial
                                                                                obligations issued by companies. The ratings distinguish between invest-
Equity Capital Facility: Commitment to invest equity capital in a firm          ment grade and non-investment grade equity and debt obligations.
under certain future conditions.
                                                                                Non-Agency Residential Mortgage- Backed Securities (“non-agency
Exceptional Assistance Recipients: Companies receiving assistance un-           RMBS”): Financial instrument backed by a group of residential real
der SSFI, TIP, AIFP, and any future Treasury program designated by the          estate mortgages not guaranteed by a Government-sponsored enterprise,
Treasury Secretary as providing exceptional assistance. Current recipients      such as the Federal National Mortgage Association (“Fannie Mae”) or the
are AIG, Chrysler, GM, and Ally Financial (formerly GMAC).                      Federal Home Loan Mortgage Corporation (“Freddie Mac”).

Excess Reserves: Balances held in within the Federal Reserve System             Non-cumulative Preferred Stock: Type of preferred stock that also
excess of the required reserve and any other contractually required bal-        features a defined dividend but the company has no obligation to pay any
ances.                                                                          dividends it misses.

Federal Funds: Funds deposited by commercial banks at the Federal               Non-recourse Loan: Secured loan whereby the borrower is relieved of
Reserve banks, thereby enabling banks temporarily falling short of reserve      the obligation to repay the loan upon surrender of the collateral.
204             Appendix a I glossary I JULY 21, 2010




      Open Market Operations (“OMO”): OMOs involve the purchase and                    Senior Subordinated Debenture: Debt instrument ranking below senior
      sale of securities in the open market by a central bank. These transactions      debt but above equity with regard to investors’ claims on company assets
      are a key tool used by the Federal Reserve to adjust the supply of reserve       or earnings. Senior debt holders are paid in full before subordinated debt
      balances so as to keep the effective federal funds rate near the target rate.    holders are paid. There may be additional distinctions of priority among
      OMOs are conducted by the trading desk at the Federal Reserve Bank of            subordinated debt holders.
      New York.
                                                                                       Skin in the Game: Equity stake in an investment; down payment; the
      Preferred Stock: Equity ownership that usually pays a fixed dividend             amount an investor can lose.
      prior to distributions for common stock owners but only after payments
      due to holders of debt and depositors. It typically confers no voting rights.    Special Purpose Vehicle (“SPV”): Off-balance-sheet legal entity that
      Preferred stock also has priority over common stock in the distribution of       holds the transferred assets presumptively beyond the reach of the enti-
      assets when a bankrupt company is liquidated.                                    ties providing the assets, and is legally isolated.

      Pro Rata: Refers to dividing something among a group according to the            Spread: Difference between two interest rates or the excess of return on
      proportionate share that each participant holds as a part of the whole.          a particular security or instrument relative to a benchmark.

      Prompt Corrective Action Order: Federal law requires that Federal                Synthetic ABS: Security deriving its value and cash flow from sources
      bank regulators take necessary actions to resolve the problems of insured        other than from a physical set of reference assets.
      depository institutions at the least possible long-term loss to the Deposit
      Insurance Fund.                                                                  Systemically Significant: Term referring to any financial institution
                                                                                       whose failure would impose significant losses on creditors and counter-
      Public Interest Standard: Regulatory standard that the Special Master is         parties, call into question the financial strength of similar institutions,
      required to apply in making determinations. It refers to the determination       disrupt financial markets, raise borrowing costs for households and busi-
      of whether TARP-recipient compensation plans are aligned with the best           nesses, and reduce household wealth (also commonly used to describe
      interests of the U.S. taxpayer, based on a balancing of specific principles      institutions known as “too big to fail”).
      set forth in the Rule.
                                                                                       TALF Agent: Financial institution that is party to the TALF Master Loan
      Quantitative Easing: Monetary policy used occasionally in which the              and Security Agreement and which occasionally acts as an agent to the
      Government increases the money supply by buying Government or other              borrower. TALF Agents include primary and nonprimary broker-dealers.
      securities from the market. Quantitative easing aims to increase the
      money supply by flooding financial institutions with reserves in an effort       Total Risk-Weighted Assets: Financial institutions’ total assets after
      to promote lending and liquidity. Such actions are conducted through             making adjustments based on each individual asset’s risk factor.
      OMOs.
                                                                                       Trial Modification: Under the design of HAMP, a trial modification is
      Required Reserves: Balances held within the Federal Reserve System to            generally intended to last three months.
      satisfy reserve requirements.
                                                                                       Trust Preferred Securities: Securities that have both equity and debt
      Reserve Requirements: Amount of money a depository institution must              characteristics created by establishing a trust and issuing debt to it.
      keep in reserve against specified deposit liabilities. The reserves must be
      in the form of vault cash or deposits held at the Federal Reserve banks.         Undercapitalized: Condition in which a financial institution does not
                                                                                       meet its regulator’s requirements for sufficient capital to operate under a
      Residential Mortgage-Backed Securities (“RMBS”): Bonds backed by                 defined level of adverse conditions.
      a pool of mortgages for residential real estate (e.g., home mortgages for
      residences occupied by up to four families) rather than by commercial            Under-Served Communities: Either geographic areas or demographic
      real estate loans.                                                               groups that Treasury’s CDFI Fund division determines lack adequate ac-
                                                                                       cess to financial services.
      Revolving Credit Facility: Line of credit for which the borrower pays a
      commitment fee and is then allowed to use up to a guaranteed maximum             Underwater Mortgage: When a homeowner owes more on the mortgage
      amount of funds as needed.                                                       than the home is worth. When a home’s value drops and/or when mort-
                                                                                       gage debt increases significantly, the homeowner has “negative equity” in
      SBA Pool Certificate: Ownership interest in a bond backed by SBA-                that home.
      guaranteed loans.
                                                                                       Warrant: Right, but not an obligation, to purchase a certain number of
      Senior Executive Officer (“SEO”): “Named executive officer” of a                 shares of common stock at a fixed price. Because warrants rise in value as
      TARP recipient as defined under Federal securities law, which generally          the company’s share price rises, Treasury (and the taxpayer) can benefit
      includes the principal executive officer, principal financial officer, and the   from a firm’s potential recovery.
      next three most highly compensated executive officers.

      Senior Preferred Stock: Shares that give the stockholder priority
      dividend and liquidation claims over junior preferred and common
      stockholders.
                                                                                Acronyms and abbreviations I Appendix B I july 21, 2010            205




Acronyms and Abbreviations

2MP                Second Lien Modification Program                    DGP                Debt Guarantee Program
ABCP               asset-backed commercial paper                       DIF                Deposit Insurance Fund
ABS                asset-backed securities                             DIL                deed-in-lieu of foreclosure
AGP                Asset Guarantee Program                             DIP                debtor-in-possession
AHR                American Home Recovery                              DOJ                Department of Justice
AIA                AIA Group, Limited                                  DTI                debt-to-income ratio
AIFP               Automotive Industry Financing Program               ECASLA             Ensuring Continued Access to Student Loans Act
                                                                                          of 2008
AIG                American International Group, Inc.
                                                                       EESA               Emergency Economic Stabilization Act of 2008
ALICO              American Life Insurance Company
Ally Financial     Ally Financial Inc. (formerly GMAC Inc.)            Fannie Mae         Federal National Mortgage Association

AMLF               Asset-Backed Commercial Paper Money Market Mutual   FBI                Federal Bureau of Investigation
                   Fund Liquidity Facility                             FDIC               Federal Deposit Insurance Corporation
APR                annual percentage rate                              FDIC OIG           Office of the Inspector General of the Federal Deposit
ARM                adjustable-rate mortgage                                               Insurance Corporation

ARRA               American Recovery and Reinvestment Act of 2009      Federal Reserve    Federal Reserve System

ASSP               Auto Supplier Support Program                       FFEL               Federal Family Education Loan

AWCP               Auto Warranty Commitment Program                    FFETF              Financial Fraud Enforcement Task Force

Bank of America Bank of America Corporation                            FFR                federal funds rate

BlackRock          BlackRock Financial Management, Inc.                FHA                Federal Housing Administration

CAP                Capital Assistance Program                          FHFA               Federal Housing Finance Agency

CBO                Congressional Budget Office                         FHLB               Federal Home Loan Bank

CDBG               Community Development Block Grant                   FOMC               Federal Open Market Committee

CDCI               Community Development Capital Initiative            FRBNY              Federal Reserve Bank of New York

CDFI               Community Development Financial Institution         Freddie Mac        Federal Home Loan Mortgage Corporation

CEO                chief executive officer                             FTC                Federal Trade Commission

CGI Holding        CGI Holding LLC                                     GAO                Government Accountability Office

Chrysler Financial Chrysler Financial Services Americas LLC            GM                 General Motors Corporation

Citigroup          Citigroup, Inc.                                     GMAC               GMAC Inc.

CMBS               commercial mortgage-backed securities               GNMA               Government National Mortgage Association

Colonial           Colonial Bancgroup                                  GSE                Government-sponsored enterprise

COP                Congressional Oversight Panel                       HAFA               Home Affordable Foreclosure Alternatives

CP                 commercial paper                                    HAMP               Home Affordable Modification Program

CPFF               Commercial Paper Funding Facility                   HARP               Homeowners’ Affordability Relief Program

CPP                Capital Purchase Program                            HERA               Housing and Economic Recovery Act

CUSIP              Credit Union System Investment Program              HFA                Housing Finance Agency

DDA                Demand Deposit Account                              HHF                Hardest Hit Fund
206             Appendix B I Acronyms and abbreviations I july 21, 2010




      HPDP                Home Price Decline Protection                           OMB               Office of Management and Budget
      HUD                 Department of Housing and Urban Development             Omni              Omni National Bank
      HUD OIG             Office of the Inspector General of the Department       OMO               open market operations
                          of Housing and Urban Development
                                                                                  Pacific           Pacific Capital Bancorp of Santa Barbara California
      IG                  Inspector General
                                                                                  PDCF              Primary Dealer Credit Facility
      ILFC                International Lease Finance Corporation
                                                                                  PPIF              Public-Private Investment Fund
      IMF                 International Monetary Fund
                                                                                  PPIP              Public-Private Investment Program
      Initial Report      SIGTARP’s Initial Report to Congress
                                                                                  PRA               Principal Reduction Alternative
      IOLTA               Interest on Lawyers Trust Accounts
                                                                                  Prudential        Prudential PLC, Inc.
      IPO                 initial public offering
                                                                                  PSPA              preferred stock purchase agreement
      IRA                 Individual Retirement Account
                                                                                  QFI               qualifying financial institution
      IRS                 Internal Revenue Service
                                                                                  REPOS             repurchase agreements
      IRS-CI              Internal Revenue Service Criminal Investigations
                          Division                                                RMBS              residential mortgage-backed securities

      LIBOR               London Interbank Offered Rate                           S&P               Standard & Poor’s

      LLC                 limited liability company                               SBA               Small Business Administration

      LTV                 loan-to-value ratio                                     SBIC              Small Business Investment Company

      MBS                 mortgage-backed securities                              SBLF              Small Business Lending Fund

      MCP                 mandatorily convertible preferred shares                SEC               Securities and Exchange Commission

      Merrill Lynch       Merrill Lynch & Co. Inc.                                SEO               senior executive officer

      MHA                 Making Home Affordable Program                          SIGTARP           Special Inspector General for the Troubled Asset Relief
                                                                                                    Program
      Midwest             Midwest Banc Holdings, Inc.
                                                                                  SOMA              System Open Market Account
      MMIFF               Money Market Investor Funding Facility
                                                                                  South Financial   South Financial Group Inc.
      MMMF                Money Market Mutual Fund program
                                                                                  Special Master    Office of the Special Master for the Troubled Asset
      MVMC                Mt. Vernon Money Center                                                   Relief Program
      Nan Shan            Nan Shan Insurance Ltd.                                 SPV               special purpose vehicle
      NCUA                National Credit Union Administration                    SS/DIL            Short Sales/Deed-In-Lieu of Foreclosure program
      NCUSIF              National Credit Union Share Insurance Fund              SSFI              Systemically Significant Failing Institutions program
      New Chrysler        Chrysler Group LLC                                      Sterling          Sterling Financial Corporation
      NIBP                New Issuance Bond Program                               STPP              Short Term Purchase Program
      Non-Agency RMBS non-agency residential mortgage-backed securities           TAF               Term Auction Facility
      NPV                 net present value                                       TAG               Transaction Account Guarantee
      NRSRO               nationally recognized statistical rating organization   TALF              Term Asset-Backed Securities Loan Facility
      Ocala Funding       Ocala Funding, LLC                                      TARP              Troubled Asset Relief Program
      OCC                 Office of the Comptroller of the Currency               TCCULGP           Temporary Corporate Credit Union Liquidity Guarantee
                                                                                                    Program
      OFS                 Office of Financial Stability
                                                                                  TCCUSF            Temporary Corporate Credit Union Stabilization Fund
      Old Chrysler        Chrysler LLC
                                                                   Acronyms and abbreviations I Appendix B I july 21, 2010   207




TCCUSGP         Temporary Corporate Credit Union Share Guarantee
                Program
TCLP            Temporary Credit and Liquidity Program
TD              Toronto-Dominion Bank
THL             Thomas H. Lee Partners L.P.
TIP             Targeted Investment Program
TLGP            Temporary Liquidity Guarantee Program
TOP             Term Securities Lending Facility Options Program
TPP             Treasuries Purchase Program
Treasury        U.S. Department of the Treasury
TSLF            Term Securities Lending Facility
UAW             United Auto Workers
UCSB            Unlocking Credit for Small Businesses
UGC             United Guaranty Corporation
UP              Home Affordable Unemployment Program
UPB             unpaid principal balance
USPIS           U.S. Postal Inspection Service
VA              U.S. Department of Veterans Affairs
Warbug Pincus   Warbug Pincus Investments
208            Appendix C I Reporting Requirements I july 21, 2010




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in the Emergency Economic Stabilization Act of 2008
      section 121, as well as a cross-reference to related data presented in this report and prior reports. Italics style indicates
      narrative taken verbatim from source documents.



           EESA        EESA Reporting                                                                                                            SIGTARP
       #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of     Treasury posts several documents on its public website that are responsive to this question,         Section 2:
           121(c)(A)   the categories of    available at http://www.financialstability.gov/latest/reportsanddocs.html. Specifically,             “TARP Overview”
                       troubled assets      tranche reports and reports required under section 105(a) of the Emergency Economic
                       purchased or         Stabilization Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled         Appendix D:
                       otherwise procured   asset purchases. The transaction reports describe these purchases in detail, including               “Transaction
                       by the Secretary.    the type of asset purchased, the identity of the institution selling the asset, and the price        Detail”
                                            Treasury paid for the asset.

                                            We describe assets purchased under TARP during the period from April 1, 2010 through
                                            June 30, 2010 in the Monthly 105(a) reports for April 2010, May 2010 and June 2010
                                            and in separate transaction reports posted on http://www.financialstability.gov/latest/
                                            reportsanddocs.html. The most recent Monthly 105(a) report for June 2010 will be posted
                                            on July 12.

                                            Below are program descriptions from Treasury’s FinancialStability.gov website, as of
                                            6/30/2010:
                                            CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                            financial system by providing capital to viable financial institutions of all sizes throughout the
                                            nation. With a strengthened capital base, financial institutions have an increased capacity to
                                            lend to U.S. businesses and consumers and to support the U.S. economy.
                                            SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                            stability and prevent disruptions to financial markets from the failure of institutions that are
                                            critical to the functioning of the nation’s financial system.
                                            AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                            by financial institutions that are critical to the functioning of the nation’s financial system,
                                            which face a risk of losing the critical confidence that is needed for them to continue to lend
                                            to other banks.
                                            TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                            tem by making investments in institutions that are critical to the functioning of the financial
                                            system. This program focuses on the complex relationships and reliance of institutions
                                            within the financial system. Investments made through the TIP seek to avoid significant mar-
                                            ket disruptions resulting from the deterioration of one financial institution that can threaten
                                            other financial institutions and impair broader financial markets and pose a threat to the
                                            overall economy.
                                                                                          Reporting Requirements I Appendix C I july 21, 2010        209



    EESA        EESA Reporting                                                                                                      SIGTARP
#   Section     Requirement          Treasury Response to SIGTARP Data Call                                                         Report Section
                                     TALF: The TALF is designed to increase credit availability and support economic activity by
                                     facilitating renewed issuance of consumer and small business ABS at more normal interest
                                     rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                     non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Trea-
                                     sury’s Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt
                                     in an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                     the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                     between the FRBNY and the U.S. Treasury.
                                     PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                     purchase troubled legacy securities that are central to the problems currently impacting the
                                     U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                     Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                     private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                     invest in securities backed directly by mortgages that span the residential credit spectrum
                                     (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                     CDCI: In February 2010, Treasury announced the Community Development Capital Initiative
                                     (CDCI) to improve access to credit for small businesses. Through this TARP program, Trea-
                                     sury will invest lower-cost capital in Community Development Financial Institutions (CDFIs)
                                     that lend to small businesses in the country’s hardest-hit communities.
                                     UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                     SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                     securities to ensure that community banks and credit unions feel confident in extending new
                                     loans to local businesses.
                                     AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                     motive industry, which would pose a systemic risk to financial market stability and have
                                     a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                     provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                     Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                     event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                     automobile industry forged a path for these companies to go through orderly restructurings
                                     and achieve viability.
                                     ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                     confidence they need to continue shipping parts, pay their employees and continue their
                                     operations.
                                     AWCP: The Treasury Department announced an innovative new program to give consumers
                                     who are considering new car purchases the confidence that even in this difficult economic
                                     period, their warrantees will be honored. This program is part of the Administration’s
                                     broader program to stabilize the auto industry and stand behind a restructuring effort that
                                     will result in stronger, more competitive and viable American car companies.
                                     HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                     goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                     communities. This program will bring together lenders, investors, servicers, borrowers,
                                     and the government, so that all stakeholders share in the cost of ensuring that responsible
                                     homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                     million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                     and helping to avoid further downward pressures on overall home prices.
2   Section     A listing of the     Information on all transactions as well as additional information about these programs and     Appendix D:
    121(c)(B)   troubled assets      related purchases is available in the transaction reports and monthly 105(a) reports posted    “Transaction
                purchased in each    at http://www.financialstability.gov/latest/reportsanddocs.html.                               Detail”
                such category
                described under
                section 121(c)(A).
210           Appendix C I Reporting Requirements I july 21, 2010




          EESA        EESA Reporting                                                                                                           SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
      3   Section     An explanation of       Pursuant to Section 3(9)(B) of EESA, the Secretary fo the Treasury periodically designates fi-   Section 2: “TARP
          121(c)(C)   the reasons the         nancial instruments as “troubled assets” and submitts written determinations to appropriate      Overview”
                      Secretary deemed        committees of Congress. During the second quarter 2010, the Secretary of the Treasury
                      it necessary to pur-    signed the Troubled Asset Determinations for the CDCI and HFA Fund programs. Treasury            Appendix C:
                      chase each such         provided SIGTARP with all troubled asset determinations signed by the Secretary of Trea-         “Reporting
                      troubled asset.         sury since Treasury responded to SIGTARP data call on April 8, 2010. Additiona information       Requirements”
                                              on the TARP program associated with these “troubled assets,” including each program’s            of prior SIGTARP
                                              scope and purpose, can be found online at www.financialstability.gov/roadtostability/index.      Quarterly Reports
                                              html.                                                                                            to Congress
      4   Section     A listing of each       See #2 above                                                                                     See #2
          121(c)(D)   financial institution
                      that such troubled
                      assets were pur-
                      chased from.
      5   Section     A listing of and        There have been no new PPIP fund managers hired between April 1, 2010 and June 30,               Section 2.5: “Au-
          121(c)(E)   detailed biographi-     2010.                                                                                            tomotive Industry
                      cal information on                                                                                                       Support Program”
                      each person or          On May 17, 2010, the Treasury engaged Lazard Frères & Co. LLC (Lazard) as a financial
                      entity hired to man-    agent and capital markets disposition agent in connection with its investments under the         Appendix C:
                      age such troubled       Automotive Industry Financing Program (AIFP). Lazard is a global financial services firm         “Reporting
                      assets.                 providing investment banking, securities, investment management and wealth management            Requirements”
                                              services.                                                                                        of prior SIGTARP
                                                                                                                                               Quarterly Reports
                                              Lazard, acting as Treasury’s capital markets disposition agent, will perform various services    to Congress
                                              related to the disposition of such investments, including:

                                              • Analyzing, reviewing and documenting financial, corporate, and business information
                                              related to potential transactions under AIFP,
                                              • Reporting on the potential performance of designated AIFP investments and their disposi-
                                              tion given a range of market scenarios and transaction structure,
                                              • Analyzing and reviewing disposition alternatives and structures including the use of
                                              underwriters, brokers or other capital market advisors for the best means and structure to
                                              dispose of assets, and,
                                              • Maintaining a compliance program designed to detect and prevent violations of Federal
                                              securities laws, and identifying, documenting, and enforcing controls to mitigate conflicts of
                                              interest.

                                              Additionally, Lazard is required to permit the Treasury’s internal and external auditors, or
                                              other governmental oversight entities, to audit books and records related to their services
                                              provided to Treasury under the terms of their Financial Agency Agreement (FAA) with the
                                              Treasury. The FAA is available on our website at http://www.financialstability.gov/impact/
                                              contractDetail2.html.

      6   Section     A current estimate      This information is contained in our transaction reports, which are posted on Treasury’s         Table C.1;
          121(c)(F)   of the total amount     website at http://www.financialstability.gov/latest/reportsanddocs.html. The transactions        Section 2: “TARP
                      of troubled assets      report captures the total obligation under each TARP program.                                    Overview”
                      purchased pursu-
                      ant to any program      Information on the repayments of Treasury’s investments under the CPP and proceeds               Appendix D:
                      established under       from the sale of warrants are available within Treasury’s press releases, transactions           “Transaction
                      section 101, the        reports and 105(a) Monthly Reports to Congress at http://www.financialstability.gov/latest/      Detail”
                      amount of troubled      pressreleases.html and http://www.financialstability.gov/latest/reportsanddocs.html.
                      assets on the
                      books of Treasury,
                      the amount of
                      troubled assets
                      sold, and the profit
                      and loss incurred
                      on each sale or
                      disposition of each
                      such troubled
                      asset.
                                                                                                                            Reporting Requirements I Appendix C I july 21, 2010                             211



        EESA            EESA Reporting                                                                                                                                             SIGTARP
 #      Section         Requirement                  Treasury Response to SIGTARP Data Call                                                                                        Report Section
 7      Section         A listing of the             There have been no new insurance contracts issued under TARP from April 1, 2010 to                                            Section 2:
        121(c)(G)       insurance con-               June 30, 2010.                                                                                                                “TARP Overview”
                        tracts issued under
                        section 102.                                                                                                                                               Section 2:
                                                                                                                                                                                   “Targeted Invest-
                                                                                                                                                                                   ment Program and
                                                                                                                                                                                   Asset Guarantee
                                                                                                                                                                                   Program”
 8      Section         A detailed                   Treasury provides information about TARP purchases, obligations, expenditures, and                                            Table C.1,
        121(f)          statement of                 revenues on Treasury’s public website at www.financialstability.gov . Treasury posts a trans-                                 Section 2:
                        all purchases,               action report for each purchase of troubled assets two business days after the transaction.                                   “TARP Overview”
                        obligations, expen-          Treasury also posts a detailed financial statement as part of its monthly Congressional
                        ditures, and rev-            report under section 105(a) of EESA. The next section 105(a) report will be posted on the                                     Section 4: “TARP
                        enues associated             Financial Stability website on July 12, 2010.                                                                                 Operations and
                        with any program                                                                                                                                           Administration”
                        established by the           The transactions reports and TARP Budget capture detailed information about TARP
                                                                                                                                                                                   Appendix D:
                        Secretary of the             purchases, obligations, expenditures, and revenues. The latest transactions reports are
                                                                                                                                                                                   “Transaction
                        Treasury under               available on Treasury’s public website at http://www.financialstability.gov/latest/reportsand-
                                                                                                                                                                                   Detail”
                        sections 101 and             docs.html
                        102.
 Sources: Treasury, responses to SIGTARP data call, 6/30/2010 and 7/7/2010; Program Descriptions: Treasury, “Programs” webpage, www.financialstability.gov/roadtostability/programs.htm, accessed
 4/9/2010; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed 6/30/2009; AWCP, “Obama Administration’s New War-
 rantee Commitment Program,” no date, www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/30/2009; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility
 (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 6/30/2009; MHA: “Making Home Affordable Updated Detailed
 Description Update,” 3/26/2010, financialstability.gov/latest/pr_03262010.html, accessed 4/9/2010.			
 			
 			




     Table C.1
								
 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 6/30/2010
 ($ BILLIONS)

                                                                                                                Obligationsa               Expendedb                       On Treasury’s Booksc
 Capital Purchase Program (“CPP”)                                                                                     $204.89                  $204.89                                         $55.99
 Systemically Significant Failing Institutions (“SSFI”)                                                                   69.84                    47.54                                         47.54
 Home Affordable Modification Program (“HAMP”)d                                                                           42.58                     1.51                                           1.51
 Targeted Investment Program (“TIP”)                                                                                      40.00                    40.00                                                —
 Automotive Industry Financing Program (“AIFP”)                                                                           84.84                    79.69                                         65.39
 Asset Guarantee Program (“AGP”)                                                                                               —                        —                                               —
 Consumer and Business Lending Initiative (“CBLI”)                                                                             —                        —                                               —
     Term Asset-Backed Securities Loan Facility (“TALF”)                                                                  20.00                     0.10                                           0.10
     Small Business Lending Program                                                                                            —                        —                                               —
     Unlocking Credit for Small Businesses (“UCSB”)                                                                        0.09                     0.09                                           0.09
     Community Development Capital Initiative (“CDCI”)                                                                         —                        —                                               —
 Legacy Securities Public-Private Investment Program (“PPIP”)                                                             30.36                    12.41                                         12.04
 Total                                                                                                               $492.60                  $386.23                                        $182.66

								
Notes: Numbers affected by rounding.
a	
  For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget” as of 6/30/2010).
b
  “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury,” according to the TARP Budget.
c
  “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.
d
  According to Treasury, “TARP funds obligated include the total amount of funds that may be provided to servicers under existing agreements for the Home Affordable Modification Program (HAMP).
  In light of recent changes to HAMP as well as recent experience, Treasury expects to reestimate and revise these amounts in the next few months which will change this total. Treasury expects
  that the process will also result in there being sufficient funds to finance two recently announced TARP housing initiatives, consisting of $2.1B for the HFA Hardest Hit Fund and $14B for the FHA
  Refinance program. The $50B also includes $1.244B to offset costs of program changes for the ‘Helping Families Save Their Homes Act of 2009,’ Public Law No: 111-22, Section 202 (b) and
  $15M for administrative expenditures relating to the Special Inspector General for the Troubled Asset Relief Program (SIGTARP).”

Sources: Repayments data: Treasury, Transactions Report, 7/1/2010; all other data: Treasury, response to SIGTARP data call, 7/7/2010.					
 			
                                                                                                                                                                                                                                                                                                         212
  Table D.1

CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)
                                                                                               Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                     Final Disposition                                                                                       In or Out of
              Institution                                            Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                              Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

              1st Constitution Bancorp,         Preferred Stock w/
12/23/2008                                                                $12,000,000                                                                                                   $7.90                  $35.76      $8.15        220,745              ($0.25)          OUT          $836,667
              Cranbury, NJg                     Warrants

              1st Enterprise Bank, Los          Preferred Stock w/
2/13/2009                                                                  $4,400,000
              Angeles, CA2, c                   Exercised Warrants
                                                                                                                                                                                                                                                                                           $429,415
              1st Enterprise Bank, Los
12/11/2009                                      Preferred Stock            $6,000,000
              Angeles, CA2, 10a, c

              1st FS Corporation,               Preferred Stock w/
11/14/2008                                                                $16,369,000                                                                                                   $1.60                   $8.04      $8.87        276,815              ($6.72)          OUT        $1,229,949
              Hendersonville, NC                Warrants

              1st Source Corporation, South     Preferred Stock w/
1/23/2009                                                                $111,000,000                                                                                                  $16.92                 $410.94     $19.87        837,947              ($2.32)          OUT        $7,276,667
              Bend, IN                          Warrants

              1st United Bancorp, Inc., Boca    Preferred Stock w/
3/13/2009                                                                 $10,000,000    11/18/2009      $10,000,000             $0    11/18/2009         R           $500,000                                                                                                             $370,903
              Raton, FL2, 4, 7                  Exercised Warrants

              AB&T Financial Corporation,       Preferred Stock w/
1/23/2009                                                                  $3,500,000                                                                                                   $3.50                   $9.34      $6.55          80,153              ($3.9)          OUT          $229,444
              Gastonia, NC                      Warrants
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 21, 2010




                                                Preferred Stock w/
1/30/2009     Adbanc, Inc, Ogallala, NE2                                  $12,720,000                                                                                                                                                                                                      $895,435
                                                Exercised Warrants

              Alarion Financial Services, Inc., Preferred Stock w/
1/23/2009                                                                  $6,514,000                                                                                                                                                                                                      $465,497
              Ocala, FL2                        Exercised Warrants

              Alaska Pacific Bancshares, Inc., Preferred Stock w/
2/6/2009                                                                   $4,781,000                                                                                                   $6.10                   $4.02      $4.08        175,772               $1.92             IN         $304,789
              Juneau, AK                       Warrants

              Alliance Bancshares, Inc.,        Preferred Stock w/
6/26/2009                                                                  $2,986,000                                                                                                                                                                                                      $144,179
              Dalton, GA2                       Exercised Warrants

              Alliance Financial Corporation,   Preferred Stock w/
12/19/2008                                                                $26,918,000     5/13/2009      $26,918,000             $0     6/17/2009         R           $900,000         $27.80                 $129.63                                                                      $538,360
              Syracuse, NY4                     Warrants

                                                Subordinated
              Alliance Financial Services Inc.,
6/26/2009                                       Debentures w/             $12,000,000                                                                                                                                                                                                      $388,742
              Saint Paul, MN8
                                                Exercised Warrants

              Allied First Bancorp, Inc.,       Preferred Stock w/
4/24/2009                                                                  $3,652,000                                                                                                                                                                                                      $210,683
              Oswego, IL2                       Exercised Warrants

              Alpine Banks of Colorado,         Preferred Stock w/
3/27/2009                                                                 $70,000,000                                                                                                                                                                                                    $4,323,666
              Glenwood Springs, CO2             Exercised Warrants

              AMB Financial Corp.,              Preferred Stock w/
1/30/2009                                                                  $3,674,000                                                                                                                                                                                                      $258,669
              Munster, IN2                      Exercised Warrants

              AmeriBank Holding Company,        Preferred Stock w/
3/6/2009                                                                   $2,492,000                                                                                                                                                                                                      $161,888
              Collinsville, OK2                 Exercised Warrants

              American Express Company,         Preferred Stock w/
1/9/2009                                                               $3,388,890,000     6/17/2009   $3,388,890,000             $0     7/29/2009         R      $340,000,000          $39.70             $47,690.02                                                                   $74,367,308
              New York, NY4                     Warrants

              American Premier Bancorp,         Preferred Stock w/
5/29/2009                                                                  $1,800,000                                                                                                                                                                                                       $94,285
              Arcadia, CA2                      Exercised Warrants

              American State Bancshares, Inc.,Preferred Stock w/
1/9/2009                                                                   $6,000,000                                                                                                                                                                                                      $441,450
              Great Bend, KS2                 Exercised Warrants

                                                Preferred Stock w/
11/21/2008    Ameris Bancorp, Moultrie, GAg                               $52,000,000                                                                                                   $9.66                 $228.25     $11.31        689,936              ($2.28)          OUT        $3,856,667
                                                Warrants

              AmeriServ Financial, Inc,         Preferred Stock w/
12/19/2008                                                                $21,000,000                                                                                                   $1.61                  $34.13      $2.40       1,312,500             ($0.73)          OUT        $1,475,833
              Johnstown, PA                     Warrants

                                                Subordinated
              AmFirst Financial Services, Inc.,
8/21/2009                                       Debentures w/              $5,000,000                                                                                                                                                                                                      $307,635
              McCook, NE8
                                                Exercised Warrants

              Anchor BanCorp Wisconsin Inc., Preferred Stock w/
1/30/2009                                                                $110,000,000                                                                                                   $0.45                   $9.76      $2.23       7,399,103             ($1.13)          OUT
              Madison, WI                    Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)
                                                                                              Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital          Capital      Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                           Interest/
Purchase                                        Investment                                                                                                    Final Disposition                                                                                       In or Out of
             Institution                                             Investment Amount   Repayment        Repayment         Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                   Dividends Paid
Date                                            Description                                                                                                          Proceeds                                                                                         the Moneye
                                                                                              Date           Amount         Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                         to Treasury

             Annapolis Bancorp, Inc.,           Preferred Stock w/
1/30/2009                                                                  $8,152,000                                                                                                  $4.30                  $16.83      $4.08        299,706              ($0.58)          OUT           $526,483
             Annapolis, MD                      Warrants

             Associated Banc-Corp, Green        Preferred Stock w/
11/21/2008                                                               $525,000,000                                                                                                 $12.26               $2,119.97     $19.77       3,983,308             ($6.01)          OUT       $38,937,500
             Bay, WI                            Warrants

             Atlantic Bancshares, Inc.,         Preferred Stock w/
12/29/2009                                                                 $2,000,000                                                                                                                                                                                                       $41,110
             Bluffton, SC2, 10                  Exercised Warrants

             Avenue Financial Holdings, Inc., Preferred Stock w/
2/27/2009                                                                  $7,400,000                                                                                                                                                                                                      $490,682
             Nashville, TN2                   Exercised Warrants

             BancIndependent, Inc., Sheffield, Preferred Stock w/
3/13/2009                                                                 $21,100,000                                                                                                                                                                                                    $1,347,997
             AL2                               Exercised Warrants

             Bancorp Financial, Inc., Oak       Preferred Stock w/
7/10/2009                                                                 $13,669,000                                                                                                                                                                                                      $610,297
             Brook, IL2, 10                     Exercised Warrants

             Bancorp Rhode Island, Inc.,        Preferred Stock w/
12/19/2008                                                                $30,000,000     8/5/2009      $30,000,000             $0     9/30/2009         R         $1,400,000         $26.20                 $121.38                                                                       $941,667
             Providence, RI4                    Warrants

             BancPlus Corporation,              Preferred Stock w/
2/20/2009                                                                 $48,000,000                                                                                                                                                                                                    $3,233,666
             Ridgeland, MS2                     Exercised Warrants

                                                Preferred Stock w/
4/3/2009     BancStar, Inc., Festus, MO2                                   $8,600,000                                                                                                                                                                                                      $523,382
                                                Exercised Warrants

             BancTrust Financial Group, Inc., Preferred Stock w/
12/19/2008                                                                $50,000,000                                                                                                  $3.70                  $65.44     $10.26        730,994              ($5.41)          OUT         $3,513,889
             Mobile, AL                       Warrants

             Bank Financial Services, Inc.,     Preferred Stock w/
8/14/2009                                                                  $1,004,000                                                                                                                                                                                                       $41,177
             Eden Prarie, MN2                   Exercised Warrants

             Bank of America Corporation,
                                                Preferred Stock w/
1/9/2009     Charlotte,                                               $10,000,000,000    12/9/2009 $10,000,000,000              $0      3/3/2010         A      $124,228,646
                                                Warrants
             NC1a, 1b, 4, c
                                                                                                                                                                                      $14.37               $144,173                                                                  $1,293,750,000
             Bank of America Corporation,
                                                Preferred Stock w/
10/28/2008   Charlotte,                                               $15,000,000,000    12/9/2009 $15,000,000,000              $0      3/3/2010         A      $186,342,969
                                                Warrants
             NC1b, 4, c

             Bank of Commerce, Charlotte,       Preferred Stock w/
1/16/2009                                                                  $3,000,000                                                                                                                                                                                                      $217,546
             NC2                                Exercised Warrants

             Bank of Commerce Holdings,         Preferred Stock w/
11/14/2008                                                                $17,000,000                                                                                                  $4.74                  $80.54      $6.29        405,405              ($1.56)          OUT         $1,277,361
             Redding, CA                        Warrants

                                                Preferred Stock w/
3/13/2009    Bank of George, Las Vegas, NV2                                $2,672,000                                                                                                                                                                                                      $170,746
                                                Exercised Warrants

             Bank of Marin Bancorp,             Preferred Stock w/
12/5/2008                                                                 $28,000,000    3/31/2009      $28,000,000             $0                                                    $31.93                 $167.73     $27.23        154,242               $5.85             IN          $451,111
             Novato, CA4                        Warrants

             Bank of the Carolinas              Preferred Stock w/
4/17/2009                                                                 $13,179,000                                                                                                  $3.47                  $13.52      $4.16        475,204               $0.34             IN          $710,202
             Corporation, Mocksville, NC        Warrants

             Bank of the Ozarks, Inc., Little   Preferred Stock w/
12/12/2008                                                                $75,000,000    11/4/2009      $75,000,000             $0    11/24/2009         R         $2,650,000         $35.47                 $600.37                                                                     $3,354,167
             Rock, AR4                          Warrants

             Bankers’ Bank of the West          Preferred Stock w/
1/30/2009                                                                 $12,639,000                                                                                                                                                                                                      $717,532
             Bancorp, Inc., Denver, CO2         Exercised Warrants

             BankFirst Capital Corporation,     Preferred Stock w/
1/23/2009                                                                 $15,500,000                                                                                                                                                                                                    $1,107,562
             Macon, MS2                         Exercised Warrants

                                                Preferred Stock w/
2/13/2009    BankGreenville, Greenville, SC2                               $1,000,000                                                                                                                                                                                                       $68,428
                                                Exercised Warrants

             Banner Corporation, Walla          Preferred Stock w/
11/21/2008                                                               $124,000,000                                                                                                  $1.98                 $196.92     $10.89       1,707,989             ($7.05)          OUT         $9,196,667
             Walla, WA                          Warrants

             Banner County Ban Corporation, Preferred Stock w/
2/6/2009                                                                     $795,000                                                                                                                                                                                                       $55,271
             Harrisburg, NE2                Exercised Warrants

             Bar Harbor Bankshares,             Preferred Stock w/
1/16/2009                                                                 $18,751,000    2/24/2010      $18,751,000             $0                                                    $24.97                  $94.31     $26.81          52,455              $3.69             IN        $1,036,514
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I july 21, 2010




             Bar Harbor, ME5, b                 Warrants

             BB&T Corp., Winston-               Preferred Stock w/
11/14/2008                                                             $3,133,640,000    6/17/2009    $3,133,640,000            $0     7/22/2009         R       $67,010,402          $26.31             $18,209.20                                                                    $92,703,517
             Salem, NC4                         Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                                         213
CPP Transaction Detail, as of 6/30/2010                                          (ContiNued)                                                                                                                                                                                                         214
                                                                                            Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                          Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                      Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                           Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                          Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                            Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             BCB Holding Company, Inc.,       Preferred Stock w/
4/3/2009                                                                 $1,706,000                                                                                                                                                                                                    $103,795
             Theodore, AL2                    Exercised Warrants

             BCSB Bancorp, Inc., Baltimore, Preferred Stock w/
12/23/2008                                                              $10,800,000                                                                                                 $9.90                  $30.90      $8.83        183,465               $0.67             IN         $753,000
             MD                             Warrants

             Beach Business Bank,             Preferred Stock w/
1/30/2009                                                                $6,000,000                                                                                                                                                                                                    $422,375
             Manhattan Beach, CA2             Exercised Warrants

             Berkshire Bancorp, Inc.,         Preferred Stock w/
6/12/2009                                                                $2,892,000                                                                                                                                                                                                    $145,826
             Wyomissing, PA2                  Exercised Warrants

             Berkshire Hills Bancorp, Inc.,   Preferred Stock w/
12/19/2008                                                              $40,000,000    5/27/2009      $40,000,000             $0    6/24/2009         R         $1,040,000         $19.48                 $273.34                                                                      $877,778
             Pittsfield, MA4                  Warrants

             Bern Bancshares, Inc., Bern,     Preferred Stock w/
2/13/2009                                                                  $985,000                                                                                                                                                                                                     $67,486
             KS2                              Exercised Warrants

             Birmingham Bloomfield
                                              Preferred Stock w/
4/24/2009    Bancshares, Inc, Birmingham,                                $1,635,000
                                              Exercised Warrants
             MI2, c
                                                                                                                                                                                                                                                                                       $129,937
             Birmingham Bloomfield
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I july 21, 2010




12/18/2009   Bancshares, Inc, Birmingham,     Preferred Stock            $1,744,000
             MI2, 10a, c

                                              Subordinated
             Biscayne Bancshares, Inc.,
6/19/2009                                     Debentures w/              $6,400,000                                                                                                                                                                                                    $471,752
             Coconut Grove, FL8, 10
                                              Exercised Warrants

             Blackhawk Bancorp, Inc.,         Preferred Stock w/
3/13/2009                                                               $10,000,000                                                                                                                                                                                                    $638,861
             Beloit, WI2                      Exercised Warrants

             Blackridge Financial, Inc.,      Preferred Stock w/
5/22/2009                                                                $5,000,000                                                                                                                                                                                                    $267,201
             Fargo, ND2                       Exercised Warrants

             Blue Ridge Bancshares, Inc.,     Preferred Stock w/
3/6/2009                                                                $12,000,000                                                                                                                                                                                                    $779,350
             Independence, MO2                Exercised Warrants

             Blue River Bancshares, Inc.,     Preferred Stock w/
3/6/2009                                                                 $5,000,000                                                                                                                                                                                                    $324,730
             Shelbyville, IN2                 Exercised Warrants

             Blue Valley Ban Corp,            Preferred Stock w/
12/5/2008                                                               $21,750,000                                                                                                 $7.00                  $19.77     $29.37        111,083             ($20.87)          OUT          $211,458
             Overland Park, KS                Warrants

             BNB Financial Services           Preferred Stock w/
4/17/2009                                                                $7,500,000                                                                                                                                                                                                    $440,542
             Corporation, New York, NY2       Exercised Warrants

             BNC Bancorp, Thomasville,        Preferred Stock w/
12/5/2008                                                               $31,260,000                                                                                                $10.66                  $78.27      $8.63        543,337              ($0.73)          OUT        $2,257,667
             NC                               Warrants

             BNC Financial Group, Inc.,       Preferred Stock w/
2/27/2009                                                                $4,797,000                                                                                                                                                                                                    $318,097
             New Canaan, CT2                  Exercised Warrants

                                              Preferred Stock w/
1/16/2009    BNCCORP, Inc., Bismarck, ND2                               $20,093,000                                                                                                                                                                                                    $909,542
                                              Exercised Warrants

             BOH Holdings, Inc., Houston,     Preferred Stock w/
3/6/2009                                                                $10,000,000                                                                                                                                                                                                    $649,458
             TX2                              Exercised Warrants

                                              Subordinated
             Boscobel Bancorp, Inc,
5/15/2009                                     Debentures w/              $5,586,000                                                                                                                                                                                                    $468,624
             Boscobel, WI8
                                              Exercised Warrants

             Boston Private Financial         Preferred Stock w/
11/21/2008                                                                             1/13/2010      $50,000,000 $104,000,000
             Holdings, Inc., Boston, MA4, c   Warrants
                                                                       $154,000,000                                                                                                 $6.43               $477.196          $8       2,887,500             ($0.63)          OUT      $11,022,222
             Boston Private Financial         Preferred Stock w/
11/21/2008                                                                             6/16/2010     $104,000,000             $0
             Holdings, Inc., Boston, MA4, c   Warrants

             Bridge Capital Holdings,         Preferred Stock w/
12/23/2008                                                              $23,864,000                                                                                                 $9.10                  $98.49      $9.03        396,412               $0.12             IN       $1,663,851
             San Jose, CA                     Warrants

             Bridgeview Bancorp, Inc.,        Preferred Stock w/
12/19/2008                                                              $38,000,000                                                                                                                                                                                                  $2,393,156
             Bridgeview, IL2                  Exercised Warrants

                                                                                                                                                                                                                                                                       Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                             Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital          Capital      Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment        Repayment         Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                             Date           Amount         Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Broadway Financial Corporation,
11/14/2008   Los Angeles,                    Preferred Stock              $9,000,000
             CA3a - 11/24/2009, c
                                                                                                                                                                                        $2                   $3.49                                                                      $810,417
             Broadway Financial Corporation,
12/4/2009    Los Angeles,                    Preferred Stock              $6,000,000
             CA3, 10a, c

                                               Subordinated
             Brogan Bankshares, Inc.,
5/15/2009                                      Debentures w/              $2,400,000                                                                                                                                                                                                    $201,360
             Kaukauna, WI8
                                               Exercised Warrants

             Brotherhood Bancshares, Inc.,     Preferred Stock w/
7/17/2009                                                                $11,000,000                                                                                                                                                                                                    $496,253
             Kansas City, KS2                  Exercised Warrants

             Business Bancshares, Inc.,        Preferred Stock w/
4/24/2009                                                                $15,000,000                                                                                                                                                                                                    $865,188
             Clayton, MO2                      Exercised Warrants

                                               Preferred Stock w/
3/13/2009    Butler Point, Inc., Catlin, IL2                                $607,000                                                                                                                                                                                                     $38,742
                                               Exercised Warrants

             C&F Financial Corporation,        Preferred Stock w/
1/9/2009                                                                 $20,000,000                                                                                                $18.00                  $55.51     $17.91        167,504               $1.73             IN       $1,350,000
             West Point, VA                    Warrants

             Cache Valley Banking Company,
12/18/2009                                 Preferred Stock                $4,640,000
             Logan, UT2, 10a, c
                                                                                                                                                                                                                                                                                        $456,968
             Cache Valley Banking Company, Preferred Stock w/
12/23/2008                                                                $4,767,000
             Logan, UT2, c                 Exercised Warrants

             Cadence Financial Corporation, Preferred Stock w/
1/9/2009                                                                 $44,000,000                                                                                                 $1.15                  $13.70      $5.76       1,145,833             ($3.93)          OUT        $2,970,000
             Starkville, MS                 Warrants

             California Bank of Commerce,      Preferred Stock w/
2/27/2009                                                                 $4,000,000                                                                                                                                                                                                    $265,233
             Lafayette, CA2                    Exercised Warrants

             California Oaks State Bank,       Preferred Stock w/
1/23/2009                                                                 $3,300,000                                                                                                                                                                                                    $235,804
             Thousand Oaks, CA2                Exercised Warrants

             Calvert Financial Corporation,    Preferred Stock w/
1/23/2009                                                                 $1,037,000                                                                                                                                                                                                     $74,118
             Ashland, MO2                      Exercised Warrants

             CalWest Bancorp, Rancho           Preferred Stock w/
1/23/2009                                                                 $4,656,000                                                                                                                                                                                                    $332,721
             Santa Margarita, CA2              Exercised Warrants

             Capital Bancorp, Inc., Rockville, Preferred Stock w/
12/23/2008                                                                $4,700,000                                                                                                                                                                                                    $357,187
             MD2                               Exercised Warrants

             Capital Bank Corporation,         Preferred Stock w/
12/12/2008                                                               $41,279,000                                                                                                 $3.25                  $41.86      $8.26        749,619               ($3.8)          OUT        $2,941,129
             Raleigh, NC                       Warrants

             Capital Commerce Bancorp, Inc., Preferred Stock w/
4/10/2009                                                                 $5,100,000                                                                                                                                                                                                    $304,973
             Milwaukee, WI2                  Exercised Warrants

             Capital One Financial             Preferred Stock w/
11/14/2008                                                            $3,555,199,000    6/17/2009    $3,555,199,000            $0    12/3/2009         A      $148,731,030          $40.30             $18,398.36                                                                  $105,174,638
             Corporation, McLean, VA4          Warrants

             Capital Pacific Bancorp,          Preferred Stock w/
12/23/2008                                                                $4,000,000                                                                                                                                                                                                    $303,989
             Portland, OR2                     Exercised Warrants

                                               Subordinated
             Cardinal Bancorp II, Inc.,
10/23/2009                                     Debentures w/              $6,251,000                                                                                                                                                                                                    $294,317
             Washington, MO8
                                               Exercised Warrants

             Carolina Bank Holdings, Inc.,     Preferred Stock w/
1/9/2009                                                                 $16,000,000                                                                                                 $3.71                  $12.55      $6.71        357,675              ($3.21)          OUT        $1,080,000
             Greensboro, NC                    Warrants

             Carolina Trust Bank, Lincolnton, Preferred Stock w/
2/6/2009                                                                  $4,000,000                                                                                                 $4.55                   $7.13      $6.90          86,957              ($1.9)          OUT          $255,000
             NC                               Warrants

             Carrollton Bancorp,               Preferred Stock w/
2/13/2009                                                                 $9,201,000                                                                                                 $5.60                  $14.39      $6.72        205,379              ($1.46)          OUT          $577,618
             Baltimore, MD                     Warrants

             Carver Bancorp, Inc,
1/16/2009                                      Preferred Stock           $18,980,000                                                                                                                                                                                                  $1,262,697
             New York, NY3
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I july 21, 2010




             Cascade Financial Corporation, Preferred Stock w/
11/21/2008                                                               $38,970,000                                                                                                 $0.47                   $5.77      $6.77        863,442              ($4.81)          OUT        $1,428,900
             Everett, WA                    Warrants

             Cathay General Bancorp, Los       Preferred Stock w/
12/5/2008                                                               $258,000,000                                                                                                $10.33                 $811.04     $20.96       1,846,374             ($9.34)          OUT      $18,633,333
             Angeles, CA                       Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                                      215
                                                                                    (ContiNued)
                                                                                                                                                                                                                                                                                                         216
CPP Transaction Detail, as of 6/30/2010
                                                                                               Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                             Capital         Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                         Investment                                                                                                    Final Disposition                                                                                       In or Out of
             Institution                                              Investment Amount   Repayment       Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                             Description                                                                                                          Proceeds                                                                                         the Moneye
                                                                                               Date          Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Catskill Hudson Bancorp, Inc,       Preferred Stock w/
2/27/2009                                                                   $3,000,000
             Rock Hill, NY2, c                   Exercised Warrants
                                                                                                                                                                                                                                                                                           $272,479
             Catskill Hudson Bancorp, Inc,       Preferred Stock w/
12/22/2009                                                                  $3,500,000
             Rock Hill, NY2, 10a, c              Exercised Warrants

                                                 Preferred Stock w/
5/29/2009    CB Holding Corp., Aledo, IL2                                   $4,114,000                                                                                                                                                                                                     $215,520
                                                 Exercised Warrants

                                                 Preferred Stock w/
2/20/2009    CBB Bancorp, Cartersville, GA2, c                              $2,644,000
                                                 Exercised Warrants
                                                                                                                                                                                                                                                                                           $211,211
             CBB Bancorp, Cartersville,
12/29/2009                                       Preferred Stock            $1,753,000
             GA2, 10a, c

                                                 Preferred Stock w/
3/27/2009    CBS Banc-Corp., Russellville, AL2                             $24,300,000                                                                                                                                                                                                   $1,500,930
                                                 Exercised Warrants

                                                 Preferred Stock w/
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                               $11,560,000                                                                                                  $3.20                  $11.80      $6.63        261,538              ($2.43)          OUT          $516,989
                                                 Warrants

                                           Preferred Stock w/
2/6/2009     CedarStone Bank, Lebanon, TN2                                  $3,564,000                                                                                                                                                                                                     $247,631
                                           Exercised Warrants
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 21, 2010




                                                 Preferred Stock w/
1/9/2009     Center Bancorp, Inc., Union, NJ b                             $10,000,000                                                                                                  $7.58                 $110.48      $8.65          86,705             ($0.34)          OUT          $675,000
                                                 Warrants

             Center Financial Corporation,       Preferred Stock w/
12/12/2008                                                                 $55,000,000                                                                                                  $5.15                 $205.43      $9.54        432,390              ($4.69)          OUT        $3,918,750
             Los Angeles, CAb                    Warrants

                                                 Preferred Stock w/
5/1/2009     CenterBank, Milford, OH2                                       $2,250,000                                                                                                                                                                                                     $127,441
                                                 Exercised Warrants

             Centerstate Banks of Florida        Preferred Stock w/
11/21/2008                                                                 $27,875,000    9/30/2009      $27,875,000             $0    10/28/2009         R           $212,000         $10.09                 $260.11                                                                    $1,196,303
             Inc., Davenport, FL5, 9             Warrants

             Centra Financial Holdings, Inc.,    Preferred Stock w/
1/16/2009                                                                  $15,000,000    3/31/2009      $15,000,000             $0     4/15/2009         R           $750,000                                                                                                             $172,938
             Morgantown, WV2, 4, 7               Exercised Warrants

             Central Bancorp, Inc., Garland,     Preferred Stock w/
2/27/2009                                                                  $22,500,000                                                                                                                                     $6.39        234,742               $2.72             IN         $722,222
             TX2                                 Exercised Warrants

             Central Bancorp, Inc.,              Preferred Stock w/
12/5/2008                                                                  $10,000,000                                                                                                 $10.60                  $17.67                                                                    $1,491,938
             Somerville, MA                      Warrants

             Central Bancshares, Inc.,           Preferred Stock w/
1/30/2009                                                                   $5,800,000                                                                                                                                                                                                     $408,296
             Houston, TX2                        Exercised Warrants

             Central Community Corporation, Preferred Stock w/
2/20/2009                                                                  $22,000,000                                                                                                                                                                                                   $1,482,097
             Temple, TX2                    Exercised Warrants

             Central Federal Corporation,        Preferred Stock w/
12/5/2008                                                                   $7,225,000                                                                                                  $1.54                   $6.31      $3.22        336,568              ($2.03)          OUT          $521,806
             Fairlawn, OH                        Warrants

             Central Jersey Bancorp,             Preferred Stock w/
12/23/2008                                                                 $11,300,000                                                                                                  $7.08                  $66.20      $6.31        268,621              ($3.03)          OUT          $787,861
             Oakhurst, NJ                        Warrants

             Central Pacific Financial Corp.,    Preferred Stock w/
1/9/2009                                                                  $135,000,000                                                                                                  $1.50                  $45.56     $12.77       1,585,748            ($11.09)          OUT        $2,362,500
             Honolulu, HI                        Warrants

             Central Valley Community            Preferred Stock w/
1/30/2009                                                                   $7,000,000                                                                                                  $6.25                  $56.77      $6.64          79,067             ($1.14)          OUT          $452,083
             Bancorp, Fresno, CAb                Warrants

             Central Virginia Bankshares, Inc., Preferred Stock w/
1/30/2009                                                                  $11,385,000                                                                                                  $1.53                   $4.01      $6.48        263,542              ($3.05)          OUT          $450,656
             Powhatan, VA                       Warrants

             Centric Financial Corporation,      Preferred Stock w/
12/18/2009                                                                  $6,056,000                                                                                                                                                                                                     $130,332
             Harrisburg, PA2, 10                 Exercised Warrants

             Centrix Bank & Trust, Bedford,      Preferred Stock w/
2/6/2009                                                                    $7,500,000                                                                                                                                                                                                     $521,156
             NH2                                 Exercised Warrants

             Centrue Financial Corporation,      Preferred Stock w/
1/9/2009                                                                   $32,668,000                                                                                                  $2.00                  $12.09      $9.64        508,320              ($6.19)          OUT          $571,690
             St. Louis, MO                       Warrants

                                                 Subordinated
             Century Financial Services
6/19/2009                                        Debentures w/             $10,000,000                                                                                                                                                                                                     $759,761
             Corporation, Santa Fe, NM8
                                                 Exercised Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                                 (ContiNued)
                                                                                                    Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                                 Capital          Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                         Final Disposition                                                                                       In or Out of
             Institution                                                  Investment Amount   Repayment        Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                               Proceeds                                                                                         the Moneye
                                                                                                   Date           Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

                                                Subordinated
             Chambers Bancshares, Inc.,
5/29/2009                                       Debentures w/                  $19,817,000                                                                                                                                                                                                   $1,598,007
             Danville, AR8
                                                Exercised Warrants

             Chicago Shore Corporation,         Preferred Stock w/
7/31/2009                                                                       $7,000,000                                                                                                                                                                                                     $302,021
             Chicago, IL2                       Exercised Warrants

                                           16
12/31/2008   CIT Group Inc., New York, NY       Contingent Value Rights     $2,330,000,000      2/8/2010 ($2,330,000,000)             $0                                                   $33.86               $6,773.31                                                                  $43,687,500

             Citigroup Inc., New York,          Common Stock w/
10/28/2008                                                                 $25,000,000,000                                                                                                  $3.76            $108,964.35      $17.85    210,084,034              ($13.8)          OUT     $932,291,667
             NY11, 23 - 5/26/2010               Warrants

             Citizens & Northern Corporation, Preferred Stock w/
1/16/2009                                                                      $26,440,000                                                                                                 $10.70                 $129.68     $20.36        194,794              ($7.81)          OUT        $1,758,994
             Wellsboro, PA                    Warrants

             Citizens Bancorp, Nevada           Preferred Stock w/
12/23/2008                                                                     $10,400,000                                                                                                                                                                                                     $223,571
             City, CA2                          Exercised Warrants

             Citizens Bancshares Co.,           Preferred Stock w/
5/29/2009                                                                      $24,990,000                                                                                                                                                                                                     $628,033
             Chillicothe, MO2                   Exercised Warrants

             Citizens Bancshares Corporation,
3/6/2009                                      Preferred Stock                   $7,462,000                                                                                                                                                                                                     $444,611
             Atlanta, GA3

             Citizens Bank & Trust Company, Preferred Stock w/
3/20/2009                                                                       $2,400,000                                                                                                                                                                                                      $19,983
             Covington, LA2                 Exercised Warrants

             Citizens Commerce Bancshares, Preferred Stock w/
2/6/2009                                                                        $6,300,000                                                                                                                                                                                                     $180,259
             Inc., Versailles, KY2         Exercised Warrants

             Citizens Community Bank, South Preferred Stock w/
12/23/2008                                                                      $3,000,000                                                                                                                                                                                                     $227,992
             Hill, VA2                      Exercised Warrants

             Citizens First Corporation,        Preferred Stock w/
12/19/2008                                                                      $8,779,000                                                                                                  $6.75                  $13.29      $5.18        254,218              ($1.92)            IN         $616,969
             Bowling Green, KY                  Warrants

             Citizens Republic Bancorp, Inc., Preferred Stock w/
12/12/2008                                                                    $300,000,000                                                                                                  $0.85                 $335.23      $2.56     17,578,125              ($1.42)          OUT      $13,875,000
             Flint, MI                        Warrants

             Citizens South Banking             Preferred Stock w/
12/12/2008                                                                     $20,500,000                                                                                                  $6.15                  $56.12      $7.17        428,870              ($1.02)          OUT        $1,460,625
             Corporation, Gastonia, NC          Warrants

             City National Bancshares
4/10/2009                                       Preferred Stock                 $9,439,000                                                                                                                                                                                                     $281,859
             Corporation, Newark, NJ2, 3

             City National Corporation,         Preferred Stock w/
11/21/2008                                                                                    12/30/2009     $200,000,000             $0     4/7/2010                 $18,500,000
             Beverly Hills, CA4, c              Warrants
                                                                              $400,000,000                                                                                                 $51.23               $2,659.86                                                                 $239,166,667
             City National Corporation,         Preferred Stock w/
11/21/2008                                                                                      3/3/2010     $200,000,000 $200,000,000
             Beverly Hills, CA4, c              Warrants

             Clover Community Bankshares, Preferred Stock w/
3/27/2009                                                                       $3,000,000                                                                                                                                                                                                     $185,300
             Inc., Clover, SC2            Exercised Warrants

             Coastal Banking Company, Inc., Preferred Stock w/
12/5/2008                                                                       $9,950,000                                                                                                  $3.01                   $7.73      $7.26        205,579              ($4.25)          OUT          $718,611
             Fernandina Beach, FL           Warrants

             CoastalSouth Bancshares, Inc., Preferred Stock w/
8/28/2009                                                                      $16,015,000                                                                                                                                                                                                     $602,486
             Hilton Head Island, SC2, 10    Exercised Warrants

                                              Preferred Stock w/
12/19/2008   CoBiz Financial Inc., Denver, CO                                  $64,450,000                                                                                                  $6.59                 $242.29     $10.79        895,968              ($4.56)          OUT        $4,529,403
                                              Warrants

             Codorus Valley Bancorp, Inc.,      Preferred Stock w/
1/9/2009                                                                       $16,500,000                                                                                                  $7.10                  $28.96      $9.38        263,859              ($1.99)          OUT        $1,113,750
             York, PA                           Warrants

             ColoEast Bankshares, Inc.,         Preferred Stock w/
2/13/2009                                                                      $10,000,000                                                                                                                                                                                                     $684,278
             Lamar, CO2                         Exercised Warrants

             Colonial American Bank, West       Preferred Stock w/
3/27/2009                                                                         $574,000                                                                                                                                                                                                      $35,485
             Conshohocken, PA2                  Exercised Warrants

             Colony Bankcorp, Inc.,             Preferred Stock w/
1/9/2009                                                                       $28,000,000                                                                                                  $7.00                  $59.12      $8.40        500,000              ($2.56)          OUT        $1,890,000
             Fitzgerald, GA                     Warrants
                                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I july 21, 2010




             Columbia Banking System, Inc., Preferred Stock w/
11/21/2008                                                                     $76,898,000                                                                                                 $18.26                 $690.99     $14.49        398,023               $5.82             IN       $5,703,268
             Tacoma, WAb                    Warrants

             Columbine Capital Corp.,           Preferred Stock w/
2/27/2009                                                                       $2,260,000                                                                                                                                                                                                     $149,857
             Buena Vista, CO2                   Exercised Warrants

                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                             217
                                                                                                                                                                                                                                                                                                      218
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                             Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital          Capital      Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment        Repayment         Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                             Date           Amount         Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

                                               Preferred Stock w/
11/14/2008   Comerica Inc., Dallas, TX4                               $2,250,000,000    3/17/2010    $2,250,000,000            $0     5/6/2010         A      $183,673,472          $36.83               $6,493.94                                                                 $150,937,500
                                               Warrants

             Commerce National Bank,           Preferred Stock w/
1/9/2009                                                                  $5,000,000    10/7/2009       $5,000,000             $0                                                    $5.50                  $14.41      $8.60          87,209             ($3.55)          OUT           $36,111
             Newport Beach, CA4                Warrants

                                               Subordinated
             Commonwealth Bancshares,
5/22/2009                                      Debentures w/             $20,400,000                                                                                                                                                                                                  $1,678,285
             Inc., Louisville, KY8
                                               Exercised Warrants

             Commonwealth Business Bank, Preferred Stock w/
1/23/2009                                                                 $7,701,000                                                                                                                                                                                                     $25,648
             Los Angeles, CA2            Exercised Warrants

             Community 1st Bank, Roseville, Preferred Stock w/
1/16/2009                                                                 $2,550,000                                                                                                                                                                                                    $104,265
             CA2                            Exercised Warrants

             Community Bancshares of           Preferred Stock w/
3/6/2009                                                                    $500,000                                                                                                                                                                                                     $32,473
             Kansas, Inc., Goff, KS2           Exercised Warrants

             Community Bancshares of           Preferred Stock w/
9/11/2009                                                                $52,000,000                                                                                                                                                                                                  $1,920,822
             Mississippi, Inc., Brandon, MS2   Exercised Warrants

             Community Bancshares, Inc.,       Preferred Stock w/
7/24/2009                                                                 $3,872,000                                                                                                                                                                                                    $164,932
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I july 21, 2010




             Kingman, AZ2, 10                  Exercised Warrants

             Community Bank of the Bay,
1/16/2009                                      Preferred Stock            $1,747,000                                                                                                                                                                                                     $43,675
             Oakland, CA3

             Community Bank Shares of          Preferred Stock w/
5/29/2009                                                                $19,468,000                                                                                                 $8.27                  $27.13      $7.56        386,270               $1.39             IN         $935,545
             Indiana, Inc., New Albany, IN     Warrants

             Community Bankers Trust           Preferred Stock w/
12/19/2008                                                               $17,680,000                                                                                                 $2.24                  $48.09      $3.40        780,000              ($0.49)          OUT        $1,242,511
             Corporation, Glen Allen, VA       Warrants

             Community Business Bank,          Preferred Stock w/
2/27/2009                                                                 $3,976,000                                                                                                                                                                                                    $263,664
             West Sacramento, CA2              Exercised Warrants

             Community Financial               Preferred Stock w/
12/19/2008                                                               $12,643,000                                                                                                 $4.36                  $19.02      $5.40        351,194              ($1.24)          OUT          $888,522
             Corporation, Staunton, VA         Warrants

             Community Financial Shares,       Preferred Stock w/
5/15/2009                                                                 $6,970,000                                                                                                                                                                                                    $379,910
             Inc., Glen Ellyn, IL2             Exercised Warrants

             Community First Bancshares        Preferred Stock w/
3/20/2009                                                                $20,000,000                                                                                                                                                                                                  $1,256,528
             Inc., Union City, TN2             Exercised Warrants

             Community First Bancshares,       Preferred Stock w/
4/3/2009                                                                 $12,725,000                                                                                                                                                                                                    $774,397
             Inc., Harrison, AR2               Exercised Warrants

             Community First Inc., Columbia, Preferred Stock w/
2/27/2009                                                                $17,806,000                                                                                                                                                                                                  $1,180,653
             TN2                             Exercised Warrants

             Community Holding Company
                                               Preferred Stock w/
2/6/2009     of Florida, Inc., Miramar                                    $1,050,000                                                                                                                                                                                                     $72,676
                                               Exercised Warrants
             Beach, FL2

             Community Investors Bancorp,      Preferred Stock w/
12/23/2008                                                                $2,600,000                                                                                                                                                                                                    $197,593
             Inc., Bucyrus, OH2                Exercised Warrants

             Community Partners Bancorp,       Preferred Stock w/
1/30/2009                                                                 $9,000,000                                                                                                 $4.42                  $31.79      $4.54        297,116              ($0.96)          OUT          $581,250
             Middletown, NJg                   Warrants

                                            Subordinated
             Community Pride Bank
11/13/2009                                  Debentures w/                 $4,400,000                                                                                                                                                                                                    $180,491
             Corporation, Ham Lake, MN8, 10
                                            Exercised Warrants

             Community Trust Financial         Preferred Stock w/
1/9/2009                                                                 $24,000,000                                                                                                                                                                                                  $1,765,800
             Corporation, Ruston, LA2          Exercised Warrants

             Community West Bancshares,        Preferred Stock w/
12/19/2008                                                               $15,600,000                                                                                                 $2.50                  $14.79      $4.49        521,158              ($1.54)          OUT        $1,096,333
             Goleta, CA                        Warrants

             Congaree Bancshares, Inc.,        Preferred Stock w/
1/9/2009                                                                  $3,285,000                                                                                                                                                                                                    $152,159
             Cayce, SC2                        Exercised Warrants

             Corning Savings and Loan          Preferred Stock w/
2/13/2009                                                                   $638,000                                                                                                                                                                                                     $43,668
             Association, Corning, AR2         Exercised Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                              Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital          Capital         Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                       Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment        Repayment            Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                             Proceeds                                                                                         the Moneye
                                                                                             Date           Amount            Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Country Bank Shares, Inc.,        Preferred Stock w/
1/30/2009                                                                 $7,525,000                                                                                                                                                                                                        $529,700
             Milford, NE2                      Exercised Warrants

             Covenant Financial Corporation, Preferred Stock w/
6/5/2009                                                                  $5,000,000                                                                                                                                                                                                        $257,361
             Clarksdale, MS2                 Exercised Warrants

             Crazy Woman Creek Bancorp,        Preferred Stock w/
2/20/2009                                                                 $3,100,000                                                                                                                                                                                                        $208,841
             Inc., Buffalo, WY2                Exercised Warrants

             Crescent Financial Corporation, Preferred Stock w/
1/9/2009                                                                 $24,900,000                                                                                                     $2.51                  $24.16      $4.48        833,705              ($0.99)          OUT        $1,680,750
             Cary, NC                        Warrants

             Crosstown Holding Company,        Preferred Stock w/
1/23/2009                                                                $10,650,000                                                                                                                                                                                                        $761,061
             Blaine, MN2                       Exercised Warrants

                                               Preferred Stock w/
3/27/2009    CSRA Bank Corp., Wrens, GA2                                  $2,400,000                                                                                                                                                                                                        $148,240
                                               Exercised Warrants

             CVB Financial Corp, Ontario,      Preferred Stock w/
12/5/2008                                                                                8/26/2009      $97,500,000       $32,500,000   10/28/2009         R         $1,307,000
             CA4, 9, c                         Warrants
                                                                        $130,000,000                                                                                                      $9.5               $1,009.83                                                                    $4,739,583
             CVB Financial Corp, Ontario,      Preferred Stock w/
12/5/2008                                                                                 9/2/2009      $32,500,000               $0
             CA4, c                            Warrants

                                               Preferred Stock w/
2/27/2009    D.L. Evans Bancorp, Burley, ID2                             $19,891,000                                                                                                                                                                                                      $1,318,989
                                               Exercised Warrants

                                              Subordinated
             Deerfield Financial Corporation,
5/15/2009                                     Debentures w/               $2,639,000                                                                                                                                                                                                        $221,419
             Deerfield, WI8
                                              Exercised Warrants

                                               Preferred Stock w/
12/4/2009    Delmar Bancorp, Delmar, MD2                                  $9,000,000                                                                                                                                                                                                        $219,363
                                               Exercised Warrants

             DeSoto County Bank, Horn          Preferred Stock w/
2/13/2009                                                                 $1,173,000
             Lake, MS2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                            $108,789
             DeSoto County Bank, Horn Lake,
12/29/2009                                  Preferred Stock               $1,508,000
             MS2, 10a, c

                                               Subordinated
             Diamond Bancorp, Inc.,
5/22/2009                                      Debentures w/             $20,445,000                                                                                                                                                                                                      $1,681,953
             Washington, MO8
                                               Exercised Warrants

             Dickinson Financial Corporation Preferred Stock w/
1/16/2009                                                               $146,053,000                                                                                                                                                                                                      $2,631,197
             II, Kansas City, MO2            Exercised Warrants

             Discover Financial Services,      Preferred Stock w/
3/13/2009                                                             $1,224,558,000     4/21/2010   $1,224,558,000               $0                                                    $13.98               $7,605.02      $8.96     20,500,413               $5.94             IN     $67,690,844
             Riverwoods, IL4                   Warrants

             DNB Financial Corporation,        Preferred Stock w/
1/30/2009                                                                $11,750,000                                                                                                     $6.98                  $18.39      $9.46        186,311              ($4.31)          OUT          $758,854
             Downingtown, PA                   Warrants

                                               Subordinated
             Duke Financial Group, Inc.,
6/19/2009                                      Debentures w/             $12,000,000                                                                                                                                                                                                        $408,316
             Minneapolis, MN8
                                               Exercised Warrants

             Eagle Bancorp, Inc., Bethesda, Preferred Stock w/
12/5/2008                                                                $38,235,000    12/23/2009      $15,000,000       $23,235,000                                                   $11.78                 $231.29      $7.44        385,434               $4.41             IN       $2,465,584
             MD5, b                         Warrants

             East West Bancorp, Pasadena,      Preferred Stock w/
12/5/2008                                                               $306,546,000                                                                                                    $15.25               $2,256.21     $15.15       1,517,555              $2.27             IN     $22,139,433
             CAb                               Warrants

             Eastern Virginia Bankshares,      Preferred Stock w/
1/9/2009                                                                 $24,000,000                                                                                                     $6.52                  $38.77      $9.63        373,832              ($2.08)          OUT        $1,620,000
             Inc., Tappahannock, VA            Warrants

             ECB Bancorp, Inc., Engelhard,     Preferred Stock w/
1/16/2009                                                                $17,949,000                                                                                                    $11.67                  $33.26     $18.57        144,984              ($6.28)          OUT        $1,194,108
             NC                                Warrants

             Emclaire Financial Corp.,         Preferred Stock w/
12/23/2008                                                                $7,500,000                                                                                                    $15.85                  $22.68     $22.45          50,111             ($7.94)          OUT          $522,917
             Emlenton, PA                      Warrants

             Encore Bancshares Inc.,           Preferred Stock w/
12/5/2008                                                                $34,000,000                                                                                                     $9.89                 $112.75     $14.01        364,026              ($4.54)          OUT        $2,455,556
             Houston, TX                       Warrants

             Enterprise Financial Services     Preferred Stock w/
12/19/2008                                                               $35,000,000                                                                                                     $9.64                 $143.19     $16.20        324,074              ($5.14)          OUT        $2,459,722
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I july 21, 2010




             Corp., St. Louis, MO              Warrants

             Enterprise Financial Services     Preferred Stock w/
6/12/2009                                                                 $4,000,000                                                                                                                                                                                                        $201,650
             Group, Inc., Allison Park, PA2    Exercised Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                          219
CPP Transaction Detail, as of 6/30/2010                                             (ContiNued)
                                                                                               Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies                        220
                                                                                             Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                    Final Disposition                                                                                       In or Out of
             Institution                                              Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                          Proceeds                                                                                         the Moneye
                                                                                               Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Equity Bancshares, Inc.,           Preferred Stock w/
1/30/2009                                                                   $8,750,000                                                                                                                                                                                                    $616,022
             Wichita, KS2                       Exercised Warrants

                                            Preferred Stock w/
12/19/2008   Exchange Bank, Santa Rosa, CA2                                $43,000,000                                                                                                                                                                                                  $2,708,044
                                            Exercised Warrants

                                                Subordinated
             F & C Bancorp, Inc., Holden,
5/22/2009                                       Debentures w/               $2,993,000                                                                                                                                                                                                    $246,278
             MO8
                                                Exercised Warrants

             F & M Bancshares, Inc.,            Preferred Stock w/
1/30/2009                                                                   $4,609,000
             Trezevant, TN2, c                  Exercised Warrants
                                                                                                                                                                                                                                                                                          $417,196
             F & M Bancshares, Inc.,
11/6/2009                                       Preferred Stock             $3,535,000
             Trezevant, TN2, 10a, c

             F & M Financial Corporation,       Preferred Stock w/
2/6/2009                                                                   $17,000,000                                                                                                                                                                                                  $1,181,288
             Salisbury, NC2                     Exercised Warrants

             F&M Financial Corporation,         Preferred Stock w/
2/13/2009                                                                  $17,243,000                                                                                                                                                                                                  $1,179,883
             Clarksville, TN2                   Exercised Warrants

             F.N.B. Corporation, Hermitage, Preferred Stock w/
1/9/2009                                                                  $100,000,000     9/9/2009     $100,000,000             $0                                                    $8.03                 $918.67     $11.52        651,042              ($3.41)          OUT        $3,333,333
             PA4, b                         Warrants
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 21, 2010




             Farmers & Merchants            Preferred Stock w/
3/6/2009                                                                   $11,000,000                                                                                                                                                                                                    $714,405
             Bancshares, Inc., Houston, TX2 Exercised Warrants

             Farmers & Merchants Financial      Preferred Stock w/
3/20/2009                                                                     $442,000                                                                                                                                                                                                     $27,759
             Corporation, Argonia, KS2          Exercised Warrants

                                                Preferred Stock w/
1/23/2009    Farmers Bank, Windsor, VA2                                     $8,752,000                                                                                                                                                                                                    $625,426
                                                Exercised Warrants

             Farmers Capital Bank               Preferred Stock w/
1/9/2009                                                                   $30,000,000                                                                                                 $5.05                  $37.29     $20.09        223,992             ($11.52)          OUT        $2,025,000
             Corporation, Frankfort, KY         Warrants

                                                Subordinated
             Farmers Enterprises, Inc.,
6/19/2009                                       Debentures w/              $12,000,000                                                                                                                                                                                                    $911,716
             Great Bend, KS8
                                                Exercised Warrants

             Farmers State Bankshares, Inc., Preferred Stock w/
3/20/2009                                                                     $700,000                                                                                                                                                                                                     $44,497
             Holton, KS2                     Exercised Warrants

                                            Subordinated
             FBHC Holding Company, Boulder,
12/29/2009                                  Debentures w/                   $3,035,000                                                                                                                                                                                                     $93,029
             CO8, 10
                                            Exercised Warrants

                                                Preferred Stock w/
6/26/2009    FC Holdings, Inc., Houston, TX2                               $21,042,000                                                                                                                                                                                                    $156,090
                                                Exercised Warrants

             FCB Bancorp, Inc., Louisville,     Preferred Stock w/
12/19/2008                                                                  $9,294,000                                                                                                                                                                                                    $711,985
             KY2                                Exercised Warrants

                                                Preferred Stock w/
12/19/2008   FFW Corporation, Wabash, IN2                                   $7,289,000                                                                                                                                                                                                    $558,301
                                                Exercised Warrants

                                                Subordinated
             Fidelity Bancorp, Inc, Baton
5/29/2009                                       Debentures w/               $3,942,000                                                                                                                                                                                                    $317,860
             Rouge, LA8
                                                Exercised Warrants

             Fidelity Bancorp, Inc., Pittsburgh, Preferred Stock w/
12/12/2008                                                                  $7,000,000                                                                                                 $6.00                  $18.28      $8.65        121,387              ($3.75)          OUT          $498,750
             PA                                  Warrants

             Fidelity Federal Bancorp,          Preferred Stock w/
11/13/2009                                                                  $6,657,000                                                                                                                                                                                                            $0
             Evansville, IN2, 10                Exercised Warrants

             Fidelity Financial Corporation,    Preferred Stock w/
12/19/2008                                                                 $36,282,000                                                                                                                                                                                                  $2,779,289
             Wichita, KS2                       Exercised Warrants

             Fidelity Resources Company,        Preferred Stock w/
6/26/2009                                                                   $3,000,000                                                                                                                                                                                                    $144,879
             Plano, TX2                         Exercised Warrants

             Fidelity Southern Corporation,     Preferred Stock w/
12/19/2008                                                                 $48,200,000                                                                                                 $6.56                  $69.51      $3.10       2,335,307              $2.66             IN       $3,387,389
             Atlanta, GAf, g                    Warrants

             Fifth Third Bancorp, Cincinnati,   Preferred Stock w/
12/31/2008                                                              $3,408,000,000                                                                                                $12.29               $9,768.29     $11.72     43,617,747               $1.84             IN    $255,600,000
             OH                                 Warrants

             Financial Institutions, Inc.,      Preferred Stock w/
12/23/2008                                                                 $37,515,000                                                                                                $17.76                 $193.58     $14.88        378,175              ($0.26)          OUT        $2,615,630
             Warsaw, NY                         Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)
                                                                                              Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                             Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                              Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Financial Security Corporation,    Preferred Stock w/
2/13/2009                                                                  $5,000,000                                                                                                                                                                                                    $342,139
             Basin, WY2                         Exercised Warrants

                                                Subordinated
             Financial Services of Winger,
7/31/2009                                       Debentures w/              $3,742,000                                                                                                                                                                                                    $240,342
             Inc., Winger, MN8, 10
                                                Exercised Warrants

             First Advantage Bancshares         Preferred Stock w/
5/22/2009                                                                  $1,177,000                                                                                                                                                                                                     $62,912
             Inc., Coon Rapids, MN2             Exercised Warrants

             First Alliance Bancshares, Inc.,   Preferred Stock w/
6/26/2009                                                                  $3,422,000                                                                                                                                                                                                    $165,251
             Cordova, TN2                       Exercised Warrants

             First American Bank                Subordinated
7/24/2009    Corporation, Elk Grove             Debentures w/             $50,000,000                                                                                                                                                                                                  $3,390,975
             Village, IL8                       Exercised Warrants

             First American International
3/13/2009                                       Preferred Stock           $17,000,000                                                                                                                                                                                                    $996,389
             Corp., Brooklyn, NY3

                                                Preferred Stock w/
1/9/2009     First Bancorp, Troy, NC                                      $65,000,000                                                                                                $14.49                 $242.58     $15.82        616,308               ($2.3)          OUT        $4,387,500
                                                Warrants

                                                Preferred Stock w/
1/16/2009    First BanCorp, San Juan, PR                                 $400,000,000                                                                                                 $0.53                  $49.05     $10.27       5,842,259             ($7.86)          OUT        $6,611,111
                                                Warrants

             First BancTrust Corporation,       Preferred Stock w/
2/20/2009                                                                  $7,350,000                                                                                                                                                                                                    $495,211
             Paris, IL2                         Exercised Warrants

             First Bank of Charleston, Inc.,    Preferred Stock w/
2/6/2009                                                                   $3,345,000                                                                                                                                                                                                    $232,407
             Charleston, WV2                    Exercised Warrants

             First Bankers Trustshares, Inc., Preferred Stock w/
1/16/2009                                                                 $10,000,000                                                                                                                                                                                                    $725,153
             Quincy, IL2                      Exercised Warrants

                                                Preferred Stock w/
12/31/2008   First Banks, Inc., Clayton, MO2                             $295,400,000                                                                                                                                                                                                  $6,037,238
                                                Exercised Warrants

             First Busey Corporation,           Preferred Stock w/
3/6/2009                                                                 $100,000,000                                                                                                 $4.53                 $300.61     $13.07        573,833              ($8.65)          OUT        $5,958,333
             Urbana, ILb                        Warrants

             First Business Bank, N.A., San     Preferred Stock w/
4/10/2009                                                                  $2,211,000
             Diego, CA2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                     $17,572,1.22
             First Business Bank, N.A., San
12/11/2009                                      Preferred Stock            $2,032,000
             Diego, CA2, 10a, c

             First California Financial Group, Preferred Stock w/
12/19/2008                                                                $25,000,000                                                                                                 $2.69                  $75.81      $6.26        599,042              ($3.62)          OUT        $1,756,944
             Inc, Westlake Village, CA         Warrants

             First Capital Bancorp, Inc.,       Preferred Stock w/
4/3/2009                                                                  $10,958,000                                                                                                 $7.16                  $21.27      $6.55        250,947               $1.58             IN         $611,822
             Glen Ellen, VA                     Warrants

             First Choice Bank, Cerritos,       Preferred Stock w/
2/13/2009                                                                  $2,200,000
             CA2, c                             Exercised Warrants
                                                                                                                                                                                                                                                                                         $206,867
             First Choice Bank, Cerritos,
12/22/2009                                      Preferred Stock            $2,836,000
             CA2, 10a, c

             First Citizens Banc Corp,          Preferred Stock w/
1/23/2009                                                                 $23,184,000                                                                                                 $4.60                  $35.46      $7.41        469,312              ($2.93)          OUT        $1,519,840
             Sandusky, OH                       Warrants

             First Colebrook Bancorp, Inc.,     Preferred Stock w/
3/20/2009                                                                  $4,500,000                                                                                                                                                                                                    $282,719
             Colebrook, NH2                     Exercised Warrants

             First Community Bancshares,        Preferred Stock w/
5/15/2009                                                                 $14,800,000                                                                                                                                                                                                    $604,950
             Inc, Overland Park, KS2, b         Exercised Warrants

             First Community Bank
                                                Preferred Stock w/
12/23/2008   Corporation of America,                                      $10,685,000                                                                                                 $1.86                  $10.15      $7.02        228,312              ($4.77)          OUT          $744,982
                                                Warrants
             Pinellas Park, FL

             First Community Bankshares         Preferred Stock w/
11/21/2008                                                                $41,500,000     7/8/2009      $41,500,000             $0                                                   $14.69                 $261.23     $35.26          88,273            ($22.89)          OUT        $1,308,403
             Inc., Bluefield, VA5               Warrants

             First Community Corporation,       Preferred Stock w/
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I july 21, 2010




11/21/2008                                                                $11,350,000                                                                                                 $5.80                  $18.87      $8.69        195,915              ($2.49)          OUT          $841,792
             Lexington, SC                      Warrants

             First Community Financial          Preferred Stock w/
12/11/2009                                                                $22,000,000                                                                                                                                                                                                    $512,906
             Partners, Inc., Joliet, IL2        Exercised Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                       221
                                                                                                                                                                                                                                                                                                          222
CPP Transaction Detail, as of 6/30/2010                                               (ContiNued)
                                                                                                 Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                               Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                       Final Disposition                                                                                       In or Out of
             Institution                                                Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                             Proceeds                                                                                         the Moneye
                                                                                                 Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             First Defiance Financial Corp.,   Preferred Stock w/
12/5/2008                                                                    $37,000,000                                                                                                 $8.94                  $72.57     $10.08        550,595               $0.04             IN       $2,672,222
             Defiance, OH                      Warrants

                                               Subordinated
             First Eagle Bancshares, Inc.,
9/11/2009                                      Debentures w/                  $7,500,000                                                                                                                                                                                                    $426,492
             Hanover Park, IL8
                                               Exercised Warrants

             First Express of Nebraska, Inc., Preferred Stock w/
2/6/2009                                                                      $5,000,000                                                                                                                                                                                                    $347,438
             Gering, NE2                      Exercised Warrants

             First Federal Bancshares of       Preferred Stock w/
3/6/2009                                                                     $16,500,000                                                                                                 $2.60                  $12.60      $7.69        321,847              ($4.04)          OUT          $570,625
             Arkansas, Inc., Harrison, AR      Warrants

             First Financial Bancorp,          Preferred Stock w/
12/23/2008                                                                   $80,000,000    2/24/2010      $80,000,000             $0     6/2/2010         A         $3,116,284         $14.95                 $864.62                                                                    $4,677,778
             Cincinnati, OH5, 9                Warrants

                                               Subordinated
             First Financial Bancshares, Inc.,
6/12/2009                                      Debentures w/                  $3,756,000                                                                                                                                                                                                    $281,946
             Lawrence, KS8, 10
                                               Exercised Warrants

             First Financial Holdings Inc.,    Preferred Stock w/
12/5/2008                                                                    $65,000,000                                                                                                $11.45                 $189.23     $20.17        241,696              ($5.11)          OUT        $4,694,444
             Charleston, SCb                   Warrants
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 21, 2010




             First Financial Service        Preferred Stock w/
1/9/2009                                                                     $20,000,000                                                                                                 $7.24                  $34.16     $13.89        215,983              ($5.14)          OUT        $1,350,000
             Corporation, Elizabethtown, KY Warrants

             First Freedom Bancshares, Inc., Preferred Stock w/
12/22/2009                                                                    $8,700,000                                                                                                                                                                                                    $182,122
             Lebanon, TN2, 10                Exercised Warrants

             First Gothenburg Bancshares,      Preferred Stock w/
2/27/2009                                                                     $7,570,000                                                                                                                                                                                                    $502,009
             Inc., Gothenburg, NE2             Exercised Warrants

             First Guaranty Bancshares, Inc., Preferred Stock w/
8/28/2009                                                                    $20,699,000                                                                                                                                                                                                    $805,017
             Hammond, LA2                     Exercised Warrants

             First Horizon National            Preferred Stock w/
11/14/2008                                                                  $866,540,000                                                                                                $11.45               $2,617.32      $9.32     13,954,779               $4.74             IN     $65,110,853
             Corporation, Memphis, TNg         Warrants

             First Independence Corporation,
8/28/2009                                    Preferred Stock                  $3,223,000                                                                                                                                                                                                    $115,043
             Detroit, MI2, 3

             First Intercontinental Bank,      Preferred Stock w/
3/13/2009                                                                     $6,398,000                                                                                                                                                                                                    $408,754
             Doraville, GA2                    Exercised Warrants

             First Litchfield Financial        Preferred Stock w/
12/12/2008                                                                   $10,000,000     4/7/2010      $10,000,000             $0     4/7/2010         R         $1,488,046                                                                                                             $659,722
             Corporation, Litchfield, CT4      Warrants

             First M&F Corporation,            Preferred Stock w/
2/27/2009                                                                    $30,000,000                                                                                                 $3.86                  $35.01      $8.77        513,113              ($5.62)          OUT        $1,825,000
             Kosciusko, MS                     Warrants

             First Manitowoc Bancorp, Inc.,    Preferred Stock w/
1/16/2009                                                                    $12,000,000    5/27/2009      $12,000,000             $0    5/27/2009         R           $600,000                                                                                                             $237,983
             Manitowoc, WI2, 4, 7              Exercised Warrants

             First Menasha Bancshares, Inc., Preferred Stock w/
2/13/2009                                                                     $4,797,000                                                                                                                                                                                                    $328,265
             Neenah, WI2                     Exercised Warrants

             First Merchants Corporation,      Preferred Stock w/
2/20/2009                                                                    $69,600,000
             Muncie, IN27, c                   Warrants
                                                                                                                                                                                         $8.48                 $216.43     $17.55        991,453             ($10.59)          OUT        $7,459,444
             First Merchants Corporation,      Trust Preferred
2/20/2009                                                                    $46,400,000
             Muncie, IN27, c                   Securities w/ Warrants

             First Midwest Bancorp, Inc.,      Preferred Stock w/
12/5/2008                                                                   $193,000,000                                                                                                $12.16                 $900.44     $22.18       1,305,230             ($8.63)          OUT      $13,938,889
             Itasca, IL                        Warrants

             First National Corporation,       Preferred Stock w/
3/13/2009                                                                    $13,900,000                                                                                                                                                                                                    $888,017
             Strasburg, VA2                    Exercised Warrants

             First NBC Bank Holding            Preferred Stock w/
3/20/2009                                                                    $17,836,000                                                                                                                                                                                                  $1,120,592
             Company, New Orleans, LA2         Exercised Warrants

             First Niagara Financial Group,    Preferred Stock w/
11/21/2008                                                                  $184,011,000    5/27/2009     $184,011,000             $0    6/24/2009         R         $2,700,000         $12.53               $2,619.07                                                                    $4,753,618
             Lockport, NY5, 9                  Warrants

             First Northern Community          Preferred Stock w/
3/13/2009                                                                    $17,390,000                                                                                                 $4.55                  $41.25      $7.39        352,977               ($2.5)          OUT        $1,019,247
             Bancorp, Dixon, CA                Warrants

             First PacTrust Bancorp, Inc.,     Preferred Stock w/
11/21/2008                                                                   $19,300,000                                                                                                 $8.00                  $33.95     $10.31        280,795              ($2.54)          OUT        $1,431,417
             Chula Vista, CA                   Warrants

             First Place Financial Corp.,      Preferred Stock w/
3/13/2009                                                                    $72,927,000                                                                                                 $3.00                  $50.92      $2.98       3,670,822              $1.01             IN       $4,274,332
             Warren, OH                        Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                               (ContiNued)
                                                                                                  Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                               Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                           Investment                                                                                                     Final Disposition                                                                                       In or Out of
             Institution                                                Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                               Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                                 Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             First Priority Financial Corp.,       Preferred Stock w/
2/20/2009                                                                     $4,579,000
             Malvern, PA2, c                       Exercised Warrants
                                                                                                                                                                                                                                                                                              $402,319
             First Priority Financial Corp.,
12/18/2009                                         Preferred Stock            $4,596,000
             Malvern, PA2, 10a, c

             First Reliance Bancshares, Inc., Preferred Stock w/
3/6/2009                                                                     $15,349,000                                                                                                                                                                                                      $996,806
             Florence, SC2                    Exercised Warrants

                                                   Preferred Stock w/
1/30/2009    First Resource Bank, Exton, PA2, c                               $2,600,000
                                                   Exercised Warrants
                                                                                                                                                                                                                                                                                              $234,727
             First Resource Bank, Exton,
12/11/2009                                         Preferred Stock            $2,417,000
             PA2, 10a, c

             First Security Group, Inc.,           Preferred Stock w/
1/9/2009                                                                     $33,000,000                                                                                                   $1.92                  $31.52      $6.01        823,627              ($3.85)          OUT        $1,402,500
             Chattanooga, TN                       Warrants

                                                   Preferred Stock w/
12/23/2008   First Sound Bank, Seattle, WA                                    $7,400,000                                                                                                   $0.06                   $0.13      $9.73        114,080              ($9.24)          OUT          $330,944
                                                   Warrants

                                                   Subordinated
             First South Bancorp, Inc.,
7/17/2009                                          Debentures w/             $50,000,000                                                                                                                                                                                                    $3,472,527
             Lexington, TN8
                                                   Exercised Warrants

             First Southern Bancorp, Inc.,         Preferred Stock w/
1/30/2009                                                                    $10,900,000     6/16/2010      $10,900,000             $0     6/16/2010         R           $545,000                                                                                                             $818,468
             Boca Raton, FL2, 4, 7                 Exercised Warrants

             First Southwest Bancorporation, Preferred Stock w/
3/6/2009                                                                      $5,500,000                                                                                                                                                                                                      $207,327
             Inc., Alamosa, CO2              Exercised Warrants

             First State Bank of Mobeetie,         Preferred Stock w/
2/27/2009                                                                       $731,000     4/14/2010         $731,000             $0     4/14/2010         R            $37,000                                                                                                              $45,087
             Mobeetie, TX2, 4, 7                   Exercised Warrants

             First Texas BHC, Inc., Fort           Preferred Stock w/
3/6/2009                                                                     $13,533,000                                                                                                                                                                                                      $878,949
             Worth, TX2                            Exercised Warrants

                                                   Subordinated
             First Trust Corporation, New
6/5/2009                                           Debentures w/             $17,969,000                                                                                                                                                                                                    $1,046,896
             Orleans, LA8
                                                   Exercised Warrants

                                                   Preferred Stock w/
1/23/2009    First ULB Corp., Oakland, CA2, 4, 7                              $4,900,000     4/22/2009       $4,900,000             $0     4/22/2009         R           $245,000                                                                                                              $66,021
                                                   Exercised Warrants

             First United Corporation,             Preferred Stock w/
1/30/2009                                                                    $30,000,000                                                                                                   $3.90                  $23.96     $13.79        326,323              ($7.79)          OUT        $1,937,500
             Oakland, MD                           Warrants

             First Vernon Bancshares, Inc.,        Preferred Stock w/
6/12/2009                                                                     $6,000,000                                                                                                                                                                                                      $297,896
             Vernon, AL2, 10                       Exercised Warrants

             First Western Financial, Inc.,        Preferred Stock w/
2/6/2009                                                                      $8,559,000
             Denver, CO2, c                        Exercised Warrants
                                                                                                                                                                                                                                                                                              $848,870
             First Western Financial, Inc.,
12/11/2009                                         Preferred Stock           $11,881,000
             Denver, CO2, 10a, c

                                                   Preferred Stock w/
1/30/2009    Firstbank Corporation, Alma, MI                                 $33,000,000                                                                                                   $4.23                  $32.80      $8.55        578,947              ($2.65)          OUT        $2,131,250
                                                   Warrants

             FirstMerit Corporation, Akron,        Preferred Stock w/
1/9/2009                                                                    $125,000,000     4/22/2009     $125,000,000             $0     5/27/2009         R         $5,025,000         $17.13               $1,846.00                                                                    $1,788,194
             OH4                                   Warrants

                                                   Preferred Stock w/
1/30/2009    Flagstar Bancorp, Inc., Troy, MIf                              $266,657,000                                                                                                   $3.14                 $481.36      $6.20       6,451,379              ($5.6)          OUT      $17,221,597
                                                   Warrants

             Florida Bank Group, Inc.,             Preferred Stock w/
7/24/2009                                                                    $20,471,000                                                                                                                                                                                                      $901,866
             Tampa, FL2                            Exercised Warrants

             Florida Business BancGroup,           Preferred Stock w/
2/20/2009                                                                     $9,495,000                                                                                                                                                                                                      $639,688
             Inc., Tampa, FL2                      Exercised Warrants

             Flushing Financial Corporation,
                                                   Preferred Stock w/
12/19/2008   Lake Success,                                                   $70,000,000    10/28/2009      $70,000,000             $0    12/30/2009         R           $900,000         $12.23                 $381.05                                                                    $3,004,167
                                                   Warrants
             NY5, 9
                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 21, 2010




             FNB Bancorp, South San                Preferred Stock w/
2/27/2009                                                                    $12,000,000                                                                                                                                                                                                      $795,700
             Francisco, CA2                        Exercised Warrants

                                                   Preferred Stock w/
2/13/2009    FNB United Corp., Asheboro, NC                                  $51,500,000                                                                                                   $0.73                   $8.37      $3.50       2,207,143             ($2.29)          OUT        $2,589,305
                                                   Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                            223
CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)

                                                                                                                                                                                                                                                                                                         224
                                                                                               Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                     Final Disposition                                                                                       In or Out of
             Institution                                             Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                              Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Foresight Financial Group, Inc.,   Preferred Stock w/
5/15/2009                                                                 $15,000,000                                                                                                                                                                                                      $817,500
             Rockford, IL2                      Exercised Warrants

             Fort Lee Federal Savings Bank, Preferred Stock w/
5/22/2009                                                                  $1,300,000                                                                                                                                                                                                       $69,472
             Fort Lee, NJ2                  Exercised Warrants

             Fortune Financial Corporation,     Preferred Stock w/
4/3/2009                                                                   $3,100,000                                                                                                                                                                                                      $188,661
             Arnold, MO2                        Exercised Warrants

             FPB Bancorp, Inc., Port St.        Preferred Stock w/
12/5/2008                                                                  $5,800,000                                                                                                   $1.09                   $2.24      $4.75        183,158              ($3.53)          OUT          $273,889
             Lucie, FL                          Warrants

             FPB Financial Corp., Hammond, Preferred Stock w/
1/23/2009                                                                                 6/16/2010       $2,240,000              $0
             LA2, 4, c                     Exercised Warrants
                                                                           $3,240,000                                                                                                                                                                                                      $221,722
             FPB Financial Corp., Hammond, Preferred Stock w/
1/23/2009                                                                                12/16/2009       $1,000,000       $2,240,000   6/16/2010         R           $162,000
             LA2, 4, 7, c                  Exercised Warrants

             Franklin Bancorp, Inc.,            Preferred Stock w/
5/22/2009                                                                  $5,097,000                                                                                                                                                                                                      $272,398
             Washington, MO2                    Exercised Warrants

                                                Subordinated
             Freeport Bancshares, Inc.,
5/8/2009                                        Debentures w/              $3,000,000                                                                                                                                                                                                      $256,593
             Freeport, IL8
                                                Exercised Warrants
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 21, 2010




                                                Subordinated
             Fremont Bancorporation,
6/26/2009                                       Debentures w/             $35,000,000                                                                                                                                                                                                    $2,602,080
             Fremont, CA8
                                                Exercised Warrants

                                                Preferred Stock w/
1/23/2009    Fresno First Bank, Fresno, CA2                                $1,968,000                                                                                                                                                                                                      $107,220
                                                Exercised Warrants

                                                Subordinated
             Frontier Bancshares, Inc.,
4/24/2009                                       Debentures w/              $3,000,000    11/24/2009       $1,600,000       $1,400,000                                                                                                                                                      $207,862
             Austin, TX4, 8
                                                Exercised Warrants

             Fulton Financial Corporation,      Preferred Stock w/
12/23/2008                                                               $376,500,000                                                                                                   $9.65               $1,913.60     $10.25       5,509,756             ($0.05)          OUT      $26,250,417
             Lancaster, PA                      Warrants

             Gateway Bancshares, Inc.,          Preferred Stock w/
5/8/2009                                                                   $6,000,000                                                                                                                                                                                                      $333,358
             Ringgold, GA2                      Exercised Warrants

             Georgia Commerce                   Preferred Stock w/
2/6/2009                                                                   $8,700,000                                                                                                                                                                                                      $604,541
             Bancshares, Inc., Atlanta, GA2     Exercised Warrants

             Georgia Primary Bank, Atlanta,     Preferred Stock w/
5/1/2009                                                                   $4,500,000                                                                                                                                                                                                              $0
             GA2                                Exercised Warrants

             Germantown Capital
                                            Preferred Stock w/
3/6/2009     Corporation, Inc., Germantown,                                $4,967,000                                                                                                                                                                                                      $322,548
                                            Exercised Warrants
             TN2

             Gold Canyon Bank, Gold Canyon, Preferred Stock w/
6/26/2009                                                                  $1,607,000                                                                                                                                                                                                       $53,860
             AZ2, 10                        Exercised Warrants

             Goldwater Bank, N.A.,              Preferred Stock w/
1/30/2009                                                                  $2,568,000                                                                                                                                                                                                      $145,750
             Scottsdale, AZ2                    Exercised Warrants

             Grand Capital Corporation,         Preferred Stock w/
4/24/2009                                                                  $4,000,000                                                                                                                                                                                                      $230,717
             Tulsa, OK2                         Exercised Warrants

                                                Subordinated
             Grand Financial Corporation,
9/25/2009                                       Debentures w/              $2,443,320                                                                                                                                                                                                      $130,953
             Hattiesburg, MS8
                                                Exercised Warrants

             Grand Mountain Bancshares,         Preferred Stock w/
5/29/2009                                                                  $3,076,000                                                                                                                                                                                                              $0
             Inc., Granby, CO2                  Exercised Warrants

             GrandSouth Bancorporation,         Preferred Stock w/
1/9/2009                                                                   $9,000,000
             Greenville, SC2, c                 Exercised Warrants
                                                                                                                                                                                                                                                                                           $797,331
             GrandSouth Bancorporation,
12/11/2009   Greenville,                        Preferred Stock            $6,319,000
             SC2, 10a, c

                                                Subordinated
             Great River Holding Company,
7/17/2009                                       Debentures w/              $8,400,000                                                                                                                                                                                                      $583,385
             Baxter, MN8
                                                Exercised Warrants

             Great Southern Bancorp,            Preferred Stock w/
12/5/2008                                                                 $58,000,000                                                                                                  $20.31                 $272.62      $9.57        909,091              $12.87             IN       $4,188,889
             Springfield, MO                    Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                             Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital          Capital      Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment        Repayment         Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                             Date           Amount         Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Green Bankshares, Inc.,           Preferred Stock w/
12/23/2008                                                               $72,278,000                                                                                                $12.77                 $168.47     $17.06        635,504               ($8.9)          OUT        $5,039,383
             Greeneville, TN                   Warrants

             Green Circle Investments, Inc.,   Preferred Stock w/
2/27/2009                                                                 $2,400,000                                                                                                                                                                                                    $159,140
             Clive, IA2                        Exercised Warrants

             Green City Bancshares, Inc.,      Preferred Stock w/
2/27/2009                                                                   $651,000                                                                                                                                                                                                     $43,216
             Green City, MO2                   Exercised Warrants

             Greer Bancshares Incorporated, Preferred Stock w/
1/30/2009                                                                 $9,993,000                                                                                                                                                                                                    $703,506
             Greer, SC2                     Exercised Warrants

             Gregg Bancshares, Inc.,           Preferred Stock w/
2/13/2009                                                                   $825,000                                                                                                                                                                                                     $45,190
             Ozark, MO2                        Exercised Warrants

             Guaranty Bancorp, Inc.,           Preferred Stock w/
2/20/2009                                                                 $6,920,000                                                                                                                                                                                                    $466,187
             Woodsville, NH2                   Exercised Warrants

             Guaranty Capital Corporation,     Subordinated
9/25/2009                                                                $14,000,000                                                                                                                                                                                                    $688,716
             Belzoni, MS3, 8                   Debentures

             Guaranty Federal Bancshares,      Preferred Stock w/
1/30/2009                                                                $17,000,000                                                                                                 $5.81                  $15.34      $5.55        459,459              ($0.25)          OUT        $1,097,917
             Inc., Springfield, MO             Warrants

             GulfSouth Private Bank, Destin, Preferred Stock w/
9/25/2009                                                                 $7,500,000                                                                                                                                                                                                    $757,380
             FL10, 21                        Exercised Warrants

             Gulfstream Bancshares, Inc.,      Preferred Stock w/
6/26/2009                                                                 $7,500,000                                                                                                                                                                                                    $362,198
             Stuart, FL2                       Exercised Warrants

             Hamilton State Bancshares,        Preferred Stock w/
2/20/2009                                                                 $7,000,000                                                                                                                                                                                                    $471,577
             Hoschton, GA2                     Exercised Warrants

             Hampton Roads Bankshares,         Preferred Stock w/
12/31/2008                                                               $80,347,000                                                                                                 $0.75                  $16.62      $9.09       1,325,858             ($7.53)          OUT        $2,510,844
             Inc., Norfolk, VA                 Warrants

             Harbor Bankshares Corporation,
7/17/2009                                   Preferred Stock               $6,800,000                                                                                                                                                                                                    $282,744
             Baltimore, MD2, 3

             Hartford Financial Services       Preferred Stock w/
6/26/2009                                                             $3,400,000,000    3/31/2010    $3,400,000,000            $0                                                   $22.13               $9,824.33      $9.79     52,093,973              $18.63             IN    $129,861,111
             Group, Inc., Hartford, CT4        Warrants

             Haviland Bancshares, Inc.,        Preferred Stock w/
3/13/2009                                                                   $425,000                                                                                                                                                                                                     $27,126
             Haviland, KS2                     Exercised Warrants

             Hawthorn Bancshares,              Preferred Stock w/
12/19/2008                                                               $30,255,000                                                                                                                                   $17.78        255,261              ($6.09)          OUT        $2,126,255
             Inc., Lee’s Summit, MOg           Warrants

             HCSB Financial Corporation,       Preferred Stock w/
3/6/2009                                                                 $12,895,000                                                                                                 $5.50                  $20.83     $21.09          91,714            ($15.84)          OUT          $768,327
             Loris, SC                         Warrants

             Heartland Bancshares, Inc.,       Preferred Stock w/
9/11/2009                                                                 $7,000,000                                                                                                                                                                                                     $66,190
             Franklin, IN2, 10                 Exercised Warrants

             Heartland Financial USA, Inc.,    Preferred Stock w/
12/19/2008                                                               $81,698,000                                                                                                $17.28                 $281.47     $20.10        609,687              ($4.13)          OUT        $5,741,554
             Dubuque, IA                       Warrants

             Heritage Bankshares, Inc.,        Preferred Stock w/
9/25/2009                                                                $10,103,000                                                                                                                                                                                                    $340,157
             Norfolk, VA2, 10                  Exercised Warrants

             Heritage Commerce Corp.,          Preferred Stock w/
11/21/2008                                                               $40,000,000                                                                                                 $3.67                  $43.38     $12.96        462,963              ($8.78)          OUT        $1,466,667
             San Jose, CA                      Warrants

             Heritage Financial Corporation, Preferred Stock w/
11/21/2008                                                               $24,000,000                                                                                                $14.97                 $166.23     $13.04        138,037               $2.05             IN       $1,780,000
             Olympia, WAb                    Warrants

             Heritage Oaks Bancorp,            Preferred Stock w/
3/20/2009                                                                $21,000,000                                                                                                 $3.75                  $29.15      $5.15        611,650              ($1.21)          OUT          $947,916
             Paso Robles, CA                   Warrants

             HF Financial Corp., Sioux         Preferred Stock w/
11/21/2008                                                               $25,000,000     6/3/2009      $25,000,000             $0    6/30/2009         R           $650,000          $9.75                  $67.66                                                                      $666,667
             Falls, SD4                        Warrants

             Highlands Independent             Preferred Stock w/
3/6/2009                                                                  $6,700,000                                                                                                                                                                                                    $435,137
             Bancshares, Inc., Sebring, FL2    Exercised Warrants
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I july 21, 2010




             Highlands State Bank, Vernon,     Preferred Stock w/
5/8/2009                                                                  $3,091,000
             NJ2, c                            Exercised Warrants
                                                                                                                                                                                                                                                                                        $218,629
             Highlands State Bank,
12/22/2009                                     Preferred Stock            $2,359,000
             Vernon, NJ2, 10a, c

                                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                                      225
                                                                                                                                                                                                                                                                                                         226
CPP Transaction Detail, as of 6/30/2010                                              (ContiNued)
                                                                                                Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                              Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                          Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                               Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                              Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                                Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Hilltop Community Bancorp, Inc., Preferred Stock w/
1/30/2009                                                                    $4,000,000    4/21/2010       $4,000,000             $0    4/21/2010         R           $200,000                                                                                                             $267,050
             Summit, NJ2, 4, 7                Exercised Warrants

             HMN Financial, Inc., Rochester, Preferred Stock w/
12/23/2008                                                                  $26,000,000                                                                                                 $4.58                  $19.77      $4.68        833,333               $0.82             IN       $1,812,778
             MN                              Warrants

             Home Bancshares, Inc.,               Preferred Stock w/
1/16/2009                                                                   $50,000,000                                                                                                $22.81                 $645.47     $23.66        158,472               $2.78             IN       $3,326,389
             Conway, ARf                          Warrants

             Hometown Bancorp of                  Preferred Stock w/
2/20/2009                                                                    $3,250,000                                                                                                                                                                                                    $219,002
             Alabama, Inc., Oneonta, AL2          Exercised Warrants

             Hometown Bancshares, Inc.,           Preferred Stock w/
2/13/2009                                                                    $1,900,000                                                                                                                                                                                                    $130,013
             Corbin, KY2                          Exercised Warrants

             HomeTown Bankshares                  Preferred Stock w/
9/18/2009                                                                   $10,000,000                                                                                                                                                                                                    $351,326
             Corporation, Roanoke, VA2, 10        Exercised Warrants

             HopFed Bancorp, Hopkinsville,        Preferred Stock w/
12/12/2008                                                                  $18,400,000                                                                                                 $9.03                  $62.60     $11.32        243,816               $0.69             IN       $1,311,000
             KY                                   Warrants

             Horizon Bancorp, Michigan            Preferred Stock w/
12/19/2008                                                                  $25,000,000                                                                                                $21.33                  $70.39     $17.68        212,104               $1.62             IN       $1,756,944
             City, IN                             Warrants
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 21, 2010




             Howard Bancorp, Inc., Ellicott       Preferred Stock w/
2/27/2009                                                                    $5,983,000                                                                                                                                                                                                    $396,706
             City, MD2                            Exercised Warrants

             HPK Financial Corporation,           Preferred Stock w/
5/1/2009                                                                     $4,000,000
             Chicago, IL2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                           $359,419
             HPK Financial Corporation,           Preferred Stock w/
11/13/2009                                                                   $5,000,000
             Chicago, IL2, 10a, c                 Exercised Warrants

             Huntington Bancshares,               Preferred Stock w/
11/14/2008                                                               $1,398,071,000                                                                                                 $5.54               $3,969.83      $8.90     23,562,994              ($3.51)          OUT     $105,049,502
             Columbus, OH                         Warrants

                                              Preferred Stock w/
2/6/2009     Hyperion Bank, Philadelphia, PA2                                $1,552,000                                                                                                                                                                                                    $107,891
                                              Exercised Warrants

                                                  Preferred Stock w/
9/18/2009    IA Bancorp, Inc., Iselin, NJ2, 10                               $5,976,000                                                                                                                                                                                                    $207,316
                                                  Exercised Warrants

                                                  Subordinated
5/15/2009    IBC Bancorp, Inc., Chicago, IL3, 8                              $4,205,000                                                                                                                                                                                                    $323,785
                                                  Debentures

             Iberiabank Corporation,              Preferred Stock w/
12/5/2008                                                                   $90,000,000    3/31/2009      $90,000,000             $0    5/20/2009         R         $1,200,000         $51.48               $1,377.24                                                                    $1,450,000
             Lafayette, LA5, 9                    Warrants

                                                  Preferred Stock w/
3/27/2009    IBT Bancorp, Inc., Irving, TX2                                  $2,295,000                                                                                                                                                                                                    $141,780
                                                  Exercised Warrants

             IBW Financial Corporation,
3/13/2009                                         Preferred Stock            $6,000,000                                                                                                                                                                                                    $363,067
             Washington, DC2, 3a - 11/13/2009

                                                  Preferred Stock w/
3/6/2009     ICB Financial, Ontario, CA2                                     $6,000,000                                                                                                                                                                                                    $389,675
                                                  Exercised Warrants

                                                  Preferred Stock w/
1/16/2009    Idaho Bancorp, Boise, ID2                                       $6,900,000                                                                                                                                                                                                    $124,306
                                                  Exercised Warrants

             Illinois State Bancorp, Inc.,        Preferred Stock w/
5/22/2009                                                                    $6,272,000
             Chicago, IL2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                           $413,897
             Illinois State Bancorp, Inc.,        Preferred Stock w/
12/29/2009                                                                   $4,000,000
             Chicago, IL2, 10a, c                 Exercised Warrants

             Independence Bank, East              Preferred Stock w/
1/9/2009                                                                     $1,065,000                                                                                                                                                                                                     $78,327
             Greenwich, RI2                       Exercised Warrants

             Independent Bank Corp.,              Preferred Stock w/
1/9/2009                                                                    $78,158,000    4/22/2009      $78,158,000             $0    5/27/2009         R         $2,200,000         $24.68                 $522.72                                                                    $1,118,094
             Rockland, MA4                        Warrants

                                           Mandatorily Convertible
             Independent Bank Corporation,
12/12/2008                                 Preferred Stock w/               $74,426,000                                                                                                 $0.38                   $9.11      $3.12       3,461,538                                         $2,430,000
             Ionia, MI22
                                           Warrants

                                                  Preferred Stock w/
4/24/2009    Indiana Bank Corp., Dana, IN2                                   $1,312,000                                                                                                                                                                                                     $75,714
                                                  Exercised Warrants

             Indiana Community Bancorp,           Preferred Stock w/
12/12/2008                                                                  $21,500,000                                                                                                $11.95                  $40.13     $17.09        188,707              ($7.94)          OUT        $1,531,875
             Columbus, IN                         Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                             (ContiNued)
                                                                                                Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                             Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                         Investment                                                                                                     Final Disposition                                                                                       In or Out of
             Institution                                              Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                             Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                               Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Integra Bank Corporation,           Preferred Stock w/
2/27/2009                                                                  $83,586,000                                                                                                   $0.76                  $15.88      $1.69       7,418,876             ($1.07)          OUT        $1,950,340
             Evansville, IN                      Warrants

             Intermountain Community             Preferred Stock w/
12/19/2008                                                                 $27,000,000                                                                                                   $1.80                  $15.10      $6.20        653,226              ($4.18)          OUT        $1,222,500
             Bancorp, Sandpoint, ID              Warrants

             International Bancshares            Preferred Stock w/
12/23/2008                                                                $216,000,000                                                                                                  $16.69               $1,136.66     $24.43       1,326,238             ($1.42)          OUT      $15,060,000
             Corporation, Laredo, TX             Warrants

             Intervest Bancshares                Preferred Stock w/
12/23/2008                                                                 $25,000,000                                                                                                   $5.50                  $50.16      $5.42        691,882              ($1.52)          OUT        $1,118,056
             Corporation, New York, NY           Warrants

             Investors Financial Corporation     Subordinated
5/8/2009     of Pettis County, Inc., Sedalia,    Debentures w/              $4,000,000                                                                                                                                                                                                      $174,325
             MO8                                 Exercised Warrants

             JPMorgan Chase & Co., New           Preferred Stock w/
10/28/2008                                                             $25,000,000,000     6/17/2009 $25,000,000,000              $0    12/10/2009         A      $950,318,243          $36.61            $145,659.99                                                                  $795,138,889
             York, NY4                           Warrants

             Katahdin Bankshares Corp.,          Preferred Stock w/
1/30/2009                                                                  $10,449,000                                                                                                                                                                                                      $735,514
             Houlton, ME2                        Exercised Warrants

                                                 Preferred Stock w/
11/14/2008   KeyCorp, Cleveland, OH                                     $2,500,000,000                                                                                                   $7.69               $6,760.69     $10.64     35,244,361              ($2.89)          OUT     $187,847,222
                                                 Warrants

             Kirksville Bancorp, Inc.,           Preferred Stock w/
3/20/2009                                                                     $470,000                                                                                                                                                                                                       $29,580
             Kirksville, MO2                     Exercised Warrants

             KS Bancorp, Inc., Smithfield,       Preferred Stock w/
8/21/2009                                                                   $4,000,000                                                                                                                                                                                                      $159,867
             NC2                                 Exercised Warrants

             Lafayette Bancorp, Inc., Oxford, Preferred Stock w/
2/20/2009                                                                   $1,998,000
             MS2, c                           Exercised Warrants
                                                                                                                                                                                                                                                                                            $180,946
             Lafayette Bancorp, Inc., Oxford,
12/29/2009                                    Preferred Stock               $2,453,000
             MS2, 10a, c

             Lakeland Bancorp, Inc., Oak         Preferred Stock w/
2/6/2009                                                                   $59,000,000                                                                                                   $8.52                 $204.49      $9.32        949,571              ($0.47)          OUT        $3,761,250
             Ridge, NJ                           Warrants

             Lakeland Financial Corporation, Preferred Stock w/
2/27/2009                                                                  $56,044,000      6/9/2010      $56,044,000             $0                                                    $19.98                 $321.84     $21.20        198,269              ($2.15)          OUT        $3,596,156
             Warsaw, IN5, b                  Warrants

             Layton Park Financial Group,        Preferred Stock w/
12/18/2009                                                                  $3,000,000                                                                                                                                                                                                       $66,763
             Milwaukee, WI2                      Exercised Warrants

                                                 Preferred Stock w/
1/9/2009     LCNB Corp., Lebanon, OH4                                      $13,400,000    10/21/2009      $13,400,000             $0                                                    $11.75                  $78.57      $9.26        217,063               $2.74             IN         $524,833
                                                 Warrants

             Leader Bancorp, Inc., Arlington, Preferred Stock w/
12/23/2008                                                                  $5,830,000                                                                                                                                                                                                      $443,127
             MA2                              Exercised Warrants

             Legacy Bancorp, Inc.,
1/30/2009                                        Preferred Stock            $5,498,000                                                                                                                                                                                                      $355,079
             Milwaukee, WI3

             Liberty Bancshares, Inc.,           Preferred Stock w/
1/23/2009                                                                  $57,500,000                                                                                                                                                                                                    $4,108,695
             Jonesboro, AR2                      Exercised Warrants

             Liberty Bancshares, Inc.,           Preferred Stock w/
2/13/2009                                                                  $21,900,000                                                                                                                                                                                                    $1,498,568
             Springfield, MO2                    Exercised Warrants

             Liberty Bancshares, Inc.,           Preferred Stock w/
12/4/2009                                                                   $6,500,000                                                                                                                                                                                                      $153,236
             Fort Worth, TX2, 10                 Exercised Warrants

             Liberty Financial Services, Inc.,
2/6/2009                                       Preferred Stock              $5,645,000                                                                                                                                                                                                      $359,869
             New Orleans, LA3

             Liberty Shares, Inc., Hinesville,   Preferred Stock w/
2/20/2009                                                                  $17,280,000                                                                                                                                                                                                    $1,164,120
             GA2                                 Exercised Warrants

             Lincoln National Corporation,       Preferred Stock w/
7/10/2009                                                                 $950,000,000     6/30/2010     $950,000,000             $0                                                    $24.29               $7,646.52     $10.92     13,049,451              $19.78             IN     $46,180,555
             Radnor, PA4                         Warrants

                                                 Preferred Stock w/
12/12/2008   LNB Bancorp Inc., Lorain, OH                                  $25,223,000                                                                                                   $5.04                  $37.11      $6.74        561,343              ($2.29)          OUT        $1,797,139
                                                 Warrants
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I july 21, 2010




                                                 Preferred Stock w/
2/6/2009     Lone Star Bank, Houston, TX2                                   $3,072,000                                                                                                                                                                                                              $0
                                                 Exercised Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                          227
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                              Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                                          228
                                                                                           Capital          Capital         Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                       Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment        Repayment            Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                             Proceeds                                                                                         the Moneye
                                                                                             Date           Amount            Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             LSB Corporation, North            Preferred Stock w/
12/12/2008                                                               $15,000,000    11/18/2009      $15,000,000               $0    12/16/2009         R           $560,000         $12.97                  $58.46                                                                      $700,000
             Andover, MA4                      Warrants

             M&F Bancorp, Inc., Durham,
6/26/2009                                      Preferred Stock           $11,735,000                                                                                                                                                                                                        $519,926
             NC2, 3, 10

             M&T Bank Corporation, Buffalo, Preferred Stock w/
12/23/2008                                                              $600,000,000                                                                                                                                       $73.86       1,218,522             $11.09             IN     $43,727,083
             NYd                            Warrants
                                                                                                                                                                                        $84.95             $10,097.67
             M&T Bank Corporation
                                               Preferred Stock w/
11/14/2008   (Provident Bancshares Corp.),                              $151,500,000                                                                                                                                       $55.76        407,542              $29.19             IN       $9,489,792
                                               Warrants
             Baltimore, MDd

             Mackinac Financial Corporation, Preferred Stock w/
4/24/2009                                                                $11,000,000                                                                                                     $6.50                  $22.23      $4.35        379,310               $0.37             IN         $582,083
             Manistique, MI                  Warrants

             Madison Financial Corporation,    Preferred Stock w/
3/13/2009                                                                 $3,370,000                                                                                                                                                                                                        $169,422
             Richmond, KY2                     Exercised Warrants

                                               Preferred Stock w/
12/23/2008   Magna Bank, Memphis, TN2, 4                                 $13,795,000    11/24/2009       $3,455,000       $10,340,000                                                                                                                                                       $966,357
                                               Exercised Warrants

             Mainline Bancorp, Inc.,           Preferred Stock w/
12/29/2009                                                                $4,500,000                                                                                                                                                                                                         $92,650
             Ebensburg, PA2                    Exercised Warrants
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 21, 2010




             MainSource Financial Group,       Preferred Stock w/
1/16/2009                                                                $57,000,000                                                                                                     $7.17                 $144.38     $14.95        571,906              ($8.22)          OUT        $3,792,083
             Inc., Greensburg, IN              Warrants

             Manhattan Bancorp, El             Preferred Stock w/
12/5/2008                                                                 $1,700,000     9/16/2009       $1,700,000               $0    10/14/2009         R            $63,364          $4.75                  $18.94                                                                       $66,347
             Segundo, CA4                      Warrants

                                               Subordinated
             Manhattan Bancshares, Inc.,
6/19/2009                                      Debentures w/              $2,639,000                                                                                                                                                                                                        $200,507
             Manhattan, IL8
                                               Exercised Warrants

             Marine Bank & Trust Company,      Preferred Stock w/
3/6/2009                                                                  $3,000,000                                                                                                                                                                                                        $194,838
             Vero Beach, FL2                   Exercised Warrants

             Market Bancorporation, Inc.,      Preferred Stock w/
2/20/2009                                                                 $2,060,000                                                                                                                                                                                                        $138,778
             New Market, MN2                   Exercised Warrants

                                             Subordinated
             Market Street Bancshares, Inc.,
5/15/2009                                    Debentures w/               $20,300,000                                                                                                                                                                                                      $1,703,170
             Mt. Vernon, IL8
                                             Exercised Warrants

             Marquette National Corporation, Preferred Stock w/
12/19/2008                                                               $35,500,000                                                                                                                                                                                                      $2,719,399
             Chicago, IL2                    Exercised Warrants

             Marshall & Ilsley Corporation,    Preferred Stock w/
11/14/2008                                                            $1,715,000,000                                                                                                     $7.18               $3,785.62     $18.62     13,815,789             ($10.57)          OUT     $128,863,194
             Milwaukee, WI                     Warrants

             Maryland Financial Bank,          Preferred Stock w/
3/27/2009                                                                 $1,700,000                                                                                                                                                                                                         $35,516
             Towson, MD2                       Exercised Warrants

                                               Preferred Stock w/
12/5/2008    MB Financial Inc., Chicago, ILb                            $196,000,000                                                                                                    $18.39                 $973.77     $29.05        506,024              ($6.52)          OUT      $14,155,556
                                               Warrants

             McLeod Bancshares, Inc.,          Preferred Stock w/
11/20/2009                                                                $6,000,000                                                                                                                                                                                                        $158,958
             Shorewood, MN2                    Exercised Warrants

             Medallion Bank, Salt Lake         Preferred Stock w/
2/27/2009                                                                $11,800,000
             City, UT2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                            $977,017
             Medallion Bank, Salt Lake City,   Preferred Stock w/
12/22/2009                                                                $9,698,000
             UT2, 10a, c                       Exercised Warrants

             Mercantile Bank Corporation,      Preferred Stock w/
5/15/2009                                                                $21,000,000                                                                                                     $5.37                  $46.14      $5.11        616,438              ($1.14)          OUT        $1,050,000
             Grand Rapids, MI                  Warrants

             Mercantile Capital Corp.,         Preferred Stock w/
2/6/2009                                                                  $3,500,000                                                                                                                                                                                                        $243,206
             Boston, MA2                       Exercised Warrants

             Merchants and Manufacturers       Preferred Stock w/
6/19/2009                                                                 $3,510,000                                                                                                                                                                                                        $173,269
             Bank Corporation, Joliet, IL2     Exercised Warrants

             Merchants and Planters            Preferred Stock w/
3/6/2009                                                                  $1,881,000                                                                                                                                                                                                        $122,158
             Bancshares, Inc., Toone, TN2      Exercised Warrants

                                               Preferred Stock w/
2/13/2009    Meridian Bank, Devon, PA2, c                                 $6,200,000
                                               Exercised Warrants
                                                                                                                                                                                                                                                                                            $559,751
12/11/2009   Meridian Bank, Devon, PA2, 10a, c Preferred Stock            $6,335,000


                                                                                                                                                                                                                                                                            Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                                (ContiNued)
                                                                                                   Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                                Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                       Investment                                                                                                          Final Disposition                                                                                       In or Out of
             Institution                                                 Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                           Description                                                                                                                Proceeds                                                                                         the Moneye
                                                                                                  Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

                                               Preferred Stock w/
1/30/2009    Metro City Bank, Doraville, GA2                                   $7,700,000                                                                                                                                                                                                      $542,048
                                               Exercised Warrants

             MetroCorp Bancshares, Inc.,       Preferred Stock w/
1/16/2009                                                                     $45,000,000                                                                                                   $2.82                  $34.60      $8.75        771,429              ($5.92)          OUT        $2,431,250
             Houston, TX                       Warrants

             Metropolitan Bank Group, Inc.,    Preferred Stock w/
6/26/2009                                                                     $71,526,000                                                                                                                                                                                                    $3,454,185
             Chicago, IL2                      Exercised Warrants

             Metropolitan Capital Bancorp,     Preferred Stock w/
4/10/2009                                                                      $2,040,000
             Inc., Chicago, IL2, c             Exercised Warrants
                                                                                                                                                                                                                                                                                               $179,059
             Metropolitan Capital Bancorp,
11/20/2009                                     Preferred Stock                 $2,348,000
             Inc., Chicago, IL2, 10a, c

             Mid Penn Bancorp, Inc.,           Preferred Stock w/
12/19/2008                                                                    $10,000,000                                                                                                   $9.14                  $31.79     $20.52          73,099            ($10.52)          OUT          $702,778
             Millersburg, PA                   Warrants

             Middleburg Financial Corporation,Preferred Stock w/
1/30/2009                                                                     $22,000,000    12/23/2009      $22,000,000             $0                                                    $13.91                  $96.42     $15.85        104,101              ($0.79)          OUT          $986,944
             Middleburg, VA5, b               Warrants

             Midland States Bancorp, Inc.,     Preferred Stock w/
1/23/2009                                                                     $10,189,000    12/23/2009      $10,189,000             $0    12/23/2009         R           $509,000                                                                                                             $508,989
             Effingham, IL2, 4, 7              Exercised Warrants

             MidSouth Bancorp, Inc.,           Preferred Stock w/
1/9/2009                                                                      $20,000,000                                                                                                  $12.77                 $124.19     $14.37        104,384               $2.13             IN       $1,350,000
             Lafayette, LAb                    Warrants

             Midtown Bank & Trust Company, Preferred Stock w/
2/27/2009                                                                      $5,222,000                                                                                                                                                                                                      $275,105
             Atlanta, GA2                  Exercised Warrants

                                               Mandatorily Convertible
             Midwest Banc Holdings, Inc.,
12/5/2008                                      Preferred Stock w/             $89,388,000                                                                                                   $0.15                   $0.00      $2.97       4,282,020                                           $824,289
             Melrose Park, IL20, 25
                                               Warrants

             Midwest Regional Bancorp, Inc., Preferred Stock w/
2/13/2009                                                                        $700,000    11/10/2009         $700,000             $0    11/10/2009         R            $35,000                                                                                                              $28,294
             Festus, MO2-, 4, 7              Exercised Warrants

             MidWestOne Financial Group,       Preferred Stock w/
2/6/2009                                                                      $16,000,000                                                                                                  $15.48                 $133.33     $12.08        198,675              ($0.29)          OUT        $1,020,000
             Inc., Iowa City, IA               Warrants

             Mid-Wisconsin Financial           Preferred Stock w/
2/20/2009                                                                     $10,000,000                                                                                                                                                                                                      $673,681
             Services, Inc., Medford, WI2      Exercised Warrants

             Millennium Bancorp, Inc.,         Preferred Stock w/
4/3/2009                                                                       $7,260,000                                                                                                                                                                                                      $343,053
             Edwards, CO2                      Exercised Warrants

             Mission Community Bancorp,
1/9/2009                                       Preferred Stock                 $5,116,000                                                                                                                                                                                                      $345,330
             San Luis Obispo, CA3

             Mission Valley Bancorp,
12/23/2008                                     Preferred Stock                 $5,500,000                                                                                                                                                                                                      $383,472
             Sun Valley, CA3

             Monadnock Bancorp, Inc.,          Preferred Stock w/
12/19/2008                                                                     $1,834,000                                                                                                                                                                                                      $140,527
             Peterborough, NH2                 Exercised Warrants

             Monarch Community                 Preferred Stock w/
2/6/2009                                                                       $6,785,000                                                                                                   $1.08                   $2.21      $3.90        260,962              ($1.74)          OUT          $262,919
             Bancorp, Inc., Coldwater, MI      Warrants

             Monarch Financial Holdings,       Preferred Stock w/
12/19/2008                                                                    $14,700,000    12/23/2009      $14,700,000             $0     2/10/2010         R           $260,000          $7.92                  $46.54                                                                      $743,167
             Inc., Chesapeake, VA5, 9          Warrants

             Moneytree Corporation,            Preferred Stock w/
3/13/2009                                                                      $9,516,000                                                                                                                                                                                                      $607,961
             Lenoir City, TN2                  Exercised Warrants

             Monument Bank,                    Preferred Stock w/
1/30/2009                                                                      $4,734,000                                                                                                                                                                                                      $333,288
             Bethesda, MD2                     Exercised Warrants

                                               Preferred Stock w/
10/28/2008   Morgan Stanley, New York, NY4                                $10,000,000,000     6/17/2009 $10,000,000,000              $0     8/12/2009         R      $950,000,000          $23.21             $32,443.38                                                                  $318,055,555
                                               Warrants

             Morrill Bancshares, Inc.,         Preferred Stock w/
1/16/2009                                                                     $13,000,000                                                                                                                                                                                                      $942,699
             Merriam, KS2                      Exercised Warrants

             Moscow Bancshares, Inc.,          Preferred Stock w/
1/23/2009                                                                      $6,216,000                                                                                                                                                                                                      $444,192
             Moscow, TN2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I july 21, 2010




             Mountain Valley Bancshares, Inc.,Preferred Stock w/
9/25/2009                                                                      $3,300,000                                                                                                                                                                                                      $114,904
             Cleveland, GA2                   Exercised Warrants

                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                             229
CPP Transaction Detail, as of 6/30/2010                                          (ContiNued)

                                                                                                                                                                                                                                                                                                      230
                                                                                             Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                          Capital          Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                      Investment                                                                                                    Final Disposition                                                                                       In or Out of
             Institution                                           Investment Amount   Repayment        Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                          Description                                                                                                          Proceeds                                                                                         the Moneye
                                                                                            Date           Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             MS Financial, Inc., Kingwood,    Preferred Stock w/
3/27/2009                                                                $7,723,000                                                                                                                                                                                                     $477,009
             TX2                              Exercised Warrants

             MutualFirst Financial, Inc.,     Preferred Stock w/
12/23/2008                                                              $32,382,000                                                                                                  $6.70                  $46.80      $7.77        625,135              ($1.12)          OUT        $2,257,745
             Muncie, IN                       Warrants

             Naples Bancorp, Inc., Naples,    Preferred Stock w/
3/27/2009                                                                $4,000,000                                                                                                                                                                                                     $247,067
             FL2                              Exercised Warrants

             Nara Bancorp, Inc., Los          Preferred Stock w/
11/21/2008                                                              $67,000,000                                                                                                  $8.43                 $319.98      $9.64        521,266              ($0.88)          OUT        $4,969,167
             Angeles, CAb                     Warrants

             National Bancshares, Inc.,       Preferred Stock w/
2/27/2009                                                               $24,664,000                                                                                                                                                                                                   $1,635,407
             Bettendorf, IA2                  Exercised Warrants

             National Penn Bancshares, Inc., Preferred Stock w/
12/12/2008                                                             $150,000,000                                                                                                  $6.01                 $757.37     $15.30        735,294               ($8.4)          OUT      $10,687,500
             Boyertown, PAb                  Warrants

                                              Subordinated
             Nationwide Bankshares, Inc.,
12/11/2009                                    Debentures w/              $2,000,000                                                                                                                                                                                                      $71,781
             West Point, NE8
                                              Exercised Warrants

                                              Preferred Stock w/
6/26/2009    NC Bancorp, Inc., Chicago, IL2                              $6,880,000                                                                                                                                                                                                     $332,256
                                              Exercised Warrants

             NCAL Bancorp, Los Angeles,       Preferred Stock w/
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I july 21, 2010




12/19/2008                                                              $10,000,000                                                                                                                                                                                                     $766,028
             CA2                              Exercised Warrants

                                            Subordinated
             NEMO Bancshares Inc., Madison,
6/19/2009                                   Debentures w/                $2,330,000                                                                                                                                                                                                     $177,087
             MO8
                                            Exercised Warrants

             New Hampshire Thrift             Preferred Stock w/
1/16/2009                                                               $10,000,000                                                                                                 $10.50                  $60.61      $8.14        184,275               $2.35             IN         $665,278
             Bancshares, Inc., Newport, NH    Warrants

             New York Private Bank & Trust    Preferred Stock w/
1/9/2009                                                               $267,274,000                                                                                                                                                                                                 $19,664,721
             Corporation, New York, NY2       Exercised Warrants

             NewBridge Bancorp,               Preferred Stock w/
12/12/2008                                                              $52,372,000                                                                                                  $3.51                  $54.95      $3.06       2,567,255               $0.5             IN       $3,731,505
             Greensboro, NC                   Warrants

             Nicolet Bankshares, Inc.,        Preferred Stock w/
12/23/2008                                                              $14,964,000                                                                                                                                                                                                   $1,137,197
             Green Bay, WI2                   Exercised Warrants

             North Central Bancshares, Inc., Preferred Stock w/
1/9/2009                                                                $10,200,000                                                                                                 $16.25                  $21.95     $15.43          99,157             ($1.13)          OUT          $688,500
             Fort Dodge, IA                  Warrants

             Northeast Bancorp, Lewiston,     Preferred Stock w/
12/12/2008                                                               $4,227,000                                                                                                 $12.70                  $29.49      $9.33          67,958                                IN         $301,174
             ME                               Warrants                                                                                                                                                                                                     $4.67

             Northern State Bank, Closter,    Preferred Stock w/
5/15/2009                                                                $1,341,000
             NJ2, c                           Exercised Warrants
                                                                                                                                                                                                                                                                                         $98,193
             Northern State Bank, Closter,
12/18/2009                                    Preferred Stock            $1,230,000
             NJ2, 10a, c

             Northern States Financial        Preferred Stock w/
2/20/2009                                                               $17,211,000                                                                                                  $2.30                   $9.37      $4.42        584,084              ($1.12)          OUT          $418,323
             Corporation, Waukegan, IL        Warrants

             Northern Trust Corporation,      Preferred Stock w/
11/14/2008                                                           $1,576,000,000     6/17/2009   $1,576,000,000             $0    8/26/2009         R       $87,000,000          $46.70             $11,294.40                                                                   $46,623,333
             Chicago, IL4                     Warrants

             Northway Financial, Inc.,        Preferred Stock w/
1/30/2009                                                               $10,000,000                                                                                                                                                                                                     $703,958
             Berlin, NH2                      Exercised Warrants

             Northwest Bancorporation, Inc., Preferred Stock w/
2/13/2009                                                               $10,500,000                                                                                                                                                                                                     $575,430
             Spokane, WA2                    Exercised Warrants

             Northwest Commercial Bank,       Preferred Stock w/
2/13/2009                                                                $1,992,000                                                                                                                                                                                                     $136,353
             Lakewood, WA2                    Exercised Warrants

             Oak Ridge Financial Services,    Preferred Stock w/
1/30/2009                                                                $7,700,000                                                                                                  $5.15                   $9.22      $7.05        163,830              ($2.32)          OUT          $497,292
             Inc., Oak Ridge, NC              Warrants

             Oak Valley Bancorp, Oakdale,     Preferred Stock w/
12/5/2008                                                               $13,500,000                                                                                                  $5.25                  $40.33      $5.78        350,346              ($1.68)          OUT          $975,000
             CA                               Warrants

             OceanFirst Financial Corp.,      Preferred Stock w/
1/16/2009                                                               $38,263,000    12/30/2009      $38,263,000             $0     2/3/2010         R           $430,797         $12.07                 $227.18                                                                    $1,828,122
             Toms River, NJ5, 9               Warrants

             Ojai Community Bank, Ojai,       Preferred Stock w/
1/30/2009                                                                $2,080,000                                                                                                                                                                                                     $146,423
             CA2                              Exercised Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                             Capital Repayment Details                                        Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital         Capital         Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                      Investment                                                                                                      Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment       Repayment            Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                          Description                                                                                                            Proceeds                                                                                         the Moneye
                                                                                             Date          Amount            Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Old Line Bancshares, Inc.,       Preferred Stock w/
12/5/2008                                                                 $7,000,000    7/15/2009       $7,000,000               $0     9/2/2009         R           $225,000          $7.51                  $29.14                                                                      $213,889
             Bowie, MD4                       Warrants

             Old National Bancorp, Evansville, Preferred Stock w/
12/12/2008                                                              $100,000,000    3/31/2009     $100,000,000               $0     5/8/2009         R         $1,200,000         $10.36                 $902.99                                                                    $1,513,889
             IN4                               Warrants

             Old Second Bancorp, Inc.,        Preferred Stock w/
1/16/2009                                                                $73,000,000                                                                                                   $2.00                  $27.82     $13.43        815,339              ($6.84)          OUT        $4,856,528
             Aurora, IL                       Warrants

             Omega Capital Corp., Lakewood, Preferred Stock w/
4/17/2009                                                                 $2,816,000                                                                                                                                                                                                       $50,311
             CO2                            Exercised Warrants

                                              Preferred Stock w/
5/8/2009     One Georgia Bank, Atlanta, GA2                               $5,500,000                                                                                                                                                                                                              $0
                                              Exercised Warrants

                                              Subordinated
             OneFinancial Corporation, Little
6/5/2009                                      Debentures w/              $17,300,000                                                                                                                                                                                                    $1,325,994
             Rock, AR8, 10
                                              Exercised Warrants

12/19/2008   OneUnited Bank, Boston, MA2, 3 Preferred Stock              $12,063,000                                                                                                                                                                                                       $93,823

             Oregon Bancorp, Inc., Salem,     Preferred Stock w/
4/24/2009                                                                 $3,216,000                                                                                                                                                                                                      $185,515
             OR2                              Exercised Warrants

                                              Subordinated
             OSB Financial Services, Inc.,
5/1/2009                                      Debentures w/               $6,100,000                                                                                                                                                                                                      $147,848
             Orange, TX8
                                              Exercised Warrants

             Pacific Capital Bancorp,         Preferred Stock w/
11/21/2008                                                              $180,634,000                                                                                                   $0.72                  $33.74     $17.92       1,512,003            ($16.11)          OUT        $2,107,397
             Santa Barbara, CA                Warrants

             Pacific City Financial           Preferred Stock w/
12/19/2008                                                               $16,200,000                                                                                                                                                                                                      $358,065
             Corporation, Los Angeles, CA2    Exercised Warrants

             Pacific Coast Bankers’         Preferred Stock w/
12/23/2008                                                               $11,600,000                                                                                                                                                                                                      $881,568
             Bancshares, San Francisco, CA2 Exercised Warrants

             Pacific Coast National Bancorp, Preferred Stock w/
1/16/2009                                                                 $4,120,000    2/11/2010      ($4,120,000)              $0                                                                                                                                                        $18,088
             San Clemente, CA2, 19           Exercised Warrants

             Pacific Commerce Bank,           Preferred Stock w/
12/23/2008                                                                $4,060,000                                                                                                                                                                                                      $276,588
             Los Angeles, CA2                 Exercised Warrants

             Pacific International Bancorp,   Preferred Stock w/
12/12/2008                                                                $6,500,000                                                                                                   $0.00                   $7.94      $7.63        127,785              ($3.63)          OUT          $138,125
             Seattle, WA                      Warrants

             Park Bancorporation, Inc.,       Preferred Stock w/
3/6/2009                                                                 $23,200,000                                                                                                                                                                                                    $1,506,743
             Madison, WI2                     Exercised Warrants

             Park National Corporation,       Preferred Stock w/
12/23/2008                                                              $100,000,000                                                                                                  $65.04                 $967.99     $65.97        227,376              ($3.66)          OUT        $6,972,222
             Newark, OH                       Warrants

             Parke Bancorp, Inc.,             Preferred Stock w/
1/30/2009                                                                $16,288,000                                                                                                   $9.26                  $41.10      $7.41        329,757               $1.71             IN       $1,051,933
             Sewell, NJg                      Warrants

             Parkvale Financial Corporation, Preferred Stock w/
12/23/2008                                                               $31,762,000                                                                                                   $8.38                  $46.33     $12.66        376,327               ($5.2)          OUT        $2,214,517
             Monroeville, PA                 Warrants

             Pascack Bancorp, Inc.
                                              Preferred Stock w/
2/6/2009     (Pascack Community Bank),                                    $3,756,000                                                                                                                                                                                                      $261,018
                                              Exercised Warrants
             Westwood, NJ2, 13 - 2/10/2010

             Patapsco Bancorp, Inc.,          Preferred Stock w/
12/19/2008                                                                $6,000,000                                                                                                                                                                                                      $377,867
             Dundalk, MD2                     Exercised Warrants

             Pathfinder Bancorp, Inc.,        Preferred Stock w/
9/11/2009                                                                 $6,771,000                                                                                                   $6.00                  $14.91      $6.58        154,354               $1.27             IN         $229,462
             Oswego, NY                       Warrants

                                              Preferred Stock w/
3/27/2009    Pathway Bancorp, Cairo, NE2                                  $3,727,000                                                                                                                                                                                                       $77,852
                                              Exercised Warrants

             Patriot Bancshares, Inc.,        Preferred Stock w/
12/19/2008                                                               $26,038,000                                                                                                                                                                                                    $1,994,596
             Houston, TX2                     Exercised Warrants
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 21, 2010




             Patterson Bancshares, Inc,       Preferred Stock w/
4/17/2009                                                                 $3,690,000                                                                                                                                                                                                       $15,645
             Patterson, LA2                   Exercised Warrants

             Peapack-Gladstone Financial      Preferred Stock w/
1/9/2009                                                                 $28,685,000     1/6/2010       $7,172,000       $21,513,000                                                  $11.70                 $102.75     $28.63        150,296             ($12.92)          OUT        $1,807,740
             Corporation, Gladstone, NJ4, g   Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                                        231
                                                                                                                                                                                                                                                                                                               232
CPP Transaction Detail, as of 6/30/2010                                                    (ContiNued)
                                                                                                      Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                                    Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                            Investment                                                                                                       Final Disposition                                                                                       In or Out of
             Institution                                                     Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                                Description                                                                                                             Proceeds                                                                                         the Moneye
                                                                                                      Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Peninsula Bank Holding Co.,            Preferred Stock w/
1/30/2009                                                                          $6,000,000                                                                                                 $6.25                  $11.58     $11.02          81,670             ($4.47)          OUT           $75,000
             Palo Alto, CA                          Warrants

             Penn Liberty Financial Corp.,          Preferred Stock w/
4/17/2009                                                                          $9,960,000                                                                                                                                                                                                    $585,039
             Wayne, PA2                             Exercised Warrants

                                                    Preferred Stock w/
2/13/2009    Peoples Bancorp, Lynden, WA2                                         $18,000,000                                                                                                                                                                                                  $1,231,700
                                                    Exercised Warrants

             Peoples Bancorp Inc., Marietta, Preferred Stock w/
1/30/2009                                                                         $39,000,000                                                                                                $14.50                 $152.25     $18.66        313,505              ($2.18)          OUT        $2,518,750
             OH                              Warrants

             Peoples Bancorp of North               Preferred Stock w/
12/23/2008                                                                        $25,054,000                                                                                                 $4.80                  $26.59     $10.52        357,234              ($4.57)          OUT        $1,746,821
             Carolina, Inc., Newton, NC             Warrants

             Peoples Bancorporation, Inc.,          Preferred Stock w/
4/24/2009                                                                         $12,660,000                                                                                                                                                                                                    $730,218
             Easley, SC2                            Exercised Warrants

             Peoples Bancshares of TN, Inc, Preferred Stock w/
3/20/2009                                                                          $3,900,000                                                                                                                                                                                                    $245,023
             Madisonville, TN2              Exercised Warrants

             PeoplesSouth Bancshares, Inc., Preferred Stock w/
3/6/2009                                                                          $12,325,000                                                                                                                                                                                                    $800,431
             Colquitt, GA2                  Exercised Warrants
                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 21, 2010




             PFSB Bancorporation, Inc.,             Preferred Stock w/
9/11/2009                                                                          $1,500,000                                                                                                                                                                                                     $55,164
             Pigeon Falls, WI2, 10                  Exercised Warrants

                                                3
2/6/2009     PGB Holdings, Inc., Chicago, IL Preferred Stock                       $3,000,000                                                                                                                                                                                                    $191,250

             Pierce County Bancorp, Tacoma, Preferred Stock w/
1/23/2009                                                                          $6,800,000                                                                                                                                                                                                    $207,948
             WA2                            Exercised Warrants

             Pinnacle Bank Holding           Preferred Stock w/
3/6/2009                                                                           $4,389,000                                                                                                                                                                                                    $284,999
             Company, Inc., Orange City, FL2 Exercised Warrants

             Pinnacle Financial Partners, Inc., Preferred Stock w/
12/12/2008                                                                        $95,000,000                                                                                                $12.85                 $428.65     $26.64        267,455             ($11.53)          OUT        $6,768,750
             Nashville, TNb                     Warrants

             Plains Capital Corporation,            Preferred Stock w/
12/19/2008                                                                        $87,631,000                                                                                                                                                                                                  $6,712,835
             Dallas, TX2                            Exercised Warrants

                                                    Subordinated
             Plato Holdings Inc., Saint Paul,
7/17/2009                                           Debentures w/                  $2,500,000                                                                                                                                                                                                    $171,570
             MN8, 10
                                                    Exercised Warrants

                                                    Preferred Stock w/
1/30/2009    Plumas Bancorp, Quincy, CA                                           $11,949,000                                                                                                 $2.71                  $12.94      $7.54        237,712               ($4.8)          OUT          $622,344
                                                    Warrants

                                                    Trust Preferred
12/5/2008    Popular, Inc., San Juan, PR12                                       $935,000,000                                                                                                 $2.68               $1,713.97      $6.70     20,932,836              ($3.79)          OUT      $54,671,528
                                                    Securities w/ Warrants

             Porter Bancorp Inc., Louisville,       Preferred Stock w/
11/21/2008                                                                        $35,000,000                                                                                                $12.62                 $133.50     $16.68        314,820              ($3.58)          OUT        $2,595,833
             KY                                     Warrants

             Prairie Star Bancshares, Inc.,         Preferred Stock w/
4/3/2009                                                                           $2,800,000                                                                                                                                                                                                    $132,253
             Olathe, KS2, g                         Exercised Warrants

             Premier Bancorp, Inc., Wilmette, Subordinated
5/8/2009                                                                           $6,784,000                                                                                                                                                                                                    $532,525
             IL3, 8                           Debentures

             Premier Bank Holding Company, Preferred Stock w/
3/20/2009                                                                          $9,500,000                                                                                                                                                                                                    $467,413
             Tallahassee, FL2              Exercised Warrants

             Premier Financial Bancorp, Inc., Preferred Stock w/
10/2/2009                                                                         $22,252,000                                                                                                 $7.88                  $62.54      $5.31        628,588               $3.31             IN         $689,194
             Huntington, WV                   Warrants

                                                    Subordinated
             Premier Financial Corp,
5/22/2009                                           Debentures w/                  $6,349,000                                                                                                                                                                                                    $522,263
             Dubuque, IA8
                                                    Exercised Warrants

             Premier Service Bank, Riverside, Preferred Stock w/
2/20/2009                                                                          $4,000,000                                                                                                                                                                                                     $54,500
             CA2                              Exercised Warrants

             PremierWest Bancorp, Medford, Preferred Stock w/
2/13/2009                                                                         $41,400,000                                                                                                 $0.40                  $40.14      $5.70       1,090,385             ($5.25)          OUT        $1,046,500
             ORg                           Warrants

             Presidio Bank, San Francisco,          Preferred Stock w/
11/20/2009                                                                        $10,800,000                                                                                                                                                                                                            $0
             CA2, 10                                Exercised Warrants

             Princeton National Bancorp, Inc., Preferred Stock w/
1/23/2009                                                                         $25,083,000                                                                                                 $6.15                  $20.36     $24.27        155,025             ($15.58)          OUT        $1,644,330
             Princeton, IL                     Warrants

                                                                                                                                                                                                                                                                                 Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)
                                                                                              Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                             Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                              Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Private Bancorporation, Inc.,      Preferred Stock w/
2/27/2009                                                                  $4,960,000
             Minneapolis, MN2, c                Exercised Warrants
                                                                                                                                                                                                                                                                                         $390,505
             Private Bancorporation, Inc.,
12/29/2009                                      Preferred Stock            $3,262,000
             Minneapolis, MN2, 10a, c

             PrivateBancorp, Inc., Chicago,     Preferred Stock w/
1/30/2009                                                                $243,815,000                                                                                                $11.08                 $791.53     $28.35        645,013             ($14.65)          OUT      $15,746,385
             ILb                                Warrants

             Providence Bank, Rocky Mount, Preferred Stock w/
10/2/2009                                                                  $4,000,000                                                                                                                                                                                                    $133,645
             NC2, 10                       Exercised Warrants

             Provident Community
                                                Preferred Stock w/
3/13/2009    Bancshares, Inc., Rock Hill,                                  $9,266,000                                                                                                 $2.17                   $3.88      $7.77        178,880              ($5.27)          OUT          $543,091
                                                Warrants
             SC

             PSB Financial Corporation,         Preferred Stock w/
2/27/2009                                                                  $9,270,000                                                                                                                                                                                                    $614,733
             Many, LA2                          Exercised Warrants

             Puget Sound Bank, Bellevue,        Preferred Stock w/
1/16/2009                                                                  $4,500,000                                                                                                                                                                                                    $326,319
             WA2                                Exercised Warrants

             Pulaski Financial Corp, Creve      Preferred Stock w/
1/16/2009                                                                 $32,538,000                                                                                                 $6.45                  $69.41      $6.27        778,421               $0.43             IN       $2,164,681
             Coeur, MO                          Warrants

                                                Preferred Stock w/
2/13/2009    QCR Holdings, Inc., Moline, IL                               $38,237,000                                                                                                 $9.87                  $45.23     $10.99        521,888              ($2.09)          OUT        $2,400,434
                                                Warrants

             Randolph Bank & Trust Company,Preferred Stock w/
10/30/2009                                                                 $6,229,000                                                                                                                                                                                                    $183,863
             Asheboro, NC2                 Exercised Warrants

             RCB Financial Corporation,         Preferred Stock w/
6/19/2009                                                                  $8,900,000                                                                                                                                                                                                    $424,814
             Rome, GA2, 10                      Exercised Warrants

             Redwood Capital Bancorp,           Preferred Stock w/
1/16/2009                                                                  $3,800,000                                                                                                                                                                                                    $275,558
             Eureka, CA2                        Exercised Warrants

             Redwood Financial Inc.,            Preferred Stock w/
1/9/2009                                                                   $2,995,000                                                                                                                                                                                                    $220,388
             Redwood Falls, MN2                 Exercised Warrants

                                                Preferred Stock w/
3/6/2009     Regent Bancorp, Inc., Davie, FL2                              $9,982,000                                                                                                                                                                                                    $648,279
                                                Exercised Warrants

             Regent Capital Corporation,        Preferred Stock w/
2/27/2009                                                                  $2,655,000                                                                                                                                                                                                    $176,076
             Nowata, OK2                        Exercised Warrants

             Regents Bancshares, Inc.,          Preferred Stock w/
10/23/2009                                                                $12,700,000                                                                                                                                                                                                    $375,546
             Vancouver, WA2, 10                 Exercised Warrants

             Regional Bankshares, Inc.,         Preferred Stock w/
2/13/2009                                                                  $1,500,000                                                                                                                                                                                                    $102,642
             Hartsville, SC2                    Exercised Warrants

             Regions Financial Corporation,     Preferred Stock w/
11/14/2008                                                             $3,500,000,000                                                                                                 $6.58               $7,846.46     $10.88     48,253,677              ($3.03)          OUT     $262,986,111
             Birmingham, AL                     Warrants

             Reliance Bancshares, Inc.,         Preferred Stock w/
2/13/2009                                                                 $40,000,000                                                                                                                                                                                                  $2,737,111
             Frontenac, MO2                     Exercised Warrants

             Ridgestone Financial Services,     Preferred Stock w/
2/27/2009                                                                 $10,900,000                                                                                                                                                                                                    $277,224
             Inc., Brookfield, WI2              Exercised Warrants

             Rising Sun Bancorp, Rising         Preferred Stock w/
1/9/2009                                                                   $5,983,000                                                                                                                                                                                                    $195,637
             Sun, MD2                           Exercised Warrants

                                                Subordinated
             River Valley Bancorporation, Inc.,
6/12/2009                                       Debentures w/             $15,000,000                                                                                                                                                                                                  $1,164,113
             Wausau, WI8
                                                Exercised Warrants

                                                Subordinated
             Riverside Bancshares, Inc.,
5/15/2009                                       Debentures w/              $1,100,000                                                                                                                                                                                                     $92,290
             Little Rock, AR8
                                                Exercised Warrants

             Rogers Bancshares, Inc.,           Preferred Stock w/
1/30/2009                                                                 $25,000,000                                                                                                                                                                                                    $738,021
             Little Rock, AR2                   Exercised Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I july 21, 2010




             Royal Bancshares of              Preferred Stock w/
2/20/2009                                                                 $30,407,000                                                                                                 $3.00                  $34.87      $4.13       1,104,370             ($1.66)          OUT          $358,971
             Pennsylvania, Inc., Narberth, PA Warrants

                                                Preferred Stock w/
1/16/2009    S&T Bancorp, Indiana, PA                                    $108,676,000                                                                                                $19.76                 $546.50     $31.53        517,012             ($10.63)          OUT        $7,229,973
                                                Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                       233
                                                                                                                                                                                                                                                                                                      234
CPP Transaction Detail, as of 6/30/2010                                           (ContiNued)
                                                                                             Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                           Capital         Capital       Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                      Investment                                                                                                    Final Disposition                                                                                       In or Out of
             Institution                                            Investment Amount   Repayment       Repayment          Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                          Description                                                                                                          Proceeds                                                                                         the Moneye
                                                                                             Date          Amount          Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Saigon National Bank,            Preferred Stock w/
12/23/2008                                                                $1,549,000                                                                                                                                                                                                            $0
             Westminster, CA2                 Exercised Warrants

             Salisbury Bancorp, Inc.,         Preferred Stock w/
3/13/2009                                                                 $8,816,000                                                                                                $23.78                  $40.14     $22.93          57,671              $1.87             IN         $516,716
             Lakeville, CT                    Warrants

             Sandy Spring Bancorp, Inc.,      Preferred Stock w/
12/5/2008                                                                $83,094,000                                                                                                $14.01                 $336.03     $19.13        651,547              ($4.13)          OUT        $6,001,233
             Olney, MD                        Warrants

             Santa Clara Valley Bank, N.A.,   Preferred Stock w/
2/13/2009                                                                 $2,900,000                                                                                                                                                                                                    $158,928
             Santa Paula, CA2                 Exercised Warrants

             Santa Lucia Bancorp,             Preferred Stock w/
12/19/2008                                                                $4,000,000                                                                                                 $6.70                  $13.42     $15.75          38,107             ($8.25)          OUT          $281,111
             Atascadero, CAg                  Warrants

             SBT Bancorp, Inc., Simsbury,     Preferred Stock w/
3/27/2009                                                                 $4,000,000                                                                                                                                                                                                    $247,067
             CT2                              Exercised Warrants

             SCBT Financial Corporation,      Preferred Stock w/
1/16/2009                                                                $64,779,000    5/20/2009      $64,779,000             $0    6/24/2009         R         $1,400,000         $35.22                 $449.55                                                                    $1,115,639
             Columbia, SC4                    Warrants

             Seacoast Banking Corporation     Preferred Stock w/
12/19/2008                                                               $50,000,000                                                                                                 $1.33                  $78.37      $6.36        589,623              ($4.67)          OUT          $388,889
             of Florida, Stuart, FLb          Warrants
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I july 21, 2010




             Seacoast Commerce Bank,          Preferred Stock w/
12/23/2008                                                                $1,800,000                                                                                                                                                                                                    $136,795
             Chula Vista, CA2                 Exercised Warrants

             Security Bancshares of Pulaski   Preferred Stock w/
2/13/2009                                                                 $2,152,000                                                                                                                                                                                                    $147,302
             County, Inc., Waynesville, MO2   Exercised Warrants

             Security Business Bancorp,       Preferred Stock w/
1/9/2009                                                                  $5,803,000                                                                                                                                                                                                    $426,938
             San Diego, CA2                   Exercised Warrants

             Security California Bancorp,     Preferred Stock w/
1/9/2009                                                                  $6,815,000                                                                                                                                                                                                    $501,445
             Riverside, CA2                   Exercised Warrants

             Security Capital Corporation,    Preferred Stock w/
6/26/2009                                                                $17,388,000                                                                                                                                                                                                    $812,014
             Batesville, MS2, 10              Exercised Warrants

             Security Federal Corporation,    Preferred Stock w/
12/19/2008                                                               $18,000,000                                                                                                 $9.00                  $22.15     $19.57        137,966              ($9.71)          OUT        $1,265,000
             Aiken, SC                        Warrants

             Security State Bancshares, Inc., Preferred Stock w/
2/20/2009                                                                $12,500,000                                                                                                                                                                                                    $842,100
             Charleston, MO2                  Exercised Warrants

                                              Subordinated
             Security State Bank Holding-
5/1/2009                                      Debentures w/              $10,750,000                                                                                                                                                                                                    $486,075
             Company, Jamestown, ND8
                                              Exercised Warrants

             Severn Bancorp, Inc., Annapolis, Preferred Stock w/
11/21/2008                                                               $23,393,000                                                                                                 $5.53                  $55.67      $6.30        556,976              ($2.55)          OUT        $1,734,981
             MD                               Warrants

             Shore Bancshares, Inc., Easton, Preferred Stock w/
1/9/2009                                                                 $25,000,000    4/15/2009      $25,000,000             $0                                                   $11.91                 $100.56     $21.68        172,970              ($7.43)          OUT          $333,333
             MD4                             Warrants

                                              Subordinated
             Signature Bancshares, Inc.,
6/26/2009                                     Debentures w/               $1,700,000                                                                                                                                                                                                    $126,387
             Dallas, TX8
                                              Exercised Warrants

                                              Preferred Stock w/
12/12/2008   Signature Bank, New York, NY4                              $120,000,000    3/31/2009     $120,000,000             $0    3/10/2010         A       $11,320,751          $38.01               $1,542.94                                                                    $1,816,667
                                              Warrants

             Somerset Hills Bancorp,          Preferred Stock w/
1/16/2009                                                                 $7,414,000    5/20/2009       $7,414,000             $0    6/24/2009         R           $275,000          $8.10                  $44.22                                                                      $127,686
             Bernardsville, NJ4               Warrants

             Sonoma Valley Bancorp,           Preferred Stock w/
2/20/2009                                                                 $8,653,000                                                                                                                                                                                                    $347,164
             Sonoma, CA2                      Exercised Warrants

             Sound Banking Company,           Preferred Stock w/
1/9/2009                                                                  $3,070,000                                                                                                                                                                                                    $225,936
             Morehead City, NC2               Exercised Warrants

             South Financial Group, Inc.,     Preferred Stock w/
12/5/2008                                                               $347,000,000                                                                                                 $0.27                  $58.77      $5.15     10,106,796              ($4.46)          OUT      $16,386,111
             Greenville, SC26 - 5/18/2010     Warrants

             SouthCrest Financial Group, Inc., Preferred Stock w/
7/17/2009                                                                $12,900,000                                                                                                                                                                                                    $581,969
             Fayetteville, GA2                 Exercised Warrants

             Southern Bancorp, Inc.,
1/16/2009                                     Preferred Stock            $11,000,000                                                                                                                                                                                                    $731,806
             Arkadelphia, AR3

             Southern Community Financial     Preferred Stock w/
12/5/2008                                                                $42,750,000                                                                                                 $2.24                  $37.67      $3.95       1,623,418             ($1.76)          OUT        $3,087,500
             Corp., Winston-Salem, NC         Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                            (ContiNued)
                                                                                              Capital Repayment Details                                        Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                            Capital          Capital        Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                        Investment                                                                                                     Final Disposition                                                                                       In or Out of
             Institution                                             Investment Amount   Repayment        Repayment           Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                            Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                              Date           Amount           Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             Southern First Bancshares, Inc., Preferred Stock w/
2/27/2009                                                                 $17,299,000                                                                                                   $7.25                  $22.77      $7.85        330,554               $0.25             IN       $1,052,356
             Greenville, SC                   Warrants

             Southern Heritage Bancshares, Preferred Stock w/
5/15/2009                                                                  $4,862,000                                                                                                                                                                                                      $264,970
             Inc., Cleveland, TN2          Exercised Warrants

             Southern Illinois Bancorp, Inc.,   Preferred Stock w/
1/23/2009                                                                  $5,000,000                                                                                                                                                                                                      $357,278
             Carmi, IL2                         Exercised Warrants

             Southern Missouri Bancorp, Inc., Preferred Stock w/
12/5/2008                                                                  $9,550,000                                                                                                  $15.01                  $31.34     $12.53        114,326               $1.67             IN         $689,722
             Poplar Bluff, MO                 Warrants

             SouthFirst Bancshares, Inc.,       Preferred Stock w/
6/12/2009                                                                  $2,760,000                                                                                                                                                                                                      $139,139
             Sylacauga, AL2                     Exercised Warrants

             Southwest Bancorp, Inc.,           Preferred Stock w/
12/5/2008                                                                 $70,000,000                                                                                                  $13.29                 $257.63     $14.92        703,753              ($6.65)          OUT        $5,055,556
             Stillwater, OK                     Warrants

             Sovereign Bancshares, Inc.,        Preferred Stock w/
3/13/2009                                                                 $18,215,000                                                                                                                                                                                                    $1,163,712
             Dallas, TX2                        Exercised Warrants

             Spirit BankCorp, Inc., Bristow,    Preferred Stock w/
3/27/2009                                                                 $30,000,000                                                                                                                                                                                                    $1,853,000
             OK2                                Exercised Warrants

             St. Johns Bancshares, Inc., St.    Preferred Stock w/
3/13/2009                                                                  $3,000,000                                                                                                                                                                                                      $191,658
             Louis, MO2                         Exercised Warrants

             Standard Bancshares, Inc.,         Preferred Stock w/
4/24/2009                                                                 $60,000,000                                                                                                                                                                                                    $3,460,750
             Hickory Hills, IL2                 Exercised Warrants

                                                Preferred Stock w/
12/5/2008    State Bancorp, Inc., Jericho, NY                             $36,842,000                                                                                                   $9.50                 $157.92     $11.87        465,569                 ($4)          OUT        $2,660,811
                                                Warrants

             State Bankshares, Inc., Fargo,     Preferred Stock w/
1/16/2009                                                                 $50,000,000    8/12/2009      $12,500,000       $37,500,000                                                                                                                                                    $3,151,806
             ND2, 4                             Exercised Warrants

             State Capital Corporation,         Preferred Stock w/
2/13/2009                                                                 $15,000,000                                                                                                                                                                                                    $1,026,417
             Greenwood, MS2                     Exercised Warrants

             State Street Corporation,          Preferred Stock w/
10/28/2008                                                             $2,000,000,000    6/17/2009    $2,000,000,000              $0     7/8/2009         R       $60,000,000          $33.82             $16,968.00                                                                   $63,611,111
             Boston, MA5, 9                     Warrants

                                               Subordinated
             Stearns Financial Services, Inc.,
6/26/2009                                      Debentures w/              $24,900,000                                                                                                                                                                                                    $1,851,183
             St. Cloud, MN8
                                               Exercised Warrants

                                             Subordinated
             Steele Street Bank Corporation,
9/25/2009                                    Debentures w/                $11,019,000                                                                                                                                                                                                      $571,257
             Denver, CO8, 10
                                             Exercised Warrants

             StellarOne Corporation,            Preferred Stock w/
12/19/2008                                                                $30,000,000                                                                                                  $12.77                 $291.64     $14.87        302,623               ($1.5)          OUT        $2,108,333
             Charlottesville, VA                Warrants

                                                Preferred Stock w/
12/23/2008   Sterling Bancorp, New York, NY                               $42,000,000                                                                                                   $9.00                 $241.57     $12.19        516,817              ($2.14)          OUT        $2,928,333
                                                Warrants

             Sterling Bancshares, Inc.,         Preferred Stock w/
12/12/2008                                                               $125,198,000     5/5/2009     $125,198,000               $0     6/9/2010         A         $3,007,891          $4.71                 $479.94                                                                    $2,486,571
             Houston, TX4                       Warrants

             Sterling Financial Corporation,    Preferred Stock w/
12/5/2008                                                                $303,000,000                                                                                                   $0.55                  $28.70      $7.06       6,437,677             ($6.49)          OUT        $6,733,333
             Spokane, WA24                      Warrants

             Stewardship Financial              Preferred Stock w/
1/30/2009                                                                 $10,000,000                                                                                                   $8.60                  $50.24     $11.24        133,475              ($2.38)          OUT          $645,833
             Corporation, Midland Park, NJg     Warrants

             Stockmens Financial                Preferred Stock w/
2/6/2009                                                                  $15,568,000                                                                                                                                                                                                    $1,081,736
             Corporation, Rapid City, SD2       Exercised Warrants

             Stonebridge Financial Corp.,       Preferred Stock w/
1/23/2009                                                                 $10,973,000                                                                                                                                                                                                      $634,609
             West Chester, PA2                  Exercised Warrants

                                                Subordinated
             Suburban Illinois Bancorp, Inc.,
6/19/2009                                       Debentures w/             $15,000,000                                                                                                                                                                                                    $1,139,645
             Elmhurst, IL8
                                                Exercised Warrants

             Summit State Bank,                 Preferred Stock w/
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I july 21, 2010




12/19/2008                                                                 $8,500,000                                                                                                   $6.25                  $29.66      $5.33        239,212               $1.42             IN         $597,361
             Santa Rosa, CA                     Warrants

                                                Preferred Stock w/
1/9/2009     Sun Bancorp, Inc., Vineland, NJ4                             $89,310,000     4/8/2009      $89,310,000               $0    5/27/2009         R         $2,100,000          $3.76                  $88.02                                                                    $1,103,971
                                                Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                         235
CPP Transaction Detail, as of 6/30/2010                                                 (ContiNued)

                                                                                                                                                                                                                                                                                                              236
                                                                                                    Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                                 Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                         Investment                                                                                                         Final Disposition                                                                                       In or Out of
             Institution                                                  Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                             Description                                                                                                               Proceeds                                                                                         the Moneye
                                                                                                   Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             SunTrust Banks, Inc., Atlanta,      Preferred Stock w/
11/14/2008                                                                  $3,500,000,000                                                                                                                                     $44.15     11,891,280             ($20.85)          OUT
             GAc                                 Warrants
                                                                                                                                                                                             $23.3             $11,647.37                                                                  $376,006,944
             SunTrust Banks, Inc., Atlanta,      Preferred Stock w/
12/31/2008                                                                  $1,350,000,000                                                                                                                                     $33.70       6,008,902            ($10.40)          OUT
             GAc                                 Warrants

             Superior Bancorp Inc.,              Trust Preferred
12/5/2008                                                                      $69,000,000                                                                                                   $1.93                  $24.24      $5.38       1,923,792             ($2.25)          OUT        $4,983,333
             Birmingham, AL17                    Securities w/ Warrants

             Surrey Bancorp, Mount Airy,         Preferred Stock w/
1/9/2009                                                                        $2,000,000                                                                                                                                                                                                      $147,150
             NC2                                 Exercised Warrants

             Susquehanna Bancshares, Inc,        Preferred Stock w/
12/12/2008                                                                    $300,000,000     4/21/2010     $200,000,000 $100,000,000                                                       $8.33               $1,079.94     $14.86       3,028,264             ($5.05)          OUT      $20,708,333
             Lititz, PA4                         Warrants

                                                 Preferred Stock w/
4/10/2009    SV Financial, Inc., Sterling, IL2                                  $4,000,000                                                                                                                                                                                                      $239,194
                                                 Exercised Warrants

             SVB Financial Group, Santa          Preferred Stock w/
12/12/2008                                                                    $235,000,000    12/23/2009     $235,000,000             $0     6/16/2010         R         $6,820,000         $41.23               $1,720.94                                                                  $12,109,028
             Clara, CA5                          Warrants

                                                 Subordinated
             Sword Financial Corporation,
5/8/2009                                         Debentures w/                 $13,644,000                                                                                                                                                                                                    $1,166,962
             Horicon, WI8
                                                 Exercised Warrants
                                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I july 21, 2010




             Synovus Financial Corp.,            Preferred Stock w/
12/19/2008                                                                    $967,870,000                                                                                                   $2.54               $2,138.28      $9.36     15,510,737              ($6.07)          OUT      $68,019,753
             Columbus, GA                        Warrants

                                                 Preferred Stock w/
1/16/2009    Syringa Bancorp, Boise, ID2                                        $8,000,000                                                                                                                                                                                                      $253,122
                                                 Exercised Warrants

             Taylor Capital Group,               Preferred Stock w/
11/21/2008                                                                    $104,823,000                                                                                                  $12.94                 $236.49     $10.75       1,462,647              $2.23             IN       $7,774,373
             Rosemont, IL                        Warrants

                                                 Subordinated
             TCB Corporation, Greenwood,
8/28/2009                                        Debentures w/                  $9,720,000                                                                                                                                                                                                      $563,070
             SC8, 10
                                                 Exercised Warrants

             TCB Holding Company, Texas
                                                 Preferred Stock w/
1/16/2009    Community Bank,                                                   $11,730,000                                                                                                                                                                                                      $690,832
                                                 Exercised Warrants
             The Woodlands, TX2

             TCF Financial Corporation,          Preferred Stock w/
11/14/2008                                                                    $361,172,000     4/22/2009     $361,172,000             $0    12/15/2009         A         $9,599,964         $16.61               $2,361.33                                                                    $7,925,719
             Wayzata, MN4                        Warrants

             TCNB Financial Corp., Dayton,       Preferred Stock w/
12/23/2008                                                                      $2,000,000                                                                                                                                                                                                      $151,994
             OH2                                 Exercised Warrants

             Tennessee Commerce Bancorp, Preferred Stock w/
12/19/2008                                                                     $30,000,000                                                                                                   $6.45                  $36.43      $9.75        461,538               ($2.2)          OUT        $2,108,333
             Inc., Franklin, TN          Warrants

             Tennessee Valley Financial          Preferred Stock w/
12/23/2008                                                                      $3,000,000                                                                                                                                                                                                      $146,242
             Holdings, Inc., Oak Ridge, TN2      Exercised Warrants

             Texas Capital Bancshares, Inc., Preferred Stock w/
1/16/2009                                                                      $75,000,000     5/13/2009      $75,000,000             $0     3/11/2010         A         $6,709,061         $16.40                 $599.16                                                                    $1,218,750
             Dallas, TX4                     Warrants

             Texas National Bancorporation, Preferred Stock w/
1/9/2009                                                                        $3,981,000     5/19/2010       $3,981,000             $0     5/19/2010         R           $199,000                                                                                                             $295,308
             Jacksonville, TX2, 4, 7        Exercised Warrants

                                              Preferred Stock w/
8/7/2009     The ANB Corporation, Terrell, TX2                                 $20,000,000                                                                                                                                                                                                      $841,722
                                              Exercised Warrants

             The Bancorp, Inc., Wilmington,      Preferred Stock w/
12/12/2008                                                                     $45,220,000     3/10/2010      $45,220,000             $0                                                     $7.83                 $205.00      $3.46        980,203               $5.44             IN       $2,813,689
             DE5, b                              Warrants

             The Bank of Currituck, Moyock, Preferred Stock w/
2/6/2009                                                                        $4,021,000                                                                                                                                                                                                      $169,834
             NC2                            Exercised Warrants

             The Bank of Kentucky Financial Preferred Stock w/
2/13/2009                                                                      $34,000,000                                                                                                  $15.40                  $87.27     $18.56        274,784               $1.38             IN       $2,134,444
             Corporation, Crestview Hills, KY Warrants

             The Bank of New York Mellon         Preferred Stock w/
10/28/2008                                                                  $3,000,000,000     6/17/2009   $3,000,000,000             $0      8/5/2009         R      $136,000,000          $24.69             $29,947.51                                                                   $95,416,667
             Corporation, New York, NY4          Warrants

             The Baraboo Bancorporation,         Preferred Stock w/
1/16/2009                                                                      $20,749,000                                                                                                                                                                                                    $1,504,567
             Baraboo, WI2                        Exercised Warrants

             The Connecticut Bank and            Preferred Stock w/
12/19/2008                                                                      $5,448,000                                                                                                   $5.88                  $20.97      $4.65        175,742              ($0.15)          OUT          $204,300
             Trust Company, Hartford, CT         Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                                (ContiNued)
                                                                                                  Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                                Capital          Capital      Remaining         Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                            Investment                                                                                                   Final Disposition                                                                                       In or Out of
             Institution                                                 Investment Amount   Repayment        Repayment         Capital   Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                                Description                                                                                                         Proceeds                                                                                         the Moneye
                                                                                                  Date           Amount         Amount          Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             The Elmira Savings Bank, FSB,          Preferred Stock w/
12/19/2008                                                                     $9,090,000                                                                                                $17.00                  $29.51     $11.70        116,538                $5.5             IN         $638,825
             Elmira, NY                             Warrants

             The First Bancorp, Inc.,               Preferred Stock w/
1/9/2009                                                                      $25,000,000                                                                                                $13.13                 $128.04     $16.60        225,904              ($0.66)          OUT        $1,687,500
             Damariscotta, ME                       Warrants

             The First Bancshares, Inc.,            Preferred Stock w/
2/6/2009                                                                       $5,000,000                                                                                                 $7.35                  $22.20     $13.71          54,705             ($4.26)          OUT          $318,750
             Hattiesburg, MS                        Warrants

             The Freeport State Bank,               Preferred Stock w/
2/6/2009                                                                         $301,000                                                                                                                                                                                                       $8,610
             Harper, KS2                            Exercised Warrants

             The Goldman Sachs Group, Inc., Preferred Stock w/
10/28/2008                                                                $10,000,000,000    6/17/2009 $10,000,000,000              $0    7/22/2009         R    $1,100,000,000         $131.27             $67,576.33                                                                  $318,055,555
             New York, NY4                  Warrants

             The Landrum Company,                   Preferred Stock w/
5/22/2009                                                                     $15,000,000                                                                                                                                                                                                    $801,604
             Columbia, MO2                          Exercised Warrants

             The Little Bank, Incorporated,         Preferred Stock w/
12/23/2008                                                                     $7,500,000                                                                                                                                                                                                    $569,980
             Kinston, NC2                           Exercised Warrants

             The PNC Financial Services             Preferred Stock w/
12/31/2008                                                                 $7,579,200,000    2/10/2010    $7,579,200,000            $0    4/29/2010         A      $324,195,686          $56.50             $29,721.83                                                                  $421,160,967
             Group Inc., Pittsburgh, PA4            Warrants

             The Private Bank of California,        Preferred Stock w/
2/20/2009                                                                      $5,450,000                                                                                                                                                                                                    $367,212
             Los Angeles, CA2                       Exercised Warrants

             The Queensborough Company,             Preferred Stock w/
1/9/2009                                                                      $12,000,000                                                                                                                                                                                                    $882,900
             Louisville, GA2                        Exercised Warrants

                                                    Subordinated
             The State Bank of Bartley,
9/4/2009                                            Debentures w/              $1,697,000                                                                                                                                                                                                     $96,012
             Bartley, NE8, 10
                                                    Exercised Warrants

             The Victory Bancorp, Inc.,             Preferred Stock w/
12/11/2009                                                                     $1,505,000
             Limerick, PA2, 10a, c                  Exercised Warrants
                                                                                                                                                                                                                                                                                              $69,367
             The Victory Bancorp, Inc.
                                                Preferred Stock w/
2/27/2009    (The Victory Bank), Limerick, PA2,                                  $541,000
             13 - 12/4/2009, c                  Exercised Warrants

             Three Shores Bancorporation,
                                                    Preferred Stock w/
1/23/2009    Inc. (Seaside National Bank &                                     $5,677,000                                                                                                                                                                                                    $405,671
                                                    Exercised Warrants
             Trust), Orlando, FL2, 13 - 12/4/2009

                                                    Preferred Stock w/
12/5/2008    TIB Financial Corp, Naples, FLg                                  $37,000,000                                                                                                 $0.50                   $7.38      $5.02       1,106,389             ($4.32)          OUT        $1,284,722
                                                    Warrants

             Tidelands Bancshares, Inc, Mt.         Preferred Stock w/
12/19/2008                                                                    $14,448,000                                                                                                 $1.52                   $6.50      $3.79        571,821              ($1.29)          OUT        $1,015,373
             Pleasant, SC                           Warrants

             Tifton Banking Company,                Preferred Stock w/
4/17/2009                                                                      $3,800,000                                                                                                                                                                                                    $223,208
             Tifton, GA2                            Exercised Warrants

             Timberland Bancorp, Inc.,              Preferred Stock w/
12/23/2008                                                                    $16,641,000                                                                                                 $3.30                  $23.25      $6.73        370,899              ($2.73)          OUT          $952,236
             Hoquiam, WA                            Warrants

             Titonka Bancshares, Inc,               Preferred Stock w/
4/3/2009                                                                       $2,117,000                                                                                                                                                                                                    $128,852
             Titonka, IA2                           Exercised Warrants

             Todd Bancshares, Inc.,                 Preferred Stock w/
2/6/2009                                                                       $4,000,000                                                                                                                                                                                                    $277,950
             Hopkinsville, KY2                      Exercised Warrants

                                                    Preferred Stock w/
12/12/2008   TowneBank, Portsmouth, VA                                        $76,458,000                                                                                                $14.52                 $406.02     $21.31        538,184              ($7.35)          OUT        $5,447,633
                                                    Warrants

             Treaty Oak Bancorp, Inc.,              Preferred Stock w/
1/16/2009                                                                      $3,268,000                                                                                                                                                                                                    $192,415
             Austin, TX2                            Exercised Warrants

             Triad Bancorp, Inc., Frontenac,        Preferred Stock w/
3/27/2009                                                                      $3,700,000                                                                                                                                                                                                    $228,537
             MO2                                    Exercised Warrants

             Tri-County Financial Corporation, Preferred Stock w/
12/19/2008                                                                    $15,540,000                                                                                                                                                                                                  $1,190,408
             Waldorf, MD2                      Exercised Warrants
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I july 21, 2010




             Trinity Capital Corporation, Los Preferred Stock w/
3/27/2009                                                                     $35,539,000                                                                                                                                                                                                  $2,195,131
             Alamos, NM2                      Exercised Warrants

             Tri-State Bank of Memphis,
4/3/2009                                            Preferred Stock            $2,795,000                                                                                                                                                                                                    $156,054
             Memphis, TN2, 3

                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                           237
                                                                                                                                                                                                                                                                                                          238
CPP Transaction Detail, as of 6/30/2010                                             (ContiNued)
                                                                                                Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                             Capital          Capital       Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                          Interest/
Purchase                                         Investment                                                                                                     Final Disposition                                                                                       In or Out of
             Institution                                              Investment Amount   Repayment        Repayment          Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                  Dividends Paid
Date                                             Description                                                                                                           Proceeds                                                                                         the Moneye
                                                                                               Date           Amount          Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                        to Treasury

             TriState Capital Holdings, Inc.,    Preferred Stock w/
2/27/2009                                                                  $23,000,000                                                                                                                                                                                                    $1,529,268
             Pittsburgh, PA2                     Exercised Warrants

                                                 Preferred Stock w/
4/3/2009     TriSummit Bank, Kingsport, TN2, c                              $2,765,000
                                                 Exercised Warrants
                                                                                                                                                                                                                                                                                            $252,399
             TriSummit Bank, Kingsport,
12/22/2009                                       Preferred Stock            $4,237,000
             TN2, 10a, c

             Trustmark Corporation,              Preferred Stock w/
11/21/2008                                                                $215,000,000     12/9/2009     $215,000,000             $0    12/30/2009         R       $10,000,000          $20.82               $1,329.75                                                                  $11,287,500
             Jackson, MS4                        Warrants

             Two Rivers Financial Group,         Preferred Stock w/
5/29/2009                                                                  $12,000,000                                                                                                                                                                                                      $628,567
             Burlington, IA2                     Exercised Warrants

             U.S. Bancorp,                       Preferred Stock w/
11/14/2008                                                              $6,599,000,000     6/17/2009   $6,599,000,000             $0     7/15/2009         R      $139,000,000          $22.35             $42,842.58                                                                  $195,220,417
             Minneapolis, MN4                    Warrants

                                                 Preferred Stock w/
8/7/2009     U.S. Century Bank, Miami, FL2                                 $50,236,000                                                                                                                                                                                                      $745,312
                                                 Exercised Warrants

             UBT Bancshares, Inc.,               Preferred Stock w/
1/30/2009                                                                   $8,950,000                                                                                                                                                                                                      $630,334
             Marysville, KS2                     Exercised Warrants
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 21, 2010




             UCBH Holdings, Inc., San            Preferred Stock w/
11/14/2008                                                                $298,737,000                                                                                                   $0.01                   $1.24      $5.71       7,847,732             ($5.67)          OUT        $7,509,920
             Francisco, CA14                     Warrants

             Umpqua Holdings Corp.,              Preferred Stock w/
11/14/2008                                                                $214,181,000     2/17/2010     $214,181,000             $0     3/31/2010         R         $4,500,000         $11.48               $1,314.59                                                                  $13,475,555
             Portland, OR5, 9                    Warrants

             Union Bank & Trust Company,         Preferred Stock w/
5/1/2009                                                                    $3,194,000
             Oxford, NC2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                            $242,059
             Union Bank & Trust Company,
12/18/2009                                       Preferred Stock            $2,997,000
             Oxford, NC2, 10a, c

             Union Financial Corporation,
                                                 Preferred Stock w/
12/29/2009   Albuquerque,                                                   $2,179,000                                                                                                                                                                                                       $43,369
                                                 Exercised Warrants
             NM2, 10

             Union First Market Bankshares
2/6/2009     Corporation (First Market Bank, Preferred Stock               $33,900,000                                                                                                                                                                                                    $1,821,889
             FSB), Bowling Green, VA18

             Union First Market Bankshares
             Corporation (Union Bankshares Preferred Stock w/
12/19/2008                                                                 $59,000,000    11/18/2009      $59,000,000             $0    12/23/2009         R           $450,000         $12.26                 $317.87                                                                    $3,229,709
             Corporation), Bowling Green,  Warrants
             VA5, 9, 18

             United American Bank, San           Preferred Stock w/
2/20/2009                                                                   $8,700,000                                                                                                                                                                                                              $0
             Mateo, CA2                          Exercised Warrants

             United Bancorp, Inc., Tecumseh, Preferred Stock w/
1/16/2009                                                                  $20,600,000                                                                                                   $6.25                  $31.70      $9.92        311,492              ($2.92)          OUT        $1,370,472
             MI                              Warrants

             United Bancorporation of            Preferred Stock w/
12/23/2008                                                                 $10,300,000                                                                                                                                     $14.56        106,131              ($9.61)          OUT          $718,139
             Alabama, Inc., Atmore, ALg          Warrants

                                                 Subordinated
             United Bank Corporation,
5/22/2009                                        Debentures w/             $14,400,000                                                                                                                                                                                                    $1,184,672
             Barnesville, GA8
                                                 Exercised Warrants

             United Community Banks, Inc.,       Preferred Stock w/
12/5/2008                                                                 $180,000,000                                                                                                   $3.95                 $372.18     $12.28       1,099,542             ($7.87)          OUT      $13,000,000
             Blairsville, GAf                    Warrants

             United Financial Banking            Preferred Stock w/
1/16/2009                                                                   $5,658,000                                                                                                                                                                                                      $410,304
             Companies, Inc., Vienna, VA2        Exercised Warrants

                                                 Preferred Stock w/
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                              $20,649,000                                                                                                   $5.35                  $38.28      $4.05        764,778               $1.24             IN       $1,491,317
                                                 Warrants

             Universal Bancorp, Bloomfield,      Preferred Stock w/
5/22/2009                                                                   $9,900,000                                                                                                                                                                                                      $529,059
             IN2                                 Exercised Warrants

             University Financial Corp, Inc.,    Subordinated
6/19/2009                                                                  $11,926,000                                                                                                                                                                                                      $831,573
             St. Paul, MN3, 8                    Debentures

             US Metro Bank, Garden               Preferred Stock w/
2/6/2009                                                                    $2,861,000                                                                                                                                                                                                      $198,798
             Grove, CA2                          Exercised Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
CPP Transaction Detail, as of 6/30/2010                                          (ContiNued)
                                                                                             Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies

                                                                                          Capital          Capital         Remaining          Final                                Stock Price   Market Capitalization    Current        Current     Amount “In the                           Interest/
Purchase                                      Investment                                                                                                       Final Disposition                                                                                       In or Out of
             Institution                                           Investment Amount   Repayment        Repayment            Capital    Disposition   Note15                             as of      as of 6/30/2010        Strike    Outstanding   Money” or “Out of                   Dividends Paid
Date                                          Description                                                                                                             Proceeds                                                                                         the Moneye
                                                                                            Date           Amount            Amount           Date                                 6/30/2010              (in millions)    Pricea      Warrantsa       the Money”e                         to Treasury

             Uwharrie Capital Corp,           Preferred Stock w/
12/23/2008                                                              $10,000,000                                                                                                                                                                                                         $759,972
             Albemarle, NC2                   Exercised Warrants

             Valley Commerce Bancorp,         Preferred Stock w/
1/30/2009                                                                $7,700,000                                                                                                                                                                                                         $542,048
             Visalia, CA2                     Exercised Warrants

             Valley Community Bank,           Preferred Stock w/
1/9/2009                                                                 $5,500,000                                                                                                                                                                                                         $404,663
             Pleasanton, CA2                  Exercised Warrants

             Valley Financial Corporation,    Preferred Stock w/
12/12/2008                                                              $16,019,000                                                                                                     $3.88                  $18.16      $6.97        344,742              ($2.52)          OUT           $941,117
             Roanoke, VA                      Warrants

             Valley Financial Group, Ltd.,    Preferred Stock w/
12/18/2009                                                               $1,300,000                                                                                                                                                                                                          $28,930
             1st State Bank, Saginaw, MI2     Exercised Warrants

             Valley National Bancorp, Wayne, Preferred Stock w/
11/14/2008                                                                               6/3/2009      $75,000,000 $225,000,000         5/18/2010         A         $5,571,592
             NJ4, c                          Warrants

             Valley National Bancorp, Wayne, Preferred Stock w/
11/14/2008                                                             $300,000,000     9/23/2009     $125,000,000 $100,000,000                                                        $13.62               $2,192.33                                                                   $12,979,167
             NJ4, c                          Warrants

             Valley National Bancorp, Wayne, Preferred Stock w/
11/14/2008                                                                             12/23/2009     $100,000,000               $0
             NJ4, c                          Warrants

             Village Bank and Trust           Preferred Stock w/
5/1/2009                                                                $14,738,000                                                                                                     $2.90                  $12.29      $4.43        499,029              ($0.96)          OUT           $765,557
             Financial Corp, Midlothian, VA   Warrants

             Virginia Commerce Bancorp,       Preferred Stock w/
12/12/2008                                                              $71,000,000                                                                                                     $6.25                 $168.36      $3.95       2,696,203               $2.7             IN        $5,058,750
             Arlington, VA                    Warrants

             Virginia Company Bank,           Preferred Stock w/
6/12/2009                                                                $4,700,000                                                                                                                                                                                                         $229,280
             Newport News, VA2, 10            Exercised Warrants

             Vision Bank - Texas, Richardson, Preferred Stock w/
4/24/2009                                                                $1,500,000                                                                                                                                                                                                          $86,519
             TX2                              Exercised Warrants

             VIST Financial Corp.,            Preferred Stock w/
12/19/2008                                                              $25,000,000                                                                                                     $7.66                  $44.89     $10.19        367,984              ($1.22)          OUT         $1,756,944
             Wyomissing, PAf                  Warrants

             W.T.B. Financial Corporation,    Preferred Stock w/
1/30/2009                                                              $110,000,000                                                                                                                                                                                                       $7,743,541
             Spokane, WA2                     Exercised Warrants

             Wachusett Financial Services,    Preferred Stock w/
12/11/2009                                                              $12,000,000                                                                                                                                                                                                         $275,070
             Inc., Clinton, MA2, 10           Exercised Warrants

             Wainwright Bank & Trust          Preferred Stock w/
12/19/2008                                                              $22,000,000    11/24/2009      $22,000,000               $0    12/16/2009         R           $568,700         $18.65                 $135.94                                                                     $1,023,611
             Company, Boston, MA4             Warrants

             Washington Banking Company,      Preferred Stock w/
1/16/2009                                                               $26,380,000                                                                                                    $12.79                 $195.73      $8.04        246,082               $4.55             IN        $1,755,003
             Oak Harbor, WAb                  Warrants

             Washington Federal, Inc.,        Preferred Stock w/
11/14/2008                                                             $200,000,000     5/27/2009     $200,000,000               $0      3/9/2010         A       $15,623,222          $16.18               $1,819.85                                                                     $5,361,111
             Seattle, WA4                     Warrants

             WashingtonFirst Bankshares,
10/30/2009                                    Preferred Stock            $6,842,000
             Inc., Reston, VA2, 10a, c
                                                                                                                                                                                                                                                                                            $652,280
             WashingtonFirst Bankshares, Inc.
                                              Preferred Stock w/
1/30/2009    (WashingtonFirst Bank), Reston,                             $6,633,000
                                              Exercised Warrants
             VA2, 13 - 10/30/2009, c

             Waukesha Bankshares, Inc.,       Preferred Stock w/
6/26/2009                                                                $5,625,000                                                                                                                                                                                                         $262,696
             Waukesha, WI2, 10                Exercised Warrants

             Webster Financial Corporation,   Preferred Stock w/
11/21/2008                                                             $400,000,000      3/3/2010     $100,000,000 $300,000,000                                                        $17.94               $1,407.84     $18.28       3,282,276             ($0.79)          OUT       $28,666,667
             Waterbury, CT4                   Warrants

             Wells Fargo & Company, San       Preferred Stock w/
10/28/2008                                                          $25,000,000,000    12/23/2009 $25,000,000,000                $0     5/20/2010         A      $849,014,998          $25.60            $133,379.89                                                                  $1,440,972,222
             Francisco, CA4                   Warrants

                                              Preferred Stock w/
12/5/2008    WesBanco, Inc., Wheeling, WV4                              $75,000,000      9/9/2009      $75,000,000               $0    12/23/2009         R           $950,000         $16.85                 $447.67                                                                     $2,854,167
                                              Warrants

             West Bancorporation, Inc.,       Preferred Stock w/
12/31/2008                                                              $36,000,000                                                                                                     $6.81                 $118.52     $11.39        474,100              ($4.81)          OUT         $2,475,000
             West Des Moines, IA              Warrants
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I july 21, 2010




             Westamerica Bancorporation,      Preferred Stock w/
2/13/2009                                                                                9/2/2009      $41,863,000       $41,863,000
             San Rafael, CA4, c               Warrants
                                                                        $83,726,000                                                                                                    $52.52               $1,540.10     $50.92        246,640               $6.73             IN        $2,755,981
             Westamerica Bancorporation,      Preferred Stock w/
2/13/2009                                                                              11/18/2009      $41,863,000               $0
             San Rafael, CA4, c               Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                          239
                                                                                                                                                                                                                                                                                                                                                     240
 CPP Transaction Detail, as of 6/30/2010                                                       (ContiNued)
                                                                                                                Capital Repayment Details                                                   Final Disposition                                                     Warrant and Market Data for Publicly Traded Companies

                                                                                                            Capital             Capital        Remaining              Final                                       Stock Price    Market Capitalization         Current           Current      Amount “In the                             Interest/
Purchase                                          Investment                                                                                                                                Final Disposition                                                                                                     In or Out of
                Institution                                                   Investment Amount          Repayment           Repayment           Capital        Disposition       Note15                                as of       as of 6/30/2010             Strike       Outstanding    Money” or “Out of                     Dividends Paid
Date                                              Description                                                                                                                                      Proceeds                                                                                                       the Moneye
                                                                                                              Date              Amount           Amount               Date                                        6/30/2010               (in millions)         Pricea         Warrantsa        the Money”e                           to Treasury

                Western Alliance               Preferred Stock w/
11/21/2008                                                                         $140,000,000                                                                                                                         $7.17                  $524.42         $13.34           787,107                ($7.65)           OUT       $10,383,333
                Bancorporation, Las Vegas, NVb Warrants

                Western Community Bancshares, Preferred Stock w/
12/23/2008                                                                            $7,290,000                                                                                                                                                                                                                                       $554,083
                Inc., Palm Desert, CA2        Exercised Warrants

                Western Illinois Bancshares Inc., Preferred Stock w/
12/23/2008                                                                            $6,855,000
                Monmouth, IL2, c                  Exercised Warrants
                                                                                                                                                                                                                                                                                                                                       $607,259
                Western Illinois Bancshares Inc.,
12/29/2009                                        Preferred Stock                     $4,567,000
                Monmouth, IL2, 10a, c

                Western Reserve Bancorp, Inc,     Preferred Stock w/
5/15/2009                                                                             $4,700,000                                                                                                                                                                                                                                       $256,150
                Medina, OH2                       Exercised Warrants

                White River Bancshares            Preferred Stock w/
2/20/2009                                                                           $16,800,000                                                                                                                                                                                                                                      $1,131,783
                Company, Fayetteville, AR2        Exercised Warrants

                Whitney Holding Corporation,      Preferred Stock w/
12/19/2008                                                                         $300,000,000                                                                                                                         $9.25                  $892.29         $17.10         2,631,579                ($3.31)           OUT       $21,083,333
                New Orleans, LA                   Warrants

                Wilmington Trust Corporation,     Preferred Stock w/
12/12/2008                                                                         $330,000,000                                                                                                                        $11.09                $1,011.39         $26.66         1,856,714               ($10.09)           OUT       $23,512,500
                Wilmington, DE                    Warrants
                                                                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I july 21, 2010




                Wilshire Bancorp, Inc., Los       Preferred Stock w/
12/12/2008                                                                          $62,158,000                                                                                                                         $8.75                  $259.11          $9.82           949,460                 $1.21              IN        $4,428,758
                Angeles, CA                       Warrants

                Wintrust Financial Corporation,   Preferred Stock w/
12/19/2008                                                                         $250,000,000                                                                                                                        $33.34                $1,036.07         $22.82         1,643,295                $14.39              IN      $17,569,444
                Lake Forest, IL                   Warrants

                Worthington Financial Holdings, Preferred Stock w/
5/15/2009                                                                             $2,720,000                                                                                                                                                                                                                                       $148,240
                Inc., Huntsville, AL2           Exercised Warrants

                WSFS Financial Corporation,       Preferred Stock w/
1/23/2009                                                                           $52,625,000                                                                                                                        $35.93                  $255.00         $45.08           175,105                ($6.08)           OUT         $3,449,862
                Wilmington, DE                    Warrants

                Yadkin Valley Financial           Preferred Stock w/
1/16/2009                                                                           $36,000,000                                                                                                                         $3.38                   $54.54         $13.99           385,990                ($9.69)           OUT
                Corporation, Elkin, NCc           Warrants
                                                                                                                                                                                                                                                                                                                                     $2,933,027
                Yadkin Valley Financial           Preferred Stock w/
7/24/2009                                                                           $13,312,000                                                                                                                         $3.38                   $54.54          $7.30           273,534                    ($3)          OUT
                Corporation, Elkin, NCc           Warrants

                                                  Preferred Stock w/
4/24/2009       York Traditions Bank, York, PA2                                       $4,871,000                                                                                                                                                                                                                                       $280,998
                                                  Exercised Warrants

                Zions Bancorporation,             Preferred Stock w/
11/14/2008                                                                       $1,400,000,000                                                                                                                        $21.57                $3,456.83         $36.27         5,789,909               ($14.43)           OUT      $105,194,444
                Salt Lake City, UT                Warrants


                                                                                                      Total Capital                                                               Total
                                                  Total Purchase Amount      $204,901,756,320          Repayment $138,396,175,000                                              Warrant $5,774,221,117.67
                                                                                                           Amount                                                             Proceeds



                                                                                                      Total Losses    ($2,334,120,000)



                                                                           TOTAL TREASURY CPP INVESTMENT
                                                                                                                       $64,171,461,320
                                                                                     AMOUNT OUTSTANDING




Notes: Numbers affected by rounding. Data as of 6/30/2010. Numeric notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 6/30/2010.
1a
   This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
transaction under the CPP was funded on 1/9/2009.
1b
   The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and $124,228,646.
Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
  Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
  To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
    Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
  Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
  Redemption pursuant to a qualified equity offering.
6
  This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
  The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
  Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
  In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   This institution participated in the expansion of CPP for small banks.
10a
    This institution received an additional investment through the expansion of CPP for small banks.
11
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares)
“dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692
shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   As of the date of this report, this institution is in bankruptcy proceedings.
15
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
   On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to holders
of CVRs were not met.
17
   On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate equivalent to
those of Treasury’s original investment.
19
   On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends. Subject to
the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid dividends.
Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On April 26,
2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell up to 1,500,000,000 shares of the common stock, which authority ended on May 26, 2010 upon completion of the sale. (See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following
page.) On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Such sales will generally be made at the market price. Treasury will report the
actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from such sales at the close of that period.
24
   On 4/29/2010, Treasury entered into an agreement with Sterling Financial Corporation (Sterling) to exchange Treasury’s $303,000,000 of Preferred Stock for an equivalent amount of Mandatory Convertible Preferred Stock (MCP). The closing of the exchange for MCP is subject to the receipt of regulatory and stockholder approvals.
Subject to the fulfillment by Sterling of the conditions related to its capital plan, the MCP may be converted to common stock.
25
   As of the date of this report, the banking subsidiary of this institution has been placed in receivership and the subsidiary’s assets and liabilities were ordered to be sold to another bank.
26
   On 5/18/2010, Treasury entered into an agreement with The Toronto-Dominion Bank for the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Treasury at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000.00 for the Warrants. Completion of the sale is subject to
the fulfillment of certain closing conditions.
27
   On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
a
  According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike price presented reflects
these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 6/30/2010.
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
f
  According to Treasury, these institutions’ warrants were modified via Qualified Equity Offerings and Stock Dividend.
g
  According to Treasury, these institutions’ warrants were increased via Stock Dividend.
h
  According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2010.




  Table D.2

    CPP - Citigroup, Inc. Common Stock Disposition, as of 6/30/2010
    Note          Date                 Pricing           Number of Shares           Proceeds4
                                       Mechanism3

    1             4/26/2010 –          $4.1217           1,500,000,000               $6,182,493,158
                  5/26/2010

    2             5/26/2010 –          $3.8980           1,108,971,857               $4,322,726,825
                  6/30/2010

                                       Total                                        $10,505,219,983
                                       Proceeds:

    Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
    1
     On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to
    1,500,000,000 shares of common stock from time to time during the period ending on June 30, 2010 (or upon completion of the sale). Completion of the
    sale under this authority occurred on May 26, 2010.
    2
     On May 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to
    1,500,000,000 shares of common stock from time to time during the period ending on June 30, 2010 (or upon completion of the sale). Completion of the
    sale under this authority occurred on June 30, 2010.
    3
     The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
    period.
    4
     Amount represents the gross proceeds to Treasury.

    Source: Treasury, Transactions Report, 7/1/2010.
                                                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I july 21, 2010
                                                                                                                                                                                                                                                                                                                                                   241
                                                                                                                                                                                                                                                                                                                                                        242
    Table D.3

     SSFI (AIG) Transaction Detail, as of 6/30/2010
                                             Seller                  Purchase Details                                                                                               Exchange Details                                                                     Warrants and Market Data

                                                                                                                                                                                                                                                                                                                                          Dividends/
                                                                                                                                                                                                                                                Stock         Market                     Outstanding   Amount “In the                        Interest
                                                                     Transaction    Investment                        Investment   Pricing                         Transaction Investment              Investment           Pricing        Price as of Capitalization       Strike           Warrant Money” or “Out of                           Paid
    Note     Date             Institution    City          State     Type           Description                          Amount    Mechanism       Date            Type        Description             Amount               Mechanism     3/31/2010      (in millions)       Price           Sharesa     the Money”a          In/Outa    to Treasury

                                                                                    Preferred Stock w/                                                                          Preferred Stock w/
    1        11/25/2008       AIG            New York      NY        Purchase                                  $40,000,000,000     Par             4/17/2009       Exchange                            $40,000,000,000 Par                     $34.44       $4,651.85      $50.00          2,689,938              ($15.86)    OUT                 $0
                                                                                    Warrants                                                                                    Warrants
                                                                                    Preferred Stock w/
    2, 3     4/17/2009        AIG            New York      NY        Purchase                                  $29,835,000,000     Par                                                                                                         $34.44       $4,651.85 $0.00002                    150              $34.14     IN                  $0
                                                                                    Warrants
                                                                                    Total                     $69,835,000,000



    Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
    1
      On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to Treasury of
    $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
    2
      The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
    3
      This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.
    a
      When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

    Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2010.
                                                                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 21, 2010




Table D.4

    TIP Transaction Detail, as of 6/30/2010
                                                                                                                                                                        Treasury Investment
                                                                                                                                         Capital Repayment             Remaining After Capital
                                    Seller                                                                                                     Details                      Repayment                               Final Disposition                                          Market and Warrants Data

                                                                                                                                                                                                                                                                                                             Amount “In                   Dividends/
                                                                                                                                            Capital       Capital   Remaining      Remaining Final               Final                           Final      Stock         Market                Outstanding the Money”                       Interest
                                                          Transaction Investment                         Investment   Pricing            Repayment        Repayment   Capital      Capital     Disposition       Disposition               Disposition Price as of Capitalization      Strike       Warrant   or “Out of     In/                 Paid
Note Date           Institution     City            State Type        Description                           Amount    Mechanism             Amount        Date2       Amount       Description Date              Description                Proceeds 6/30/2010       (in millions)      Price        Shares the Money”a      Outa        to Treasury

           12/31/                                                        Trust Preferred                                                                  12/23/
1          2008     Citigroup Inc. New York         NY    Purchase       Securities w/ Warrants    $20,000,000,000    Par          $20,000,000,000        2009                $0   Warrants                                                                  $3.76       $108,964 $10.61 188,501,414              ($6.56)    OUT $1,568,888,889
                    Bank of
           1/16/    America                                              Preferred Stock w/                                                               12/9/
           2009     Corporation     Charlotte       NC    Purchase       Warrants                  $20,000,000,000    Par          $20,000,000,000        2009                $0   Warrants      3/3/2010        Warrants         $1,255,639,099.00         $14.37       $144,173                                                   $1,435,555,556
                                                                                                                      Total
                                                                                                                      Capital
                                                                         Total Investment         $40,000,000,000     Repayment $40,000,000,000                                                    Total Warrant Proceeds       $1,255,639,099.00

                                                                                         Total Treasury TIP Investment Amount $0



Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock, Series I
(TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
a When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2010.
Table D.5

 AGP Transaction Detail, as of 6/30/2010
                               Initial Investment b                                Premium                                 Exchange/Transfer/Other Details                                          Payment or Disposition                                                Market and Warrants Data

                                                                                                                                                                                                                                                                                                    Amount
                                                                                                                                                                                                                                                                                                    “In the
                                                                                                                                                                                                                                                                                                    Money”              Dividends/
                                                                                                                                                                                                                     Remaining        Remaining              Market                     Outstanding or “Out             Interest
                 Institution       Transaction                        Guarantee                                                                                                   Payment        Payment             Premium          Premium          Stock Capitalization Strike      Warrant     of the              Paid
Note Date        Name              Type        Description                 Limit   Description Amount          Date      Type              Description Amount            Date     Type           Amount              Desc             Amount           Price (in millions) Price        Shares      Money”a In/Outa     to Treasury

                                                                                                                         Exchange                                            Partial
                                                                                                                                           Trust
                                                                                   Preferred                             preferred                                           cancellation                         Trust Preferred
        1/16/    Citigroup Inc.,                  Master                                                      6/9/                         Preferred                  12/23/
1,2,3                              Guarantee                     $5,000,000,000    Stock       $4,034,000,000            stock for                     $4,034,000,000        for early           ($1,800,000,000) Securities w/ $2,234,000,000 $3.76 $108,964.35 $10.61 66,531,728 ($6.56) OUT                          $366,046,667
        2009     New York, NY                     Agreement                                                   2009                         Securities                 2009
                                                                                   w/ Warrants                           trust preferred                                     termination                          Warrants
                                                                                                                                           w/ Warrants
                                                                                                                         securities                                          of guarantee

        12/23/ Citigroup Inc.,                    Termination
3                                  Termination                  ($5,000,000,000)
        2009   New York, NY                       Agreement

                                                  Total                      $0

Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes taken verbatim from 7/1/2010 Transactions Report.
1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock
Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust Preferred
Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee Program.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2010.




Table D.6

 TALF Transaction Detail, as of 6/30/2010
                               Seller

                                                                     Transaction    Investment             Investment            Pricing
Note      Date            Institution      City            State     Type           Description            Amount                Mechanism

                                                                                    Debt Obligation w/                           N/A
1         3/3/2009        TALF LLC         Wilmington      DE        Purchase                              $20,000,000,000
                                                                                    Additional Note

Note: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions
Report.
1
  The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of
$20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.

Source: Treasury, Transactions Report, 7/1/2010.
                                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I july 21, 2010
                                                                                                                                                                                                                                                                                                                                         243
Table D.7


                                                                                                                                                                                                                                                                                                                               244
PPIP Transaction Detail, as of 6/30/2010
                                                                                                                                                               3                                               Investment after Capital
                    Seller                                                                                                               Adjusted Investment                Capital Repayment Details                                                   Distribution or Disposition
                                                                                                                                                                                                               Repayment

                                                                                                                                                                                                                                                                                                                Interest/
                                                                                Transaction Investment           Investment    Pricing                                          Repayment          Repayment                                                                                             Dividend Paid to
Note   Date         Institution                       City              State   Type        Description             Amount     Mechanism Date                      Amount            Date             Amount                Amount        Description   Date            Description       Proceeds              Treasury

                                                                                            Debt Obligation
                    AG GECC PPIF Master
2,6    10/30/2009                                     Wilmington DE             Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,542,675,000                                                                                                                                          $23,820,378
                    Fund, L.P.                                              
                                                                                            Proceeds

                    AG GECC PPIF Master                                                     Membership
1,6    10/30/2009                                     Wilmington DE             Purchase                      $1,111,111,111   Par       3/22/2010     $1,271,337,500
                    Fund, L.P.                                                              Interest

                    AllianceBernstein Legacy                                                Debt Obligation
2,6    10/2/2009    Securities Master Fund, Wilmington                  DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000                                                                                                                                      $24,159,791.51
                    L.P.                                                                    Proceeds

                    AllianceBernstein Legacy
                                                                                            Membership
1,6    10/2/2009    Securities Master Fund, Wilmington                  DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500
                                                                                            Interest
                    L.P.

                                                                                            Debt Obligation
2,6    10/2/2009    Blackrock PPIF, L.P.              Wilmington        DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000                                                                                                                                           $6,349,207
                                                                                            Proceeds

                                                                                            Membership
1,6    10/2/2009    Blackrock PPIF, L.P.              Wilmington        DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500
                                                                                            Interest
                                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 21, 2010




                    Invesco Legacy
                                                                                            Membership
1,6    9/30/2009    Securities Master                 Wilmington        DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500                                                                                                                                          $14,836,974
                                                                                            Interest
                    Fund, L.P.

                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                            2/18/2010       $4,888,718         $2,483,986,282             w/ Contingent
                                                                                                                                                                                                                                          Proceeds
                    Invesco Legacy                                                          Debt Obligation
2,6    9/30/2009    Securities Master                 Wilmington        DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000
                    Fund, L.P.                                                              Proceeds                                                                                                                                      Debt Obligation
                                                                                                                                                                            4/15/2010       $7,066,434         $2,476,919,848             w/ Contingent
                                                                                                                                                                                                                                          Proceeds

                    Marathon Legacy Securi-                                                 Debt Obligation
2,6    11/25/2009   ties Public-Private Invest- Wilmington              DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000                                                                                                                                           $3,426,992
                    ment Partnership, L.P.                                                  Proceeds

                    Marathon Legacy Securi-
                                                                                            Membership
1,6    11/25/2009   ties Public-Private Invest- Wilmington              DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500
                                                                                            Interest
                    ment Partnership, L.P.

                                                                                            Debt Obligation
2,6    12/18/2009   Oaktree PPIP Fund, L.P.           Wilmington        DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000                                                                                                                                             $261,451
                                                                                            Proceeds

                                                                                            Membership
1,6    12/18/2009   Oaktree PPIP Fund, L.P.           Wilmington        DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500
                                                                                            Interest

                                                                                            Debt Obligation
                    RLJ Western Asset Public/
2,6    11/4/2009                              Wilmington                DE      Purchase    w/ Contingent     $2,222,222,222   Par       3/22/2010     $2,488,875,000                                                                                                                                          $15,483,075
                    Private Master Fund, L.P.
                                                                                            Proceeds

                    RLJ Western Asset Public/                                               Membership
1,6    11/4/2009                              Wilmington                DE      Purchase                      $1,111,111,111   Par       3/22/2010     $1,244,437,500
                    Private Master Fund, L.P.                                               Interest

                    UST/TCW Senior                                                          Debt Obligation                                                                                                                               Debt Obligation
2,4    9/30/2009    Mortgage Securities               Wilmington        DE      Purchase    w/ Contingent     $2,222,222,222   Par       1/4/2010      $200,000,000         1/11/2010       $34,000,000        $166,000,000               w/ Contingent                 N/A                                    $20,986,495
                    Fund, L.P.                                                              Proceeds                                                                                                                                      Proceeds

                    UST/TCW Senior                                                          Debt Obligation
                                                                                                                                                                                                                                          Contingent
2,4    9/30/2009    Mortgage Securities               Wilmington        DE      Purchase    w/ Contingent                      Par       1/4/2010                           1/12/2010       $166,000,000                  $0                                1/29/2010   Distribution 5     $502,302
                                                                                                                                                                                                                                          Proceeds
                    Fund, L.P.                                                              Proceeds

                    UST/TCW Senior                                                          Debt Obligation
                                                                                                                                                                                                                                          Contingent
2,4    9/30/2009    Mortgage Securities               Wilmington        DE      Purchase    w/ Contingent                      Par       1/4/2010                           1/12/2010                                     $0                            2/24/2010       Distribution 5       $1,223
                                                                                                                                                                                                                                          Proceeds
                    Fund, L.P.                                                              Proceeds

                    UST/TCW Senior
                                                                                            Membership                                                                                                                                    Membership
1,4    9/30/2009    Mortgage Securities               Wilmington        DE      Purchase                      $1,111,111,111   Par       1/4/2010      $156,250,000         1/15/2010       $156,250,000                  $0                            1/29/2010       Distribution 5   $20,091,872
                                                                                            Interest                                                                                                                                      Interest 5
                    Fund, L.P.

                                                                                                                                                                                                                                                                                                     Continued on next page.
    PPIP Transaction Detail, as of 6/30/2010                                                    (CONTinued)
                                                                                                                                                                                                                          Investment after Capital
                         Seller                                                                                                                Adjusted Investment3                Capital Repayment Details                                                        Distribution or Disposition
                                                                                                                                                                                                                          Repayment

                         UST/TCW Senior
                                                                                     Membership                                                                                                                                                      Membership
1,4      9/30/2009       Mortgage Securities       Wilmington   DE      Purchase                                               Par             1/4/2010                            1/15/2010                                          $0                            2/24/2010        Distribution 5           $48,922
                                                                                     Interest                                                                                                                                                        Interest 5
                         Fund, L.P.

                         Wellington Management                                       Debt Obligation
2,6      10/1/2009       Legacy Securities PPIF    Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222      Par             3/22/2010     $2,524,075,000                                                                                                                                                       $5,256,991
                         Master Fund, LP                                             Proceeds

                         Wellington Management
                                                                                     Membership
1,6      10/1/2009       Legacy Securities PPIF    Wilmington   DE      Purchase                           $1,111,111,111      Par             3/22/2010     $1,262,037,500
                                                                                     Interest
                         Master Fund, LP

                                                                                                                                               Total
                                                                                                                                                                                   Total Capital
                                                                                                                                               Investment    $30,356,250,000                          $368,205,152                                                                   Total Proceeds      $20,644,319
                                                                                                                                                                                   Repayment
                                                                                                                                               Amount

Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement. The adjusted amount shows Treasury’s final investments in the fund. (See note 6.)
5
  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010.




    Table D.8

     AIFP TRANSACTION DETAIL, AS OF 6/30/2010
                          Initial Investment                                                                           Exchange/Transfer/Other Details                       Treasury Investment After Exchange/Transfer/Other                                    Payment or Disposition1

                                                                                                                                                                                                                                                                                                             Remaining
                                                                                                                                                                                                                                                                                      Remaining             Investment            Dividends/
                                  Transaction                                                                                                                                                                              Amount/                                           Amount/ Investment               Amount/        Interest Paid to
    Institution   Date            Type        Seller      Description                  Amount Note Date                Type                                 Amount Note Obligor           Note     Description             Equity % Date             Type                    Proceeds Description             Equity %             Treasurya

                  12/29/2008 Purchase          GMAC       Preferred Stock    $5,000,000,000            12/30/2009      Exchange for               $5,000,000,000          GMAC            21, 22 Convertible        $5,250,000,000
                                                          w/ Exercised                                                 convertible preferred                                                     Preferred
                                                          Warrants                                                     stock                                                                     Stock

                  5/21/2009       Purchase     GMAC       Convertible        $7,500,000,000 22         12/30/2009      Partial exchange for       $3,000,000,000          GMAC            21, 22 Convertible        $4,875,000,000
                                                          Preferred Stock                                              common stock                                                              Preferred
                                                          w/ Exercised                                                                                                                           Stock
                                                          Warrants

                                                                                                                                                                          GMAC                     Common
                                                                                                                                                                                                   Stock
    GMAC,                                                                                                                                                                                                                     56.3%
                                                                                                                                                                                                                                                                                                                            $1,320,855,486
    Detroit, MI                                                                                                                                                           GMAC            3        Common
                                                                                                                                                                                                   Stock

                  12/30/2009 Purchase          GMAC       Trust Preferred    $2,540,000,000
                                                          Securities
                                                          w/ Exercised
                                                          Warrants

                  12/30/2009 Purchase          GMAC       Convertible        $1,250,000,000 22
                                                          Preferred Stock
                                                          w/ Exercised
                                                          Warrants

                                                                                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I july 21, 2010
                                                                                                                                                                                                                                                                                                                                                245
Table D.8                                                                                                                                                                                                                                                                                                  246
                                                                                            (CONTinued)
 AIFP TRANSACTION DETAIL, AS OF 6/30/2010
                     Initial Investment                                                                   Exchange/Transfer/Other Details                 Treasury Investment After Exchange/Transfer/Other                           Payment or Disposition1

                                                                                                                                                                                                                                                                           Remaining
                                                                                                                                                                                                                                                        Remaining         Investment         Dividends/
                          Transaction                                                                                                                                                              Amount/                                     Amount/ Investment           Amount/     Interest Paid to
Institution   Date        Type        Seller          Description               Amount Note Date          Type                              Amount Note Obligor       Note    Description          Equity % Date          Type                 Proceeds Description         Equity %          Treasurya

              12/29/2008 Purchase         General     Debt Obligation     $884,024,131 2      5/29/2009   Exchange for equity       $884,024,131 3
                                          Motors                                                          interest in GMAC
                                          Corporation

              12/31/2008 Purchase         General     Debt Obligation   $13,400,000,000       7/10/2009   Exchange for preferred $13,400,000,000 7
                                          Motors      w/ Additional                                       and common stock in
                                          Corporation Note                                                New GM

              4/22/2009   Purchase        General     Debt Obligation    $2,000,000,000 4     7/10/2009   Exchange for preferred   $2,000,000,000 7     General Motors 10, 11 Preferred     $2,100,000,000
                                          Motors      w/ Additional                                       and common stock in                           Company               Stock
                                          Corporation Note                                                New GM

              5/20/2009   Purchase        General     Debt Obligation    $4,000,000,000 5     7/10/2009   Exchange for preferred   $4,000,000,000 7     General Motors 10, 11 Common                  60.8%
                                          Motors      w/ Additional                                       and common stock in                           Company               Stock
                                          Corporation Note                                                New GM

              5/27/2009   Purchase        General     Debt Obligation     $360,624,198 6      7/10/2009   Exchange for preferred    $360,624,198 7      General Motors 11, 12 Debt          $7,072,488,605 7/10/2009      Partial          $360,624,198 Debt          $6,711,864,407
                                          Motors      w/ Additional                                       and common stock in                           Holdings LLC          Obligation                                  repayment                     Obligation
General                                   Corporation Note                                                New GM
Motors,b                                                                                                                                                                                                                                                                                 $662,328,915
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 21, 2010




Detroit, MI                                                                                                                                                                                                   12/18/2009 Partial         $1,000,000,000 Debt          $5,711,864,407
                                                                                                                                                                                                                         repayment                      Obligation

                                                                                                                                                                                                              1/21/2010   Partial           $35,084,421 Debt          $5,676,779,986
                                                                                                                                                                                                                          repayment                     Obligation

                                                                                                                                                                                                              3/31/2010   Partial        $1,000,000,000 Debt          $4,676,779,986
                                                                                                                                                                                                                          repayment                     Obligation

              6/3/2009    Purchase        General     Debt Obligation   $30,100,000,000 8     7/10/2009   Exchange for preferred $22,041,706,310 9                                                            4/20/2010   Repayment      $4,676,779,986 Debt                     $0
                                          Motors      w/ Additional                                       and common stock in                                                                                                                           Obligation
                                          Corporation Note                                                New GM

                                                                                              7/10/2009   Transfer of debt to      $7,072,488,605 9
                                                                                                          New GM

                                                                                              7/10/2009   Debt left at Old GM       $985,805,085 9      Motors                Debt            $985,805,085
                                                                                                                                                        Liquidation           Obligation
                                                                                                                                                        Company


              1/16/2009   Purchase        Chrysler    Debt Obligation    $1,500,000,000 13                                                                                                                    3/17/2009   Partial            $3,499,055 Debt          $1,496,500,945
                                          FinCo       w/ Additional                                                                                                                                                       repayment                     Obligation
                                                      Note                                                                                                                                                                                              w/
                                                                                                                                                                                                                                                        Additional
                                                                                                                                                                                                                                                        Note

                                                                                                                                                                                                              4/17/2009   Partial           $31,810,122 Debt          $1,464,690,823
                                                                                                                                                                                                                          repayment                     Obligation
                                                                                                                                                                                                                                                        w/
                                                                                                                                                                                                                                                        Additional
                                                                                                                                                                                                                                                        Note

Chrysler                                                                                                                                                                                                      5/18/2009   Partial           $51,136,084 Debt          $1,413,554,739
FinCo,                                                                                                                                                                                                                    repayment                     Obligation
                                                                                                                                                                                                                                                                                            $7,405,894
Farmington                                                                                                                                                                                                                                              w/
Hills, MI                                                                                                                                                                                                                                               Additional
                                                                                                                                                                                                                                                        Note

                                                                                                                                                                                                              6/17/2009   Partial           $44,357,710 Debt          $1,369,197,029
                                                                                                                                                                                                                          repayment                     Obligation
                                                                                                                                                                                                                                                        w/
                                                                                                                                                                                                                                                        Additional
                                                                                                                                                                                                                                                        Note

                                                                                                                                                                                                              7/14/2009   Repayment      $1,369,197,029 Additional               $0
                                                                                                                                                                                                                                                        Note

                                                                                                                                                                                                              7/14/2009   Repayment         $15,000,000 None                      —

                                                                                                                                                                                                                                                                                 Continued on next page.
AIFP TRANSACTION DETAIL, AS OF 6/30/2010                                                           (CONTinued)
                       Initial Investment                                                                             Exchange/Transfer/Other Details                        Treasury Investment After Exchange/Transfer/Other                                        Payment or Disposition1

                                                                                                                                                                                                                                                                                                                 Remaining
                                                                                                                                                                                                                                                                                         Remaining              Investment            Dividends/
                             Transaction                                                                                                                                                                                      Amount/                                           Amount/ Investment                Amount/        Interest Paid to
Institution   Date           Type        Seller          Description                  Amount Note Date                 Type                                Amount Note Obligor              Note     Description              Equity % Date            Type                     Proceeds Description              Equity %             Treasurya


              1/2/2009       Purchase       Chrysler     Debt Obligation     $4,000,000,000           6/10/2009        Transfer of debt to         $500,000,000 19         Chrysler         20       Debt            $3,500,000,000 5/24/2010                            $1,900,000,000 None
                                            Holding      w/ Additional                                                 New Chrysler                                        Holding                   Obligation
                                                         Note                                                                                                                                        w/ Additional                                     Termination
                                                                                                                                                                                                     Note                                              and
                                                                                                                                                                                                                                                       Settlement
              4/29/2009      Purchase       Chrysler     Debt Obligation                  $ — 14                                                                                                                                                       Payment20
                                            Holding      w/ Additional
                                                         Note

              4/29/2009      Purchase       Chrysler     Debt Obligation       $280,130,642 15                                                                                                                                           7/10/2009     Repayment           $280,130,642 None                            $0
                                            Holding      w/ Additional
                                                         Note
Chrysler,c
              5/1/2009       Purchase       Chrysler LLC Debt Obligation     $1,888,153,580 16        4/30/2010        Completion of           ($1,888,153,580) 23         Old Carco        23       Rights to                     N/A 6/10/2010       Proceeds             $30,544,628 Right to                       N/A
Auburn                                                                                                                                                                                                                                                                                                                           $307,953,180
                                                         w/ Additional                                                 bankruptcy proceeding                               Liguidation               Recover                                           from sell of                     recover
Hills, MI
                                                         Note                                                          transfer of collateral                              Trust                     Proceeds                                          collateral                       proceeds
                                                                                                                       security to liquidation
              5/20/2009      Purchase       Chrysler LLC Debt Obligation                  $ — 17                       trust.
                                                         w/ Additional
                                                         Note

              5/27/2009      Purchase       Chrysler     Debt Obligation     $6,642,000,000 18        6/10/2009        Issuance of equity in                  $—           Chrysler Group 19         Debt            $7,142,000,000
                                            Group LLC    w/ Additional                                                 New Chrysler                                        LLC                       Obligation
                                                         Note, Equity                                                                                                                                w/ Additional
                                                                                                                                                                                                     Note

                                                                                                                                                                           Chrysler Group            Common                       9.9%
                                                                                                                                                                           LLC                       Equity

                                                Total Initial Investment                                                                                                                                                                                      Total
                                                                         $81,344,932,551                                                                                                                                                                            $10,783,163,775
                                                                 Amount                                                                                                                                                                                   Payments

                                                                                                                                                                                                                                                    Total Treasury
                                                                                                                                                                                                                                                                   $67,073,615,196
                                                                                                                                                                                                                                               Investment Amount

Notes: Numbers affected by rounding. Data as of 3/31/2010. Definitions and numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report. See www.financialstability.gov to see Transactions Report including colored lines referred to by Treasury.
“GMAC” refers to GMAC Inc., formerly known as GMAC LLC.
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC.”
“Old Chrysler” refers to Chrysler LLC.
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions marked
   by orange line in the table above and footnote 22.)
4
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed by the New GM,
   as explained in footnote 10.
7
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been disbursed by
   Treasury.
9
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a separate
   credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company” on an
   equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of 6/30/2009,
   Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
17
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had terminated.
18
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion. The
   total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new Chrysler was
   completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
                                                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I july 21, 2010




   Under the terms of an agreement dated 7/23/2009, Treasury agreed to hold the outstanding loans of Chrysler Holding in forbearance, and Chrysler Holding agreed to pay the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo in the event it receives proceeds from Chrysler FinCo.
21
   Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
22
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
   On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a liquida-
   tion trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
   This table includes AWCP transactions.
                                                                                                                                                                                                                                                                                                                                                    247




Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010.
                                                                                                                                                                                                                                                                                                   248


Table D.9

 ASSP Transaction Detail, as of 6/30/2010
                                        Seller                                                                                                    Adjustment Details                             Repayment4

                                                                                                                                                                                                                                       Remaining                                    “Dividends/
                                                                Transaction Investment                  Investment   Pricing        Adjustment            Adjustment     Adjusted Investment                                          Investment                                Interest Paid to
Note Date           Institution Name       City           State Type        Description                    Amount Mechanism               Date3              Amount                  Amount              Date              Type       Description                Amount               Treasury”

                                                                               Debt Obligation                                                                                                                                     Debt Obligation
                    GM Supplier Receiv-                                                                                                                                                                                  Partial
1,3   4/9/2009                             Wilmington     DE     Purchase      w/ Additional      $3,500,000,000             N/A      7/8/2009     ($1,000,000,000)          $2,500,000,000      11/20/2009                          w/ Additional        $140,000,000
                    ables LLC                                                                                                                                                                                        repayment
                                                                               Note                                                                                                                                                          Note

                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                         Partial
                                                                                                                                                                                                  2/11/2010                          w/ Additional        $100,000,000         $21,629,701.30
                                                                                                                                                                                                                     repayment
                                                                                                                                                                                                                                             Note

                                                                                                                                                                                                    3/4/2010        Repayment5 Additional Note              $50,000,000

1,6                                                                                                                                                                            $290,000,000         4/5/2010          Payment6              None            $56,541,893

                                                                               Debt Obligation
                    Chrysler Receivables
2,3   4/9/2009                           Wilmington       DE     Purchase      w/ Additional      $1,500,000,000             N/A      7/8/2009       ($500,000,000)          $1,000,000,000         3/9/2010        Repayment5 Additional Note            $123,076,735
                    SPV LLC
                                                                               Note                                                                                                                                                                                            $10,320,229.48
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I july 21, 2010




2,7                                                                                                                                                                            $123,076,735         4/7/2010          Payment7              None            $44,533,054

                                                                                Initial Total     $5,000,000,000                                      Adjusted Total         $3,500,000,000



Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on
4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
made effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
  All outstanding principal drawn under the credit agreement was repaid.
6
  Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed
under the loan, all of which have been repaid.
7
  Treasury’s commitment was $1 billion (see note 3). As of 4/7/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed
under the loan, all of which have been repaid.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010.
Table D.10

hamp Transaction Detail, as of 6/30/2010                                                (Continued)
               Servicer Modifying Borrowers’ Loans                                    Cap of Incentive Payments on                                              Adjustment Details
                                                                                        Behalf of Borrowers and to
                                             Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                           Market Capitalization
Date           Name of Institution           Type          Description                              Investors (Cap)1 Mechanism Date                 Amount         Adjusted Cap      Reason for Adjustment                                                     (in Millions)

                                                                                                                                                                                     Updated portfolio data
                                                                                                                                6/12/2009      $284,590,000        $660,590,000
                                                                                                                                                                                     from servicer

                                                                                                                                9/30/2009      $121,910,000        $782,500,000      Updated portfolio data from servicer & HPDP initial cap
               Select Portfolio Servicing,                 Financial Instrument for
4/13/2009                                    Purchase                                                $376,000,000         N/A
               Salt Lake City, UT                          Home Loan Modifications
                                                                                                                                12/30/2009     $131,340,000        $913,840,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                3/26/2010     ($355,530,000)       $558,310,000      Updated portfolio data from servicer

                                                                                                                                6/12/2009     ($991,580,000)     $1,079,420,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009     $1,010,180,000     $2,089,600,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                                12/30/2009    ($105,410,000)     $1,984,190,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                3/26/2010     ($199,300,000)     $1,784,890,000      Updated portfolio data from servicer & 2MP initial cap
               CitiMortgage, Inc.,                         Financial Instrument for
4/13/2009                                    Purchase                                              $2,071,000,000         N/A 4/19/2010           ($230,000)     $1,784,660,000      Transfer of cap to Service One, Inc. due to servicing transfer
               O’Fallon, MO                                Home Loan Modifications

                                                                                                                                                                                     Transfer of cap to Specialized
                                                                                                                                5/14/2010        ($3,000,000)    $1,781,660,000      Loan Servicing, LLC due to
                                                                                                                                                                                     servicing transfer

                                                                                                                                                                                     Transfer of cap to multiple
                                                                                                                                6/16/2010      ($12,280,000)     $1,769,380,000
                                                                                                                                                                                     servicers due to servicing transfer

                                                                                                                                6/17/2009     ($462,990,000)     $2,410,010,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009        $65,070,000     $2,475,080,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                                12/30/2009    $1,213,310,000     $3,688,390,000      Updated portfolio data from servicer & HAFA initial cap
               Wells Fargo Bank, NA,                       Financial Instrument for
4/13/2009                                    Purchase                                              $2,873,000,000         N/A 2/17/2010       $2,050,236,344     $5,738,626,344      Transfer of cap (from Wachovia) due to merger                                $133,380
               Des Moines, IA                              Home Loan Modifications
                                                                                                                                3/12/2010            $54,767     $5,738,681,110      Transfer of cap (from Wachovia) due to merger

                                                                                                                                3/19/2010      $668,108,890      $6,406,790,000      Initial 2MP cap

                                                                                                                                3/26/2010      $683,130,000      $7,089,920,000      Updated portfolio data from servicer

                                                                                                                                6/12/2009      $384,650,000      $1,017,650,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009     $2,537,240,000     $3,554,890,000      Updated portfolio data from servicer & HPDP initial cap

               GMAC Mortgage, Inc.,                        Financial Instrument for                                             12/30/2009   ($1,679,520,000)    $1,875,370,000      Updated portfolio data from servicer & HAFA initial cap
4/13/2009                                    Purchase                                                $633,000,000         N/A
               Ft. Washington, PA                          Home Loan Modifications
                                                                                                                                3/26/2010      $190,180,000      $2,065,550,000      Updated portfolio data from servicer

                                                                                                                                                                                     Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                                5/14/2010         $1,880,000     $2,067,430,000
                                                                                                                                                                                     servicing transfer

                                                                                                                                6/17/2009      $225,040,000        $632,040,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009      $254,380,000        $886,420,000      Updated portfolio data from servicer & HPDP initial cap

               Saxon Mortgage Services,                    Financial Instrument for                                             12/30/2009     $355,710,000      $1,242,130,000      Updated portfolio data from servicer & HAFA initial cap
4/13/2009                                    Purchase                                                $407,000,000         N/A
               Inc., Irving, TX                            Home Loan Modifications
                                                                                                                                3/26/2010      ($57,720,000)     $1,184,410,000      Updated portfolio data from servicer

                                                                                                                                                                                     Transfer of cap to Ocwen Financial Corporation, Inc. due to
                                                                                                                                6/16/2010     ($156,050,000)     $1,028,360,000
                                                                                                                                                                                     servicing transfer

               Chase Home Finance, LLC,                    Financial Instrument for
4/13/2009                                    Purchase                                              $3,552,000,000         N/A 7/31/2009      ($3,552,000,000)                $0      Termination of SPA
               Iselin, NJ2                                 Home Loan Modifications

                                                                                                                                6/12/2009     ($105,620,000)       $553,380,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009      $102,580,000        $655,960,000      Updated portfolio data from servicer & HPDP initial cap

               Ocwen Financial Corporation,                Financial Instrument for                                             12/30/2009     $277,640,000        $933,600,000      Updated portfolio data from servicer & HAFA initial cap
4/16/2009                                   Purchase                                                 $659,000,000         N/A                                                                                                                                        $1,021
               Inc., West Palm Beach, FL                   Home Loan Modifications
                                                                                                                                3/26/2010        $46,860,000       $980,460,000      Updated portfolio data from servicer

                                                                                                                                                                                     Transfer of cap from Saxon Mortgage Services, Inc. due to
                                                                                                                                6/16/2010      $156,050,000      $1,136,510,000
                                                                                                                                                                                     servicing transfer

                                                                                                                                6/12/2009         $5,540,000       $804,440,000      Updated portfolio data from servicer

                                                                                                                                9/30/2009      $162,680,000        $967,120,000      Updated portfolio data from servicer & HPDP initial cap
4/17/2009 as
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I july 21, 2010




               Bank of America, N.A.,                      Financial Instrument for
amended on                                   Purchase                                                $798,900,000         N/A 12/30/2009       $665,510,000      $1,632,630,000      Updated portfolio data from servicer & HAFA initial cap                      $144,173
               Simi Valley, CA                             Home Loan Modifications
1/26/2010
                                                                                                                                1/26/2010      $800,390,000      $2,433,020,000      Initial 2MP cap

                                                                                                                                3/26/2010     ($829,370,000)     $1,603,650,000      Updated portfolio data from servicer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 249
                                                                                                                                                                                                                                                                          250
hamp Transaction Detail, as of 6/30/2010                                              (Continued)
               Servicer Modifying Borrowers’ Loans                                  Cap of Incentive Payments on                                             Adjustment Details
                                                                                      Behalf of Borrowers and to
                                           Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                      Market Capitalization
Date           Name of Institution         Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                                 (in Millions)

                                                                                                                              6/12/2009    $3,318,840,000     $5,182,840,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009    ($717,420,000)     $4,465,420,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                              12/30/2009   $2,290,780,000     $6,756,200,000      Updated portfolio data from servicer & HAFA initial cap

4/17/2009 as                                                                                                                  1/26/2010      $450,100,000     $7,206,300,000      Initial 2MP cap
               Countrywide Home Loans                    Financial Instrument for
amended on                                   Purchase                                            $1,864,000,000         N/A
               Servicing LP, Simi Valley, CA             Home Loan Modifications                                              3/26/2010      $905,010,000     $8,111,310,000      Updated portfolio data from servicer
1/26/2010

                                                                                                                                                                                  Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                              4/19/2010       $10,280,000     $8,121,590,000
                                                                                                                                                                                  servicing transfer

                                                                                                                                                                                  Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                              6/16/2010      $286,510,000     $8,408,100,000
                                                                                                                                                                                  servicing transfer

                                                                                                                              6/12/2009      $128,300,000       $447,300,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009       $46,730,000       $494,030,000      Updated portfolio data from servicer & HPDP initial cap
               Home Loan Services, Inc.,                 Financial Instrument for
4/20/2009                                  Purchase                                                $319,000,000         N/A
               Pittsburgh, PA                            Home Loan Modifications
                                                                                                                              12/30/2009     $145,820,000       $639,850,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010      ($17,440,000)      $622,410,000      Updated portfolio data from servicer

                                                                                                                              6/12/2009       $87,130,000       $453,130,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009    ($249,670,000)       $203,460,000      Updated portfolio data from servicer & HPDP initial cap
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 21, 2010




                                                                                                                              12/30/2009     $119,700,000       $323,160,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010       $52,270,000       $375,430,000      Updated portfolio data from servicer
               Wilshire Credit Corporation,              Financial Instrument for
4/20/2009                                   Purchase                                               $366,000,000         N/A                                                       Transfer of cap to Countrywide Home Loans due to servicing
               Beaverton, OR                             Home Loan Modifications                                              4/19/2010      ($10,280,000)      $365,150,000
                                                                                                                                                                                  transfer

                                                                                                                                                                                  Transfer of cap to GMAC Mortgage, Inc. due to servicing
                                                                                                                              5/14/2010       ($1,880,000)      $363,270,000
                                                                                                                                                                                  transfer

                                                                                                                                                                                  Transfer of cap to Countrywide Home Loans due to servicing
                                                                                                                              6/16/2010    ($286,510,000)        $76,760,000
                                                                                                                                                                                  transfer

                                                                                                                              6/17/2009      ($64,990,000)       $91,010,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009      $130,780,000       $221,790,000      Updated portfolio data from servicer & HPDP initial cap
               Green Tree Servicing LLC,                 Financial Instrument for
4/24/2009                                  Purchase                                                $156,000,000         N/A
               Saint Paul, MN                            Home Loan Modifications
                                                                                                                              12/30/2009    ($116,750,000)      $105,040,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010       $13,080,000       $118,120,000      Updated portfolio data from servicer

                                                                                                                              6/17/2009      ($63,980,000)      $131,020,000      Updated portfolio data from servicer

               Carrington Mortgage                                                                                            9/30/2009       $90,990,000       $222,010,000      Updated portfolio data from servicer & HPDP initial cap
                                                         Financial Instrument for
4/27/2009      Services, LLC, Santa        Purchase                                                $195,000,000         N/A
                                                         Home Loan Modifications
               Ana, CA                                                                                                        12/30/2009      $57,980,000       $279,990,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010       $74,520,000       $354,510,000      Updated portfolio data from servicer

                                                                                                                              6/17/2009     ($338,450,000)      $459,550,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009      ($11,860,000)      $447,690,000      Updated portfolio data from servicer & HPDP initial cap
               Aurora Loan Services, LLC,                Financial Instrument for
5/1/2009                                  Purchase                                                 $798,000,000         N/A
               Littleton, CO                             Home Loan Modifications
                                                                                                                              12/30/2009      $21,330,000       $469,020,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010        $9,150,000       $478,170,000      Updated portfolio data from servicer

                                                                                                                              6/12/2009       $16,140,000       $117,140,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009      $134,560,000       $251,700,000      Updated portfolio data from servicer & HPDP initial cap
               Nationstar Mortgage LLC,                  Financial Instrument for
5/28/2009                                  Purchase                                                $101,000,000         N/A
               Lewisville, TX                            Home Loan Modifications
                                                                                                                              12/30/2009      $80,250,000       $331,950,000      Updated portfolio data from servicer & HAFA initial cap

                                                                                                                              3/26/2010       $67,250,000       $399,200,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009       ($1,860,000)       $17,540,000      Updated portfolio data from servicer & HPDP initial cap
               Residential Credit Solutions,             Financial Instrument for
6/12/2009                                    Purchase                                               $19,400,000         N/A 12/30/2009        $27,920,000        $45,460,000      Updated portfolio data from servicer & HAFA initial cap
               Fort Worth, TX                            Home Loan Modifications
                                                                                                                              3/26/2010       ($1,390,000)       $44,070,000      Updated portfolio data from servicer

                                                                                                                              9/30/2009       $13,070,000        $29,590,000      Updated portfolio data from servicer & HPDP initial cap
               CCO Mortgage, Glen                        Financial Instrument for
6/17/2009                                  Purchase                                                 $16,520,000         N/A 12/30/2009       $145,510,000       $175,100,000      Updated portfolio data from servicer & HAFA initial cap
               Allen, VA                                 Home Loan Modifications
                                                                                                                              3/26/2010     ($116,950,000)       $58,150,000      Updated portfolio data from servicer

                                                                                                                                                                                                                                                Continued on next page.
hamp Transaction Detail, as of 6/30/2010                                             (Continued)
            Servicer Modifying Borrowers’ Loans                                    Cap of Incentive Payments on                                              Adjustment Details
                                                                                     Behalf of Borrowers and to
                                          Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                    Market Capitalization
Date        Name of Institution           Type          Description                              Investors (Cap)1 Mechanism Date                 Amount         Adjusted Cap      Reason for Adjustment                                              (in Millions)

                                                                                                                             9/30/2009      ($11,300,000)        $45,700,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     ($42,210,000)         $3,490,000      Updated portfolio data from servicer & HAFA initial cap
            RG Mortgage Corporation,                    Financial Instrument for
6/17/2009                                 Purchase                                                 $57,000,000         N/A
            San Juan, PR                                Home Loan Modifications
                                                                                                                             3/26/2010        $65,640,000        $69,130,000      Updated portfolio data from servicer

                                                                                                                             4/9/2010       ($14,470,000)        $54,660,000      Updated portfolio data from servicer

                                                                                                                             12/30/2009        $2,020,000         $2,790,000      Updated portfolio data from servicer & HAFA initial cap
            First Federal Savings and                   Financial Instrument for
6/19/2009                                 Purchase                                                    $770,000         N/A 3/26/2010          $11,370,000        $14,160,000      Updated portfolio data from servicer
            Loan, Port Angeles, WA                      Home Loan Modifications
                                                                                                                             5/26/2010      ($14,160,000)                 $0      Termination of SPA

                                                                                                                             9/30/2009           $330,000           $870,000      Updated portfolio data from servicer & HPDP initial cap
            Wescom Central Credit                       Financial Instrument for
6/19/2009                                 Purchase                                                    $540,000         N/A 12/30/2009         $16,490,000        $17,360,000      Updated portfolio data from servicer & HAFA initial cap
            Union, Anaheim, CA                          Home Loan Modifications
                                                                                                                             3/26/2010      ($14,260,000)         $3,100,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009           ($10,000)           $20,000      Updated portfolio data from servicer & HPDP initial cap
            Citizens First Wholesale
                                                        Financial Instrument for
6/26/2009   Mortgage Company,             Purchase                                                     $30,000         N/A 12/30/2009            $590,000           $610,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
            The Villages, FL
                                                                                                                             3/26/2010         ($580,000)            $30,000      Updated portfolio data from servicer

                                                                                                                             12/30/2009        $2,180,000         $2,250,000      Updated portfolio data from servicer & HAFA initial cap
            Technology Credit Union,                    Financial Instrument for
6/26/2009                                 Purchase                                                     $70,000         N/A
            San Jose, CA                                Home Loan Modifications
                                                                                                                             3/26/2010         ($720,000)         $1,530,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      $315,170,000        $610,150,000      Updated portfolio data from servicer & HPDP initial cap
            National City Bank,                         Financial Instrument for
6/26/2009                                 Purchase                                                $294,980,000         N/A 12/30/2009         $90,280,000       $700,430,000      Updated portfolio data from servicer & HAFA initial cap
            Miamisburg, OH                              Home Loan Modifications
                                                                                                                             3/26/2010      ($18,690,000)       $681,740,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      $723,880,000      $1,357,890,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     $692,640,000      $2,050,530,000      Updated portfolio data from servicer & HAFA initial cap
            Wachovia Mortgage, FSB,                     Financial Instrument for
7/1/2009                                  Purchase                                                $634,010,000         N/A
            Des Moines, IA3                             Home Loan Modifications
                                                                                                                             2/17/2010    ($2,050,236,344)          $293,656      Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                             3/12/2010           ($54,767)          $238,890      Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                             9/30/2009        $23,850,000        $68,110,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009       $43,590,000       $111,700,000      Updated portfolio data from servicer & HAFA initial cap
            Bayview Loan Servicing,                     Financial Instrument for
7/1/2009                                  Purchase                                                 $44,260,000         N/A
            LLC, Coral Gables, FL                       Home Loan Modifications
                                                                                                                             3/26/2010        $34,540,000       $146,240,000      Updated portfolio data from servicer

                                                                                                                             5/7/2010          $1,010,000       $147,250,000      Initial 2MP cap

                                                                                                                             9/30/2009           $150,000           $250,000      Updated portfolio data from servicer & HPDP initial cap
            Lake National Bank,                         Financial Instrument for
7/10/2009                                 Purchase                                                    $100,000         N/A 12/30/2009            $130,000           $380,000      Updated portfolio data from servicer & HAFA initial cap
            Mentor, OH                                  Home Loan Modifications
                                                                                                                             3/26/2010            $50,000           $430,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009           ($10,000)          $860,000      Updated portfolio data from servicer & HPDP initial cap
            IBM Southeast Employees’
                                                        Financial Instrument for
7/10/2009   Federal Credit Union,         Purchase                                                    $870,000         N/A 12/30/2009            $250,000         $1,110,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
            Delray Beach, FL
                                                                                                                             3/26/2010           ($10,000)        $1,100,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009        $18,530,000        $42,010,000      Updated portfolio data from servicer & HPDP initial cap
            MorEquity, Inc.,                            Financial Instrument for
7/17/2009                                 Purchase                                                 $23,480,000         N/A 12/30/2009         $24,510,000        $66,520,000      Updated portfolio data from servicer & HAFA initial cap
            Evansville, IN                              Home Loan Modifications
                                                                                                                             3/26/2010        $18,360,000        $84,880,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($36,240,000)        $18,230,000      Updated portfolio data from servicer & HPDP initial cap
            PNC Bank, National                          Financial Instrument for
7/17/2009                                 Purchase                                                 $54,470,000         N/A 12/30/2009         $19,280,000        $37,510,000      Updated portfolio data from servicer & HAFA initial cap                $29,722
            Association, Pittsburgh, PA                 Home Loan Modifications
                                                                                                                             3/26/2010         $2,470,000        $39,980,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009           ($90,000)           $80,000      Updated portfolio data from servicer & HPDP initial cap
            Farmers State Bank,                         Financial Instrument for
7/17/2009                                 Purchase                                                    $170,000         N/A 12/30/2009             $50,000           $130,000      Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I july 21, 2010




            West Salem, OH                              Home Loan Modifications
                                                                                                                             3/26/2010           $100,000           $230,000      Updated portfolio data from servicer

                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                       251
hamp Transaction Detail, as of 6/30/2010                                             (Continued)

                                                                                                                                                                                                                                                                       252
            Servicer Modifying Borrowers’ Loans                                    Cap of Incentive Payments on                                             Adjustment Details
                                                                                     Behalf of Borrowers and to
                                          Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                    Market Capitalization
Date        Name of Institution           Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                               (in Millions)

                                                                                                                             9/30/2009          $890,000         $2,300,000      Updated portfolio data from servicer & HPDP initial cap
                                                        Financial Instrument for
7/17/2009   ShoreBank, Chicago, IL        Purchase                                                  $1,410,000         N/A 12/30/2009         $1,260,000         $3,560,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
                                                                                                                             3/26/2010          ($20,000)        $3,540,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($53,670,000)    $1,218,820,000      Updated portfolio data from servicer & HPDP initial cap
            American Home Mortgage                      Financial Instrument for
7/22/2009                                 Purchase                                              $1,272,490,000         N/A 12/30/2009       $250,450,000     $1,469,270,000      Updated portfolio data from servicer & HAFA initial cap
            Servicing, Inc, Coppell, TX                 Home Loan Modifications
                                                                                                                             3/26/2010      $124,820,000     $1,594,090,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009        $1,780,000         $5,990,000      Updated portfolio data from servicer & HPDP initial cap
            Mortgage Center, LLC,                       Financial Instrument for
7/22/2009                                 Purchase                                                  $4,210,000         N/A 12/30/2009         $2,840,000         $8,830,000      Updated portfolio data from servicer & HAFA initial cap
            Southfield, MI                              Home Loan Modifications
                                                                                                                             3/26/2010        $2,800,000        $11,630,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009         ($490,000)          $370,000      Updated portfolio data from servicer & HPDP initial cap
            Mission Federal Credit Union,               Financial Instrument for
7/22/2009                                 Purchase                                                    $860,000         N/A 12/30/2009         $6,750,000         $7,120,000      Updated portfolio data from servicer & HAFA initial cap
            San Diego, CA                               Home Loan Modifications
                                                                                                                             3/26/2010       ($6,340,000)          $780,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009       ($1,530,000)        $4,930,000      Updated portfolio data from servicer & HPDP initial cap
                                                        Financial Instrument for
7/29/2009   First Bank, St. Louis, MO     Purchase                                                  $6,460,000         N/A 12/30/2009           $680,000         $5,610,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I july 21, 2010




                                                                                                                             3/26/2010        $2,460,000         $8,070,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009          ($60,000)        $1,030,000      Updated portfolio data from servicer & HPDP initial cap
            Purdue Employees Federal
                                                        Financial Instrument for
7/29/2009   Credit Union, West            Purchase                                                  $1,090,000         N/A 12/30/2009         $1,260,000         $2,290,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
            Lafayette, IN
                                                                                                                             3/26/2010        $2,070,000         $4,360,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($37,700,000)       $47,320,000      Updated portfolio data from servicer & HPDP initial cap
            Wachovia Bank, N.A.,                        Financial Instrument for
7/29/2009                                 Purchase                                                 $85,020,000         N/A 12/30/2009        $26,160,000        $73,480,000      Updated portfolio data from servicer & HAFA initial cap
            Charlotte, NC                               Home Loan Modifications
                                                                                                                             3/26/2010        $9,820,000        $83,300,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($14,850,000)    $2,684,870,000      Updated portfolio data from servicer & HPDP initial cap
            J.P.Morgan Chase Bank, NA,                  Financial Instrument for
7/31/2009                              Purchase                                                 $2,699,720,000         N/A 12/30/2009     $1,178,180,000     $3,863,050,000      Updated portfolio data from servicer & HAFA initial cap                $145,660
            Lewisville, TX                              Home Loan Modifications
                                                                                                                             3/26/2010    $1,006,580,000     $4,869,630,000      Updated portfolio data from servicer & 2MP initial cap

                                                                                                                             9/30/2009          ($10,000)      $707,370,000      Updated portfolio data from servicer & HPDP initial cap
            EMC Mortgage Corporation,                   Financial Instrument for
7/31/2009                             Purchase                                                    $707,380,000         N/A 12/30/2009       $502,430,000     $1,209,800,000      Updated portfolio data from servicer & HAFA initial cap
            Lewisville, TX                              Home Loan Modifications
                                                                                                                             3/26/2010     ($134,560,000)    $1,075,240,000      Updated portfolio data from servicer & 2MP initial cap

                                                                                                                             9/30/2009          $180,000           $600,000      Updated portfolio data from servicer & HPDP initial cap
                                                        Financial Instrument for
8/5/2009    Lake City Bank, Warsaw, IN Purchase                                                       $420,000         N/A 12/30/2009          ($350,000)          $250,000      Updated portfolio data from servicer & HAFA initial cap
                                                        Home Loan Modifications
                                                                                                                             3/26/2010           $20,000           $270,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009          $290,000           $430,000      Updated portfolio data from servicer & HPDP initial cap
            Oakland Municipal Credit                    Financial Instrument for
8/5/2009                                  Purchase                                                    $140,000         N/A 12/30/2009           $210,000           $640,000      Updated portfolio data from servicer & HAFA initial cap
            Union, Oakland, CA                          Home Loan Modifications
                                                                                                                             3/26/2010          $170,000           $810,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009     ($121,190,000)      $552,810,000      Updated portfolio data from servicer & HPDP initial cap
            HomEq Servicing, North                      Financial Instrument for
8/5/2009                                  Purchase                                                $674,000,000         N/A 12/30/2009       ($36,290,000)      $516,520,000      Updated portfolio data from servicer & HAFA initial cap
            Highlands, CA                               Home Loan Modifications
                                                                                                                             3/26/2010      $199,320,000       $715,840,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009      $313,050,000     $1,087,950,000      Updated portfolio data from servicer & HPDP initial cap
            Litton Loan Servicing LP,                   Financial Instrument for
8/12/2009                                 Purchase                                                $774,900,000         N/A 12/30/2009       $275,370,000     $1,363,320,000      Updated portfolio data from servicer & HAFA initial cap
            Houston, TX                                 Home Loan Modifications
                                                                                                                             3/26/2010      $278,910,000     $1,642,230,000      Updated portfolio data from servicer

                                                                                                                             9/30/2009       ($1,200,000)        $5,010,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009      $30,800,000        $35,810,000      Updated portfolio data from servicer & HAFA initial cap
            PennyMac Loan Services,                     Financial Instrument for
8/12/2009                                 Purchase                                                  $6,210,000         N/A
            LLC, Calasbasa, CA                          Home Loan Modifications                                              3/26/2010       $23,200,000        $59,010,000      Updated portfolio data from servicer

                                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                             6/16/2010        $2,710,000        $61,720,000
                                                                                                                                                                                 transfer

                                                                                                                                                                                                                                             Continued on next page.
hamp Transaction Detail, as of 6/30/2010                                            (Continued)
            Servicer Modifying Borrowers’ Loans                                   Cap of Incentive Payments on                                             Adjustment Details
                                                                                    Behalf of Borrowers and to
                                         Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                    Market Capitalization
Date        Name of Institution          Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                               (in Millions)

                                                                                                                            9/30/2009      ($25,510,000)        $4,220,000      Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009         $520,000         $4,740,000      Updated portfolio data from servicer & HAFA initial cap

            Servis One, Inc.,                          Financial Instrument for                                             3/26/2010        $4,330,000         $9,070,000      Updated portfolio data from servicer
8/12/2009                                Purchase                                                 $29,730,000         N/A
            Titusville, PA                             Home Loan Modifications
                                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                            4/19/2010          $230,000         $9,300,000
                                                                                                                                                                                transfer

                                                                                                                            5/19/2010          $850,000        $10,150,000      Initial 2MP cap

                                                                                                                            10/2/2009     $145,800,000        $814,240,000      HPDP initial cap
            OneWest Bank,                              Financial Instrument for
8/28/2009                                Purchase                                                $668,440,000         N/A 12/30/2009     $1,355,930,000     $2,170,170,000      Updated portfolio data from servicer & HAFA initial cap
            Pasadena, CA                               Home Loan Modifications
                                                                                                                            3/26/2010     $121,180,000      $2,291,350,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $70,000           $370,000      HPDP initial cap
            Stanford Federal Credit                    Financial Instrument for
8/28/2009                                Purchase                                                    $300,000         N/A 12/30/2009         $2,680,000         $3,050,000      Updated portfolio data from servicer & HAFA initial cap
            Union, Palo Alto, CA                       Home Loan Modifications
                                                                                                                            3/26/2010          $350,000         $3,400,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $130,000           $700,000      HPDP initial cap
            RoundPoint Mortgage
                                                       Financial Instrument for
8/28/2009   Servicing Corporation,       Purchase                                                    $570,000         N/A 12/30/2009         ($310,000)           $390,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Home Loan Modifications
            Charlotte, NC
                                                                                                                            3/26/2010        $2,110,000         $2,500,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $130,000           $690,000      HPDP initial cap

                                                                                                                            12/30/2009       $1,040,000         $1,730,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Financial Instrument for
9/2/2009    Horicon Bank, Horicon, WI    Purchase                                                    $560,000         N/A
                                                       Home Loan Modifications
                                                                                                                            3/26/2010       ($1,680,000)           $50,000      Updated portfolio data from servicer

                                                                                                                            5/12/2010        $1,260,000         $1,310,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009        $1,310,000         $7,310,000      HPDP initial cap
            Vantium Capital, Inc.,                     Financial Instrument for
9/2/2009                                 Purchase                                                  $6,000,000         N/A 12/30/2009        ($3,390,000)        $3,920,000      Updated portfolio data from servicer & HAFA initial cap
            Plano, TX                                  Home Loan Modifications
                                                                                                                            3/26/2010          $410,000         $4,330,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $280,000         $1,530,000      HPDP initial cap
            Central Florida Educators
                                                       Financial Instrument for
9/9/2009    Federal Credit Union, Lake   Purchase                                                  $1,250,000         N/A 12/30/2009         ($750,000)           $780,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Home Loan Modifications
            Mary, FL
                                                                                                                            3/26/2010          $120,000           $900,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009       $24,920,000       $139,140,000      HPDP initial cap
            U.S. Bank National
                                                       Financial Instrument for
9/9/2009    Association, Owensboro,      Purchase                                                $114,220,000         N/A 12/30/2009        $49,410,000       $188,550,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Home Loan Modifications
            KY
                                                                                                                            3/26/2010       $41,830,000       $230,380,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $950,000         $5,300,000      HPDP initial cap
            CUC Mortgage Corporation,                  Financial Instrument for
9/9/2009                              Purchase                                                     $4,350,000         N/A 12/30/2009         $5,700,000        $11,000,000      Updated portfolio data from servicer & HAFA initial cap
            Albany, NY                                 Home Loan Modifications
                                                                                                                            3/26/2010          $740,000        $11,740,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $460,000         $2,530,000      HPDP initial cap
            ORNL Federal Credit Union,                 Financial Instrument for
9/11/2009                              Purchase                                                    $2,070,000         N/A 12/30/2009         $2,730,000         $5,260,000      Updated portfolio data from servicer & HAFA initial cap
            Oak Ridge, TN                              Home Loan Modifications
                                                                                                                            3/26/2010       $13,280,000        $18,540,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $60,000           $310,000      HPDP initial cap
            Allstate Mortgage Loans &                  Financial Instrument for
9/11/2009                                Purchase                                                    $250,000         N/A 12/30/2009           ($80,000)          $230,000      Updated portfolio data from servicer & HAFA initial cap
            Investments, Inc., Ocala, FL               Home Loan Modifications
                                                                                                                            3/26/2010          $280,000           $510,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $70,000           $350,000      HPDP initial cap
            Metropolitan National Bank,                Financial Instrument for
9/11/2009                               Purchase                                                     $280,000         N/A 12/30/2009           $620,000           $970,000      Updated portfolio data from servicer & HAFA initial cap
            Little Rock, AR                            Home Loan Modifications
                                                                                                                            3/26/2010          $100,000         $1,070,000      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I july 21, 2010




                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                      253
                                                                                                                                                                                                                                                                     254
hamp Transaction Detail, as of 6/30/2010                                            (Continued)
             Servicer Modifying Borrowers’ Loans                                  Cap of Incentive Payments on                                             Adjustment Details
                                                                                    Behalf of Borrowers and to
                                         Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                   Market Capitalization
Date         Name of Institution         Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                              (in Millions)

                                                                                                                            10/2/2009        $6,010,000        $33,520,000      HPDP initial cap
             Franklin Credit Management                Financial Instrument for
9/11/2009                                 Purchase                                                $27,510,000         N/A 12/30/2009       ($19,750,000)       $13,770,000      Updated portfolio data from servicer & HAFA initial cap
             Corporation, Jersey City, NJ              Home Loan Modifications
                                                                                                                            3/26/2010       ($4,780,000)        $8,990,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $90,000           $500,000      HPDP initial cap
             Bay Federal Credit Union,                 Financial Instrument for
9/16/2009                                Purchase                                                    $410,000         N/A 12/30/2009         $1,460,000         $1,960,000      Updated portfolio data from servicer & HAFA initial cap
             Capitola, CA                              Home Loan Modifications
                                                                                                                            3/26/2010          $160,000         $2,120,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $960,000         $5,350,000      HPDP initial cap
             AMS Servicing, LLC,                       Financial Instrument for
9/23/2009                                Purchase                                                  $4,390,000         N/A 12/30/2009        ($3,090,000)        $2,260,000      Updated portfolio data from servicer & HAFA initial cap
             Buffalo, NY                               Home Loan Modifications
                                                                                                                            3/26/2010          $230,000         $2,490,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $90,000           $480,000      HPDP initial cap
             Schools Financial Credit                  Financial Instrument for
9/23/2009                                Purchase                                                    $390,000         N/A 12/30/2009           $940,000         $1,420,000      Updated portfolio data from servicer & HAFA initial cap
             Union, Sacramento, CA                     Home Loan Modifications
                                                                                                                            3/26/2010        ($980,000)           $440,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $60,000           $290,000      HPDP initial cap
             Glass City Federal Credit                 Financial Instrument for
9/23/2009                                Purchase                                                    $230,000         N/A 12/30/2009           ($10,000)          $280,000      Updated portfolio data from servicer & HAFA initial cap
             Union, Maumee, OH                         Home Loan Modifications
                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I july 21, 2010




                                                                                                                            3/26/2010          $130,000           $410,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $10,000            $40,000      HPDP initial cap
             Central Jersey Federal
                                                       Financial Instrument for
9/23/2009    Credit Union, Woodbridge,   Purchase                                                     $30,000         N/A 12/30/2009           $120,000           $160,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Home Loan Modifications
             NJ
                                                                                                                            3/26/2010           $10,000           $170,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009           $60,000           $300,000      HPDP initial cap
             Yadkin Valley Bank,                       Financial Instrument for
9/23/2009                                Purchase                                                    $240,000         N/A 12/30/2009           $350,000           $650,000      Updated portfolio data from servicer & HAFA initial cap                     $55
             Elkin, NC                                 Home Loan Modifications
                                                                                                                            3/26/2010        $1,360,000         $2,010,000      Updated portfolio data from servicer

                                                                                                                            10/2/2009          $100,000           $540,000      HPDP initial cap
                                                       Financial Instrument for
9/25/2009    SEFCU, Albany, NY           Purchase                                                    $440,000         N/A 12/30/2009            $20,000           $560,000      Updated portfolio data from servicer & HAFA initial cap
                                                       Home Loan Modifications
                                                                                                                            3/26/2010        ($290,000)           $270,000      Updated portfolio data from servicer

                                                                                                                            12/30/2009       $1,030,000         $1,600,000      Updated portfolio data from servicer & HAFA initial cap
             Great Lakes Credit Union,                 Financial Instrument for
10/14/2009                               Purchase                                                    $570,000         N/A
             North Chicago, IL                         Home Loan Modifications
                                                                                                                            3/26/2010        ($880,000)           $720,000      Updated portfolio data from servicer

                                                                                                                            12/30/2009      ($2,900,000)        $1,960,000      Updated portfolio data from servicer & HAFA initial cap
             Mortgage Clearing                         Financial Instrument for
10/14/2009                               Purchase                                                  $4,860,000         N/A
             Corporation, Tulsa, OK                    Home Loan Modifications
                                                                                                                            3/26/2010       ($1,600,000)          $360,000      Updated portfolio data from servicer

             United Bank Mortgage                                                                                           1/22/2010           $20,000           $430,000      Updated HPDP cap & HAFA initial cap
                                                       Financial Instrument for
10/21/2009   Corporation, Grand          Purchase                                                    $410,000         N/A
                                                       Home Loan Modifications
             Rapids, MI                                                                                                     3/26/2010          $400,000           $830,000      Updated portfolio data from servicer

                                                                                                                            1/22/2010        $4,370,000        $98,030,000      Updated HPDP cap & HAFA initial cap
             Bank United, Miami                        Financial Instrument for
10/23/2009                               Purchase                                                 $93,660,000         N/A
             Lakes, FL                                 Home Loan Modifications
                                                                                                                            3/26/2010       $23,880,000       $121,910,000      Updated portfolio data from servicer

                                                                                                                            1/22/2010           $40,000           $800,000      Updated HPDP cap & HAFA initial cap
             IC Federal Credit Union,                  Financial Instrument for
10/23/2009                               Purchase                                                    $760,000         N/A 3/26/2010          ($760,000)            $40,000      Updated portfolio data from servicer
             Fitchburg, MA                             Home Loan Modifications
                                                                                                                            5/12/2010        $2,630,000         $2,670,000      Updated portfolio data from servicer

             Harleysville National Bank &
                                                       Financial Instrument for
10/28/2009   Trust Company,               Purchase                                                 $1,070,000         N/A 4/21/2010         ($1,070,000)                $0      Termination of SPA
                                                       Home Loan Modifications
             Harleysville, PA

             Members Mortgage                          Financial Instrument for
10/28/2009                               Purchase                                                    $510,000         N/A 4/21/2010          ($510,000)                 $0      Termination of SPA
             Company, Inc, Woburn, MA                  Home Loan Modifications

                                                                                                                            1/22/2010           $10,000            $80,000      Updated HPDP cap & HAFA initial cap
             DuPage Credit Union,                      Financial Instrument for
10/30/2009                               Purchase                                                     $70,000         N/A
             Naperville, IL                            Home Loan Modifications
                                                                                                                            3/26/2010           $10,000            $90,000      Updated portfolio data from servicer

                                                                                                                            1/22/2010           $40,000           $740,000      Updated HPDP cap & HAFA initial cap
             Los Alamos National Bank,                 Financial Instrument for
11/6/2009                                Purchase                                                    $700,000         N/A
             Los Alamos, NM                            Home Loan Modifications
                                                                                                                            3/26/2010           $50,000           $790,000      Updated portfolio data from servicer

                                                                                                                            1/22/2010          $890,000        $19,850,000      Updated HPDP cap & HAFA initial cap
             Quantum Servicing                         Financial Instrument for
11/18/2009                               Purchase                                                 $18,960,000         N/A
             Corporation, Tampa, FL                    Home Loan Modifications
                                                                                                                            3/26/2010        $3,840,000        $23,690,000      Updated portfolio data from servicer

                                                                                                                                                                                                                                           Continued on next page.
hamp Transaction Detail, as of 6/30/2010                                              (Continued)
             Servicer Modifying Borrowers’ Loans                                    Cap of Incentive Payments on                                             Adjustment Details
                                                                                      Behalf of Borrowers and to
                                           Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                    Market Capitalization
Date         Name of Institution           Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                               (in Millions)

                                                                                                                              1/22/2010           $80,000         $1,750,000      Updated HPDP cap & HAFA initial cap
             Hillsdale County National                   Financial Instrument for
11/18/2009                                 Purchase                                                  $1,670,000         N/A
             Bank, Hillsdale, MI                         Home Loan Modifications
                                                                                                                              3/26/2010          $330,000         $2,080,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010                $0            $20,000      Updated HPDP cap & HAFA initial cap
             QLending, Inc., Coral                       Financial Instrument for
11/18/2009                                 Purchase                                                     $20,000         N/A
             Gables, FL                                  Home Loan Modifications
                                                                                                                              3/26/2010          ($10,000)           $10,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010          $950,000        $21,310,000      Updated HPDP cap & HAFA initial cap

             Marix Servicing, LLC,                       Financial Instrument for                                             3/26/2010      ($17,880,000)        $3,430,000      Updated portfolio data from servicer
11/25/2009                                 Purchase                                                 $20,360,000         N/A
             Phoenix, AZ                                 Home Loan Modifications
                                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                              6/16/2010        $1,030,000         $4,460,000
                                                                                                                                                                                  transfer

             Home Financing Center, Inc,                 Financial Instrument for
11/25/2009                               Purchase                                                      $230,000         N/A 4/21/2010          ($230,000)                 $0      Termination of SPA
             Coral Gables, FL                            Home Loan Modifications

                                                                                                                              1/22/2010           $50,000         $1,330,000      Updated HPDP cap & HAFA initial cap
             First Keystone Bank,                        Financial Instrument for
11/25/2009                                 Purchase                                                  $1,280,000         N/A
             Media, PA                                   Home Loan Modifications
                                                                                                                              3/26/2010        $1,020,000         $2,350,000      Updated portfolio data from servicer

             Community Bank & Trust                                                                                           1/22/2010           $10,000           $390,000      Updated HPDP cap & HAFA initial cap
                                                         Financial Instrument for
12/4/2009    Company, Clarks               Purchase                                                    $380,000         N/A
                                                         Home Loan Modifications
             Summit, PA                                                                                                       3/26/2010          $520,000           $910,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010          $440,000         $9,870,000      Updated HPDP cap & HAFA initial cap
             Idaho Housing and Finance                   Financial Instrument for
12/4/2009                                  Purchase                                                  $9,430,000         N/A 3/26/2010         $14,480,000        $24,350,000      Updated portfolio data from servicer
             Association, Boise, ID                      Home Loan Modifications
                                                                                                                              5/26/2010      ($24,200,000)          $150,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $10,000           $370,000      Updated HPDP cap & HAFA initial cap
             Spirit of Alaska Federal                    Financial Instrument for
12/9/2009                                Purchase                                                      $360,000         N/A
             Credit Union, Fairbanks, AK                 Home Loan Modifications
                                                                                                                              3/26/2010          $850,000         $1,220,000      Updated portfolio data from servicer

             American Eagle Federal                                                                                           1/22/2010           $70,000         $1,660,000      Updated HPDP cap & HAFA initial cap
                                                         Financial Instrument for
12/9/2009    Credit Union, East            Purchase                                                  $1,590,000         N/A
                                                         Home Loan Modifications
             Hartford, CT                                                                                                     3/26/2010        ($290,000)         $1,370,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $90,000         $1,970,000      Updated HPDP cap & HAFA initial cap
             Silver State Schools Credit                 Financial Instrument for
12/9/2009                                  Purchase                                                  $1,880,000         N/A
             Union, Las Vegas, NV                        Home Loan Modifications
                                                                                                                              3/26/2010        $1,110,000         $3,080,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010          $140,000         $3,080,000      Updated HPDP cap & HAFA initial cap
             Fidelity Homestead Savings                  Financial Instrument for
12/9/2009                               Purchase                                                     $2,940,000         N/A
             Bank, New Orleans, LA                       Home Loan Modifications
                                                                                                                              3/26/2010        $6,300,000         $9,380,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $10,000           $240,000      Updated HPDP cap & HAFA initial cap
             Bay Gulf Credit Union,                      Financial Instrument for
12/9/2009                                  Purchase                                                    $230,000         N/A
             Tampa, FL                                   Home Loan Modifications
                                                                                                                              3/26/2010          $440,000           $680,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010          $290,000         $6,450,000      Updated HPDP cap & HAFA initial cap
             The Golden 1 Credit Union,                  Financial Instrument for
12/9/2009                                  Purchase                                                  $6,160,000         N/A
             Sacramento, CA                              Home Loan Modifications
                                                                                                                              3/26/2010           $40,000         $6,490,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010          $100,000         $2,350,000      Updated HPDP cap & HAFA initial cap
             Sterling Savings Bank,                      Financial Instrument for
12/9/2009                                  Purchase                                                  $2,250,000         N/A
             Spokane, WA                                 Home Loan Modifications
                                                                                                                              3/26/2010        ($740,000)         $1,610,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000           $330,000      Updated HPDP cap & HAFA initial cap
             HomeStar Bank & Financial                   Financial Instrument for
12/11/2009                                 Purchase                                                    $310,000         N/A
             Services, Manteno, IL                       Home Loan Modifications
                                                                                                                              3/26/2010          $820,000         $1,150,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000           $390,000      Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                        Financial Instrument for
12/11/2009                                 Purchase                                                    $370,000         N/A 3/26/2010          $1,250,000         $1,640,000      Updated portfolio data from servicer
             Glenview, IL                                Home Loan Modifications
                                                                                                                              5/26/2010       ($1,640,000)                $0      Termination of SPA

                                                                                                                              1/22/2010           $30,000           $630,000      Updated HPDP cap & HAFA initial cap
             Verity Credit Union,                        Financial Instrument for
12/11/2009                                 Purchase                                                    $600,000         N/A
             Seattle, WA                                 Home Loan Modifications
                                                                                                                              3/26/2010          $400,000         $1,030,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $30,000           $660,000      Updated HPDP cap & HAFA initial cap
             Hartford Savings Bank,                      Financial Instrument for
12/11/2009                                 Purchase                                                    $630,000         N/A
             Hartford, WI                                Home Loan Modifications
                                                                                                                              3/26/2010          $800,000         $1,460,000      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 21, 2010




                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        255
                                                                                                                                                                                                                                                                        256
hamp Transaction Detail, as of 6/30/2010                                              (Continued)
             Servicer Modifying Borrowers’ Loans                                    Cap of Incentive Payments on                                             Adjustment Details
                                                                                      Behalf of Borrowers and to
                                           Transaction   Investment                         Servicers & Lenders/      Pricing Adjustment   Cap Adjustment                                                                                    Market Capitalization
Date         Name of Institution           Type          Description                              Investors (Cap)1 Mechanism Date                 Amount        Adjusted Cap      Reason for Adjustment                                               (in Millions)

             The Bryn Mawr Trust Co.,                    Financial Instrument for
12/11/2009                                 Purchase                                                    $150,000         N/A 4/21/2010          ($150,000)                 $0      Termination of SPA
             Bryn Mawr, PA                               Home Loan Modifications

                                                                                                                              1/22/2010           $30,000           $650,000      Updated HPDP cap & HAFA initial cap
             Citizens 1st National Bank,                 Financial Instrument for
12/16/2009                                 Purchase                                                    $620,000         N/A
             Spring Valley, IL                           Home Loan Modifications
                                                                                                                              3/26/2010        ($580,000)            $70,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $10,000           $180,000      Updated HPDP cap & HAFA initial cap
             Golden Plains Credit Union,                 Financial Instrument for
12/16/2009                                 Purchase                                                    $170,000         N/A
             Garden City, KS                             Home Loan Modifications
                                                                                                                              3/26/2010           $30,000           $210,000      Updated portfolio data from servicer

             First Federal Savings and                                                                                        1/22/2010          $160,000         $3,620,000      Updated HPDP cap & HAFA initial cap
                                                         Financial Instrument for
12/16/2009   Loan Association of Lake-     Purchase                                                  $3,460,000         N/A
                                                         Home Loan Modifications
             wood, Lakewood, OH                                                                                               4/21/2010       ($3,620,000)                $0      Termination of SPA

                                                                                                                              1/22/2010           $20,000           $460,000      Updated HPDP cap & HAFA initial cap
             Sound Community Bank,                       Financial Instrument for
12/16/2009                                 Purchase                                                    $440,000         N/A
             Seattle, WA                                 Home Loan Modifications
                                                                                                                              3/26/2010        $1,430,000         $1,890,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $30,000           $730,000      Updated HPDP cap & HAFA initial cap
             Horizon Bank, NA, Michigan                  Financial Instrument for
12/16/2009                              Purchase                                                       $700,000         N/A
             City, IN                                    Home Loan Modifications
                                                                                                                              3/26/2010        $1,740,000         $2,470,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $40,000           $800,000      Updated HPDP cap & HAFA initial cap
             Park View Federal Savings                   Financial Instrument for
12/16/2009                                 Purchase                                                    $760,000         N/A
             Bank, Solon, OH                             Home Loan Modifications
                                                                                                                              3/26/2010          $140,000           $940,000      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 21, 2010




                                                                                                                              1/22/2010          $200,000         $4,430,000      Updated HPDP cap & HAFA initial cap
                                                         Financial Instrument for
12/23/2009   Iberiabank, Sarasota, FL      Purchase                                                  $4,230,000         N/A
                                                         Home Loan Modifications
                                                                                                                              3/26/2010       ($1,470,000)        $2,960,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000           $360,000      Updated HPDP cap & HAFA initial cap
             Grafton Suburban Credit                     Financial Instrument for
12/23/2009                                 Purchase                                                    $340,000         N/A
             Union, North Grafton, MA                    Home Loan Modifications
                                                                                                                              3/26/2010        ($320,000)            $40,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010                $0            $60,000      Updated HPDP cap & HAFA initial cap
             Eaton National Bank & Trust                 Financial Instrument for
12/23/2009                               Purchase                                                       $60,000         N/A
             Company, Eaton, OH                          Home Loan Modifications
                                                                                                                              3/26/2010           $90,000           $150,000      Updated portfolio data from servicer

                                                                                                                              1/22/2010                $0           $110,000      Updated HPDP cap & HAFA initial cap
             Tempe Schools Credit Union,                 Financial Instrument for
12/23/2009                               Purchase                                                      $110,000         N/A
             Tempe, AZ                                   Home Loan Modifications
                                                                                                                              3/26/2010          ($20,000)           $90,000      Updated portfolio data from servicer

             Fresno County Federal Credit                Financial Instrument for
1/13/2010                                 Purchase                                                     $260,000         N/A 3/26/2010            $480,000           $740,000      Updated portfolio data from servicer
             Union, Fresno, CA                           Home Loan Modifications

                                                         Financial Instrument for
1/13/2010    Roebling Bank, Roebling, NJ Purchase                                                      $240,000         N/A 3/26/2010            $610,000           $850,000      Updated portfolio data from servicer
                                                         Home Loan Modifications

             First National Bank of Grant                Financial Instrument for
1/13/2010                                 Purchase                                                     $140,000         N/A 3/26/2010            $150,000           $290,000      Updated portfolio data from servicer
             Park, Grant Park, IL                        Home Loan Modifications

                                                                                                                              3/26/2010      ($51,240,000)       $12,910,000      Updated portfolio data from servicer

                                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to servicing
             Specialized Loan Servicing,                 Financial Instrument for                                             5/14/2010        $3,000,000        $15,910,000
1/13/2010                                Purchase                                                   $64,150,000         N/A                                                       transfer
             LLC, Highlands Ranch, CO                    Home Loan Modifications
                                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                              6/16/2010        $4,860,000        $20,770,000
                                                                                                                                                                                  transfer

             Greater Nevada Mortgage                     Financial Instrument for
1/13/2010                                  Purchase                                                    $770,000         N/A 3/26/2010          $8,680,000         $9,450,000      Updated portfolio data from servicer
             Services, Carson City, NV                   Home Loan Modifications

                                                                                                                              3/26/2010       $12,190,000        $15,240,000      Updated portfolio data from servicer
             Digital Federal Credit Union,               Financial Instrument for
1/15/2010                                  Purchase                                                  $3,050,000         N/A
             Marlborough, MA                             Home Loan Modifications
                                                                                                                              5/14/2010      ($15,240,000)                $0      Termination of SPA

             iServe Residential Lending,                 Financial Instrument for
1/29/2010                                  Purchase                                                    $960,000         N/A 3/26/2010          ($730,000)           $230,000      Updated portfolio data from servicer
             LLC S.P., San Diego, CA                     Home Loan Modifications

                                                         Financial Instrument for
1/29/2010    United Bank, Griffin, GA      Purchase                                                    $540,000         N/A 3/26/2010            $160,000           $700,000      Updated portfolio data from servicer
                                                         Home Loan Modifications

             Urban Trust Bank,                           Financial Instrument for
3/3/2010                                   Purchase                                                  $1,060,000         N/A
             Lake Mary, FL                               Home Loan Modifications

             iServe Servicing, Inc.,                     Financial Instrument for
3/5/2010                                   Purchase                                                 $28,040,000         N/A 5/26/2010            $120,000        $28,160,000      Initial 2MP cap
             Irving, TX                                  Home Loan Modifications

             Navy Federal Credit Union,                  Financial Instrument for
3/10/2010                                  Purchase                                                 $60,780,000         N/A
             Vienna, VA                                  Home Loan Modifications

                                                                                                                                                                                                                                              Continued on next page.
 hamp Transaction Detail, as of 6/30/2010                                                          (Continued)
                 Servicer Modifying Borrowers’ Loans                                            Cap of Incentive Payments on                                                                     Adjustment Details
                                                                                                  Behalf of Borrowers and to
                                               Transaction        Investment                            Servicers & Lenders/      Pricing Adjustment                        Cap Adjustment                                                                                                    Market Capitalization
Date             Name of Institution           Type               Description                                 Investors (Cap)1 Mechanism Date                                      Amount            Adjusted Cap       Reason for Adjustment                                                          (in Millions)

                 Vist Financial Corp,                             Financial Instrument for
3/10/2010                                      Purchase                                                                $300,000            N/A
                 Wyomissing, PA                                   Home Loan Modifications

                 Midwest Bank and Trust                           Financial Instrument for
4/14/2010                                      Purchase                                                                $300,000            N/A
                 Co., Elmwood Park, IL                            Home Loan Modifications

                 Wealthbridge Mortgage                            Financial Instrument for
4/14/2010                                      Purchase                                                              $6,550,000            N/A
                 Corp, Beaverton, OR                              Home Loan Modifications

                 Aurora Financial Group,                          Financial Instrument for
5/21/2010                                      Purchase                                                                 $10,000            N/A 5/26/2010                            $30,000               $40,000       Updated FHA-HAMP cap
                 Inc., Marlton, NJ4                               Home Loan Modifications

                 Selene Financial, L.P.,                          Financial Instrument for                                                                                                                              Transfer of cap from CitiMortgage, Inc. due to servicing
6/16/2010                                      Transfer                                                                       $0           N/A 6/16/2010                         $3,680,000            $3,680,000
                 Houston, TX5                                     Home Loan Modifications                                                                                                                               transfer

                                                                  Total Initial Cap                          $23,761,990,000          Total Cap Adjustments              $16,062,028,890




                                                                                                                    TOTAL CAP                                         $39,824,018,890.00

Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes and definitions were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
1
  The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
  On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
  Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
  Initial cap amount only includes FHA-HAMP.
5
  On 6/17/2010, Selene Financial, L.P. executed an Assignment and Assumption Agreement with CitiMortgage, Inc. (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment
and not as initial cap for Selene Financial, L.P.

“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/9/2010.
                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 21, 2010
                                                                                                                                                                                                                                                                                                                        257
Table D.11
                                                                                                                                                                                                                                                                                                                         258
UCSB Transaction Detail, as of 6/30/2010
                                                                     Purchase Details1                                                                                       Settlement Details                                                                   Final Disposition

                                                                                                                                                                                                                                                                                                         Dividend/
                                                                                                                                                                                                                                              Life-to-Date                                               Interest
                Investment                   Institution                               Purchase Face                                 TBA or      Settlement               Investment      TBA or           Senior Security      Trade         Principal        Current Face              Disposition     Paid to
Trade Date      Description                  Name                 CUSIP                     Amount3         Pricing Mechanism        PMF3        Date                      Amount2, 3     PMF3                  Proceeds4       Date          Received1        Amount                    Amount5         Treasury

3/19/2010       Floating Rate SBA 7a         Coastal              83164KYN7                $4,070,000       107.75                   ­—          3/24/2010                $4,377,249      ­—                         $2,184                                                                              $161,999
                security due 2025            Securities, Inc.

3/19/2010       Floating Rate SBA 7a         Coastal              83165ADC5                $7,617,617       109.00                   ­—          3/24/2010                $8,279,156      ­—                         $4,130
                security due 2022            Securities, Inc.

3/19/2010       Floating Rate SBA 7a         Coastal              83165ADE1                $8,030,000       108.88                   ­—          3/24/2010                $8,716,265      ­—                         $4,348
                security due 2022            Securities, Inc.

4/8/2010        Floating Rate SBA 7a         Coastal              83165AD84               $23,500,000       110.50                   ­—          5/28/2010              $26,041,643       ­—                       $12,983
                security due 2034            Securities, Inc.

4/8/2010        Floating Rate SBA 7a         Coastal              83164KZH9                $8,900,014       107.50                   ­—          4/30/2010                $9,598,523      ­—                         $4,783
                security due 2016            Securities, Inc.

5/11/2010       Floating Rate SBA 7a         Coastal              83165AEE0               $10,751,382       106.81                   ­—          6/30/2010              $11,511,052       ­—                         $5,741
                security due 2020            Securities, Inc.

5/11/2010       Floating Rate SBA 7a         Coastal              83164K2Q5               $12,898,996       109.42                   ­—          6/30/2010              $14,151,229       ­—                         $7,057
                security due 2035            Securities, Inc.
                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 21, 2010




5/11/2010       Floating Rate SBA 7a         Coastal              83165AED2                $8,744,333       110.80                   ­—          6/30/2010                $9,717,173      ­—                         $4,844
                security due 2033            Securities, Inc.

5/25/2010       Floating Rate SBA 7a         Coastal              TBA                      $8,000,000       110.13                   TBA         7/30/2010                $8,833,039      TBA*                       $4,405
                security due 2028            Securities, Inc.

5/25/2010       Floating Rate SBA 7a         Coastal              TBA                     $15,000,000       109.38                   TBA         7/30/2010              $16,446,427       TBA*                       $8,203
                security due 2032            Securities, Inc.

6/17/2010       Floating Rate SBA 7a         Coastal              TBA                     $30,000,000       110.75                   TBA         8/30/2010              $33,327,708       TBA*                     $16,612
                security due 2020            Securities, Inc.

6/17/2010       Floating Rate SBA 7a         Coastal              TBA                     $25,000,000       111.88                   TBA         8/30/2010              $28,049,306       TBA*                     $13,984
                security due 2034            Securities, Inc.

                                             Total Purchase Face Amount*               $162,512,342                                  Total Investment                                     Total Senior                                                         Total Disposition
                                                                                                                                     Amount*                          $179,048,770        Security Proceeds*       $89,273                                     Proceeds                  0


Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered notes were taken verbatim from Treasury’s 7/1/2010 Transactions Report.
* Subject to adjustment.
1
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
  Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
3
  If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase
is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the
applicable month’s factor (on or about the 11th business day of each month).
4
  In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to
the product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in
the Master Purchase Agreement.
5
  Disposition Amount is stated after giving effect, if applicable, to sale of accrued principal and interest.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/9/2010.
Table D.12

Hardest Hit Fund (HHF) Program Transaction Detail
                                                            Seller
                                                                                                                               Investment
Trade Date          Name of Institution                              City              State             Transaction Type      Description            Investment Amount1   Pricing Mechanism

6/23/2010           Nevada Affordable Housing Assistance             Reno              NV                Purchase              Financial Instrument        $102,800,000    N/A
                    Corporation                                                                                                for HHF Program

6/23/2010           CalHFA Mortgage Assistance Corporation           Sacramento        CA                Purchase              Financial Instrument        $699,600,000    N/A
                                                                                                                               for HHF Program

6/23/2010           Florida Housing Finance Corporation              Tallahassee       FL                Purchase              Financial Instrument        $418,000,000    N/A
                                                                                                                               for HHF Program

6/23/2010           Arizona (Home) Foreclosure Prevention            Phoenix           AZ                Purchase              Financial Instrument        $125,100,000    N/A
                    Funding Corporation                                                                                        for HHF Program

6/23/2010           Michigan Homeowner Assistance Nonprofit          Lansing           MI                Purchase              Financial Instrument        $154,500,000    N/A
                    Housing Corporation                                                                                        for HHF Program

                                                                                                                               Total Investment         $1,500,000,000
                                                                                                                               Amount

Notes: Numbers affected by rounding. Data as of 6/30/2010. Numbered note is taken verbatim from Treasury’s 7/1/2010 Transactions Report.
1
  The purchase will be incrementally funded up to the investment amount.

Sources: Treasury, Transactions Report, 7/1/2010; Treasury, response to SIGTARP data call, 7/7/2010.
                                                                                                                                                                                               Transaction detail I Appendix D I july 21, 2010
                                                                                                                                                                                               259
260           Appendix E I public announcements of audits I july 21, 2010




      PUBLIC ANNOUNCEMENTS OF                                               GAO3
                                                                            Ongoing Audits
      AUDITS                                                                •	 CPP Approval and Return Process: Review Treasury’s
      This appendix provides an announcement of new and ongo-                  process as well as regulators’ processes for approval, as well
      ing public audits by the agencies listed below. See Appendix F:          as Treasury and regulators’ application of criteria for repay-
      “Key Oversight Reports and Testimonies” for a listing of                 ment. Probable July/August issuance.
      published reports. Italics style indicates narrative taken            •	 Partnering with SIGTARP on oversight of government
      verbatim from the agencies’ responses to SIGTARP’s data call.            management of formerly private sector entities. Likely July
      •	 U.S. Department of the Treasury Office of the Inspector               issuance.
                                                                            •	 Review of SCAP. Likely July/August issuance.
         General (“Treasury OIG”)
                                                                            •	 TARP after two years will provide an overview of the evolu-
      •	 Federal Reserve Board Office of Inspector General
                                                                               tion and status of the programs with discussion of possible
         (“Federal Reserve OIG”)
                                                                               effectiveness indicators. Late September/early October.
      •	 Government Accountability Office (“GAO”)
      •	 Federal Deposit Insurance Corporation Office of the
                                                                            FDIC OIG4
         Inspector General (“FDIC OIG”)
                                                                             Ongoing Audits
                                                                            •	 Material Loss Review of United Commercial Bank (UCB),
      Treasury OIG1                                                            San Francisco, CA. One of the objectives of the review is to
       Ongoing Audits                                                          ascertain why UCB’s problems resulted in a material loss to
      •	 None                                                                  the Deposit Insurance Fund (DIF).

      Federal Reserve OIG2                                                  Endnotes
      Ongoing Audits                                                        	 Treasury OIG, response to SIGTARP data call, 7/9/2010.
                                                                            1


      •	 Review of the Federal Reserve’s Lending Facilities and             	 Federal Reserve OIG, response to SIGTARP data call, 6/30/2010.
                                                                            2


         Special Programs.                                                  	 GAO, response to SIGTARP data call, 6/30/2010.
                                                                            3


                                                                            	 FDCI OIG, response to SIGTARP data call, 6/30/2010.
                                                                            4
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010            261




KEY OVERSIGHT REPORTS AND TESTIMONIES
This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
quarterly reports for lists of prior oversight reports and testimonies.			


U.S. DEPARTMENT OF THE TREASURY (Treasury)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.
OVERSIGHT REPORTS
Treasury, Transactions Report, 4/1/2010 -- 6/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 6/21/2010 (released weekly).
Treasury, Section 105(a) Report, 4/10/2010 -- 6/11/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 6/21/2010.
Treasury, “PPIP External Report - March 31, 2010,” 4/20/2010, http://financialstability.gov/docs/External%20Report%20-%2003-10%20Final.pdf,
accessed 6/21/2010.
Treasury, “Summary Response to GAO Report Recommendations,” 4/6/2010, http://financialstability.gov/docs/Final%20TALF%20GAO%20summary%20
response--040610.pdf, accessed 6/21/2010.
Treasury, “Treasury Secretary Geithner to Congress with an Update on EESA,” 4/23/2010, http://financialstability.gov/docs/EESA%20Update%20-%20
TFG%20to%20Congress%20042310.pdf, accessed 6/21/2010.
Treasury, “Home Affordable Modification Program System of Records Notice,” 5/20/2010, http://financialstability.gov/docs/Home+Affordable+
Modification+Program_SORN.pdf, accessed 6/21/2010.
Treasury, “Executive Compensation Information Privacy Impact Assessment,” 5/20/2010, http://financialstability.gov/docs/Executive+Compensation+Inf
ormation+System_PIA.pdf, accessed 6/21/2010.
Treasury, “Executive Compensation Information System of Records Notice,” 5/20/2010, http://financialstability.gov/docs/Executive+Compensation+Inf
ormation_SORN.pdf, accessed 6/21/2010.
Treasury, “Methodology to Calculated Estimated TARP Cost,” 5/21/2010, http://financialstability.gov/docs/Methodology%20to%20Calculate%20
Estimated%20TARP%20Cost_FINAL.pdf, accessed 6/21/2010.
Treasury, “Troubled Asset Relief Program (TARP) Investments as of March 31, 2010,” 5/21/2010, http://financialstability.gov/docs/TARP%20Cost%20
Estimates%20-%20March%2031%202010.pdf, accessed 6/21/2010.
RECORDED TESTIMONY
Treasury, “Wolin Remarks before the Council of Institutional Investors,” 4/12/2010, http://financialstability.gov/latest/tg_04122010.html, accessed
6/21/2010.
Treasury, “Michael S. Barr Remarks to the Mortgage Bankers Association,” 4/13/2010, http://financialstability.gov/latest/tg_04132010b.html,
accessed 6/21/2010.
Treasury, “Geithner Written Testimony before the House Financial Services Committee,” 4/20/2010, http://financialstability.gov/latest/tg_04202010.
html, accessed 6/21/2010.
Treasury, “Assistant Secretary Herb Allison Testimony Before the House Subcommittee on Financial Services,” 4/22/2010, http://financialstability.gov/
latest/tg_04222010.html, accessed 6/21/2010.
Treasury, “Deputy Secretary Neal S. Wolin Remarks at the International Swaps and Derivatives Association 25th Annual Meeting As Prepared for Delivery,”
4/22/2010, http://financialstability.gov/latest/tg_04222010b.html, accessed 6/21/2010.
Treasury, “Assistant Secretary for Financial Institutions Michael S. Barr Remarks to the Independent Community Bankers of America,” 4/26/2010,
http://financialstability.gov/latest/tg_04262010b.html, accessed 6/21/2010.
Treasury, “Secretary of the Treasury Timothy F. Geithner Written Testimony Senate Committee on Finance,” 5/4/2010, http://financialstability.gov/latest/
tg_05042010.html, accessed 6/21/2010.
Treasury, “Secretary Timothy F. Geithner Testimony Before the Financial Crisis Inquiry Commission Causes of the Financial Crisis and the Case for Reform
May 6, 2010,” 5/6/2010, http://financialstability.gov/latest/pr_05062010.html, accessed 6/21/2010.
262            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




      FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
      ROLES AND MISSION
      FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
      • policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
        classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
      • the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers.
      In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
        suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
      OVERSIGHT REPORTS
      Financial Stability Oversight Board, “Financial Stability Oversight Board Quarterly Report to Congress,” 3/31/2010, www.financialstability.gov/docs/
      FSOB/FINSOB%20Quarterly%20Report%20033110.pdf, accessed 6/21/2010.
      RECORDED TESTIMONY
      None


      SECURITIES AND EXCHANGE COMMISSION (SEC)
      ROLES AND MISSION
      SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
      While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
      actions to address the extraordinary challenges caused by the current credit crisis:
      • aggressively combating fraud and market manipulation through enforcement actions
      • taking swift action to stabilize financial markets
      • enhancing transparency in financial disclosure.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      SEC, “Testimony Before the Subcommittee on Financial Services and General Government Committee on Appropriations, U.S. House of Representatives,”
      Chairman Mary L. Schapiro, 3/17/2010, http://sec.gov/news/testimony/2010/ts031710mls.htm, accessed 6/22/2010.
      SEC, “Testimony Concerning the Lehman Brothers Examiner’s Report, Before the Financial Services Committee, U.S. House of Representatives,”
      Chairman Mary L. Schapiro, 4/20/2010, http://sec.gov/news/testimony/2010/ts042010mls.htm, accessed 6/22/2010.
      SEC, “Testimony before the Subcommittee on Financial Services and General Government, Committee on Appropriations, U.S. Senate,” Chairman Mary
      L. Schapiro, 4/28/2010, http://sec.gov/news/testimony/2010/ts042810mls.htm, accessed 6/22/2010.
      SEC, “Testimony Concerning the Severe Market Disruption on May 6, 2010, before the Financial Services Subcommittee on Capital Markets, Insurance
      and Government Sponsored Enterprises of the U.S. House of Representatives,” Chairman Mary L. Schapiro, 5/11/2010, http://sec.gov/news/
      testimony/2010/ts051110mls.htm, accessed 6/22/2010.
      SEC, “Examining the Causes and Lessons of the May 6th Market Plunge, before the Subcommittee on Securities, Insurance, and Investment of
      the United States Senate Committee on Banking, Housing, and Urban Affairs,” Chairman Mary L. Schapiro, 5/20/2010, http://sec.gov/news/
      testimony/2010/ts052010mls.htm, accessed 6/22/2010.
      SEC, “Testimony Concerning Accounting and Auditing Standards: Pending Proposals and Emerging Issues, Before the Subcommittee on Capital Markets,
      Insurance, and Government Sponsored Enterprises of the House Committee on Financial Services,” Chairman Mary L. Schapiro, 5/21/2010, http://sec.
      gov/news/testimony/2010/ts052110jlk.htm, accessed 6/22/2010.
                                                                              KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010         263




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
• evaluating the characteristics of asset purchases and the disposition of assets acquired
• assessing TARP’s efficiency in using the funds
• evaluating compliance with applicable laws and regulations
• assessing the efficiency of contracting procedures
• auditing TARP’s annual financial statements and internal controls
• submitting reports to Congress at least every 60 days
OVERSIGHT REPORTS
GAO, "U.S. Government Financial Statements, Fiscal Year 2009 Audit Highlights Financial Management Challenges and Unsustainable Long-Term Fiscal
Path," 4/14/2010, www.gao.gov/new.items/d10483t.pdf, accessed 6/22/2010.
GAO, "Troubled Asset Relief Program: Update of Government Assistance Provided to AIG," 4/27/2010, www.gao.gov/new.items/d10475.pdf, accessed
6/22/2010.
GAO, “Debt Management: Treasury Was Able to Fund Economic Stabilization and Recovery Expenditures in a Short Period of Time, but Debt Management
Challenges Remain,” 5/18/2010, www.gao.gov/new.items/d10498.pdf, accessed 6/22/2010.
GAO, “Troubled Asset Relief Program: Further Actions Needed to Fully and Equitably Implement Foreclosure Mitigation Programs,” 6/24/2010,
www.gao.gov/new.items/d10634.pdf, accessed 6/30/2010.
GAO, “Troubled Asset Relief Program: Treasury’s Framework for Deciding to Extend TARP Was Sufficient, but Could be Strengthened for Future
Decisions,” 6/30/2010, www.gao.gov/new.items/d10531.pdf, accessed 6/30/2010.
RECORDED TESTIMONY
GAO, “Financial Markets Regulation: Financial Crisis Highlights Need to Improve Oversight of Leverage at Financial Institutions and across System,”
Statement of Orice Williams Brown, Director Financial Markets and Community Investment, 5/6/2010, www.gao.gov/new.items/d10555t.pdf, accessed
6/22/2010.


Congressional oversight panel (cop)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
is required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
  markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximiza-
  tion of benefits for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effec-
  tiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improve-
  ment regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the
  regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “Evaluating Progress of TARP Foreclosure Mitigation Programs,” 4/14/2010, http://cop.senate.gov/reports/library/report-041410-cop.cfm,
accessed 6/22/2010.
COP, “The Small Business Credit Crunch and the Impact of the TARP,” 5/13/2010, http://cop.senate.gov/reports/library/report-051310-cop.cfm,
accessed 6/22/2010.
COP, “The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,” 6/10/2010, http://cop.senate.gov/reports/library/report-
061010-cop.cfm, accessed 6/22/2010.
RECORDED TESTIMONY
COP, “Phoenix Field Hearing on Small Business Lending,” 4/27/2010, http://cop.senate.gov/hearings/library/hearing-042710-phoenix.cfm,
accessed 6/22/2010.
COP, “Holding Banks Accountable: Are Treasury and Banks Doing Enough to Help Families Save Their Homes?” Statement of Richard H. Neiman,
Member, Congressional Oversight Panel, before the Senate Appropriations Subcommittee on Financial Services, 4/29/2010, http://cop.senate.gov/
documents/testimony-042910-neiman.pdf, accessed 6/22/2010.
264            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




      Congressional oversight panel (cop)
      COP, “TARP Oversight: An Update on Warrant Repurchases and Benefits to Taxpayers,” Statement of Paul Atkins, Member, Congressional Oversight
      Panel, before the House Financial Services Committee Subcommittee on Oversight and Investigations, 5/11/2010, http://cop.senate.gov/
      documents/testimony-051110-atkins.pdf, accessed 6/22/2010.
      COP, “Initiatives to Promote Small Business Lending, Jobs and Economic Growth,” Statement of Paul Atkins, Member, Congressional Oversight
      Panel, before the House Financial Services Committee, 5/18/2010, http://cop.senate.gov/documents/testimony-051810-atkins.pdf, accessed
      6/22/2010.
      COP, “COP Hearing on TARP and Other Assistance to AIG,” 5/26/2010, http://cop.senate.gov/hearings/library/hearing-052610-aig.cfm, accessed
      6/22/2010.
      COP, “COP Hearing with Treasury Secretary Timothy Geithner,” 6/22/2010, http://cop.senate.gov/hearings/library/hearing-062210-geithner.cfm,
      accessed 4/5/2010.


      OFFICE OF MANAGEMENT AND BUDGET (OMB)
      ROLES AND MISSION
      OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Ex-
      ecutive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and
      procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony,
      and proposed legislation are consistent with the President’s Budget and with Administration policies.

      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
      these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
      to reduce any unnecessary burdens on the public.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      None


      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION
      CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
      of programs covered by the Federal budget, and the information and estimates required for the Congressional budget process.

      CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
      CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
      OVERSIGHT REPORTS
      CBO, “The Budgetary Impact and Subsidy Costs of the Federal Reserve’s Actions During the Finance Crisis,” May 2010, http://cbo.gov/ftpdocs/115xx/
      doc11524/05-24-FederalReserve.pdf, accessed on 6/22/2010.
      RECORDED TESTIMONY
      None


      FEDERAL RESERVE BOARD (Federal Reserve)
      ROLES AND MISSION
      Federal Reserve’s duties fall into four general areas:
      • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
        prices, and moderate long-term interest rates
      • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
        credit rights of consumers
      • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
      • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
        the nation’s payments system
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010            265




FEDERAL RESERVE BOARD (Federal Reserve)
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
Federal Reserve, “Economic outlook,” Chairman Ben S. Bernanke, Before the Joint Economic Committee, Washington, D.C., 4/14/2010, http://
federalreserve.gov/newsevents/testimony/bernanke20100414a.htm, accessed 6/22/2010.
Federal Reserve, “Lessons from the failure of Lehman Brothers,” Chairman Ben S. Bernanke, Before the Committee on Financial Services, U.S. House of
Representatives, Washington, D.C., 4/20/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100420a.htm, accessed 6/22/2010.
Federal Reserve, “Government assistance to AIG,” Scott G. Alvarez, General Counsel, Before the Congressional Oversight Panel, U.S. Congress,
5/26/2010, http://federalreserve.gov/newsevents/testimony/alvarez20100526a.htm, accessed 6/22/2010.
Federal Reserve, “Economic and financial conditions and the federal budget,” Chairman Ben S. Bernanke, Before the Committee on Financial Services,
U.S. House of Representatives, Washington, D.C., 6/9/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100609a.htm, accessed
6/22/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
ROLES AND MISSION
The FDIC is an independent agency created by Congress to maintain stability and public confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions, and managing receiverships.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
FDIC, “Examining the Role of Regulators in the Supervision of Washington Mutual Bank 2004-2008,” Statement of Federal Deposit Insurance Corporation,
Before the Permanent Subcommittee on Investigations, Committee on Homeland Security and Governmental Affairs, U.S. Senate, 4/16/2010, http://
fdic.gov/news/news/speeches/chairman/spapr1610.html, accessed 6/22/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION office of the inspector general (FDIC OIG)
ROLES AND MISSION
The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
OVERSIGHT REPORTS
FDIC OIG, “Material Loss Review of Colonial Bank, Montgomery, Alabama,” 4/9/2010, www.fdicig.gov/reports10/10-031.pdf, accessed 07/09/2010.
RECORDED TESTIMONY
FDIC OIG, “Hearing on the Role of Regulators in Exercising Their Supervision of Washington Mutual Bank from 2004 - 2008,” Statement of John T. Rymer,
Inspector General, Federal Deposit Insurance Corporation, Before the Permanent Subcommittee on Investigations, Committee on Homeland Security and
Governmental Affairs, U.S. Senate, 4/16/2010, www.fdicoig.gov/Testimony/FDIC%20IG%20Statement-WaMu-4-16-10.pdf, accessed 6/22/2010.
266                Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




       SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
       ROLES AND MISSION
       Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
       the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”).

       SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
       coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
       OVERSIGHT REPORTS
       SIGTARP, Quarterly Report to Congress, 4/20/2010, http://sigtarp.gov/reports/congress/2010/April2010_Quarterly_Report_to_Congress.pdf,
       accessed 6/22/2010.
       SIGTARP, “Assessing Treasury’s Process to Sell Warrants Received From TARP Recipients,” 5/11/2010, http://sigtarp.gov/reports/audit/2010/
       Assessing%20Treasury’s%20Process%20to%20Sell%20Warrants%20Received%20From%20TARP%20Recipients_May_11_2010.pdf, accessed
       6/22/2010.
       SIGTARP, “Treasury’s Monitoring of Compliance with TARP Requirements by Companies Receiving Exceptional Assistance,” 6/29/2010, http://sigtarp.
       gov/reports/audit/2010/Treasury’s%20Monitoring%20of%20Compliance%20with%20TARP%20Requirements%20by%20Companies%20Receiving%20
       Exceptional%20Assistance%206_29_10.pdf, accessed 7/19/2010.
       RECORDED TESTIMONY
       SIGTARP, Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, Before the Senate Committee on Finance,
       4/20/2010, http://www.sigtarp.gov/reports/testimony/2010/Testimony%20Before%20the%20Senate%20Committee%20on%20Finance%204_20_10.
       pdf, accessed on 7/19/2010.
       SIGTARP, Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, Before the House Committee on Appropriations
       Subcommittee on Financial Services and General Government, 4/22/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20Before%20
       the%20House%20Committee%20on%20Appropriations%20Subcommittee%20on%20Financial%20Services%20and%20General%20Government_4_22_2-
       010.pdf, accessed on 6/22/2010.
       SIGTARP, Statement of Kevin R. Puvalowski, Deputy Special Inspector General for the Troubled Asset Relief Program, Before the Senate Committee on
       Appropriations Subcommittee on Financial Services and General Government , 4/29/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20
       Before%20the%20Senate%20Committee%20on%20Appropriations%20Subcommittee%20on%20Financial%20Services%20and%20General%20
       Government%204_29_10%20Final.pdf, accessed on 6/22/2010.
       SIGTARP, Statement of Kevin R. Puvalowski, Deputy Special Inspector General for the Troubled Asset Relief Program, Before the House Committee on
       Financial Services Subcommittee on Oversight and Investigations, 5/11/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20Before%20
       the%20House%20Committee%20on%20Financial%20Services%20Subcommittee%20on%20Oversight%20and%20Investigations%205_11_10%20.pdf,
       accessed on 6/22/2010.
      Note: Italics style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treas.gov, accessed 7/6/2010; Treasury Inspector General, www.treas.gov, accessed 7/6/2010; Financial Stability Oversight Board, www.treas.gov, accessed 7/6/2010; SEC,
      www.sec.gov, accessed 7/6/2010; GAO, www.gao.gov, accessed 7/6/2010; COP, www.cop.senate.gov, accessed 7/6/2010; OMB, www.whitehouse.gov, accessed 7/6/2010; CBO, www.cbo.gov,
      accessed 7/6/2010; Federal Reserve Board, www.federalreserve.gov, accessed 7/6/2010; FDIC, www.fdic.gov, accessed 7/6/2010; FDIC OIG, www.fdicoig.gov, accessed 7/6/2010; SIGTARP, www.
      sigtarp.gov, accessed 7/6/2010; FDIC, response to SIGTARP data call, 7/7/2010; GAO, Response to SIGTARP data call,7/7/2010, Treasury, Response to SIGTARP data call, 7/7/2010.	
      		
      		
      		
      		
                                                                                             correspondence I Appendix G I july 21, 2010   267




correspondence
This appendix provides a copy of the following correspondence:

 Correspondence
 Date          From             To                Regarding
                                Congressman       SIGTARP’s Review of Treasury’s Small Business Lending Fund
 5/17/2010     SIGTARP
                                Elijah Cummings   Act Proposal
                                                  Follow-up on SIGTARP April 2010 Quarterly Report
 5/20/2010     Treasury         SIGTARP
                                                  Recommendations on HAMP and CDCI
                                                  Follow-up on HAMP Recommendations in the SIGTARP Audit
 5/20/2010     Treasury         SIGTARP
                                                  Report
                                                  Follow-up on Warrant Disposition Recommendations in the
 6/11/2010     Treasury         SIGTARP
                                                  SIGTARP Audit Report
 6/29/2010     Treasury         SIGTARP           SIGTARP Official Draft Audit Report
                                                  Status Report on Recommendations in the SIGTARP Quarterly
 6/30/2010     Treasury         SIGTARP
                                                  Report
 7/1/2010      SIGTARP          Treasury          Treasury’s Compliance and Internal Controls Program for PPIP
 7/16/2010     Treasury         SIGTARP           Response to SIGTARP Quarterly Report to Congress
268   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   269
270   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   271
272   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   273
274   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   275
276   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   277
278   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   279
280   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   281
282   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   283
                                                                                                                                                                                                                                                        284



organizational chart
 ORGANIZATIONAL CHART


                                                                                                                             Special Inspector General
                                                                                                                                   Neil Barofsky


                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                     Kevin Puvalowski

                                                                       Chief of Staff                                                                           Senior Policy Advisor                               Chief Counsel
                                                                     Christy Romero                                                                                 Timothy Lee                                    Bryan Saddler
                                                                                                                                                                                                                                                        Appendix H I organizational chart I july 21, 2010




                                                                       Deputy Chief                                                                                                                    Communications              Director of
                                                                         of Staff                                                                                                                         Director             Congressional Affairs
                                                                                                                                                                                                        Kristine Belisle           Lori Hayman
                                                                        Cathy Alix




                          Deputy SIG–                                                                          Deputy SIG–                                                                         Deputy SIG–
                         Investigations                                                                           Audit                                                                            Operations
                         Chris Sharpley                                                                          Kurt Hyde                                                                       Dr. Eileen Ennis




  Chief Investigative      Special Agent          Desk Officer -- SSA                                       Acting Assistant
                                                                                                                                                                Principal ADSIG          ADSIG -- HR            ADSIG -- CIO            ADSIG -- CFO
       Counsel               in Charge                                                                      Deputy SIG–Audit
                                                       Paul Conlon
                                                                                                               Clayton Boyce                                     Lynn Perkoski          Deborah Mason            AJ Germek             Deborah Mathis
   Richard Rosenfeld        Scott Rebein

                                                  Hotline Supervisor
   Attorney Advisors       Investigators
                                                      Minh-Tu Nguyen


                                                         Analysts                       Director    Director                   Director            Director
                                                                                 Anne Keenaghan    Mark Little               Jim Shafer          Brenda James


                                                                                        Auditors    Auditors                   Auditors             Auditors



Note: SIGTARP organizational chart as of 7/15/2010.
                        SIGTARP: Quarterly Report to Congress | July 21, 2010
                                                                                                           CT
                                                                                                      INSPE OR GE
                                                                                               AL                        N
                                                                                             CI




                                                                                                                         ER
                                                                                        E
                                                                                       SP




                                                                                                                            A L
                                                                                      TRO




                                                                                                                              M
                                                                                                                              RA
                                                                                       UB
                                                                                            LE




                                                                                                                         OG
                                                                                                 D
                                                                                                     ASS                 PR
                                                                                                           E T R ELIEF




SIGTARP
SIG-QR-10-03
                         Q3
                        2010
                                                                                SIGTARP                                            Office of the Special Inspector General
                                                                                                                                   for the Troubled Asset Relief Program
                                                                                Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                               Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                July 21, 2010
www.SIGTARP.gov
